<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-201]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 110-201, Pt. 7
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1547

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2008 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               ----------                              

                                 PART 7

                            STRATEGIC FORCES

                               ----------                              

                  MARCH 28; APRIL 11, 19; MAY 2, 2007


         Printed for the use of the Committee on Armed Services
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                     2008--Part 7  STRATEGIC FORCES

                                                  S. Hrg. 110-201 Pt. 7

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1547

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2008 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 7

                            STRATEGIC FORCES

                               __________

                  MARCH 28; APRIL 11, 19, MAY 2, 2007


         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
39-441 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  


                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
EVAN BAYH, Indiana                   LINDSEY O. GRAHAM, South Carolina
HILLARY RODHAM CLINTON, New York     ELIZABETH DOLE, North Carolina
MARK L. PRYOR, Arkansas              JOHN CORNYN, Texas
JIM WEBB, Virginia                   JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           MEL MARTINEZ, Florida

                   Richard D. DeBobes, Staff Director

             Michael V. Kostiw, Replublican Staff Director

                                 ______

                    Subcommittee on Strategic Forces

                     BILL NELSON, Florida, Chairman

ROBERT C. BYRD, West Virginia        JEFF SESSIONS, Alabama
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
E. BENJAMIN NELSON, Nebraska         LINDSEY O. GRAHAM, South Carolina
MARK L. PRYOR, Arkansas              JOHN THUNE, South Dakota

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
                       Strategic Forces Programs
                             march 28, 2007

                                                                   Page
Cartwright, Gen. James E., USMC, Commander, U.S. Strategic 
  Command........................................................     5
D'Agostino, Hon. Thomas P., Acting Administrator, National 
  Nuclear Security Administration, Department of Energy..........    38
Burg, Maj. Gen. Roger, USAF, Director of Strategic Security in 
  the Air, Space, and Information Operations, Headquarters, 
  United States Air Force........................................    53
Johnson, RADM Stephen E., USN, Director, Strategic Systems 
  Programs, Naval Systems Command................................    57
Green, Brian R., Deputy Assistant Secretary of Defense for 
  Strategic Capabilities, Department of Defense..................    59

                   Ballistic Missile Defense Programs
                             april 11, 2007

Obering, Lt. Gen. Henry A., III, USAF, Director, Missile Defense 
  Agency.........................................................    91
Campbell, LTG Kevin T., USA, Commanding General, U.S. Army Space 
  and Missile Defense Command/U.S. Army Forces Strategic Command 
  and Joint Functional Component Command for Integrated Missile 
  Defense........................................................   103
McQueary, Dr. Charles E., Director, Operational Test and 
  Evaluation, Office of the Secretary of Defense, Department of 
  Defense........................................................   110
Francis, Paul, Director, Acquisition and Sourcing Management, 
  United States Government Accountability Office.................   113
Green, Brian R., Deputy Assistant Secretary of Defense for 
  Strategic Capabilities, Office of the Under Secretary of 
  Defense for Policy Before the Subcommittee on Strategic Forces, 
  Department of Defense..........................................   122

                        Military Space Programs
                             april 19, 2007

Sega, Hon. Ronald M., Under Secretary of the Air Force...........   176
Chilton, Gen. Kevin P., USAF, Commander, Air Force Space Command.   184
Shelton, Maj. Gen. William L., USAF, Commander, Joint Functional 
  Component Command for Space, United States Strategic Command...   196
McArthur, VADM James D., Jr., USN, Commander, Naval Network 
  Warfare Command................................................   198
Chaplain, Cristina T., Director, Acquisition and Sourcing 
  Management, Government Accountability Office...................   201

          Department of Energy Atomic Energy Defense Programs
                              may 2, 2007

Rispoli, Hon. James A., Assistant Secretary of Energy for 
  Environmental Management.......................................   257
Podonsky, Glenn S., Chief Health, Safety, and Security Officer, 
  Department of Energy...........................................   281

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

                              ----------                              


                       WEDNESDAY, MARCH 28, 2007

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

                       STRATEGIC FORCES PROGRAMS

    The subcommittee met, pursuant to notice, at 9:37 a.m. in 
room SR-232A, Russell Senate Office Building, Senator Bill 
Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators Bill Nelson, Reed, E. 
Benjamin Nelson, Sessions, and Thune.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Richard W. Fieldhouse, professional staff member; 
Creighton Greene, professional staff member; and Thomas K. 
McConnell, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; Gregory T. Kiley, professional staff 
member; Jill L. Simodejka, research assistant; Robert M. 
Soofer, professional staff member; and Kristina L. Svinicki, 
professional staff member.
    Staff assistants present: Kevin A. Cronin and Jessica L. 
Kingston.
    Committee members' assistants present: Christopher Caple, 
assistant to Senator Bill Nelson; Eric Pierce, assistant to 
Senator Ben Nelson; and M. Bradford Foley, assistant to Senator 
Pryor.

       OPENING STATEMENT OF SENATOR BILL NELSON, CHAIRMAN

    Senator Bill Nelson. Good morning, everybody. The group in 
the back is a school from Cape Coral, FL, who I have just 
visited with. I have invited them for the few minutes that they 
have to come in and see what this is like up here in 
Washington, DC. We are going to be getting into some pretty 
heavy stuff this morning. You students, I want you to know that 
we have--look at all the stars on his shoulders. This is 
General Cartwright and he is the head of the Strategic Command 
and he is going to be the first witness. He is going to present 
an overview of the Strategic Command and the challenges that it 
faces.
    Then on the second panel we are going to discuss various 
strategic programs. We are going to hear from Tom D'Agostino, 
Acting Deputy Administrator of the National Nuclear Security 
Administration (NNSA), and Major General Burg, Director of 
Strategic Security in the Air, Space, and Information 
Operations. We are going to hear from Rear Admiral Johnson, 
Director of the Strategic Systems Programs in the Navy, and 
Brian Green, Deputy Assistant Secretary of Defense for 
Strategic Capabilities.
    Our hearing is going to be complicated because they are 
going to call a vote at 11 o'clock. So we are going to just go 
as much as we can and then we will have to adjourn and go vote.
    We want to have a discussion today about the Reliable 
Replacement Warhead (RRW), bombers, land-based Intercontinental 
Ballistic Missiles (ICBMs), prompt global strike, and future 
nuclear weapons stockpiles. All of the witnesses have submitted 
written testimony and so what we want to do is have a 
conversation. The written testimony will be entered in the 
record and made a part of the record, and so we want to have a 
conversation interspersed by lots of questions.
    [The prepared statement of Senator Bill Nelson follows:]

               Prepared Statement by Senator Bill Nelson

    Good morning. Welcome General Cartwright. It is a pleasure to have 
you with us on the first panel of our strategic programs hearing. We 
will have two panels today. During the first panel we will hear from 
General James Cartwright, the Commander of the Strategic Command. 
General Cartwright will present an overview of the Strategic Command 
and the challenges that it faces.
    The witnesses on the second panel will discuss the various 
strategic programs under the subcommittee's jurisdiction. On the second 
panel, we will hear from Tom D'Agostino, the Acting Deputy 
Administrator of the National Nuclear Security Administration (NNSA); 
Lieutenant General Carrol Chandler, Deputy Chief of Staff, Air Force 
Operations, Plans and Requirements; Rear Admiral Stephen Johnson, 
Director Strategic Systems Programs, Naval Sea Systems Command; and 
Brian Green, Deputy Assistant Secretary of Defense for Strategic 
Capabilities in the Office of the Under Secretary of Defense for 
Policy.
    In the event that it is necessary, we have made provision for a 
closed session following the second panel, in room SR-222.
    We look forward to a good discussion today on a wide range of 
topics including the Reliable Replacement Warhead, bomber aircraft, 
particularly the B-52, the land-based ICBMs, prompt global strike, and 
the future nuclear weapons complex.
    All of you who have submitted written statements, these statements 
will be included in the record. Also, we will keep the record open for 
3 days for members to submit questions for the record. We would 
appreciate it if each witness could promptly answer these questions. 
Thank you.
    Again, welcome.

    Senator Bill Nelson. Senator Sessions.

               STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. Thank you, Mr. Chairman. I enjoyed our 
time on this committee together when I was fortunate to be 
chairman. You were a tremendous ranking member who contributed 
so much and I enjoy working with you a great deal, and I look 
forward to trying to be as helpful to you as you have been to 
me.
    This hearing is an opportunity to stress the progress our 
Nation has made toward adapting our strategic forces and 
deterrence doctrine to a new security environment characterized 
by unpredictable threats posed by terrorist groups and rogue 
nations armed with weapons of mass destruction (WMD). While 
much of the public debate on strategic forces seems to focus on 
the role of nuclear weapons and the size of our nuclear 
arsenal, I believe we need to look also at the broader question 
of whether our Nation is acquiring all the types of strategic 
forces necessary to deal with today's new and various threats.
    The 2001 Nuclear Posture Review (NPR) called on the United 
States to reduce reliance on nuclear weapons while placing 
greater emphasis on advanced conventional weapons and defenses 
to deter and defend against new threats to our security. 
Consistent with this, President Bush announced in 2001 that the 
United States is ``committed to achieving a credible deterrent 
with the lowest possible number of nuclear weapons consistent 
with our national security needs, including our obligations to 
our allies.''
    Under the NPR framework, we have begun the drawdown of our 
nuclear forces to what will be in 2012 the lowest level since 
the dawn of the nuclear age and have begun to provide limited 
protection for our Nation and forces against ballistic missiles 
of all ranges.
    So if we agree as a Nation, as I believe we do, that we 
will continue to rely on some number of nuclear weapons for our 
strategic posture, then we must also examine seriously the need 
to make sure those weapons are safe and reliable.
    Finally, if we are truly committed to reducing our nuclear 
weapons then we must reach agreement on prompt long-range 
conventional strike weapons capable of thwarting the most 
dangerous threats to our security.
    I will ask, Mr. Chairman, that the balance of my remarks be 
made a part of the record and I look forward to hearing from 
our witnesses.
    [The prepared statement of Senator Sessions follows:]

              Prepared Statement by Senator Jeff Sessions

    We meet today to receive testimony from two panels on strategic 
forces programs in review of the National Defense Authorization Request 
for Fiscal Year 2008 and the Future Years Defense Program. For the 
first panel, we welcome General James Cartwright, who as Commander of 
U.S. Strategic Command, is responsible for tailoring U.S. strategic 
forces and policy to the new, post Cold War security environment. The 
second panel will provide an opportunity to delve more deeply into the 
various service plans and programs for strategic forces as well as 
examine plans for revitalizing our nuclear infrastructure. Witnesses on 
the second panel include: Major General Roger Burg, USAF; Rear Admiral 
Stephen Johnson, USN; the Honorable Thomas D'Agostino, Acting 
Administrator of the National Nuclear Security Administration; and 
Brian Green, Deputy Assistant Secretary of Defense for Strategic 
Capabilities.
    This hearing is an opportunity to assess the progress our Nation 
has made toward adapting our strategic forces and deterrence doctrine 
to a new security environment characterized by unpredictable and 
perhaps undeterrable threats posed by terrorist groups and rogue 
nations. While much of the public debate thus far seems to focus on the 
role of nuclear weapons and the size of our nuclear arsenal, I believe 
the focus should be on whether our Nation is building the types of 
strategic forces necessary to deal with today's new threats.
    The 2001 Nuclear Posture Review (NPR) established a conceptual 
framework for thinking about deterrence in this new strategic age, and 
serves as a useful guide for understanding the relationship between 
offensive and defensive strategic forces, as well as the relationship 
between nuclear and conventional weapons--all of which must play a role 
in deterring strategic attacks against the United States, its forces, 
and its friends and allies.
    The NPR calls on the United States to reduce reliance on nuclear 
weapons while placing greater emphasis on advanced conventional weapons 
and defenses to deter and defend against new threats to our security. 
Consistent with this reduced reliance on nuclear weapons, President 
Bush announced in 2001 that the United States is ``committed to 
achieving a credible deterrent with the lowest possible number of 
nuclear weapons consistent with our national security needs, including 
our obligations to our allies.''
    How well have we done in drawing down our nuclear forces while 
simultaneously improving our conventional strike capabilities, fielding 
missile defenses, and securing a responsive nuclear infrastructure that 
hedges against future changes? That, I believe, is the central question 
before us. My initial assessment is mixed.
    With respect to the nuclear drawdown, we appear to be well on the 
way toward meeting our commitment under the Moscow Treaty to reduce 
operationally-deployed warheads to between 1,700 and 2,200, which will 
be the lowest level of nuclear weapons deployed by the United States 
since the Eisenhower administration. By the end of 2007, we will meet 
an interim reduction milestone of 3,800 deployed warheads. In addition, 
the U.S. has decommissioned all 50 Peacekeeper ICBMs, and has removed 4 
ballistic missile submarines from strategic service--a further 
reduction of 96 missile launchers from the strategic force. The United 
States has permanently denuclearized the B-1 bomber force and the 
administration recommends a reduction in the size of the B-52 force 
from 94 aircraft to 56, a reduction in the Minuteman ICBM force from 
500 to 450, and the retirement of 460 nuclear armed Advanced Cruise 
Missiles.
    While the nuclear-drawdown appears to be proceeding in good order, 
the same cannot be said about the fielding of the advanced conventional 
strike capabilities necessary to reduce reliance on nuclear strike 
forces. The Department of Defense has made progress in developing and 
fielding short-range precision guided conventional munitions, but such 
forces may not be in position to interdict fleeting targets, such as 
mobile ballistic missile launchers or high-value terrorist targets, 
that could inflict strategic blows against the United States and its 
interests. We lack today the capability to deliver prompt, conventional 
strikes against these targets at extremely long ranges. The development 
of this capability, sometimes referred to as ``prompt global strike,'' 
has lagged due to a lack of consensus between Congress and the 
administration on how best to proceed. I plan to make it a priority 
this year to find a path that will permit the Department of Defense to 
develop and field this important new strategic capability before the 
end of the decade.
    Perhaps the most impressive change in our strategic posture since 
the NPR lies in the area of missile defense. In 2001, we could count 
only upon our Patriot batteries to provide limited missile defense 
protection against short range ballistic missiles. Today, we have over 
a dozen ground-based interceptors deployed for the defense of the 
United States against long-range North Korean ballistic missiles; a 
similar number of SM-3 missiles are available for deployment on some 
seven Aegis BMD ships to defend against short- to medium-range 
ballistic missiles; and the Army deploys hundreds of improved Patriot 
PAC-3 missiles to defend our forces against short-range threats. 
Supporting these interceptors is a global system of upgraded early 
warning and tracking radars and the command and control system 
necessary to link together these multiple sensors and interceptors. In 
just a few short years, our missile defense capabilities have moved 
from purely research and development to operational fielding, such that 
we were prepared to defend our Nation and our regional allies should it 
have been necessary during the July 2006 North Korean ballistic missile 
tests.
    The NPR also called for a threat and capabilities-based approach in 
the area of nuclear weapons. Specifically, the NPR called for a 
transition from a nuclear stockpile with large numbers of deployed 
warheads to a smaller stockpile augmented with a responsive 
infrastructure which would be capable of responding to emerging threats 
and to changes in the global security environment. This smaller 
stockpile eventually was targeted at 1,700 to 2,200 weapons by 2012. It 
is important to remember, however, that the development of a responsive 
infrastructure was intended to be an essential precursor to these 
reductions, to provide the confidence that pursuing these reductions 
would not harm our security posture, no matter what possible futures 
lay ahead.
    The subcommittee is interested to learn what progress is being made 
in developing this responsive infrastructure over the past 5 years, 
since the NPR. When I became the chairman of this subcommittee 2 years 
ago, a ``responsive infrastructure'' was defined in terms of meeting 
key performance metrics for the Department of Defense, such as the 
ability to design, develop, and field new capabilities within a certain 
number of months, or to resolve technical issues regarding the 
stockpile in a timely manner. I would note that the most recent 
``Stockpile Stewardship Plan Overview'' (November 2006) includes 
guidelines for responsive infrastructure such as the following: 
``support the current stockpile''; ``execute the Reliable Replacement 
Warhead program''; and ``provide opportunities for a smaller 
stockpile.''
    While I don't criticize the desirability of these ``guidelines,'' I 
believe that we need to continue to drive improvements in the execution 
of the nuclear weapons program through a set of measurable performance 
goals--agreed upon between the Secretaries of Energy and Defense. The 
program should also have defined goals for budget and schedule 
performance. It has been 5 years since the NPR called for a responsive 
infrastructure. Only in the past year did the Department of Energy 
embark upon an analysis of alternatives for what is now called 
``complex transformation''. I hope to explore why it has taken 5 years 
to get to this point; what performance objectives are we laying out in 
order to judge the various alternatives; and, what cost objectives 
might be appropriate in order to make this nuclear enterprise run more 
like a business.
    I conclude by welcoming the call by many of my colleagues in 
Congress for a debate concerning the future role of nuclear weapons. 
But I would also remind my colleagues, and the public, that for over 5 
years now, we have been operating under a new strategic framework that 
seeks to adapt our strategic capabilities and deterrence doctrine to 
address the most pressing new threats of our time: terrorists and rogue 
nations armed with weapons of mass destruction. Under that framework, 
we have begun the drawdown of our nuclear forces to the lowest levels 
since the dawn of the nuclear age, and have begun to provide limited 
protection for our Nation and forces against ballistic missiles of all 
ranges. If we agree as a Nation--as I believe we do--that we will 
continue to rely on some number of nuclear weapons for our security, 
then we must also examine seriously the need to make sure those weapons 
are safe and reliable. Finally, if we are truly committed to reducing 
our reliance on nuclear weapons, then we must reach agreement on 
alternative long-range conventional strike weapons capable of thwarting 
the most dangerous threats to our security.

    Senator Bill Nelson. General Cartwright, now we are going 
to treat this as a conversation, so you just start off, but we 
are going to interrupt and ask questions. Thank you for your 
service to our country. Thank you for the leadership that you 
are giving. You are doing an outstanding job and that is well-
noticed and we appreciate that.
    Senator Sessions. I agree.

 STATEMENT OF GEN. JAMES E. CARTWRIGHT, USMC, COMMANDER, U.S. 
                       STRATEGIC COMMAND

    General Cartwright. Mr. Chairman, I would like to make this 
a conversation. I will just take a very few minutes at the 
front end to set the context for the conversation, but there is 
no way that my remarks will cover all the mission space, and I 
would rather have you take me where you want to go and then we 
can discuss it.
    But at the front end, as Senator Sessions alluded to in his 
remarks, the change in the strategy to acknowledge the fact 
that the threat has proliferated, that it is a very different 
character than what we faced in the Cold War, and that it is 
advantaged by the information age. The access to technology, 
the access to information, has proliferated. We are dealing 
with nation states that we can consider peers, we are dealing 
with what has been termed rogue nation states. We have 
extremist groups and we have terrorists.
    When you look across that spread of threat, we have to have 
a different strategy to deter that wide range of threat. The 
intent was to build a tailored strategy, to have a balance 
between offense and defense that would allow regional combatant 
commanders the flexibility to apply the appropriate deterrence 
in a credible way to each of the nations in their area, each of 
the threats and challenges that they face.
    As was stated by Senator Sessions, in the 2001-2002 
timeframe we entered into an agreement with the Russians to 
start to drastically reduce our nuclear stockpile and to start 
to move away from mutual assured destruction as the singular 
strategy that we were pursuing. 2007 is the halfway point for 
both us and the Russians. There were goals set for the halfway 
point. We have compared notes. We are both on track, ahead of 
schedule, and moving towards that 2012 target.
    Part of what 2007 was to do for the United States was to 
review the emergence of the other capabilities that would 
replace mutual assured destruction in the nuclear stockpile as 
we understood it. The key is understanding that our intent is 
to move to the smallest number of nuclear weapons necessary to 
ensure national security.
    The emergence of missile defense over the past year, 
particularly in light of the testing that occurred from North 
Korea on the 4th of July, has lent to ballistic missile defense 
a credibility and a capability that has been demonstrated now, 
that is having an effect globally. We are starting to be able 
to devalue things like short, medium-range and ICBMs in a way 
that we were not able to do in the past. You can see that in 
the embracing that is going on with our Japanese partners, with 
our South Korean partners in that theater, the things that are 
happening in Europe and the Middle East, and the partnerships 
that are beginning to develop around this collective defense 
capability against what is emerging as a key threat, which are 
the ballistic missiles.
    So to me that piece has started to mature at a rate that is 
commensurate with the drawdown of the nuclear weapons that we 
have experienced between 2001 and 2007.
    In addition, we talked about offensive capabilities. On the 
general purpose force side of the equation, the emergence of 
the J-coded weapons, the global positioning system (GPS)-guided 
gravity bombs, the new cruise missiles that have been fielded 
both from the Navy and from the Air Force, air and sea, have 
given us a capability that we did not have before. It has 
changed how we are using the force. Regional combatant 
commanders are today using bombers to do close air support, and 
do it credibly, in a way that we never would have imagined that 
those vehicles could be used, lending a new value to their 
capability.
    Many of the targets that we have held at risk with only 
nuclear weapons in the past we can now credibly hold at risk 
with conventional weapons. The one piece that is still an 
outlier for us and a challenge is prompt global strike weapons. 
The alternative conventional capability when nuclear is 
inappropriate or we have at least a choice between nuclear and 
conventional alternatives, and we can talk more about that.
    Senator Bill Nelson. General, go back on that statement 
just before. Give me an example of what can you do now with a 
conventional weapon that you used to have to do with a nuclear 
weapon?
    General Cartwright. We used cruise missile-delivered 
nuclear weapons to hold at risk integrated air defenses 
targets/weapons. We really do not need to do that with nuclear 
weapons any more. The conventional cruise missiles that we have 
are survivable, they are precise. They can address these 
targets. So we have been able to offload some of those targets, 
and that has allowed us to stay on track in the reduction of 
operationally-deployed nuclear weapons.
    Senator Bill Nelson. Give us an example of those targets.
    General Cartwright. Integrated air defenses? In the case of 
Russia, they have those along the coastlines. They are used to 
defend the country against penetrating bombers or other 
airborne type targets. Other countries have the same 
capabilities, whether they be large countries like China or the 
rogues like North Korea or Iran.
    So integrated air defenses have now a conventional way we 
would go at them, that renders the use of a nuclear weapon 
against that target as possible, but we have a choice. It may 
be that you do not want to use a nuclear weapon in that case. 
It may be proximity to a border of a friendly nation. It could 
be just the inappropriateness, of wanting to control escalation 
driving it down rather than up. Any of those are reasons why a 
conventional warhead may be preferred in the strategy over a 
nuclear warhead.
    Senator Bill Nelson. You were starting with the RRW.
    General Cartwright. RRW. For us the nuclear strategy is not 
zero today. It is the least number necessary to ensure national 
security. If we are to have these weapons, the attributes that 
I would like to have on those weapons is that they be the 
safest they can be for the people who must handle them, both in 
the Department of Defense (DOD) and in the manufacturing of 
these weapons--the maintenance and upgrades, reviews, life 
cycle type activities.
    You also want to ensure that they are the most secure that 
they can be. In the 1950s, 1960s, and 1970s, we put these 
weapons together without the technologies that we have today 
for safety and security. We have learned a lot. We use this 
example of the 1966 Mustang. Sure, I would like to have it, but 
I am not sure I want to give it to my teenager or grandson 
without disc brakes, seat belts, air bags, et cetera.
    We have the technologies today readily available to make 
these safe and secure. The third attribute that we generally 
talk about in the RRW is reliability. The more reliable, the 
lower the number against any given target that we have to send 
to that target, number of times we have to revisit that target 
with either a manned or an unmanned presence. That helps us 
draw that stockpile down.
    But I think the fourth piece here that is often missed is 
that the RRW offers the opportunity to completely change the 
way we manage operational and technical risk. By having this 
warhead, we have the opportunity to move into the manufacturing 
processes that we have today versus the ones that we had in the 
1960s. In the 1960s we managed operational and technical 
surprise with inventory. We built more and more different kinds 
in order to ensure that if we needed it and we found a genetic 
flaw or something started to appear as a misoperating part in 
the complex, that we would just substitute another class of 
warhead.
    That led us to very large numbers of weapons in the active 
stockpile, but also, not addressed in the treaty, in the 
inactive stockpile. RRW allows us to move to component 
commonality, not to manage end items, but to manage it at the 
component level. We introduce technologies and diversity into 
the stockpile that allows us to drastically reduce the number 
of operationally deployed and inactive warheads. That probably 
will be the single greatest factor in reducing the number of 
these weapons that we have in our inventory. That attribute in 
and of itself is something worthy to consider for the 
committee.
    Senator Sessions. What was the first point you made on 
reliable?
    General Cartwright. Safe. We want to introduce those types 
of attributes, particularly in the package itself.
    Senator Sessions. I was thinking there was something before 
that.
    General Cartwright. Particularly in the package itself, 
using components that are safe to handle and if they are 
intruded upon are safe. The Navy has moved to this type of 
activity over the years. The Air Force is moving. Why not 
introduce it into the whole stockpile? We have ways of making 
these explosives safe.
    Senator Bill Nelson. By the way, I want to mention to you 
and Ben, we are going to try to put together a committee trip 
to the three labs. A good time for me is right after the 4th of 
July, when we are still in that break, July the 5th; go to 
Lawrence Livermore and then to Sandia and then to Los Alamos, 
where then we will get briefed on specifically what the General 
is talking about and where you can see it for yourself.
    Tell us, General, now, you have made a good case. Why are 
the Russians not going to think what we are doing is building 
more and powerful and therefore lessen their incentive to 
reduce?
    General Cartwright. One, we have publicly made the 
information available so that they can see what we are doing, 
and I have talks military-to-military to reinforce that 
activity. Two, we are not changing any of the delivery 
vehicles. We call this form-fit-function. It has to go into the 
same slot that it came out of, talking to the RRW. No new 
delivery vehicles, actually a great reduction in the number of 
delivery vehicles necessary for the stockpile.
    That has been relatively transparent. Too, we are really 
trying to follow the lowest risk pathway here. So one of the 
prerequisites is that we will do this without testing. So what 
we are doing has a legacy in the former test program, but it 
also has the characteristics in volume. The laws of physics are 
going to stay relatively constant for us. They understand the 
volumes we are dealing with, they understand the delivery 
vehicles. This is all stuff that we have verified in treaties 
in the past. They have a good understanding and we have a good 
understanding of each other's capabilities.
    I do not think that the issue of whether or not the physics 
package is distinctly different, is a wide variation on what we 
did, has really been an issue. We have made that transparent. 
We have done it both openly in the exchanges and privately in 
our military-to-military discussions.
    Senator Sessions. They are modernizing theirs already, 
regardless of what we do; is that not correct?
    General Cartwright. Yes, sir. They are more focused on the 
delivery platforms and how they are modernizing their delivery 
platforms. But they are working on their weapons.
    Senator Sessions. On the question of the NPR, it talked 
about responsiveness, responsive nuclear infrastructure. What 
does that mean, that we want to have a responsive nuclear 
infrastructure, and how does that affect what you are doing?
    General Cartwright. For me there are a couple of components 
here. We talked about modularity so that the infrastructure can 
produce just what it is as a module rather than an entire end 
item to solve the problem. That is point one. Point two is that 
it is an infrastructure--we learned this with the J-coded 
weapons on the conventional side, including artillery shells. 
If we could get to precision, if we could start to build these 
with a warm production line rather than building 100,000 of 
them, shutting down the factory, sending everybody home, then 
when it was time to build the next generation discarding all 
that we had and starting all over again with an infrastructure 
that was not warm, we had lost the intellectual capital and the 
manufacturing capabilities to do that.
    So what we are looking for is a warm industrial capability, 
one that takes advantage of the best practices in the civilian 
sector, one that acknowledges the fact that we are dealing with 
something that is very dangerous here. But if we keep those 
people trained and if we keep the production activity 
responsive, so that we are not doing it with inventory, we are 
doing it with the manufacturing capability to the best extent 
possible, then that becomes a responsive infrastructure.
    I think if you take the trip one of the first things that 
you will see is the attitude of the people. If you were there a 
year or 2 in the past versus what you would see today or in the 
near future, I think that Tom D'Agostino would tell you and I 
certainly will tell you as I go visit those labs, the attitude 
of those people see it and understand how to bring modern 
technology to their job, the security and the safety that that 
provides them, the environmental responsibility that is 
associated with it, you would see a very different attitude in 
those labs.
    [The prepared statement of General Cartwright follows:]

          Prepared Statement by Gen. James E. Cartwright, USMC

    Mr. Chairman and members of the subcommittee: This is my third 
opportunity to appear before you as Commander of United States 
Strategic Command. As such, let me first thank you for the time, 
attentiveness, and professionalism of your staffs as we have worked 
through some of the difficult challenges we face. The men and women of 
Strategic Command have performed superbly over the last year, 
demonstrating honor and dedication through long hours and deployments. 
We continued to transform our organization and capabilities over the 
past year, to better deal with traditional, irregular, catastrophic, 
and disruptive contingencies. As the national security environment 
continues to shift, we see other challenges on the horizon. We seek to 
adapt to the shifting national security environment by refining and 
fielding a ``New Triad'' of capabilities. Today I will outline how we 
intend to address the challenges we face and ask for your assistance.

                       CONTINUING TRANSFORMATION

    When we met a year ago, we talked of progress toward transforming 
Strategic Command in the midst of conflict. We spoke of new 
functionally aligned organizations designed to improve our operational 
speed and progress toward a New Triad of capabilities. Finally, we 
attached particular importance to the threat posed by non-state actors, 
the need to tailor deterrence and focus on effects rather than kinetic 
solutions.
    One year later, our functional components for intelligence, 
surveillance and reconnaissance (ISR), network warfare, global network 
operations, information operations, integrated missile defense and 
combating weapons of mass destruction (WMD) are each at or nearing full 
operational capability. In light of disturbing trends in the space 
domain, we further refined our components by splitting Joint Functional 
Component Command--Space and Global Strike into two individual 
components, focusing on global strike and integration, and space 
operations. These functional components are also progressing rapidly 
and producing significantly enhanced operational results. This year the 
Joint Information Operations Warfare Command completed the stand up of 
four joint centers to facilitate the planning and execution of 
Information Operations. The Joint OPSEC Support Center, Joint Mission 
Support Center, Joint Electronic Warfare Center and Joint Strategic 
Communications Support Center were established to improve Information 
Operations throughout the combatant commands. We made progress in 
restructuring our legacy nuclear deterrent force in compliance with the 
Moscow Treaty. On the less positive side, we have debated, but made 
little gain in, filling a gap in our prompt global strike capability.
confronting traditional, irregular, catastrophic and disruptive threats
    The 21st century opened with a violent attack on American soil 
reminiscent of our experience more than six decades ago at Pearl 
Harbor. Unlike Pearl Harbor, the attack of 2001 was unique in one 
important way; military combatants were not involved. Civilians and the 
image of America were the targets of calculating and fanatical 
terrorists. Unlike the past, attribution for this attack would not be 
credited to a single state or alliance of states. Rather, it would be 
attributed to non-state actors who were empowered by their ability to 
operate and leverage technology in a flattened world and were not 
deterred by the military tools with which we deterred others for the 
last 50 years.
    As a world power, America's conventional and nuclear military 
capabilities remain second-to-none in deterring traditional threats, 
but our adversaries are predictably positioning themselves to avoid our 
strengths and exploit our vulnerabilities. Moreover, we live in a world 
in which traditional nation-states and alliances are asymmetrically 
challenged by adversaries who are unconstrained by geographic 
boundaries or internationally shared societal and legal norms.
    We are therefore preparing for immediate, potential and unexpected 
contingencies driven by these diverse adversaries who threaten America 
and its deployed forces, friends, and allies. These adversaries are 
pursuing the means for sudden and catastrophic strikes using WMD-armed 
ballistic missiles, or with little or no warning using WMD delivered by 
irregular means. They can also execute disruptive attacks in 
milliseconds using readily available, web-enabled communications and 
technologies from computers located anywhere on the globe.

                  SHIFTING NATIONAL SECURITY CHALLENGE

    While we continue to focus on the need to deter non-state actors 
through effects-based operations and remain vigilant with regard to 
those nations that possess large inventories of nuclear weapons, recent 
events in Iran, Lebanon, North Korea, and China, if unchecked, 
foreshadow future critical challenges.
    Daily cyberspace intrusions into civil, military, and commercially 
networked systems; the nuclear aspirations of Iran and North Korea, in 
open disregard of broad international opinion; the firing of rockets 
and cruise missiles from Lebanon and Gaza into Israel by Hezbollah and 
Hamas; the unannounced and irresponsible launch of North Korean 
missiles in the vicinity of Japan; and China's controversial launch of 
an anti-satellite missile, which has subsequently endangered routine 
use of space, demonstrate the range of challenges facing America.
    Today, we live in an Information Age where communication through 
cyberspace has forever changed and flattened our world. Free and open 
use of cyberspace has become an essential tool of the global economy 
and connects people throughout the world to each other. In fact, most 
Americans can no longer imagine a world without instant communications 
and the freedom to access goods, services, and information at will. 
However, not unlike the targets of pirates or train robbers of the 
past, America is under widespread attack in cyberspace. Our freedom to 
use cyberspace is threatened by the actions of criminals, terrorists, 
and nations alike. Each seeks their own form of unique advantage, be it 
financial, political, or military, but together they threaten our 
freedom to embrace the opportunity offered by a globally connected and 
flattened world. The magnitude of cost, in terms of real dollars 
dedicated to defensive measures, lost intellectual capital and fraud 
cannot be overestimated, making these attacks a matter of great 
national interest. Unlike the air, land and sea domains, we lack 
dominance in cyberspace and could grow increasingly vulnerable if we do 
not fundamentally change how we view this battlespace.
    Ballistic missile proliferation is a concern to free nations and 
will continue to pose a challenge to national security around the 
world. Introduction of nuclear weapons to the situation, particularly 
in the hands of regime leaders who openly seek to threaten or coerce 
their neighbors, presents an untenable threat to U.S. national security 
interests. It is clear that we must exhaust all possible diplomatic and 
economic avenues to solve the problem, but in the end, the DOD could be 
called upon to deter, reduce, or eliminate a critical threat to the 
security of America, its forces, friends, and Allies.
    America's defense strategy relies upon layers of capability that 
offer policymakers maximum political-military flexibility. The first 
layer is our emergent missile defense system. This system, when mature, 
will not be an impenetrable shield, but it will reduce the likelihood 
of successful attack. Successful tests have thus far demonstrated our 
ability to overcome technical challenges and we have gained 
international credibility, but more work remains as we turn our 
attention to defense of Europe and regional threats in Southwest Asia. 
Our second layer of defense is offensive strike--defeat the threat. 
Policymakers will first seek to employ forward deployed general-purpose 
forces, normally available in 3-5 days, given sufficient warning and 
range. Some conventional global strike forces are capable of reducing 
or eliminating threats within 1-2 days, but if the threat is sudden or 
fleeting our only existing prompt global strike capability employs 
nuclear ballistic missile systems. While America possesses dominant 
conventional capabilities second-to-none, we lack the capability to 
respond promptly to globally dispersed or fleeting threats without 
resorting to nuclear weapons. As good as they are, we simply cannot be 
everywhere with our general-purpose conventional forces and use of a 
nuclear weapon system in prompt response may be no choice at all.
    Intentional interference with space-based ISR, navigation, and 
communication satellites, while not routine, now occurs with some 
regularity. America's ever increasing appetite for space-based 
technical solutions for global positioning, communications, and weather 
among others, if not properly managed could become our Sword of 
Damocles--we must not become trapped in this vulnerable position. Space 
is now a contested domain where, without adjustments to our strategy, 
we may not be able to count on unfettered access to space-based systems 
should others persist in their course of developing counter-space 
weapons. Strategic Command believes that if we are to ensure our 
freedom to operate peacefully in space, we must rely upon a balanced 
acquisition strategy that employs a mix of some highly specialized 
space-based systems and other less elegant but more responsive space-
based systems, and a global system of distributed terrestrial networks 
to help avoid this undesirable trap and properly mitigate the risk we 
currently face.
 adapting to the shifting security environment--fielding the new triad
    The diverse challenges facing America necessitate a mature strategy 
that reaches well beyond the blunt, cost-imposition approach of Cold 
War planners. This strategy must be equally adept at denying the 
benefits our adversaries might seek to gain and encouraging restraint 
even in conflict. We understand well that policy-makers will consider a 
range of options including diplomatic, military and economic. The 
Department of Defense (DOD) will in turn consider options spanning 
offense and defense, kinetic and nonkinetic, conventional and nuclear, 
as appropriate to the political-military context. Strategic Command has 
multiple roles to play in peacetime and conflict, not the least of 
which is providing sufficient intelligence, surveillance, and 
reconnaissance upon which decisionmakers will act. We must ensure U.S. 
freedom of operation in space and cyberspace, connectivity sufficient 
to exercise global command and control, integrated missile defense, and 
upon order, provide kinetic or nonkinetic global strike. Central to 
this strategy is the New Triad, which remains the foundation for our 
strategic approach to global deterrence.
    The New Triad is comprised of integrated offensive and defensive 
capabilities enabled by persistent global command and control, robust 
planning and intelligence, and a responsive defense infrastructure. The 
New Triad, when mature, will provide improved agility and flexibility 
in dealing with a wider range of contingencies. Our goals are to avoid 
undesirable competition, discourage proliferation, assure allies and 
deter aggression, particularly from WMD-armed adversaries, by 
maintaining sufficient strategic margin and flexibility vis-a-vis our 
competitors.
    While the vision of the New Triad concept is sound and we have made 
progress, the shift in the global environment threatens to outpace the 
implementation timeline. Our ability to seamlessly integrate defensive 
and offensive capabilities requires the more mature set of capabilities 
we are working toward. The remainder of this statement will outline the 
important roles of our various mission areas and highlight those needs 
we see as essential to meeting our goals.
Intelligence, Surveillance, and Reconnaissance (ISR)
    Our Joint Functional Component Command--ISR has achieved full 
operational capability and begun adjusting our transactional model. Our 
current ISR capabilities and allocation processes were designed to 
focus on nation-states possessing traditional military capabilities and 
supporting infrastructure. Today we face adversaries who avoid our 
strengths and seek to attack through nontraditional means. Our ISR 
enterprise, designed to confront the former Soviet Union and the Warsaw 
Pact, is not optimized for either collection against, or analysis of, 
these new adversaries. Our initial assessment reveals that although we 
have increased the volume of collection, disparate sensor and 
requirement management procedures have resulted in redundant 
collections and system-wide inefficiencies, further stressing an 
overburdened ISR enterprise. These inefficiencies inundate our 
analytical teams with volumes of data, rather than providing the right 
information at the right time. As a Department, we effectively meet 
less than one third of our combatant commanders' warfighter information 
needs through these outdated systems. At the same time, the National 
Reconnaissance Office manages collection of national-level intelligence 
requirements for the Director of National Intelligence. We have 
invested significant energy in strengthening this partnership with the 
National Reconnaissance Office in an effort to streamline and better 
integrate collection management.
    Our objective is to optimize use of the Department's ISR resources 
by eliminating requirements and collection redundancy, streamlining the 
process to deploy ISR assets, and conducting genuine assessment of 
those operations. Our goal is an efficient global ISR enterprise, 
focused on achieving persistent collection capabilities against legacy 
and emerging threats through enhanced global sensor management of U.S. 
and coalition capabilities. We seek your support to improve our global 
situational awareness, and analytical capability to model and simulate 
the system of collection systems, spanning national, DOD, and coalition 
collection. Enhanced situational awareness and modeling and simulation 
capabilities will advance our ability to more effectively employ the 
assets we possess and move us closer to fully exploiting the data we 
collect.
Integrated Missile Defense
    Because the threat posed by the proliferation of ballistic missile 
technology and cruise missiles is serious, a credible missile defense 
capability is now an essential element of America's national security 
strategy. Even at this early stage of maturation, missile defense 
systems influence our adversaries' perception of the economic and 
political cost they must incur to pursue ballistic missile 
technologies. While missile defense as a defensive shield is important, 
its value as a dissuasive force or deterrent is proving far greater.
    Our integrated ballistic missile defense program had an excellent 
year. Within a 90-day period we successfully intercepted ballistic 
missiles at low and high altitudes; in mid-course and terminal phases; 
and, in endo- and exo-atmospheric environments. We increased the 
numbers of our AEGIS tracking and engagement ships, ground-based 
interceptors in Alaska, and gained confidence through testing and 
deployment of the Forward-Based X-Band-Transportable and Sea-Based X-
Band radars to Japan and Alaska respectively. At the same time, 
Sentinel radars and Avenger Air Defense systems participated in a 
combined Northern Command-North American Aerospace Defense training 
exercise in July 2006 to test our ability to rapidly deploy sensors and 
joint air defense systems to defend key assets against cruise missile 
attack.
    The July 4, 2006, North Korean missile launches spurred a limited 
operational activation of the Ballistic Missile Defense System (BMDS) 
and, as a result, helped us streamline our plans, tactics and 
procedures. We learned that the BMDS, procedures, and personnel 
performed well, and demonstrated a credible operational missile defense 
capability for homeland defense. An initial investment by the North 
Atlantic Treaty Organization in construction of a BMD command and 
control system along with growing interest by countries throughout the 
world in hosting both radar and interceptor bases are testaments to 
this credibility. Japan has accelerated and expanded its cooperation 
program with the United States for ballistic missile defense, and South 
Korea recently committed to developing short-range ballistic missile 
defenses. We expect discussion of forward deployment of radars and 
interceptors in Europe to continue with our Allies as attention on the 
emerging threat in Southwest Asia grows.
    As we move forward in the next year, more work remains. We must 
integrate air and cruise missile defenses with our growing ballistic 
missile defense system. Continued progress also requires further 
research, development, test and evaluation of individual components and 
end-to-end testing to validate sensor and shooter integration. 
Partnering with the Missile Defense Agency and the other DOD Service 
Components, we expect to further evolve the BMDS by adding new elements 
to the integrated sensor network. These elements will include cruise 
missile defense capabilities and extant intelligence collection sensors 
that will contribute to our situational awareness and overall 
integrated missile defense capability. In addition, the first two Space 
Tracking and Surveillance System satellites will be placed on orbit to 
demonstrate our ability to protect avenues of approach that can't be 
protected by other means. We also plan to increase the effectiveness of 
our system by improving target discrimination capability through 
integration of advanced algorithms in the Forward-Based X-Band-
Transportable and Sea-Based X-Band radars.
Information Operations
    We made progress in growing Information Operations Capabilities 
into core military competencies. We will continue to develop these and 
related Strategic Communications planning capabilities to ensure that 
all Joint Force Commanders gain and maintain the information advantage 
over our adversaries throughout the entire spectrum of regional and 
trans-regional engagement. As our capability centers, specifically for 
Electronic Warfare and Strategic Communications planning support, reach 
maturity, we will be able to provide trans-regional planning and 
integration support and strategic effects assessments responsive to the 
demands of the new Triad.
Cyberspace Operations
    Earlier in this statement we noted that attacks in cyberspace are a 
matter of great national interest. Cyberspace has emerged as a 
warfighting domain not unlike land, sea, and air, and we are engaged in 
a less visible, but none-the-less critical battle against sophisticated 
cyberspace attacks. We are engaging these cyberspace attacks offshore, 
as they seek to probe military, civil, and commercial systems, and 
consistent with principles of self defense, defend the DOD portion of 
the Global Information Grid at home.
    The National Strategy to Secure Cyberspace describes cyberspace as 
the nervous system of our country and as such, essential to our economy 
and national security. It describes a role for all Federal departments 
and agencies, state and local government, private companies and 
organizations, and individual Americans in improving cyber-security. 
The National Security Strategy to Secure Cyberspace lays out a 
framework that seeks to deter our adversaries and assure our freedom of 
action in cyberspace. Fundamental to this approach is the integration 
of cyberspace capabilities across the full range of military 
operations.
    Strategic Command is charged with planning and directing cyber 
defense within DOD and conducting cyber attack in support of assigned 
missions. To date, our time and resources have focused more on network 
defenses to include firewalls, anti-virus protection, and vulnerability 
scanning. While generally effective against unsophisticated hackers, 
these measures are marginally effective against sophisticated 
adversaries. History teaches us that a purely defensive posture poses 
significant risks; the ``Maginot Line'' model of terminal defense will 
ultimately fail without a more aggressive offshore strategy, one that 
more effectively layers and integrates our cyber capabilities. If we 
apply the principles of warfare to the cyber domain, as we do to sea, 
air, and land, we realize the defense of the Nation is better served by 
capabilities enabling us to take the fight to our adversaries, when 
necessary to deter actions detrimental to our interests. Our 
adversaries seek to operate from behind technical, legal, and 
international screens as they execute their costly attacks. If we are 
to take the fight to our adversaries, we will need Congress' help to 
find solutions to penetrate these screens.
Space Operations
    Freedom of action in space is as important to the United States as 
freedom to operate in the air and sea. In order to increase knowledge, 
discovery, economic prosperity, and enhance the national security, the 
United States must have robust, effective, and efficient space-based 
capabilities. The United States considers space systems to have the 
right to pass through and peacefully operate in space without 
interference, not unlike that of transit through international waters. 
Consistent with this principle, the United States views purposeful 
interference with its space systems as an infringement on its rights, 
and furthermore considers space capabilities, including the ground and 
space segments and supporting links, as vital to its national 
interests. Recent events make it clear others may not share these 
values. Platforms costing billions of dollars to replace and the lives 
of astronauts from many nations are now at risk from debris left by 
China's recent ill-advised anti-satellite test.
    Historically, space situational awareness (SSA) was focused on the 
cataloging, tracking, and monitoring of objects in space via the space 
surveillance network. Today it is clear we must have better space 
detection, characterization, and assessment tools. We require 
capabilities that enable rapid threat identification and attribution, 
facilitate a defensible architecture and provide fundamental shifts in 
space awareness. To this end, Strategic Command has created the Joint 
Space Operations Center (JSpOC) to ensure a more focused global command 
and control of our space operations and systems. We are in the process 
of colocating and consolidating the Space Control Center and the JSpOC 
at Vandenberg Air Force Base in California.
    We have provided, through the Secretary of Defense, a recommended 
plan for the establishment of an Operationally Responsive Space Office. 
The overall goals are to strengthen the Nation's space leadership and 
ensure that space capabilities are available in time to further U.S. 
national security, homeland security, and foreign policy objectives. 
Our recommended guidelines were to increase and strengthen interagency 
partnerships to ensure a focused and dedicated unity of effort. 
Interagency partnerships provide opportunities to jointly identify 
desired effects, capabilities, and strategies. Departments and agencies 
will capitalize on opportunities for dynamic partnerships--whether 
through collaboration, information sharing, alignment, or integration. 
To minimize the threat to our space capabilities now and in the future, 
we need continued support of programs that enhance our SSA, space 
protection capabilities, and satellite operations in order to preserve 
unfettered, reliable, and secure access to space.
Global Strike
    The devastating attack in September 2001 made it clear that we must 
engage our enemies offshore, or suffer further damage at home. To do 
so, we require a robust mix of capabilities tailored to a wider range 
of potential adversaries and spectrum of challenges than yesterday. The 
DOD has aggressively pursued this wider range of capabilities over the 
last decade by pursuing a highly effective mix of advanced conventional 
systems designed to take the fight to our adversaries with sufficient 
precision to enhance the credibility of our warnings and effectiveness 
of our strikes.
    However, while the DOD deploys and when necessary employs these 
expeditionary forces around the globe, it is unlikely we can or will 
have forces in every place we need them at the crucial moment when we 
have an opportunity to deter or respond to an attack, be it 
conventional or otherwise. A timely response will be possible using 
these conventional forces if they are properly equipped and positioned 
in near proximity to the emerging threat. If our forces can't be in 
position to respond rapidly, it is prudent to have the ability to 
defeat attacks or eliminate high value or fleeting targets at global 
ranges rather than suffering the consequences of an attack. We have a 
prompt delivery capability on alert today, but it is configured with 
nuclear weapons, which limits the options available to our 
decisionmakers and may reduce the credibility of our deterrence.
    The capability we lack is the means to deliver prompt, precise, 
conventional kinetic effects at intercontinental ranges. Several 
analytical efforts are underway or have been completed to assess mid-
term options. For example, Air Force Space Command is developing a 
promising concept for a continental United States-launched conventional 
strike missile, which capitalizes on the maneuverability and precision-
to-prompt-effects offered by maneuvering flight technology to produce 
effects at global distances. Army Space and Missile Defense Command is 
actively working thermal protection and management solutions that can 
be effectively used across the range of potential advanced PGS 
solutions.
    Unfortunately, the threat we face is more virulent and arrived at 
our shores earlier than expected. Because the threat has outpaced our 
search for solutions, we have examined many plausible alternatives and 
believe a near-term solution to deploy a precision global strike 
missile within 2 years of funding is essential to adequately defend the 
Nation offshore. This near-term capability should be part of a larger 
strategy to explore, test and field other land, sea, or air-launched 
alternatives to produce effective mid (2013-2020) and long-term (2020 
and beyond) solutions.
Combating Weapons of Mass Destruction
    For more than half a century we lived in a world in which the few 
major powers possessing nuclear weapons walked a cautious path of 
mutual deterrence. For years we have encouraged those nations retaining 
chemical and biological weapons to disavow them as the major powers did 
long ago. To its credit, Libya has raised its profile within the 
international community by divesting itself of WMD that did not and 
could not guarantee its security; it is too soon to know for North 
Korea.
    Strategic Command's role is to integrate and synchronize DOD 
efforts in support of national efforts to combat WMD, on a global 
scale. Strategic Command is therefore actively engaged with the 
national laboratories, the Director of National Intelligence, National 
Counterproliferation Center, National Nuclear Security Administration 
(NNSA), the Defense Threat Reduction Agency, the Department of Homeland 
Security, regional combatant commanders, and others to better 
coordinate, integrate, and synchronize our collective response to the 
threat. We provide support to Nonproliferation Treaty initiatives, the 
Cooperative Threat Reduction program, and the Proliferation Security 
Initiative. We recently completed a WMD Elimination Concept of 
Operations, and will soon activate a Joint Elimination Coordination 
Element to serve as the core of a Joint Task Force-Elimination, should 
such a force be required.
    We ask for your continued support in helping us build on the 
successes realized through programs like the Nunn-Lugar Cooperative 
Threat Reduction Initiative. Resources that enable us to scale the 
attributes of existing programs to a global level, will provide global 
combating WMD capabilities by building global partnerships, using a 
global perspective, with the tools and metrics to judge value, and 
allow individual or regional WMD interdiction and elimination by host 
nation-state process owners. This process focuses on enabling ``nation 
self help,'' where empowered nations are stakeholders and active 
participants in the fight to interdict and eliminate the threat of WMD. 
By participating with these nations, our actions reinforce their status 
as a sovereign state, elevate their standing, reinforce their status, 
and are a positive step forward for America as our partners develop and 
possess resident counterproliferation capabilities, providing advanced 
threat reduction and attribution forward from our shores while 
demonstrating a consolidated front to the threat.
National Command and Coordination Capability
    The world is fundamentally more complex than it was when our 
current point-to-point nuclear command and control system was developed 
more than 50 years ago. This single-purpose aging command and control 
system, while adequate to meet our nuclear mission, is not adequate to 
meet our broader national objectives. As we seek to sustain the 
essential core nuclear command and control system, we see an 
opportunity to transform this 1950s Cold War capability into a 
government-wide national communications capability. To do so, we must 
take advantage of modern networked architectures.
    At the outset, our strategy was two-fold, first to sustain our 
legacy nuclear command and control system and second to expand its 
capability to address a broader scope of military challenges. These 
investments would better integrate all elements of national power and 
increase our ability to quickly respond across a broader spectrum of 
military threats. However, our national experience in Hurricane Katrina 
made it clear that America needed more and we expanded the scope of our 
effort to improve the Nation's ability to support civil authorities 
following disasters or other domestic events. The President has 
subsequently provided guidance to develop a robust, enduring, secure, 
survivable National Command and Coordination Capability (NCCC) that 
integrates our legacy nuclear command and control functions into a net-
centric NCCC. In support of these objectives, we have developed 
partnerships with the Departments of Homeland Security and Justice, and 
Director of National Intelligence.
    The goal is to create a NCCC that not only meets national command 
and control requirements, but can become the versatile and stable 
backbone of a nationally distributed network to meet other important 
homeland security requirements. Through an integrated and adaptive 
approach, NCCC will enable a responsive, universally collaborative and 
virtual environment for all users. We are well on the way to realizing 
this vision. Actions to date include modernizing our airborne 
components, distributing our ground components, and increasing network 
capacity.
Safety, Security, and Reliability of the Nuclear Stockpile
    The NNSA and the DOD share responsibility for the safety, security, 
reliability, and effectiveness of the Nation's nuclear warhead 
stockpile and for the quality and responsiveness of the enterprise 
necessary to sustain it.
    During the last decade, our Nation invested in increasing our 
scientific understanding and extending the life of weapons designed and 
produced during the Cold War. To date, these efforts have successfully 
ensured the reliability of our weapons without the need to conduct 
nuclear tests. While this strategy has served the Nation well, we 
recognize the current path of indefinitely relying on legacy nuclear 
designs refurbished through a series of life extension programs entails 
accepting significant future risks and potentially large costs, to 
reliability/performance, safety, security, and responsiveness points of 
view. For this reason, we support a Reliable Replacement Warhead (RRW) 
program as the best path forward to improve nuclear weapon safety, 
security, and reliability and advance our goal of the lowest possible 
stockpile levels consistent with national security.
    The 2001 Nuclear Posture Review described a need for a responsive 
production infrastructure, capable of responding to a strategic 
surprise, as part of its comprehensive nuclear strategy. The 
combination of the RRW program and responsive infrastructure investment 
are key elements of our overall strategy to further reduce our nuclear 
warhead stockpile to the lowest level consistent with national security 
requirements and move the Nation from an inventory-based to a 
capability-based risk management strategy. As the comprehensive 
strategy for the nuclear enterprise matures, the RRW program will 
replace extant nuclear warheads with increasingly modular and 
interoperable warheads that are safer, more secure, and highly 
reliable, as one element of a broader strategy to reduce our reliance 
upon nuclear warheads and more aggressively reduce our non-deployed 
stockpile. RRW designs will incorporate a broad suite of enhanced 
safety and security features that cannot be attained through the life 
extension process. Modularity and interoperability remain top 
warfighter priorities for the RRW concept. These attributes will 
significantly increase the operational flexibility and responsiveness 
of the nuclear weapons stockpile and improve our ability to introduce 
new technologies and respond to technological and/or geopolitical 
surprise. We ask for your continued support of the RRW program as an 
integral part of the Nation's comprehensive strategy to meet national 
security requirements and encourage Congress to continue investing in 
the transformation of our aging nuclear infrastructure; it is a key 
element in the sustainment of a credible nuclear deterrent for the 21st 
century.

                               CONCLUSION

    United States Strategic Command is engaged in a wide-ranging 
campaign to provide support to all elements of the DOD, assure our 
allies, dissuade undesirable competition, deter our adversaries, and if 
called upon to defend our Nation and defeat our enemies. We take this 
role very seriously and today present you with carefully thought out 
recommendations. Once again, thank you for your time, insight, and 
attentiveness to our views.

    Senator Bill Nelson. To Ben and Jack: Any questions while 
we are on this RRW? Then we will move on to other topics.
    Senator Ben Nelson. Thank you.
    General Cartwright, as we realign our nuclear capabilities 
are we or are the Russians together with what we are doing 
mixing the message we are sending to Iran and North Korea? In 
other words, are we giving them an argument against what we are 
asking them to do, and that is to denuclearize at a time when 
we are realigning our nuclear capabilities?
    General Cartwright. Certainly a fair question. We have 
tried to be as transparent, and the Russians have also tried to 
be as transparent as possible. We are reducing the stockpiles 
in ways and in measures that are far greater than anything we 
have ever done in the past, moving in a direction that retains 
the minimum number possible, and demonstrates the responsible 
stewardship of safety and security of these weapons, making 
sure that they are only used for the appropriate mission.
    Senator Ben Nelson. So you think the transparency of what 
we are doing will not send a mixed message, although we know 
they will jump on anything that they can? But we are not 
sending a mixed message because of transparency and what we are 
doing with the realignment?
    General Cartwright. I believe that we have taken all steps 
that we should and could to keep from doing that. You always 
have to make sure that you go back and sample your audience: Am 
I getting through? Do you understand what we are doing? We try 
to do that regularly.
    That is why we held a 2007 review on both countries' parts, 
to make sure we were doing the right things, that the message 
we were sending was appropriate, and that people understood the 
direction we were heading.
    Senator Ben Nelson. Mr. Chairman, I have to go to the Rules 
Committee markup to make the quorum.
    I had one other question I would like to ask, General. We 
worked hard not that long ago to try to get the retrofitting of 
the Trident submarine so that we can have the non-nuclear 
capability on those submarines for what you described earlier, 
the more appropriate response or more appropriate reaction to 
what is going on. Are you still of the opinion that we ought to 
continue to do that and do you have any suggestions about what 
we might try to do?
    General Cartwright. Yes, sir. I know that we will go into 
this in more depth here later.
    Senator Ben Nelson. Senator Sessions and I teamed up on 
that.
    Senator Bill Nelson. We are going to go into that in 
detail.
    Senator Ben Nelson. Okay. I just want to continue to add my 
support for making the retrofitting of the Trident submarine 
for non-nuclear capabilities.
    General Cartwright. Thank you, sir.
    Senator Ben Nelson. Thank you. Thank you, General.
    Senator Bill Nelson. Senator Reed.
    Senator Reed. General, thank you. Just a few specific 
questions.
    Based on the reviews done to date and reviews that will be 
done by NNSA and the laboratories, you have confidence that the 
RRW design will be able to be certified without testing?
    General Cartwright. That is a priority in the activity. We 
have done the first step or the first phase in a developmental 
activity. This is kind of an exploration. To understand the 
risks, is there feasibility in moving forward? One of the key 
criteria was that we had to have high confidence that it would 
not require testing.
    This next phase that we are asking authorization for will 
get into more engineering detail to confirm that attribute.
    Senator Reed. If it becomes clear at some point that it is 
not possible to certify without testing, would you support 
terminating the effort?
    General Cartwright. I would come back to this committee and 
tell you why we got to that position and what the criteria 
were, what the detail was behind that, and then we would have 
that discussion. But it would be a criteria. We would have to 
seriously consider whether we would want to move forward at 
that point.
    Senator Reed. If successful, the RRW will be a significant 
improvement in safety, security, and reliability compared with 
the current?
    General Cartwright. Yes, sir.
    Senator Reed. Also, it will give increased confidence in 
the stockpile and enable substantial reductions in your view?
    General Cartwright. Yes, sir. If it is coupled up with the 
responsive infrastructure, then you have an opportunity here, 
particularly on the inactive side, where we have large 
inventories, to drastically reduce those inventories.
    Senator Bill Nelson. Convince us of that. For example, the 
life-extended W-76, is it going to be retired in favor of the 
RRW, what Jack asked?
    General Cartwright. The approach here is a three-phased 
approach. We have a life extension program associated with the 
76 and we have the inventory that is deployed. We will continue 
that life extension program with the intent of phasing it out 
as RRW comes on line and is deployable. So what you are trying 
to do here is not put all of your eggs in one basket that RRW 
will come on a certain date. You start the management of 
extending the life of the existing warheads. You carry that 
until you have confidence that the new weapon can replace it 
and then you phase out that life extension approach to 
business.
    The other piece that is important to understand is the way 
we tend to manage risk today. We have more than one warhead for 
each delivery vehicle. So if the 76 were to come up with some 
sort of flaw, we have other warheads that we could use instead. 
RRW allows you to do component replacement and get diversity, 
the ability to replace a component, rather than having to have 
an entire stockpile of a different weapon.
    Does that make sense?
    Senator Bill Nelson. Yes.
    Senator Reed. Just a final question, General. The Nuclear 
Weapons Council has decided to study the feasibility of the RRW 
and not to manufacture or deploy the RRW; is that correct?
    General Cartwright. That is correct. The next phase is an 
engineering level of detail on the feasibility.
    Senator Reed. Thank you.
    Thank you, sir.
    Senator Bill Nelson. Tell us about the cost. Are we going 
to actually be able to get some cost savings in here, even 
though we are going to develop the new weapon by retiring all 
of the life extension programs on the old ones?
    General Cartwright. This is always hard because what you 
add into the cost will drive this. But in the transition RRW 
from where we are, let us take the 76 as an example today, to 
the RRW, the intent was that the resources available would 
remain reasonably flat and we would just transition the 
resources from one activity to the next.
    Senator Sessions. By resources you mean money?
    General Cartwright. I do mean money, I do. I also mean 
infrastructure, people, and intellectual capital. All of those 
are in the equation. But it is the dollars and cents side of 
this equation.
    In the drawdown of several of the classes of weapons that 
we did between 2001 and 2007. We also took the savings on the 
DOD side and partnered with DOE to ensure seed money was 
available that was realized from standing down some of these 
weapons and delivery systems. That was to get this activity 
going, do the engineering work, start to understand a logical 
way forward, and present the case. So we have taken some of the 
savings from standing down weapons and delivery systems, used 
that in order to move forward here, but kept up the W-76 life 
extension program until we had a high confidence that we could 
replace it.
    So we are trying to stay within the resources that have 
been programmed and do that across the stockpile. Now, as you 
have to replace infrastructure, that is where we are trying to 
understand how quickly that can be done, and can you stay 
inside the programmed resources or do we have to come back and 
ask for additional resources.
    Senator Bill Nelson. Any more questions on RRW?
    Senator Sessions. One thing I would like to ask. In your 
position you have to think about these things. If we went to 
zero nuclear weapons, it seems to me that would encourage a lot 
of nations to the belief that they could in fact obtain 
military superiority over the United States by simply building 
a relatively modest number of nuclear weapons. Likewise, if we 
brought the number so low, even a rogue nation might see it 
within their grasp to be a peer competitor of the United 
States.
    Are those reasons why we need to be cautious about not 
going too low in our numbers and would you agree with that 
general philosophy?
    General Cartwright. I agree with the philosophy. I tend to 
look at it as how credible is your deterrent and credible to 
who. If on the conventional nonkinetic side, we are able to, as 
we have done, say with missile defense, start to be credible, 
then the level of requirement for nuclear weapons can be drawn 
down against some of the adversaries. Against adversaries, you 
may have a different equation where mutual assured destruction 
is a balance that they are comfortable with. This allows us to 
reach a point of credibility between two nations that would 
allow us to have a basis of dialogue, a basis of warning, an 
ability to know when the other has encroached and be able to 
say, hey, you are making me nervous, I am going to have to 
start posturing if you do not change.
    But what am I posturing with and is it credible? Today we 
still need nuclear weapons to balance that equation. The number 
we need is drastically less than it has been in the past.
    Senator Sessions. But a nation like Iran, when they 
consider their nuclear program, I am convinced at this point in 
history whether or not we are building a RRW, whether we have 
1,000 or 3,000 nuclear weapons, that is not the factor driving 
them to build their nuclear program. Would you agree with that?
    General Cartwright. I would agree with that.
    Senator Sessions. Thank you.
    Senator Bill Nelson. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    I just have a couple questions on the Moscow Treaty, 
General. Under the treaty, we have committed to have no more 
than 1,700 to 2,200 deployed nuclear missiles by 2012. But what 
are the number of reserve missiles that you are planning to 
meet that level of deployed missiles?
    General Cartwright. In the inactive or not deployed 
stockpile?
    Senator Reed. Yes.
    General Cartwright. I cannot give you the number, Senator. 
I will go find that for you. What we are hoping is that through 
RRW we can go well below that. I do not know that we were 
mandated to any level in those particular stockpiles. What I 
have been trying to say is that one of the values that you can 
get from RRW is to go after that part of the stockpile, which 
is still very large.
    Senator Reed. Do you have kind of a rough order of 
magnitude, like two to one, three to one, four to one?
    General Cartwright. Let me give you that for the record.
    [The information referred to follows:]

    The Moscow Treaty does not mandate any specific level for the 
reserve (not deployed) stockpile which consists of warheads for 
augmentation, reliability replacements, logistics spares, and 
surveillance. Today, the ratio of reserve stockpile warheads to the 
operationally deployed strategic nuclear warheads is greater than one 
to one. With planned weapon retirements and a responsive infrastructure 
facilitated by the Reliable Replacement Warhead Program, we are 
confident the ratio will be significantly less than one to one.

    Senator Reed. Okay, that is fair.
    Is it possible to reach these levels prior to 2012, the 
deployed levels, to reduce them to that?
    General Cartwright. Yes.
    Senator Reed. Is that contemplated?
    General Cartwright. We are certainly open to it. Part of it 
will depend on the engineering level work in RRW. Is 2012 
realistic for RRW to come on line, which is a challenge 
technically, but is it far enough along that we have gained 
confidence that we can start to reduce, inventories and have 
capabilities like missile defense come on board with a proven 
credibility as a deterrent factor to start to influence the 
deterrence equation?
    Those factors will all contribute to us being able to 
drawdown faster. We are ahead of schedule now. We are on a 
glide path that would put us before 2012 to make the deadlines. 
But we are watching each year and updating. 2007 is very 
important.
    Senator Reed. As I understand the treaty, the deadline 
comes in 2012 and then it expires in 2012. It is not a 
permanent treaty.
    General Cartwright. Right.
    Senator Reed. Would you be supportive of a permanent treaty 
or making Moscow permanent?
    General Cartwright. My crystal ball for 2012 is probably no 
better than anybody else's. I think we ought to go look at it 
as we approach that treaty, to look at what has emerged as 
capability, what are the threats, what are the threats to our 
Nation versus what are the threats to the Russians. The 
equation may change, but I think you want to keep a dialogue 
like this treaty going and you want to keep it, to the extent 
possible, binding and keep us on a glide slope towards the 
fewest number necessary.
    Senator Reed. We had a hearing last week which was very 
interesting. Some of the witnesses suggested that we really 
could go down to a deployed force of 500 missiles and a reserve 
of 500--warheads, rather. Others suggested 850 to 1,100 
deployed, much lower than the Moscow goal. Is that feasible or 
possible, desirable?
    General Cartwright. It is based on the assumptions. Again, 
what is the world that we are really living in, what is the 
ability of our infrastructure to say, gosh, the world was not 
what we thought it was going to be, we need to go up. I do not 
want to go in that direction, but are you comfortable that you 
could recover if you misjudged? That is the risk that you take 
as you get down to the small numbers.
    It does not mean that it is not plausible. It certainly 
does not mean that that number of warheads is not capable of 
being a deterrent. The question is how much risk do you want to 
take that you may have misjudged, and that ought to be a debate 
and a discussion.
    Senator Reed. Thank you.
    Senator Bill Nelson. Since the Moscow Treaty was more of a 
goal of 1,700 to 2,200 deployed nuclear weapons, are the 
Russians going to meet that goal by 2012?
    General Cartwright. They are certainly on a path, as we 
are, to be able to make it actually ahead of schedule if they 
judge the world the same way we are judging it right now.
    Senator Bill Nelson. Jeff, any more on this?
    Senator Sessions. A different subject.
    Senator Bill Nelson. Okay, what subject do you want to go 
to next?
    General Cartwright. I will go anyplace you want to go, sir.
    Senator Bill Nelson. Go ahead, Jeff.
    Senator Sessions. We spend a lot of money on ICBMs, on the 
aircraft capability, the triad, our basic triad of delivery of 
nuclear weapons. How do you see that as we drawdown these 
numbers? What capabilities is it wise for us to maintain and 
not weaken or not adjust much and what others may there be some 
capabilities of saving in?
    General Cartwright. I think in general the old triad of the 
nuclear forces is a sound construct.
    Senator Sessions. Explain the triad?
    General Cartwright. It is the combination of sea-based 
ballistic missiles launched from our nuclear-powered ballistic 
missile submarine, the land-based ICBMs that are launched from 
the missile fields in the United States; and then the bomber 
capability.
    Senator Sessions. The theory of that in the Cold War was 
that at least one of those capabilities would be effective to 
deter any attack on the United States.
    General Cartwright. Right. An adversary focused on one, you 
had the other two. We generally thought of the ICBMs, the 
ground-based, being the most responsive, available quickly if 
needed; the submarine-based as the type of weapon that had the 
most resilience and survivability, so if we were caught unaware 
they were survivable; and then the bombers gave us the 
flexibility of the man in the loop and the ability to go to the 
adversary and approach him from an air domain, so to speak.
    So we were approaching from three different ways, which is 
to some extent a cost-imposing strategy. It forces the 
adversary to defend in three different ways. That has been the 
philosophy as we move towards the new triad, which accepted the 
old triad but incorporated defensive capabilities and 
conventional capabilities in aggregate.
    So the question here is can we change the balance of the 
old triad as we draw down these weapons. We have reduced 
substantially the number of bombers committed to this activity, 
the number of sea-launched ballistic missiles that are 
committed to this activity, and the number of land-based 
ballistic missiles committed to the triad. Last year we took 
the last Peacekeeper out of the hole. That weapon system is no 
longer part of the inventory. We have reduced down to 500 the 
number of ICBMs and that is going lower here in the next month. 
We have made notification and we are going to drawdown there. 
The number of submarines committed and obviously then 
correspondingly the number of missiles associated with those 
submarines, the gravity bombs, the number of bombers that we 
have committed, the number of weapons associated with them, 
whether they be cruise missile in type or gravity in type, have 
all been reduced substantially.
    Senator Bill Nelson. Go ahead, Jack.
    Senator Reed. Are we going to join the debate about the 
precision global strike now?
    Senator Bill Nelson. Yes, we are going to.
    Senator Sessions. I think we should talk about that.
    Senator Bill Nelson. We are going to discuss every subject 
you want.
    Senator Reed. Despite the great efforts and enthusiasm of 
Senator Sessions and Senator Ben Nelson, at least, last 
Congress there was some concern about modifying the 
Conventional Trident Missile (CTM) to carry kinetic non-nuclear 
warheads. The Navy has $175 million in the fiscal year 2008 
budget request for CTM.
    This is a rear guard action perhaps. But anyway, rather 
than continuing this debate, does it not make some sense to 
look for alternatives to accomplish the prompt global strike 
mission other than putting conventional weapons on what is a 
nuclear platform at the moment? In that vein, would this be a 
more appropriate defense-wide account, to look at global, new 
ways to strike within your required short period of time 
without engaging in this debate about Trident? What is your 
opinion, sir?
    General Cartwright. The Trident modification was designed 
to be a hedge for a threat that we believed had emerged, to 
give us the time to develop more appropriate systems for global 
strike that could address any number of attributes that were of 
concern. In other words, one of the keys was ambiguity, being 
able to discern what the profile equated to, much as we have 
done with bombers and cruise missiles in the past and other 
types of delivery systems that had both conventional and 
nuclear capabilities.
    The intent with the CTM was to be able to emerge in 2 years 
with a hedge capability, hold that hedge capability until in 
particular Air Force and Navy were able to move forward with a 
program of record to give us the attributes with a global 
strike capability in the conventional arena that we felt were 
appropriate for that activity--speed, range, ambiguity, notice, 
all of the types of things that you would like to have, A; B, 
also be credible on the deterrence side of the equation in that 
they could hold targets at risk credibly and deter somebody 
from either pursuing a tactic such as using strategic depth to 
hide their resources or hide their offensive capabilities where 
we could not reach them with other than a missile or long-range 
prompt activity.
    The other piece here was to also start to impose on the 
adversary, just as Senator Sessions has alluded to here, a type 
of offensive capability that would force them to build a unique 
defensive capability in order to address that threat, much as 
the old triad had done with three different ways of attacking 
the problem.
    Can we move forward into the future field of options, as 
you say, to a more regularized, more appropriate global strike 
capability? We believe we can. We believe that the Navy and the 
Air Force are on a path to do that. They are working with the 
labs. They are working actually with the Army. The Army has 
some pretty interesting ideas in this area. Even though they do 
not intend to move into this area, they are helping us on the 
technical side.
    So we believe that could start to appear around the 2012 to 
2014 timeframe to replace the need for the hedge. Now, what we 
do get out of the hedge activity separate from putting the 
warhead on the missile, is the work necessary to do the 
technical research on heat management, navigation, warhead, 
design conventional warhead, development that would be placed 
on these longer-term programs. So there is a mixture in that 
$175 million between production type money which would move us 
on a path to in 2 years field the hedge and the science and 
technology or research and development necessary to field this 
next generation of capability.
    So can we split that apart? Can we do this differently? Can 
we discuss whether or not the threat has emerged and whether or 
not we need to do this with CTM or whether we can wait until 
2012? That is why we are here and in this debate.
    Senator Reed. Congress--and again, this was not an issue 
that was not without differences of opinion, but the conclusion 
was that this opens up the proverbial can of worms when you are 
putting a conventional missile on a Trident nuclear submarine. 
I do not think we dispute or debate the issue of trying to 
strike in a short time across the globe. I guess my sense is it 
would be better to try to accelerate these efforts you are 
talking about than having a hedge which could jeopardize the 
deterrence and send conflicting signals, not just to the 
terrorists who have a secret enclave someplace with weapons, 
but nation states that have missile systems that they are not 
going to put at risk or other assets they are not going to put 
at risk.
    General Cartwright. It is a judgment call. The regret 
factors associated with not having it today if a target, 
particularly a weapon of mass destruction, emerged and we 
wanted to get to it quickly and we had no other way, that is 
the extreme in the opposite direction.
    Senator Reed. I understand that. I do not want to belabor 
the point, but just to clarify in my mind. We have nation state 
adversaries with WMD which we use Trident submarines with WMD 
and other means, the triad, to deter and, if not deter, then to 
successfully retaliate. We are really talking about--and 
correct me if I am wrong--non-state actors.
    General Cartwright. No, sir.
    Senator Reed. Well then, or--give me a scenario that we 
would have to----
    General Cartwright. Let me, without going classified, there 
are many targets that are out of the reach of our bombers, 
conventional forces, strategic depth in large countries--the 
question would be, as an example, how many satellites would we 
be willing to lose before we went to a nuclear alternative 
because the only thing we have to reach those targets is 
nuclear.
    Senator Reed. But you are positing a situation where a 
nation state could engage in behavior like shooting down 
satellites deliberately.
    General Cartwright. I am only trying to say that it is not 
just the terrorists, a terrorist target, but it is a broader 
threat spectrum. This is why eventually we want to get to 
something that is easily understood and can reach out and start 
to deter those types of targets. The question is do we need a 
hedge between now and availability of a more regularized 
capability.
    Senator Reed. I know Senator Sessions wants to comment, but 
this goes to basic deterrence theory, and that is one of the 
advantages of dealing with a nation state is that you have 
other levers rather than a nuclear attack.
    General Cartwright. Yes, and you want to use all of them 
before you ever go offensive.
    Senator Reed. One of the issues and I think the context 
that this issue came up is in those cases where the adversary 
is nondeterrable. They have to be preempted.
    General Cartwright. I guess there is a class of targets 
exactly as you describe, where you would want to be preemptive 
and you do not necessarily want to escalate immediately to 
nuclear. There is also, on the other side of the equation, the 
desire to control escalation in a conflict that might have 
started, and in both cases you might add value.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Senator Sessions. We had a good battle about that last 
year. First we had hearings on it, and I concluded that the 
concerns with the conventional Trident launched from an 
existing nuclear-capable submarine were not likely to be 
confusing or place us at risk. But I have to tell you, when we 
voted we did not win that vote. Senator Reed is correct.
    I had also discussed last year and over the last couple of 
years that there are alternatives that are in development and 
research today, and I know there could be a regret factor if we 
do not have this capability right now. But have you given any 
thought to accelerating and giving more emphasis to some of the 
alternatives that might allay the concerns of our colleagues 
that any launch would be misinterpreted as a nuclear attack? 
How far away? What are your thoughts about going in that 
direction? You have a good bit of money in there after last 
year's vote and after last year's election I do not think we 
are going to get any more votes this year, frankly. So what is 
the practical solution to this? There are alternatives, I 
think.
    General Cartwright. There are. First, I want to thank the 
committee for allowing us to have that debate. I think it 
informed a lot of us and a lot of those who we serve and 
allowed them to at least see and understand what the issues 
were. I may have made your life a little more difficult, but I 
think we served our constituency well by having that debate, 
and we ought to continue those kinds of debates.
    The Air Force and the Navy both have programs that they are 
embarking upon to bring us to a technical solution that is 
informed by last year's debate. They are much smarter about 
what is going to be, let us say, appropriate and what can we 
match technology with. The question now is could you make it go 
faster. I do not believe technically you could. You could throw 
more money at it, but I do not believe that you could 
accelerate the science that we need to have here. We are seeing 
steady good progress in reducing what we call technical risk as 
we move forward. But we are also opening doors in technology 
that we did not understand before and are now making themselves 
available to you, and I will let the Air Force and the Navy in 
their opportunity talk a little more about that.
    But there are opportunities now. I do not think you can 
accelerate this. I think you would be challenged to have an 
initial capability by 2012--other than CTM--and then start to 
move forward from that in a block approach to get us to where 
we want to go. I think you ought to let the programs lay out 
that technology.
    But a lot of the work that we did at the behest of this 
committee on bringing together the Army, the Air Force, the 
Navy, the national labs to start to focus on this problem, 
start to understand the technical challenges and match them up 
with what we were discovering in our dialogue has occurred over 
the last year and a half. That has started to move forward. So 
I think we have credible ways forward. We have to see, does 
that technology really mature at the rate that we think we can 
make it mature and do we have the right investment profile for 
all of the things that you will have an opportunity to take a 
look at.
    Senator Sessions. Just to sum up, I guess, I had expressed 
concern that maybe we should just try to leap ahead with the 
new technology, and politically we do not have the votes, it 
did not look like, in Congress to proceed. But I just would ask 
you, you are saying that in your opinion, based on your 
responsibilities, that you do need this before it is likely 
that this program could be completed, a new type weapons system 
that Congress would presumably accept is on line? Explain to us 
how deeply you feel about it, in short.
    General Cartwright. I believe that we ought to have a hedge 
capability until we can field a program of record, that is an 
entire program, whether it be Air Force or Navy or both, but a 
capability. I believe this threat has emerged, based on what 
you have charged me to worry about and to watch. That is why I 
was so passionate about this discussion last year. I am no less 
passionate this year. We have moved a year closer to 2012. How 
long and how quickly do you want to have this capability? It is 
a judgment call as to whether or not this threat is something 
we want to have a prompt global strike capability for now. Or 
we are willing to wait a number of years between 2007 and 2012 
to see a full-fledged capability fielded.
    Having what we would call a time to field of 2 years is 
still something you have. Even if we do not fund this year, in 
2 years if we waited a year and said, gee, we might have 
misjudged this, you say go and the Department of the Navy here 
along with us could field this in 2 years. Is that cushion, is 
that safety net, big enough or would you like it shorter or 
would you like to have the hedge fielded right now? That is the 
negotiating space--that is the wrong way to say it----
    Senator Sessions. If new technology were to come on in 2012 
and we approve this money for the Conventional Trident, when 
would the Conventional Trident be fielded?
    General Cartwright. Probably 2009-2010.
    Senator Sessions. So you have a couple years of padding 
there.
    I see targets that could occur. You could have maybe some 
sort of attack on our satellites ready to be launched; WMD, you 
could see intelligence that a nation was about to launch a 
missile that could be stopped before the launch; or terrorist 
cells and top terrorist leaders plotting an attack.
    There are a number of targets I think that are not 
academic, but could be very real, hopefully not, but could be 
very real. So that is why I supported this. But it is not 
faring very well at the moment. You need to know that.
    Senator Bill Nelson. Some of the flip side of those 
arguments are that, as Jack said, if a nation state were to 
suddenly start attacking our satellites that is an act of war, 
and that would bring into the full array of the defense 
posture. Then there are the questions that we need to 
understand the answers to about the alternatives to this as 
measured against the cost, because we do not really know the 
cost. Is it going to be $100 million a shot? Is it going to be 
$5 million a shot? What is it going to be?
    General Cartwright. For the future systems? For CT?
    Senator Bill Nelson. For the prompt global strike.
    General Cartwright. Oh, for prompt global strike.
    Senator Bill Nelson. Let me ask you on this CTM, would you 
want to locate this account in a military Service or in a 
defense-wide account?
    General Cartwright. For CTM, I would put it in a Service 
account, a Navy program. For the broader capability of prompt 
global strike, that might be more appropriate for a defense 
account.
    Senator Bill Nelson. Okay. Any more questions on this 
subject area? [No response.]
    All right. Shall we go to national missile defense? Is that 
all right with you?
    Senator Sessions. Okay.
    Senator Bill Nelson. Go ahead.
    General Cartwright. I had some opening remarks that 
addressed the missile defense capability. Let me just add a 
couple of comments to where I think we are. One, the testing 
has been very successful thus far. Two, the key issues that are 
in front of us, at least as a commander are expanding and 
bringing in the Southwest Asia threats and whether or not we 
want to have that capability, which we believe we are going to 
need, to devalue the proliferation of ballistic missiles in 
that region.
    The second, that is very important to me, is the expansion 
of the system beyond long-range ICBMs. We must address those 
threats that hold at risk our forward-deployed forces, our 
allies, and our friends. Those are the short- and medium-range 
ballistic missiles, things that Patriot, the Standard Missile 
(SM) 2 and 3 will be able to address, and Terminal High 
Altitude Area Defense (THAAD). Starting to bring and integrate 
that system together so that we do have an ability to have a 
collective defense with allies and the ability to have a global 
capability against short, medium, and the ICBMs. Those focuses 
I think are where we want to be heading as we move forward.
    We have a pretty good understanding of the science. We are 
demonstrating, particularly with the SM-3 and Patriot and 
THAAD, the broad range of capability of layered and collective 
defenses and sensor integration now on a global scale. We need 
to expand that out and bring credibility to it, allow the 
Services now to field these systems as indigenous organic 
capabilities, but allow them to mix and match without regard to 
Service lines. So an Aegis destroyer ought to be able to guide 
to terminal a Patriot and a Patriot battery radar or a land-
based radar ought to be able to guide to conclusion a sea-
launched missile.
    The reason you want to do that is most of our missiles far 
exceed the capability of their sensors, and so you want to take 
advantage of that range, broaden yourself out from just a point 
defense to an area capability. As an example, a THAAD battery 
can cover the entire peninsula of South Korea, one battery. 
That is the kind of area capability we need to bring to the 
equation to defend those forces against short- and medium-range 
ballistic missiles, which are the ones that are really 
proliferating out there.
    I will leave it at that.
    Senator Bill Nelson. Which one of you needs to go first? If 
you have a time problem go ahead, Jack.
    Senator Sessions. I am going to be here.
    Senator Reed. Let me just follow up on the major point you 
made, General, which is I presume it is the view of your 
combatant commanders and also you have done some joint 
capabilities force mix studies that it is these short and 
intermediate missiles, PAC-3, Aegis, BMD, that really more are 
needed than less; is that fair?
    General Cartwright. From an inventory standpoint?
    Senator Reed. Inventory standpoint.
    General Cartwright. Yes, but again SM-3 has mobility, which 
is a great attribute. Patriot has some mobility, but they are 
for terminal point defense. They have a very small footprint on 
the ground. So as you can see, whenever there is a conflict 
brewing people want more of them than exist, and you will never 
have enough to cover say the entire coast of a country or 
something. So you need an area asset. That is why THAAD is so 
important to us.
    But yes, in general short- and medium-range are the ones 
that are proliferating. They are the challenge right now.
    Senator Reed. That is what you are hearing from your 
combatant commanders?
    General Cartwright. Yes, sir. That is what they are asking 
for.
    Senator Reed. More PAC-3s.
    General Cartwright. Get us something like THAAD, that has 
this large area, because as you move to chemical munitions and 
things like that the ability to keep them away from the forces 
is critical to the commanders.
    Senator Reed. As we increase both the technology and the 
number of our missile defense capabilities, other countries 
will take notice of this. There is one area in particular, the 
Chinese, who are beginning to make improvements in their 
missiles. Do you believe that this will produce a reaction on 
the part of the Chinese? Will they feel that they have to 
increase their strategic capacities to negate our missile 
defense system? Not only our missile defense system, we are 
talking to the Japanese, we are talking to many others, where 
if it was sold in our own control they might be more sanguine.
    General Cartwright. There is generally an axiom, at least 
for the military, that you can only go so far on a defensive 
capability and you hit diminishing returns very quickly. You 
have to have it balanced with an offensive capability to be 
credible. The capability that we are fielding does not hold at 
risk a large nation state on the defensive side.
    There has been a substantial dialogue with the Russians 
about the European site. But 10 interceptors do not really 
change the calculus on the number of offensive weapons that a 
country like Russia has. But it is something that has to be 
discussed and to just sit silently is inappropriate for them. 
So we have to have this discussion, as we did in the Cold War: 
What makes you the most uncomfortable? Is it the time to react? 
Is it the proximity? We need to understand these issues and 
then adjust in a way that retains the credibility, but also 
allows them to understand what we are doing.
    Senator Reed. Let me ask a final question. You say in your 
prepared remarks we need a credible missile defense capability, 
and at what used to be called the theater missile defense area 
we certainly have made progress there in terms of the systems 
we have talked about. The national missile defense system is 
still not yet operational, I think. Is that fair?
    General Cartwright. We took it operational for the 4th of 
July when we had the Korean missile launches. The reason that 
we are not operational today in principle is that the command 
and control suite is one that is either configured for test or 
configured for operations, and we have elected until we have 
one that can do both, to bias that to test and development.
    Senator Reed. But at this point, it is not an operational 
system? It is still a testing system?
    General Cartwright. From that standpoint, yes. It has a 
certain number of hours to recall it.
    Senator Reed. The point I think is that it will become 
credible when it is fully operational; is that axiomatic?
    General Cartwright. Sir, I actually believe that it has 
become credible already, but it certainly will add to it when 
it is operational and people see that it does in fact stand the 
test of time.
    Senator Reed. Now, we went operational at the point at 
which the North Koreans--remind me, what did they do to make us 
go operational?
    General Cartwright. This was a launch. It occurred on the 
4th of July. We started to prepare for it much earlier than 
that. It was the Taepodong 2 along with some short- and medium-
range missiles that they launched at the same time. So we had 
the system configured in an operational way based on an 
inadequate understanding of North Korea's intent and ambiguity 
in their actions.
    With the Russians and the Chinese, we generally exchange 
information about what we are going to do, we close down air 
space. So we know what is going on, and then if something 
deviates you can react. We did not have that kind of dialogue 
with the North Koreans. It left a lot of ambiguity in the 
discussion.
    Senator Reed. But we had enough intelligence that they were 
preparing for a test missile launch that the determination was 
to ``make this operational''?
    General Cartwright. Yes, sir.
    Senator Reed. But we are in a very strange world, where 
post-operational systems, once they are made operational, stay 
operational because you have done all the testing or most of 
the testing, or what you are going to do is little add-ons. 
Here we still have some significant systems to test, radars to 
deploy, to fully implement the systems.
    General Cartwright. As I testified last year, we have a 
thin line capability. In other words, we have a command and 
control, a weapon, and a sensor layer. What we are trying to do 
now is build redundancy into that system along with scale for 
both an east and a west capability. That is what we are focused 
on right now.
    At the same time, as you alluded to, the adversary is not 
sitting still. So there will always be an ongoing activity of, 
do I need to improve this? Is it justified to go in and spend 
the money to improve it because the adversary did something 
new.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman. Thank you, Senator Sessions.
    Senator Bill Nelson. Jeff.
    Senator Sessions. General Cartwright, I remember recently 
we had a hearing and Senator Thune asked Admiral Keating, who 
would be the user or deployer, I guess, user of the national 
missile defense, do you have confidence in our missile system 
today, our defense system? He replied: ``I do have confidence 
in the system, Senator. We were prepared to deploy that 
system.'' That was on the Korean July 4 launch.
    He also noted about the September 1 successful test of last 
year after that, ``further reinforced my confidence in the 
system and I appear before you today as confident as I know how 
to be in the employability and efficacy of that system.''
    Do you share that view and do you believe that we have a 
system in place now that has really altered in some significant 
way our strategic capabilities?
    General Cartwright. I do. I have equal enthusiasm to this 
as Admiral Keating demonstrated. It has affected our 
adversaries. The dialogue has been in the open press, but also 
in the performance and the actions of our allies in 
contributing to and starting to develop indigenous capabilities 
and trying to find ways to integrate with our capability.
    There has to be some way to start to devalue particularly 
these short- and medium-range ballistic missiles. They are 
proliferating too quickly and they are removing the opportunity 
to have a debate because they act so quickly. There is no 
warning. You have to find some way to devalue this, and missile 
defense at least makes your adversary think twice before they 
would use those types of weapons.
    Senator Sessions. I think it is important both for our 
actual physical defense and to devalue a perceived advantage an 
adversary may have with a small number of missiles that might 
reach the United States. I think they could consider that they 
have a very substantial leverage, threat capability, and 
intimidation capability against the United States. That could 
lead them to be overconfident in what they do, to take actions 
that are reckless and could lead us into a situation of great 
peril, whereas if they have to know that there is a very 
realistic chance if they launch an attack it would be defeated 
and knocked down by a missile defense system, that they would 
be then further subject to very great attack in return, they 
can add the situation up.
    So I think that is good.
    I am very interested in and believe it is quite significant 
what is being discussed about a European site. Would you share 
with us your thoughts about that, what strategic benefit if we 
create a GMD site in Europe with, say, 10 interceptors?
    General Cartwright. The activity associated with Europe 
when you look at it in comparison to the Pacific activity, we 
prioritized the Pacific first and we built our capability in 
the Pacific. History will only tell what effect it really has 
had in the theater and how much of it was negotiation versus 
posture versus a credible defense, credible offense, but what 
is occurring in North Korea is not something that any of us 
would have predicted. What has occurred amongst our allies in 
using missile defense as a credible way to deter combat rather 
than encourage it has been significant.
    Senator Sessions. You are talking about our Pacific allies?
    General Cartwright. The Pacific. So the question is can you 
take those attributes and move them to Southwest Asia, Europe, 
and is there a need for that? I would say that, particularly as 
you look at Iran, who is fielding and testing and flying short- 
and medium-range ballistic missiles with a desire to move on to 
the ICBMs and space, et cetera, and couple that with their 
ambitions for nuclear capabilities, that we have a significant 
threat emerging there. Iran is certainly already a threat to 
their neighbors, and on a path by their own admission to be 
able to reach intercontinental ranges.
    Do we wait until a threat emerges to put this capability in 
place or do we go now and see if we can start to influence it 
before it happens? To me this is significant. We ought to be 
trying to inhibit this activity sooner rather than later. 
Missile defense is but one venue by which we ought to be trying 
to do that, and certainly the Nation is approaching this 
through all of the elements of national power. But we have to 
bring this into check and get this into a balance that is more 
appropriate than the current path that we are on, which 
threatens neighbors and eventually brings WMD into the 
equation.
    Senator Sessions. The North Koreans attempted to send us a 
message on July 4. I have expressed before I hope the Iranians 
do not attempt to do that in Europe on Bastille Day or some 
such day, but it certainly got our attention as a people, the 
American people. I also believe that the same principles will 
apply in Europe as you suggested are applying in the Pacific.
    I have one other specific question, but you can go.
    Senator Bill Nelson. Just on this very subject, NATO has 
not decided that it wants missile defense of its population and 
territory, has it?
    General Cartwright. As a body it has not.
    Senator Bill Nelson. Which would be prerequisite for us 
locating such missiles in Europe?
    General Cartwright. In NATO, in a NATO environment, that is 
incorrect.
    Senator Bill Nelson. Is that correct?
    General Cartwright. That is incorrect per OSD Policy, NATO 
permission is not required in order to proceed with missile 
defense in Europe.
    Senator Bill Nelson. Tell me, does a national missile 
defense system, does it have to be operationally effective to 
be credible?
    General Cartwright. The balance here is interesting. If you 
are on a path that is credible, and we are a relatively open 
society, so people watch tests, they watch and openly debate 
whether things work or did not work, but as you gain momentum 
and credibility in your test program, you may well start to 
influence deterrence before you are operational. That has, to 
some extent, occurred with missile defense.
    There is more than one side to this equation. We had an 
adversary in this case who is positioned in the area where we 
were developing missile defense. They, around July 4, decided 
to fire off some missiles. We had capability, that was 
discussed very openly. The dialogue went back and forth. All of 
that has lended to credibility in deterrence ahead of the 
actual operational capabilities we intend to field, but 
certainly recognizes where they are going and that there is 
credibility in the vector that missile defense is on.
    Does that help you?
    Senator Bill Nelson. That is a fair statement. Now, in 
order to be operationally effective, what point in our testing 
do we have to reach before we know it is operationally 
effective?
    General Cartwright. I will let program managers speak to 
their side of the equation. From an operational commander's 
perspective, I want to know that we have a dedicated command 
and control system that is always available, along with a 
sensor and weapon grid that is available and does not have to 
be taken off line for large periods of time in order to do R&D. 
We believe we will reach that somewhere towards the end of this 
year.
    Senator Bill Nelson. We are going to get into detail on 
this with General Obering, but from what you have observed do 
you have the confidence in the system through the testing that 
has occurred thus far?
    General Cartwright. Both for the short- and medium-range 
forward-deployed capabilities, the SM-3, the Patriot, and as 
the THAAD starts to emerge, and very definitely with the 
ground-based interceptor system that defends against the long-
range intercontinental, I, like Admiral Keating, believe that 
the test profile is on a positive vector, that we are very 
comfortable operationalizing that capability when we have the 
redundant command and control and sensor grids, which we should 
have this year.
    Senator Bill Nelson. But looking not at the layers--we have 
lots of layers that work. Looking at the rockets in the ground 
in Alaska, you as a combatant commander, do you think when they 
fire at an incoming ICBM if one were launched from Russia today 
that we would hit it?
    General Cartwright. One, it is focused on the rogue nation, 
so it is focused on a less sophisticated threat than Russia or 
China.
    Senator Bill Nelson. You are talking about North Korea.
    General Cartwright. Right.
    Senator Bill Nelson. If it were North Korea, we could hit 
it down with those other layers.
    General Cartwright. Not necessarily. It depends on the type 
of missile that we are going after here. With TD-2 and an ICBM, 
you are not going to have those capabilities with the shorter-
range missiles. You are going to have to have the ground-based 
interceptor. The missiles that are in the silos in Alaska and 
California are going to have to be the ones that go after that 
type of missile.
    Senator Bill Nelson. You think in a less sophisticated 
system like North Korea that we could knock it down?
    General Cartwright. Yes, sir.
    Senator Bill Nelson. Do you think we could knock down a 
Russian ICBM?
    General Cartwright. I believe there would be a lower 
probability of engagement success against a sophisticated 
threat.
    Senator Bill Nelson. We just want to get your perspective 
as a combatant commander. We are going to grill General Obering 
about this, because what we have not gotten up to this point is 
accurate information about the testing regime of this whole 
thing. We want it to be successful, but we want to know that it 
is successful, not with some just hope that it is successful.
    General Cartwright. Hope is not a good strategy. It does 
not lead to a credible defense or deterrent capability. I agree 
with you, Senator.
    Senator Bill Nelson. I have never understood how you could 
deploy something that had not been completely tested.
    General Cartwright. We have done that many times to stay on 
the cutting edge of technology against an adversary. A 
different case would be the Joint Surveillance and Target 
Attack Radar System (JSTARS).
    Senator Bill Nelson. JSTARS, that is one thing, to get up 
in a platform, in a Boeing 707, looking down at a battlefield, 
which we did very successfully in the first Gulf War. It is 
another thing to hit an incoming warhead in outer space in a 
testing program.
    General Cartwright. It is incredible what they have been 
able to do, but between myself and Admiral Keating when he was 
North Command (NORTHCOM) and is now Pacific Command (PACOM), 
and Admiral Fallon at the time, working with this program, 
working with the people that work it, we believe that it can 
work.
    Senator Bill Nelson. The Chinese have shown us that they 
can hit a less challenging target now that they have done an 
ASAT. Tell us what you think about that?
    General Cartwright. The ASAT test by the Chinese, one, was 
not a surprise. This was their third attempt. What was, for us, 
impressive was that in three attempts they made significant 
changes each time and were able to come to a successful 
intercept on their third attempt. It was impressive science and 
the engineering that went into that activity to get them to 
that level of capability.
    Having said that, direct ascent ASATs in and of themselves 
are a relatively expensive and inefficient way to address a 
space threat. We came to that conclusion. The Russians came to 
that conclusion a while back. I personally believe that the 
Chinese will come to the same conclusion. But they have 
undertaken a very disciplined and comprehensive continuum of 
capability against space, our space capabilities, all the way 
from temporary and reversible effects, examples would be GPS 
jamming, things like that, communications jamming all the way 
through direct ascent ASAT. Eventually they will probably be 
looking at co-orbital, and then the one that you really worry 
about is introducing WMD into space on a missile.
    But they have demonstrated the capability across the 
continuum. On the lower end of the spectrum, they have not only 
demonstrated it; they have fielded it into their forces. To me 
that demonstrates, one, that they have a very comprehensive 
look at what they want to be able to do as a nation in their 
region. Does that require from our standpoint that we do in 
kind the same type of activity? In other words, do we need to 
now think about weapons in space and ASAT type capabilities, et 
cetera? We have the technical capability. My belief right now 
is, knowing what we believe we know about this threat after the 
demonstration, that it is premature to start thinking about an 
arms race in space. There are, as you said earlier, many other 
ways to address a threat. We do not have to have a space 
response to that threat.
    Now, having said that, I do believe it is prudent to 
improve our posture and situation awareness in space. Who is 
doing what, why are they doing it, where are they, attribution, 
a disciplined way to know when there is an anomaly going on in 
space, and be able to then challenge as to why it is an 
anomaly, and what is the intent behind the owner of that 
particular craft?
    Those are things that we have to spend some time on. We 
have been and I believe we are on a good path in that area.
    Number two is what do we need to do about the assets that 
we have on orbit that are associated with national security? 
What kind of defensive postures do we want to have for them, 
mostly associated with being able to recognize when they are 
being threatened, be able to take rudimentary passive type 
defenses--close shutters, open gates, turn off, whatever is 
appropriate. You are not going to move a very large satellite 
which, sir, is the size of a bus out there. That is not going 
to outrun a Jaguar that is coming on a direct ascent ASAT. But 
it can tell what is happening, particularly in the lower end of 
the spectrum in jamming and RF type activities, and in 
proximity, when something is near it that we did not intend to 
be near. It can alert us. It can start to give us an 
understanding of what is going on.
    Our first activity ought to be, gee, is this something we 
planned to have happen, is this something normal in the course, 
can we explain this? If not, can we react inside of the 
decision cycle of our adversary to safe that satellite and 
engage in something other than forceful response to try to stop 
anything that would harm that asset?
    I want to get to a point where we know what is going on out 
there and we have more choices than just the kinetic option.
    Senator Bill Nelson. The initial reports are that they will 
have the capability with enough production of these ASATs by 
2010 to basically knock out most of our satellites in low earth 
orbit. So you, as a combatant commander, look at alternative 
programs. We understand that. But what are you advising us that 
you need in order that we would not go blind from low earth 
satellites?
    General Cartwright. Prompt global strike.
    Senator Bill Nelson. What else?
    General Cartwright. I need the ability to change our sensor 
capabilities, from one of cataloguing to one that is proactive. 
It does not require new sensors. It just requires thinking 
about how you use them differently so that you are predictive 
in nature and can understand threats that are emerging rather 
than reacting.
    Senator Bill Nelson. The prompt global strike would give 
you the strike in order to do what? What, knock out the launch 
vehicle that they are going to launch the ASAT on?
    General Cartwright. There are any number of nodes in the 
system in order for them to be able to knock out satellites. 
There are sensor nodes, there are command and control nodes, 
there are certainly the launch nodes. Then there is the flight 
en route. Any of those nodes should be available and we ought 
to explore alternatives to stop a conscious strike that would 
take out all of our low earth orbit satellites, and we ought to 
apply all venues of our national power to intervene on all of 
those nodes rather than setting yourself up for just one silver 
bullet, so to speak.
    Senator Bill Nelson. Jeff.
    Senator Sessions. General Cartwright, just briefly on this 
I would like you to comment on the fact that the 
Transformational Satellite Communications System (TSAT) has 
been pushed back another year. We plan three AEH satellites and 
then we need the fourth satellite, which was going to be the 
TSAT. Do you believe, since there has been a delay in the TSAT, 
that we should proceed with an Advanced Extremely High 
Frequency (AEHF) satellite to be the fourth one to complete the 
coverage, or do we need to wait on the TSAT?
    General Cartwright. AEHF provides the Nation with those 
survivable communications that we need when we are stressed, 
when we are under attack or when other communications have been 
knocked out for whatever reason. As you can imagine, our 
appetite for communications and command and control has grown 
in this information age. So that constellation of satellites is 
critical to us. We cannot afford a gap in that capability.
    If the transition between what is believed to be the next 
generation, which is based in laser communications in space, 
which is this TSAT if that is going to be delayed, then we have 
to fill that gap. Whether that is a fourth AEHF that is exactly 
like three or whether it has some of the capabilities of TSAT 
and some of the capabilities of what AEHF-3 had is something 
that we ought to talk about, or whether we are not comfortable 
with the technical risk and we just build a clone of AEHF-3. 
The program managers have to convince me of the approach. But I 
as a commander cannot stand a gap in that capability.
    Senator Sessions. I am not exactly sure what the budget 
request calls for, but we are going to need to answer that 
question. For us it is the money now.
    General Cartwright. For you it is the money. For me it is 
the capability. I would be very uncomfortable with any kind of 
gap in that satellite's capability.
    Senator Bill Nelson. We have another panel that we are 
going to have to move to. Senator Thune, do you want to ask of 
General Cartwright or you want to ask in the next panel? We 
have three votes that are coming at 11:45.
    Senator Thune. I would prefer General Cartwright.
    Senator Bill Nelson. Go ahead.
    Senator Thune. Thank you, Mr. Chairman.
    I appreciate, General Cartwright, your being here. Homeland 
security obviously is our highest priority and so it is 
important that we act in a timely and coordinated fashion to 
deter and defeat threats.
    In the National Defense Authorization Bill for Fiscal Year 
2007, it was stated that an organizational structure for 
effective management, coordination, and budgeting for the 
development and procurement of unmanned systems, including an 
assessment of the feasibility and advisability of designing a 
single department or other element of the DOD to act as 
executive agent for the Department on unmanned systems.
    At the hearing last week I asked Admiral Keating, who is 
the Commander of NORTHCOM, whether he agreed that unmanned 
systems should be established under a single department and he 
answered in the affirmative. I would like to ask you that same 
question. Do you think that establishing a single department to 
act as executive agent for unmanned aerial vehicles (UAVs) 
would enhance coordination, promote unity of effort, and reduce 
the uncertainty and the overlap of responsibilities in the 
event of a natural or manmade disaster?
    General Cartwright. I am trying to distinguish here and 
just make sure that I get the right question, but this is 
talking agency to agency, DOD, Department of Homeland Security 
(DHS)?
    Senator Thune. Correct.
    General Cartwright. Okay. Yes, I would agree with Admiral 
Keating. It would help us in moving in a direction to be able 
to provide the services to whatever agency needed them and to 
be able to provide surge capability. The advantage of DOD, 
quite frankly, is that we can plan surge, ability to have 
platforms that are multifunctional and have multiple customers. 
DOD could use it, DHS could use it, Justice could use it. That 
capability then would allow the Nation to have depth. If each 
agency bought them they would buy the best business case, there 
would be no surge. You would buy exactly the number of hours 
you desired for Border Patrol or whatever you would use it for.
    Having a single agency provide that--STRATCOM opinion--
would allow you to have the attributes that you laid out: unity 
of command and effort and all those other things.
    Senator Thune. I also posed the following question to 
Admiral Keating at last week's hearing and he answered the 
question affirmative. On March 5 of this year the Air Force 
Chief of Staff, General Moseley, sent a memo to each of the 
Services as well as the commanders of the combatant commands, 
which recommends that the Air Force be the executive agency of 
report medium and high altitude UAVs. I guess the question I 
would ask of you is, since the existing role of the Air Force 
is to conduct joint interdependent warfare from the air and 
through space and cyberspace, and since they have a proven 
record of providing vital air space and cyberspace capabilities 
for the Services, would the Air Force be the best choice to be 
the executive agent for fielding and integrating and operating 
UAVs?
    General Cartwright. I know the people that wear this 
uniform may not agree with me, but you are exactly right.
    Senator Thune. I suspect you are probably right, too. I 
appreciate the answer to that.
    I know you are a little pressed for time here, Mr. 
Chairman. But I wanted to ask as well: You said in your 
prepared testimony that we lack the capability to respond 
promptly to globally dispersed or fleeting threats without 
resorting to nuclear weapons, but then go on to say that your 
use of a nuclear weapons system in prompt response may be no 
choice at all.
    General, what challenges do you face in establishing a 
conventional ballistic missile that can take out a globally 
dispersed or a fleeting threat within minutes, and what other 
alternatives could we explore that would allow us to have the 
capability to respond promptly to globally dispersed or 
fleeting threats without resorting to nuclear weapons?
    General Cartwright. We have gone through the conventional 
prompt global strike discussion earlier, but to cut to the 
chase, there probably is not another capability that can reach 
out and touch, say, whether we go back to the ASAT example or 
we talk about terrorist camps or someone producing WMD. Our 
first choice would be conventional forces that were near the 
problem, and that should solve a large percentage of the 
activity.
    The next issues are those targets where we are not based in 
theatre. A lot of our adversaries make sure that they do not 
attack us where we are, so to speak. They go where we are not, 
look for our seams, things like that. So how many of those 
targets are there? Of what regret would they be if we allowed 
them to just have 5 or 6 days free time, so to speak? Which 
targets can we not reach no matter what we try to do 
conventionally, deep strategic depth in large countries, places 
and things like that, where you are not going to drive a bomber 
or a tank into?
    Those are the targets you have to focus on. Which of those 
targets can we get with the prompt global strike capability 
that we have today? That was the hedge of the Trident, to 
increase the credibility of deterrence and keep people from 
developing threats because we could hold them at risk, and 
where do we want to be in the future? What did we learn out of 
the debate last year? What would be the attributes of a prompt 
global strike system that does not over fly a third party, is 
much less ambiguous about what its capability is and where it 
is going, those types of questions.
    We believe that we can take those attributes that emerged 
out of this debate over the past year and bring them into a new 
system. The Air Force and the Navy are both proposing systems 
along those lines.
    Senator Thune. I appreciate that. I know that some of the 
ground has been covered already and I have a question, Mr. 
Chairman, that you may have already had him answer regarding 
space systems, but I will submit that for the record in the 
interest of time.
    So thank you, General, for your service and continue to 
fight the good fight. Thanks.
    Senator Bill Nelson. Jeff.
    Senator Sessions. Just briefly on Senator Thune's line of 
questioning. I think you are not leading combat ground troops 
in Iraq at this very moment and I think those uniformed 
personnel may not agree with you. In Fallujah right after the 
big battle there, the marines had a private contract with a 
company to provide their UAV coverage. This was of course 
several years ago.
    I have for 4 or 5 years really been concerned that the 
ground soldier is not getting sufficient resources and 
attention. We have this magnificent Global Hawk and other 
things that the Air Force has produced that are extremely 
valuable. I have no doubt that it is. But it also is by far the 
most expensive. So right now every day we have soldiers on the 
ground that could benefit from higher resolution, more and 
cheaper UAVs, and I am frustrated that they are not there.
    So as we go through this thing, Senator Thune, we do not 
want to be bureaucratic about who gets to be the lead and all 
of that, but there is a very real concern of mine that if we 
use this fabulous technology that we have we could produce a 
better UAV to help our Army and our Marines, who are in very 
difficult circumstances right now. That is just my two cents 
worth.
    General Cartwright. My comment referenced the Air Force 
Executive Agency question for medium and high UAVs, not to take 
away the tactical systems. The Services are going to be able to 
field their tactical systems. This is for the high altitude 
systems.
    Senator Sessions. I am not sure how much they do not--the 
same technologies. I have always been frustrated. We are 
getting these stovepipes and situations in which we are not 
having a common vision. So how we achieve that, I do not know. 
I do agree that it is an important issue. We need to move 
forward with it. The Air Force has gotten the lion's share of 
the money and that is not going to change. But I do want to be 
sure that the ground soldier at this point in our Nation's 
history is getting a lot of attention and their needs are being 
met.
    General Cartwright. You will never find me advocating 
against supporting the ground soldier or marine.
    Senator Sessions. I know.
    General Cartwright. By the same token, we have the paradigm 
of trust, that the definition has been over the years I own it 
and therefore I can trust it and that is the only way that I 
can accomplish my mission. I am saying, similar to what the 
Senator is saying, that we cannot afford that. We have to think 
of better integrated systems that give the ground combatants 
the capabilities and the information they need when they need 
it, where they need it, rather than dedicating to each 
individual transaction a dedicated resource. We just cannot 
afford that any more.
    Senator Sessions. My inexpert opinion is that we have not 
had sufficient, aggressive, committed attention to providing 
that resource to the ground soldier, and I would like to see us 
do better, however we come out on the issue.
    Senator Bill Nelson. We are going to have to move on. Just 
one other question. We have an experimental satellite up there 
called TACSAT-2 and the sensor has not been turned on. What is 
going on?
    General Cartwright. The sensors are both turned on. There 
are two sensors on that package. They have had challenges. It 
probably would be easier for me to take you to a closed session 
to discuss it.
    Senator Bill Nelson. Let us do that.
    General Cartwright. But it is a wonderful asset and both 
sensors are in fact operating now. They have not operated as 
quickly as we wanted them.
    [The information referred to follows:]

    The TACSAT-2 has two sensors and they were both turned on in 
January of this year. Currently both the imager and the signals 
intelligence payload are being calibrated and fine tuned. We expect the 
imager fine tuning and the target indicator experiment (TIE-signals 
intelligence payload) calibration to last into May, with both sensors 
to be ready for use during a combatant command exercise in mid- to 
late-June.

    Senator Bill Nelson. We would like to know the answer to 
that, so if you can get with us on that, I appreciate it.
    Thank you, General Cartwright, and would the next panel 
please come up. [Pause.]
    Your full statements are, of course, included in the 
record. As you can see how we are conducting this conversation, 
we do not want you to read any testimony. We are just going to 
have a conversation, and we are going to interrupt you with 
questions as we go. We are going to have to be mindful that in 
30 minutes three votes are called. So let us see how far we get 
on this. Senator Sessions and I want to welcome all four of 
you. So, Mr. D'Agostino, would you please start.

 STATEMENT OF HON. THOMAS P. D'AGOSTINO, ACTING ADMINISTRATOR, 
 NATIONAL NUCLEAR SECURITY ADMINISTRATION, DEPARTMENT OF ENERGY

    Mr. D'Agostino. Thank you very much, Mr. Chairman, and I 
appreciate the opportunity to come talk to you today about RRW 
and our Complex 2030 vision. General Cartwright talked a lot 
about the RRW and the attributes and features that it can 
provide. There is an element that we probably should talk about 
a little bit more and that is the impact on our nuclear weapons 
complex, which needs to be brought out. I think it is very 
important for you to understand that.
    Our complex is a Cold War complex. It was largely put 
together over the last 50 years. In many cases we have 
buildings that we are still using that are over 50 years old, 
using production and manufacturing techniques that we used 50 
years ago. We know a lot more today than we did in the past 
about our impact on the environment, how to make things better, 
how to use materials and clean technologies that have less of 
an impact on the workforce.
    I believe we are really at a crossroads here. In addition 
to the transformational aspects of the warhead itself, which I 
would be very happy to answer questions about, there is an 
element that does not get talked a lot about, and that is what 
I would say the hidden legacy costs of doing things the way we 
used to do them. There is, to my understanding, a fairly 
significant sized budget in the Department of Labor to pay for 
and take care of our energy employees that have become sick as 
a result of work that they have done over the last 50 years. I 
think that budget is about $1.4 billion. We do not talk a lot 
about that, but it is important when we consider that when we 
look at the nuclear weapons stockpile of the future.
    My intent is not to replicate the past with respect to how 
we have done things. I want a much smaller nuclear weapons 
complex. I want a complex that recognizes and takes account for 
and designs in less of an impact on the environment. I want a 
complex that has a reduced impact on our workforce and 
increases workforce safety. I want, of course, all the 
attributes that General Cartwright talked about, and there are 
some classified details of that and I would welcome the 
opportunity to come brief the committee on those as well.
    I think when we factor all of those things in, and 
particularly the impact on our workers, that we will recognize 
that we are really at a crossroads here because the Nation, in 
order to maintain a deterrent--it is not only about maintaining 
warheads--it is about maintaining the people, the buildings, 
the tools, the techniques, to be able to respond and provide 
future governments the opportunity to move as the Nation needs.
    I do not know what is going to happen 20 years from now, 
but I do know I want to preserve the flexibility of Congress 
and those future Presidents to be able to respond.
    So as we go from 70 million square feet, where we were at 
the end of the Cold War, to the reduction to 35 million square 
feet in our complex, and I think we can actually reduce it down 
to about 24 to 25 million square feet with RRW. I think that 
drives us in the right direction--smaller, more efficient, 
cleaner, less of an impact on our workforce, and reduce those 
hidden legacy costs that our taxpayers are paying for right now 
and that we do not spend much time talking about.
    Without reading my oral statement, I think that is one of 
the points I am passionate about and that I would like to move 
forward with.
    [The prepared statement of Mr. D'Agostino follows:]

            Prepared Statement by Hon. Thomas P. D'Agostino

                              INTRODUCTION

    Mr. Chairman, thank you for the opportunity to appear before you 
today to discuss nuclear weapons policies and programs. My remarks 
today focus on the Reliable Replacement Warhead (RRW) program and our 
planning for the future nuclear weapons complex infrastructure--we call 
it Complex 2030. This is my first appearance before this committee as 
the acting Department of Energy (DOE) Under Secretary for Nuclear 
Security and Acting Administrator for the National Nuclear Security 
Administration (NNSA) and I want to thank all of the Members for their 
strong support for critical national security activities.
    My testimony today will focus on the broad strategic context for 
our nuclear weapons program and, more specifically, describe how the 
experiences gained and lessons learned over the past 15 years have 
shaped where we are today and where we are heading in our efforts to 
``transform'' the nuclear weapons stockpile and supporting 
infrastructure. I will do this by addressing the following questions:

        <bullet> What is the role of nuclear weapons in the post-Cold 
        War era?
        <bullet> What was our original strategy for sustaining the 
        stockpile and supporting infrastructure?
        <bullet> Why do we need to adjust that strategy and why now?
        <bullet> Where do we want to be in 2030?
        <bullet> How is our RRW strategy consistent with 
        nonproliferation and arms control?

     WHAT IS THE ROLE OF NUCLEAR WEAPONS IN THE POST-COLD WAR ERA?

    The policies guiding our nuclear weapons programs, and our 
strategic capabilities more generally, evolve from the 2001 Nuclear 
Posture Review (NPR), the follow-on Strategic Capabilities Assessment 
(which led to the dramatic reductions in the nuclear weapons stockpile 
approved by the President and announced in May 2004), the 2006 
Quadrennial Defense Review, and the efforts of the Nuclear Weapons 
Council leading up to the RRW design selection announcement earlier 
this month.
    The totality of this work has resulted in a number of conceptual 
breakthroughs in our thinking about nuclear forces--breakthroughs that 
have enabled concrete first steps in the transformation of our nuclear 
forces and capabilities. The recognition of a more dynamic and 
uncertain geopolitical threat environment but one in which Russia does 
not pose an immediate threat, the broad reassessment of the defense 
policy goals that we want nuclear forces to serve, and the evolution 
from a threat-based to a capabilities-based strategic force posture 
have enabled dramatic reductions in the nuclear force as well as 
reductions in operationally-deployed strategic warheads that were 
codified in the Moscow Treaty. This has also led to the deep reduction 
in the total nuclear warhead stockpile required to support 
operationally-deployed forces.
    In response to the new and changing global environment, the United 
States has appropriately reduced its reliance on nuclear forces. 
Precision conventional strike and missile defenses are playing a 
relatively larger role in our overall security strategy and help 
strengthen deterrence by providing the President with a broader range 
of response options that can convince adversaries that any aggressive 
plans would not succeed. But nuclear weapons are still an important 
component of our security. Moreover, as we continue to draw down 
nuclear forces, we intend to rely more on a nuclear weapons research 
and development (R&D) and manufacturing infrastructure that can respond 
in a timely manner and decisively to any new threats that do emerge. 
The concept that in an uncertain threat environment we can achieve 
defense policy goals by relying less on ``inventory'' and more on 
``capability to produce'' was a profound outcome of the NPR.
    What then is the role of nuclear weapons? Why, after the Cold War, 
are we retaining any nuclear weapons at all? Why are we retaining the 
number we plan to retain? All are fair questions. The last one is, of 
course, a work in progress--the President has said that he seeks the 
lowest number of weapons consistent with our Nation's security and has 
moved aggressively to that end since taking office. He has authorized a 
reduction in the stockpile by nearly a factor of two since assuming 
office. (Details about this reduction, and the rationale for the size 
and composition of the remaining stockpile were provided in the 
classified May 2004 Report to Congress on the Revised Nuclear Warhead 
Stockpile Plan.) As a result of this and earlier reductions, the 
stockpile today is one-quarter its size at the end of the Cold War.
    Several nations currently possess nuclear, chemical, and/or 
biological weapons, and the means to deliver these weapons, and have 
given no indication they are willing to give them up. But the rationale 
for our own nuclear forces is broader. Quite simply, U.S. nuclear 
weapons:

        <bullet> Deter nuclear and other weapons of mass destruction 
        (WMD) threats against the U.S., its forces, and its allies. 
        This implies an ability to hold at risk those elements of power 
        that a potential adversary values. While we should not expect 
        that our nuclear weapons will deter terrorist WMD threats, they 
        can deter transfer of nuclear weapons and other WMD from rogue 
        states to terrorist groups.
        <bullet> Deter large-scale wars of aggression against the U.S. 
        or its allies.
        <bullet> Dissuade potential adversaries from trying to match or 
        exceed our nuclear capabilities or from engaging in strategic 
        competition. This requires that we maintain a combination of 
        forces and infrastructure so that a future competitor seeking 
        to gain some nuclear advantage would conclude that its buildup 
        could not occur more quickly than the U.S. could respond.
        <bullet> Assure allies of our continuing commitment to them and 
        of our ability to make good on that commitment--the implication 
        is that nuclear forces must be effective and reliable. This 
        strengthens our ties with allies and also serves our 
        nonproliferation objectives because those allies with the 
        capability to develop nuclear weapons can continue to forego 
        doing so, safe in the knowledge of the reliability of the U.S. 
        nuclear umbrella.

    More broadly, nuclear forces are the Nation's ``insurance policy'' 
for an uncertain future and remain a key element of U.S. national 
security strategy. As a result, NNSA must continue to assure the safety 
and reliability of the U.S. nuclear stockpile and, consistent with the 
President's direction to continue a nuclear test moratorium, do so 
without nuclear testing.

    WHAT WAS OUR ORIGINAL STRATEGY FOR SUSTAINING THE STOCKPILE AND 
                       SUPPORTING INFRASTRUCTURE?

    What post-Cold War, post-nuclear testing strategy did we decide 
would best sustain the stockpile and supporting infrastructure? In the 
years following the end of the Cold War, budgets for nuclear weapons 
programs were in ``free fall''--funding was simply not available to 
sustain both R&D and production capabilities. A strategic decision was 
made to sustain and strengthen weapons program scientific and technical 
activities in order to ensure a future capability to certify the 
stockpile. While this was a reasonable decision given the limited 
resources at that time, in effect we mortgaged the present to ensure 
the future.
    That future was seen as science-based stockpile stewardship and 
life extension of our Cold War legacy warheads.
    When the U.S. stopped nuclear testing in 1992, it sought to replace 
this critical tool with a Stockpile Stewardship Program (SSP) that 
emphasized science and technology coupled with a vigorous experimental 
program as a means to understand better the physics and chemistry of 
nuclear weapons and their operation, and provided enhanced warhead 
surveillance tools so that we would have a much better chance of 
detecting the onset of problems in the stockpile.
    The goal of the SSP has been to predict the effects of aging in our 
warheads so that we could replace aging components before they degraded 
overall system reliability. The end of the Cold War provided this 
opportunity--our focus was no longer on a continuous cycle of fielding 
new warheads to provide new military capabilities, but on sustaining 
existing nuclear capabilities.
    We call this ``life extension''--the process of observing the aging 
of individual components of warheads and replacing them before they 
fail. Consider this challenge. Your 1965 Ford Mustang, which you 
maintain as a collector's item, has been sitting in your garage for 40 
years. You monitor it for such items as a clogged carburetor, corrosion 
in the engine block, battery discharge, etc. and you replace parts when 
you deem it necessary. But you don't get to start the engine and take 
it for a test drive. The trick is to assure that if you do need it 
right away that it would work with certainty. That's what we have to do 
in a nuclear weapons life extension program (LEP).
    By the mid-1990s we had embarked on a program to acquire the new 
tools of stockpile stewardship--advanced computing, high energy density 
physics capabilities, modern diagnostics facilities, enhanced 
surveillance, etc.--that would provide the best available alternative 
to nuclear tests to assure continued confidence in stockpile safety and 
reliability. Since then, we have made good progress in acquiring and 
employing these new capabilities.
    In 2001 when this administration took office, it thus inherited:

        <bullet> A strong science base and surveillance program.
        <bullet> A safe and reliable, but aging stockpile, with serious 
        questions about the future.
        <bullet> A plan for warhead life extension (but no new 
        development programs underway).

    But, it also inherited a deteriorating or nonfunctioning 
manufacturing complex characterized by:

        <bullet> Protracted underfunding
        <bullet> Idled production capabilities
        <bullet> Inability to produce plutonium parts
        <bullet> Inability to produce/extract tritium
        <bullet> Key facilities not being maintained
        <bullet> Overly risk averse culture
        <bullet> Aging workforce

    To be fair, some declining production capabilities were not needed 
at that time to support the stockpile. We were able, after several 
years delay, to rebuild components for the W87 LEP which commenced in 
the 1990s and completed in 2004. While we couldn't produce tritium, we 
didn't need to then because the large reductions in the stockpile at 
the end of the Cold War ensured adequate tritium reserves for an 
extended period for remaining warheads. Nonetheless, by not maintaining 
some key production capabilities, we ran additional risks in terms of 
not being responsive to unanticipated events.
    Despite problems with the production infrastructure, follow-on 
efforts to the 2001 NPR led to a substantial reduction in the size of 
the nuclear stockpile. But, because we couldn't produce warheads when 
and if they were needed--to hedge technical problems in the stockpile 
or adverse geopolitical changes--we still had to maintain a larger 
stockpile than desired.
    As a result, and in response to the NPR's call for a more 
responsive defense R&D and manufacturing infrastructure, we began to 
restore a balance in the overall program by:

        <bullet> Continuing to fund R&D and aggressive stockpile 
        surveillance,
        <bullet> Implementing comprehensive stockpile life extension 
        programs, and
        <bullet> Restoring lost production capabilities and modernizing 
        others as required.

    The NPR was instrumental in our receiving additional resources to 
restore this balance. Indeed, over the past few years we have made 
substantial progress including initial steps to achieve the Complex 
2030 vision for modernizing the nuclear weapons infrastructure. 
Specifically, we

        <bullet> Restored tritium production and extraction from 
        irradiated assemblies in TVA reactors,
        <bullet> Restored key uranium operations at Y-12 in time to 
        meet demanding LEP schedules,
        <bullet> Recruited/retained strong workforce with the right 
        skills for the mission,
        <bullet> Are recapitalizing facilities suffering from years of 
        deferred maintenance,
        <bullet> Are implementing plans to ramp up to an interim 
        plutonium pit production capacity of 30-50 pits per year at Los 
        Alamos by 2012,
        <bullet> Are reducing the number of sites with Category I/II 
        special nuclear materials (SNM) and consolidating such material 
        within the remaining sites,
        <bullet> Are dramatically accelerating dismantlement of retired 
        warheads, and
        <bullet> Are streamlining and improving business practices 
        including managing risk more effectively (e.g., recent success 
        in increasing throughput at our Pantex facility).

    But we have a ways to go including defining the right path to 
restore our ability to produce plutonium components in sufficient 
quantity to support the long-term needs of the stockpile.

          WHY DO WE NEED TO ADJUST THAT STRATEGY AND WHY NOW?

    In 2003 we ``took stock'' of 10 years of the SSP and came to some 
important conclusions. Let me first reemphasize that the SSP is 
working--today's stockpile remains safe and reliable and does not 
require nuclear testing. This assessment is based on a foundation of 
past nuclear tests augmented by cutting edge scientific and engineering 
experiments and analysis including improved warhead surveillance. Most 
importantly, it derives from the professional (and independent) 
judgment of our lab directors advised by their weapons' program staffs.
    As we continue to draw down the stockpile, however, we have become 
concerned that our current path--successive refurbishments of existing 
warheads developed during the Cold War and to stringent Cold War 
specifications--may pose an unacceptable risk to maintaining high 
confidence in system performance over the long-term.
    Specifically, the directors of our national laboratories raised 
concerns about their ability to assure the reliability of the legacy 
stockpile over the very long-term absent nuclear testing.
    The evolution away from designs certified with underground nuclear 
tests, resulting from inevitable accumulations of small changes over 
the extended lives of these highly-optimized systems, is what gives 
rise to the concerns.
    While we are confident that the stockpile stewardship program is 
working and that today's stockpile is safe and reliable, it is only 
prudent to explore alternative means to manage risk in seeking to 
ensure stockpile reliability over the long-term.
    This is, in part, the impetus for our work on RRW: to ensure 
sustainment of the military capabilities provided by the existing 
stockpile, not develop warheads for new or different military missions.
    A second major driver was the realization after September 11 that 
the security threat to our nuclear warheads had fundamentally changed. 
The security features in today's stockpile are commensurate with 
technologies that were available during the Cold War and with the 
threats from that time. Major enhancements in security are not easily 
available via retrofits in the legacy stockpile.
    Specifically, the RRW program is examining the feasibility of 
providing replacement warheads for the legacy stockpile. Relaxing Cold 
War design constraints that sought maximum yield in a minimum size/
weight package will allow design of replacements that are easier and 
less costly to manufacture, are safer and more secure, eliminate 
environmentally dangerous materials, and increase design performance 
margins, thus ensuring long-term confidence in reliability.
    RRW, therefore, also offers a means to transform to a much more 
efficient and responsive, much smaller, and, we believe, less costly 
nuclear weapons R&D and production infrastructure.
    In 2005, an RRW design competition was initiated involving two 
independent teams from our nuclear weapons design labs--Lawrence 
Livermore and Los Alamos, both working with Sandia. A competition of 
this sort has not taken place in more than two decades, and the process 
has provided a unique opportunity to train the next generation of 
nuclear weapons designers and engineers.
    Last November, the joint DOD-DOE Nuclear Weapons Council concluded 
that RRW was a feasible strategy to sustain the nuclear stockpile over 
the long term.
    In March 2007, the NNSA and DOD jointly announced the results of 
the design competition. The Lawrence Livermore/Sandia design was 
selected, and an integrated design team led by those two labs will head 
up joint efforts to develop a replacement warhead for a portion of the 
Nation's sea-based nuclear deterrent. I want to emphasize that this 
announcement addressed selection of a baseline design for RRW in order 
to develop a detailed cost, scope and schedule; it was not a decision 
to begin engineering development of a warhead.
    The need to start RRW now is driven by two basic reasons. First, 
the introduction of the RRW system provides the benefit of additional 
diversity in the Nation's sea-based nuclear force. RRW will replace a 
portion of W76 warheads deployed on the Trident SLBM system. That 
particular warhead comprises a very high percentage of our planned 
future strategic nuclear deterrent force under the Moscow Treaty and an 
even larger fraction of the force available on a day-to-day basis. 
Although we have not uncovered any problems with the W76, it is prudent 
to hedge against a catastrophic failure of that system by introducing a 
genetically-diverse warhead design into the SLBM force. Our ability 
over the next 15 years to produce new plutonium parts for the RRW is 
very limited--the sooner we start the sooner we can achieve this 
diversity.
    Second, the RRW effort has provided a critical opportunity to 
ensure the transfer of nuclear design skills from the generation that 
honed these skills with nuclear testing to the generation that will 
replace them. In 5 years, nearly all of that older generation will be 
retired or dead. Without this opportunity coming at this time (and not 
5 years hence), we would not be able to sustain and transfer the key 
knowledge and skills necessary to maintain the nuclear stockpile.
    Finally, our decision to embark on the path to an RRW does not 
result from a failure of the stockpile stewardship program, as some 
have suggested, but is a reflection of its success. The SSP has 
revealed the need to pursue this approach. Moreover, aggressive pursuit 
of the new scientific tools currently in use and being developed under 
the SSP is essential, not only to sustain existing warheads for as long 
as they are needed, but to our efforts to design, develop and produce 
replacement warheads that are safer, more secure, more reliable, and 
cost-effective over the long-term without the need for nuclear testing.

                    WHERE DO WE WANT TO BE IN 2030?

    We seek a Complex 2030 infrastructure that can respond on needed 
timescales to technical problems in the stockpile or emerging 
geopolitical threats. Such an infrastructure will provide, sustained 
long-term confidence in stockpile reliability, enhanced stockpile 
safety and security, a smaller stockpile with reduced likelihood of 
requiring future underground nuclear tests, excellence in weapons-
related science and R&D, a modernized, fully capable, warhead 
manufacturing facilities with a production capacity of about 100 
warheads per year (not the 2,000 warheads per year capacity we had 
during the Cold War), and periodic exercise of key nuclear design 
capabilities that have lain dormant for two decades.
    With such an infrastructure we believe that we can achieve reduced 
DOE and DOD ownership costs for nuclear forces over the long term. A 
smaller stockpile means a lower overall cost to certify, remanufacture, 
refurbish, and dismantle warheads. A complex in which we consolidate 
nuclear materials in fewer locations will help contain ever-increasing 
resources devoted, post-September 11, to physical security. Finally, we 
will continue to reduce costs by more efficient business practices, 
including better management of the safety and security risks inherent 
to our work.

   HOW IS OUR RRW STRATEGY CONSISTENT WITH NONPROLIFERATION AND ARMS 
                                CONTROL?

    The RRW strategy itself has positive implications for 
nonproliferation.
    These warheads, by design, will not provide a new role for nuclear 
weapons or new military capabilities but will help sustain the military 
capabilities of the existing nuclear arsenal.
    Because these warheads would be designed with more favorable 
performance margins, and be less sensitive to incremental aging 
effects, they would reduce the possibility that the United States would 
ever be faced with a need to conduct a nuclear test to diagnose or 
remedy a stockpile reliability problem. This supports overall U.S. 
efforts to dissuade other nations from conducting nuclear tests.
    In fielding RRWs, we will not be increasing the size of the 
stockpile. These warheads will replace existing warheads on at most a 
one-for-one basis.
    Once a transformed production complex demonstrates that it can 
produce replacement warheads on a timescale in which geopolitical 
threats could emerge or respond in a timely way to technical problems 
in the stockpile, then we can go much further in eliminating spare 
warheads--further reducing the nuclear stockpile and, along with a host 
of other activities, demonstrating our commitment to Article VI of the 
Nonproliferation Treaty (NPT).
    Our near-term strategy also includes an increased rate for 
dismantling warheads that are retired from the stockpile. Warhead 
dismantlements ensure that stockpile and infrastructure transformation 
is not misperceived by other nations as ``restarting the arms race.''
    A safe, secure and reliable U.S. nuclear deterrent, credibly 
extended to allies, supports U.S. nonproliferation policy because 
allies that are confident in U.S. extended nuclear deterrence 
guarantees will not be motivated to develop and field their own nuclear 
forces. This nonproliferation role of U.S. nuclear weapons is often 
underestimated.
    Finally, we should not forget that the human capital and technical 
expertise built up over decades to support nuclear weapons programs are 
the same resources that support nonproliferation, arms control and 
threat reduction efforts. The linkages and synergies among these 
programs enhance overall security.

                               CONCLUSION

    Let me conclude by summarizing my basic message:

        <bullet> To meet its own security needs and those of its 
        allies, the United States will need a safe, secure, and 
        reliable nuclear deterrent for the foreseeable future. We will 
        achieve this with the smallest nuclear stockpile consistent 
        with our Nation's security.
        <bullet> We see increased risk, absent nuclear testing, in 
        assuring the long-term reliability of today's stockpile--i.e., 
        the legacy warheads left over from the Cold War--that undergo a 
        continuous process of aging, and refurbishment of aging 
        components, and consequently accumulate small changes away from 
        the original tested and certified designs.
        <bullet> Today's nuclear weapons complex is not sufficiently 
        ``responsive'' to technical problems in the stockpile or to 
        possible adverse geopolitical change.
        <bullet> Our task is to work to ensure that the U.S. nuclear 
        weapons enterprise, including the stockpile and supporting 
        infrastructure, meets long-term national security needs.
        <bullet> Our approach is to develop and field replacement 
        warheads for the legacy stockpile as a means to transform both 
        the nuclear stockpile and supporting infrastructure.
        <bullet> These warheads will have enhanced safety and security 
        features.
        <bullet> We intend to accomplish all of this in a manner fully 
        consistent with our obligations under the NPT and without 
        requiring underground nuclear tests.

    I am confident that NNSA is headed in the right direction in the 
coming fiscal year. The budget request will support continuing our 
progress in protecting and certifying our Nation's strategic deterrent, 
transforming our nuclear weapons stockpile and infrastructure, reducing 
the global danger from proliferation and WMD, and enhancing the force 
projection capabilities of the U.S. nuclear Navy. It will enable us to 
continue to maintain the safety and security of our people, 
information, materials, and infrastructure. Taken together, each aspect 
of this budget request will allow us to meet our national security 
responsibilities during the upcoming fiscal year and well into the 
future.
    Our fiscal year 2008 budget request for weapons activities follows 
along with a statistical appendix that contains the budget figures 
supporting our request. I look forward to answering any questions on 
the justification for the requested budget.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Bill Nelson. General?

STATEMENT OF MAJ. GEN. ROGER BURG, USAF, DIRECTOR OF STRATEGIC 
    SECURITY IN THE AIR, SPACE, AND INFORMATION OPERATIONS, 
             HEADQUARTERS, UNITED STATES AIR FORCE

    General Burg. Thank you, Senator. It is a pleasure to be 
here representing the Air Force.
    You can see in our budget submission this year that there 
is a lot of attention paid to strategic forces. There is 
modernization efforts in the bomber force, in the ICBM force, 
with reductions being taken in both at the same time. You will 
see a significant amount of money applied to programs that 
might lead to a conventional strike capability to support 
General Cartwright's capability gap for prompt global strike. 
You will see some very significant reductions in the overall 
nuclear force, this year principally in the cruise missile area 
of our nuclear force.
    I will open with that and I am happy to answer any 
questions or discuss any aspects of that with the committee.
    [The prepared statement of General Burg follows:]

            Prepared Statement by Maj. Gen. Roger Burg, USAF

                            I. INTRODUCTION

    Mr. Chairman and distinguished members of the subcommittee, thank 
you for the opportunity to appear before you today to discuss our 
Strategic Nuclear posture.
    Your Air Force is fully engaged around the world fighting terrorism 
and insurgents in the global war on terror and fulfilling our roles as 
airmen for the joint team. Simultaneously, we stand prepared for rapid 
response to conflict around the globe as our Nation's Strategic 
Reserve. Air forces succeed when they anticipate and are allowed to 
shape the future strategic environment and develop the capabilities for 
the next fight. Air forces succeed when they remain focused on their 
primary mission as an independent force that is part of an 
interdependent joint team. We fly, fight, and dominate in three 
warfighting domains--air, space, and cyberspace--giving our Nation 
sovereign options to employ military force like no other nation.

                           II. WE ARE AT WAR

    Supporting U.S. Central Command and the global war on terror is 
just a portion part of what your Air Force does for our Nation's 
defense. Your Air Force has responded (or been prepared to respond) 
across the entire spectrum of conflict--from rapid humanitarian aid to 
major combat operations.
    Fighting and winning the global war on terror is our number one 
priority; however, it is important that we maintain focus on protecting 
our Nation from other potential enemies, both traditional and 
nontraditional. Currently, your Air Force has over 27,000 airmen, or 
about 5 percent of the Total Force deployed in support of global 
operations. We also have approximately 213,000 personnel, or about 40 
percent of the total force, on-line supporting the combatant commands 
(COCOMs) daily. This number includes airmen supporting Intercontinental 
Ballistic Missiles (ICBMs), missile warning and space control, the 
satellite control network, strategic bombers, Special Operations, and 
combat search and rescue forces. It also includes steady-state 
rotational forces performing a global mission but not necessarily under 
the direct control of a COCOM Commander or assigned to a particular 
area of operation. Examples include Air Expeditionary Force (AEF) 
postured continental U.S. fighters and theater airlift forces, base-
level support troops, Air Force Major Command staffs, forces outside 
the continental U.S. assigned to Pacific Air Forces and U.S. Air Forces 
in Europe, global support, and strategic forces. Clearly airmen needn't 
be deployed to be employed.
    Today's strategic forces deliver uncompromising defense to our 
Nation, no differently than they have accomplished for 60 years. Since 
the beginnings of the Cold War, airmen continue to stand silent sentry 
around the clock to protect and defend our national security, and 
respond to any adversary should deterrence fail.

                     III. STRATEGIC NUCLEAR FORCES

Air Force Intercontinental Ballistic Missiles
    As the Secretary of the Air Force stated in his response to 
concerns regarding the Minuteman III (MMIII) force reduction, ``the 
ICBM force has provided a rapid-reaction nuclear deterrent capability 
since the 1960s. Today, the MMIII is the Nation's only operational 
ICBM.'' During the 2005 Quadrennial Defense Review (QDR), the Defense 
Department agreed with U.S. Strategic Command (USSTRATCOM) 
recommendation to reduce the ICBM force from 500 to 450.
    The National Defense Authorization Act (NDAA) for Fiscal Year 2007 
mandated that the Air Force modernize MMIII ICBMs in the United States 
inventory as required to maintain a sufficient supply of launch test 
assets and spares to sustain the deployed force of such missiles 
through 2030. The Air Force has ongoing Life Extension Programs 
designed to extend ICBM service life beyond 2020. Additionally, the Air 
Force is currently analyzing MMIII missile and ground systems to 
determine what activities are required to sustain the force through 
2030.
    The Air Force plans to use an incremental approach to field an ICBM 
follow-on system that will address aging components while supporting 
COCOM requirements. The Office of the Secretary of Defense Land-Based 
Strategic Deterrent Overarching Integrated Product Team will review an 
initial system assessment in August 2007. The USAF Land-Based Strategic 
Deterrent Initiative will be addressed in the fiscal year 2010 Program 
Objective Memorandum (POM). The AF will complete the concept refinement 
and pre-Milestone A activities this year.
ICBM Demonstration Validation
    Responsive infrastructure is a key component of the New Triad and 
serves as a backstop that allows us to reduce the nuclear arsenal 
without compromising our strategic deterrent posture. A comprehensive 
and aggressive demonstration validation program adds to the deterrent 
value of the force. The ICBM Demonstration Validation Program is at the 
core of our efforts to preserve our ballistic missile capability. It 
allows us to respond to emerging issues in the Minuteman fleet while 
identifying methods to reduce life-cycle costs and improve nuclear 
safety and surety. The unique capabilities exercised by this Program 
are essential to keep the Minuteman weapon system operationally viable 
through 2030.
ICBM Life Extension Programs (LEPs)
    The MMIII ICBM is undergoing major LEPs of components from the 
nozzle to the nose-tip, extending MM III service life through 2020 and 
beyond. All programs are currently on budget and on schedule. 
Modifications include:

          1. Guidance Replacement Program: Replaces guidance set 
        electronics on MMIII and improves reliability on the ground and 
        in flight. A total of 440 sets have been delivered and the 
        program will be complete with the delivery of the final 32 
        guidance sets in fiscal year 2007.
          2. Propulsion Replacement Program: Extends booster life 
        through 2020 by re-pouring stages one and two, and re-
        manufacturing stage three. A total of 311 boosters have been 
        delivered. The program will be complete with the delivery of 
        the final 56 booster sets in fiscal year 2008.
          3. Propulsion System Rocket Engine Program: Refurbishes seven 
        components and assemblies in the liquid propulsion post-boost 
        vehicle. A total of 72 kits have been installed and we will 
        purchase 96 additional kits in fiscal year 2008.
          4. Safety Enhanced Reentry Vehicle: Enables MMIII to carry 
        the more advanced Peacekeeper MK 21 Reentry Vehicle (RV) while 
        retaining the powerful MMIII MK 12A RV multiple independently 
        re-targetable RV (MIRV) capability. Retirement of the older MK 
        12 RV is now possible, allowing us to avoid a costly $1 billion 
        LEP. A total of 20 kits have been installed and we will 
        purchase an additional 120 kits in fiscal year 2008.
          5. Environmental Control System: Modernizes cooling system 
        equipment in the Minuteman Launch Facilities and Missile Alert 
        Facilities. Five kits have been installed and we will purchase 
        112 kits in fiscal year 2008. We are not planning to modify the 
        facilities assigned to the 564th Missile Squadron at Malmstrom 
        Air Force Base (AFB), MT as a result of the planned reduction 
        in the MMIII ICBM force.
          6. ICBM Security Modernization Program: This three-part 
        program consists of concrete enhancements, a fast-rising 
        secondary personnel access hatch, and a Remote Visual 
        Assessment (RVA) camera. This comprehensive program began in 
        fiscal year 2004. Our fiscal year 2008 program includes the 
        purchase of 100 fast-rising hatches which will allow responding 
        Security Forces adequate time to deny access to our launch 
        facilities. Our fiscal year 2008 program also purchases 60 RVA 
        units. We are not planning to modify facilities assigned to the 
        564th Missile Squadron at Malmstrom AFB, MT as a result of the 
        planned reduction in the MMIII ICBM force.
Helicopters
    The primary Air Force Space Command (AFSPC) helicopter mission is 
to provide our security forces with a continuous contingency response 
capability for the national ICBM complex. However, the Bell UH-1N is 
not capable of meeting current security requirements. It does not meet 
Key Performance Parameters for speed, endurance, range, or payload. UH-
1Ns are not armed with offensive weapons, have no defensive 
capabilities or countermeasures, and cannot operate in a chemical, 
biological, radiological, nuclear (CBRN) environment.
    Our average Air Force UH-1N airframe is 38 years old. The original 
design life for this aircraft was 2,500 flying hours, although some 
aircraft in the inventory have over 13,000 hours. The UH-1N fleet is 
showing its age with fatigue-related cracks in the tail boom and is 
currently undergoing its second tail boom replacement enabling it to 
meet flight safety standards.
    The Common Vertical Lift Support Platform (CVLSP) is an Air Force 
effort to replace the UH-1N. The CVLSP was originally envisioned as a 
variant of CSAR-X. The Joint Requirements Oversight Council directed 
that the efforts be separated and then directed AFSPC to conduct a 
separate CVLSP Analysis of Alternatives (AoA). The CVLSP AoA is now 
complete and is in coordination at the Air Staff. CVLSP is sixth on the 
Air Force's Unfunded Priority List.
    The AFSPC team is considering four CVLSP options:
          1. CSAR-X platform
          2. Rebuild Air Combat Command service life extension program-
        modified HH-60G aircraft
          3. Develop a new aircraft
          4. Continue using the UH-1N aircraft
Nuclear Cruise Missiles
    The Air Force analyzed current and future roles for nuclear cruise 
missiles during the 2005 QDR and the fiscal year 2007 Amended POM 
(APOM). The Defense Department issued guidance on 20 December 2005 
directing USSTRATCOM and the Air Force to study the nuclear cruise 
missile force structure, including the Air-to-Ground Missile (AGM) -86 
Air Launched Cruise Missile (ALCM) and the AGM-129 Advanced Cruise 
Missile (ACM). The guidance also directed us to build a retirement 
schedule for the missiles.
    The resulting study recommended that the Air Force retire all ACMs, 
reduce the ALCM force to 528, retire all excess ALCMs, consolidate the 
ALCM force at Minot AFB, and retain ALCMs in the inventory through at 
least 2020, possibly 2030. On 12 April 2006, the Deputy Secretary of 
Defense accepted the study recommendations. On 23 June 2006, the 
Commander, USSTRATCOM sent a letter to the Secretary of Defense 
supporting the study findings and advocating adoption of the ALCM/ACM 
force structure recommendations. The Joint Chiefs of Staff and National 
Security Council endorsed most of the study recommendations. On 17 
October 2006 the Secretary of Defense directed the Air Force to retire 
the ACM and reduce the ALCM fleet to 528 missiles.
    The Air Force intends to remove from service, demilitarize and 
destroy all ACMs and the excess ALCM missile bodies. The remaining 
nuclear cruise missile force will be consolidated at Minot AFB, North 
Dakota. As of this date, the Air Force has taken no irreversible 
actions as it seeks final congressional approval to demilitarize and 
destroy these missile bodies. These cruise missile force structure 
changes are part of a balanced force reduction that supports both 
Presidential direction to reduce the active nuclear stockpile, as well 
as the United States' obligation under the 2002 Moscow Treaty to reduce 
the number of operationally deployed strategic nuclear warheads to 
1,700-2,200 warheads.
Strategic Bombers
    We have no plans to change the current force of B-1 and B-2 
aircraft. Our strategy for the future bomber fleet includes a three-
phased modernization plan. The first phase of the modernization 
strategy includes plans for us to divest 38 B-52s while modernizing the 
remaining legacy systems. President's budget fiscal year 2008 funded a 
B-52 force structure consisting of 56 B-52 Total Aircraft Inventory 
(TAI). This inventory included 32 Combat Coded (CC), 11 Training (TF), 
4 test, and 9 backup B-52s. Following submission of the fiscal year 
2008 POM to the Office of the Secretary of Defense, Congress mandated 
that the Air Force ``not retire more than 18 B-52s (fiscal year 2007 
retirements) and maintain 44 B-52s as Combat Coded.'' The Headquarters 
Air Force, Air Combat Command (ACC), and the Air Force Reserve Center 
are working together to abide by this restriction while meeting the Air 
Force need to recapitalize aging aircraft. ACC is finalizing a plan to 
recode 11 TF B-52s and 2 test B-52 which would result in a total of 44 
combat coded B-52s. The 20 B-52s the Air Force plans to retire in 
fiscal year 2008 will be stored on the ramps at Barksdale AFB and Minot 
AFB in XJ status, which means that the Air Force will keep these 
aircraft in a serviceable condition but not in a common configuration 
(i.e. no capability upgrades) with the other 56 aircraft.
    The fiscal year 2008 President's budget reflects the Air Force 
position. A fleet of 56 TAI B-52s with 32 coded for combat meets Air 
Force requirements while supporting the need to recapitalize. The NDAA 
for Fiscal Year 2007 mandated that no funds ``be obligated or expended 
for retiring any of the 93 B-52H bomber aircraft in service in the Air 
Force as of the date of the enactment of this act until 45 days after 
the date on which the Secretary of the Air Force submits a Bomber force 
structure report prepared by the Institute for Defense Analyses.'' The 
Air Force expects the report to be finished by the end of 2007.
    The second and third phases of the modernization strategy include 
fielding a next-generation long-range strike capability by 2018 and 
fielding an advanced technology system with increased speed, range, 
precision, connectivity and survivability by 2035.
Reliable Replacement Warhead
    Reliable Replacement Warhead (RRW) designs incorporate a broad 
suite of enhanced safety features which increases efficiency and cost-
effectiveness as well as improved security features to prevent 
unauthorized use by terrorists, rogue nations or criminal 
organizations. These designs will replace 1970s-era technologies with 
modern components which will help minimize future safety and security 
uncertainties and can be managed using the improved computational and 
experimental tools developed by the Stockpile Surveillance Program. An 
all-RRW force is sustainable well into the future providing our 
combatant commanders with high confidence while managing risk.
    In November 2006 the Nuclear Weapons Council commissioned an RRW-2 
Phase 1 Study. The purpose of the year-long study is to define concepts 
for a replacement warhead to existing and future air-delivered systems. 
The study group is analyzing preliminary concept assessments, 
identifying delivery systems, recommending nuclear weapon trade-offs, 
and proposing an initial program schedule.

                              IV. CLOSING

    We are building an Air Force prepared to dominate in the 21st 
century--strategically, operationally, and tactically. Air Force 
Strategic forces, the bulwark of our strategic deterrent capability, 
give us the means to ensure Global Vigilance, Global Reach, Global 
Power, and worldwide Expeditionary Combat Support. These capabilities 
are essential to the joint fight and are a critical component of the 
future joint force. The Air Force is committed to advancing strategic 
capabilities to fully support the joint team. In order to maintain our 
strategic dominance, the Air Force must recapitalize and also be 
allowed to divest itself of outdated, excess platforms. Divesting 
excess platforms will provide the means to shift vital funds to 
recapitalization and modernization of our Air Force and to maintain a 
strategic deterrent second to none. We appreciate your continued 
support in turning our vision into an operational reality. Our nation 
must invest today to ensure tomorrow's air, space, and cyberspace 
dominance.

    Senator Bill Nelson. Thank you.
    Admiral?

STATEMENT OF RADM STEPHEN E. JOHNSON, USN, DIRECTOR, STRATEGIC 
            SYSTEMS PROGRAMS, NAVAL SYSTEMS COMMAND

    Admiral Johnson. Good morning, Senator. It is a privilege 
to be here with you today representing the sailors and the 
marines and the men and women of the Strategic Systems 
Programs. Our biggest priority in the budget that we have 
presented to you is the life extension of the Trident weapon 
system to match that of the ship, which has already been 
extended. To do that, we will refresh the electronics and 
produce the rocket motors that we need to go to 2042.
    Thank you, sir.
    [The prepared statement of Admiral Johnson follows:]

            Prepared Statement by RADM Stephen Johnson, USN

    Chairman Nelson, Senator Sessions, and distinguished members of the 
Strategic Forces Subcommittee. Thank you for the opportunity to appear 
before you to discuss the Navy's efforts to maintain the credibility of 
our strategic deterrent forces. Strategic Systems Programs is 
responsible for maintaining our currently deployed Trident II forces 
and to develop capabilities which will support future requirements of 
our combatant commanders.
    The Navy's operational strategic deterrent fleet continues to 
provide a credible and affordable deterrent against nuclear war. Our 
Trident II weapons system, comprised of 14 submarines, 6 in the 
Atlantic fleet and 8 in the Pacific fleet, is maintaining a reliable 
sea based deterrent for our National leadership. Two of our submarines 
are undergoing engineering refueling overhauls (ERO). Along with U.S.S. 
Alabama (SSBN-731), which began her overhaul last year at Puget Sound 
Naval Shipyard, U.S.S. Alaska (SSBN-732) has commenced her ERO at 
Norfolk Naval Shipyard. Three SSGNs have returned to operation, U.S.S. 
Ohio (SSGN-726), U.S.S. Florida (SSGN-728) and U.S.S. Michigan (SSGN 
727). U.S.S. Georgia (SSGN-729), the fourth SSGN, is expected to 
complete her conversion in September 2007.

                           D5 LIFE EXTENSION

    Trident II (D5) Submarine Launched Ballistic Missile Life Extension 
(LE) program will redesign and replace aging missile electronics and 
guidance systems. Under this program, 108 additional missiles will be 
procured in order to meet long-term inventory requirements associated 
with the life extension of the Ohio class SSBN. Redesign of missile 
electronics and guidance components is in progress, and procurement of 
new D5 LE missiles begins in fiscal year 2008. The Trident II (D5) 
missile has been operational since 1990, providing the backbone of 
America's strategic deterrence. The low-rate production continuity 
procurement strategy has been extensively reviewed and approved by the 
Department of Defense (DOD) and Congress, and has been in execution for 
nearly 15 years.
    This procurement strategy has been proven successful, based on the 
demonstrated performance of the Trident II D5 weapon system. The Navy 
submitted a report to Congress in December 2002 that detailed the 
impact of alternative full-funded procurement strategies and 
recommended continuation of current production. Continued production of 
critical components represents the best balance of cost and risk to 
extend the life of the D5 missile.

                        NUCLEAR WEAPONS SECURITY

    One of our most important responsibilities is maintaining security 
over the ships and missiles in the Trident Program. Our budget submit 
includes elements to improve this security posture, including sensored 
perimeter fencing, waterfront intruder detection systems, and hardened 
security force facilities and vehicles, as well as a secure command and 
control network. The roadmap to implement these nuclear weapons 
security elements over the Future Years Defense Program was recently 
briefed to the Vice Chief of Naval Operations and Joint Requirements 
Oversight Council, and execution is underway.
    The SSBN Transit Protection Program extends the security umbrella 
to cover SSBNs transiting between piers and dive points.

                      RELIABLE REPLACEMENT WARHEAD

    The Navy and the National Nuclear Security Administration (NNSA) 
have recently started a joint program to design a replacement warhead 
for a portion of the Nation's sea-based nuclear weapons used in 
submarine launched ballistic missiles. This replacement warhead will 
not require underground testing. Other key aspects of this program 
include designing replacement warheads that are more efficient to 
manufacture, are safer and more secure, elimination of environmentally 
hazardous materials, and increased design performance margins, thus 
ensuring long-term confidence in reliability. The Nuclear Weapon's 
Council, a joint body including the Department of Energy and DOD, 
endorsed NNSA's recommendation for the Lawrence Livermore/Sandia design 
as the baseline for the RRW-1 program. However, several features of the 
Los Alamos/Sandia design are of great interest and they will be 
developed in parallel to the Lawrence Livermore National Laboratory 
effort. If sufficiently mature, these design enhancements will be 
incorporated into the baseline design at the appropriate development 
step.
    The selection of the Lawrence Livermore National Laboratory's 
baseline design was the first step toward detailed design of a reliable 
replacement warhead. NNSA and the Navy will now work together to 
develop a detailed RRW project plan and cost estimate for developing 
and producing the system. The RRW Project Officer Group, led by the 
Navy, will present the results of a design definition and cost study to 
the Nuclear Weapons Council for approval later this year, at which time 
authorization to proceed to detailed design and system development will 
be requested.

                   CONVENTIONAL TRIDENT MODIFICATION

    The Conventional Trident Modification (CTM) is the only near-term 
solution which can provide prompt, precise, conventional kinetic 
effects at intercontinental ranges. Given the requested resources, we 
can deliver the initial capability early in 2010, much earlier than any 
other alternative approach.
    CTM adapts the Trident II (D5) missile system to deliver 
conventional (non-nuclear) effects at global ranges. The Trident Weapon 
System and the D5 missile are well suited for this role by virtue of 
the long-range and payload capacity of the D5 missile, and the 
responsiveness and survivability of the Trident Weapon System. 
Responsive, survivable and persistent, CTM will defeat a diverse set of 
unpredictable threats without visible presence or risk to U.S. forces, 
and with little or no warning prior to strike. CTM implements the New 
Triad envisioned by the Nuclear Posture Review and is an evolution of 
deterrence toward conventional weapons. CTM concept of operations have 
been developed by U.S. Strategic Command.
    CTM will use existing D5 missiles, MK4 reentry bodies equipped with 
aerodynamic controls, global positioning system (GPS)-aided terminal 
guidance, and a conventional warhead. Advanced error-correcting reentry 
vehicles with GPS-aided Inertial Navigation Systems have been flight 
proven in a previous D5 test program. Total time from decision to 
weapons-on-target is about 1 hour. CTM technology can be rapidly 
developed and deployed within 24 months.
    The fiscal year 2008 funding request for CTM is $175 million. We 
have frontloaded the funding profile to provide the capability to the 
warfighter as quickly as possible. The bulk of the request is $126 
million for research and development to proceed with warhead 
development efforts required to achieve initial operating capability by 
early 2010. The additional $49 million is procurement funding that is 
required for reentry body component long lead materials and shipboard 
systems and trainer modifications.

                                  SSGN

    Three of our SSGNs have already returned to service and the fourth 
will rejoin the fleet in about 7 months. Operational tests are in 
progress and the first patrol is anticipated before year's end.
    These SSGNs are already demonstrating a transformational war 
fighting capability, carrying Tomahawk cruise missiles and supporting 
special operating forces. They have enhanced communication and improved 
masts and antennae for network centric operations. We are forging new 
relationships within the Department of the Navy and DOD in order to 
ensure that these submarines be used to maximum advantage in the war on 
terror.

                                SUMMARY

    Mr. Chairman and distinguished members of this subcommittee, I 
thank you for your continued support of Strategic Systems Programs and 
our operational fleet in particular. Our strategic force remains a 
credible and reliable deterrent today. It is our goal to ensure that 
the Nation is protected through efforts to maintain the safety, 
reliability, and surety of our deployed systems. Thank you again for 
this opportunity to appear today to speak on behalf of Navy Strategic 
Systems Programs.

    Senator Bill Nelson. Mr. Green?

  STATEMENT OF BRIAN R. GREEN, DEPUTY ASSISTANT SECRETARY OF 
   DEFENSE FOR STRATEGIC CAPABILITIES, DEPARTMENT OF DEFENSE

    Mr. Green. Thank you for the opportunity to be here today. 
I appreciate it. I will keep my opening remarks very brief 
also. We are in the fifth year of trying to implement the NPR, 
the recommendations of that review in 2002. Certainly from our 
perspective the strategic vision that was offered in that 
review remains valid. It outlined a very new and different 
strategic environment, a broader range of contingencies, a 
broader range of potential adversaries that would require a 
broader range of capabilities to address them, including 
offensive strike systems, both nuclear and non-nuclear, 
defenses active and passive, and a responsive infrastructure.
    I think over the past 5 years we have made some progress in 
trying to implement that vision. We have made progress in 
deploying missile defenses. We have made progress in reducing 
our nuclear force structure. We have initiated the RRW program, 
which I think is an important step.
    I think the significant gap that we see remaining, and 
there is more than one, but the most significant gap that we 
see remaining is the prompt long-range precision global strike 
mission. We have had a substantial conversation about that 
already this morning with General Cartwright. I will not 
belabor some of the points that he has made. I will be 
available to answer your questions.
    I think the one point that I would like to make is that the 
predominant concern that Congress has expressed is the 
ambiguity about the near-term solution that the DOD has 
identified, the conventional Trident modification, that might 
be misconstrued by Russia as a nuclear attack and they would 
respond in kind. Certainly from our perspective that risk is 
extremely low. We have a very long history with Russia. We have 
launched over 1,300 ballistic missiles throughout the course of 
the Cold War and the 1990s. They have never reacted badly to 
those launches. We have had a couple of instances where there 
has been a possibility that things could have been 
misconstrued. There was a launch of a rocket in the mid-1990s 
out of an area north of Norway that the Russians saw. They were 
concerned about it. They did not overreact.
    There is very little in the history and very little in the 
Russian reactions to past events and very little in the Russian 
doctrine that leads us to believe that ambiguity poses a 
significant risk. That said, we take all risks seriously in 
this area and we have developed a comprehensive set of 
confidence-building measures that we think would drive that 
already very low risk even lower.
    Senator Bill Nelson. How about China?
    Mr. Green. Without going into classified session, I do not 
think I can address China completely. But certainly at an 
appropriate time and an appropriate place, we would take into 
account Chinese sensibilities.
    Senator Bill Nelson. Do you have the same degree of 
confidence with regard to the Chinese response as you do with 
the Russians?
    Mr. Green. Absolutely. The Chinese nuclear forces are not 
on high alert. We have no reason to believe that the Chinese 
would overreact in this kind of circumstance as well.
    [The prepared statement of Mr. Green follows:]

                  Prepared Statement by Brian R. Green

                           I. OPENING REMARKS

    Chairman Nelson, Senator Sessions, and distinguished members of the 
subcommittee: I welcome the opportunity to describe our progress in 
transforming the Nation's strategic capabilities to meet 21st century 
security challenges. You understand the importance of this undertaking, 
and recognize the need to field a New Triad better suited to the new 
security environment. I want to thank the members of the committee for 
their support. Successful transformation of our capabilities will 
require a sustained partnership between the Department of Defense (DOD) 
and Congress.

     II. THE NUCLEAR POSTURE REVIEW AND THE ROLE OF NUCLEAR WEAPONS

    The Nuclear Posture Review (NPR) of 2001 put in motion a major 
change in the role of nuclear forces in our deterrent strategy. The NPR 
emphasized the need for a broader range of deterrent options and 
capabilities and established a New Triad composed of offensive strike 
systems (nuclear, non-nuclear, and non-kinetic); defenses (both active 
and passive); and a revitalized defense infrastructure--all supported 
by adaptive planning, command and control, and Intelligence, 
Surveillance, and Reconnaissance capabilities. The New Triad is 
intended to reduce our dependence on nuclear weapons and improve our 
ability to deter attack in the face of proliferating weapons of mass 
destruction (WMD).
    The rationale behind the NPR's findings remain valid: the Cold War 
Triad of nuclear strike systems is not adequate to support the full 
range of potential challenges and threats in the new security 
environment. An array of capabilities, including prompt conventional 
Global Strike, is ultimately necessary to address the new security 
risks the United States faces.
    That said, nuclear capabilities possess unique properties and 
provide credible military options to deter a wide range of threats, 
including WMD use. Nuclear weapons will continue to play a vital role 
in assuring allies of U.S. security commitments, deterring WMD threats, 
and holding at risk adversary assets and capabilities that cannot be 
countered through non-nuclear means. The U.S. will continue to honor 
its extended deterrence commitments to allies--a critical part of our 
national security and an important tool in our non-proliferation 
efforts. Extended deterrence, in turn, requires long-term confidence in 
the reliability and safety of the U.S. nuclear stockpile, and the 
Reliable Replacement Warhead (RRW) program is essential to achieving 
that end. In short, the United States will retain a credible nuclear 
deterrent at the lowest level of weapons consistent with U.S. and 
allied security. In transitioning to a New Triad, however, these 
weapons must be integrated with new non-nuclear strategic capabilities 
to provide an appropriate range of options.

                       III. IMPLEMENTING THE NPR

    We have made some progress in implementing the NPR over the past 5 
years:

          1. We have deployed an initial missile defense capability to 
        protect our Nation, deployed forces, friends and allies, and 
        are expanding that capability through evolutionary development 
        and international cooperation.
          2. We are on schedule to reduce U.S. nuclear forces to 1,700-
        2,200 operationally deployed strategic nuclear warheads by 
        2012. In addition, we have retired the last Peacekeeper 
        intercontinental ballistic missile (ICBM), and DOD plans to 
        retire 50 of the 500 deployed Minuteman III ICBMs and 38 of the 
        94 B-52 bombers. We will use the savings to provide for a 
        robust Minuteman III test program as well as to help sustain 
        and modernize the remaining bomber fleet.
          The remaining Minuteman III ICBM force is being sustained 
        through a life-extension program. The program will keep this 
        element of the New Triad's offensive leg operational and 
        effective into the foreseeable future. DOD is also examining 
        future approaches to a follow-on land-based long-range nuclear 
        strike capability.
          3. We have selected a lead national lab to conduct the 
        engineering and design work on a RRW to replace a portion of 
        our sea-based deterrent. The RRW program is vital to assuring 
        long-term confidence in our nuclear deterrent and improving our 
        responsive infrastructure.
          4. We are also making improvements to our intelligence and 
        planning capabilities.

                           IV. GLOBAL STRIKE

    Our progress, however, has been uneven. We have not provided the 
broader range of conventional strike options that both the NPR and the 
Quadrennial Defense Review (QDR) called for in order to engage high-
value or fleeting enemy targets located in access-denied areas; nor 
have we closed the gap in prompt, long-range conventional (non-nuclear) 
strike capabilities that the QDR identified.
    The 2006 QDR considered the new security environment and 
underscored the need for prompt Global Strike capabilities to address a 
range of challenges. The QDR identified the following objectives for 
Global Strike's operational and enabling capabilities:

        <bullet> Provide the President and the warfighter with a 
        broader range of conventional response options to deter 
        aggression or coercion;
        <bullet> Attack fleeting enemy targets rapidly;
        <bullet> Fuse intelligence and operations to exploit time-
        sensitive intelligence;
        <bullet> Find and precisely target enemy capabilities in denied 
        areas;
        <bullet> Deter, defend against, and respond in an overwhelming 
        manner to WMD attacks; and
        <bullet> Shape and defend cyberspace.

    DOD has strengthened its conventional strike capabilities with the 
introduction of the Joint Air-to-Surface Standoff Missile (JASSM) and 
the Tactical Tomahawk (TACTOM) cruise missile. These missiles offer 
stealthy (in the case of JASSM), standoff capabilities that can be 
employed in substantial numbers to destroy high-value, well-defended, 
and/or relocatable targets. Testing has begun on the JASSM Extended 
Range (JASSM-ER), which will possess more than double the range of the 
JASSM (over 500 nm, vice 200 nm). JASSM-ER also will be able to loiter 
and transmit in-flight imagery to planners. TACTOM possesses many of 
the same traits as JASSM-ER but also can also be retargeted in flight.
    In addition, the DOD has nearly completed reconfiguring four 
strategic nuclear ballistic missile submarines (SSBNs) into guided-
missile submarines (SSGNs). The first three SSGNs have completed their 
conversion with the final conversion to be completed in late fiscal 
year 2007. Two of the SSGNs will become operational in fiscal year 2007 
and two more in fiscal year 2008. Each SSGN can carry up to 154 
Tomahawk cruise missiles and deliver special operations teams.
    However, analysis conducted during the 2006 QDR also highlighted an 
important gap in prompt, long-range conventional (non-nuclear) strike 
capabilities. Specifically, the QDR found that existing conventional 
forces, such as fighter and bomber aircraft and surface ships, could 
take hours to days to deploy and strike a target. The new TACTOM and 
JASSM, although valuable additions to conventional forces, do not fully 
address this gap. Today, only nuclear-armed ballistic missiles are 
available 24 hours a day, 7 days a week, to engage distant, fleeting 
targets promptly (within about an hour from the time of an execution 
decision). Without a portfolio of prompt conventional Global Strike 
capabilities--able to generate timely effects, anywhere, anytime--
America's adversaries will retain substantial freedom of action and 
potential safe havens from which to operate.
    Prompt Global Strike capabilities may be needed for time-sensitive 
operations such as interdicting the transfer of WMD from rogue states 
to terrorists, preventing a rogue state from launching a ballistic 
missile armed with a WMD payload, or disrupting or delaying such 
actions before other U.S. forces arrive on scene. In addition, prompt 
conventional Global Strike capabilities have the potential to suppress 
follow-on launches of ballistic missiles against the United States, its 
forces and allies, and this capability can work effectively in concert 
with ballistic missile defenses to help mitigate the growing long-range 
missile threats the United States will face in the future. In order to 
hold these types of targets at risk, the 2006 QDR called for a 
portfolio of prompt Global Strike capabilities.

                  V. CONVENTIONAL TRIDENT MODIFICATION

    The 2006 QDR determined that a program designated Conventional 
Trident Modification (CTM) was the best low-cost, low-risk, near-term 
solution to begin closing the current gap in prompt conventional global 
strike capabilities. In fiscal year 2007, DOD requested funding to 
modify two Trident II D5 missiles on each of the 12 deployed strategic 
ballistic missile submarines (SSBNs), and replace their nuclear 
warheads with non-nuclear warheads. CTM would provide a unique 
conventional capability to respond to fleeting, time-sensitive, high-
value targets virtually anywhere in the world. The President's budget 
for fiscal year 2008 seeks $175 million for this initial Prompt Global 
Strike system.
    Although DOD determined CTM to be the best near-term option for 
conventional prompt Global Strike, the Department is considering other, 
longer-term solutions, both sea- and land-based, to broaden the 
portfolio of prompt, non-nuclear capabilities. The additional concepts 
include sea- and land-based conventional ballistic missiles and 
advanced technologies, such as hypersonic glide vehicles, employing 
precision guidance, advanced conventional weapons, and propulsion. 
While these concepts promise to provide expanded Global Strike 
capabilities, for the most part they generally lack the technological 
maturity to achieve full operational status before 2015.

                       VI. CONGRESSIONAL CONCERNS

    Congress raised concerns about CTM last year, and directed that DOD 
provide a Report to Congress in consultation with the Department of 
State. A classified report, signed by both Secretary Gates and 
Secretary Rice, was transmitted earlier this month. I commend the 
report to you; it addresses the critical need for Conventional Trident 
and the concerns. While the concerns raised were posed in terms of CTM 
they apply to many of the other prompt Global Strike capabilities that 
may be available in the mid- to long-term.
    The most frequently cited concern is that a CTM launch could be 
misinterpreted as a nuclear attack, prompting Russian retaliation. The 
CTM report states that the risk is extremely low and can be managed 
effectively. Few states have the sophisticated technology required to 
detect and track a ballistic missile launch. However, the Russian 
Federation has these detection and tracking systems and is generally 
able to evaluate quickly a ballistic missile's flight path and 
determine within tens of miles the missile's aimpoint. In that respect, 
if Russian sensors detected and tracked a CTM launch, the Russian 
command would quickly identify it as non-threatening. Moreover, the 
Russian command would readily distinguish between a CTM launch and a 
massive nuclear first strike.
    Historically, the Russian Federation has not over-reacted to an un-
notified or unannounced U.S. or Chinese missile launch. Furthermore, 
the United States and the Russian Federation now have a more 
cooperative and less adversarial relationship than during the Cold War, 
and this new relationship provides a much-changed context in which any 
launch of a ballistic missile would be understood.
    Nevertheless, the United States takes the possibility of 
misinterpretation seriously. While the risk is extremely low, DOD has 
developed a comprehensive assurance strategy consisting of confidence-
building and operational measures, promoting a high degree of 
transparency into CTM operations. Engagement of Russia at senior levels 
is ongoing.
    Another concern is that prompt Global Strike, and CTM in 
particular, may not be well-supported by intelligence capabilities. As 
with all military operations, CTM operations would require actionable 
intelligence that is both accurate and timely and provides a high level 
of situational awareness. Existing intelligence assets can support 
planning and operations of prompt Global Strike systems like CTM, DOD 
continues to improve its global intelligence, surveillance, and 
reconnaissance capabilities. Indeed, current efforts to achieve more 
persistent collection capabilities against both legacy and emerging 
threats would be maturing as the Conventional Trident Modification 
becomes operational. They would be available to support key decision-
makers and planners involved with employment of future prompt Global 
Strike capabilities. During time-sensitive crises the speed and range 
attributes of prompt Global Strike systems, like CTM, actually would 
provide increased time for senior decisionmakers to evaluate and refine 
intelligence before making a decision to employ force.
    There is also some concern for CTM's status under existing arms 
control treaties. CTM is fully compliant with all U.S. treaty 
obligations. A complete analysis of this issue is available in the 
Report to Congress on Conventional Trident Modification. In summary:

        <bullet> START:

                <bullet> CTM is not a new type of SLBM or new kind of 
                Strategic Offensive Arm.
                <bullet> CTM will remain accountable and subject to 
                START's many provisions for as long as START remains in 
                force. These provisions include:

                        <bullet> Data updates
                        <bullet> Re-Entry Vehicle On-Site Inspections
                        <bullet> Transit notifications
                        <bullet> Launch notifications
                        <bullet> Telemetry exchange for test launches

                <bullet> CTM will have the same number of warheads 
                attributed to it as to the nuclear-armed Trident D5 (8 
                warheads).

        <bullet> Ballistic Missile Launch Notification Agreement:

                <bullet> Notification of CTM flight test launches will 
                continue to be provided; and

        <bullet> Moscow Treaty:

                        <bullet> CTM's conventional warheads will not 
                        count against the 1,700-2,200 limit on 
                        operationally deployed strategic nuclear 
                        warheads.

                            VII. CONCLUSION

    DOD strongly believes that conventional prompt Global Strike is 
critical to meeting evolving U.S. security needs in the 21st century. 
The joint DOD-State Department Report to Congress presents a compelling 
assessment of the need for CTM and a clear strategy for mitigating the 
already low risks associated with its use. In the report, Secretary 
Gates and Secretary Rice agreed:

        <bullet> There is a critical need for CTM to respond promptly 
        to potentially grave dangers with conventional means--including 
        high-value or fleeting targets such as terrorists or rogue 
        states armed with WMD that may be in hard-to-reach or highly 
        defended areas;
        <bullet> CTM is the best and only near-term, low-cost, low-risk 
        option to fill an existing capability gap;
        <bullet> The risk of misinterpretation is extremely low and can 
        be readily managed;
        <bullet> Development and deployment of a Conventional Trident 
        is needed to achieve a near-term prompt conventional global 
        strike capability; and
        <bullet> The substantial benefits of CTM far outweigh any 
        risks.

    A sustained partnership between DOD and Congress will be needed if 
we are to succeed in transforming our Nation's strategic capabilities 
to meet the uncertainties and challenges ahead. In particular, we need 
to continue the progress on missile defense, revitalize the nuclear 
infrastructure with the RRW programs, and address the need for 
conventional prompt Global Strike. The Conventional Trident is the 
near-term solution, with advanced technologies to expand the range of 
effects in the longer term. The Department will require your continued 
support to replace the legacy Cold War force posture with a New Triad 
that is better suited to the new security environment.

    Senator Bill Nelson. We will explore that further.
    Senator Sessions.
    Senator Sessions. Mr. Green, welcome to your committee.
    Mr. Green. Thank you, sir.
    Senator Sessions. I am interested that the Department 
persists in the Trident modification, the conventional Trident. 
I had suggested that perhaps we better be going forward with 
something else after our last vote. But I give you a chance. 
Can you briefly, succinctly tell us the strategic rationale for 
the prompt global strike?
    Mr. Green. Certainly. Right now we have the ability to 
reach out globally and promptly, but only with nuclear weapons. 
We have the ability to reach out promptly with conventional 
weapons, but only if you have tactical forces properly placed, 
if they are in the right place at the right time. We can also 
reach globally with conventional weapons, but it is not timely. 
That would be in the bomber force and the long-range bomber 
force can take many, many hours, days in fact, to reach its 
target.
    The gap that we see is that prompt global precision 
conventional strike. There are a collection of--we prefer 
actually in our shop not to talk about specific scenarios, but 
a set of attributes that targets have that we may well want to 
think about that kind of capability, that prompt global strike 
capability, to address. Those attributes are time-urgent, very 
distant, perhaps highly defended or in other ways access denied 
for the United States; high value targets, high regret factor 
for not striking a target; and potentially an interest in low 
collateral damage.
    It is those kinds of targets, targets with those sorts of 
attributes, that make us think that this particular kind of 
capability is very valuable.
    Senator Sessions. At our hearing we went through this in 
some detail. But would you explain for us why the cruise 
missile is not an adequate global strike?
    Mr. Green. The cruise missile, of course, flies 
subsonically. They are almost always quite a distance away from 
a target. They have to fly a long way to get there. When you 
look at a map and plot out how long it takes to get to a target 
and how responsive it can be, simply in terms of distance and 
time it does not have the same kind of responsiveness that a 
system like a long-range ballistic missile, wherever it is 
fired from, would have.
    The goal with the conventional Trident is to be able to 
strike a target within about an hour from the decision time to 
move ahead. If you use the same metric for a cruise missile, 
you would be talking many hours before you could strike the 
target.
    Senator Sessions. Who has the lead in the DOD for 
evaluating the various alternatives for prompt global strike 
and who is the advocate in the Department for this capability?
    Mr. Green. Certainly OSD-Policy, the part of the Department 
that I represent, is an advocate for this kind of capability. 
In terms of the specific systems involved, that gets into the 
technical detail and the engineering analysis, and Acquisition, 
Technology, and Logistics takes a look at that. Certainly the 
warfighter gets involved in the discussion about the kinds of 
capabilities.
    Senator Sessions. You are making me nervous. There are a 
lot of people you are mentioning.
    Mr. Green. Acquisition, Technology, and Logistics is one 
organization, I should note.
    Senator Sessions. There needs to be somebody that is 
looking at this really hard, because I think it is an important 
capability. I agree with you that there is virtually no chance 
of a misinterpretation of a single launch. But we have a lot of 
concern about that in Congress, primarily that and perhaps 
other issues.
    Mr. D'Agostino, could you briefly describe the design 
features of an RRW that is to the extent that is not 
classified, and discuss the concerns that some scientists and 
engineers have over the reliability of the existing stockpile 
and perhaps the concerns some have expressed about a new 
untested weapon and whether or not it would be reliable? That 
is three questions. You have 3 minutes.
    Mr. D'Agostino. That will be a challenge in and of itself.
    Senator Sessions. We do not have to vote yet.
    Mr. D'Agostino. I may need one of those supercomputers to 
pull that off.
    We will start off with the RRW question first, the features 
that I feel are important, which are unclassified. We will not 
discuss the classified details, of course, I would be very 
happy to come to the committee and talk to you about, because 
they do support my unclassified statements.
    One element which goes to the case material that is being 
proposed--I cannot say none of the material itself, but the 
processes and the material that are being proposed for the RRW 
will allow us to get rid of a complete processing line down at 
Y-12, a fairly significant processing line that we will not 
need any more in the future. It is a line that generates a 
tremendous amount of wastes. It is a waste that we have to deal 
with and pay for and will pay for out into the future, and it 
is a waste stream that I would like to get off the books, if 
you will, and not build it into our legacy as we move forward 
in determining what the smaller nuclear weapons complex needs 
to be.
    There is another material in the--it is called interstage 
material, also known as Fogbank, but the chemical details of 
course are classified. That is at a facility that we currently 
have right now. It is a very complicated process. I use that to 
support the Navy's program. It takes a tremendous effort to 
operate this facility. It is dealing with toxic materials 
hazardous to our workforce, but it is required. It is the way 
we did things back in the Cold War.
    The RRW will allow us to not have to develop and maintain 
that capability, and that is very important because that has a 
long-term cost and it has an impact on our workforce, just like 
the case material.
    There are some features associated with the explosive 
material that we use for the proposed RRW design, the design we 
are going to spend some more time on, and in fusing insensitive 
high explosives versus conventional high explosives. An 
insensitive high explosive, for one thing, is a type of 
material that you can hit with a hammer, throw into a 
fireplace, do a lot of things to it; it will not start to 
chemically react and explode.
    That provides a tremendous amount of flexibility in our 
manufacturing process, is one; but two, safety. Clearly it is a 
much safer way to do business, and there is a legacy cost not 
just for the Department of Energy (DOE), but for the DOD as it 
moves these warheads around in their storage facilities, on the 
submarines, or in the silos, how we do things in the Air Force.
    So this is just a sampling, if you will, in the interest of 
time.
    Senator Sessions. It really has the potential to not be 
more costly, in fact to actually save money, we hope. That 
would be your challenge.
    Second, there are some other--I see one of the things on 
your web site, NNSA web site, about safety. You are confident 
they would be considerably more safe.
    Mr. D'Agostino. I am very confident in that. We have not 
built it yet, but this is--we have systems out in our current 
stockpile that have certain attributes that we have talked 
about, insensitive high explosives and the like, but putting 
them together in this format allows us to maximize and take 
advantage of all of the features that we have tested before in 
the past. So I am very confident that as we transition the 
stockpile, as the President said, into the lowest possible 
number necessary and change the size and composition and 
character of our workforce, of our nuclear deterrent, that in 
the long run as we have an RRW stockpile it will drive costs 
down significantly.
    I know I can point to specific projects within the NNSA 
that I will not have to build, liabilities I take off the books 
right now and I will not have to program in, as a result of the 
features this proposed warhead design brings to the table.
    Senator Sessions. I think that is good. Just very briefly, 
the reliability of the aging system. Is there some question 
that is raised about that by reliable scientists, and would we 
lose deterrent effect if people thought that the new one that 
is untested could not work? How do we handle those two 
questions?
    Mr. D'Agostino. First I would like to emphasize that it is 
safe and secure. We would like to make it safer and more 
secure. I think, given how as the General described where we 
were in the Cold War and how we are in a constant mode of 
bringing on new systems as we learned about problems, we have 
the advantage now, where it has been 20-plus years as we have 
gone through this type of a design effort, to bring all those 
new features to the table.
    What we are concerned about is sustainability over the 
long-term, continuing to do life extensions, which take a Cold 
War system off the table, replace certain components and parts 
that we think are aging, and sticking it back out. Over time we 
are concerned that these changeouts will introduce small 
variabilities in manufacturing processes that have evolved 
since the last time we have done it, and that over time will 
cause some questions into our ability to certify over the long-
term these very low-margin systems. These are very high-
performance systems.
    We want a design and we believe we have a proposed design 
that is much more robust from the standpoint of performance 
margins. We are much further away from the need to ever conduct 
a test because of the margin on the primary associated with 
this system.
    There is a bit of a fallacy that we have always tested a 
warhead before we have introduced it into the stockpile. That 
is absolutely not true. In a closed session I could talk to you 
about specific systems that you might find interesting, or in a 
brief, I can go over specific systems that have been deployed 
without testing, and the variations. We have a very strong test 
pedigree associated with this proposed design. We know a lot 
about this primary, which is the pit. It is also known as the 
plutonium pit. This is a pit design that has been tested and it 
is a minor variation of a pit design that is currently in our 
stockpile right now. We have a lot of data on that pit and we 
have a lot of information on that secondary. So we are very 
confident.
    Senator Sessions. Thank you.
    Senator Bill Nelson. I have a number of questions for the 
record and we have about 6 minutes, so let me just go through 
these questions.
    Mr. D'Agostino, the NNSA has requested $88.8 million for 
the RRW for 2008. At the time the budget request was submitted 
to the Nuclear Weapons Council, it had not approved the 
decision to study the feasibility of the RRW. Now that it has 
approved the feasibility study, will the 2008 funding be used 
to finish the phase 2A study and begin the phase 3 study?
    Mr. D'Agostino. Yes.
    Senator Bill Nelson. All right. I posed a number of 
questions to General Cartwright and I would pose a number of 
those questions to you. The proposed RRW design would be a new 
warhead, yes or no?
    Mr. D'Agostino. The design is new. The warhead is the same. 
It is the same form, fit, and function. It is a new design to 
replace an existing weapon that we have in our stockpile.
    Senator Bill Nelson. This new warhead would fit into an 
existing delivery system, which in the case of the first RRW 
design would be the Mark 5 reentry vehicle for the D-5 missile?
    Mr. D'Agostino. Yes, sir.
    Senator Bill Nelson. The first RRW would replace the W-76 
in whole or in part and would meet the same military 
requirements met by the W-76?
    Mr. D'Agostino. Yes, Mr. Chairman.
    Senator Bill Nelson. Do we know for sure that the RRW could 
be certified and placed in the stockpile at this point and that 
the purpose of the studies that the NNSA will conduct for the 
next 3 years will determine that?
    Mr. D'Agostino. That is right, Mr. Chairman. We are working 
on that path. At this point right now I am very confident.
    Senator Bill Nelson. Based on reviews done to date by the 
NNSA laboratories, do you have the confidence that the RRW 
design will be able to be certified without testing?
    Mr. D'Agostino. Yes, sir.
    Senator Bill Nelson. If it becomes clear at some point that 
it would not be possible to certify the RRW without nuclear 
testing, would you support terminating it effort?
    Mr. D'Agostino. I would say that because it is one of the 
most significant criteria that we had to proceed down this 
path, we would have to examine that. We would have to say, why 
would we go forward in continuing with this effort without 
that.
    Senator Bill Nelson. If successful, the RRW would provide 
increased confidence in the stockpile and enable substantial 
reductions in it overall size of the stockpile?
    Mr. D'Agostino. Yes, sir.
    Senator Bill Nelson. Particularly in the size of the 
reserve?
    Mr. D'Agostino. That is right, Mr. Chairman.
    Senator Bill Nelson. The Nuclear Weapons Council decided to 
study the feasibility of the RRW and not to manufacture or 
deploy an RRW?
    Mr. D'Agostino. That is right.
    Senator Bill Nelson. Admiral Johnson, assuming that the RRW 
is a feasible replacement for the W-76, what is the right mix 
of RRWs and W-76 warheads in the inventory?
    Admiral Johnson. As General Cartwright pointed out, we 
first continue with the 76 life extension. That is the Nation's 
deterrent. Once we go into initial production and then followed 
by full production of the RRW, it becomes a one-for-one 
replacement. The 76-1, those warheads that are life extended to 
the 2040, 2045 region, I would think it would be in the 
Nation's interest then to time the production line for best 
value. So rather than give you a direct number for something 
that is 10 years away or so, it is a one-for-one replacement.
    Senator Bill Nelson. Can you give us a percentage?
    Admiral Johnson. In the early production run we expect to 
make about 50 per year. So in the first 5 years, it would be 
250 weapons. Then depending on what DOE does with their ability 
to increase production, we could stay at that rate. As the 
inventory went down, we could catch that. Or if Congress chose 
to increase the production capability, then it would be an 
accelerated one-for-one replacement.
    Senator Bill Nelson. All the rest of the ones in reserve at 
that point? What would happen?
    Admiral Johnson. The need for reserve is expected to be 
reduced, as every member of the panel has said.
    Senator Bill Nelson. What is the down side of delaying the 
W-76 life extension to see if the RRW is feasible?
    Admiral Johnson. That would be a serious error in my 
opinion. 76 is the bulk of the deployed sea-based warheads. It 
is our Nation's deterrent. We are ready to go into production 
on the life-extended warhead this year and we should proceed 
with that.
    RRW is not designed. In fact, we are only at the beginning 
of that design, laying out the baseline, coming back to you 
with a proposed cost and schedule that you will see later in 
the year.
    Senator Bill Nelson. A variation on my previous question. 
If the RRW is feasible, will the Navy be able to reduce the 
combined number of RRWs and W-76 life-extended warheads to less 
than the total of the number of W-76 warheads today? I am 
talking about the Navy only. In the stockpile.
    Admiral Johnson. With all due respect, Mr. Chairman, the 
requirement for numbers is really General Cartwright's to 
provide to me. I meet that requirement. My expectation is that 
those numbers will continue to go down.
    Senator Bill Nelson. Mr. D'Agostino, the NNSA fiscal year 
2008 pit manufacturing and certification campaign budget 
request includes funds for both the RRW pits and the W88 pits. 
How much of the $281 million for pit manufacturing is for RRW 
pits?
    Mr. D'Agostino. I would like to take that for the record, 
but provide also a response if I could. The actual number, 
percentage-wise, I will get for the record if I could. It is 
important that right now our 88 pit effort is to focus on our 
commitment on making 10 pits per year. This will be the first 
year. It is a fairly significant milestone to support the Navy. 
We will do that over the next 2 to 3 years in order to meet 
what we think jointly with the Department of the Navy we need 
to maintain.
    After that, what we want to do is shift our production 
capability to thinking towards the future, using this RRW 
process, which we feel is going to reduce the processing steps 
by 20 to 30 percent on how we used to build pits. The actual 
number, I would have to take that for the record if I could, 
please.
    [The information referred to follows:]

    The portion of the budget estimate associated with reliable 
replacement warhead (RRW) pit development planning is $13 million, 
however, other elements of the pit campaign also support our planning 
for RRW.
    The purpose of the pit campaign is to make war reserve pits for the 
stockpile (currently the requirement is focused on for pits for the W88 
and RRW) and to increase the pit manufacturing capacity (i.e., the 
number of pits/year) of the nuclear weapons complex to that needed to 
support the nuclear weapons requirements of the Department of Defense.
    The efforts in the campaign are divided into four categories: W88 
pit production; RRW pit development planning; plutonium experimentation 
to enhance certification confidence and to address stockpile issues; 
and technology development and planning to increase pit manufacturing 
capacity for whatever pit type is required. Within those four 
categories, the $281 million in the fiscal year 2008 request is 
associated as follows: W88 production $142 million; RRW pit development 
planning $13 million; plutonium experimentation to enhance 
certification confidence and address stockpile issues $34 million; and 
technology development and planning to increase pit manufacturing 
capacity $92 million.

    Senator Bill Nelson. So the 10 per year are W88 pits?
    Mr. D'Agostino. That is right, Mr. Chairman. For the next 2 
to 3 years we will be building up a reserve of pits that will 
allow us to--as part of our surveillance, what we do is every 
couple of years we take a W88 warhead pit out of the stockpile 
and we do destructive testing on that pit. What that ends up 
doing, because the Nation does not have a long-term or 
maintainable pit production capability, is that it reduces our 
W88 pits by one and it eats into the reserve warheads.
    So we want to build up a couple of years worth of 
production capability. The exact number is classified, but in 
closed session we could tell you. A couple years of production 
capability, that will give the Navy as well as the DOE 
confidence that we will be able to do surveillance work on the 
pits for the life of the expected warhead, well out on the W88 
warhead over the next 2 decades or so.
    Senator Bill Nelson. So the question you are going to 
answer for the record is, how much of the $281 million 
requested will actually go for the manufacture of RRW pits?
    Mr. D'Agostino. Yes, sir.
    Senator Bill Nelson. Okay.
    It also includes $24.9 million for the consolidated 
plutonium center. How is that going to be used?
    Mr. D'Agostino. The $24.9 million for the consolidated 
plutonium center is what we call process development steps. As 
we look forward into the future at our Nation's need to put 
together a pit manufacturing capability, whether it is 50 pits 
per year or 125 pits per year is something we will work out 
with the DOD. That is an important distinction because it 
drives us in a couple of different directions.
    What we are looking at with that money is to do the process 
steps, and to try to figure out what type of equipment we would 
need in this consolidated plutonium center. It helps us with 
those types of studies needed to continue the studies for what 
we are in the process of doing right now, which is a National 
Environmental Policy Act activity to get to a record of 
decision on a long-term pit capability. So it will allow us to 
do the analysis on the different options that we are currently 
working on right now in a very public process.
    Senator Bill Nelson. The requirement for a security force 
at the NNSA facilities has increased rather dramatically.
    Mr. D'Agostino. Yes, sir.
    Senator Bill Nelson. More physical requirements, more 
sophisticated weaponry to meet more stressing design basis 
threats. These are all contractors and are managed differently 
at each site. The guards certainly put their lives in jeopardy 
to protect thousands of nuclear weapons and tons of weapons-
grade materials.
    So what about taking a more uniform approach to managing 
and training the guard force? Have you considered federalizing 
this force under a single contract? Have you looked at managing 
the force more like a law enforcement entity?
    Mr. D'Agostino. Studies have been done in the past which 
have looked at federalizing, consolidating into one large 
contract, or leaving things as we currently have it, which is 
largely defining the performance characteristics that we have, 
as a way to lay out essentially a bar that has to be met, and 
then going out and doing independent assessments. I have not 
reopened the past studies which once looked at federalizing 
this activity. I am aware of our efforts in essence to look at 
how do we drive consistency across our guard force and as part 
of that what we have done is we have worked with our HSS, which 
is the Office of Health, Safety, and Security, under part of 
our Department, and to simplify our security requirements and 
set up independent teams to go out and look at that.
    I do not know if this is the right time actually to relook 
at that study and to drive consistency. But I will say that one 
of the things we are trying to do is not increase the size of 
the guard force. One of the elements of our Complex 2030 vision 
is to have fewer sites with special nuclear materials and have 
fewer locations within sites for special nuclear materials. I 
expect that to drive our guard forces numbers down and shift 
quite a bit.
    It is much easier to drive things down and shift a bit with 
contracts rather than a Federal workforce. It is just something 
that is in the back of my mind as I look to try to stabilize 
and level off at the right level on our security budget, 
because it does go up significantly between 2007 and fiscal 
year 2008.
    Senator Bill Nelson. What you might do is look at a uniform 
standard among all your different contracts.
    Mr. D'Agostino. I believe we do have that uniform standard 
in our DOE orders, but what we have to do is be consistent in 
how we evaluate our different contractors. There are multiple 
contractors out there for security contracts.
    Senator Bill Nelson. This is one we cannot mess up.
    Mr. D'Agostino. Yes, sir.
    Senator Bill Nelson. General, during the deliberations on 
the 2007 year it became clear that the Air Force could not meet 
its requirements with the reductions in the B-52 bomber fleet 
first proposed in the Quadrennial Defense Review (QDR). So 
Congress approved a reduction of up to 18 bombers from the 
current fleet of 93 B-52s. The authorized reduction was 
predicated on completion of a report that would analyze all 
aspects of the overall bomber fleet, including the requirements 
and the modernization plans.
    Now it is our understanding that the report will not be 
completed and submitted to Congress until at least the end of 
this fiscal year. As a result of the reduction of the 18 
bombers--therefore, they will not be reduced until fiscal year 
2008. So does it make sense to authorize more reductions prior 
to receiving the report from last year, as the questions are 
the same?
    So what has changed since the 2007 authorized retirement of 
only 18 bombers, rejecting the request in the QDR to a 
transition to 56 bombers?
    General Burg. Yes, sir. Senator, the overall management of 
the fleet of aircraft the Air Force has been charged to be 
responsible for is a big challenge, and I think you have 
already heard from our chief in terms of managing that fleet to 
try to get the best capability for the investment that you are 
making in that bomber force. We in the Air Force believe that 
we can reduce the number of B-52s in the bomber fleet while 
retaining the B-1s and B-2s and maintain the bomber capability 
that the combatant commanders require to support their war 
plans.
    We recognize that Congress is very interested in the 
overall numbers of the B-52 remaining and that we have specific 
directions to retain the bomber force or the B-52 force at its 
current level until this study is complete and Congress gets a 
chance to review those results.
    We agree that the study completion will probably be later 
this fall and it will not be available to you in time to inform 
the 2008 budget decisions.
    Senator Bill Nelson. Would the Air Force retire all of the 
18 B-52s authorized to be retired in 2008?
    General Burg. The Air Force would like to have the 
authority to retire those bombers that are awaiting the results 
of that study, and our budget submission submits a program line 
that would retire those aircraft.
    Senator Bill Nelson. What are the changed circumstances 
that would persuade Congress to authorize the retirement of any 
additional B-52 bombers?
    General Burg. Sir, I would answer that the circumstances 
are still roughly what they were prior to this report being 
requested by Congress, that the combatant commanders have told 
us what their needs are for a bomber force, and we feel we can 
meet those needs with the B-2, B-1, and the reduced B-52 force; 
that there are still questions from Members of Congress on 
whether that is an adequate bomber force for the future. But 
the Air Force believes that it is an adequate bomber force with 
the reductions that we had programmed to take in the 2007 
submission.
    Senator Bill Nelson. General, what is the minimum number of 
B-52 bombers needed to protect all the plans and requirements?
    General Burg. We believe that the number that we have 
proposed in the 2008 budget, 56 total aircraft inventory of B-
52s, is the adequate number for the B-52 when combined with the 
B-1 and B-2 force to provide for the combatant commanders' 
requirements. Now, we recognize that there is some risk in that 
force. If you have two major contingencies at the same time, 
you accept some risk. But if you believe that your future 
requirements will be based on a single major combat operation 
activity, that bomber force with the reduced B-52 numbers meets 
the combatant commanders' requirements.
    Senator Bill Nelson. In that authorization bill from the 
2007 year, it directed the Air Force to maintain 44 combat 
coded B-52 bomber aircraft, which would require a total of 74 
in the inventory. The 44 coded aircraft was a minimum to meet 
requirements. Does the fiscal year request mean that the 44 
combat coded aircraft can be met within the 56 B-52 bombers?
    General Burg. Sir, we recognize the same requirement that 
you have stated, 44 combat coded B-52s, and we are studying the 
ability to make 44 combat coded B-52s available with the force 
of 56 total aircraft inventory. We do not have an answer for 
you right now on whether that is easy to do or how challenging 
it is to do in terms of resources required. It becomes more 
expensive to maintain more combat coded aircraft.
    The answer is still not available to us right now.
    Senator Bill Nelson. So the answer is we do not know if you 
can maintain 44 combat coded within the 56?
    General Burg. Yes, sir, that is correct.
    Senator Bill Nelson. A review of the various modernization 
programs indicates that the Air Force could support somewhere 
between 65 and 70 B-52 bombers, but only if the outyear funding 
for the CONECT program was to be extended. How much would it 
cost to modernize all 76 B-52s?
    General Burg. Sir, I would appreciate the opportunity to 
take that question for the record and get you a very specific 
answer. We feel that we have the adequate resources in the 
modernization programs supporting the B-52 to field up to 72 
aircraft with the modernized capabilities that we are building 
into the B-52. But that uses spares that we had anticipated or 
components that we had anticipated using as spares to support a 
56-aircraft force.
    [The information referred to follows:]

    In order to modernize the current fleet of 76 B-52s, the fiscal 
year 2008 APAF funding required would be $19.02 million. Below are the 
breakout costs of modernizing the B-52s (costing in millions):

                        [In millions of dollars]
Advanced Weapons Integration...............................      $5.51
MLR-2020 (ILS receiver)....................................       1.41
Electronic Countermeasure Improvement (ECMI)...............       3.80
Avionics Midlife Improvement (AMI).........................          0
Enhanced Data Link.........................................       1.76
Digital Stability Augmentation Components..................       6.54


Fiscal year 2008 funding does not complete the following two
  modification efforts:
  ECMI: Additional funding required to complete installation--fiscal
  year 2009 ($2.7 million) and
  AMI: Additional funding required to support 76 AMI configured B-52s--
  fiscal year 2010 ($3.1 million).


    Senator Bill Nelson. The Air Force already decided, did it 
not, to terminate two other modernization programs, the AMI and 
the ECMI, before they had purchased all the necessary upgrade 
kits? So you would have to restart the manufacturing line.
    General Burg. Yes, sir, we would need to restart the line 
to purchase more kits, and I can give you specific costs for 
the requirement there. We think it is about a $216 million bill 
to maintain 76 aircraft fully capable as you have described, as 
opposed to 56 aircraft.
    Senator Bill Nelson. General, let me ask you. I understand 
that the Air Force is thinking about using parts of the 
Peacekeeper to develop a conventional ICBM that would be 
launched from Vandenberg. Is this a violation of the START 
treaty?
    General Burg. Sir, if I could clarify some aspects of what 
you just asked. We do have a program that would use the first 
segment and third stage of a Peacekeeper missile, which was a 
nuclear ballistic missile. But it would use those stages in a 
way that is not a ballistic missile. The missile follows a 
trajectory that is not ballistic. The difference is very 
significant in terms of how you describe the capability and how 
other nations might view that capability.
    We recognize the concerns of Congress in terms of 
conventional ballistic missiles being confused with their 
nuclear ballistic predecessors. But this is a significantly 
different capability. It flies in a trajectory that is 90 
percent lower than a ballistic missile. It flies on a boost-
glide trajectory. But it is a fact that we would plan to use 
the first three stages of a Peacekeeper missile to support this 
new conventional strike capability. We do not believe it is a 
violation of the treaty and the treaty is open to different 
ways to describe these kinds of capabilities not as former 
nuclear missiles.
    Senator Bill Nelson. We need a briefing on that particular 
system as to what you plan to do with it and so forth.
    General Burg. Sir, we would be very happy to bring that 
forward to you.
    Senator Bill Nelson. For the General and for the Admiral: 
The military Services each submit unfunded priority lists 
(UPLs). Can you briefly, because they just called the vote, 
discuss the items on the respective lists that fall into your 
areas? Let us go with you, Admiral.
    Admiral Johnson. I do have an item on the UPL and if my 
good associate in the Air Force will go first I might recover 
it in time.
    Senator Bill Nelson. General?
    General Burg. Sir, unfunded requirements cover a broad 
spectrum. For the specifics of how we would use your inputs on 
the UPL, I would like to answer that for the record if that is 
acceptable and give you very specific numbers and places where 
we have capabilities in my portfolio.
    [The information referred to follows:]

    Below is a listing of Air Force programs of interest to the Senate 
Armed Services Committee Strategic Forces Subcommittee that have been 
submitted on our unfunded priority list.
ICBM Remote Visual Assessment (RVA) $13.5 million:
    Adds funds to purchase 90 additional RVA kits in fiscal year 2008. 
This completes RVA deployment at one intercontinental ballistic missile 
(ICBM) wing to improve security forces' situational awareness. The RVA 
program sends visual signals from remote, unguarded Minuteman launch 
facilities to security force control facilities. The added visual 
information allows the security controllers to prioritize and tailor 
the responding security forces. In total, the 3 ICBM wings have missile 
launch facilities scattered across 44,600 square miles.
Common Vertical Lift Support Platform (CVLSP) $4.2 million:
    Funds Research and Development to select replacement for 50 UH-1Ns 
(25 AFSPC, 6 AETC, and 19 AFDW) with 54 CVLSPs (28 AFSPC, 6 AETC, 20 
AFDW).

    Senator Bill Nelson. Admiral?
    Admiral Johnson. Sir, on the UPL there are two 87-foot 
cutters to be used in the transit security program as we escort 
our vessels in and out of port. We would like to accelerate 
those purchases, if possible. Those ships are bought through 
the Coast Guard, right off the Coast Guard production line. 
They are identical in every respect to a Coast Guard vessel. We 
arm them slightly differently, but other than that, and those 
are easily changed, they are identical vessels.
    Senator Bill Nelson. These are not the same Coast Guard 
ships that they are suddenly having manufacturing problems 
with, are they?
    Admiral Johnson. No. Those are a different ship, no, sir.
    Senator Bill Nelson. Jeff, do you have anything?
    Senator Sessions. No. I would just say, Mr. Green, I am a 
little concerned about an article from ``The Parliamentarian'' 
in the Czech Republic that was concerned about the United 
States' negotiating tactics with regard to the European site. I 
think that it is important that we stay on top of that and make 
sure that we are handling that in a way that is acceptable to 
them, because I think that is an important thing for the whole 
world and for Europe.
    I will ask you for the record, Mr. Green, about the 2006 
bill. The National Defense Authorization Act required a 
commission on the implementation of the new strategic posture 
of the United States. That has not been stood up yet, I 
understand, and I would like you to respond as to why that has 
not.
    [The information referred to follows:]

    Implementation of the Strategic Posture Commission (SPC) has faced 
several hurdles, most notably the absence of any appropriations for the 
commission. Initial estimates were that the SPC would need $4.25 
million to conduct its work, but no funds were provided by Congress in 
the fiscal year 2006 budget. The Department of Defense (DOD) sought 
funds for this purpose in its fiscal year 2006 reprogramming request, 
but Congress reduced the funds available for all DOD commissions. As a 
result, the SPC received no funding. Congress added four new unfunded 
commissions in the National Defense Authorization Act for Fiscal Year 
2007, but only $6.7 million was appropriated for all DOD commissions in 
fiscal year 2007. The President's fiscal year 2007 budget requested 
additional funds for commissions, but Congress cut most of the request, 
citing ``excessive growth'' in boards and commissions. DOD submitted a 
fiscal year 2007 reprogramming request that would shift funds to 
support statutory and discretionary commissions.
    In addition to funding issues, there is also the matter of filling 
the commission positions. Of the 12 individuals selected by the 
Secretary of Defense in consultation with Congress, only 9 accepted the 
invitation to serve. We have been working with the SPC chairman to 
develop a list of alternate candidates for the Secretary's selection 
and approval in consultation with Congress.

    Senator Bill Nelson. Thank you all for your participation 
today. You have been very kind and this hearing is adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Bill Nelson

               RELIABLE REPLACEMENT WARHEAD AND THE W-76

    1. Senator Bill Nelson. Admiral Johnson, what modifications will 
the Navy have to make on the Mark 5 re-entry vehicle to accommodate the 
first Reliable Replacement Warhead (RRW) design?
    Admiral Johnson. Modifications to the war reserve aeroshell and 
antenna systems are expected to be minimal. Changes to Reentry Body 
(RB) and Release Assembly (RA) cable assemblies and the likely addition 
of a new RA connector are required to support the new surety options. 
That being said, however, a new warhead Arming, Fuzing, and Firing 
(AF&F) system jointly funded by National Nuclear Security 
Administration (NNSA) and Navy will have to be developed and produced 
for the RRW design.

    2. Senator Bill Nelson. Admiral Johnson, assuming that the RRW is a 
feasible replacement for the W-76, what is the right mix of RRWs and W-
76 warheads in the inventory?
    Admiral Johnson. NNSA production capability of RRW is the limiting 
element. The minimum number needed of W-76-1 is the planned fiscal year 
2012 submarine outload. The planned RRW build, limited by available RRW 
production rate and planned production time of 10 years will produce a 
number of RRWs far short of the needed inventory. If W-76-1 is produced 
in quantities to supply the minimum submarine outload in fiscal year 
2012, then the RRW can replace the end of production of W-76-1 
production requirement with minimum risk to the deterrent.

    3. Senator Bill Nelson. Admiral Johnson, what is the downside of 
delaying the W-76 life extension to see if the RRW is feasible?
    Admiral Johnson. If the RRW is delayed or has significant problems, 
the W-76-0 will age out and Navy will have no replacement capability. 
If W-76-1 is produced in quantities to supply the minimum submarine 
outload in fiscal year 2012, then the RRW can replace the end of 
production of W-76-1 production requirement with minimum risk to the 
deterrent.

    4. Senator Bill Nelson. Admiral Johnson, would the Navy work on a 
new arming, firing, and fuzeing system for the RRW 1 take place as part 
of phase 2A or phase 3?
    Admiral Johnson. For all systems, the fuze is an integral part of 
the design and must be addressed during each phase of the development. 
Work defining top-level fuze requirements, operational modes, and 
preliminary designs occur in Phase 2. These requirements, operational 
concepts, and designs are further refined during Phase 2A in support of 
cost studies and in the development of acquisition and qualification 
strategies. Detailed design of the AF&F will take place in phase 2A 
since there was no specific Navy funding for the AF&F in fiscal year 
2007. Phase 3 begins the engineering and manufacturing development 
phase where component-level requirements and subsystem designs are 
refined, and prototype hardware is produced for qualification and 
optimization for manufacture. The beginning of Phase 3 marks the real 
commitment to an effort which will be reflected in the need for 
resources.

                              B-52 BOMBER

    5. Senator Bill Nelson. General Burg, what has changed since the 
National Defense Authorization Act (NDAA) for Fiscal Year 2007 
authorized retirement of only 18 B-52 bombers, rejecting the request in 
the Quadrennial Defense Review (QDR) to transition to 56 B-52 bombers?
    General Burg. There has been no significant change to the combatant 
commanders' conventional strike requirements or the overall security 
environment within the last year. However, the Air Force has been 
moving forward to enhance its long-range strike capability by 
implementing a comprehensive three-phased strategy which addresses 
near-term issues and prepares for future operational needs.
    Phase I of this strategy is to modernize the remaining legacy 
bomber force. The B-1, B-2, and B-52 will undergo upgrades focused on 
sustainability, lethality, responsiveness, and survivability that 
enhance their capabilities to provide combat power for the combatant 
command (COCOM). For instance, in President's budget 2008 (fiscal year 
2008-fiscal year 2013) the B-52 has the following enhancements 
programmed: Avionics Midlife Improvement (AMI), Advanced Weapons 
Integration (AWI), Combat Network Communication Technology (CONECT), 
Electronic Countermeasures Improvement (ECMI), and Miniature Air 
Launched Decoys (MALD). These upgrades will allow the B-52 to carry and 
employ the LITENING II advanced targeting pod, rapidly re-target J-
series weapons in-flight, increase communications capability and 
connectivity, and provide enhanced capability against enemy threat 
systems. As well, the B-1 and B-2 are programmed to receive similar 
upgrades that will result in increasingly capable aircraft. In the 
near-term, the Air Force will present a more capable bomber force to 
the combatant commanders for their employment.
    This modernized legacy bomber force will serve to mitigate the risk 
until Phase II of our long-range strike strategy fields the next 
generation bomber in 2018. Additionally, the Bomber Force Structure 
Study directed by Congress to be accomplished by the Institute for 
Defense Analyses is underway and we expect initial findings to be 
available by August 2007.

    6. Senator Bill Nelson. General Burg, what are the changed 
circumstances or new information that would persuade Congress to 
authorize retirement of any additional B-52 bombers?
    General Burg. There has been no significant change to the combatant 
commanders' conventional strike requirements or the overall security 
environment within the last year. However, the Air Force has been 
moving forward to enhance its long-range strike capability by 
implementing a comprehensive three-phased strategy which addresses 
near-term issues and prepares for future operational needs.
    Phase I of this strategy is to modernize the remaining legacy 
bomber force. The B-1, B-2, and B-52 will undergo upgrades focused on 
sustainability, lethality, responsiveness, and survivability that 
enhance their capabilities to provide combat power for the COCOM. For 
instance, in President's budget 2008 (fiscal year 2008-fiscal year 
2013) the B-52 has the following enhancements programmed: AMI, AWI, 
CONECT, ECMI, and MALD. These upgrades will allow the B-52 to carry and 
employ the LITENING II advanced targeting pod, rapidly re-target J-
series weapons in-flight, increase communications capability and 
connectivity, and provide enhanced capability against enemy threat 
systems. As well, the B-1 and B-2 are programmed to receive similar 
upgrades that will result in increasingly capable aircraft. In the 
near-term, the Air Force will present a more capable bomber force to 
the combatant commanders for their employment.
    This modernized legacy bomber force will serve to mitigate the risk 
until Phase II of our long-range strike strategy fields the next 
generation bomber in 2018. Additionally, the Bomber Force Structure 
Study directed by Congress to be accomplished by the Institute for 
Defense Analyses is underway and we expect initial findings to be 
available by August 2007

    7. Senator Bill Nelson. General Burg, would the Air Force retire 
all 18 B-52s authorized to be retired in fiscal year 2008?
    General Burg. The fiscal year 2007 program of record retired 18 B-
52s, including 1 aircraft on loan to the National Aeronautics and Space 
Administration (NASA). In the NDAA for Fiscal Year 2007, Congress 
restricted the retirement of 17 of these aircraft until 45 days after 
the Secretary of the Air Force submits a bomber force structure study 
conducted by the Institute for Defense Analyses (IDA) to Congress. Only 
the aircraft on loan to NASA has not been restricted from retirement 
pending the IDA study. The IDA study should be briefed to the Air Force 
in August 2007, with formal report delivery to Congress by the end of 
fiscal year 2007. The 45-day waiting period pushes the earliest B-52 
retirement into fiscal year 2008. As a result, the Air Force intends to 
retire all 17 aircraft during fiscal year 2008 following submission of 
the IDA study to Congress and the subsequent 45-day waiting period.

    8. Senator Bill Nelson. General Burg, the B-52 draw down is part of 
a broader effort to reposition the B-52 aircraft between the two bases, 
one in Louisiana and one in North Dakota, and consolidate bomber 
delivered nuclear weapons. This is a long-term project. What is the 
likelihood that reductions and repositioning beyond the 18 would occur 
in fiscal year 2008, even if authorized?
    General Burg. The NDAA for Fiscal Year 2007 language limited the 
Air Force to retiring not more than 18 B-52s and maintaining 44 B-52s 
as Combat Coded.
    The Air Force has requested to divest 20 B-52s in the fiscal year 
2008 President's budget, reducing the Total Active Inventory (TAI) to 
56 B-52s. This program is based first on the ability of 56 TAI to meet 
any single COCOM requirement; second on the assessment that the 
operational risk associated with the retirements is acceptable; and 
third the need to recapitalize as a part of the Air Force's three-phase 
long-range strike (LRS) plan.
    If Congress authorizes the divestiture of 20 B-52s in fiscal year 
2008, the Air Force plans to reposition the aircraft as expeditiously 
as possible per the program of record. To remain in compliance with 
NDAA 2007 language while maintaining 56 aircraft TAI, the Air Force 
will place the 20 aircraft in ``Excess to Command'' status.

    9. Senator Bill Nelson. General Burg, what is the minimum number of 
B-52 bombers needed to meet all plans and requirements?
    General Burg. The B-52 program of record as presented in the fiscal 
year 2008 President's budget, retires 18 excess-to-need attrition 
reserve aircraft in fiscal year 2007 and another 20 aircraft in fiscal 
year 2008 for a Total Aircraft Inventory (TAI) of 56. The B-52 force 
structure of 56 TAI satisfies any single COCOM requirement, meets 
requirements for two near-simultaneous Major Combat Operations with 
swing of forces and enables recapitalization as part of the Air Force's 
three-phase LRS plan.

    10. Senator Bill Nelson. General Burg, what is the utilization rate 
for the 74 non-attrition reserve B-52 bomber aircraft?
    General Burg. The standard utilization (UTE) rate for the B-52 is 
5.8 for the Active-Duty and 5.0 for the Reserves. UTE is calculated 
using programmed Primary Aircraft Inventory (PAI) and not Backup 
Aircraft Inventory (BAI). The Active Duty has 37 PAI and the Reserves 8 
for a total of 45 aircraft; two other aircraft (also PAI) are with Air 
Force Materiel Command for test purposes. PAI and BAI total 54 
aircraft. Fiscal year 2006 and fiscal year 2007 standard UTE rates are 
identical.

ACC
  PAI.....................................  37
  BAI.....................................   6
  AR (Attrition Reserve)..................   2
Reserve
  PAI.....................................   8
  BAI.....................................   1
AFMC
  PAI.....................................   2
Totals
  PAI.....................................  47
  BAI.....................................   7
  AR......................................   2
                                           -----------------------------
                                            56


    The figure of 74 aircraft is based on the fiscal year 2006 
President's budget force structure; an Air Force corporate decision, 
PBD 720, reduced that number to 56 as of the fiscal year 2007 
President's budget.

    11. Senator Bill Nelson. General Burg, what requirement for LRS 
aircraft is not being met by the current fleet of B-52, B-1, and B-2 
bombers?
    General Burg. Proliferation of advanced threat systems such as the 
SU-27, SU-30, SA-20, and S-400 are presenting survivability challenges 
for our legacy platforms and will eventually limit their capability to 
respond and persist in the high threat battle space of the future. The 
Next Generation Long-Range Strike (NGLRS) aircraft, which will be 
fielded in 2018, will provide a stealthy, persistent, responsive 
capability that can attack deep, heavily defended, fixed and mobile, 
high-value targets.

    12. Senator Bill Nelson. General Burg, the NDAA for Fiscal Year 
2007 directed the Air Force to maintain 44 combat coded B-52 bomber 
aircraft, which would require 74 total B-52 aircraft in inventory. The 
44 combat coded aircraft was the minimum to meet requirements. Does the 
fiscal year request mean that the 44 combat coded aircraft can be met 
with only 56 B-52 bombers? What happened in the past 6 months to make 
this possible?
    General Burg. The Air Force is requesting to reduce the number of 
B-52 aircraft in order to divest legacy aircraft for the purpose of 
modernization and recapitalization. The Air Force's Air Combat Command 
(ACC) has stated that they can provide 44 Combat Coded (CC) aircraft 
with 56 TAI. There has been no significant change to the combatant 
commanders' conventional strike requirements or the overall security 
environment within the last year. With a reduced B-52 force, the Air 
Force will still retain the ability to meet any COCOM requirement from 
a total force perspective. The bomber's ability to swing from one AOR 
to another and the ability to introduce different force structures to 
provide the same effect will allow the Air Force to provide the forces 
to the COCOM to meet their requirements.
    The fiscal year 2008 President's budget includes the planned 
retirement of 20 B-52s in fiscal year 2008. The NDAA for Fiscal Year 
2007 language limited the Air Force to retiring not more than 18 B-52s 
and maintaining 44 B-52s as CC. To remain in compliance with NDAA for 
Fiscal Year 2007 language while maintaining 56 aircraft TAI, the Air 
Force will place the 20 aircraft in ``Excess to Command Status.''

    13. Senator Bill Nelson. General Burg, a review of the various B-52 
modernization programs indicates that the Air Force could support 
somewhere between 65 and 70 B-52 bombers with the current modernization 
funding and then only if the out-year funding for the Connect program 
were to be extended. How much would it cost to modernize all 76 B-52s?
    General Burg. In order to modernize the current fleet of 76 B-52s, 
the fiscal year 2008 APAF funding required would be $19.02 million. 
Below are the breakout costs of modernizing the B-52s (cost in 
millions):

                        [In millions of dollars]
Advanced Weapons Integration...............................        $5.51
MLR-2020 (ILS receiver)....................................         1.41
Electronic Counter Measure Improvement (ECMI)..............         3.80
Avionics Midlife Improvement (AMI).........................            0
Enhanced Data Link.........................................         1.76
Digital Stability Augmentation Components..................        6.54

Fiscal year 2008 funding does not complete the following two
  modification efforts:
  ECMI: Additional funding required to complete installation--fiscal
  year 2009 ($2.7 million) and
  AMI: Additional funding required to support 76 AMI configured B-52s--
  fiscal year 2010 ($3.1 million).


                      HELICOPTERS FOR ICBM FIELDS

    14. Senator Bill Nelson. General Burg, the helicopters that the Air 
Force uses to support the vast expanse of intercontinental ballistic 
missile (ICBM) fields are Vietnam-era and need to be replaced. What are 
the requirements for new helicopters and what are the plans to replace 
the old helicopters, including the estimated cost of the replacement?
    General Burg. The UH-1N does not meet requirements directed in 
Nuclear Weapon Security Manual (Department of Defense (DOD) S-5210.41-M 
dated 22 November 2004), and it cannot be modified to meet Key 
Performance Parameters in speed, lift, range, and capacity. The Air 
Force safely maintains and operates the UH-1N and plans to continue to 
do so until a replacement program is fielded. The Air Force is pursuing 
the Common Vertical Lift Support Platform (CVLSP) as a replacement 
effort. CVLSP is currently unfunded; it is currently number six on the 
Air Force Chief of Staff's Unfunded Priority List (UPL). The Air Force 
has conducted a CVLSP Analysis of Alternatives (AoA) to study 
replacement options. The AoA Final Report is currently with OSD (PA&E) 
for sufficiency review. No reliable cost data is available because the 
replacement platform(s) have not been selected.

    15. Senator Bill Nelson. General Burg, has the Air Force selected a 
replacement helicopter for the ICBM fields?
    General Burg. The Air Force has not selected a replacement for the 
UH-1N. The CVLSP is an unfunded effort to replace the UH-1N. It is 
currently number six on the Air Force Chief of Staff's UPL. Air Force 
Space Command completed an AoA for the CVLSP. The AoA team evaluated 12 
different material solutions and mixed fleet possibilities. The CVLSP 
AoA Final Report is currently with OSD (PA&E) for a sufficiency review.
                                 ______
                                 
           Questions Submitted by Senator E. Benjamin Nelson

                 GLOBAL INNOVATION AND STRATEGY CENTER

    16. Senator Ben Nelson. General Cartwright, the Global Innovation 
and Strategy Center (GISC) is a facility to bring together, in a 
cooperative effort, members of the public and private sector and to 
leverage the expertise of the participating members to provide global 
strategies, timely courses of action, and new operational tools and 
analyses in support of the Strategic Command (STRATCOM) mission. What 
is the current status of the GISC and are there accomplishments yet?
    General Cartwright. The GISC became operational in September 2006 
and has completed over 38 diverse projects. For example, the GISC 
successfully teamed with the State of Nebraska and the University of 
Nebraska in the development of a pandemic influenza predictive modeling 
and vaccine distribution program. The program was adopted by Nebraska 
and is under review by the Centers for Disease Control for 
applicability nationwide. Additionally, the GISC teamed with Johns 
Hopkins University Applied Physics Lab to develop software that 
leverages the national satellite systems to produce actionable 
intelligence that previously may have gone unnoticed. This information 
was supplied to the Commander, Pacific Air Forces and successfully 
transitioned to the Air Force for integration into the Distributed 
Common Ground System. The GISC is also working on projects to help 
redefine global deterrence in the 21st century that have already proven 
useful. We view these example projects and more as accomplishments.

    17. Senator Ben Nelson. General Cartwright, can you describe the 
collaborations with the university community in Nebraska as well as the 
private sector?
    General Cartwright. In addition to collaborating with the 
University of Nebraska community on pandemic influenza modeling, the 
GISC implemented an intern study program. This USSTRATCOM ``first'' 
leverages the academic rigor of a small, cross-disciplinary University 
of Nebraska academic team to take a fresh, unclassified look at tough 
issues confronting the Command and the Nation. The GISC recently 
completed its first intern study project, which looked at 
communications transmission in the Pan Sahel of Africa. Furthermore two 
intern study groups will begin in the fall, leveraging academic teams 
from the University of Nebraska Omaha and the Peter Kiewit Institute. 
Eventually the GISC will leverage national and international academic 
teams to evaluate similar timely issues. The GISC recently hosted a 
first of its kind Global Leadership Conference bringing private sector 
CEOs together with the military to gain a perspective on collaborating 
and working future issues. Our objective is to utilize cross 
organization and disipline collaboration to develop new strategies for 
our most difficult problems. This peering, self-organized effort 
bypasses vertical closed approaches, and physical and regional 
artificial boundaries to generate innovation.

    18. Senator Ben Nelson. General Cartwright, obviously, GISC is 
still evolving; what do you foresee for the future?
    General Cartwright. Globalization has given us unique challenges 
but it has also given us opportunities to access information that will 
enable us to have new knowledge discovery by using the latest 
technologies, large network bandwidth, and a global approach. This 
structure allows the GISC to think and act globally; break down 
artifical closed, vertical, physical, regional boundaries; create 
peering relations; and foster self-organized functional activites. The 
GISC is an organization where Government, industry, and academia can 
come together and tackle the Nation's toughest problems in an 
environment that is conducive to information sharing with an innovative 
global perspective.

    19. Senator Ben Nelson. General Cartwright, the February 6, 2006, 
QDR assigned STRATCOM lead responsibility to operate and protect the 
Department's Global Information Grid (GIG). That's a part of STRATCOM's 
Information Operations (IO) mission. Can you describe what that means--
``operate and protect'' the GIG?
    General Cartwright. Defending the GIG implies only defending the 
DOD. We defend the Nation by layered defense off shore in partnership 
with Homeland Security on shore. Operating and defending the GIG means 
providing the framework, policy, guidance, and supervision to all users 
on the DOD's networks to ensure we are protecting our greatest 
resource: information. Employing an overall strategy of defending the 
GIG and the information it contains, USSTRATCOM employs a proactive 
preventive capability and flexible, rapid, and aggressive response 
actions. Our concept of Computer Network Defense (CND) depends upon 
situational awareness of the network environment, predictive warning of 
impending attacks, defensive tools, and measures to defeat attacks when 
they occur. Out intent is to assure timely and secure net-centric 
capabilities in support of DOD's full spectrum of warfighting, 
intelligence, and business missions. Operating and defending the GIG 
means employing a defense-in-depth approach that is routinely validated 
and enhanced through rigorous full-dimensional exercises across the 
DOD. Over the last 2 years, we've made tremendous headway in deterring 
and reducing the number of intrusions.

    20. Senator Ben Nelson. General Cartwright, Barksdale Air Force 
Base has a brand new Global Cyberspace Innovation Center. What is the 
relationship between the GIG and those activities?
    General Cartwright. Eighth Air Force, headquartered at Barksdale 
Air Force Base, is the Numbered Air Force Component assigned to provide 
Air Force cyber and global strike capabilities to USSTRATCOM. Barksdale 
Air Force Base hosts the Air Force Network Operations Center and 
STRATCOM's Air Operations Center. The local Shreveport-Bossier 
community established a ``Cyberspace Innovation Center'' to organize 
local industry and academia cyberspace efforts and integrate them into 
the nationwide network of innovation centers of excellence. The focus 
areas of the Cyberspace Innovation Center are cyber research and 
development, public law and policy, and training and education. The 
Center will take advantage of existing state-of-the-art resources such 
as the Louisiana Consortium for Education, Research, and Technology and 
the Louisiana Optical Network Initiative to provide very high 
bandwidth, virtual collaboration between partners.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor

                          NUCLEAR CAPABILITIES

    21. Senator Pryor. General Cartwright, our missile defense system 
is an important response to the challenges of ballistic missile 
proliferation. How do we extend deterrence or enhance defenses against 
the ballistic missile threat for our deployed forces and allies?
    General Cartwright. Global integration of regional missile defense 
capabilities with our allies is crucial to enhancing and extending 
global deterrence. We continue to rely on the Patriot missile system 
for defense of deployed forces while we work to build additional 
capabilities. The Missile Defense Agency, with essential warfighter 
input, is developing and testing additional ground- and sea-based 
systems that complement this system and will provide the robustness and 
redundancy we require to defend our allies and deployed forces. Allies 
are also active participants in providing protection against ballistic 
missile threats as they continue to expand cooperative programs with 
the U.S. Government. Japan's purchase and fielding of missile defense 
systems and the desire of European countries to host forward deployed 
radars and interceptors provide evidence of ally aspirations to protect 
their homeland. Active defense forces are but one piece of the 
solution; we also look to attack operations, passive defense, and 
nonkinetic options to meet the threat.

    22. Senator Pryor. Mr. D'Agostino, it is imperative to national 
security to ensure the safety, security, and effectiveness of our 
nuclear stockpile. How do we validate the reliability of new modular 
and interoperable nuclear warheads under the RRW program?
    Mr. D'Agostino. The NNSA design laboratories (with Lawrence 
Livermore as the lead laboratory) will employ the same broad approach 
used to verify the continued performance of existing warheads. The 
laboratories will conduct integrated experiments, develop models, and 
use computational analysis to quantify performance margins and assess 
uncertainties.
    The designers have identified and understand the key performance 
parameters for RRW would be designed utilizing archived nuclear test 
data. The RRW will be designed so that these key performance parameters 
arc farther away from failure points (have greater margin) than the 
current Cold War warheads designed for high yield to weight. This 
approach would give designers higher confidence in their ability to 
certify the design without underground nuclear tests. Years of 
experience studying materials and manufacturing processes, and with 
capabilities developed as part of the Stockpile Stewardship Program, 
combined with past nuclear test data, provide a basis for designers to 
address known areas of uncertainty. Improved warhead performance 
margins that would be incorporated into the replacement warhead design 
will reduce uncertainty due to aging, and reduce the likelihood that 
underground nuclear testing will be required in the future to resolve a 
technical problem in the stockpile. The quantification of margins and 
uncertainties (QMU). for key performance parameters would aid in 
understanding the limits of the performance and be the basis for the 
laboratory directors' certification of a RRW design.

    23. Senator Pryor. Mr. D'Agostino, the NNSA has said that the 
acquisition of nuclear weapons, weapons of mass destruction (WMD) 
capabilities, technologies, and expertise by rogue states or terrorists 
stands as one of the most potent threats to the United States and 
international security. What is your plan to address these threats?
    Mr. D'Agostino. The overall strategy to protect the United States 
from rogue state and terrorist nuclear weapons threats has seven 
components:

        <bullet> Determine intentions, capabilities, and plans to 
        develop or acquire nuclear weapons;
        <bullet> Deny access to nuclear materials, expertise, and 
        technologies required to develop nukes;
        <bullet> Detect and disrupt attempted movement of nuclear 
        materials, weapons, personnel;
        <bullet> Deter nuclear attack;
        <bullet> Prepare for and respond to nuclear attack;
        <bullet> Define the nature and source of a terrorist-employed 
        nuclear device; and
        <bullet> Disarm and dispose of a terrorist nuclear device.

    Prevention is the key to an effective strategy. The NNSA is working 
intensively to assist overall U.S. efforts to prevent acquisition of 
nuclear devices and fissile materials by rogue states and terrorists 
by:

        <bullet> Strengthening physical security of U.S. nuclear 
        weapons and weapons usable materials;
        <bullet> Providing assistance to Russia to strengthen 
        protection, control, and accounting of its nuclear weapons and 
        materials;
        <bullet> Working with friends and allies to secure weapons-
        usable nuclear materials worldwide, and to strengthen security 
        at civil nuclear facilities; and
        <bullet> Taking more aggressive steps to interdict illicit 
        trafficking in weapons-usable nuclear materials and related 
        technologies via strengthened export controls, cooperation with 
        other countries through Second Line of Defense and MegaPorts 
        programs, and the Proliferation Security Initiative.

    Attribution, or the capability to rapidly characterize and identify 
the source of a nuclear warhead or weapons usable nuclear materials 
either before or after an attack, is a vital component of our overall 
strategy to deter nuclear terrorism. This is for the reason that it is 
far less likely that a stale will provide nuclear weapons to terrorists 
if it knows that there is a strong likelihood that we will attribute 
the weapon to that state, and that we are fully able to retaliate on 
the source. During the period of nuclear testing NNSA developed a 
national capability for technical nuclear forensics to support its own 
test program and to understand the nature of non-U.S. nuclear tests. 
This capability, developed over a period of decades during the Cold 
War, is critical to attribution of terrorist nuclear threats. Among 
other things, the NNSA is developing a concept of operations to assess 
origin of an interdicted nuclear device; and is also working to ensure 
that the capabilities exist at our national laboratories for pre- and 
post-detonation forensics assessments.
    Through its national laboratory system the Department of Energy 
(DOE) deploys highly-trained learns of experts to search for 
clandestine nuclear materials or warheads and to disarm and dispose of 
a terrorist nuclear device. These teams work in concert with elements 
of the DOD, DHS, and the FBI to provide the total national response to 
nuclear terrorism.

    24. Senator Pryor. General Burg, how do we reduce our ICBM nuclear 
arsenal without compromising our strategic deterrent posture?
    General Burg. On 16 March 07, the Air Force provided a detailed 
report on ICBM force modernization in response the guidance contained 
in section 139 of the NDAA for Fiscal Year 2007 (P.L. 109-364). We are 
forwarding through classified channels an excerpt from this report that 
addresses the United States' strategic deterrent posture.

    25. Senator Pryor. Admiral Johnson, nuclear propulsion plays a 
vital role in our Navy's effective forward presence throughout the 
world. How can we ensure their continued safe, reliable, and long-lived 
operation?
    Admiral Johnson. The Director, Naval Nuclear Propulsion Program, 
has statutory authority for oversight and direction of all aspects of 
naval nuclear propulsion. U.S. nuclear-powered warships have safely 
operated for more than half a century without experiencing any reactor 
accident or any release of radioactivity that had an adverse effect on 
human health or the quality of the environment. The program has 
consistently limited personnel radiation exposure more stringently than 
the civilian nuclear power industry or other Government nuclear 
programs. No civilian or military personnel in the Naval Nuclear 
Propulsion Program have ever exceeded the Federal lifetime radiation 
exposure limit or the Federal annual limit in effect at the time.
    Naval reactors' safety standards are mainstreamed across all 
organizations in the Naval Nuclear Propulsion Program, from 
headquarters to equipment suppliers, contractors, laboratories, 
shipyards, training facilities, and the fleet. Continued safe and 
reliable operation is ensured through the long-term, deliberate 
investment in the material, design, and operational standards that 
characterize the Naval Nuclear Propulsion Program.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions

                   RESPONSIVE NUCLEAR INFRASTRUCTURE

    26. Senator Sessions. General Cartwright, the Nuclear Posture 
Review (NPR) called for the development of a ``responsive nuclear 
infrastructure.'' Have the DOD and the DOE ever formalized a definition 
of ``responsive''?
    General Cartwright. The June 2004, Report to Congress, A Revised 
Nuclear Weapons Stockpile Plan for 2012, submitted by the Secretary of 
Defense and Secretary of Energy defines ``responsive'' as, ``. . . the 
resilience of the nuclear weapons enterprise to unanticipated events or 
emerging threats, and the ability to anticipate innovations by an 
adversary and to counter them before our deterrent is degraded all the 
while continuing to carry out day-to-day activities in support of the 
stockpile.'' The DOD continues to work with the DOE on quantitative 
metrics.

    27. Senator Sessions. General Cartwright, what performance metrics 
are used to measure ``responsiveness''?
    General Cartwright. The June 2004, Report to Congress, A Revised 
Nuclear Weapons Stockpile Plan for 2012, submitted by the Secretary of 
Defense and Secretary of Energy defines responsive nuclear 
infrastructure. The DOD continues to work with the DOE on quantitative 
metrics to include:

          1) Time to fix stockpile problems;
          2) Time to adapt weapons by modifying or repackaging existing 
        warheads;
          3) Time to design, develop, and begin production of a new 
        warhead;
          4) Production capacity levels;
          5) Force augmentation service levels; and
          6) Test readiness posture.

    28. Senator Sessions. General Cartwright, how often is the 
performance of the nuclear weapons complex assessed against these 
metrics and by whom? To whom is the performance reported?
    General Cartwright. Through the Nuclear Weapons Council, DOD and 
NNSA constantly and jointly monitor progress toward meeting 
responsiveness objectives. In fact, NNSA provides quarterly reports to 
the Nuclear Weapons Council.

    29. Senator Sessions. General Cartwright, is cost effectiveness, or 
delivering products for a predicted cost target, one of the measures of 
performance?
    General Cartwright. Cost is a measure of performance for program 
execution. Infrastructure responsiveness impacts cost and schedule. One 
of the responsiveness objectives is to ensure an economically 
sustainable nuclear weapons enterprise.

    30. Senator Sessions. General Cartwright, in your view, what 
progress has been made in the last 5 years on the development of a 
``responsive'' infrastructure?
    General Cartwright. The NNSA has begun to transform the nuclear 
weapons complex. In 2006, NNSA developed the Complex 2030 
Transformation Plan and established the Office of Transformation to 
transform the nuclear weapons complex. Recent accomplishments include: 
initiating tritium extraction operations, increasing throughput at 
Pantex and Y12 plants, starting modernization and construction projects 
for critical scientific and production facilities, and creating a 
systems integration structure to improve efficiency and responsiveness. 
The completion of the detailed cost and design study for the first RRW 
is another critical milestone for transformation. We support NNSA's 
nuclear complex transformation efforts but recognize much work remains 
to be done.

      COST OF RELIABLE REPLACEMENT WARHEAD VERSUS THE CURRENT PATH

    31. Senator Sessions. Mr. D'Agostino, is the DOE preparing a 
detailed analysis of the cost differential between the development and 
deployment of a stockpile based on the RRW versus the cost of 
continuing with life extension programs into the foreseeable future?
    Mr. D'Agostino. Yes. We are using computer models of the nuclear 
weapons complex enterprise to bound probable costs for a variety of 
different scenarios that include a comparison of Life Extension Program 
(LEP) and RRW stockpiles. The models indicate long-term economic 
benefits for an RRW-based stockpile. However, because we are in the 
early stages of finalizing the RRW and facility designs the detailed 
costs associated with RRW development and deployment. Utilization of 
the RRW design enables the elimination of certain hazardous operations 
and a reduced suite of production capabilities that would have to be 
retained and refurbished to support an LEP stockpile strategy. The RRW 
Phase 2A will provide the baseline cost of a first design but it will 
not be completed before the end of fiscal year 2008.

    32. Senator Sessions. Mr. D'Agostino, when will this analysis be 
completed and presented to Congress?
    Mr. D'Agostino. Assuming we are authorized and appropriated by 
Congress to continue design definition and detailed RRW cost analysis, 
Phase 2A, we should be able to present the detailed cost differential 
between the different stockpile scenarios in late 2008.

    33. Senator Sessions. Mr. D'Agostino, do you think pursuit of the 
RRW might be the less expensive option and, if so, why?
    Mr. D'Agostino. Based upon the enterprise modeling results we have 
now, we expect a stockpile option based on RRW concepts to be less 
expensive than a LEP stockpile option over the next several decades. 
Since a primary objective of RRW development is to increase design 
margins in order to ensure warhead reliability while reducing the 
potential need for an underground nuclear test, we intend to pursue 
RRWs in a manner that makes them easier to manufacture, certify, and 
maintain, as well as decrease the need for large numbers of 
augmentation warheads. The RRW strategy is also intended to take 
intrinsic safety and warhead security to a level that is not possible 
to incorporate into an existing Cold-War design. All of these are 
expected to reduce long-term costs.

                       COMPLEX 2030 ALTERNATIVES

    34. Senator Sessions. Mr. D'Agostino, how confident are you that 
the range of alternatives being considered under the Complex 2030 plan 
encompasses the full range of downsizing or facility consolidation that 
will be appropriate for the nuclear weapons complex of the future--one 
which supports a much smaller stockpile?
    Mr. D'Agostino. I am quite confident that we are considering the 
full range of reasonable downsizing or facility consolidation 
alternatives as part of our complex transformation planning. For 
example, we are evaluating alternatives ranging from no action to a 
consolidated nuclear production center (CNPC) in our Complex 
Transformation Supplemental Programmatic Environmental Impact Statement 
and supporting business case analyses. A CNPC would consolidate all 
nuclear component manufacturing and weapon assembly/disassembly 
operations to one site. In addition, we are considering intermediate 
nuclear production alternatives that range from downsizing-in-place at 
three sites to consolidating to two sites. We are also analyzing the 
impacts of a smaller stockpile in the event that national security 
requirements are revised.

    35. Senator Sessions. Mr. D'Agostino, do you think the ``tough'' 
decisions about the future of some of these facilities can really be 
made without an external body, such as a Base Realignment and Closure 
(BRAC) Commission, doing an evaluation?
    Mr. D'Agostino. Yes, I believe that we will be able to make the 
tough decisions. NNSA is evaluating all reasonable alternatives and 
using external groups that include officials who have BRAC experience. 
With the support of Congress, I anticipate making a number of tough 
decisions. Given the age of the NNSA production complex, and the 
associated high maintenance and security costs, we need to transform 
expeditiously. Our analyses show that delay is costly. It does not seem 
likely that a BRAC could be authorized, organized, and complete its 
evaluations in sufficient time to provide benefits that outweigh the 
cost and risk of delays.

           BUSINESS PRACTICES OF THE NUCLEAR WEAPONS COMPLEX

    36. Senator Sessions. Mr. D'Agostino, do you think there would be 
value in having an independent group or commission review the business 
practices of the nuclear weapons complex to search for efficiencies and 
other improvements to the way business is conducted in the complex?
    Mr. D'Agostino. Several independent groups have already conducted 
reviews of various operations within the nuclear weapons complex to 
include the business practices. These groups include the Secretary of 
Energy Advisory Board's Recommendation for the Nuclear Weapons Complex 
of the Future, the National Research Council, the DOE Inspector General 
and the Government Accountability Office. From these reviews, we have 
identified certain business areas to focus on for further efficiencies 
and improvements. As an example, NNSA has implemented the Supply Chain 
Management Center to consolidate and streamline procurement actions 
across the complex. Improvements in program and project management and 
cost estimating practices are also of particular interest. Further 
external, independent reviews of these practices may be beneficial 
after implementation, when results have been achieved.

    37. Senator Sessions. Mr. D'Agostino, many corporations have been 
able to improve their operations through such reviews--such as Lean Six 
Sigma, quality process improvement, and other corporate initiatives. Do 
you have any such reviews currently ongoing? If so, do you have any 
results that you can share with the committee?
    Mr. D'Agostino. In the Nuclear Weapons Complex, several reviews and 
initiatives have been conducted to improve processes and business 
practices. Examples of some major improvement initiatives are the 
Pantex Throughput Improvement Plan (PTIP) and the Y-12 Throughput 
Improvement Plan (YTIP). Both quality process improvement plans takes a 
fresh look at nuclear production operations and then changes those 
practices that are considered unnecessary and inefficient. Specific 
accomplishments have enabled increasing the weapon dismantlement rates 
more than 146 percent over previous year's rate. Quality improvement 
methods have also been applied in other areas such as non-nuclear 
production at the Kansas City Plant, warhead disassembly and inspection 
at Pantex, and neutron generator production at Sandia National 
Laboratories (SNL). By applying Lean Six Sigma techniques, SNL has 
increased capacity by 67 percent, reduced inventory by 55 percent, and 
realized cycle time reductions of up to 75 percent. In the business 
area, NNSA has optimized its procurement and spend management by 
implementing corporate initiative of the Supply Chain Management Center 
in fiscal year 2007. By applying industry best business practices of 
strategic sourcing and eProcurement, NNSA will deliver procurement 
process efficiencies and cost avoidances (estimated at 1 percent of 
annual contractor spend or $30 million annually).

  ADMINISTRATIVE COSTS OF THE NATIONAL NUCLEAR SECURITY ADMINISTRATION

    38. Senator Sessions. Mr. D'Agostino, the fiscal year 2008 budget 
request seeks $395 million for the salaries, benefits, and other 
administrative costs of the Federal operations of the NNSA, an increase 
of $54 million over fiscal year 2007. Could you please describe the 
justification and purpose of this increase?
    Mr. D'Agostino. The $54 million increase is the difference between 
the fiscal year 2008 President's budget and the initial fiscal year 
2007 appropriation of $341 million under the fiscal year 2007 year-long 
Continuing Resolution. The current fiscal year 2007 level in this 
account has been increased by an appropriation transfer of $17 million, 
to a total of $358 million, so the increase to the fiscal year 2008 
President's budget request is actually $37 million.
    Receiving the full fiscal year 2008 budget request level of $395 
million is essential for NNSA to recover a viable operations level 
following the severe funding constraints during fiscal year 2007. Over 
70 percent of the total request is for Federal salaries and benefits, 
and over half of the fiscal year 2008 increase is in this area to cover 
increase in benefits costs, including the Federal Cost-of-Living 
adjustment. The President's budget request will allow NNSA to lift the 
hiring freeze and begin to again acquire critical skill personnel to 
support rapidly expanding mission programs, including Defense Nuclear 
Nonproliferation. Achieving this increase is vital at this time so that 
NNSA can expand hiring to position the overall organization to replace 
large numbers of managers and senior staff expected to begin NNSA's 
retirement ``bow wave'' in the next 18 months.
    The remaining 30 percent of the President's request is for ``non-
payroll'' costs. This would restore a prudent level--about 5 percent 
growth--in travel needed to support expanding international program 
work. Funding for support services contracting would stay essentially 
flat with the levels achieved in fiscal year 2007, with internal 
reprioritization to meet emerging mission program needs. Funding at the 
President's request level will allow us to fully fund departmental 
assessments for space, occupancy, and corporate systems, meet increased 
requirements and costs for Federal information technology equipment and 
systems, and continue to fund our commitments to the Historically Black 
Colleges and Universities programs that had to be ``gapped'' because of 
funding shortages during fiscal year 2007.
    Because of the severe funding constraints in this account in fiscal 
year 2007, Federal employment levels are currently slightly below 
projections, and with funding at the President's request and aggressive 
hiring, NNSA can return to the hiring curve needed to address the 
current and future needs of the national security enterprise.

                  NATIONAL TECHNICAL NUCLEAR FORENSICS

    39. Senator Sessions. Mr. D'Agostino, the fiscal year 2008 budget 
requests funding for a new initiative called National Technical Nuclear 
Forensics (NTNF). This funding will establish a capability to support 
post-detonation activities in the event of a nuclear WMD attack and 
will enhance technical nuclear forensics capabilities. What 
capabilities would be developed with this funding that do not already 
exist at the nuclear weapons labs?
    Mr. D'Agostino. NTNF provides information that is critical to the 
larger issue of attribution. Post-detonation nuclear forensics is 
directed by National Security and Homeland Security Presidential 
Directives: ``Maintain nuclear materials and weapons expertise and 
nuclear forensics capabilities including nuclear device, IND, and RDD 
concept and design information through appropriate restricted data 
nuclear weapon data controls as appropriate.'' With the additional 
funding requested for fiscal year 2008, NNSA will enhance its 
radiochemistry analytical capabilities to be able to provide more 
quickly the information that is essential for determining a device's 
design and the source of the materials used. These capabilities include 
expanding laboratory capacity (to handle more samples more quickly), 
improving laboratory processes (to achieve, for example, streamlined 
analyses), enhancing device modeling capabilities, improving knowledge 
management of the technical information contained in materials 
databases, and providing better attribution tools.

                          PROMPT GLOBAL STRIKE

    40. Senator Sessions. Admiral Johnson, you note in your prepared 
statement the $175 million request to provide an initial capability for 
the Conventional Trident in 2010. Is the Navy examining other long-
range conventional strike capabilities that could be employed on a 
surface ship or submarine?
    Admiral Johnson. Yes, the Navy is examining other conventional 
strike solutions to provide CDRSTRATCOM with Prompt Global Strike 
capability. Congress provided funds in fiscal year 2005 and fiscal year 
2006 which allowed the Navy to demonstrate new low-cost solid rocket 
motor technology for a smaller scale ``intermediate'' range ballistic 
missile. Leveraging this work, the Navy has been studying a concept for 
a longer range (3500 nm) Global Strike Missile that could be deployed 
initially on the four SSGN submarines, and considered for later 
deployment in the SSBN fleet alongside the D5 system. The conceptual 
Submarine Launched Global Strike Missile (SL-GSM) is one of several 
alternatives currently being assessed under the Air Force lead Prompt 
Global Strike (PGS) Analysis of Alternatives. Both the intermediate 
range (1500 nm) and global range (3500 nm) missile concepts are only 
being assessed for employment from submarines. Other surface ship 
strike options are available for shorter `tactical' ranges (<1000 nm). 
The Conventional Trident Modification is the only `long-range' (>4000 
nm) conventional strike capability that could be rapidly developed and 
deployed to deliver Prompt Global Strike.

    41. Senator Sessions. Admiral Johnson, I understand these options 
cannot be fielded as quickly as the conventional trident missile (CTM). 
What other options might be available?
    Admiral Johnson. The Conventional Trident Modification is the only 
conventional strike system that could be rapidly developed and deployed 
to deliver Prompt Global Strike capability. The Submarine Launched 
Global Strike Missile (SL-GSM) concept could not be developed and 
fielded as quickly as the CTM capability. Initial studies indicate a 
SL-GSM system could be developed, tested, and deployed on the SSGN in 
approximately 5 years from initial funding. The SL-GSM concept delivers 
a terminally-guided large single warhead to 3500 nm with a range of 
kinetic effects including penetrating capability to defeat hard and 
deeply buried targets. While formal budget quality numbers are still 
being developed, an SSGN only capability is estimated to cost 
approximately $2.5-3.0 billion to develop, test, procure, and deploy 
SL-GSM on all SSGN submarines.

                  UNITED KINGDOM NUCLEAR MODERNIZATION

    42. Senator Sessions. Admiral Johnson, the United Kingdom plans to 
spend $40 billion to modernize its nuclear deterrent by creating a new 
generation of nuclear submarines to carry American-supplied Trident 
missiles. The current force of 4 Vanguard-class submarines each carry 
16 Trident long-range ballistic missiles with British nuclear warheads. 
What role, if any, will the United States play in the United Kingdom's 
modernization effort?
    Admiral Johnson. The 7 December 2006 exchange of letters between 
President Bush and Prime Minister Blair reaffirmed the United States 
commitment to support the missile system and associated equipment 
deployed by the United Kingdom. President Bush confirmed the United 
States will support the United Kingdom participation in the life-
extension program for the Trident II D5 missile and associated 
equipment, under the continuing framework of the Polaris Sales 
Agreement and the 1982 Exchange of Letters.

    [Whereupon, at 12:07 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

                              ----------                              


                       WEDNESDAY, APRIL 11, 2007

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

                   BALLISTIC MISSILE DEFENSE PROGRAMS

    The subcommittee met, pursuant to notice, at 3:12 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Bill 
Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators Bill Nelson, Reed, 
Inhofe, Sessions, and Thune.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Richard W. Fieldhouse, professional staff member; and 
William G.P. Monahan, counsel.
    Minority staff members present: Gregory T. Kiley, 
professional staff member; and Robert M. Soofer, professional 
staff member.
    Staff assistants present: Kevin A. Cronin and Benjamin L. 
Rubin.
    Committee members' assistants present: David E. Bonine, 
assistant to Senator Byrd; Elizabeth King, assistant to Senator 
Reed; Christopher Caple, assistant to Senator Bill Nelson; M. 
Bradford Foley, assistant to Senator Pryor; and Stuart C. 
Mallory, assistant to Senator Thune.

       OPENING STATEMENT OF SENATOR BILL NELSON, CHAIRMAN

    Senator Bill Nelson. This Subcommittee meets to hear from a 
very distinguished panel. Our witnesses are Lieutenant General 
Obering, Lieutenant General Campbell, Dr. Charles McQueary, 
Brian Green, and Paul Francis.
    All of you have prepared statements. They will be entered 
in the record and we will keep the hearing record open for 3 
days to allow members to submit statements or questions for the 
records.
    We're going to discuss several key issues. The Government 
Accountability Office (GAO) has raised a number of important 
acquisition issues related to improved oversight and 
accountability of our missile defense programs and we want to 
see how we can improve these programs.
    Last year, Congress enacted a provision of law that 
requires the Department of Defense to place a priority on the 
development, testing, fielding, and improvement of effective 
near-term missile defenses. We want to learn how the Department 
has implemented that requirement.
    There are many questions about a proposed deployment in 
Europe of long-range interceptors and associated radars and we 
need to explore those questions. Since we all want our missile 
defense systems to work in an operationally-effective and cost-
effective, and suitable manner, we need to discuss some of the 
important testing issues.
    So, we're going to dig into this in detail. My preference 
is that since we have your prepared statements already entered 
into the record, there's no sense for you to sit there and re-
read it to us. So, we want you to talk to us.
    I turn to our ranking member, Senator Sessions.
    [The prepared statement of Senator Bill Nelson follows:]

               Prepared Statement by Senator Bill Nelson

    Good afternoon. The subcommittee meets this afternoon to consider 
the ballistic missile defense programs of the Department of Defense.
    Our witnesses today are:

        <bullet> Lieutenant General Henry Obering, U.S. Air Force, 
        Director of the Missile Defense Agency;
        <bullet> Lieutenant General Kevin Campbell, U.S. Army, 
        Commander of the Army Space and Missile Defense Command, and 
        Commander of the U.S. Strategic Command Joint Force Component 
        Command for Integrated Missile Defense;
        <bullet> The Honorable Dr. Charles McQueary, Director of 
        Operational Test and Evaluation, an independent organization at 
        the Pentagon;
        <bullet> Brian Green, Deputy Assistant Secretary of Defense for 
        Strategic Capabilities, within the Office of the Under 
        Secretary of Defense for Policy; and
        <bullet> Paul Francis, Director of Acquisition and Sourcing 
        Management at the Government Accountability Office (GAO), who 
        directed the recent GAO report on missile defense acquisition 
        strategy.

    All the witnesses have submitted prepared statements and, without 
objection, your prepared testimony will be entered into the record in 
full. We will keep the hearing record open for 3 days to allow members 
to submit statements or questions for the record.
    There are several key issues we want to discuss today:
    The GAO has raised a number of important acquisition issues related 
to improved oversight and accountability of our missile defense 
programs, and we want to see how we can improve those programs.
    Last year, Congress enacted a provision of law that requires the 
Department of Defense to place a priority on the development, testing, 
fielding, and improvement of effective, near-term missile defenses. We 
want to learn how the Department has implemented that requirement.
    There are many questions about a proposed deployment in Europe of 
long-range interceptors and associated radars, and we need to explore 
those questions.
    Since we all want our missile defense systems to work in an 
operationally-effective, cost-effective, and suitable manner, we need 
to discuss some important testing issues.
    We want to have a good discussion today about missile defense, so I 
would ask the witnesses to provide very brief oral summaries, 
highlighting just a few key points of their testimony. There is a 
possibility of a closed session, if we need to discuss classified 
matters.

               STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. Thank you, Senator Nelson, and for your 
leadership. I've enjoyed working with you on this subcommittee 
and you understand these issues and care about them, committing 
the kind of time and efforts necessary for us to fulfill our 
responsibilities.
    I want to welcome our witnesses and thank them for their 
service to our country. We've come a long way on missile 
defense over the past few years and we have these gentlemen and 
others ahead of you and working under you now, to thank for the 
progress that's been made.
    If you look back just 3 years ago, we only had the Patriot 
anti-missile system to provide defense, only against short-
range missile threats like we utilized that Patriot system in 
Israel against SCUDs. Today, our homeland, deployed forces, and 
allies enjoy a limited measure of protection against the full 
range of short and long-range ballistic missile threats. We're 
making some good progress indeed, in a few years. Many thought 
it could never be done.
    Mr. Chairman, in reviewing the press that's leading up to 
this year's deliberations, I get the sense that there may be 
three significant issues that we will need to discuss this 
year.
    First, how much are we going to spend on overall missile 
defense programs? Second, what is the proper balance between 
testing and fielding additional capabilities? Third, whether to 
proceed with plans to field a ground-based interceptor (GBI) 
site in Central Europe?
    On the issue of spending, the budget, as submitted by the 
administration, is already tight. I would point out that the 
fiscal year 2008 request of $8.9 billion for the full panoply 
of missile defense programs is almost $500 million below last 
year's appropriated level. It also represents the development, 
testing, fielding, and sustainment of not just our single 
Ground-Based Midcourse Defense (GMD) System that we talked a 
lot about and gets the most publicity, but a number of systems 
based on land, on our ships at sea, and in the air, which are 
capable of defending against a broad spectrum of short-, 
medium-, and long-range ballistic missile threats.
    Seen in this light, the budget request compares I think, 
favorably with the full suite of aircraft, for example, being 
acquired by the Department of Defense. There is some concern 
expressed that missile defense undergo adequate testing before 
deployment, particularly the GBI.
    While I support rigorous testing, we must remember why 
Congress approved close to simultaneous fielding and testing 
GBIs. It was because of our total vulnerability to long-range 
ballistic missiles. The North Korean ballistic missile test 
last July, coupled with Iran's ballistic missile development, 
and a launch of a sounding rocket in November, confirmed the 
wisdom, I think, of that approach.
    Furthermore the successful intercept test on the GMD system 
last September, in addition to similar successful tests of the 
Patriot, SM-3, and Terminal High Altitude Area Defense (THAAD) 
systems--all in this, included in this funding request--suggest 
there's no reason to curtail planned fielding efforts even 
while we rigorously operationally test these systems.
    Finally, some in Congress have questioned--I don't know on 
this side--but have questioned strategic rational for a GBD 
site in Europe, which will provide protection for most of 
Europe and the United States against the growing long-range 
ballistic missile threat by Iran. I ask my colleagues to 
consider this initiative in the broader context of our defense 
strategy, and would note that just last month, Iran held 15 
British citizens hostage. With ballistic missiles armed with 
weapons of mass destruction, Iran could hold entire cities, 
even nations hostage. A European continent vulnerable to 
Iranian ballistic missile threats could weaken the west's 
resolve in what is shaping up to be a clash of wills with Iran.
    So, Mr. Chairman, thank you again for your leadership, your 
courtesy to me, and all of us on this subcommittee, and I look 
forward to the hearing.
    [The prepared statement of Senator Sessions follows:]

              Prepared Statement by Senator Jeff Sessions

    Thank you, Mr. Chairman. I also welcome today's witnesses and thank 
them for their service on behalf of the country. We have come a long 
way on missile defense over the past few years and we have these 
gentlemen and the men and women whom they represent to thank. If we 
look back just three years ago, we had only the Patriot anti-missile 
system to provide defense against short-range missile threats. Today, 
our homeland, deployed forces, and allies enjoy a limited measure of 
protection against the full range of short- to long-range ballistic 
missile threats. We are making very good progress, indeed.
    Mr. Chairman, in reviewing the press leading up to this year's 
deliberations, I get the sense there may be three significant issues to 
address this year: First, how much are we going to spend overall on 
missile defense programs; second, what is the proper balance between 
testing and fielding additional capabilities; and third, whether to 
proceed with plans to field a ground-based interceptor site in Central 
Europe?
    On  the  issue  of  spending,  I  would  point  out  that  the  
fiscal  year  2008  request  of  $8.9  billion  is  almost  $500  
million  below  last  year's  appropriated  level  and  represents  the 
development,  testing,  fielding,  and  sustainment  of  not  just  a  
single  missile  defense  weapon  system,  but  a  number  of  systems  
based  on  land,  at  sea,  and  in  the  air--and  capable  of  
defending  against  the  broad  spectrum  of  short-, medium-, and 
long-range ballistic missile threats. Seen in this light, the budget 
request is not unreasonable and compares favorably with, say, the full 
suite of aircraft being acquired by the Department of Defense.
    Some of my colleagues insist that missile defenses undergo adequate 
testing before deployment, particularly the ground-based interceptor. 
While no one argues against rigorous testing, we must remember why the 
Administration, with Congressional approval, chose to simultaneously 
field and test ground-based interceptors--it was because of our total 
vulnerability to long-range ballistic missiles. The North Korean 
ballistic missile tests last July, coupled with Iranian ballistic 
missile development and the launch of a sounding rocket in November, 
confirm the wisdom of this approach.
    Furthermore, the successful intercept test of the ground-based mid-
course defense system last September, in addition to similar successful 
tests of the Patriot, SM-3, and THAAD systems, suggests there is no 
reason to curtail planned fielding efforts even while rigorous 
operationally realistic testing continues.
    Finally, some in Congress are beginning to question the strategic 
rationale for a ground-based interceptor site in Europe to provide 
protection for most of Europe and the United States against the growing 
long-range ballistic missile threat posed by Iran. I ask my colleagues 
to consider this initiative in the broader context of NATO's diplomatic 
and military strategy for dealing with Iran. Last month, Iran held 15 
British citizens hostage; with ballistic missiles armed with weapons of 
mass destruction, Iran could hold entire cities hostage. A European 
continent vulnerable to Iranian ballistic missile threats could weaken 
the West's resolve in what is shaping up to be a clash of wills with 
Iran.
    Mr. Chairman, I look forward to hearing from the witnesses and 
working through these issues with you as we approach mark-up.

    Senator Bill Nelson. General Obering?

 STATEMENT OF LT. GEN. HENRY A. OBERING, III, USAF, DIRECTOR, 
                     MISSILE DEFENSE AGENCY

    General Obering. Good afternoon, Mr. Chairman, Senator 
Sessions, and distinguished members of the subcommittee. I'm 
honored to have this opportunity. I ask that my written 
statement be entered into the record and this afternoon I would 
like to summarize very briefly four key points.
    First, ballistic missile threats are real and growing. Now 
is not the time to cut back America's efforts to defend our 
homeland, our deployed forces, our allies, and friends from 
these threats.
    Second, the integrated layered missile defense system that 
thousands of Americans have been developing, fielding, and 
deploying, works, and is having an operational impact.
    Third, we are developing and fielding missile defense 
capability at an unprecedented pace within our budget 
constraints.
    Fourth, we are gaining widespread international support and 
cooperation. In the last year we have seen aggressive ballistic 
missile development and test efforts in North Korea and Iran, 
as well as the terrorist use of ballistic rockets in attacks 
against Israel. So far this year the pace of foreign ballistic 
missile testing is about twice that of last year. This reflects 
a determination to acquire these valuable weapons, a value 
that's generated by historic lack of deployed forces against 
them.
    Therefore, it is critical that we continue to develop, 
produce, and deploy missile defenses to devalue these weapons. 
Last summer when the North Koreans launched several missiles 
capable of striking our allies and deployed forces in the 
Pacific and an intercontinental ballistic missile (ICBM) 
believed to be capable of striking the United States, we were 
able to provide the President an option. An option to activate 
an integrated missile defense system, a system that I am 
confident would have worked. This confidence is borne in our 
test program, which accounts for almost $2 billion per year, 
now.
    We have taken on the challenge of realistically testing a 
complex system that covers 10 time zones and that intercepts 
warheads in the atmosphere, and in space. The Director of 
Operational Test and Evaluation (DOT&E) and I have approved an 
Integrated Master Test Plan, which includes criteria for 
operational realism.
    In particular, this past September we conducted a long-
range interceptor flight test that involved the use of 
operational crews, operational fire control, and fielded 
software. We used operational sensors and an operational 
interceptor launched from an operational missile field.
    Over the past year the Missile Defense Agency (MDA) has 
conducted more than 35 major tests and successfully met our 
primary test objectives in 15 of 16 flight tests. Overall since 
2001 we have built a record of 26 successful hit-to-kill 
engagements in 34 attempts. Our test schedule remains very 
aggressive and for the remainder of this year we plan to 
conduct two long-range intercept flight tests, four Aegis 
flight tests, three more THAAD flight tests, one Israeli Arrow 
test, and dozens of ground tests.
    We've also been successful in the unprecedented fielding 
and deployment of capability to the warfighter thanks to an 
underlying acquisition approach that gives us the flexibility 
to manage risk, while continuing to upgrade the system. As a 
result, in just over 30 months, since June 2004, we have in 
place 17 long-range interceptors in Alaska and California. 
We've modified 16 Aegis ships for missile tracking with 7 able 
to launch the 20 sea-based interceptors that we've fielded. 
We've upgraded three land-based early warning radars, delivered 
two transportable radars, and one massive Sea-Based X-Band 
(SBX) radar, and fielded command and control capabilities in 
Hawaii, Alaska, Colorado, Nebraska, Washington, DC, and the 
United Kingdom.
    Using our approach, we have achieved in 2\1/2\ years what 
would have taken two or three times longer with a standard 
process.
    Our acquisition flexibility has allowed us to implement 
numerous cost-saving measures. We have reduced unneeded 
overhead by approximately $1.8 billion from fiscal years 2006 
to 2011. More specifically, we saved enough money in the GMD 
program alone, to purchase four more GBIs.
    The inclusion of U.S. Strategic Command (USSTRATCOM) and 
other combatant commands in our development, test, training, 
and fielding activities has been another key to this success. 
We've worked with them and the Services from defining and 
prioritizing new requirements, to transition and transfer plans 
for operations and support.
    Based on this solid foundation, we are now requesting $8.9 
billion for fiscal year 2008 with more than 75 percent of these 
funds, or $7.1 billion, going to near-term capabilities and the 
remainder, or $1.8 billion allocated to develop defenses 
against the threats that may loom tomorrow. This budget 
reflects a three-part strategy.
    First, we seek $5.9 billion to maintain and sustain an 
additional capability that includes the fielding of up to 44 
long-range interceptors in Alaska and California, deployment of 
up to 132 sea-based interceptors on 18 ships, and deployment of 
2 mobile THAAD fire units with 48 interceptors and, expanding 
our critical command, control, battle management, and 
communications (C2BMC) element. Sustaining this overall 
capability is approaching $1 billion per year.
    Second, we seek $1.6 billion to close gaps and improve our 
capability to keep pace with the growing threats. This 
objective includes the fielding of 10 long-range interceptors 
and a mid-course radar in Europe to defend our deployed forces 
and our allies in that theater, as well as providing additional 
protection to the United States. We have entered into 
discussions with Poland and the Czech Republic to host these 
assets and we've been engaged with our North Atlantic Treaty 
Organization (NATO) partners and the Russians.
    Finally, we request $1.4 billion for the third component of 
our strategy, to develop options for future threats. Options 
which include boost phase defenses and the ability to provide 
persistent, space-based, global detection and tracking.
    Missile defense is global in nature, and we have an 
increasing number of allies and friends joining us in our 
efforts. Japan remains one of our closest partners in missile 
defense. Together, we have successfully flight-tested new nose-
cone technologies, and agreed to co-develop a larger version of 
the Standard Missile-3 (SM-3).
    We are working closely with the United Kingdom and Denmark 
to upgrade existing early-warning radars. We have also signed 
cooperative agreements with Australia and Italy, and continue 
to work with Israel on both medium- and short-range missile 
defenses. We have begun collaborating our missile defense with 
many, many other nations.
    In closing, I want to emphasize that the threat we are 
facing from ballistic missiles is real and growing. We have 
overcome setbacks and technical hurdles, but thanks to the 
support from Congress, we are succeeding at our mission, and we 
have absolutely no reason to slow down. As we look to the 
gathering clouds of threat on the horizon, now is not the time 
to cut back on support for missile defense, but we think, to 
advance it.
    Thank you for the opportunity to appear before you today, 
and I look forward to your questions.
    [The prepared statement of General Obering follows:]

       Prepared Statement by Lt. Gen. Henry A. Obering III, USAF

    Good afternoon, Mr. Chairman and distinguished members of the 
subcommittee. It is an honor to present the Department of Defense's 
fiscal year 2008 missile defense program and budget.
    I am pleased to report that 2006 was a year of significant 
accomplishment for all aspects of our missile defense program. We made 
substantial progress in developing, testing and fielding an integrated, 
layered Ballistic Missile Defense System (BMDS) to defend the United 
States, our deployed forces, and our allies and friends against 
ballistic missiles of all ranges in all phases of their flight.
    Of the $8.9 billion we are requesting in fiscal year 2008, we will 
allocate $7.1 billion for near-term efforts and $1.8 billion for 
longer-term programs. In the near-term, we seek to build on, and 
sustain, our current capability to defend the homeland against limited 
long-range ballistic missile threats and protect allies, friends and 
deployed forces against short- to medium-range threats. To achieve this 
goal, we intend to complete the fielding of up to 44 Ground-based 
Interceptors (GBIs) in Alaska and California; enhance our early warning 
radars in Alaska, California and the United Kingdom; integrate the Sea-
based X-band (SBX) radar into the BMD system; deploy up to 132 sea-
based Standard Missile-3 (SM-3) interceptors on 18 Aegis engagement 
ships; and expand our command, control and battle-management network by 
establishing three new command and control suites at U.S. Strategic 
Command, U.S. Pacific Command, and U.S. Northern Command.
    In the near-term we also seek to close gaps and improve our 
capability to defend against a growing Iranian threat. We will continue 
the initiative we began this year to field 10 long-range interceptors 
and a midcourse radar in Europe. This initiative is essential for a 
robust, layered defense of the homeland against long-range threats from 
the Middle East. It will also extend this defense to our deployed 
forces, allies and friends in the region who currently have no defense 
against longer-range ballistic missiles. To improve our capabilities to 
defeat more complex threat suites, our Multiple Kill Vehicle (MKV) 
program will allow us to engage multiple warheads and countermeasures 
with a single interceptor launch. Delivering this volume kill 
capability is important to the warfighter and is one of our top 
priorities.
    For the longer-term, we are developing the Space Tracking and 
Surveillance System to provide a persistent, near-real-time global 
detection, tracking and fire control capability. This system will 
significantly increase the BMD system's agility and flexibility to 
respond to future worldwide emerging threats. We also continue to 
pursue boost-phase intercept capabilities in order to increase the 
``depth'' of our integrated, layered system. Boost-phase defenses 
promise to increase our intercept opportunities and destroy enemy 
ballistic missiles when they are most vulnerable. The Airborne Laser 
(ABL) remains our primary boost-phase program. Based on the Defense 
Science Board's recommendation, we're continuing the high-acceleration 
Kinetic Energy Interceptor (KEI) booster development effort as an 
option in the event ABL does not meet critical knowledge points in its 
test program. The U.S.-Japanese cooperative development of a follow-on 
SM-3 interceptor to give the Aegis system an intercontinental ballistic 
missile (ICBM) intercept capability, a robust Sea-Based Terminal 
capability to defeat shorter-range threats, a modest experimental Space 
Test Bed, and our continuing advanced technology efforts all support 
the goal of closing capability gaps in the system.

                   THE EVOLVING SECURITY ENVIRONMENT

    This past 4th of July, millions of Americans were made aware of 
just how real the threat from ballistic missiles is and how vital the 
missile defense program is to our national security. With the launches 
of the short-, medium- and long-range missiles by North Korea, missile 
defense became an urgent matter overnight. Because of the efforts of 
thousands of Americans dedicated to this program, we were able to 
activate a missile defense system to protect the United States had a 
threat emerged.
    In November 2006 and January 2007 Tehran conducted several short- 
and medium-range ballistic missile and rocket launches. In the November 
exercises Iran demonstrated for the world its offensive capabilities 
via televised broadcasts.
    North Korea and Iran dedicate significant resources to acquiring 
ballistic missiles, to include new medium- and intermediate-range 
systems capable of reaching forward-deployed United States forces and 
our allies and friends. North Korea continues to work on 
intercontinental-range systems capable of reaching the United States. 
In addition, our intelligence community assesses that Iran would be 
able to develop an ICBM before 2015 if it chose to do so. With the 
missile firings over the past year, they have also demonstrated the 
ability to conduct coordinated launch operations. But they are not 
alone.
    In 2006 there were about 100 foreign ballistic missile launches 
around the world. This year to date, the pace of testing is about twice 
that of last year--a trend reflecting the determination of many 
countries to acquire these capabilities.
    The actions of North Korea and Iran this past year demonstrate the 
determination of these rogue regimes to achieve this capability and 
potentially weapons of mass destruction to further aggressive ends. 
With the proliferation of ballistic missile technology, we expect to be 
surprised by unexpected and more robust threats. The missile defense 
development program recognizes that we must stay a step ahead of a 
dynamic threat.

             U.S. BALLISTIC MISSILE DEFENSES--A REPORT CARD

    In January 2002, just a little more than 5 short years ago, the 
Secretary of Defense directed the agency to restructure the missile 
defense program to deal with the urgency, enormity, and complexity of 
developing, testing, and building a missile defense system. This bold 
initiative required the adoption of an evolutionary acquisition 
strategy to be executed by a single agency, a strategy that relies on 
continual assessments of the threat, available technology, and what can 
be built and fielded to provide a militarily useful capability in an 
urgent manner.
    Having capitalized on our steady progress since the 1980s, the 
dedicated men and women of the Missile Defense Agency (MDA) and our 
industrial partners delivered to the combatant commanders in 2004 an 
initial missile defense capability to defeat the near-term long-range 
missile threat. Supported by an extensive command, control, battle 
management, and communications (C2BMC) infrastructure, we connected 
additional system elements to the fire control system and put in place 
trained system operators, the logistics support infrastructure and 
support centers required for this limited operational system.
    To date, we have made significant, and in many ways, unprecedented 
strides to deliver a capability where none existed before. Since 2002 
we have fielded and completed the initial integration of land- and sea-
based interceptors, mobile and fixed sensors and C2BMC suites to 
deliver one of the most complex and comprehensive defensive 
capabilities ever envisioned. We did so while sustaining an aggressive 
development program that continues to feed new technologies into the 
system.
    Mr. Chairman, the missile defense investments of 4 administrations 
and 11 Congresses are paying off. With the initial deployment of a 
limited missile defense capability, the era of absolute vulnerability 
of our country to a long-range missile attack came to a close. This is 
important, because I believe a capability against even a single reentry 
vehicle has significant military utility. The modest long-, medium-, 
and short-range defensive capabilities we have today can help reduce 
the more immediate threats to our security and enhance our ability to 
defend our interests abroad.
Long-Range Defenses
    As part of our strategy to protect the United States from ballistic 
missiles launched from North Korea or Iran, we have emplaced high-
performance interceptors in missile fields at two sites and integrated 
them into the system. The system's GBIs use hit-to-kill technologies to 
destroy intermediate- and long-range ballistic missile warheads in 
space, in the midcourse phase of flight. These are the only weapons we 
have available today to defeat longer-range threats once they have been 
launched. By the end of April, we expect to have 16 GBIs in silos at 
Fort Greely, Alaska, and 2 more at Vandenberg Air Force Base in 
California. We plan to increase interceptor inventories at these sites 
to up to 24 by the end of this year.
    The system today will receive a cue from Defense Support Program 
satellites or from 1 of 16 long-range surveillance and track Aegis 
destroyers that could be stationed near the threat region. These 
satellites and ships can pass detection or cueing data across 
communications lines into BMD system communication and battle manager 
nodes located in Fort Greely and Colorado Springs. Today we stand ready 
to locate and track threats coming out of East Asia using the Cobra 
Dane radar in the Aleutians and the upgraded early warning radar at 
Beale Air Force Base, California.
    Powerful X-band radars located on a mobile platform in the Pacific 
Ocean and at Shariki, Japan can provide precise tracking and 
discrimination to increase the probability we will destroy any lethal 
target. A 2006 independent assessment concluded that the SBX radar, 
which deployed to the Pacific at the end of 2005, is sufficiently 
rugged to operate in the rough seas of the northern Pacific. These 
conditions were validated this past winter when the SBX experienced 
extremely hazardous weather with negligible impact. Also in 2006, we 
deployed the first forward-based X band radar to Japan, accelerating 
its deployment and supporting C2BMC equipment to its operational 
location in Shariki Japan, achieving partial mission capability in 
October 2006.
Short- to Medium-Range Defenses
    Since 2004 we have expanded and improved terminal and midcourse 
defenses to defeat short- and medium-range threats from land and sea. 
Aegis ships have been periodically put on station in the Sea of Japan 
to provide long-range surveillance and tracking data to our battle 
management system. We began fielding SM-3 interceptors in 2004, 
evolving to a more capable interceptor. With our growing inventory of 
SM-3 interceptors on Aegis ships, we can provide a flexible sea-mobile 
capability to defeat short- to intermediate-range ballistic missiles in 
their midcourse phase. In 2005 we upgraded the first Aegis cruisers for 
the engagement mission. Today we have available three Aegis BMD 
engagement cruisers and four engagement destroyers.
    Having successfully transitioned the Patriot Advanced Capability-3 
(PAC-3) to the U.S. Army in March 2003, we continue to maintain 
configuration control and work with that Service to improve and upgrade 
PAC-3 and Medium Extended Air Defense System performance. Today, PAC-3 
fire units are being integrated into the forces of our allies and 
friends, many of whom face immediate short- and medium-range threats.
Integrating the System
    For the BMDS to work effectively, all of its separate elements must 
be integrated across several combatant commands. This capability allows 
us to mix and match sensors, weapons, and command centers to 
dramatically expand detection and engagement capabilities over what can 
be achieved by the system's elements operating individually. Combatant 
commanders can use the C2BMC infrastructure to enhance planning, 
synchronize globally dispersed missile defense assets, and manage 
weapon inventories. These capabilities also can provide our senior 
government leadership situational awareness of ballistic missile 
launches and defense activities. Today we have in-place a planning 
capability within U.S. Strategic, Northern, and Pacific Commands.
Supporting the Warfighter
    This past year we continued work with U.S. Strategic Command and 
other combatant commands to train missile defense crews at all 
echelons, ensuring that they can operate the BMDS if called upon to do 
so. We established a BMD Operations Watch Officer to provide real-time 
BMD situational awareness, operational status, and coordinate the 
configuration of the system and have executed a series of exercises, 
which involve temporarily putting the system in a launch-ready state.
    We have set up a process to collaborate with the combatant 
commanders and the military Services to define and prioritize 
requirements as the system evolves. For example, we did not have a sea-
based terminal layer planned for the program until the Commander of 
U.S. Strategic Command identified this as a desired capability. Once 
this need was identified, we worked with the Navy to define and budget 
for near- and far-term programs for a Sea-Based Terminal defense. We 
also have worked closely with the Services and the Office of Secretary 
of Defense on transition and transfer activities to address operations 
and support of the system elements. The Deputy Secretary of Defense 
identified lead military departments for eight elements of the BMDS, 
and the Navy has just agreed to take on lead service responsibility for 
the SBX Radar. We have developed Transition and Transfer Plans with the 
Services and the combatant commands. These plans capture both 
agreements and the roles and responsibilities associated with evolving 
operations and support activities. This collaboration with the 
warfighter includes training, testing, wargaming, and conducting 
exercises and simulations, all of which help demonstrate and improve 
the capability and reliability of the missile defense system.
BMD System On Alert
    As I stated earlier, when the North Koreans conducted their 
launches last summer, for the first time in the history of the United 
States, we had the capability to defend our people against a long-range 
missile had it been necessary. Working closely with U.S. Strategic 
Command's Joint Functional Component Commander for Integrated Missile 
Defense, we successfully took the system out of the development mode 
and handed it over to the warfighter for operation. This activation of 
the system last June helped us to refine procedures and taught us 
invaluable lessons about system operations.
    Alert activities included activation of the Ground-based Midcourse 
Defense and the deployment of a missile defense capability to the Sea 
of Japan. We had Aegis long-range surveillance and track ships 
stationed east and west of Japan during the missile firings. Data 
collected from these sensors would have helped identify whether the 
long-range launch was a ballistic missile or a space launch vehicle and 
would have provided tracking data to the system. The C2BMC situational 
awareness displays were operational and being monitored at the various 
commands.
    We also accelerated the capability of the forward-based X-band 
radar in Japan for data collection. The SBX radar was stationed off 
Hawaii and similarly standing by for data collection. At the time, the 
forward-based radar and the sea-based radar were not integrated into 
the system. Given these events from last summer and our ability to 
bring the system on line and prepare it for emergency use, I am very 
confident that the system would have operated as designed had the Taepo 
Dong-2 threatened the United States.
    We have an operational system today because of the capability-based 
acquisition approach we have followed since 2002. This approach 
leverages collaboration with the warfighter community throughout 
development and testing to the point where we transition or transfer 
capabilities to the operators. Some have asserted that our 
nontraditional approach lacks discipline, transparency, and/or 
accountability. I do not agree. I think the progress we have made to 
date in fielding a missile defense capability speaks for itself and 
justifies the continuation of this approach. Had we followed the 
traditional acquisition approach, we would not have had an operational 
capability to respond to the potential threat from North Korea. Had we 
followed the traditional approach, I believe we truly would have 
``delivered less at a higher cost.''
    The missile defense program is highly scrutinized by the Department 
of Defense, the Congressional Budget Office, the Government 
Accountability Office, and Congress. In 2004, Congress required the MDA 
to submit a cost, schedule and performance baseline for each block 
configuration of the BMDS being fielded. We have complied with this law 
every year, describing our baseline in terms of 2-year increments of 
capability called fielding blocks. From an acquisition process 
perspective, I understand that we are blazing new trails, and the 
information we provide is therefore different from what people are used 
to seeing. I understand the onus is on us to clearly convey to Congress 
that we are fielding ballistic missile defense capability in a 
responsible and transparent manner, and I am committed to doing that. I 
have therefore directed my staff to complete a review of our current 
approach and look at ways to better describe our baseline program.

               BUILDING CONFIDENCE THROUGH SPIRAL TESTING

    Testing under operationally realistic conditions is an important 
part of maturing the system. We have been fielding test assets in 
operational configurations in order to conduct increasingly complex and 
end-to-end tests of the system. While the BMD system is a developmental 
system, it is available today to our leadership for activation to meet 
real world threats. Given this dual function of the test bed, the 
Operational Test Agencies and the warfighting community are very active 
in all phases of our test planning, execution, and post-test analysis.
    Using criteria established by the Agency's system engineers and our 
warfighters, all system ground and flight tests provide data that we 
and the operational test community use to verify the system's 
functionality and operational effectiveness. Our flight tests are 
increasing in operational realism, limited only by environmental and 
safety concerns. Each system test builds on the knowledge gained from 
previous tests and adds increasingly challenging objectives, with the 
downstream goal of devising scenarios that test elements of the system 
from end-to-end. This spiral test approach increases knowledge of, and 
confidence in, the system performance while maintaining safety and 
minimizing artificiality.
    Last year I explained that we had several concerns with quality 
control and reliability that led to two successive Ground-based 
Midcourse Defense test aborts, problems that we have since 
comprehensively addressed. The independent review team concluded that 
the deficiencies in systems engineering, ground qualification testing, 
flight test readiness certification, contractor process control and 
program scheduling were not systemic and did not compromise initial 
defensive capabilities. I testified last year that I did not view the 
failures as major technical setbacks.
    Coming off the very successful fly-out of the operational 
configuration long-range interceptor in December 2005, we conducted a 
long-range intercept flight test last September that exceeded our 
objectives. That complex test involved an operational interceptor 
launched from an operational silo at Vandenberg Air Force Base, 
operational sensors, and operationally trained crews manning 
operational fire control consoles. The test demonstrated the 
functionality of the Exo-atmospheric Kill Vehicle and the ability to 
engage a threat-representative target using the Upgraded Early Warning 
Radar at Beale Air Force Base in California. After the kill vehicle 
acquired the target launched out of the Kodiak Launch Complex in Alaska 
nearly 3,000 km away from the engagement zone, it successfully 
intercepted it. While it was not hooked into the system, we also 
demonstrated the powerful contributions the SBX radar can make in the 
areas of tracking and discrimination. This was our most operationally 
realistic, end-to-end test of the system involving the Ground-based 
Midcourse Defense element to date.
    Over this past year the MDA conducted more than 35 major tests and 
successfully met our primary test objectives in 14 out of 15 flight 
tests. In fact, during a 90-day period last summer, we achieved 
successful hit-to-kill intercepts in the lower atmosphere with the PAC-
3, in the upper reaches of the atmosphere with the Terminal High 
Altitude Area Defense element, and in space with the Aegis SM-3 and the 
Ground-Based Midcourse Defense elements. Including tests of the PAC-3, 
we achieved seven hit-to-kill intercepts of ballistic missile targets 
in eight attempts in 2006. Since 2001, we have built a record of 26 
successful hit-to-kill engagements in 34 attempts. Our test plans for 
2007 and 2008 will continue to use more complex and realistic scenarios 
for system-level flight tests.
    We plan three more long-range interceptor flight tests by the end 
of this year that continue to push the edge of the envelope in testing 
complexity. All tests will continue to use operationally trained crews 
and the operational launch site at Vandenberg. We plan to integrate the 
SBX radar into the system for the intercept test in late summer as we 
continue to expand the number of sensors available to us to cue the 
system and engage targets.
    On June 22 of last year, we successfully used a U.S. Navy Aegis 
cruiser to engage a separating target carried on a threat-
representative medium-range ballistic missile. As we had done in the 
past three flight tests, we did not notify the operational ship's crew 
of the target launch time, and they were forced to react to a dynamic 
situation. The role of the crew is an important part of our ability to 
engage hostile missiles, and last December we increased test complexity 
by attempting a simultaneous engagement of aerial and ballistic targets 
and by using operator-selectable parameters to allow for automatic 
identification of targets. A crew member changed the ship's doctrine 
parameters just prior to target launch. This modification prevented the 
ship's fire control system from conducting the planned ballistic 
missile and aerial target engagements. The primary target was a very 
short-range ballistic missile, and thus there was insufficient time for 
manual engagement. When the SM-3 interceptor failed to launch, we 
aborted the launch of the SM-2 interceptor. This is another example of 
why we conduct tests--to expose flaws in the system and wring out 
operational procedures. We are working to resolve the problem we 
experienced in the test last December and expect to conduct it again 
this spring.
    We plan four more Aegis intercept flight tests in 2007. We will 
again demonstrate the integration of the Aegis BMD weapon system into 
the overall BMD system and evaluate the ship crew's performance in 
executing an operationally realistic BMD mission. Early this summer, we 
will attempt an intercept of a separating, medium-range target using 
the SM-3 Block IA interceptor. Later this year, we will demonstrate the 
ability to engage two near-simultaneous short-range unitary targets. 
Also late in 2007, as part of our growing partnership with Japan, a 
Japanese Maritime Self Defense Force Kongo-class ship will attempt to 
engage a medium-range ballistic missile separating target using the 
Block IA SM-3 interceptor. This will be the first such firing by a 
maritime ally. In 2008 we will engage a separating intermediate-range 
ballistic missile target using off-board sensor information to launch 
the interceptor. We will also attempt a second sea-based intercept test 
with our Japanese partners.
    As I mentioned earlier, flight-testing involving the redesigned 
Terminal High Altitude Area Defense (THAAD) interceptor continued last 
July with a successful engagement of a unitary target high in the 
atmosphere. In September we again sought to demonstrate the performance 
of the new missile and the ability to integrate it into the BMD system, 
but we were unable to do so following the failure of the target 
missile. This past January and earlier this month, we again 
successfully destroyed short-range targets. These endo-atmospheric 
engagements were the first such tests of the THAAD interceptor at the 
Pacific Missile Range Facility. To demonstrate the capability of the 
THAAD fire unit to intercept at different altitudes in the atmosphere 
and in low exo-atmosphere, we plan one more intercept test in space 
later this year against a unitary target. In 2008 we plan to 
demonstrate interceptor capabilities against more stressing targets. We 
will conduct two intercept tests involving the THAAD interceptor, one 
against a separating target in space, and the other against a 
separating target high in the atmosphere. Further, the first test in 
2008 will include the launch of two THAAD interceptors. The MDA will 
also participate in Patriot combined developmental/operational tests as 
well as Air Force Glory Trip flight tests.
    In 2007 we will continue with our successful ground testing, which 
involves warfighter personnel and test hardware and software in the 
integrated system configuration to demonstrate system connectivity and 
interoperability. Upcoming tests will verify integration of the sea-
based, forward-based, and Fylingdales radars. The funds we are 
requesting will support additional capability demonstrations and 
readiness demonstrations led by the warfighting community. We currently 
cannot test and train on the system while it is in full operational 
mode. To address this problem, we are developing a capability to 
support continued research, development, test, evaluation, and 
maintenance while concurrently sustaining operational readiness.
    Based on the many tests we have conducted to date, we maintain our 
confidence in the BMD system's basic design, its hit-to-kill 
effectiveness, and its inherent operational capability. We continue to 
work closely with the Director, Operational Test & Evaluation, 
Operational Test Agencies, and combatant commanders to characterize the 
effectiveness and readiness of the system at every stage in its 
development and fielding. We are developing the capability to conduct 
concurrent test, training, and operations, which will allow combatant 
commanders to keep the system in operational mode while we test, train, 
and make improvements to the system.

                       BMD SYSTEM FIELDING PLANS

Maintaining and Sustaining the Capability
    The top priority of the MDA is to maintain and sustain the deployed 
initial capability to stay ahead of the North Korean and Iranian 
threats. This means improving long-range capabilities for homeland 
defense and moving forward with initial defenses to protect allies and 
U.S. interests abroad against shorter-range ballistic missiles.
    Our program strategy completes the fielding of GBIs in Alaska and 
California. We will begin construction in 2007 of a third missile field 
at Fort Greely and accelerate delivery of interceptors. We also will 
begin increasing the number of interceptors available at Vandenberg Air 
Force Base from two to four. An additional fifth silo at Vandenberg 
will be dedicated to testing. We will have up to 30 long-range 
interceptors deployed by the end of 2008. For midcourse capability 
against the long-range threat, the Ground-based Midcourse Defense 
element budget request for fiscal year 2008 of about $2.5 billion will 
cover continued development, ground- and flight-testing, fielding and 
support.
    To address short- to intermediate-range threats, in 2006 we added 
one Aegis engagement cruiser, for a total of three, and three Aegis 
engagement destroyers. As we convert destroyers this year to add the 
engagement capability, the number of long-range surveillance and track 
ships will fall from 10 at the end of 2006 to 7 and our total number of 
fully BMD-capable Aegis engagement ships (cruisers and destroyers) will 
climb to 10. By the end of 2008, we plan to have 13 Aegis engagement 
destroyers and 3 engagement cruisers and 40 interceptors in inventory. 
System tests will involve further demonstrations of the sea-based 
interceptor, and we will continue enhancing the system's discrimination 
capability. For fiscal year 2008, we are requesting approximately 
$1.044 billion to continue Aegis BMD development and testing.
    To supplement the Cobra Dane and Beale radars, we will finish the 
integration work on the Royal Air Force Fylingdales early warning radar 
in the United Kingdom. It will be fully operational by the end of this 
year. This radar will provide coverage against Middle East launches 
against the United States and our allies in Europe. Our fiscal year 
2008 budget request for BMD radars is $758 million. These funds will 
continue forward-based radar integration work and complete construction 
of a permanent basing site at Shariki Air Base. We will also have 
available for deployment a second forward-based X-band radar.
    With this year's budget request of $247 million for the C2BMC 
activity, we will continue to use spiral development to incrementally 
develop, test, and field hardware and software improvements leading to 
a robust, net-centric missile defense capability that fights as a 
system. We have made incredible progress in this area despite 
decrements in funding over the past couple of years. Our ability to 
defend against highly lethal threats or operate in a very complex, 
stressing battle environment spanning multiple theaters requires all 
missile defense elements, which may be spread over thousands of miles, 
to work together as a ``team.'' Today we can do that. I am very proud 
of what our national team for integration has achieved. We will press 
on with the development of the Global Engagement Manager at the Pacific 
Air Operations Center and integrate into the system the forward-based 
radar in Japan, the SBX radar, and the Fylingdales radar. We plan to 
install additional planning and situational awareness capabilities to 
facilitate executive decisionmaking in the European Command and the 
Central Command by 2009.
Closing Capability Gaps
    Our long-term strategy is to make the system more robust, reliable, 
and flexible in order to close gaps in our missile defense 
capabilities. In line with our multilayer approach, the missile defense 
program in fiscal year 2008 and beyond will expand terminal defense 
protection, upgrade and improve midcourse discrimination and firepower, 
strengthen the capability of the BMDS to defeat coordinated attacks, 
and place increasing emphasis on boost phase defenses.
    The missile defense program will improve coverage of the United 
States and, for the first time, extend coverage to Europe against 
longer-range ballistic missiles. We have agreed with Poland and the 
Czech Republic to begin focused discussions on the deployment of long-
range interceptors and a midcourse discrimination radar. If 
negotiations are successful, we plan to modify the X-band radar 
currently located on the Kwajalein Atoll and relocate it to a site in 
the Czech Republic. The deployment of this X-band radar in Europe will 
complement sensor assets deployed in the United Kingdom and Greenland. 
In addition to increasing the number of long-range interceptors 
emplaced at missile fields in Alaska and California, we are hopeful 
that successful completion of negotiations with the Government of 
Poland will allow us to start emplacing 10 GBIs in Poland beginning in 
2011.
    We also are developing the MKV system to upgrade long-range 
interceptor performance by attaining a volume kill capability to defeat 
multiple reentry vehicles and midcourse countermeasures. We have 
restructured the MKV program to develop land- and sea-based interceptor 
payloads by the middle of next decade. Besides bringing several kill 
vehicles to the fight, the MKV system will provide critical tracking 
and discrimination information to other system sensors and interceptors 
and assist with kill assessment. We have requested $265 million for 
this work in fiscal year 2008.
    This budget submission also continues the upgrade of the Thule 
early warning radar in Greenland and its integration into the system by 
2009. Together with the radars in California, Alaska, and the United 
Kingdom, the Thule radar will ensure full coverage of the United States 
against threats from the Middle East. We will also continue to enhance 
additional forward-based X-band radar capabilities in Japan and other 
operating locations to meet warfighter needs.
    We also will bolster defenses against short- to medium-range 
threats by increasing the inventory of Aegis BMD sea-based interceptors 
from 86 to 132 by 2013. Upgrades to the SM-3 include improvement of the 
Divert and Attitude Control System and discrimination performance. We 
also will provide a full upgrade of the Aegis BMD Weapon System to 
improve its ability to detect, acquire, and intercept more diverse, 
longer-range threats. At the end of the decade we will integrate Aegis 
BMD with the Navy-developed Open Architecture system to remain 
compatible with Navy ships following modernization.
    We will field 2, and future plans call for 4, THAAD fire units, 
which consist of radars and 96 interceptors. THAAD will provide 
transportable terminal protection for our troops and areas along the 
U.S. coasts or on the territories of our allies. The first unit will be 
fielded in 2009, with subsequent units fielded by 2012. We are 
requesting $858 million in fiscal year 2008 for THAAD development and 
fielding.

                   DEVELOPING OPTIONS FOR THE FUTURE

    We do, of course, need to address far-term threats. In simplest 
terms, that means managing a program that balances initial, near-term 
fielding of system elements with long-term development. I continue to 
be a firm believer in the balanced program, because it neither 
compromises our security in the present nor short-changes our future 
safety. This approach recognizes the urgency of fielding capabilities 
to address threats we face today and the necessity of continuing 
support for vigorous development activities to prepare for tomorrow's 
ballistic missile challenges to our security.
    I am in strong agreement with the members of the House Armed 
Services Committee, who recently concluded that the country's missile 
defense program ``must be scalable in response to the evolution of the 
threat.'' \1\ The MDA plans to develop options for incrementally 
fielding elements of the BMDS. We will do this by leveraging a key U.S. 
strength, our technological advantage, and by building with our allies 
a foundation of global access and response.
---------------------------------------------------------------------------
    \1\ House Armed Services Committee, Committee Defense Review 
Report, December 2006, p. 104.
---------------------------------------------------------------------------
    In executing our program we continue to follow a strategy of 
retaining alternative development paths until capability is proven--a 
knowledge-based funding approach. That means we are setting specific 
targets, or knowledge points, that the development efforts have to 
reach to demonstrate a specific capability.
    There are several important development efforts funded in this 
budget. A significant part of missile defense investment has been 
devoted to the development of terrestrial boost phase defenses to 
supplement currently fielded midcourse and terminal defenses. An 
operational ABL could provide a valuable boost phase defense capability 
against missiles of all ranges. We restructured the KEI activity to 
focus on development of a high-acceleration booster, one that is more 
capable than any booster we currently have in inventory. Either ABL or 
the kinetic energy booster will be selected as the primary boost phase 
program upon completion of critical knowledge points before 2010.
    Over the past 2 years we have demonstrated in ground tests the 
power and reliability of the ABL high energy lasers. We also have 
tested the command and control and passive target detection systems in 
flight. In 2006 we refurbished the high energy laser optics and 
completed integration and ground testing of the low-power tracking and 
beacon illuminator lasers. This year we will flight test the beam 
control and atmospheric compensation against a cooperative airborne 
target. Earlier this month, we reached an important milestone in this 
program when we conducted the first in-flight test of the laser 
targeting system, successfully demonstrating a technology that will 
help track a boosting ballistic missile and identify the most 
vulnerable sections on the rocket motor case to be hit by the high 
energy laser. We recently completed major structural modifications to 
the Boeing 747 aircraft to support installation of the high energy 
laser, which will continue in 2008. The $516 million we request in 
fiscal year 2008 will complete integration of the high energy laser 
modules with the modified aircraft as we prepare for a lethal shootdown 
of a ballistic missile target in 2009. Despite the continued technical 
challenges we face, I remain optimistic that we can produce an 
operationally effective directed energy capability.
    We have made good progress in our high-acceleration booster 
development effort. This past year we successfully conducted the first 
static firings of the first and second stage boosters and demonstrated 
overhead non-imaging data fusion processing within the prototype fire 
control component. This high acceleration booster also would enhance 
the performance of the currently deployed GBI. Within the restructured 
program we will maintain options to develop a land-mobile launcher and 
fire control system as well as an option for a sea-based capability. We 
are requesting $214 million in fiscal year 2008 for this activity.
    We plan to develop space-based sensors to provide a persistent 
identification and global tracking capability. A small constellation of 
Space Tracking and Surveillance System (STSS) satellites will enable 
operation of the missile defense system worldwide, independent of 
terrestrial-based sensors along the threat trajectory. These sensors 
will be able to detect and track enemy ballistic missiles and payloads 
through all phases of flight and close the system fire control loop 
globally. We are on track to launch two demonstration satellites in 
November 2007. Next year, following on-orbit check-out, these 
demonstration satellites will perform live target acquisition, tracking 
and handover. We are requesting approximately $319 million in fiscal 
year 2008 to execute the STSS activity.
    We have learned a great deal from the ground-testing of the STSS 
Block 2006 sensors in representative, thermal vacuum conditions. We 
have proven that this class of sensor will achieve the necessary 
sensitivity to support intercepts. Given the long design timelines for 
space systems, we are requesting funding in fiscal year 2008 to begin 
work on the follow-on constellation. Postponing the start of this phase 
of the program will delay our ability to achieve a necessary global 
sensor and fire control capability.
    Later this month we are launching a satellite, the Near Field 
Infrared Experiment (NFIRE), to collect high resolution infrared 
phenomenology data from boosting targets. Following preparation of the 
satellite once it is on-orbit, in August and October 2007, we will 
conduct tests using live ballistic missile targets. The data from NFIRE 
will be fed into simulation models and contribute to the future sensor 
designs.
    We will continue work with Japan to increase SM-3 range and 
lethality. The development of the 21-inch M-3 Block IIA interceptor 
will increase our capability to engage longer-range ballistic missiles 
from Aegis BMD platforms and help close a capability gap around 2015. 
We have requested $74 million in fiscal year 2008 as part of our 
cooperative work with Japan to purchase long-lead items required for 
the development of this interceptor.
    Another capability gap exists in terminal defense against short- 
and medium-range ballistic missiles. For the past 2 years, the Navy and 
the MDA have collaborated on plans for a Sea-Based Terminal defensive 
layer. In May 2006 we demonstrated the feasibility of developing a 
limited near-term capability against a short-range ballistic missile 
using a modified SM-2 Block IV interceptor. Based on this 
demonstration, we are upgrading the Aegis weapon system, and the Navy 
is upgrading the SM-2 Block IV missile, the goal being to install a 
terminal engagement capability on 18 Aegis BMD ships beginning in 2009. 
We also are examining with the Navy options for developing a far-term 
improved capability to address short- and medium-range threats. Our 
fiscal year 2008 request for Sea-Based Terminal development work is $75 
million.
    The next generation of C2BMC capability will be essential if we are 
to close gaps in our command seams. As we deliver more sensor and 
interceptor capability into the hands of the warfighters, they are 
faced with several more options to defend their areas of 
responsibility. We must continually refine our C2BMC capability to 
allow the warfighters to rapidly process all of the available options, 
plan for the employment of BMDS assets, and globally manage the 
execution of the system on tight timelines. The battlefield effect is 
that the integrated BMD system can defend against more missiles 
simultaneously, reduce risk of missiles leaking through our defenses, 
conserve more interceptor inventory, and defend a larger area.
    Finally, I am deeply concerned about future threat uncertainty and 
worldwide ballistic missile proliferation. I believe the performance of 
the BMD system could be greatly enhanced by an integrated, space-based 
layer. Space systems could provide on-demand, near global access to 
ballistic missile threats, minimizing the limitations imposed by 
geography, absence of strategic warning, and the politics of 
international basing rights. A space layer would apply pressure on 
launches from land or sea, depriving the adversary of free rides into 
midcourse with advanced countermeasures. While deployment of such a 
system must be preceded by significant, national-level debate, that 
debate must be informed by science. To that end, we are ready to begin 
a focused investigation of the feasibility of having an integrated 
space-based layer, and I am requesting $10 million for fiscal year 2008 
to begin concept analysis and preparation for small-scale experiments. 
These experiments will provide real data to answer a number of 
technical questions and help the leadership make a more informed 
decision about adding this capability.
    We have had to restructure some development activities and cancel 
others as a result of congressional and departmental reductions in the 
MDA budget. The following program activities have been delayed: 
delivery of the first operational STSS satellite has slipped from 2012 
to the 2016-2017 timeframe, prolonging the time we will be without a 
capability to integrate the system globally; and the scope of the KEI 
activity has been reduced to focus on booster development and delay 
work on system integration, battle management, and fire control. The 
reductions also have impacted work in the area of innovative technology 
development. I regret that we have had to cancel the advanced 
technology development work associated with our micro-satellite 
activities and eliminate funding for the High Altitude Airship beyond 
fiscal year 2007.

                      INTERNATIONAL PARTICIPATION

    The global nature of the threat requires that we work closely with 
our allies and friends to develop, field, and operate missile defenses. 
I am pleased to report that many governments share our vision for 
missile defense. This past year we continued to build on a very 
successful program to involve more countries and forge international 
partnerships. Without the participation of our allies and friends, the 
BMDS would look very different.
    The Government of Japan remains solidly behind missile defense and 
has even accelerated its program to field multilayered missile defenses 
that are interoperable with the U.S. system. Japan continues to upgrade 
its Aegis destroyers and acquire SM-3 interceptors. In March 2006 we 
successfully flight-tested new nosecone technologies developed in 
cooperation with Japan. Additionally, the MDA and Japan have agreed to 
co-develop a Block IIA version of the SM-3, which will improve our 
defensive capabilities against longer-range missiles. Japan also is 
upgrading its Patriot fire units with PAC-3 missiles and improved 
ground support equipment. In 2008 Japan is expected to begin co-
production of the PAC-3 missile.
    The upgraded Royal Air Force Fylingdales radar in the United 
Kingdom will undergo operational testing this year. Once we certify the 
radar, it will provide the system critical early warning, tracking and 
cuing data needed to defeat threat missiles coming out of Iran. We are 
working closely with Denmark to upgrade the Thule early warning radar 
in Greenland to improve its capability to detect and track ballistic 
missiles.
    Later this year we will conduct satellite-to-ground and satellite-
to-satellite communication experiments with a German-built Laser 
Communications Terminal installed in the NFIRE satellite. Together with 
an identical terminal on a German satellite, the United States and 
Germany will perform joint experiments to validate the use of laser 
technology for high speed space communications.
    The United States and The Netherlands have been working together to 
modify Dutch frigates with a combat system to enable ballistic missile 
detection and tracking. An upgraded air command and defense frigate 
from The Netherlands successfully detected and tracked the targets in 
the December 2006 Aegis ballistic missile defense flight test.
    We are continuing work with Israel to implement the Arrow System 
Improvement Program and enhance its capability to defeat longer-range 
ballistic missile threats emerging in Iran. We are also conducting a 
feasibility study on a joint development program called David's Sling 
for shorter-range missile defense.
    We continue to support our North Atlantic Treaty Organization 
(NATO) partners in advancing the dialogue on the political-military 
implications of defending European population centers against longer-
range missile threats. The MDA is supporting the NATO Active Layered 
Tactical Ballistic Missile Defense Program Office to develop a 
capability to protect deployed forces by 2010.
    I am also pleased to announce that this past February we put in 
place a Framework Memorandum of Agreement with Italy and we can now 
begin to develop opportunities for missile defense technology sharing, 
analysis, and other forms of collaboration. We have other international 
interoperability and technical cooperation projects underway, for 
example with Australia, and are working to establish formal agreements 
with other governments.

                                CLOSING

    Mr. Chairman, in closing, some have said that the Defense 
Department's investments in missile defense are misdirected, that other 
threats are more pressing. Others have said we are spending too much 
money on missile defense and that it is too expensive. Still others 
have claimed that we should slow down fielding activities until the 
technologies are more mature.
    I disagree with these critics, Mr. Chairman. We must meet the 
rising threats posed by ballistic missiles. We have seen rogue nations 
test these weapons in the past year. Ballistic missile defense is 
expensive, but the dollar investment in this nation's security pales in 
comparison to the overwhelming price this nation would pay in lives, 
social dislocation, and economic devastation from a single missile 
impacting an American metropolitan area. Indeed, the success we have 
seen in our comprehensive test program indicates that there is no 
reason to slow down.
    In less than 3 short years, thanks to the dedication of thousands 
of men and women across this country and a first-class, cutting-edge 
defense industry, we have deployed missile defenses to protect our 
homeland, our troops deployed to dangerous regions around the world, 
and our allies and friends. But we have a long way to go. So now is not 
the time to cut back missile defense. Now is the time to accelerate it.
    Thank you and I look forward to your questions.

    Senator Bill Nelson. General Campbell?

 STATEMENT OF LTG KEVIN T. CAMPBELL, USA, COMMANDING GENERAL, 
 U.S. ARMY SPACE AND MISSILE DEFENSE COMMAND/U.S. ARMY FORCES 
 STRATEGIC COMMAND AND JOINT FUNCTIONAL COMPONENT COMMAND FOR 
                   INTEGRATED MISSILE DEFENSE

    General Campbell. Chairman Nelson, Senator Sessions, and 
members of the subcommittee, thank you for having us here 
today. We appreciate your support.
    I'm going to address four aspects of my role, the role as 
the Joint Functional Component Command for Integrated Missile 
Defense under General Cartwright at STRATCOM. The assessment of 
the capabilities that we have today, the role of the warfighter 
in the development process, and finally, my role as the Army's 
senior Space and Missile Defense Commander (SMDC).
    In our role as the Joint Component, we plan, integrate and 
coordinate global ballistic missile defense (BMD) operations. 
This includes developing plans and concepts, it includes 
planning exercises and executing exercises that cut across all 
of the Combatant Commanders--European Command, Northern 
Command, as well as Pacific Command, and STRATCOM.
    Starting in July 2006, when the North Koreans had several 
missile test flights, we successfully placed this system on 
alert, and it demonstrated, in my view, our ability to operate 
the system on a sustained basis, and also to dynamically plan 
across three separate combatant commanders in their real time. 
So, it validated that our procedures were very good at that 
point in time.
    I think our success is related to two particular 
activities, one is the exercise program, and the second is the 
MDA's test program, which we participate in. In the past 12 
months, we've had three major exercises across the three 
combatant commanders, and we've participated in several of the 
GMD tests in which soldiers, sailors, marines, and airmen 
operate their systems. These tests and exercises have enabled 
us to improve our efficiency, both at staff levels, as well 
down at the individual soldier level.
    My assessment, in terms of the near-term, I think we're 
very limited. The principal limiting factor is typically 
missile inventory, although in the lower tiers, we do need more 
Patriot Systems, and I think we're going to solve this when we 
bring THAAD, when we bring on additional Aegis BMD capability. 
I think that the potential expansion into Europe with the GMD 
system, which we think is essential, will thicken our defense 
for the homeland, and expand it to our allies and forward-
deployed forces.
    In our warfighter role, in terms of advocacy, we have a 
very deliberate and disciplined process within USSTRATCOM, 
which gathers all of the inputs from the combatant commanders 
and we present those to General Obering at the MDA. We've been 
able to work a number of issues, we've seen improvements in 
fielded systems, and we've made recommendations that they 
pursue systems, such as the Multiple Kill Vehicle (MKV), which 
we think is important for future threats.
    In my role as the Army SMDC, we ensure that our forces have 
those capabilities necessary to handle the theater-level 
missile threats. We're transforming that force, we're taking it 
from separate systems, integrating those systems into a system 
of systems so such systems as Patriot, THAAD, the surface-
launched medium-range missile, and the elevated sensor are the 
type systems that we're netting together. I think when we do 
this, a combatant commander then can take those capabilities 
and better tailor and scope them to his needs in his particular 
theater.
    So, with your help, we're going to continue forward 
progress in this endeavor, in fielding an integrated missile 
defense for our homeland, deployed forces, friends, and allies, 
and I thank you again for having us, and I look forward to your 
questions.
    [The prepared statement of General Campbell follows:]

            Prepared Statement by LTG Kevin T. Campbell, USA

                              INTRODUCTION

    Chairman Nelson, Ranking Member Sessions, and members of the 
subcommittee, thank you for your ongoing support of our military and 
for the opportunity to appear before this panel. In my view, this 
committee is a strong ally of the Army and the missile defense 
community, particularly in our continuing efforts to field missile 
defense forces for the Nation and our allies. I consider it a privilege 
to be counted in the ranks with my fellow witnesses as an advocate for 
a strong global missile defense capability.
    My current responsibility entails two roles. The first is as the 
Army's senior commander for space and missile defense. The second role 
is as a soldier on the Joint Missile Defense Team and Commander of the 
Joint Functional Component Command for Integrated Missile Defense, a 
part of the U.S. Strategic Command. In this role, I serve as the Joint 
user representative working closely with the Missile Defense Agency 
(MDA), other Services, and combatant commanders to ensure that our 
national goals of developing, testing, and deploying an integrated 
missile defense system are met in an operationally sound configuration.
    Chairman, as proven during last year's July 4th North Korean 
missile launches, Army Soldiers are trained and ready to operate the 
Ground-Based Midcourse Defense (GMD) Element of the Ballistic Missile 
Defense System (BMDS) at Fort Greely, Alaska, and the Joint National 
Integration Center at Schriever Air Force Base in Colorado. These 
Soldiers, as part of the Joint team, continue to serve as our Nation's 
first line of defense against a rogue nation's launch of an 
intercontinental ballistic missile toward our shores. I am proud to 
represent them along with the other members of the Army and Joint 
integrated missile defense community.

                UNITED STATES STRATEGIC COMMAND JFCC-IMD

    The Joint Functional Component Command for Integrated Missile 
Defense (JFCC-IMD) was established in January 2005 as one element of 
the U.S. Strategic Command (USSTRATCOM) and reached full operational 
capability early in 2006. The JFCC-IMD is manned by Army, Navy, Air 
Force, Marine Corps, and civilian personnel. This joint-manning 
arrangement and our strong partnership with our collocated MDA team 
enable us to execute the integrated missile defense mission by 
leveraging the existing robust infrastructure.
    USSTRATCOM, through the JFCC-IMD, continues to aggressively execute 
its mission to globally plan, integrate, and coordinate missile defense 
operations. Through stressing operational scenarios, integrated missile 
defense has experienced robust growth and maturity and has improved its 
ability to defend this nation. Although, there is much work yet to be 
done, JFCC-IMD continues to lead the Department's transformation toward 
more robust integrated missile defense capabilities. The soldiers, 
sailors, airmen, marines, and civilians of this joint warfighting 
organization execute our mission to plan, integrate, and coordinate 
global missile defense operations and support by operationalizing new 
capabilities from MDA, developing global missile defense plans in 
collaboration with the geographical combatant commanders, and 
conducting cross-geographical combatant commander exercises to 
eliminate seams and gaps to maintain a strong defense against changing 
threats. Execution of the essential mission includes providing warning 
of missile attack to other combatant commanders and providing 
assessment of missile attack. In all, JFCC-IMD continues to build 
operational competence of the integrated missile defense capability and 
warfighter confidence in executing our mission.
Ballistic Missile Defense System Progress
    This past year has been a year of operational achievement for 
integrated missile defense as we successfully placed the BMDS on alert 
in response to a credible ballistic missile threat from North Korea. 
This limited defense capability marked the beginning of global missile 
defense as warfighters from three combatant commands and allies 
integrated respective assets and personnel toward a single mission 
against a common threat. The scale of this integration is 
unprecedented--non-missile defense assets were integrated with legacy 
and state-of-the-art technologies to provide a shield to protect our 
homeland. Additionally, we achieved unparalleled integration of the 
Department's intelligence capabilities to enable timely and responsive 
indications and warning to support missile defense readiness. We expect 
the warfighting capability provided by such integration of assets, 
platforms, doctrine, and personnel to continue to grow in coming years.
    The North Korean incident last summer also underscored the growing 
maturity of the cross-JFCC integration within USSTRATCOM in executing 
its global mission. JFCC-IMD collaborated closely with the JFCCs for 
Intelligence, Surveillance, and Reconnaissance (JFCC-ISR) and Space 
(JFCC-Space) to integrate the intelligence, surveillance, 
reconnaissance, and space assets for the missile defense missions. This 
effort afforded the use of intelligence, surveillance, reconnaissance, 
and space assets that previously had not been included in the missile 
defense mission. Similarly, JFCC-IMD collaborated closely with JTF-
Global Network Operations to maximize availability of a robust 
communication network to link the decisionmakers in Washington with 
commanders across the globe. We have also integrated our planning 
efforts with the JFCC for Global Strike and Integration (JFCC-GSI) to 
ensure we integrated both offensive and defensive capabilities into 
potential courses of action. Our approach today for a missile defense 
contingency is designed to examine and integrate a broader array of 
capabilities into our planning and execution. In short, JFCCs are 
maturing in a deliberate and coordinated pace to extend the New Triad 
in its global mission.
    JFCC-IMD's readiness demonstrated during last summer's incident is 
a testimony to the robust warfighter exercise and test program. During 
the past year, we planned and conducted three major combatant command-
level exercises involving U.S. Pacific Command, U.S. Northern Command 
and U.S. Strategic Command. These exercises enabled combatant 
commanders to exercise concepts of operations and tactics, techniques, 
and procedures, and improve our planning and execution of missile 
defense operations. These activities enhance warfighter competence in 
prosecuting a global missile defense capability. JFCC-IMD's global 
missile defense exercise program also extended to our coalition 
partners. These international exercises further bolstered our allies' 
resolve in conducting combined missile defense operations and extending 
partnership into co-development of future capabilities.
Warfighter Contributions to System Development
    Warfighters participate in key BMDS tests to build confidence in 
its capabilities. JFCC-IMD led warfighter participation in the first 
distributed ground tests on the operational BMDS, geographically 
distributed from Colorado to Alaska, and Washington to Japan. This test 
demonstrated the growing sophistication and complexity of BMDS 
assessments that are increasingly operationally relevant. Furthermore, 
warfighters collaborated with MDA to successfully conduct key flight 
tests to bolster our Nation's confidence in the effectiveness of the 
integrated missile defense capabilities.
    Within a 90-day period, we successfully intercepted ballistic 
missiles at low and high altitudes; in midcourse and terminal phases; 
and, in endo- and exo-atmospheric environments with the Patriot 
Advanced Capability-3 (PAC-3), the AEGIS Standard Missile-3, the 
Terminal High Altitude Area Defense (THAAD), and our long-range Ground-
Based Interceptor. Conducting these system-level flight and ground 
tests required the use of operational assets, the very assets that 
would be used to defend this nation against a possible North Korea 
missile attack. JFCC-IMD worked closely with the Combatant Commanders 
and MDA to coordinate the availability of these assets to ensure 
sustained operational readiness during the conduct of the system-level 
tests.
    The JFCC-IMD was able to balance the requirements of both 
operations and tests, but this period of robust achievements 
underscored the warfighter's requirement to expedite development and 
deployment of a concurrent testing, training, and operations 
capability. Concurrent test, training and operations will permit 
developers and operators to maintain full operational mode of the BMDS 
while simultaneously developing, testing, or training on the system. 
The need for the concurrent test, training and operations capability is 
especially pronounced for the one-of-a-kind assets that are shared 
between the warfighter, developer, and trainer communities.
    Absent a mature concurrent test, training and operations 
capability, JFCC-IMD aggressively conducts an asset management process 
to ensure the highest level of operational readiness during conduct of 
materiel development and tests. Supported by an indications and warning 
system, the asset management process has been the key enabler to 
operationalize new capabilities, perform operationally relevant tests, 
and conduct system-wide upgrades. During the past year, the asset 
management process facilitated warfighters and materiel developers in 
optimizing the use of the deployed elements while fielding additional 
assets. In addition, warfighter participation in the flight and ground 
testing increased our confidence in the system's performance.
Increasing the Capability of the System
    JFCC-IMD, in partnership with MDA and the Services, has integrated 
additional missile defense sensors and shooters to enhance theater and 
strategic mission capabilities. We have increased the robustness of our 
sensor capability by deploying a mobile sensor in Japan, increasing the 
number of AEGIS ships enabled with the long range search and tracking 
capability, and are deploying a midcourse discrimination sensor in the 
waters of Alaska. We have continued deployment of the Navy's Ballistic 
Missile Defense AEGIS Standard Missile-3, Patriot Advanced Capability-3 
missiles, and increased the number of Ground-Based Interceptors. 
Additionally, in my role as the JFCC-IMD Commander, I have been in 
discussion with European Command to build a stronger partnership with 
our Allies and to host a midcourse radar and interceptor site to 
counter the Iranian threat.
    The Command, Control, Battle Management, and Communications System 
is an essential evolutionary component of the BMDS that greatly 
enhances both planning and execution capabilities. The command and 
control system contributes to all phases of integrated missile defense 
from optimizing planning to synchronizing the automated execution of 
the BMDS. During the past year, upgrades to the command and control 
system have extended situational awareness, planning, and sensor 
management capability to key components of U.S. Strategic Command, U.S. 
Northern Command, and U.S. Pacific Command. Additionally, critical 
command and control system situational awareness nodes are utilized by 
the White House, National Military Command Center, and Secretary of 
Defense Executive Support Center.
    As we move forward in the next year, much work remains to be done. 
We will continue to integrate and conduct cross-geographic combatant 
commander planning and exercises, deploy new capabilities, and increase 
allies' involvement in global missile defense. We will continue to 
advocate for system improvements that close capability gaps and improve 
system performance. Fielding more capable command and control systems, 
sensors, and kill vehicles, such as the Multiple Kill Vehicle, will 
provide the warfighter with a system capable of addressing a broad 
range of threats. Our continuing goal is to develop a seamless missile 
defense system, that integrates all available capabilities, to deter 
and dissuade the proliferation of missile threats, and if necessary, 
defeat them to protect our Nation, deployed forces, friends, and 
allies.

   AIR AND MISSILE DEFENSE--AN OVERVIEW OF THE FISCAL YEAR 2008 ARMY 
                           BUDGET SUBMISSION

    In addition to deploying the BMDS, MDA, the Services, and the 
combatant commanders continue to focus on improving theater air and 
missile defense capabilities. Both the GMD and Theater Air and Missile 
Defense Systems are vital for the protection of our homeland, deployed 
forces, friends, and allies. Air and missile defense is a key component 
in support of the Army's core competency of providing relevant and 
ready land power to combatant commanders.
    As you are aware, real world events over the past year have 
increased the relevance, urgency, and importance of theater air and 
missile defense as well as cruise missile defense. Medium and short-
range ballistic missile and cruise missile threats continue to grow, 
especially in light of increased proliferation of missile defense 
technology. These threats, combined with Iran's and North Korea's 
increased interest in nuclear capabilities, are of particular concern.
    As highlighted in the 2006 Quadrennial Defense Review, a number of 
potentially hostile states possess or seek weapons of mass destruction. 
This is especially troubling when considered along with ballistic and 
cruise missile proliferation. For these states, weapons of mass 
destruction--particularly nuclear weapons--provide the means to assert 
regional domination and intimidate others. As such, the Quadrennial 
Defense Review specifically highlighted the need for integrated 
defenses against short-, intermediate-, and intercontinental-range 
ballistic and cruise missile systems.
    The House Armed Services Committee Defense Review Report, released 
in December 2006, concluded that the U.S. force structure must expand 
and U.S. capabilities must improve to reduce the risk to the security 
of the American people to an acceptable level and noted that a robust 
BMDS is critical to defeat strategic threats to the United States and 
its allies. The report also noted that Operation Enduring Freedom and 
Operation Iraqi Freedom are consuming key missile defense capabilities, 
leaving other worldwide commitments under-resourced.
    In light of these reports and their findings, the Army, in concert 
with the Department of Defense and MDA, is taking the necessary steps 
to ensure that the U.S. homeland, allies and deployed forces are 
provided the necessary protection from these threats. With that as a 
background, I would now like to focus on the Army's fiscal year 2008 
budget submission for air and missile defense systems. The President's 
budget, presented to Congress on February 5, includes approximately 
$1.75 billion with which the Army proposes to execute current Army air 
and missile defense responsibilities and focus on future development 
and enhancements of both terminal phase and short-range air and missile 
defense systems. In short, the Army is continuing major efforts to 
improve the ability to provide warning, acquire, track, intercept, and 
destroy theater air and missile threats.
    The Army, as part of the joint team, continues its transformation 
of air and missile defense forces to meet the increasingly 
sophisticated and asymmetric threat environment encountered by the 
joint and allied warfighter. The air and missile defense force will 
meet this threat by adhering to the following imperatives:

        <bullet> One seamless integrated force
        <bullet> Advanced engagement concepts
        <bullet> Defense in depth
        <bullet> 360-degree defense
        <bullet> Early and continuous engagements
        <bullet> Assure friendly use of airspace
        <bullet> Support information dominance
Integrated Air and Missile Defense
    In order to fulfill these imperatives, the Army is transforming its 
air defense force from its current separate systems architecture to a 
component-based, network-centric, Integrated Air and Missile Defense 
system of systems. The Integrated Air and Missile Defense Program 
focuses on systems integration, common battle command and control, 
joint enabling networking, and logistics and training to ensure 
operational requirements, such as force lethality, survivability, 
transportability and maneuverability, are achieved. Benefits of 
developing and fielding such a capability include:

        <bullet> Expanded defended areas against the full-spectrum of 
        threats
        <bullet> Integrated defense design which eliminates single 
        nodes of failure
        <bullet> Flexibility in choice of interceptors
        <bullet> Ability to battle manage weapons, sensors, and 
        inventories
        <bullet> Seamless training adjustments for battle managers 
        across the Integrated Air and Missile Defense Force
        <bullet> Closing current capability gaps

    The Integrated Air and Missile Defense Program employs an 
evolutionary acquisition strategy that leads to the objective net-
centric system of systems plug-and-fight capability. The approach calls 
for a restructuring of current Army air and missile defense systems 
into components of sensors, weapons, and battle management command, 
control, communications, computers, and intelligence with a standard 
set of interfaces among the components using a standardized 
communications network. This modularization of missile defense 
capabilities will allow Joint Forces Commanders to scale and tailor 
assets and forces based upon the specific operating environment in 
which they are employed.
    Technology insertions to the Integrated Air and Missile Defense 
will continue throughout each increment as high-payoff technologies 
mature and are ready for integration. Incremental development of the 
program allows the Army to more quickly field new and improved 
capabilities to the warfighter. The proposed fiscal year 2008 
President's budget supports the evolution of an Integrated Air and 
Missile Defense capability.
Air and Missile Defense Organizational Structure
    As part of air defense transformation, the Army has created 
composite air and missile defense battalions. These battalions address 
capability gaps, permitting us to defeat cruise missiles and unmanned 
aerial vehicles while maintaining our ability to defend critical assets 
from the ballistic missile threat. Composite air and missile defense 
battalions will capitalize on the synergies of two previously separate 
disciplines: short-range air defense and high-to-medium altitude air 
defense. Additionally, the Army no longer provides an organic air 
defense artillery battalion to its Divisions. Instead, divisional air 
defense artillery battalions are pooled at the theater-level to provide 
air and missile defense protection based on situation and mission 
requirement. The pool of Army air and missile defense resources will 
address operational requirements in a tailored and timely manner. This 
pooling concept supports the Army's effort to move to modular designs 
that allow force tailoring of units better sized to meet the combatant 
commanders' needs and homeland security and defense requirements.
    Within the context just provided, allow me to briefly discuss the 
three main component areas of the Army's air and missile defense 
construct: Terminal Phase Ballistic Missile Defense, Cruise Missile 
Defense, and Force Protection.

               TERMINAL PHASE BALLISTIC MISSILE DEFENSES

    The Patriot/Medium Extended Air Defense System (MEADS) capability 
is designed to counter theater ballistic missile threats in their 
terminal phase in addition to cruise missiles and other air-breathing 
threats. Combining these systems with the Terminal High Attitude Area 
Defense System capability being developed by MDA with a planned 
fielding in fiscal year 2009, brings an unprecedented level of 
protection against missile attacks to deployed U.S. forces, friends, 
and allies well into the future.
Patriot/PAC 3 Overview
    Chairman, since the combat debut of the Patriot Air and Missile 
Defense System during Operation Desert Storm, the Army has continued to 
implement a series of improvements to address the lessons learned. 
During Operation Iraqi Freedom, we saw the debut of the improved 
Patriot Configuration-3 system, including the effective use of the 
Guidance Enhanced Missile and the Patriot Advanced Capability-3 (PAC-3) 
missile. PAC-3 is the latest evolution of the phased materiel 
improvement program to Patriot. Combining developmental testing and 
operational data, this program enables the development and deployment 
of a new high-velocity, hit-to-kill, surface-to-air missile with the 
range, accuracy, and lethality necessary to effectively intercept and 
destroy more sophisticated ballistic missile threats. Today's Patriot 
force is a mixture of PAC-2 and PAC-3 configured units. To maximize the 
full advantage of the PAC-3 capabilities, the Chief of Staff of the 
Army has directed the Army to pure-fleet the entire Patriot force to 
the PAC-3 configuration. In response to combatant commanders' 
requirements, the Vice Chief of Staff of the Army directed the creation 
of two additional Patriot battalions to help relieve the stress on the 
Patriot force and increase the Army's strategic responsiveness in the 
area of terminal ballistic missile defense. These directives underscore 
the importance of Patriot to the Nation's overall National Military 
Strategy and are necessary to maximize the capabilities for protecting 
the security interests of both the United States and our allies.
    While Patriot saved many lives defending against Iraqi ballistic 
missile attacks during Operation Iraqi Freedom, there were some 
operational deficiencies. The Army has undertaken steps to correct them 
and address lessons learned. The Army has pursued two thrusts--
identification and execution of a $41.6 million program for nine 
specific Operation Iraqi Freedom fixes and continued aggressive 
participation in joint interoperability improvements in situational 
awareness. The development, testing, and materiel release for the nine 
enhancements is on schedule to be completed by the end of this fiscal 
year. Several enhancements have already completed fielding. The 
remaining enhancements are either currently being fielded or are 
planned to start this spring. Based on the current fielding schedule, 
all remaining Operation Iraqi Freedom fixes will complete fielding to 
the units by fiscal year 2009.
    The Patriot system remains the Army's mainstay Terminal Air and 
Missile Defense System and our Nation's only deployed land-based short-
to-medium range BMDS capability. The current PATRIOT force must be 
sustained and recapitalized until MEADS is completely fielded. Fielding 
of MEADS is scheduled to begin in 2015 and be completed by 2028.
Combined Patriot/MEADS Approach
    With the approval of the Defense Acquisition Executive, the Army 
embarked on a path that merged the Patriot and MEADS programs, 
establishing the Patriot/MEADS Combined Aggregate Program with the 
objective of achieving the MEADS capability through incremental 
fielding of MEADS major end items into Patriot. Patriot/MEADS Combined 
Aggregate Program is an important capability that will operate within 
the BMDS. It is, in fact, a top Army priority system for defense 
against short- and medium-range tactical ballistic missiles and air 
breathing threats. The Patriot/MEADS Combined Aggregate Program will be 
an integral part of the Integrated Air and Missile Defense System of 
Systems and capable of operating within a Joint, interagency, 
intergovernmental, and multinational interdependent operational 
environment. It will provide wide-area protection at strategic, 
operational, and tactical levels.
    The Patriot/MEADS Combined Aggregate Program will also provide 
battle management command and control in accordance with the IAMD 
provided common battle command system, introduce lightweight deployable 
launchers, upgrade the PAC-3 missile, and eventually provide the full 
MEADS capability to the entire force. By establishing the Patriot/MEADS 
Combined Aggregate Program, the Joint integrated air and missile 
defense architecture will become more robust in key ways. First, MEADS 
enhancements are integrated into the existing system. Second, as 
lessons are learned from the present missile defense capability, they 
will be incorporated into the MEADS follow-on system.
    MEADS is a cooperative development program with Germany and Italy 
to field an enhanced ground-mobile air and missile defense capability. 
The MEADS program, which supports the President's goal for 
international cooperation in missile defense, will enable the joint 
integrated air and missile defense community to operate more 
effectively on future battlefields. MEADS will provide theater level 
defense of critical assets and continuous protection of a rapidly 
advancing maneuver force as part of the Joint integrated air and 
missile defense architecture. Major MEADS enhancements include 360-
degree sensor coverage and a strategically deployable and tactically 
mobile air and missile defense system that can be deployed and 
controlled as part of the integrated air and missile defense 
architecture. The PAC-3 Missile Segment Enhancement is currently under 
development and will be integrated into the MEADS program. The Missile 
Segment Enhancement Missile will provide a more agile and lethal 
interceptor that increases the engagement envelope. We are confident 
that this path will provide our service members, allies, friends, and 
our Nation with the most capable air and missile defense system 
possible.
Terminal High Attitude Area Defense System Overview (THAAD)
    The Department of Defense is committed to fielding an advanced 
capability to defend against tactical ballistic missiles as soon as 
possible. THAAD is designed to provide critical defense against short 
and medium range ballistic missiles. As a result, MDA is funding and 
manufacturing four THAAD fire units for the Army in an accelerated 
fielding that will begin in 2009. This investment represents an initial 
THAAD capability for the warfighter and the next major step towards a 
comprehensive, layered theater ballistic missile defense. Follow-on 
THAAD upgrades are planned in future budgets to meet an ever increasing 
and evolving threat.

                         CRUISE MISSILE DEFENSE

    In the world today, there exists a real and growing threat from 
land attack cruise missiles. Cruise missiles are inherently very 
difficult targets to detect, engage, and destroy because of their small 
size, low detection signature, and low altitude flight characteristics. 
When armed with a weapon of mass destruction warhead, the effects from 
a cruise missile could be catastrophic. The Army's Cruise Missile 
Defense Program is an integral piece of the Joint cruise missile 
defense architecture. Critical Army components of the Joint cruise 
missile defense architecture are provided by the Joint Land Attack 
Cruise Missile Defense Elevated Netted Sensor System, the Surface-
Launched Advanced Medium Range Air-to-Air Missile, the Patriot Missile 
Segment Enhancement Missile, and an integrated fire control capability 
inherent in the Integrated Air and Missile Defense System of Systems. 
We are also working closely with the Joint community to assure 
development of doctrine that synchronizes our military's full 
capabilities against the cruise missile threat.
    The Joint Land Attack Cruise Missile Defense Elevated Netted Sensor 
System brings a critically needed capability to detect, track, and 
identify cruise missile threats. The system will support engagements 
using the Surface-Launched Advanced Medium-Range Air-to-Air Missile, 
the Navy Standard Missile, and the Patriot/MEADS weapon systems by 
providing precision tracking and 360-degree wide-area and over-the-
horizon surveillance of land-attack cruise missiles. The Surface-
Launched Advanced Medium-Range Air-to-Air Missile will provide maneuver 
forces with a critical, beyond line-of-sight engagement capability to 
counter the cruise missile threat, as well as unmanned aerial vehicle 
threats, over an extended battlespace. The Surface-Launched Advanced 
Medium-Range Air-to-Air Missile uses the existing Joint Advanced 
Medium-Range Air-to-Air Missile currently used by the Air Force and the 
Navy, thereby capitalizing on Joint commonality on the battlefield.

                            FORCE PROTECTION

    A significant danger in Operation Iraqi Freedom and Operation 
Enduring Freedom is posed by insurgents employing indirect-fire tactics 
of quick-attack, low-trajectory, urban-terrain-masked rocket, 
artillery, and mortar strikes against U.S. forward operating bases in 
Iraq. To combat this threat, the Army developed Counter-Rocket, 
Artillery, Mortar (CRAM), an integrated solution of capabilities to 
provide warning and intercept of rocket, artillery, and mortar threats. 
CRAM provides a holistic approach to this emerging menace. Horizontal 
integration across the core functions--command and control, shape, 
sense, warn, intercept, respond and protect--is providing an integrated 
modular and scalable capability. This capability provides timely 
warning of mortar attacks, intercept and defeat of incoming rounds, and 
accurate location of insurgent mortar crews, enabling a rapid, lethal 
response. CRAM takes advantage of existing systems and capabilities, 
combining them in a system of systems architecture to support the 
warfighter on today's battlefield. The current CRAM solution is truly 
Joint, in that it uses fielded systems from the Army, Navy and Air 
Force along with a commercial off-the-shelf system. To date, CRAM has 
been supported solely through supplemental appropriations. Recognizing 
the enduring nature of the rocket, artillery, and mortar threat, the 
Army is exploring ways, to include the use of directed energy, to 
enhance this capability across all of the core functions, thereby 
making it even more relevant to the future modular force.

                               CONCLUSION

    Mr. Chairman, the Army, a fully contributing member of the Joint 
team, is relevant and ready, fighting the war on terrorism, and 
deterring aggression throughout the world, while transforming to meet 
future threats. With its responsibilities for GMD, THAAD, and PAC-3/
MEADS Combined Aggregate Program, the Army is an integral part of the 
joint team to develop and field an integrated missile defense for our 
Nation, deployed forces, friends, and allies. In my role as the Joint 
Functional Component Commander for Integrated Missile Defense, I will 
continue the development of a Joint BMDS capability to protect our 
Nation, deployed forces, friends, and allies. The Army has stepped up 
to the land-attack cruise missile defense challenge by aggressively 
developing the Joint, integrated, and networked sensor-to-shooter 
architecture necessary to defeat the emerging threat. The fiscal year 
2008 budget proposal continues the transformation of the Army's air, 
space, and missile defense force to support the Army's future force, 
the Joint Integrated Air and Missile Defense System, and our global 
BMDS. Transformation will continue to define the characteristics of the 
emerging air, space, and missile defense force and determine how it can 
best support the future force operating in a Joint, interagency, 
intergovernmental, and multinational environment.
    I appreciate having the opportunity to speak on these important 
matters and look forward to addressing any questions you or the other 
committee members may have.

    Senator Bill Nelson. I notice three ladies standing up in 
the back, I would invite some of the gentlemen to offer their 
seats to the ladies, otherwise, would the ladies come up here 
and sit up here?
    Would the gentleman give the lady a seat? Ma'am, there's a 
seat right in the back. [Laughter.]
    Okay, Dr. McQueary?

  STATEMENT OF DR. CHARLES E. McQUEARY, DIRECTOR, OPERATIONAL 
   TEST AND EVALUATION, OFFICE OF THE SECRETARY OF DEFENSE, 
                     DEPARTMENT OF DEFENSE

    Dr. McQueary. Chairman Nelson and Senator Sessions, thank 
you very much for the opportunity to be here with the other 
distinguished members of the panel.
    I have four brief points that I'll make that I'll summarize 
in more detail in my prepared remarks. But, the four points 
that I wish to touch upon--I'll briefly give you my view of the 
test accomplishments that MDA has had in this past year. 
Second, I'll give you my current assessment of how we look at 
the Ballistic Missile Defense System (BMDS) and its successes. 
Third, we'll talk about the implementation of the DOT&E 
recommendations, which is one of the points that you had made 
in your letter to me, and the fourth, I'll give you my current 
view as to where we are on being able to fulfill the Block 2006 
assessment requirements that were placed on us in the National 
Defense Authorization Act of 2006.
    First of all, I just will summarize by saying that MDA has 
had a good year in 2006, as well as the beginning of 2007. 
General Obering touched upon a number of things that were 
accomplished during that time period, so there's no point in my 
repeating any of that, and I won't do so.
    I will say that MDA's test program has been a robust 
program, it's been disciplined, and has demonstrated capability 
both in ground tests, as well as in flight tests that the 
system can work in certain scenarios.
    My assessment, the second point I wanted to make is the 
assessment; DOT&E had points of view that were raised in the 
hearings that were held in 2005 and 2006, but what I can tell 
you today is that the, in my view, that BMDS has demonstrated a 
limited capability against a simple foreign threat, and that's 
the important step forward in the development of such a system. 
Coupled with the other successes that MDA has had, I think, as 
well as the integrated ground test, I think BMDS is definitely 
maturing in a satisfactory way, and the picture looks good.
    So, the third point I'd like to make, Mr. Chairman is to 
review the recommendations very briefly. I will not go into 
specifics of what they are, but MDA has been very responsive to 
the inputs we have. We had 26 recommendations that were made in 
2005, and all but four of those have been fully implemented 
based upon our recommendations, and MDA has specific plans in 
place to address the other four.
    In 2006, we had made 15 new recommendations, and of course 
a report just came out early in the year, but MDA has been 
working with us, in order to implement plans and test programs 
that would be responsive to those.
    So, in summary, I am very satisfied with the responsiveness 
of General Obering and his staff in working with us, and being 
responsive to the descriptions of what we believe from an 
independent operational test evaluation standpoint needs to be 
done.
    My only role--the role that DOT&E has for MDA, in 
particular--is to advise what should be done, but I will say 
that General Obering and his staff have been as responsive as 
any other program elements that we deal with in our overall 
responsibilities at DOT&E. So, from my standpoint, being 
relatively new in the job, I found it very satisfying.
    Then the fourth issue is the one on the challenges of being 
able to do the Block 2006 assessment. There were two failures 
back in 2005, and the program had to go through a re-evaluation 
of what the structure should be for testing. I think that has 
been a good test program. However, due to the limited nature of 
actual testing that has been done to date, it will be very 
difficult for DOT&E to provide an analytical, complete 
assessment of what is needed for the Block 2006. We'll have 
much better insight into that as we get farther into the year, 
and see the additional testing that is being done.
    So, in summary, I think that MDA has had a good year, I 
believe the organization has been very responsive to DOT&E's 
requests, and I'm very pleased with what I have seen so far, 
although, as indicated, we do have some recommendations as to 
what can be done to improve the program, we believe, and I look 
forward to your questions, so we can get into and probe this in 
more detail.
    [The prepared statement of Dr. McQueary follows:]

             Prepared Statement by Dr. Charles E. McQueary

    Mr. Chairman, Senator Sessions, and distinguished members of the 
subcommittee, good afternoon. I am pleased to have this opportunity to 
speak to you about the testing of the Ballistic Missile Defense System 
(BMDS). I will briefly cover four areas.
    First, I will review what I believe are the major Missile Defense 
Agency's test accomplishments during the past year.
    Second, I will give you my current assessment of the capability of 
BMDS.
    Third, I will provide a review of the implementation of DOT&E 
recommendations made to the Missile Defense Agency (MDA).
    Fourth, I will discuss the factors that will limit my ability to 
provide a thorough Block 6 assessment as required by the National 
Defense Authorization Act for Fiscal Year 2006.

                           FIRST: THE RESULTS

    MDA had a good year of testing in 2006.
    For the first time in the Ground-based Midcourse Defense program, 
MDA successfully intercepted a ``simple'' threat-representative target 
with an operational booster carrying an operational kill vehicle. Also, 
for the first time, MDA used data from an operational radar to generate 
the weapon task plan sent to the interceptor by the fire control 
system.
    Aegis Ballistic Missile Defense was two for two in intercepts of 
medium-range separating targets. Using Aegis cruisers, operational 
connectivity, and simulated targets, MDA demonstrated simultaneous 
ballistic missile defense and ship self-defense capabilities in 
preparation for a live flight test in 2007.
    From November 2005 through January 2007, the Terminal High Altitude 
Area Defense was four for four on successful flights of the production 
interceptor. Two of these test flights involved intercept of targets, 
and both of those intercept flight tests were successful hits.
    MDA's ground test program was active, robust, and disciplined, 
demonstrating BMDS capability and interoperability.

                         SECOND: MY ASSESSMENT

    At the 2005 hearing, DOT&E reported that the integrated ground test 
results indicated the test bed had the potential to defend against a 
limited attack, under certain conditions. However, difficulties in the 
flight test program delayed confirmation of that capability.
    During the 2006 hearing, DOT&E reported that the results of the 
ground tests demonstrated that integration, interoperability, tactics, 
doctrine, and procedures, were adequate to increase confidence in these 
aspects of the system. The MDA testing program during 2005 was adequate 
and appropriate to the developmental maturity of the BMDS.
    Today, I can state that the BMDS has demonstrated a limited 
capability against a simple foreign threat. Coupled with the success of 
other element-level testing and MDA's integrated ground tests, the BMDS 
is definitely maturing.
    My assessment is bolstered by the fact that MDA is increasing the 
operational realism of each successive test.

                       THIRD: THE RECOMMENDATIONS

    Mr. Chairman, in your invitation to address the committee, you 
asked me to provide an assessment of MDA's implementation of DOT&E 
recommendations made to the agency. I will do that now.
    There were 26 recommendations in the fiscal year 2005 annual 
report. Only 4 recommendations are still open, and MDA is acting on 
each of them. Two involve ongoing data collection, one involves the 
future test schedule, and one deals with the test planning process.
    There are 15 new recommendations in the fiscal year 2006 annual 
report. Many of these new recommendations involve demonstrations of 
specific capabilities during actual intercept tests. MDA is actively 
considering these recommendations, and has already added several to its 
test schedule.
    I only advise MDA on its developmental test program. I am satisfied 
with MDA's response to the recommendations in our annual reports. I am 
pleased that General Obering and his staff recognize the value of our 
suggestions and recommendations. A more capable BMDS is our mutual 
goal.

                         FOURTH: THE CHALLENGES

    Despite these successes, BMDS is still maturing as a system which 
makes it difficult for me to assess Block 06 capability as required by 
the National Defense Authorization Act for Fiscal Year 2006.
    First, to be confident in my assessment of effectiveness I need 
validated models and simulations for the BMDS. They don't exist today 
because MDA doesn't have enough flight test data to anchor them. MDA, 
the multi-service BMDS Operational Test Agency team, and DOT&E 
personnel are working together to solve this problem. However, there 
may be insufficient time to fix this problem before we finalize the 
Block 06 report.
    While these models and simulations will be essential to proving the 
operational capability of BMDS, we cannot use models and simulations as 
substitutes for live testing. Both General Obering and I agree on this 
important issue. MDA's testing must be sufficient to have high 
confidence that the models and simulations are valid representations of 
the actual performance and capability of the BMDS.
    Second, I will have difficulty assessing suitability. BMDS has not 
operated long enough to gather statistically significant data on its 
reliability, availability, and maintainability, although the tests to 
date are very encouraging. MDA and the warfighters are collecting the 
data, but the amount may be insufficient to reach any confident 
conclusions about the suitability of BMDS.
    In conclusion, MDA experienced a good year with its ground and 
flight test programs. Individual element successes indicate their 
capabilities. Integrated ground testing of the BMDS is demonstrating 
that the warfighters understand and can operate the system confidently 
and effectively. There is still a long way to go, but MDA's disciplined 
and principled approach to flight and ground tests is starting to pay 
real dividends.
    This concludes my remarks and I welcome your questions.

    Senator Bill Nelson. Mr. Francis?

 STATEMENT OF PAUL FRANCIS, DIRECTOR, ACQUISITION AND SOURCING 
   MANAGEMENT, UNITED STATES GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Francis. Thank you, Mr. Chairman, good afternoon.
    Good afternoon, Mr. Sessions, and Mr. Inhofe.
    I'd like to start out today by saying that what I bring to 
the discussion is not superior technical knowledge of missile 
defense, but rather a broad knowledge base that includes many 
weapons systems, to include missile defense. I also look at 
large systems like the Army's Future Combat Systems, and Navy 
shipbuilding, and I have a fair amount of history with 
acquisition policy and best practices.
    I want to recognize at the outset the accomplishments of 
the missile defense program, and the dedication and hard work 
that General Obering and his staff have put in to deliver this 
system.
    I'm going to focus on the rather un-glamorous topic of 
value for money. By statute, we're required to prepare annual 
assessments of MDA's progress in the areas of cost, schedule 
and performance. Our March 2007 report is our fourth such 
assessment.
    Yet, each year, while we can report on what MDA 
accomplished and what it costs, we can't reconcile this with 
the budget that you approved. I can tell you that costs have 
gone up for Blocks 2004 and 2006, and that the scope of work 
has been reduced for each. However, I can't tell you the cost 
of the work that was deferred, or to what extent you may have 
to provide funds again for something that has already been 
funded.
    Here's why--MDA reduces a block's scope when work is 
deferred to cover cost increases. When work is deferred from 
one block, the cost of that work moves to the next block. 
However, each block is estimated anew, so that the baseline is 
reset to zero, and prior work is grandfathered into the new 
block. When work travels from one block to another, the 
connection between the actual work done and the amount of work 
used to justify budget requests is weakened.
    Normally, individual programs, like the elements, would 
capture the cost consequences of deferred work. However, in 
MDA, the elements do not have total cost estimates. Thus, they 
do not reflect the cost consequences of deferrals, because 
totals are not calculated. Total costs also enable one to 
calculate unit costs. These calculations are not possible on 
the MDA elements, nor can one readily track the actual cost of 
an item, like a missile, and compare it with the estimated 
budget costs for that item.
    The reason for this is that MDA has the flexibility to 
change scope and move funding around to provide what it 
believes is the most capability. The advantages of management 
systems, is that you can make decisions that cross program 
lines, giving you more options and more agility to make 
tradeoffs. MDA has this, and more. The director is vested with 
the collective responsibilities of the program manager, the 
service acquisition executive, and the milestone decision 
authority.
    MDA has the latitude to change scope and goals after funds 
have been appropriated, without having to seek DOD or 
congressional approval. Because missile defense has not 
formally entered the system development and demonstration phase 
of acquisition, it is not subject to statutes like Nunn-
McCurdy, that govern baselines, cost reporting and independent 
cost estimates.
    Also, MDA funds its entire budget with research and 
development (R&D) monies. MDA can thus move money with 
comparative ease between activities, such as technology, system 
development, production and support. MDA can also fund the 
production of operational assets incrementally, that is, to 
spread their costs over several years, unlike the full funding 
of assets that Congress requires of other programs.
    These flexibilities were consciously given to MDA, and have 
helped facilitate tradeoffs and to field the capability 
quickly. We do not question the need for, or the efficacy of, 
these decisions. However, the consequence is that it is hard to 
reconcile value with money. This is important for a couple of 
reasons.
    First, missile defense is the largest weapon system in the 
budget. The program has funded between $8 billion and $10 
billion each year, and for the foreseeable future, we're going 
to fund at this level.
    Second, each of the military Services is also planning 
large investments over the next 5 to 10 years, and these are 
going to increase the competition for funds. These include the 
Air Force purchases of F-22 and Joint Strike Fighter, the 
Navy's plan to double its shipbuilding budget over the next few 
years, and the Army's looking for additional funds for its 
Future Combat Systems (FCS). We have to know what kind of 
return we're getting on these investments, because overruns or 
scope reductions represent opportunity costs for other 
activities that could be undertaken by DOD.
    We've made several recommendations to improve the 
accountability and transparency of missile defense. We believe 
changes need to be made to the block construct, and that the 
individual elements should comply with the statutes that ensure 
accountability of other programs. We also believe MDA should 
use procurement funds when it's buying operational assets.
    MDA is concerned that an over-emphasis on elements will 
weaken the integration of the missile defense system of 
systems. We believe changes can be made in such a way that 
preserve the director's ability to make decisions across 
program lines, without creating unreasonable delays in 
decisionmaking.
    Mr. Chairman, this concludes my statement, I'll be happy to 
answer questions.
    [The prepared statement of Mr. Francis follows:]

                   Prepared Statement by Paul Francis

    Mr. Chairman and members of the subcommittee: I am pleased to be 
here today to discuss the Missile Defense Agency's (MDA) strategy for 
acquiring a Ballistic Missile Defense System (BMDS) and its progress in 
developing and fielding Block 2006--the second iteration of BMDS.
    MDA's mission is to develop and field an integrated, layered BMDS 
capable of defending the United States, its deployed forces, allies, 
and friends against enemy ballistic missiles launched from all ranges 
and during all phases of the missiles' flight. To carry out its 
mission, MDA is fielding missile defense capabilities in 2-year 
increments known as blocks. The first block--Block 2004--fielded a 
limited initial capability that included early versions of Ground-Based 
Midcourse Defense (GMD); Aegis Ballistic Missile Defense (BMD); Patriot 
Advanced Capability-3 (PAC-3); and Command, Control, Battle Management, 
and Communications (C2BMC). Each of these components is an element of 
the integrated BMDS. During calendar years 2006 and 2007, MDA is 
focusing Block 2006 to enhance and field four BMDS elements--GMD, Aegis 
BMD, Sensors, and C2BMC. Block 2006 is not only expected to field 
additional assets, but it also continues the evolution of Block 2004 by 
providing improved GMD interceptors, enhanced Aegis BMD missiles, 
upgraded Aegis BMD ships, a Forward-Based X-Band Transportable radar, 
and enhancements to the C2BMC software.
    The National Defense Authorization Acts for Fiscal Years 2002 and 
2005 mandate that we prepare annual assessments of MDA's ongoing cost, 
schedule, testing, and performance progress. We issued our most recent 
report on March 15, 2007.\1\ My statement today will focus on the 
issues covered in that report, specifically:
---------------------------------------------------------------------------
    \1\ GAO, Defense Acquisitions: Missile Defense Acquisition Strategy 
Generates Results but Delivers Less at a Higher Cost, GAO-07-387 
(Washington, DC: Mar. 15, 2007).

        <bullet> MDA's progress toward developing the Block 2006 
        configuration of the BMDS,
        <bullet> the flexibility granted to MDA and its effect on 
        oversight and accountability, and
        <bullet> the status of MDA's efforts to improve its quality 
        processes.

                                SUMMARY

    MDA continues to make progress on missile defense, but costs have 
grown and less work is being completed than planned. The fielding of 
additional assets and the first end-to-end test of GMD were notable 
accomplishments in fiscal year 2006, as was being able to put BMDS on 
alert status. Yet, MDA will not meet its original Block 2006 cost, 
fielding, or performance goals. MDA will field fewer assets than 
planned, which will cause a commensurate decrease in performance. 
Although scope has been reduced, costs are expected to increase by 
about $1 billion. There is no baseline against which to measure cost. 
For several reasons, we cannot be precise about the actual cost of 
Block 2006. MDA defers work from block to block and counts the cost of 
deferred work as a cost of the block in which the work is performed 
even though that work benefits the original block. For example, work 
deferred from Block 2004 is counted as a cost of Block 2006. Element 
program offices report costs inconsistently, with most underreporting 
costs. The cost of Block 2006 may change further because MDA may defer 
other work from Block 2006 until Block 2008 to cover $478 million in 
fiscal year 2006 budget overruns experienced by element prime 
contractors. We could not assess whether MDA is likely to achieve its 
revised performance goal because too few tests have been completed to 
have confidence in the models and simulations used to predict 
performance. Overall, the block approach has had advantages for 
fielding capabilities incrementally, but it has not proven to be a good 
construct for reconciling actual cost and performance with the 
justifications that MDA submits to support its budget request.
    Because the BMDS program has not formally entered system 
development and demonstration, application of laws that are designed to 
facilitate oversight and accountability of Department of Defense (DOD) 
acquisition programs has effectively been deferred. This gives MDA 
unique latitude to manage the BMDS. Specifically, the BMDS cost, 
schedule, and performance baseline does not have to be approved by 
anyone outside MDA. MDA is not yet required to obtain independent 
assessments of each configuration's cost or test results. Unlike other 
programs, MDA is permitted to use research and development funds to 
incrementally fund all activities, including the purchase and support 
of operational assets. MDA keeps others informed, but it does not need 
their approval. Collectively, this flexibility enables MDA to be more 
agile in its decisionmaking. By the same token, MDA can revise its own 
baseline to field fewer assets than planned, defer work to a future 
block, and increase planned cost. Over time, it becomes difficult to 
reconcile cost and outcomes against original goals and to determine the 
value of the work accomplished. Ultimately, Congress may know that it 
is getting less than expected for its investment, but it will not 
necessarily know the cost of what it did receive or whether it is being 
asked to again appropriate funds for work that had been scheduled in a 
prior block but could not be completed because its funding was diverted 
to pay for other activities. The foregoing does not mean that MDA has 
acted inconsistently with the authorities it has been granted. Rather, 
MDA has the sanctioned flexibility to manage exactly as it has. It 
could be argued that without this flexibility, the initial capability 
fielded last year and put on alert would not have been possible. Yet, 
the question remains as to whether this degree of flexibility should be 
retained for a program that is planning to spend on the order of $10 
billion a year for the foreseeable future.
    MDA auditors report that quality deficiencies are declining and on-
time deliveries are improving as corrective measures are implemented. 
For example, MDA quality audits show that one key supplier has 
decreased open quality issues by 64 percent, reduced test failures by 
43 percent, and increased on-time deliveries by 9 percent. The 
mechanisms being used to improve quality assurance processes include 
the development of a teaming approach to restore reliability in key 
suppliers, conducting regular quality audits, adjusting award fee plans 
to encourage contractors to maintain a good quality assurance program 
and implement industry best practices, and continuing to incorporate 
key quality provisions into the agency's prime contracts.
    In our March 2007 report, we recommended that MDA establish firm 
baselines for those elements considered far enough along to be in 
system development and demonstration, and report against those 
baselines; propose an approach for those same elements that provides 
information consistent with the acquisition laws that govern baselines 
and unit cost reporting, independent cost estimates, and operational 
test and evaluation; include in blocks only those elements that will 
field capabilities during the block period and develop a firm block 
baseline that includes the unit cost of its assets; request and use 
procurement funds, rather than research, development, test, and 
evaluation funds, to acquire fielded assets; and conduct an independent 
evaluation of the Airborne Laser (ABL) and Kinetic Energy Interceptor 
(KEI) elements prior to making a decision on the future of the 
programs.
    DOD partially concurred with the report's first three 
recommendations, but did not agree to use procurement funds to acquire 
fielded assets or to conduct an independent evaluation of the ABL and 
KEI elements. In partially agreeing, DOD recognized the need to provide 
greater program transparency and committed to providing information 
consistent with acquisition laws that govern baselines and unit cost 
reporting. However, DOD objected to the element-centric approach 
recommended, believing that this would detract from managing the BMDS 
as a single, integrated system. DOD also stated that reporting at the 
BMDS-level in accordance with our third recommendation would appear to 
be inconsistent with reporting at the element level. We continue to 
believe that all recommended changes are needed to provide a better 
balance between MDA's flexibility and BMDS program transparency. 
Because DOD awards contracts and requests funding by individual 
elements that compose the BMDS, we believe that the element approach is 
the best way to achieve increased program transparency. However, a 
BMDS-level baseline derived from the capabilities that individual 
elements yield is needed to describe and manage a BMDS-wide capability. 
We also believe that the use of procurement funds contributes to 
program transparency by making clear at the outset the size of the 
investment being requested in fielded assets. Finally, we continue to 
believe that an independent assessment of the ABL and KEI capabilities 
can provide a transparent basis for making decisions on the future of 
the programs, but we did revise the recommendation to specify that the 
assessment should follow key demonstrations in 2009.

                               BACKGROUND

    Missile defense is important because at least 25 countries now 
possess or are acquiring sophisticated missile technology that could be 
used to attack the United States, deployed troops, friends, and allies. 
MDA's mission is to develop and field an integrated, layered BMDS 
capable of defending against enemy ballistic missiles launched from all 
ranges and during all phases of the missiles' flight. DOD has spent and 
continues to spend large sums of money to defend against this threat. 
Since the mid-1980s, about $107 billion has been spent, and over the 
next 5 years, another $49 billion is expected to be invested. While the 
initial set of BMDS assets was fielded during 2004-2005, much of the 
technical and engineering foundation was laid by this prior investment. 
DOD also expects to continue investing in missile defense for many more 
years as the system evolves into one that can engage an enemy ballistic 
missile launched from any range during any phase of the missile's 
flight.
    To enable MDA to field and enhance a missile defense system 
quickly, the Secretary of Defense, in 2002, directed a new acquisition 
strategy. The Secretary's strategy included removing the BMDS program 
from DOD's traditional acquisition process until a mature capability 
was ready to be handed over to a military service for production and 
operation. Therefore, development of the BMDS program is not segmented 
into concept refinement, technology development, and system development 
and demonstration phases, as other major defense acquisition programs 
are. Instead, MDA initiates one development phase that incorporates all 
acquisition activities and that is known simply as research and 
development. MDA also has approval to use research and development 
funds, rather than procurement funds, to acquire assets that could be 
made available for operational use.
    To carry out its mission, MDA is fielding missile defense 
capabilities in 2-year increments known as blocks. The first block--
Block 2004--fielded a limited initial capability that included early 
versions of GMD, Aegis BMD, PAC-3, and C2BMC. This was the capability 
that was put on alert status in 2006. MDA formally began a second BMDS 
block on January 1, 2006, that will continue through December 31, 2007. 
This block is expected to provide protection against attacks from North 
Korea and the Middle East. During the 2-year block timeframe, MDA is 
focusing its program of work on the enhancement and fielding of 
additional quantities of the GMD, Aegis BMD, and C2BMC elements, as 
well as fielding a Forward-Based X-Band radar that is part of the 
Sensors element. When MDA defined the block in March 2005, shortly 
after submitting its fiscal year 2006 budget request to Congress, it 
also included three other elements--ABL, Space Tracking and 
Surveillance System (STSS), and Terminal High Altitude Area Defense 
(THAAD)--that are primarily developmental in nature. According to MDA, 
these elements were included in the block even though they were not 
expected to be operational until future blocks because the elements 
offered some emergency capability during the block timeframe. In March 
2006, MDA removed THAAD from Block 2006. According to MDA, this action 
better aligned resources and fielding plans. The development of two 
other elements--Multiple Kill Vehicle (MKV) and KEI--also continued in 
fiscal year 2006, but these elements were not considered part of Block 
2006 because, according to MDA officials, the elements provide no 
capability--emergency or operational--during the block.
    The bulk of the funding that MDA requests for the BMDS each fiscal 
year is for the development, fielding, and sustainment of BMDS 
elements. For example, in fiscal year 2006, funding for the nine BMDS 
elements collectively accounted for 72 percent of MDA's research and 
development budget. MDA requests funds for each of these elements, with 
the exception of C2BMC and THAAD, under separate budget line items. In 
addition, MDA issues separate contracts for each of the nine elements.
    Prior to beginning each new block, MDA establishes and submits 
block goals to Congress. These goals present the business case for the 
new block. MDA presented its Block 2006 goals to Congress in March 
2005, shortly after submitting its fiscal year 2006 budget. At that 
time, MDA told Congress that the agency expected to field the following 
assets: up to 15 GMD interceptors, an interim upgrade of the Thule 
Early Warning Radar, a Forward-Based X-Band radar, 19 Aegis BMD 
missiles, 1 new Aegis cruiser for the missile defense mission, 4 new 
Aegis destroyers capable of providing long-range surveillance and 
tracking, and 8 Aegis destroyers upgraded for the engagement mission. 
MDA's cost goal for the development of the six elements that compose 
the block, the manufacture of assets being fielded, and logistical 
support for fielded assets was $19.3 billion.\2\ MDA also notified 
Congress of the Block 2006 performance goals established for the BMDS. 
These goals were composed of numerical values for the probability of 
engagement success, the land area from which the BMDS could deny a 
launch, and the land area that the BMDS could defend.\3\ Fiscal year 
testing goals were also established by element program offices, but 
these goals were not formally reported to Congress.
---------------------------------------------------------------------------
    \2\ We have adjusted the cost goal reported to Congress to reflect 
MDA's removal of the THAAD element and its future development cost from 
Block 2006.
    \3\ Specifics of the BMDS performance goals are classified and 
cannot be presented in an open forum.
---------------------------------------------------------------------------
    We examined numerous documents and held discussions with agency 
officials. In determining the elements' progress toward Block 2006 
goals, we looked at the accomplishments of six BMDS elements--ABL, 
Aegis BMD, BMDS Sensors, C2BMC, GMD, and STSS--that compose the Block 
2006 configuration. Our work included examining System Element Reviews, 
test plans and reports, production plans, and Contract Performance 
Reports. We also interviewed officials within each element program 
office and within MDA functional offices. In assessing whether MDA's 
flexibility impacts BMDS oversight and accountability, we examined 
documents such as those defining MDA's changes to Block 2006 goals, 
acquisition laws for major DOD programs, and BMDS policy directives 
issued by the Secretary of Defense. We examined the current status of 
MDA's quality assurance program by visiting various contractor 
facilities and holding discussions with MDA officials, such as 
officials in the Office of Quality, Safety, and Mission Assurance. We 
performed our work from June 2006 through March 2007 in accordance with 
generally accepted government auditing standards

 MDA HAS MADE PROGRESS WITH BLOCK 2006, BUT SCOPE HAS BEEN REDUCED AND 
                           COSTS HAVE GONE UP

    MDA made progress during fiscal year 2006, but it will not achieve 
the goals it set for itself in March 2005. One year after establishing 
its Block 2006 goals, the agency informed Congress that it planned to 
field fewer assets, reduce performance goals, and increase the block's 
cost goal. It is also likely that in addition to fielding fewer assets, 
other Block 2006 work will be deferred to offset growing contractor 
costs. MDA is generally on track to meet its revised quantity goals, 
but the performance of the BMDS cannot yet be fully assessed because 
there have been too few flight tests conducted to anchor the models and 
simulations that predict overall system performance. Several elements 
continue to experience technical problems that pose questions about the 
performance of the fielded system and could delay the enhancement of 
future blocks. In addition, the Block 2006 cost goal cannot be 
reconciled with actual costs because work travels to and from other 
blocks and individual element program offices report costs 
inconsistently.
    During the first year of Block 2006, MDA continued to improve the 
BMDS by enhancing its performance and fielding additional assets. In 
addition, the BMDS elements achieved some notable test results. For 
example, the GMD element completed its first successful intercept 
attempt since 2002. The test was also notable because it was an end-to-
end test of one engagement scenario, the first such test that the 
program has conducted. Also, the Aegis BMD element conducted a 
successful intercept test of its more capable Standard Missile-3 design 
that is being fielded for the first time during Block 2006.
    In March 2006, soon after the formal initiation of Block 2006, MDA 
announced that events such as hardware delays, technical challenges, 
and budget cuts were causing the agency to field fewer assets than 
originally expected. MDA's goal now calls for fielding three fewer GMD 
interceptors; deferring the upgrade of the Thule radar until Block 
2008, when it can be fully upgraded; producing four fewer Aegis BMD 
missiles; upgrading one less Aegis destroyer for the engagement 
mission; and delivering three C2BMC Web browsers rather than the more 
expensive C2BMC suites. With the exception of the GMD interceptors, MDA 
is on track to deliver the revised quantities. The GMD program planned 
to emplace eight interceptors during calendar year 2006, but was only 
able to emplace four. Program officials told us that the contractor has 
increased the number of shifts that it is working and that this change 
will accelerate deliveries. However, to meet its quantity goal, the GMD 
program will have to more than double its interceptor emplacement rate 
in 2007.
    MDA also reduced the performance expected of Block 2006 
commensurate with the reduction in assets. However, insufficient data 
are available to determine whether MDA is on track to meet the new 
goal. Although the GMD test program has achieved some notable results, 
officials in DOD's Office of the Director of Operational Test and 
Evaluation told us that the element has not completed sufficient tests 
to provide a high level of confidence that the BMDS can reliably 
intercept intercontinental ballistic missiles. Further testing is 
needed as well to confirm that GMD can use long-range tracking data 
developed by Aegis BMD to prepare--in real time--a weapon system task 
plan for GMD interceptors.
    Delayed testing and technical problems may also impact the 
performance of the current and future configurations of the BMDS. For 
example, the performance of the Block 2006 configuration of the Aegis 
BMD missile is unproven because design changes in the missile's solid 
attitude and divert system and one burn pattern of the third stage 
rocket motor were not flight-tested before they were cut into the 
production line. The current configuration of the GMD interceptor also 
continues to struggle with an anomaly that has occurred in each of the 
element's flight tests. The anomaly has not yet prevented the program 
from achieving its primary test objectives, but neither its source nor 
a solution has been clearly identified or defined. The reliability of 
some GMD interceptors remains uncertain as well because inadequate 
mission assurance/quality control procedures may have allowed less 
reliable or inappropriate parts to be incorporated into the 
manufacturing process. Program officials plan to introduce new parts 
into the manufacturing process, but not until interceptor 18. MDA also 
plans to retrofit the previous 17 interceptors, but not until fiscal 
year 2009. In addition to the performance problems with elements being 
fielded, the ABL element that is being developed to enhance a future 
BMDS configuration experienced technical problems with its Beam 
Control/Fire Control component. These problems have delayed a lethality 
demonstration that is needed to demonstrate the element's leading-edge 
technologies. ABL is an important element because if it works as 
desired, it will defeat enemy missiles soon after launch, before decoys 
are released to confuse other BMDS elements. MDA plans to decide in 
2009 whether ABL or KEI, whose primary boost phase role is to mitigate 
the risk in the ABL program, will become the BMDS boost phase 
capability.
    While MDA reduced Block 2006 quantity and performance goals, it 
increased the block's cost goal from about $19.3 billion to 
approximately $20.3 billion.\4\ The cost increases were caused by the 
addition of previously unknown operations and sustainment requirements, 
realignment of the GMD program to support a successful return to 
flight, realignment of the Aegis BMD program to address technical 
challenges and invest in upgrades, and preparations for round-the-clock 
operation of the BMDS. Although MDA is expected to operate within its 
revised budget of $20.3 billion, the actual cost of the block cannot be 
reconciled with the cost goal. To stay within its Block 2004 budget, 
MDA shifted some of that block's work to Block 2006 and is counting it 
as a cost of Block 2006, which overstates Block 2006 cost. In addition, 
MDA officials told us that it is likely that some Block 2006 work will 
be deferred until Block 2008 to cover the $478 million fiscal year 2006 
budget overruns experienced by five of the six element prime 
contractors. If MDA reports the cost of deferred work as it has in the 
past, the actual cost of Block 2006 will be complicated further. 
Another factor complicating the reconciliation of Block 2006 cost is 
that the elements report block cost inconsistently. Some elements 
appropriately include costs that the program will incur to reach full 
capability, while others do not.\5\
---------------------------------------------------------------------------
    \4\ Specific details regarding the cost increase can be found in 
GAO-07-387.
    \5\ An element has reached full capability if it has completed all 
system-level testing and has shown that it meets expectations. At this 
state, all doctrine, organization, training, material, leadership, 
personnel, and facilities are in place.
---------------------------------------------------------------------------
   MDA'S FLEXIBILTY MAKES OVERSIGHT AND ACCOUNTABILITY MORE DIFFICULT

    Because the BMDS has not formally entered the system development 
and demonstration phase of the acquisition cycle, it is not yet 
required to apply several important oversight mechanisms contained in 
certain acquisition laws that, among other things, provide transparency 
into program progress and decisions. This has enabled MDA to be agile 
in decisionmaking and has facilitated fielding an initial BMDS 
capability quickly. On the other hand, MDA operates with considerable 
autonomy to change goals and plans, making it difficult to reconcile 
outcomes with original expectations and to determine the actual cost of 
each block and of individual operational assets.
    Over the years, a framework of laws has been created that make 
major defense acquisition programs accountable for their planned 
outcomes and cost, give decisionmakers a means to conduct oversight, 
and ensure some level of independent program review. The application of 
many of these laws is triggered by a program's entry into system 
development and demonstration. To provide accountability, once major 
defense programs cross this threshold, they are required by statute to 
document program goals in an acquisition program baseline that as 
implemented by DOD has been approved by a higher-level DOD official 
prior to the program's initiation. The baseline provides decisionmakers 
with the program's best estimate of the program's total cost for an 
increment of work, average unit costs for assets to be delivered, the 
date that an operational capability will be fielded, and the weapon's 
intended performance parameters. Once approved, major acquisition 
programs are required to measure their program against the baseline, 
which is the program's initial business case, or obtain the approval of 
a higher-level acquisition executive before making significant changes. 
Programs are also required to regularly provide detailed program status 
information to Congress, including information on cost, in Selected 
Acquisition Reports. In addition, Congress has established a cost-
monitoring mechanism that requires programs to report significant 
increases in unit cost measured from the program baseline.\6\
---------------------------------------------------------------------------
    \6\ 10 U.S.C. 2433, known as Nunn-McCurdy.
---------------------------------------------------------------------------
    Other statutes provide for independent program verifications and 
place limits on the use of appropriations. For example, 10 U.S.C. 2434 
prohibits the Secretary of Defense from approving system development 
and demonstration unless an independent estimate of the program's life-
cycle cost has been conducted by the Secretary. In addition, 10 U.S.C. 
2399 requires completion of initial operational test and evaluation 
before a program can begin full-rate production. These statutes ensure 
that someone external to the program examines the likelihood that the 
program can be executed as planned and will yield a system that is 
effective and suitable for combat. The use of an appropriation is also 
controlled so that it will not be used for a purpose other than the one 
for which it was made, except as otherwise provided by law. Research 
and development appropriations are typically specified by Congress to 
be used to pay the expenses of basic and applied scientific research, 
development, test, and evaluation. On the other hand, procurement 
appropriations are, in general, to be used for production and 
manufacturing. In the 1950s, Congress established a policy that items 
being purchased with procurement funds be fully funded in the year that 
the item is procured. This is meant to prevent a program from 
incrementally funding the purchase of operational systems. Full funding 
ensures that the total procurement costs of weapons and equipment are 
known to Congress upfront and that one Congress does not put the burden 
on future Congresses of deciding whether they should appropriate 
additional funds or expose weapons under construction to uneconomic 
start-up and stop costs.
    The flexibility to defer application of specific acquisition laws 
has benefits. MDA can make decisions faster than other major 
acquisition programs because it does not have to wait for higher-level 
approvals or independent reviews. MDA's ability to quickly field a 
missile defense capability is also improved because assets can be 
fielded before all testing is complete. MDA considers the assets it has 
fielded to be developmental assets and not the result of the production 
phase of the acquisition cycle. Additionally, MDA enjoys greater 
flexibility than other programs in the use of its funds. Because MDA 
uses research and development funds to manufacture assets, it is not 
required to fully fund those assets in the year of their purchase. 
Therefore, as long as its annual budget remains fairly level, MDA can 
request funds to address other needs.
    On the other hand, the flexibilities granted MDA make it more 
difficult to conduct program oversight or to hold MDA accountable for 
the large investment being made in the BMDS program. Block goals can be 
changed by MDA, softening the baseline used to assess progress toward 
expected outcomes. Similarly, because MDA can redefine the work to be 
completed during a block, the actual cost of a block cannot be compared 
with the original cost estimate. MDA considers the cost of deferred 
work, which may be the delayed delivery of assets or other work 
activities, as a cost of the block in which the work is performed even 
though the work benefits or was planned for a prior block. Further, MDA 
does not track the cost of the deferred work and, therefore, cannot 
make adjustments that would match the cost with the block that is 
benefited. For example, during Block 2004, MDA deferred some planned 
development, deployment, characterization, and verification activities 
until Block 2006 so that it could cover contractor budget overruns. The 
costs of the activities are now considered part of the cost of Block 
2006. Also, although Congress provided funding for these activities 
during Block 2004, MDA used these funds for the overruns and will need 
additional funds during Block 2006 to cover their cost. Planned and 
actual unit costs of fielded assets are equally difficult to reconcile. 
Because MDA is not required to develop an approved acquisition program 
baseline, it is not required to report the expected average unit cost 
of assets. Also, because MDA is not required to report significant 
increases in unit cost,\7\ it is not easy to determine whether an 
asset's actual cost has increased significantly from its expected cost.
---------------------------------------------------------------------------
    \7\ Because the BMDS or its major elements have not been designated 
by MDA as being in system development and demonstration, no acquisition 
program baseline is required under 10 U.S.C. Sec. 2435. Thus there is 
no basis for determining unit cost under 10 U.S.C. Sec. 2433 (also 
known as Nunn-McCurdy), which requires calculation of unit cost from 
the baseline. Further, for the same reason, only limited Selected 
Acquisition Reports to Congress on program status are generated (10 
U.S.C. 2432(h)) that do not include unit costs.
---------------------------------------------------------------------------
    Finally, using research and development funds to purchase fielded 
assets further reduces cost transparency because these dollars are not 
covered by the full-funding policy as are procurement funds. Therefore, 
when a program for a 2-year block is first presented in the budget, 
Congress is not necessarily fully aware of the dimensions and cost of 
that block. For example, although a block may call for the delivery of 
a specific number of interceptors, the full cost of those interceptors 
is requested over 3 to 5 years. Calculating unit costs from budget 
documents is difficult because the cost of components that will become 
fielded assets may be spread across 3 to 5 budget years--a consequence 
of incremental funding.

            MDA AUDITS SHOW IMPROVEMENT IN QUALITY PROCESSES

    During Block 2004, poor quality control procedures caused the 
missile defense program to experience test failures and slowed 
production. MDA has initiated a number of actions to correct quality 
control weaknesses, and the agency reports that these actions have been 
largely successful. Although MDA continues to identify quality 
assurance procedures that need strengthening, recent audits by MDA's 
Office of Quality, Safety, and Mission Assurance show such improvements 
as increased on-time deliveries, reduced test failures, and sustained 
improvement in product quality.
    MDA has taken a number of steps to improve quality assurance. These 
include developing a teaming approach to restore the reliability of key 
suppliers, conducting regular quality inspections to quickly identify 
and find resolutions for quality problems, adjusting award fee plans to 
encourage contractors to maintain a good quality assurance program and 
encourage industry best practices, as well as placing MDA-developed 
assurance provisions on prime contracts. For example, as early as 2003, 
MDA made a critical assessment of a key supplier's organization and 
determined that the supplier's manufacturing processes lacked 
discipline, its corrective action procedures were ineffective, its 
technical data package was inadequate, and personnel were not properly 
trained. The supplier responded by hiring a Quality Assurance Director, 
five quality assurance professionals, a training manager, and a 
scheduler. In addition, the supplier installed an electronic problem-
reporting database, formed new boards--such as a failure review board--
established a new configuration management system, and ensured that 
manufacturing activity was consistent with contract requirements. 
During different time periods between March 2004 and August 2006, MDA 
measured the results of the supplier's efforts and found a 64-percent 
decrease in open quality control issues, a 43-percent decline in test 
failures, and a 9-percent increase in on-time deliveries. MDA expanded 
its teaming approach in 2006 to another problem supplier and reports 
that many systemic solutions are already underway.
    During fiscal year 2006, MDA's audits continued to identify both 
quality control weaknesses and quality control procedures that 
contractors are addressing. During 2006, the agency audited six 
contractors and identified 372 deficiencies and observations.\8\ As of 
December 2006, the 6 contractors had collectively closed 157, or 42 
percent, of the 372 audit findings. MDA also reported other signs of 
positive results. For example, in 2006, MDA conducted a follow-on audit 
of Raytheon, the subcontractor for GMD's exoatmospheric kill vehicle. A 
2005 audit of Raytheon had found that the subcontractor was not 
correctly communicating essential kill vehicle requirements to 
suppliers, did not exercise good configuration control, and could not 
build a consistent and reliable product. The 2006 audit was more 
positive, reporting less variability in Raytheon's production 
processes, increasing stability in its statistical process control 
data, fewer test problem reports and product waivers, and sustained 
improvement in product quality.
---------------------------------------------------------------------------
    \8\ Deficiencies are considered more serious and are recognized 
when contractors do not comply with a contractual or internal procedure 
requirement. On the other hand, observations are made when a contractor 
fails to employ an MDA or industry best practice.
---------------------------------------------------------------------------
                ACTIONS RECOMMENDED IN OUR RECENT REPORT

    In our March 15, 2007, report, we made several recommendations to 
DOD to increase transparency in the missile defense program. These 
included:

        <bullet> Develop a firm cost, schedule, and performance 
        baseline for those elements considered far enough along to be 
        in system development and demonstration, and report against 
        that baseline.
        <bullet> Propose an approach for those same elements that 
        provides information consistent with the acquisition laws that 
        govern baselines and unit cost reporting, independent cost 
        estimates, and operational test and evaluation for major DOD 
        programs. Such an approach could provide necessary information 
        while preserving the MDA Director's flexibility to make 
        decisions.
        <bullet> Include in blocks only those elements that will field 
        capabilities during the block period and develop a firm cost, 
        schedule, and performance baseline for that block capability, 
        including the unit cost of its assets.
        <bullet> Request and use procurement funds, rather than 
        research, development, test, and evaluation funds, to acquire 
        fielded assets.

    DOD partially agreed with the first three recommendations and 
recognized the need for greater program transparency. It committed to 
provide information consistent with the acquisition laws that govern 
baselines and unit cost reporting, independent cost estimates, and 
operational test and evaluation. DOD did not agree to use elements as a 
basis for this reporting, expressing its concern that an element-
centric approach to reporting would have a fragmenting effect on the 
development of an integrated system. We respect the need for the MDA 
Director to make decisions across element lines to preserve the 
integrity of the system of systems. We recognize that there are other 
bases rather than elements for reporting purposes. However, we believe 
it is essential that MDA report in the same way that it requests funds. 
Currently MDA requests funds and contracts by element, and at this 
time, that appears to be the most logical way to report. MDA currently 
intends to modify its current block approach. We believe that a 
management construct like a block is needed to provide the vehicle for 
making system-of-system decisions and to provide for system-wide 
testing. However, at this point, the individual assets to be managed in 
a block--including quantities, cost, and delivery schedules--can only 
be derived from the individual elements.
    Mr. Chairman, this concludes my statement. I would be pleased to 
respond to any questions you or members of the subcommittee may have.

    Senator Bill Nelson. Thank you.
    Mr. Green?

  STATEMENT OF BRIAN R. GREEN, DEPUTY ASSISTANT SECRETARY OF 
    DEFENSE FOR STRATEGIC CAPABILITIES, OFFICE OF THE UNDER 
  SECRETARY OF DEFENSE FOR POLICY BEFORE THE SUBCOMMITTEE ON 
            STRATEGIC FORCES, DEPARTMENT OF DEFENSE

    Mr. Green. Chairman Nelson, Ranking Member Sessions, and 
members of the subcommittee, it's a pleasure to appear before 
you today to discuss the policy and strategic rationale 
underpinning the fiscal year 2008 missile defense budget 
request.
    In 2001, President Bush directed us to field an initial 
missile defense capability by 2004, and to improve it over time 
to meet the changing threat, and to take advantage of emerging 
technology. He also directed us to extend the benefits of 
missile defense to our friends and allies.
    I would like to discuss today our progress in meeting this 
direction, and focus on an effort that is key to enabling us to 
meet these goals, the deployment of U.S. missile defenses in 
Europe.
    Missile defense continues to be one of the administration's 
highest priorities, driven by rapidly-evolving missile threats. 
Aggressive and unpredictable adversaries such as Iran and North 
Korea, continue to challenge our notions of deterrence and 
defense. Surprise --strategic, tactical, and technical--is an 
expected feature of the post-Cold War strategic environment. In 
this environment, we can no longer rely solely on offensive 
capabilities to deter our adversaries. We must have other 
options, including missile defenses, that both reinforce 
deterrence, and hedge against its potential failure.
    I'm pleased to report that we've made substantial and rapid 
progress in meeting the President's direction to deploy missile 
defense capabilities. These have been well-described by General 
Obering.
    My colleagues seated with me at the table today who 
represent the developers, the testers and the warfighters, 
deserve the Nation's gratitude, and I would be remiss if I 
didn't thank Congress and this Committee for its support as 
well.
    We're also making progress in missile defense cooperation 
with our allies and our friends. Today, 15 additional 
countries, including 9 NATO nations alone, are engaged in 
missile defense efforts of some kind, whether by hosting key 
facilities or assets on their territory, or actively discussing 
this possibility, or pursuing R&D programs, examining options 
in technical working groups, signing cooperative agreements 
with the U.S., or maintaining capabilities.
    In January of this year, President Bush directed us to 
proceed with negotiations to base U.S. long-range missile 
defenses in Europe. These defenses are intended to counter the 
increasing Middle Eastern missile threat. Our intelligence 
community assesses that Iran would be able to develop an ICBM 
capability before 2015, if it chose to do so, and we must start 
now in order to address this threat in a timely manner.
    The current plans call for basing 10 GBIs in Poland similar 
to those currently deployed in Alaska and California, and a 
midcourse radar in the Czech Republic.
    The deployment of these U.S. missile defense assets in 
Europe will have many benefits. They would be capable of 
intercepting not only ICBMs, but also intermediate-range 
ballistic missiles launched out of the Middle East. The U.S. 
goal is to optimize the defensive coverage of both Europe, and 
the U.S. It would provide a second layer of defense for the 
United States.
    With the protection afforded by these U.S. defensive 
capabilities in Europe, NATO member-states could resist 
attempts by hostile states to intimidate or coerce the alliance 
or its members from taking actions in a coalition. 
Strengthening our European allies and the NATO alliance, in 
turn, enhances U.S. security.
    The defense of Europe against longer-range threats, similar 
to those which the United States is defending itself, will be 
important to keep U.S. and NATO security tightly coupled. Such 
defenses would provide additional decision space for national 
leaders, including the President, for example, by allowing them 
to delay or defer resorting to offensive responses to an 
attack.
    Missile defenses provide another avenue for burdensharing, 
and strengthening relationships with important allies. When 
negotiations are successfully concluded, Poland and the Czech 
Republic will be providing a significant contribution to the 
collective security of the NATO alliance by hosting BMD assets.
    I also want to comment briefly on the benefits derived 
specifically from the basing mode that we've chosen to pursue, 
that is, ground-basing interceptors and silos. Many of our 
missile defense, assets such as Aegis and PAC-3, are mobile or 
transportable. The advantage of mobility is flexibility. We can 
move assets into place as circumstances warrant.
    There's also an advantage to ground-based silos, and that 
advantage is persistence. If we field long-range interceptors 
and silos in Europe, we will have a capability that is always 
there--before and during a crisis. With our allies and 
potential adversaries, we'll know with certainty that a missile 
defense capability is in place. These missile defense assets, 
then, will be able to both assure allies, and to deter and 
dissuade adversaries at all times, once they're fielded.
    While we see many benefits from a deployment in Europe, 
some in Russia have expressed their opposition, contending that 
our limited missile defenses constitute a threat to the 
strategic balance. I would say, first and foremost, that we no 
longer look at Russia as a strategic adversary, and therefore, 
there is no strategic balance to disturb. Furthermore, physics 
and geography prove that ground-based missile defense 
interceptors and a X-band radar for a mid-course tracking and 
discrimination of warheads, located in Central Europe, would 
have no capability against an ICBM launched out of Russia at 
the United States in a one-on-one engagement.
    Finally, 10 interceptors in Europe are simply not a threat 
to Russia, and cannot diminish Russia's deterrent of hundreds 
of missiles, and thousands of warheads. Providing Russia 
transparency and predictability in our missile defense policy, 
plans, and programs is certainly in the interest of the United 
States. We've provided this in the past, and are continuing to 
keep Russia informed about the status of our programs and 
decisions. We will also explore the possibility of additional 
confidence-building measures, and we seek opportunities to 
cooperate in missile defense in the future. President Bush 
recently underscored that point to President Putin.
    I mentioned previously that a European interceptor site 
will provide long-range missile defense coverage to many NATO 
allies. Missile defense has been a topic of discussion and 
debate at NATO for quite some time, and the U.S. plan to begin 
fielding missile defense elements in Europe has served to focus 
and intensify those discussions.
    The Alliance has already taken several important steps 
demonstrating its support for missile defense. With its Active-
Layered Theater Ballistic Missile Defense (ALTBMD) Program, the 
Alliance has decided to develop a capability to defend its 
deployed forces from shorter-range missile attack.
    Recognizing a growing threat to NATO territory, the 
Alliance agreed at the 2002 Prague Summit to initiate the NATO 
Missile Defense Feasibility Study to examine the defense of 
alliance territory and population centers from ballistic 
missile attack. This study was completed and presented to the 
2006 Riga Summit. At Riga, the Alliance endorsed the study's 
conclusion that defense of alliance territory and population 
centers is technically feasible.
    We are continuing to consult extensively with NATO to 
ensure that all of our allies understand the contribution 
missile defense can make to alliance security and solidarity. 
Although the alliance has yet to make the collective decision 
to pursue continental defense, a number of allies have 
demonstrated support for long-range missile defense. Poland and 
the Czech Republic have expressed interest in hosting long-
range missile defense assets, the United Kingdom agreed to an 
upgrade to the Fylingdales radar, and Denmark has agreed to a 
similar upgrade of the early-warning radar at Thule, Greenland.
    In conclusion, we have made great progress in meeting the 
goals the President set for us over 4 years ago, and we 
continue to press forward with the proposed deployment of U.S. 
missile defenses in Europe.
    That concludes my statement. Thank you for your attention. 
I appreciate the opportunity to be here, and I look forward to 
your questions.
    [The prepared statement of Mr. Green follows:]

                  Prepared Statement by Brian R. Green

                              INTRODUCTION

    Chairman Nelson, Ranking Member Sessions, and members of the 
subcommittee, it is a pleasure to appear before you today. I am here to 
discuss missile defense in the context of national defense strategy and 
to review our progress in carrying out the President's ballistic 
missile defense policy.

                       NEW STRATEGIC ENVIRONMENT

    Ballistic missile defense remains a top priority of the 
administration. This priority is driven by needs defined by the new and 
evolving strategic environment, and continues to be validated by recent 
events.
    Our national security focus changed in the early 1990s with the 
demise of the Soviet Union. We realized that we faced a broader range 
of threats from a broader range of aggressive and unpredictable 
adversaries. Threats posed by nations, such as Iran and North Korea, 
and transnational non-state actors, such as al Qaeda, continue to 
challenge our notions of deterrence and defense. Surprise--strategic, 
tactical, and technical--is an expected feature of the security 
landscape. While deterrence remains the cornerstone of our strategy, we 
recognize an increased risk that deterrence may fail. Under such 
circumstances, missile defenses are highly desirable because they both 
reinforce deterrence and hedge against its failure.
    Potential adversaries see ballistic missiles armed with weapons of 
mass destruction (WMD) as low-cost, high impact asymmetric options to 
counter other U.S. military advantages. WMD and ballistic missile 
delivery vehicles have become the weapon of choice for countries 
seeking to coerce their neighbors and limit U.S. freedom of action. LTG 
Michael Maples, Director of the Defense Intelligence Agency, said 
earlier this year that ``after global terrorism, the proliferation of 
weapons of mass destruction remains the most significant threat to our 
homeland, deployed forces, allies and interests.''
    The threat from the increasing numbers and capabilities of 
ballistic missiles is pronounced. This threat is highlighted by 
proliferation of ballistic missiles by countries such as North Korea 
and China, and secretive weapons proliferation networks, such as the 
one run by A.Q. Khan, selling nuclear technology and expertise. Not 
only is the threat from the numbers and capabilities of ballistic 
missiles increasing, but the group of countries possessing ballistic 
missiles includes some of the world's most threatening and least 
responsible regimes, such as North Korea and Iran.
    As LTG Maples recently testified before the Senate Select Committee 
on Intelligence in unclassified session, ``North Korea has an ambitious 
ballistic missile development program and has exported missiles and 
missile technology to other countries, including Iran and Pakistan. 
North Korea continues to develop the Taepo Dong 2, which could reach 
parts of the United States and is capable of carrying a nuclear 
payload. On 4 July 2006, North Korea conducted seven widely-publicized 
missile launches. The Taepo Dong 2 space launch vehicle / 
intercontinental ballistic missile was flight-tested for the first time 
and failed shortly after launch. Despite the failure of the Taepo Dong 
2, North Korea successfully tested six theater ballistic missiles, 
demonstrating the capability to target U.S. forces and our allies in 
South Korea and Japan. North Korea is also developing a new 
intermediate-range ballistic missile and a new short-range, solid-
propellant ballistic missile. Export of North Korea ballistic missiles 
will continue to be a concern.''
    Turning to the Middle East, Iran represents a dangerous nexus, 
combining a vigorous ballistic missile program, a nuclear program that 
we assess also reflects a desire to develop nuclear weapons, and a 
history of support for international terrorism. Terrorism has been part 
of Tehran's arsenal for decades. In fact, before the September 11 
attacks, more Americans had been killed by Iranian-backed terrorists 
like Hezbollah than by any other terrorist group. Iran has made 
ballistic missiles an important part of its defense strategy. As former 
Director of National Intelligence, John Negroponte, testified last 
year, ``The danger that it will acquire a nuclear weapon and the 
ability to integrate it with the ballistic missiles Iran already 
possesses is a reason for immediate concern. Iran already has among the 
largest inventory of ballistic missiles in the Middle East, and Tehran 
views its ballistic missiles as an integral part of its strategy to 
deter--and if necessary retaliate against--forces in the region, 
including U.S. forces.''
    In this environment, recent statements by Iranian President Ahmadi-
Nejad threatening the United States and its friends in the region, most 
notably Israel, are of particular concern. In October 2005, Ahmadi-
Nejad declared that ``Israel should be wiped off the map. God willing, 
with the force of God behind it, we shall soon experience a world 
without the United States and Zionism.'' He also said that ``anybody 
who recognizes Israel will burn in the fire of the Islamic nation's 
fury.''
    Iran also continues to develop ballistic missiles of increasing 
range and sophistication that may one day be able to deliver a nuclear 
weapon. Lt. Gen. Maples recently testified before the Senate Select 
Committee on Intelligence that Iran continues its efforts to develop 
and acquire ballistic missiles capable of striking Israel and Europe. 
Iran's ballistic missiles already cast a shadow over U.S. friends and 
allies, and our deployed forces, in the Middle East. Moreover, the 
Intelligence Community assesses that Iran would be able to develop an 
ICBM before 2015 if it chose to do so. The addition of nuclear warheads 
and an ICBM that could reach the U.S. would further extend Iran's 
ability to coerce others and threaten the U.S.
    Iran has also claimed it is pursuing a space-launch capability. 
Although space launch vehicles can be used for peaceful purposes, if 
Iran were to achieve such a capability, it would also be demonstrating 
the key technologies needed to deliver payloads at intercontinental 
ranges.

            OVERALL DEFENSE STRATEGY AND U.S. DEFENSE GOALS

    Ballistic missile defenses remain an important part of our overall 
defense strategy. Last year, the Department of Defense released the 
2006 Quadrennial Defense Review (QDR). The QDR recognized U.S. 
superiority in traditional warfare, but stressed that improvements are 
needed in non-traditional warfare. The QDR identified a number of 
priorities to operationalize the National Defense Strategy, including: 
1) defending the homeland in depth; 2) shaping the choices of countries 
at strategic crossroads; and 3) preventing hostile states and non-state 
actors from acquiring or using weapons of mass destruction. Ballistic 
missile defenses can make important contributions to each of these 
priorities. They can be part of a layered defense against the use of 
ballistic missiles to attack the population and territory of the U.S., 
its deployed forces, or its friends and allies. They can also help 
dissuade countries from choosing to compete militarily with the U.S by 
increasing the cost of competition and decreasing the certainty that a 
ballistic missile attack will succeed.
    The 2001 QDR outlined four broad defense policy goals: to assure, 
dissuade, deter, and if necessary, defend and defeat. Missile defenses 
support these goals in the following ways:

          Assure allies and friends that threats by nations armed with 
        ballistic missiles will not be able to deter the U.S. from 
        fulfilling its security commitments, coerce our allies, or 
        undermine a coalition;
          Dissuade potential adversaries from investing in or 
        developing ballistic missiles by reducing the value of such 
        weapons;
          Deter ballistic missile attacks and threats by reducing an 
        adversary's confidence in the success of an attack; and
          Defeat missile attacks against the United States, its 
        deployed forces, and its friends and allies in the event that 
        deterrence fails.

                         PRESIDENTIAL DIRECTION

    Upon taking office, President Bush embarked on a bold new course 
for strategic deterrence and defense. The President issued NSPD-23, 
National Policy on Ballistic Missile Defense. The President directed us 
to field an initial missile defense capability in 2004 consisting of 
ground- and sea-based interceptors, additional Patriot units, and 
sensors on land, at sea, and in space. The initial capability was only 
a starting point. Using an evolutionary acquisition approach, we are 
improving these capabilities over time to meet the changing threat and 
to take advantage of emerging technology. We must continue a robust 
research and development effort, in addition to fielding adequate 
quantities of interceptors.
    As technology changes over time, so will the composition of our 
missile defense force. There will be no fixed, final force structure. 
We will change the number and locations of our missile defenses to 
counter emerging threats and to take advantage of geographic 
opportunities. Some threats, like Libya, may recede, while others, like 
Iran, will grow. Our missile defenses must have global reach to counter 
threats wherever they may appear.
    The U.S. is making steady progress in meeting these goals. We now 
have ground-based interceptors deployed in Alaska and California; sea-
based interceptors available for deployment aboard Aegis Cruisers and 
Destroyers; more Patriot units; sensors on land, at sea and in space; 
an evolving command and control system to tie it all together; and 
trained warfighters on station.

               INTERNATIONAL MISSILE DEFENSE COOPERATION

    International cooperation is one of the cornerstones of our 
national policy on ballistic missile defense. In 2002, the President 
directed that missile defense cooperation will be a feature of U.S. 
relations with close, longstanding allies, and an important means to 
build new relationships with new friends. The U.S. has made progress in 
carrying out this direction, with cooperative efforts underway with 
many countries. Today, 15 countries (including 9 in NATO alone) are 
engaged in missile defense efforts of some kind, whether by hosting key 
facilities or assets on their territory or actively discussing this 
possibility, pursuing R&D programs, signing cooperative agreements with 
the U.S., or maintaining capabilities. In addition to the U.S., the 
list includes Australia, the Czech Republic, Denmark, France, Germany, 
Italy, Israel, India, Japan, the Netherlands, Poland, Spain, Taiwan, 
Ukraine, and the U.K. I would point out that Russia clearly believes in 
the value of missile defense as it continues to maintain a missile 
defense system around its major population center, Moscow, and has 
developed defenses against shorter-range missiles.
    Let me briefly describe some of these allied efforts.

        <bullet> North Korean ballistic missiles pose a direct and 
        immediate threat to Japan. This threat encouraged Japan to seek 
        closer cooperation with the U.S. The Japanese are now one of 
        our pre-eminent missile defense partners.

                <bullet> Japan is deploying a multi-layered system 
                comprised of upgraded Aegis ships with Standard 
                Missile-3 (SM-3) interceptors, Patriot Advanced 
                Capability-3 (PAC-3) systems, new and refurbished 
                warning radars and an upgraded command and control 
                system.
                <bullet> Japan and the U.S. are co-developing the SM-3 
                Block IIA, the next-generation sea-based interceptor. 
                This larger, more capable interceptor will enable Aegis 
                ships to intercept longer-range missiles.
                <bullet> Japan agreed to host a U.S. forward-based X-
                band missile defense radar.
                <bullet> Four U.S. Aegis engagement ships are forward-
                deployed to Japan, along with several more missile 
                defense surveillance and tracking ships.
                <bullet> We deployed a U.S. PAC-3 battalion to Japan 
                last year.o We are also deepening coordination of our 
                missile defense operations and to share missile defense 
                information.

        <bullet> We are cooperating with Israel on the Arrow System 
        Improvement Program. The Arrow System is now deployed and 
        protecting Israeli citizens and territory.
        <bullet> Germany, Italy, and the U.S. are co-developing the 
        Medium Extended Air Defense System, a replacement for Patriot 
        systems in the next decade.
        <bullet> We have upgraded and are testing the early warning 
        radar at Fylingdales, U.K. this year; a second early warning 
        radar in Thule, Greenland, is scheduled to be upgraded and 
        tested in a few years.
        <bullet> NATO is developing the Active Layered Theater 
        Ballistic Missile Defense system, a command and control 
        backbone for member countries' theater missile defenses. In 
        addition, the NATO Feasibility Study released in 2005 confirmed 
        that missile defenses to protect European citizens are, indeed, 
        feasible.
        <bullet> We have concluded agreements with the U.K., Japan, 
        Australia, Israel, Italy, and Denmark to facilitate government-
        to-government and industry-to-industry missile defense 
        cooperation. We are also holding discussions or working on 
        technology efforts with Germany, India, the Netherlands, Spain, 
        Ukraine, and France.

    In his 2002 direction, the President specifically called for 
cooperation to build new relationships with other nations, like Russia. 
While that prospect at times seems remote, there are positive 
developments to report. We are continuing negotiations on a Defense 
Technical Cooperation Agreement with Russia to facilitate both 
government-to-government as well as industry-to-industry missile 
defense cooperation, and we continue to seek practical areas of 
cooperation with Russia on a bilateral basis as well as in the NATO-
Russia context.

                    U.S. MISSILE DEFENSES IN EUROPE

    In January of this year, President Bush directed us to proceed with 
negotiations to base U.S. long-range missile defenses in Europe. These 
defenses are intended to counter the increasing threat from Iranian 
missiles. Iranian press claims Tehran currently has a 2,000 km range 
ballistic missile capability, which could reach parts of Eastern 
Europe. While our intelligence community assesses that Iran would be 
able to develop an ICBM before 2015 if it chose to do so, we must start 
now in order to address this threat in a timely manner.
    Current plans call for basing in Poland ten Ground-Based 
Interceptors similar to those currently deployed in Alaska and 
California, and a midcourse radar in the Czech Republic. An existing 
midcourse radar at the Reagan Test Range will be refurbished and moved 
to the Czech Republic. Negotiations are ongoing and, pending a 
successful outcome, work is planned to begin at the sites in 2008. 
These missile defense assets would be integrated with existing radars 
in Fylingdales, U.K., and Thule, Greenland, as well as the U.S. Ground-
based Midcourse Defense system.
    The deployment of U.S. missile defense assets in Europe has many 
benefits:

        <bullet> They would be capable of intercepting not only 
        intercontinental ballistic missiles but also intermediate-range 
        ballistic missiles launched out of the Middle East. The U.S. 
        goal is to optimize the defensive coverage of both Europe and 
        the U.S.
        <bullet> They would provide a second ``layer'' of defense for 
        the U.S.
        <bullet> With the protection afforded by these U.S. defensive 
        capabilities in Europe, NATO member states could resist 
        attempts by hostile states to intimidate or coerce the Alliance 
        or its members from taking actions in a coalition. 
        Strengthening our European allies and the NATO Alliance in turn 
        enhances U.S. security.
        <bullet> They would provide additional decision space for 
        national leaders, including the President, for example, by 
        allowing them to delay or defer resort to offensive responses 
        to an attack.
        <bullet> Missile defenses provide another avenue for burden 
        sharing and strengthening strategic relationships with 
        important allies. When negotiations are successfully concluded, 
        Poland and the Czech Republic would be providing a significant 
        contribution to the collective security of the NATO Alliance by 
        hosting BMD assets.

    I also want to comment briefly on benefits derived specifically 
from the basing mode we have chosen to pursue, that is ground basing 
interceptors in silos. Many of our missile defense systems, such as 
Aegis and PAC-3, are mobile or transportable. The advantage of mobility 
is flexibility--we can move assets into place as circumstances warrant. 
But there's also an advantage to ground-based silos. That advantage is 
persistence. If we field long-range interceptors in silos in Europe, we 
will have a capability that is always there--before and during a 
crisis. Both our allies and potential adversaries will know for certain 
that a basic missile defense capability is in place. These missile 
defense assets, then, will be able both to assure allies, and to deter 
and dissuade adversaries at all times once they are fielded.

                         CRITICISM FROM RUSSIA

    While we see many benefits from a deployment in Europe, 
unfortunately some in Russia have expressed their opposition, 
contending that our limited missile defenses constitute a threat to the 
strategic balance. I would say first and foremost, that we do not 
regard Russia as a strategic adversary; hence, there is no strategic 
balance to disturb. These systems are not directed against Russia. 
Furthermore, physics and geography prove that ground-based missile 
defense interceptors and an X-band radar for midcourse tracking and 
discrimination of warheads located in central Europe would have no 
capability against an ICBM launched out of Russia at the United States 
in a one-on-one engagement. Finally, ten interceptors are simply not a 
threat to Russia and cannot diminish Russia's deterrent of hundreds of 
missiles and thousands of warheads.
    Some in Russia also claim that we have not consulted with them and 
answered all of their questions. Yet, we have been transparent with 
Russia regarding our plans for and capabilities of the proposed U.S. 
European missile defense deployment. Senior State, Defense, and MDA 
officials have frequently briefed senior Russian counterparts, as well 
as their experts, in Washington, DC, Moscow, Brussels, and elsewhere. 
Russian officials understand the European-based assets would have no 
capability against Russian ICBMs launched at the United States, and 
that these assets would be optimized for engaging ballistic missile 
threats launched out of the Middle East.
    Providing Russia transparency and predictability in our missile 
defense policy, plans, and programs is certainly in the interest of the 
United States. We will continue to keep Russia informed about the 
status of our programs and decisions, explore the possibility of 
additional confidence-building measures, and seek opportunities to 
cooperate on missile defense in the future.

                        CONSULTATIONS WITH NATO

    I mentioned previously that a European interceptor site will 
provide long-range missile defense coverage to many NATO Allies. 
Missile defense has been a topic of discussion and debate at NATO for 
quite some time, and the U.S. plan to begin fielding missile defense 
elements in Europe has served to focus and intensify these discussions.
    The Alliance has already taken several important steps 
demonstrating its support for missile defense. With its Active Layered 
Theater Ballistic Missile Defense Program, the Alliance has decided to 
develop a capability to defend its deployed forces from shorter-range 
missile attack. The program office, established in 2005, is headed by a 
Frenchman, and his deputy is an American. Recognizing that there is 
also a growing threat to NATO territory, the Alliance agreed at the 
2002 Prague Summit to initiate a NATO Missile Defense Feasibility Study 
to examine the defense of Alliance territory and population centers 
from ballistic missile attack. This study was completed and presented 
to the 2006 Riga Summit. At Riga, the Alliance endorsed the Study's 
conclusion that defense of Alliance territory and population centers is 
technically feasible.
    Although the Alliance has yet to make the collective decision to 
pursue a continental defense, a number of individual Allies have 
demonstrated support for long-range missile defense. For example, 
Poland and the Czech Republic have expressed interest in hosting long-
range missile defense assets, the United Kingdom has agreed to an 
upgrade of the Fylingdales Early Warning Radar, and Denmark has agreed 
to a similar upgrade of the Early Warning Radar at Thule, Greenland.

                               CONCLUSION

    In conclusion, we have made great progress in meeting the goals the 
President set over 4 years ago. Missile defenses are an essential 
element of our overall national security strategy to dissuade and deter 
nations from acquiring or using ballistic missiles and to protect our 
citizens from the threat of terrorist attack. As the threat of 
ballistic missiles and WMDs increases, more allies and friends are 
choosing to work with us on missile defense projects. Given these 
results, we will continue the current policies. Subject to your 
questions, this concludes my statement.

    Senator Bill Nelson. As a courtesy to our colleagues, I 
will defer my questions.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman, and Senator 
Sessions for allowing me to jump in a little bit earlier here.
    In your opening statement, Senator Sessions, you talked 
about something that I was concerned about and I would kind of 
like to pursue that a little bit.
    If you're looking at Iran, and some of the things, what 
they were willing to do with their hostages just a week ago, 
what would they do if they had the capability of some kind of a 
missile? I can't help but think that they've demonstrated 
pretty clearly that they would be willing to, if they can hold 
one country hostage with hostages, then what could they do if 
they had that capability, to an entire country? Whether it's 
Israel or someone else.
    Now, our GMD system, you talked about, I think it was you, 
Mr. Green--no, it was you, Dr. McQueary--talked about it's 
coming along, we are doing testing right now, but didn't we 
have 15 out of the last 16 tests, weren't they successful on 
the use of that GMD system?
    General Obering. Sir, I could probably answer that better. 
The 15 of 16 flight tests included more than just the ground-
based system. But we clearly had a good test with the GMD 
system last September. We've now flown the booster three times, 
and we had the successful intercept in September. Prior to that 
in 2000-2001, we had four or five successful intercepts. So, 
when we get this kill vehicle into the terminal box, so to 
speak, it does take care of the job.
    Senator Inhofe. Well, I guess my thinking is this--even 
though--I know, we always want to have everything tested and 
running perfectly and all of that, but if you have something 
that's been--that is effective, maybe needs a little bit more 
testing, why wouldn't it be a good idea to place such a system 
someplace, so that if you had someone like--we're not dealing 
with normal people when we're talking about North Korea and 
Iran. If they knew that we had something that very likely could 
knock it down, wouldn't that be a deterrent to them?
    General Obering. Sir, you've hit on a key point, and it's 
probably one of the biggest differences in the way that we are 
doing business than the rest of the department. It feeds into 
much of the flexibility that Mr. Francis talked about.
    But what we're doing is, as opposed to being risk-adverse, 
we are managing risk. So, what we do, is we do sufficient 
testing to understand that we have a warfighting capability, 
and we begin to deploy that and get it in the hands of the 
warfighter. We continue to improve, and continue to develop it 
over time, and continue to test it, and that's also what 
General Campbell was talking about in this idea of the 
interaction between the warfighter and the developer.
    So, it's not waiting until you have every ``t'' crossed or 
every ``i'' dotted. You do sufficient testing to get that in 
the hands of the warfighter quickly, because frankly, 
personally speaking, I think we lost a little bit of a sense of 
urgency in the Department during the Cold War, in terms of 
getting that capability out the door to the warfighter. 
Especially in a mission area where we historically had no 
defense. I think it's critical that we get this out as quickly 
as we can, with sufficient testing to understand the behavior.
    Senator Inhofe. I think our intelligence is good, and you 
guys, I know, are pretty aware of the risk that's out there. 
I'm looking at your MDA book here, showing what North Korea 
has, for example, that they have capable right now. I've always 
been a believer that if North Korea has it, it wouldn't be too 
long before Iran would have it. So, I've been concerned about 
this.
    Now, Mr. Green, I appreciate what you said about some 
places in Eastern Europe maybe being ideal for location of 
these defense systems, and would you all agree, generally agree 
with him that the Czech Republic or Poland, or someplace like 
that, would be a good place for this?
    General Obering. Were you asking me, Senator?
    Senator Inhofe. Anybody. Mr. Green has already responded. I 
just wondered if, do you agree with Mr. Green?
    General Obering. We would agree with Mr. Green. As I 
mentioned in my opening statement, we've already worked the 
problem on the western side of our country--North Korea, and it 
makes no sense to me to leave the door open on the eastern side 
now, coming out of Europe. We have a threat that's in a sprint, 
from what I can tell, in developing short-range and medium-
range missiles.
    So, although our intelligence will tell us we have a 
certain amount of time, I think we need to move now to close 
that door.
    Senator Inhofe. I would think that when you're looking at 
the missile defense budget, it's a half billion dollars below 
where it was in the previous year, or is right now. This 
concerns me, does this--do you think you can stay on track 
with, by reducing, effectively reducing the budget? Then, of 
course, you heard Mr. Francis talk about, in the years to come, 
it's going to be between 8 and 10, so it sounds to me like it's 
going to be a continual reduction. Do you think that's 
adequate?
    General Obering. Sir, we've certainly gone to great extents 
to try to make it a balanced budget, to try to----
    Senator Inhofe. Yes, that's what, the hand you're dealt. Do 
you need a better hand?
    General Obering. Sir, we could always use more money in 
this regard, because I think we could--it goes back to what I 
said previously--we could get more capability out quickly, into 
the hands of the warfighter.
    Senator Inhofe. Mr. Chairman, if this were a hearing on the 
Joint Strike Fighter or FCS, I'd say the same thing. Because, 
you can't take it out of systems right now, that are 
underfunded, and that's kind of what we are dealing with.
    I have another, just, kind of unrelated thing, Mr. 
Chairman, I'd like just to throw out there the--on January 11, 
the Chinese used a modified ICBM to knock down one of their own 
weather satellites, and this to me, this demonstration was, I'm 
not sure what the motive was, but I fear the motive was to let 
us know their capabilities, because the same orbit that is used 
for a weather satellite that is owned by the Chinese, is what 
we would have for intelligence, for reconnaissance.
    I guess my question is, if they can hit their own satellite 
in the same orbit, couldn't they hit ours too? No-brainer?
    General Obering. Sir, if they have demonstrated the ability 
to hit a satellite in low-earth orbit, than it's just a matter 
of targeting at that point.
    Senator Inhofe. So, they could.
    General Obering. Yes, sir, I've----
    Senator Inhofe. And they did.
    General Obering. As for demonstrating all of the building 
blocks, they've demonstrated that.
    Senator Inhofe. In this particular area, we're talking 
about China there, you have the South China Sea, you have the 
Taiwan Straits. If they were to blind us in the middle of 
something, what's the, kind of the worst-case scenario you 
could think of? We'd be sitting there without any way of seeing 
what's going on?
    General Obering. The worst case would be if their intent 
was actually to take action against Taiwan, we might find that 
they'd have their invading force on the island before we could 
react.
    Senator Inhofe. Yes. I know that we have other 
capabilities, we talked about the UAVs, and--but anything else 
that is currently a capability on reconnaissance is going to be 
easier to take out than one of the satellites in orbit, I think 
you'd agree with that, wouldn't you? In which case, what are we 
looking at to take care of that problem, now that we have seen 
what happened on January 11? Are we looking at new technology?
    General Obering. Sir, we in the MDA have not been assigned 
a mission to do counter-anti-satellite (ASAT). It is certainly 
true that much of the technology that we are developing is 
directly applicable to that, and frankly is fairly 
straightforward in terms of application, but we have not been 
given that mission.
    Senator Bill Nelson. Senator, we've been trying for 2 
months to have a hearing on the China ASAT test. We just 
haven't been able to get the witnesses when they're in town so 
that we could do that.
    Senator Inhofe. This is something that really does concern 
me, because it's so obvious what they could do to knock out our 
ability of reconnaissance. I would hope that we are looking at 
technology right now, whether it's you or somebody else, and 
when you have this hearing, I'd like to get a little advance 
notice, because I'm very much concerned about it. I know there 
are other companies out there that are working toward 
suborbital reconnaissance solutions, and I'd like to pursue 
this to be sure they are, if they're not.
    Thank you, Mr. Chairman.
    Senator Bill Nelson. Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, gentlemen.
    Mr. Green, just to clarify the status of the proposed 
deployment in Eastern Europe--10 GBIs perhaps in Poland, and a 
radar in the Czech Republic--this is not a final proposal yet, 
in terms of the administration or the governments in Poland or 
the Czech Republic, it is still at the discussion stage?
    Mr. Green. Senator, we have exchanged diplomatic notes, 
both governments have expressed a willingness, a desire to go 
into negotiations on these facilities, we are starting those 
negotiations and we expect to pursue those vigorously over the 
next several months.
    Senator Reed. But there's not a final agreement even at the 
governmental levels as far as location and responsibilities. 
That's still all to be negotiated?
    Mr. Green. There are several parts of the negotiating 
process, one of them would be a main missile defense agreement 
that would define in great detail the obligations and 
responsibilities of both parties, and that is what we'll be 
negotiating over the next several months.
    Senator Reed. Would those agreements have to be approved by 
the parliaments of the respective countries, Poland and Czech 
Republic?
    Mr. Green. Those would be subject to parliamentary 
approval, yes, sir.
    Senator Reed. Were they subject to approval by the United 
States Congress?
    Mr. Green. We treat those as executive agreements, so we 
would not, they're not considered to be treaties, so they 
wouldn't be submitted to the Senate.
    Senator Reed. So, they would be submitted to the Polish 
Congress, and the Czech Congress, but not the United States 
Congress?
    Mr. Green. That's correct.
    Senator Reed. There is a possibility, of course, that even 
as the negotiations take place that the Polish and Czech 
Congress could reject them. That's a possibility?
    Mr. Green. There's always that possibility, Senator. 
Obviously, we have entered into these negotiations with a very 
high expectation of success, and the governments of both Poland 
and the Czech Republic have also entered them in that 
expectation.
    Senator Reed. I guess one of the advantages, perhaps, since 
they're parliamentary governments, that the majority party and 
the Prime Minister are very closely aligned, that might be one 
difference, Mr. Green.
    Mr. Green. I would never speak ill of our form of 
government.
    Senator Reed. No, I know. [Laughter.]
    Having had your hand in it. [Laughter.]
    General Obering, two DOD boards were established in 2002 to 
provide oversight over MDA, the Senior Executive Committee and 
the Missile Defense Support Group. Reportedly, they have not 
met for several years, is that correct?
    General Obering. Sir, they were very active when we first 
stood up the MDA in 2002. They had, I think, eight meetings the 
first year, if I'm not mistaken, and things got off to a pretty 
good bang. What we did is we altered that, and we went to a 
direct oversight with the Under Secretary of Defense for 
Acquisition, Technology, and Logistics. The Missile Defense 
Support Group and the Senior Executive Committee have now been 
replaced with the Ballistic Missile Executive Board, and that 
reconstitutes that oversight. It will have standing 
subcommittees that report to that, and that charter was just 
signed here, recently, and we will kick that off with the first 
meeting of that, I think, in the next 3 weeks or so.
    Senator Reed. So, the BMDS Executive Board is just 
beginning now? It hasn't really started, but it will?
    General Obering. Yes, sir.
    Senator Reed. So, essentially, what outside entities beyond 
MDA have been looking over your shoulder, and giving you 
advice?
    General Obering. Sir, you name it. We've had quite a few.
    Senator Reed. Who do you have to listen to?
    General Obering. First of all, we have quarterly execution 
reviews with my boss, directly, the equivalent of a Defense 
Acquisition Board, where we go through all of the programs, we 
go through the performance. We also report, I go to the Joint 
Requirements Oversight Council, I brief up what the incremental 
improvements, the changes in our baseline--we do report changes 
in our baseline, by the way, to the Office of the Secretary of 
Defense (OSD) and to Congress through the SAR activities, and 
we've done that now for the past several years.
    We have been audited, of course, by the GAO, very robustly, 
and now there's a standing--I think it's an annual mandate that 
they have to come in and look at all of our programs----
    Senator Reed. What about the Program Analysis and 
Evaluation (PA&E)?
    General Obering. PA&E were part of the Missile Defense 
Support Group that lasted for a year or so, about 18 months, 
and then they are now part of the standing committee that will 
be part of the Executive Board.
    Senator Reed. Let me change subjects slightly, and that is, 
according to the budget data, the GBIs 21 through 30 were 
incrementally funded over 3 years. Interceptors 31 to 40 were 
incrementally funded over 4 years, and then the GBIs 41 to 50 
were incrementally funded over 5 years. Why are we increasing 
the incremental funding for these interceptors?
    General Obering. Sir, what we do, and Mr. Francis referred 
to it--is we try to adjust the scope of our activities based on 
the realities of what we're faced with. So, in that timeframe 
that you just talked about, we have adjusted to some of the 
realities of the program. If you recall, there was a chemical 
systems division explosion at our plant in San Jose, 
California, that took out one of our entire configurations of 
our GBI boosters, that we had to not only recover in terms of 
finding additional vendors and suppliers for that, but recover 
those boosters' interceptors.
    When we had the two aborts that occurred in December 2004 
and February 2005, as you also probably recall, I stood up an 
Independent Review Team to take a look to make sure that those 
were just technical glitches, that they were not systemic 
problems, et cetera, and we stopped deployment, at that time, 
of the interceptors.
    I also made a decision in the 2003-2004 timeframe that we 
would fund the logistic support costs for these interceptors, 
along with the other things that we produce. The reason is I 
thought it was a proper behavior to generate on the part of 
developers, that they need to pay attention to support costs, 
and if that came out of our budget, it came out of those 
programs, they would have to take that into account. We've also 
done some other things with respect to concurrent test and 
operations, et cetera. So, we added scope in some areas, and we 
had to stretch out scope in other areas to be able to 
accommodate those changes.
    It's part of a flexible portfolio management approach that 
the GAO recommends, and I think some of the things we are going 
to talk with the GAO about are the recommendations that are 
coming out of that particular report, and how they relate to 
some of the recommendations that they have in our report.
    Senator Reed. Thank you, sir.
    Mr. Francis, right now the entire BMD System is considered 
a single major defense acquisition program. Can you give us 
your views on reporting on this very, very large program? 
Benefits? Advantages? Would it be better if there were some 
type of dis-aggregation or some type of more focused approach?
    Mr. Francis. Sure, Senator. We think the advantage of 
managing a system of systems is, it does provide a portfolio, 
which General Obering then can make decisions across program 
lines, so that you don't have each program stove-piped. So, he 
can make decisions to move money to places where they're 
needed. He could also, if he wanted to, meet a threat, he could 
move requirements around to the system best able to do that. 
That's the real advantage of a portfolio like that.
    The disadvantage comes from an oversight perspective, 
because typically the elements within MDA would be individual 
programs that you would have oversight over and be budgeting 
for and reconciling costs with. In a system of systems, you 
lose that granularity, because you don't necessarily see what's 
going on in each system. So that part's difficult; it's true, 
for any system of systems.
    So, it's something--if that's where we're going to go in 
the future, we need to think about oversight mechanisms that 
give us visibility to the elements while providing the 
flexibility to make trades at the system level.
    Senator Reed. From the GAO's perspective, do you feel 
comfortable that you have sufficient access and granularity? 
Details?
    Mr. Francis. Yes, I think we have sufficient access. We do 
have difficulty, if you will, chasing some of the numbers. You 
brought the example up of the incremental funding--that's 
something that is made possible by the whole budget being R&D 
funds, so that you can pay for something over time. In another 
program, you would require procurement funding, so if you were 
going to buy 10 interceptors, for example, all 10 would have to 
be funded in a budget, and then you would track those costs.
    So, what becomes difficult for the accountant, if you will, 
is when costs are tracked over 5 years, you kind of lose the 
audit trail, and then to try to compare actual costs back with 
what was budgeted, we can't go back and reconcile, ``Okay, we 
were going to pay this much for 10 interceptors, we paid this 
much more--why did that happen, and what's the Government's 
recourse?''
    Senator Reed. Thank you, and for the record, 
``granularity.'' I think. [Laughter.]
    Dr. McQueary, and General Obering, one of the issues that 
is perennial is very realistic operational testing. Where do 
you think we are in terms of that, particularly with the GMD 
system?
    Dr. McQueary?
    Dr. McQueary. As I indicated in my opening remarks, we 
would say that based upon the test that was conducted--I don't 
have all of the numbers properly--but the test that was 
conducted with the interceptor, they have demonstrated a 
capability to intercept a simple foreign threat. So, that does 
not imply that we're finished, or anything at all. But that 
demonstration has been done.
    Senator Reed. So, we're still somewhat removed from 
engaging what likely would be shot at us by a hostile----?
    General Obering. No, sir, I don't agree.
    Senator Reed. Okay.
    General Obering. There's nothing that says that we might 
not be faced with simple threats in the near-term, against the 
rogue nations that we are gearing this system torward. We have 
planned this year to add more and more capability into these 
tests with respect to sensors, like the SBX Radar, the forward-
based deployed radar, as well, to begin to run some of our 
capabilities to begin to address more complex threats, as well. 
So, we have a path that we have laid out ahead. Sometimes we 
hear, ``Well, if it can't handle very complex countermeasures, 
it's not worth deploying,'' and frankly, we don't agree with 
that. We think that there are many situations where we will not 
be faced with complex countermeasures, and it is worth 
deploying.
    Senator Reed. So, if you were deploying a fighter aircraft, 
you'd feel very comfortable deploying it against the least 
capable threat in the air, saying that it's operational and 
it's good enough?
    General Obering. If it was the most likely threat, sir. If 
you had no defense against that threat, then I think I would be 
inclined to do so.
    Senator Reed. What's your premise of the most likely 
threat? I don't want to belabor this, but one of the issues 
here is, it's a race. To develop the very sophisticated anti-
missile system that you're trying to do, versus deploying 
things like balloons, and decoys, et cetera. There are some 
that would argue that it's a lot easier to deploy decoys or 
things like that, than it is to knock one of those things down, 
kinetically.
    General Obering. Well, fortunately, because we have had the 
support of Congress, we've been able to get a large step up in 
that race, so to speak. With the fielding of the SBX Radar, 
with the advanced radar algorithms that will be placed in that, 
this year, along with the forward-deployed radar, we have a 
tremendous leg up.
    By the way, countermeasures are not as easy as they are 
being described, sometimes. We have probably the Nation's 
leading countermeasure experts in the MDA, or under contract to 
us. We actually flight test these. We flight test them in front 
of these radars, we understand the characteristics and we 
understand the behavior so that we can program those into the 
radar, so, we're trying to keep up with that very threat.
    Senator Reed. I understand that, sir.
    Thank you.
    Senator Bill Nelson. Senator Sessions?
    Senator Sessions. General Obering, let's just discuss that 
a little bit more. Based on what we understand, for example, on 
the launches that the North Koreans attempted, what can you 
tell us about your expectation of their ability to have complex 
countermeasures or decoys? Is that classified?
    General Obering. Yes, sir. It would be classified. Suffice 
it to say that I believe that my statements stand that we would 
have a capability against those threats.
    Senator Sessions. But there's no difficulty, and in fact, 
it's part of your strategy that while these systems are in 
place now that are capable of defending against, as Dr. 
McQueary said, a simple missile launch, that you will continue 
to make them more sophisticated through R&D.
    General Obering. Yes, sir, as well as fielding. We actually 
have a program, in addition--as I said--to the deployment of 
these algorithms in the radars, we have a program called MKV 
that will allow each one of our interceptors to be able to 
handle what we call ``credible objects''--more than one. So 
that means that we don't have to be precise to understand what 
is the warhead, and what's not. We can actually take out 
everything that's in that particular cluster of a threat sweep.
    Senator Sessions. That assumes that the attacking missile 
has multiple decoys.
    General Obering. Yes, sir. Yes sir, exactly.
    Senator Sessions. But even in that system, I assume you've 
attempted to design it to make sure it does not go after the 
decoys, but hopefully will go for the----?
    General Obering. Yes, sir. We actually go through a staged 
process, a layered process, just like everything else, to try 
to make sure we focus as much as we can on the warheads.
    Senator Sessions. How do you see the status of the MKV 
program? How's that funding, and do we have problems there?
    General Obering. If there was any program that I have that 
I would like to accelerate, it would be that one. In terms of 
being able to move that back to the left. That would require 
additional money, additional funds.
    Senator Sessions. As I was listening, ``move to the 
left''--what does that mean? That makes me nervous. [Laughter.]
    General Obering. Sir, not politically, but scheduling.
    Senator Sessions. Good.
    So, Dr. McQueary, you talked about that the test program 
being robust and disciplined, I believe, and that it has 
limited capability against a simple threat--which I think gives 
us some confidence. General Obering, you used a phrase in your 
opening remarks that a good missile defense system would 
``devalue'' the assets of the enemy--what do you mean by that?
    General Obering. Sir, if you'll bear with me one second, I 
view missile defense as part of a spectrum that includes 
deterrence, arms control, and missile defense as well. At one 
end you have enemies--countries that can be deterred, and we've 
seen that in our history and it's worked very well. You have 
other nations against whom you can use arms control measures, 
both positive and negative sanctions or incentives, to try to 
get their behavior modified.
    But, I think that as we enter this century and we get into 
it, we understand that we're in a world in which we may face 
organizations, countries, what I call the nation-state 
equivalent of suicide bombers, that are not deterrable and are 
not affected by arms control.
    So, it would be nice to have another option that we can 
provide to the President and the American people to protect 
them. So, as we roll out missile defense capabilities and as 
they become more widely known as being effective, then it 
begins to take away the value of these missiles from countries 
like Iran and North Korea. Because historically we've had no 
deployed defense against them--they view that as a great 
equalizer with the United States or with the West, as being put 
on an even par with us, and therefore they can leverage that 
against our allies and our friends. So, if we say, ``If you 
deploy those weapons or try to use them, they're not going to 
be any good, because we will shoot them down,'' then they have 
to go through the investment decisions, do they want to do 
that, do they want to continue to invest in these weapons? We 
think that if we are able to show an effective missile defense, 
collectively, along with our allies, it begins to devalue those 
weapons in the eyes of some of these countries.
    Senator Sessions. I think that's a good explanation and I 
think maybe other nations that might be thinking on developing 
an offensive missile system would, might add the cost up 
thinking that we--even if they completed and spent hundreds of 
millions, maybe billions of dollars on that, it still wouldn't 
be effective because we have a good system against it.
    General Obering. Yes, sir.
    Senator Sessions. Would that be true also?
    General Obering. Yes, sir.
    Senator Sessions. General Obering, you've been given, as 
Mr. Francis said and as GAO's report discusses, flexibility to 
both deploy and develop at the same time.
    He raised some points about some cost overruns or spending 
above what we've projected. Tell me, in your view, how you 
would evaluate this? First of all, there is value to the United 
States that we have this system in place today.
    General Obering. Yes, sir.
    Senator Sessions. A very great value. But, in terms of the 
actual cost of this program, we've gone faster, sometimes 
faster saves money. Tell me how you would evaluate, honestly, 
for this Congress and the American people who may listen, 
whether or not this flexibility you've been given and the more 
rapid deployment than a lot of systems would allow, has 
impacted the actual cost of the program.
    General Obering. Well Senator, as I said in my opening 
statement, we've come a long way in 30 months since 2004 with 
the flexibility that we've been given. We've been able to 
rapidly develop and field and deploy these capabilities.
    If we look aggregately at what we have done from a block-
cost perspective, we are roughly 4 percent or less for Block 
2004 or Block 2006, in terms of what we anticipated the cost of 
the block to be. As Mr. Francis referred to, in some cases we 
had to defer content, and I'll give you a couple of examples, 
but then we catch back up.
    So for example, as a result of the activities in the 2004-
2005 timeframe, we lost six of the GBIs in the explosion that I 
talked about in California. I also redirected four GBIs as a 
result of the launch aborts back in December 2004 or February 
2005 as well, into our ground test program, that were going to 
go in to be deployable.
    We have now been able to catch back up to where--way back 
in 2002, we had anticipated that we would have 30 GBIs in the 
silo by the end of this year. We will now have 24, as opposed 
to the 30, and those are the 6 that we lost in the explosion. 
We should be able to catch back up with the original target for 
Block 2008, based on the funding profile that we've been given 
and how we're managing the program.
    Again, a lot of the flexibility we've been given also 
allows us to do things like the savings that we took from the 
GMD program. We discovered that we had some overhead 
infrastructure that we no longer needed in the program. We were 
able to reduce that and turn that money into GBIs to help us 
catch that up again.
    Senator Sessions. To follow up, even if we had the 
traditional procurement system, even, that I think Mr. Francis 
will agree, when we've had that, we've had cost overruns, 
sometimes far more than this. So, I don't know that because 
there's some cost overrun, indicates that the program, this new 
technique is less effective in managing the money. I see some 
potential, as you've indicated, that it's allowed us to deploy 
much sooner, and even save some money, and delay costs money. 
The longer these programs stretch out and all this money that 
goes in sustaining it and maintaining it before you even get 
the system there, to me is a cost that's often not properly 
counted.
    Is that fair to say Mr. Francis?
    Mr. Francis. I think so, Senator. I guess what I would 
bring up is, right now I think Block 2006, by our calculations, 
is about $1 billion over what it was expected. We've reported 
another $478 million in 2006 contract overruns that may defer 
additional work.
    Now, I haven't done the calculation on the percents, but 
even if it were 4 percent, when we talk about regular weapons 
systems and we say, ``Gee, they're 30, 40 percent over cost.'' 
That's generally over the life of the program, a 10-year 
program. So, 4 percent annually sounds like a small amount, but 
if we're going to do it for 10 years, it's a big number when 
you get out there.
    The question I would ask is, is there a way to get the best 
of both systems? In other words, can we preserve the 
flexibility and not change how General Obering makes decisions, 
but provide more visibility on the cost consequences of the 
decisions he does make?
    Senator Sessions. Presumably, you think the answer is yes?
    Mr. Francis. I think so, yes.
    General Obering. Yes, sir----
    Senator Sessions. Briefly, as my time----
    General Obering. Yes, sir----
    Senator Sessions. Briefly, if you want to respond.
    General Obering. Just that the numbers that Mr. Francis 
quoted, they are over more than just a 1-year period. They're 
longer than that, with respect to that.
    If you look at the individual program performance, we're 
doing very well. For most of our programs we're down, below 10 
percent for the total contract value of 8- to 10-year contracts 
with these programs. The only one that we have exception with 
the GAO on is our STSS. We have a factual disagreement on some 
assumptions that were made by the GAO, and that's okay. I think 
we're going to work through that. That's not a big issue. When 
you take that out of the equation, we're down below 10 percent 
for our program performance for the life of the contracts, 
including the GMD program. It would be running around 12 
percent as part of that average.
    So, I think this program, and I think GAO--I don't want to 
put words in their mouth, but I think they see the value in 
this in some of their other recommendations on how they do 
portfolio management. Now, what we have to do is take a real-
life portfolio management example that we have had now for the 
past several years, compare that to what the GAO is 
recommending for the future of the Department, and see if 
there's a marriage that we can make there that would make 
sense.
    Senator Sessions. Thank you.
    Mr. Chairman?
    Senator Bill Nelson. Mr. Francis, your report recommends a 
number of changes in the acquisition approach, including the 
use of procurement funds for buying operational assets. Would 
you discuss how you would recommend such changes be 
implemented?
    Mr. Francis. Yes, Mr. Chairman. We think that right now, 
the way the budget is requested is through elements but the way 
we account in MDA is through blocks. So, we think the starting 
point would be by program element. You would baseline an 
element using a knowledge-based approach--which I could 
discuss, but then having laid out that element that way--and by 
the way, this is how that report that we have on portfolios 
deals with that. When you're managing a system of systems, you 
do know the total cost of every system in there, and it does 
have a business case.
    So, we think the elements need to be baselined for cost, 
schedule, and performance. Then those that are considered far 
enough along to be in system development and demonstration, you 
would then track those costs, just like you would a regular 
program. You would use procurement funding for those assets 
that are going to be operational assets. I think we would 
expand that to operations and support as well.
    That does a couple of things for you. One is, it does give 
you control over the procurement funding and you can then fully 
fund your assets in 1 year, which provides visibility to you. 
It does provide some better contracting opportunities for the 
Government because R&D contracts are, by definition, best 
effort contracts where the Government does bear a fair amount 
of the risk.
    We also think that you could--and the way we wrote our 
recommendation was that--to have DOD propose a way to do this. 
Because one of the downsides is, if you did put those elements 
into system development and demonstration, and baseline them, 
and subject them to the laws that apply to other systems if you 
have a cost increase that breaches a certain threshold, then 
DOD has to come back and certify to you that things are okay 
before they can proceed, which could slow decisionmaking.
    So, some of the things that we're thinking about is, you 
could have those triggers in place to say, ``Hey, we have a 
cost increase.'' But, the requirement might only be that MDA 
inform Congress, rather than have to stop and recertify.
    Senator Bill Nelson. Would you work with our staff to try 
to implement those changes?
    Mr. Francis. Yes, sir.
    Senator Bill Nelson. General Obering, in your prepared 
testimony, you place emphasis on proceeding with the proposed 
deployment in Europe of 10 GBIs and associated radars. That 
proposal is one of two options included in the budget request 
submitted to Congress.
    The budget request seeks funds to install 10 Interceptors 
at a third missile site--either at Fort Greely, Alaska, or in 
Europe. The budget request overview states that the U.S. is 
entering into more detailed discussions with Poland and the 
Czech Republic in 2007 regarding the possible basing of missile 
defenses in their countries.
    So, as I understand it, your budget request to us is that 
there are two options for the planned deployment of 10 
additional Interceptors--one at Fort Greely and one in Europe. 
Is that correct?
    General Obering. Sir, what that was meant to do was to try 
to address this idea of risk management and timing. That is, if 
Congress were to appropriate money for us to buy the GBIs, as 
part of this package, the long-lead items, the initial items 
that we need for that. If there were to be hiccups or stumbling 
blocks in the ongoing negotiations and in the movement for the 
third site, that would not be wasted money. We could use those 
GBIs in the Fort Greely situation.
    But, it does not provide additional coverage, if we were to 
do that, for all the reasons we stated before to our European 
allies or our deployed forces in Europe, nor does it provide 
redundant coverage of the United States because we would have 
to put them back in Fort Greely, Alaska.
    Senator Bill Nelson. Your proposal is you want them in 
Europe?
    General Obering. Yes, sir.
    Senator Bill Nelson. Then why would you propose to put them 
in Fort Greely?
    General Obering. I think we were answering a concern if we 
were to receive the long-lead money for these GBIs and things 
did not work out with the European site, would that be money 
that we could not use.
    Senator Bill Nelson. Is it correct that no final decisions 
have been made with regard to the possible basing of missile 
defenses in Europe?
    General Obering. I think that Mr. Green mentioned that 
earlier, Senator. We haven't got a final agreement, per se, but 
we are well on a track to reach an agreement, I believe with 
both the Poles and the Czechs.
    Senator Bill Nelson. Okay, so if there is no decision by 
those governments, or an agreement is not reached to deploy the 
10 GBIs in Europe, then you have the preplanned option of 
deploying them at Fort Greely. Is that correct?
    General Obering. We would then divert those, if need be.
    Senator Bill Nelson. So, the answer to that is yes.
    General Obering. Yes, sir.
    Mr. Green. Again, Senator, we entered into these 
negotiations with a very high expectation of success, as did 
the Government of Poland and the Government of the Czech 
Republic.
    Senator Bill Nelson. Do you have an indication, Mr. Green, 
that you have the approval of NATO?
    Mr. Green. Well, approval is an interesting word. The first 
point I would make is that we are going into this activity with 
a very, very strong NATO context. It's a programmatic context, 
a NATO technical and operational context, and a political 
context.
    There are a number of NATO nations that are currently 
engaged in missile defense activities. Five NATO nations, 
including the United States, are engaged in long-range missile 
defense activities. A number of others are heavily engaged in 
the development and deployment of short-range and medium-range 
missile defenses.
    In terms of the technical operational aspects of this, the 
activity that we're involved in now, the potential deployment 
of long-range missile defenses in Europe will defend against a 
long- or intermediate-range threat to our European allies. That 
leaves the southern tier of Europe, so to speak, which is not 
subject to that long-range missile threat, but is subject to a 
short- and medium-range threat. They will need defenses of that 
sort and that's the kind of defense that European nations are 
working on.
    There's a natural complementarity between what we're doing 
and what NATO is doing. I mean, we would certainly expect as 
NATO fills out those short- and medium-range defenses that 
would be compatible with, complementary to--our long-range 
defenses.
    Senator Bill Nelson. Is it----
    Mr. Green. In terms of political interaction we have also 
pursued very robust consultations with NATO and we are 
continuing to do that. We've consulted with them multiple 
times. We're going over again next week. We've had multiple 
trips over to the Capitals to consult in a bilateral sense and 
we're continuing that effort.
    Senator Bill Nelson. Is it the administration's position 
that you would proceed on this if you got Poland's and the 
Czech Republic's approval, but not NATO's approval?
    Mr. Green. We are pursuing bilateral negotiations with the 
Czech Government and the Polish Government. We certainly 
recognize the value of NATO in this context and we're 
continuing to work with NATO, but it is a bilateral negotiation 
between the Czech Government and the U.S., and the Polish 
Government and the United States.
    Senator Bill Nelson. So, the answer is yes. You would 
proceed if you got the country's agreements, but not NATO's 
agreement.
    Mr. Green. Again, there is, there are, I guess nuances here 
of approval and agreement. There is no legal requirement for 
approval by NATO, but we're obviously very interested in making 
sure that NATO allies understand the benefits of this system, 
how it operates, what it does, how it benefits the NATO 
Alliance, and I think, increasingly, we're getting an 
understanding from NATO nations about the nature of the threat 
that's posed and how this system would help defend against 
those threats, and increasing acceptance that this system is 
designed against those threats and will be effective.
    Senator Bill Nelson. I'm just trying to find out, do you 
intend to seek NATO's approval or not?
    Mr. Green. If by approval, you mean turning this into a 
NATO-funded effort----
    [Disruption in the audience.]
    Senator Bill Nelson. The committee will, and I'm----
    Ma'am, I'm the one that got you a seat. [Laughter.]
    Mr. Green. Senator, I honestly am trying to answer your 
question.
    If by approval you mean turning this into a NATO-funded 
effort, a NATO effort to develop and deploy long-range missile 
defenses, that is not our intent. We have developed the system 
and we're entering into those bilateral negotiations with the 
Czechs and the Poles.
    But again at the same time, I would emphasize that this is 
a very strong NATO context, and we are certainly very 
interested in trying to make sure that all of our allies are 
accepting and approving, though not through a formal approval 
process. Most NATO capabilities are not developed by NATO. 
Almost all NATO capabilities are developed by individual 
nations or groups of nations within NATO.
    Senator Bill Nelson. Mr. Green, what would happen if you 
got the approval of one of those countries, but not both?
    Mr. Green. Well again, we certainly anticipate the approval 
by both. We have not speculated about what would happen if we 
got approval from one and not from the other and we don't 
anticipate that circumstance to arise.
    Senator Bill Nelson. General Obering, let's talk about the 
missile--or to be technically correct--the rocket that you want 
to put in Europe. It's a two-stage variant of the three-stage 
GBI, which is the one that's in Alaska and California. Are you 
in the process of developing this new rocket?
    General Obering. Yes, sir. It's not a new rocket, Senator, 
it's a different configuration of what we currently have. It 
allows us to maximize what we call the battle-space there, in 
terms of being able to get into a kill vehicle mode quickly. 
That's the advantage of it. It is not a significant change in 
terms of the things that you have to do to make that work. We 
have actually used this technique in other programs within the 
BMDS.
    Senator Bill Nelson. There are different things that you 
have to do.
    General Obering. Yes, sir, there are. We have that on 
contract.
    Senator Bill Nelson. Repackaging the booster avionics?
    General Obering. Yes, sir.
    Senator Bill Nelson. The shrouding venting has to be 
modified?
    General Obering. Yes, sir.
    Senator Bill Nelson. The guidance and control software has 
to be updated?
    General Obering. Right.
    Senator Bill Nelson. You're going to operate in a new 
flight environment?
    General Obering. That will be tested. Yes, sir.
    Senator Bill Nelson. You have to upgrade to provide nuclear 
hardening?
    General Obering. That is something that we're going to do. 
In fact, that is something that we're doing overall for the 
fleet.
    Senator Bill Nelson. You have to improve ability to execute 
the full fly-out maneuvers?
    General Obering. Yes, sir. Actually, we already have those 
programs in the three-stage maneuver, the three-stage version 
as well. We have those capabilities.
    Senator Bill Nelson. Do you have a schedule acceleration?
    General Obering. I don't know what you mean by a schedule 
acceleration, but it is part of what we have put on contract.
    Senator Bill Nelson. Now, isn't that part of developing a 
new system?
    General Obering. Again sir, it's part of what we consider 
to be a different configuration of what we have. So, there are 
new capabilities, but we are always looking at and developing 
new techniques for these interceptors. Frankly, that's one 
reason why we prefer the R&D test and evaluation money, that 
allows us that flexibility to be able to do that.
    Senator Bill Nelson. Do you plan to test it?
    General Obering. Yes, sir, in 2010.
    Senator Bill Nelson. So, you want us to authorize and 
appropriate funds to deploy this interceptor that would be 
tested in the future, as it's not yet been put together in the 
development package.
    General Obering. It goes back to what I've said previously. 
We are managing risk, we're not trying to avoid it. We don't 
consider what you described to be very high-risk items based on 
what we know now of the GBI, the booster, the fly-outs. We 
believe that the longer items that are going to have to take 
place are the site preparation, the site clearing, the 
construction activities etc. So, we are pursuing those 
concurrently and in parallel.
    Senator Bill Nelson. Let's go back to my earlier question. 
Suppose you decided you were not going to deploy them in 
Europe, these 10 GBIs, you were going to deploy them at Fort 
Greely. Would you deploy more of the three-stage GBIs, or would 
you use the newly developed two-stage GBI?
    General Obering. It depends on what we would like to do at 
that time with respect to Fort Greely and what capability the 
warfighters may want to have. So, I would defer that decision 
until that time, until we can think through that. But clearly, 
we could add the third-stage back like we have with the ones 
that we currently have in the ground in Alaska and California.
    Senator Bill Nelson. Dr. McQueary, you're the man who is 
the Director of Operational Test and Evaluation. Would you have 
high confidence that a missile, such has been described--that 
is, as General Obering has said, is being developed and not 
been tested--would perform as operationally effective, 
reliable?
    Dr. McQueary. I think this is an area in which the DOT&E 
organization needs to have further discussion with General 
Obering. I will react in the following way though--he is taking 
an approach that I believe is a lower risk approach, by using 
proven components in order to be able to build this new rocket. 
So, that gets the technology readiness issue, which I think is 
very important.
    But, I do think we need further discussions on what kind of 
testing needs to be done in order to satisfy us from an 
independent operational test evaluation standpoint, what would 
need to be done with that.
    Senator Bill Nelson. Well, you have to advise us----
    Dr. McQueary. Yes, sir.
    Senator Bill Nelson. --because we're in the----
    Dr. McQueary. I agree.
    Senator Bill Nelson. --position of, the question is, do we 
authorize this, and do we fund it?
    Dr. McQueary. Well, I think the issue is, it's, with the 
funding approach that MDA has, and I'm in an area in which I'm 
not the expert, so please bear with me. By using R&D funds, 
such as has been done, that this approach is not inconsistent 
with what has been done in other areas.
    Senator Bill Nelson. So, when are you going to have an 
answer to that question?
    Dr. McQueary. Well, this is a relatively new program. We 
are aware what the plans are and I have people in our 
organization who have had discussions with MDA. But I can't 
offer an answer to your question directly. I'll certainly be 
happy to provide you an answer, if I may, for the record.
    [The information referred to follows:]

    There are added risks anytime a system's working design is changed. 
In the case of the two-stage variant of the ground-based interceptor 
(GBI), I agree with the Missile Defense Agency's (MDA) seven 
developmental risk areas. I believe the most significant risk is with 
the software changes and integration that MDA must make not only in the 
interceptor, but also in the Command and Launch Equipment and the 
Ground-Based Midcourse Defense Fire Control to optimize the 
interceptor's new performance envelope. There is commonality between 
the two-stage and three-stage variants of the GBI booster. MDA gained 
experience when it converted a three-stage Minuteman II into a two-
stage Minuteman II. However, I cannot make an assessment on 
effectiveness, reliability, or suitability on a two-stage design that 
has not yet been built or tested. Through MDA's Integrated Master Test 
Plan, I will approve the combined developmental/operational flight 
testing of the two-stage interceptor, and my office and the joint 
operational test team will participate in all aspects of this testing.

    Senator Bill Nelson. Will that come soon? Because we're 
talking about a markup in a few weeks.
    Dr. McQueary. I don't know whether we can do--we certainly 
will not have the data with which to be able to say whether we 
think the new system will be effective and suitable because the 
data would simply not be there.
    We can advise you as to whether we think the approach that 
the MDA is proposing to take, or is taking would likely result 
in a satisfactory solution if it is properly implemented. We 
could certainly do that.
    Senator Bill Nelson. Can you provide that in a few weeks, 
before the markup?
    Dr. McQueary. Yes sir, we can do that.
    Senator Bill Nelson. Okay.
    Senator Thune, I still have some more, and I see you are 
back here. So, go ahead and ask your questions and then I'll 
finish up.
    Senator Thune. Okay. Well, thank you, Mr. Chairman.
    Gentlemen, thank you for appearing before the subcommittee 
today.
    Missile defense is an issue of increasing importance for 
our strategic requirements. North Korean and Iranian missile 
programs are clear evidence of both the advancement and 
proliferation of missile technology. Furthermore, increases in 
Russian and Chinese military capabilities are also a matter of 
concern. China's successful ASAT test and Russia's boast to 
overwhelm our defenses are indicators that we should not take 
lightly. I believe we must be committed to missile defense to 
ensure that our security and the security of our allies is not 
taken for granted.
    General Obering, I want to ask you a question about the 
Airborne Laser (ABL) program. It's, in my view, critical to our 
ability to shoot down enemy ballistic missiles during the boost 
phase. The capability to overcome missile defense 
countermeasures like multiple decoy warheads is one of the many 
reasons that I believe the importance of the ABL cannot be 
overstated. I guess the question I have is, could you describe 
what testing is ongoing for the ABL and what are the prospects 
of this system for the future?
    General Obering. Yes, sir. I'd be happy to. First of all, I 
would like to recycle back about 2\1/2\ years, very briefly. 
The ABL, we believe, got on the right path in December 2004 
when they were able to demonstrate that they could fire that 
high-energy laser in a 747 mock-up at Edwards Air Force Base. 
They were able to achieve the synchronization and we actually 
fired that laser over 70 times since that initial firing in 
November 2004.
    We also flew the heavily modified 747 in December 2004. We 
demonstrated, first of all, the airworthiness of the aircraft, 
and we demonstrated the initial checkout of the optical train 
with respect to jitter control and that type of thing onboard 
the aircraft.
    Since that time we've made significant progress. In fact, 
there are actually three lasers that go on the aircraft. There 
is a tracking laser that we use to precisely track an enemy 
missile. There's an atmospheric compensation laser that then 
goes out and measures the distortion in the atmosphere, and 
feeds that information back to the fire control system. Then 
there's the high-energy laser that actually shoots down the 
boosting missile.
    As we sit here today, we have the tracking laser and the 
atmospheric compensation laser loaded on the aircraft and we 
have a surrogate of the high-energy laser on there. We went 
into flight testing several weeks ago and, in fact, we will be 
going back up tonight. We attempted to do a full-blown test of 
the tracking and the beam illumination laser last night. We 
will try again tonight. We ran into problems that had nothing 
to do with the aircraft. It was just a range availability kind 
of thing. So I'm very pleased with the progress that they've 
been making so far.
    We have some key knowledge points coming up. We do use 
knowledge points in all of our development programs, and the 
ABL has to demonstrate that it can actually track a target, it 
can actually close a fire control solution, it has to be able 
to compensate for the atmosphere by firing that beam 
illumination laser and then compensating with the surrogate 
high-energy laser, all against a flying target, which is what 
we're doing right now. So, we should gain some significant 
knowledge in the next several weeks with that program.
    Senator Thune. With those knowledge points coming in and 
the scheduled shoot-down for 2009, why has the MDA removed over 
the past 3 years $1.1 billion in funding from the program, if 
it shows as much promise as you suggest today?
    General Obering. First of all, we are constantly being 
aware of what money we need when, to do what. That is the best 
way I can describe it. When the ABL--even though they have made 
steady progress, it has taken longer than we anticipated in 
some cases--and there were things planned that we could defer 
or move out. We did that to take advantage--it gets back to the 
tradeoffs that Mr. Francis talked about, what we are eligible 
to do. Also, we had to get under some of our budget reductions 
overall for the entire program.
    We've taken significant budget reductions going back to the 
President's budget of 2004, where what we had planned to do, in 
terms of our work, was not what we were funded to do. We had to 
go back and readjust that work. So, that's part of that 
calculation.
    Senator Thune. In the layered missile defense scheme, 
besides the ABL, are there any other stand-alone platforms that 
don't need to rely on satellites for tracking enemy missiles?
    General Obering. Well sir, it depends on what kind of 
defended area you're talking about, and, it depends on what the 
situation is. But, for example, the Aegis weapon system can 
detect and track and engage threat missiles. We do the same 
thing--the ABL has that autonomous capability, and THAAD does, 
as well, for that matter. What we like to do though, is while 
we can rely on that if we have to, we like to be able to extend 
that capability. So, by being able to cue the ABL from an off-
board sensor, satellite, or a ground-based radar for that 
matter, depending on the scenario, we can greatly expand its 
capabilities. The same thing is true with THAAD, with Aegis, 
and with all of our capabilities, including the GMD program.
    Senator Thune. I share a concern that's echoed I guess, by 
some of my colleagues, concerning funding levels for missile 
defense. I guess a follow-up question is: if we continue or 
reduce funding for missile defense, are we going to push these 
advancements further out into the future, and are we creating a 
gap in our defenses because we are starving missile defense?
    General Obering. If we continue to push the options for the 
future, and ABL is included in that category, along with KEI 
and others, then as I said in the opening statement, it makes 
us susceptible to the future in terms of what the threats may 
be, and what we may be faced with.
    To give you an analogy, if we had been overly focused on 
near-term capabilities back in the mid-1990s, and we had only 
looked at what we could push out the door in the next several 
years, we probably would only have, by the turn of the decade, 
we would probably only have Patriot, maybe some THAAD 
capability, and maybe some sea-based interceptor capability, 
but probably not necessarily the SM-3. We would have had no 
system to turn on last summer when the North Koreans executed 
those missile launches.
    So, we always have to keep in mind this balance between 
what we are doing today, and getting out the door, and what we 
need to be paying attention to for the future.
    Senator Thune. Thank you, I appreciate your answers. 
Actually, Mr. Chairman, I do have one question I'd like to 
submit for the record.
    Senator Bill Nelson. Okay.
    Senator Thune. If that's okay.
    Senator Bill Nelson. Certainly.
    Senator Thune. Thanks.
    Senator Bill Nelson. You mentioned ABL. It's currently 
projected to cost $5 billion for the R&D through fiscal year 
2009. Last year, there were additional delays, and the planned 
shoot-down flight test was delayed from 2008 to 2009.
    If the technology does seem to work or prove to work, could 
this be an unaffordable system?
    General Obering. Part of our knowledge points are to 
include affordability information, Senator. While we did have 
some delays in the program over the past year, based on some of 
the hard technical issues they're challenging--and they're 
tackling those challenges--we did slip the program about 6 
months, it was December 2008 to about mid-2009 right now. When 
we come to our shoot-down in 2009, we look at all of the 
factors that go into that, and affordability is certainly one 
of those.
    Senator Bill Nelson. So, the question of affordability 
would be held out there in the future?
    General Obering. Yes, sir.
    Senator Bill Nelson. On deploying such a system as that?
    General Obering. Yes, sir.
    Senator Bill Nelson. Dr. McQueary's testimony indicates 
that your MDA is acting on all of their recommendations. It 
also indicates that there are 15 new DOT&E recommendations 
under consideration.
    Do you know of any reason why you would not act on all of 
those 15 recommendations?
    General Obering. Senator, the short answer to that is no, I 
don't see any reason why not. In terms of working together with 
Dr. McQueary, we've been establishing a strong partnership 
already in that regard. It doesn't mean that we agree all the 
time, it does mean that we are breaking new ground here with 
respect to how we move forward, and not think in that vein. I'd 
be very positive in that regard.
    Senator Bill Nelson. Dr. McQueary, the THAAD flight test 
program was reduced by three flight tests for budgetary 
reasons. Now, the program is apparently going to try to 
accomplish all of the objectives of those three tests by adding 
them to other tests, and add a number of critical factors, 
issues, for each of those tests. Then it increases for each 
test. Do you believe that removing those tests adds risk to the 
program? Or, does it reduce the risk if those three tests 
should be conducted?
    Dr. McQueary. That's a very complex question, but let me 
try to keep my answer as simple as I can.
    We have examined the test program for THAAD in detail, and 
of course they had a successful--or what appears to be--a 
successful test last week, making it five out of five tests 
conducted most recently. It is our view that the testing 
program as laid out, with the reduction in the missiles, is 
adequate to prove out the operation of THAAD. With the 
following ``however''--if there were to be a failure, then it 
means we'd have to go back and re-examine the test program to 
see whether we have learned the things that are necessary.
    So, there is some increased risk should there be a failure. 
If the success of the program continues as we have seen in the 
last five, then we believe there would be adequate collection 
of information in order to be able to demonstrate that that 
system does work.
    Senator Bill Nelson. In the testing, a lot of models and 
simulations are used to predict the performance of the system. 
Have there been instances that you know of where the models of 
the GMD program--or other programs--did not correctly predict 
the performance of the system?
    Dr. McQueary. I do not know the answer to that question, 
directly. If I may put a slightly different turn to the 
question on modeling and simulation, I believe very strongly 
that good modeling and simulation is an essential part of this 
program, because the battlespace in which the system has to 
operate is very large and multi-faceted.
    In my judgment, the country will not be able to afford to 
test every single possibility as to what one would do. The way 
one develops high confidence, and the way such a complex system 
as this would operate, would be to develop good modeling and 
simulation, use the testing that is done to prove that modeling 
and simulation does accurately represent what happens. I 
believe General Obering is on a path that will let us do that.
    We do not have a ``BMDS'' model at this point in time that 
we can point to and say, ``Let's exercise this'' to do what 
I've described. But MDA does have a program to try to get us to 
the point where we can do what I've described, because I don't 
know of any other way to be able to gain high confidence that 
the system will work because the testing is quite expensive, as 
we all know.
    Senator Bill Nelson. So, the ideal is to model and test, 
and then flight test.
    Dr. McQueary. Yes, sir. In fact, I'm a believer that you 
should use your modeling to predict what is going to happen in 
a test, in advance, and then measure how that actually comes 
out in the real test. Because that's an important way of 
helping to determine that the model itself is indeed a valid 
model for what is happening.
    Senator Bill Nelson. So, if there was a problem in the 
modeling and the simulation, you'd find it out when you did the 
flight test?
    Dr. McQueary. That's right. These two things need to go 
hand-in-glove, if you will, in order to provide an effective 
set of data and information that can be used in judging the 
efficacy of the system.
    Mr. Francis. Mr. Chairman, if you go back in history and 
look at the THAAD program, before it became part of missile 
defense, that was, in fact, the case--there was modeling and 
simulation to predict its performance, and it's been a while, 
but there were probably seven, eight, or nine flight tests 
before they could use the flight test data to correct the 
model. So, it takes quite a bit of time before the model is a 
good predictor, if you will.
    Senator Bill Nelson. In your opinion--and that was with 
regard to THAAD----
    Mr. Francis. Yes.
    Senator Bill Nelson. In your opinion, with regard to the 
GMD system--where are we there?
    Mr. Francis. I think right now we haven't had enough of the 
data to say we know the model works. I know MDA is working on a 
more sophisticated model. So I would say that, in terms of 
confidence level, the jury is still out on that.
    General Obering. Sir, if I could add to that, Senator?
    It's good to be precise here. We have models of the way the 
interceptor will perform, the way the radars will perform, the 
fire-control system will perform, that we predict. I will say--
and we'd have to go into a more detailed session, obviously--
that we get very good correlation between what the anticipated 
performance of that is, and what we see in our flight testing. 
Where we have disconnects with what the models predicted, and 
what actually happened in the flight test, is sometimes where 
you have a failure.
    For example, we never modeled that the interceptor wasn't 
going to fly out of the silo at Kwajalein back in December 
2004. When you have component failure like that, then that's 
not an indicator that you have a bad model, that just means 
that you had a component failure, you had a reliability problem 
that you had to go back and address. So, we see very good 
correlation with what we predict to be the performance in the 
flight, as well as the testing that we've done on the ground, 
as well.
    So, the challenge now, and we're working with Dr. 
McQueary's folks, is to take those very user-unfriendly 
engineering models, that are very accurate and high-fidelity, 
and transform those into models that the operational test 
community can use, models that are much more user-friendly, and 
represent that level of fidelity that they need to do their 
job. That's what we're committed to do.
    Senator Bill Nelson. For both of the Generals here, General 
Cartwright was here a few weeks ago, and he told us it's ``very 
important'' to him to expand our missile defense system 
``beyond long-range intercontinental ballistic missiles to 
start to address those that hold at threat our forward-deployed 
forces, our allies, and our friends.'' Continuing the quote, 
``those are more in the short- and medium-range ballistic 
missiles, things such as the Patriot, the Standard Missile-2 
and Standard Missile-3 will be able to address, and THAAD as it 
comes on.''
    Do you all agree with General Cartwright? He's your boss. 
[Laughter.]
    General Campbell. He's not here, though. [Laughter.]
    I do agree with him. I mean, specifically, I can cite an 
example with the Patriot system. Today the Army has committed 
to building an additional two Patriot battalions to address 
specifically the problem that you've described. The work that 
MDA's doing to add the SM-3 missiles, and bring on four THAAD 
fire units, instead of two, recognizes that we know that 
there's a gap in that particular regime. So, I agree 
wholeheartedly with his assessment, we need to move in that 
direction.
    General Obering. Yes, sir, and in fact, it was General 
Cartwright's input and the combatant commander's input that we 
move forward on the THAAD program, adding more fire units, as 
General Campbell said, also adding, I think, about 48 more of 
the SM-3 sea-based interceptors to the program, being able to 
also add a sea-based terminal capability that also is geared 
toward the protection of deployed forces and embarkation 
points, that type of thing. So, we are paying very close 
attention to that.
    Senator Bill Nelson. Well, we're planning a total of 96 
THAAD missiles, and about 140 SM-3 interceptors. Do you think 
that protecting our forward-deployed forces and meeting the 
combatant commanders operational requirements will require more 
of those systems than currently planned?
    General Campbell. We've done some study to a Joint 
Capabilities Mix, this is an initial look, but that study would 
tell us that we should nearly double the quantities of both SM-
3 and the THAAD.
    Senator Bill Nelson. The number three unfunded priority of 
the Army Chief of Staff is the PAC-3 Pure Fleet Initiative, 
General Campbell. This would upgrade all of the Patriot 
battalions to the latest and most capable PAC-3 configuration. 
The Army is working on finding funds to start that process. 
But, we're going to have to find more funds to complete it.
    Can you tell us what kind of capability this Pure Fleet 
Initiative will provide, and give us your opinion if it is the 
cost-effective way to improve our regional missile defense 
capabilities?
    General Campbell. To address the first part of that 
question, I do think this is the right approach to continue to 
buy more of the PAC-3 system. The capabilities it will bring 
will be increased lethality against the targets we expect to 
face, and those that carry weapons of mass destruction, we'll 
be able to address those targets at longer ranges, and higher 
altitudes. We'll be able to protect more ground area, so you 
basically expand the capability of the system by having that 
PAC-3 configuration.
    So, in my view, it is a proven system. We've used it now in 
two wars, and it would be a prudent way to go forward into the 
future, with a proven system, and a proven PAC-3 capability 
that we have right now in the battalions that we have 
configured to PAC-3.
    Senator Bill Nelson. So, if funds were made available to 
support this system, you would support its implementation for 
the Pure Fleet Initiative?
    General Campbell. Absolutely, and the Army is committed to 
doing that. They're looking at a reprogramming action right now 
for this fiscal year which is up at OSD for their 
consideration, and we're looking ahead to next year to look at 
Grow the Army funding, to support the additional funds we'll 
need to complete the Pure Fleeting of 13 battalions.
    Senator Bill Nelson. Does any of the staff have any 
questions? [No response.]
    Thank you all, you've been very kind, very patient. Thank 
you for the quality of your testimony. The hearing is 
adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Bill Nelson

           FORWARD-BASED X-BAND TRANSPORTABLE EUROPEAN OPTION

    1. Senator Bill Nelson. General Obering, if a decision were made to 
not deploy the 10 interceptors in Poland and the midcourse 
discrimination radar in the Czech Republic, would it still make sense 
to deploy a Forward-Based X-band Transportable (FBX-T) radar--or more 
than one--to Europe?
    General Obering. Yes, an AN/TPY-2 (formally known as the FBX-T) 
located within 1,000 kilometers of the threat launch points, would 
provide early tracking of an Iranian threat and would provide 
additional capability against potential countermeasures. The addition 
of another radar (e.g., the European Midcourse Radar) in Europe 
improves continuous tracking of the threat complex for trajectories 
into U.S. and Europe.
    The AN/TPY-2 and the European Midcourse Radar combined with the 
interceptors at Fort Greely and Vandenberg Air Force Base (AFB) 
provides more confidence and performance margin in the defense of the 
U.S. and will allow for protection of the Thule Radar against stressing 
threat trajectories.
    However, Europe cannot defend against intermediate-range ballistic 
missile (IRBM)/intercontinental ballistic missile (ICBM) threats 
without a European interceptor site (EIS).

                COMPARATIVE COSTS OF THIRD SITE OPTIONS

    2. Senator Bill Nelson. General Obering, given that there are two 
options for the planned deployment of the final 10 Ground-Based 
Interceptors (GBIs)--either at Fort Greely, or in Europe--presumably 
Missile Defense Agency (MDA) has analyzed the comparative cost of those 
two options. An MDA budget chart indicates the cost of the proposed 
European deployment of interceptors and radars would be over $4 billion 
through fiscal year 2013. How much would it cost to deploy the 10 
additional missiles at Fort Greely?
    General Obering. The Department's plan is to deploy GBIs 45-54 at 
the EIS and MDA's fiscal year 2008 President's budget request includes 
resources that support this plan.
    It would be possible to deploy these interceptors at Fort Greely 
and the cost difference would be $1,461 million less than deploying 
them at the EIS. The total cost of the EIS site is $2,298 million which 
includes: $442 million to procure the 10 interceptors; $617 million for 
silos, launch support equipment and interceptor emplacement; $1,011 
million for construction activities of the missile field, mission and 
supporting facilities; $130 million for interceptor and satellite 
communications systems; and $98 million for noninfrastructure security. 
The total cost of deploying the 10 interceptors to Fort Greely is $837 
million which includes: $442 million to procure the 10 interceptors; 
and $395 million to provide a missile field in which to emplace them 
(including a Mechanical Electrical Building, 10 sets of silos and 
launch support equipment and all software upgrades needed to the Fire 
Control and Command Launch Equipment to support the 2-stage GBIs). 
Therefore, the cost of deploying these 10 interceptors at Fort Greely 
would be $2,298 million^$837 million = $1,461 million less than 
deploying them at the EIS.
    However, while the emplacement of these 10 GBIs at Fort Greely 
would cost less, these interceptors would not provide the same 
defensive capability from this location as compared to the European 
site. The purpose of emplacing 10 GBIs at the European site is to 
enhance protection of the U.S homeland from emerging long range Middle 
Eastern threats, as well as extend missile defense coverage to our 
friends, allies and deployed forces in Europe from intermediate range 
Middle Eastern threats. This defensive capability could not be 
accomplished by emplacing these 10 GBIs at Fort Greely.

                       COVERAGE OF PLANNED SYSTEM

    3. Senator Bill Nelson. General Obering, the North Atlantic Treaty 
Organization (NATO) Secretary General referred to different classes of 
NATO countries based on differing defensive coverage. Is it correct 
that the planned deployment of 10 interceptors in Poland and a mid-
course discrimination radar in the Czech Republic would not provide 
protection for all of NATO European territory?
    General Obering. The percentage of NATO territory defended by the 
proposed deployment of the EIS, the AN/TPY (formally know as FBX-T) and 
the European Midcourse Radar, is 100 percent of those that are 
threatened by long range missiles from Iran.
    Against ICBM class threats, only 20 of the 24 European NATO 
countries or 80 percent are vulnerable to these missiles from Iran. 
With the EIS and AN/TPY-2 in place, all 20 of these are defended. The 
four remaining countries, Turkey and portions of Greece, Bulgaria and 
Romania are too close to Iran's borders to be threatened by ICBM class 
threats.
    Approximately 85-90 percent, or 23 of the 24, of the European NATO 
countries are vulnerable against Iranian IRBM class missiles and the 
EIS and AN/TPY-2 can defend all of these countries against this class 
of threat.
    Those countries that are vulnerable to attack against the shorter 
range threats from Iran could be defended by deploying other U.S. 
missile defense forces, such as Patriot PAC-3. U.S. missile defense 
forces such Aegis Standard Missile-3 (SM-3) and Terminal High Altitude 
Area Defense (THAAD) (supported by an AN/TPY-2) could be deployed in a 
crisis to fill any coverage gaps. NATO missile defense forces do not 
now exist. The only NATO owned equipment is the Airborne Warning and 
Control System (AWACS). Other equipment ownership is retained by the 
member nations and is counted as part of their contribution to the NATO 
Military Budget. This allows NATO, as an alliance or as individual 
countries, to focus on the deployment of the more affordable shorter 
range defensive systems.

    4. Senator Bill Nelson. General Obering, what percentage of NATO 
territory would NOT be defended by the proposed deployment, and what 
NATO nations would not be completely covered?
    General Obering. The percentage of NATO territory defended by the 
proposed deployment of the EIS, the AN/TPY (formally know as FBX-T) and 
the European Midcourse Radar, is 100 percent of those that are 
threatened by long range missiles from Iran.
    Against ICBM class threats, only 20 of the 24 European NATO 
countries or 80 percent are vulnerable to these missiles from Iran. 
With the EIS and AN/TPY-2 in place, all 20 of these are defended. The 
four remaining countries, Turkey and portions of Greece, Bulgaria and 
Romania are too close to Iran's borders to be threatened by ICBM class 
threats.
    Approximately 85-90 percent, or 23 of the 24, of the European NATO 
countries are vulnerable against Iranian IRBM class missiles and the 
EIS and AN/TPY-2 can defend all of these countries against this class 
of threat.
    Those countries that are vulnerable to attack against the shorter 
range threats from Iran could be defended by deploying other U.S. 
missile defense forces, such as Patriot PAC-3. U.S. missile defense 
forces such Aegis SM-3 and THAAD (supported by an AN/TPY-2) could be 
deployed in a crisis to fill any coverage gaps. NATO missile defense 
forces do not now exist. The only NATO owned equipment is the AWACS. 
Other equipment ownership is retained by the member nations and is 
counted as part of their contribution to the NATO Military Budget. This 
allows NATO, as an alliance or as individual countries, to focus on the 
deployment of the more affordable shorter range defensive systems.

    5. Senator Bill Nelson. General Obering, is it possible that other 
missile defense systems, including PAC-3, Aegis ballistic missile 
defense (BMD) and THAAD could provide defensive coverage of uncovered 
portions of Europe against future ballistic missile threats?
    General Obering. Yes, other BMD systems could provide defensive 
coverage of those countries that are not threatened by longer-range 
Iranian missiles, but remain vulnerable to shorter range Iranian 
threats. Patriot PAC-3 could be deployed, or Aegis SM-3 and THAAD 
(supported by an AN/TPY-2) could be deployed in a crisis to fill any 
coverage gaps. The number of ship locations and THAAD or PAC-3 
batteries required will depend on the threat missile class type (i.e. 
IRBM or shorter range class threat) and the sensor architecture used.
    These gaps could also be covered with a combination of U.S. and 
NATO, or indigenous defensive capabilities. NATO missile defense forces 
do not now exist. The only NATO owned equipment is the AWACS. Other 
equipment ownership is retained by the member nations and is counted as 
part of their contribution to the NATO military budget. This allows 
NATO, as an alliance or as individual countries, to focus on the 
deployment of the more affordable shorter range defensive systems.

                DEFENSIVE COVERAGE OF THE UNITED STATES

    6. Senator Bill Nelson. General Obering, is it correct, as you have 
indicated, that the ground-based midcourse (GMD) system currently 
deployed in Alaska and California would provide defensive coverage of 
the United States against a potential future Iranian ICBM threat?
    General Obering. Yes, the ground based interceptors, currently 
deployed in Alaska and California, provide defensive coverage of the 
United States against potential Iranian ICBMs. This coverage is 
dependent on both the Fylingdales radar in the United Kingdom and the 
Thule radar in Greenland.
    The addition of a forward based radar and Eurpoean Midcourse Radar 
located, combined with the interceptors in Alaska and California, adds 
confidence and performance margin in the defense of Alaska and provides 
a hedge against threat uncertainty.
    The defense of the Fylingdales radar requires a EIS or another 
Ballistic Missile Defense System (BMDS) asset with capability to defend 
against ICBM and IRBM class threats.

                      NEAR-TERM, EFFECTIVE SYSTEMS

    7. Senator Bill Nelson. General Obering, last year Congress enacted 
legislation, section 223 of Public Law 109-364, that requires the 
Department to place a priority within the missile defense program on 
the development, testing, fielding and improvement of effective, near-
term missile defense capabilities, specifically including the GMD 
system, the Aegis BMD system, the Patriot PAC-3 system, and the THAAD 
system, as well as their associated sensors. Can you tell us how the 
Department has implemented this requirement, and what changes were made 
to comply with this provision? In your answer, please indicate the 
fiscal year 2008 funds requested for these near-term capabilities.
    General Obering. The development, fielding, testing and improvement 
of effective near-term missile defense capabilities is a priority 
within the MDA and about $7.1 billion out of our total fiscal year 2008 
President's budget request of $8.9 billion is allocated for this 
purpose. In the near-term, we seek to maintain and sustain an initial 
capability to defend the homeland against limited ICBM threats and 
protect friends and allies and deployed forces against short- to 
medium-range threats. To achieve this goal, over the Future Years 
Defense Program (FYDP) we intend to complete the fielding of up to 44 
GBIs in Alaska and California; enhance our early warning radars in 
Alaska, California and the United Kingdom; field the Sea-based X-band 
(SBX) radar in the Pacific; field the first transportable THAAD fire 
units; deploy up to 132 sea-based SM-3 interceptors on 18 Aegis 
engagement ships; and expand our command, control and battle-management 
network by establishing three new command and control suites at U.S. 
Strategic Command, U.S. Pacific Command and U.S. Northern Command.
    In the near-term we also seek to close gaps and improve our 
capability to keep pace with growing threats. Accomplishing this 
objective requires the fielding of up to 10 GBIs and an associated GMD 
radar in Europe. We have also allocated resources which support 
continued development work that will improve these initial missile 
defense assets, and we continue to fund an increasingly operationally 
realistic testing program.
    The following chart provides funding details. Note that funds for 
procurement of PAC-3 missiles are included in the Army budget and the 
following chart shows MDA resources used for continued development of 
PAC-3.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                        KNOWLEDGE-BASED APPROACH

    8. Senator Bill Nelson. Mr. Francis, the Government Accountability 
Office (GAO) has recommended that the MDA should use a ``knowledge-
based'' acquisition approach for all its programs. Apparently MDA has 
only partially implemented your ``knowledge-based'' recommendation and 
has a different understanding of that concept. Can you describe what 
you mean by a ``knowledge-based'' acquisition strategy, and how it 
differs from what you understand the MDA approach is?
    Mr. Francis. Much of what MDA has written about knowledge-based 
acquisition agrees with GAO's definition. However, we have not seen MDA 
put into practice an entirely knowledge-based strategy. Instead, it has 
implemented some aspects of the strategy. MDA defines knowledge points 
as those times within a program that data is obtained from discrete 
tests, demonstrations, or processes. This data is used to confirm 
earlier estimates or predictions and is to be linked with an explicit 
decision. The decision could involve money, schedule, performance 
requirements, or proceeding to the next stage of development. These 
knowledge points are program-specific, and MDA will measure actual 
performance for an individual program, like Airborne Laser, against the 
knowledge points it has set for that program.
    We identify three key points in a program when specific knowledge 
is important to success. These points represent aggregations of 
knowledge that can be judged against objective standards for 
acceptability. They correspond to the points at which a program is 
making investment decisions. These knowledge points and associated 
indicators are defined as follows:
Knowledge point 1
          Resources and needs match. This point occurs when a sound 
        business case is made for the product--that is, a match is made 
        between the customer's requirements and the product developer's 
        available resources in terms of knowledge, time, money, and 
        capacity. Achieving a high level of technology maturity at the 
        start of system development is an important indicator of 
        whether this match has been made. This means that the 
        technologies needed to meet essential product requirements have 
        been demonstrated to work in their intended environment.
Knowledge point 2
          Product design is stable. This point occurs when a program 
        determines that a product's design is stable--that is, it will 
        meet customer requirements, as well as cost, schedule, and 
        reliability targets. A best practice is to achieve design 
        stability at the system-level critical design review, usually 
        held midway through development. Completion of at least 90 
        percent of engineering drawings at the system design review 
        provides tangible evidence that the design is stable.
Knowledge point 3
          Production processes are mature and the design is reliable. 
        This point is achieved when it has been demonstrated that the 
        company can manufacture the product within cost, schedule, and 
        quality targets. A best practice is to ensure that all key 
        manufacturing processes are in statistical control--that is, 
        they are repeatable, sustainable, and capable of consistently 
        producing parts within the product's quality tolerances and 
        standards--at the start of production. Demonstration of a 
        prototype that meets reliability and performance requirements 
        prior to the production decision can minimize production and 
        post-production costs.
          We have not seen MDA gather all of the knowledge discussed 
        above before deciding to move forward in the acquisition cycle. 
        For example, MDA made the decision to produce and field the 
        Ground-based Midcourse Defense System before it tested the 
        element using production-representative hardware, in addition, 
        MDA produced interceptors for operational use when it had not 
        completed a successful intercept test in 2 years. Another 
        example is MDA's establishment of the MKV program office and 
        appointment of a program manager before technologies critical 
        to the capability desired were mature and before it could 
        prepare a knowledge-based estimate of developmental cost.

              MDA USING FUNDS FOR PURPOSES NOT AUTHORIZED

    9. Senator Bill Nelson. Mr. Francis, you noted in your report that 
funding for an element of the BMD system is authorized to cover a range 
of activities and that if the MDA runs into problems with one activity, 
it can defer work on another activity to cover the cost of the 
problems. This sometimes means that funding authorized for one activity 
is used for another purpose. Do you have any thoughts as to how 
Congress might ensure that the funding it authorizes is used for the 
purpose for which it was authorized?
    Mr. Francis. To effectively manage the BMDS, MDA may need some 
flexibility to use funds for purposes other than those for which the 
funds were appropriated. For example, a more pressing need for the 
funds may arise or the agency may want to speed-up the development of 
an element that is maturing faster than expected. However, in instances 
where Congress has a special interest in knowing that funds are being 
used for their intended purpose, it could set dollar thresholds for 
moving funds within a budget program element that would trigger a 
report to Congress should that threshold be breached. We think this can 
be done in such a way that the MDA Director maintains his ability to 
make such decisions expeditiously, but at the same time providing 
Congress transparency into the consequences of those decisions. 
Congress might also consider designating certain funds as ``special 
interest'' and requiring that the use of any of the funds for any other 
purpose be reported.
    MDA could provide increased transparency of deferred work in a 
couple of ways. First, it could report the cost of deferred work as a 
cost of the block that it benefits. For example, work deferred from 
Block 2004 until Block 2006 could be accounted for and reported as a 
cost of Block 2004, regardless of when the work is performed. 
Alternatively, when MDA requests funds during a subsequent block to pay 
for deferred work, the agency could notify Congress that it is 
requesting funds for this purpose. The notification could include an 
identification of the block in which the work was originally planned 
and the amount of funding needed to pay for the deferred work.

    10. Senator Bill Nelson. Mr. Francis, would requiring that MDA 
notify Congress when it reprograms funding within a program element be 
a useful management process?
    Mr. Francis. Yes. By notifying Congress when it reprograms funds 
within an element, MDA would improve the transparency of its actions. 
An individual element can cover a full range of activities, including 
technology development, system development, production, fielding, and 
support. I think it is a reasonable expectation, given MDA's 
flexibility to move funds between these activities, that MDA notify 
Congress when it is doing so. However, notifying Congress may not 
necessarily have to mean obtaining prior approval, as discussed in the 
answer to question 11.

    11. Senator Bill Nelson. Mr. Francis, another option would be to 
require prior approval by Congress of certain proposed reprogramming 
actions, as is frequently done with other programs. In your view, could 
that be a useful oversight tool?
    Mr. Francis. MDA is required to report all reprogramming actions 
that result in $10 million or more being moved from one budget program 
element to another. There are benefits in terms of control in expanding 
MDA's reporting requirement to include some intra-program element 
reprogramming actions. For example, it may be worthwhile to report 
actions that involve the movement of funds from one activity to another 
within a program element if an established cost threshold is breached 
or if MDA plans to use funds appropriated for an activity in which 
Congress has a special interest for some other purpose. However, this 
amount of control must be weighed against the potential loss of 
flexibility that MDA currently has to manage its system of systems. For 
example, if prior approval were required before moving funds from one 
activity to another within a program element, the decisions would take 
longer. Alternatively, Congress could consider requiring notification 
of such reprogramming without necessarily requiring prior approval. 
This would preserve MDA's flexibility while providing Congress 
transparency into the reprogramming decisions.

                  INDEPENDENT LIFE-CYCLE COST ESTIMATE

    12. Senator Bill Nelson. Mr. Francis, your report notes that the 
MDA is not required to obtain an independent life-cycle cost estimate 
of the BMD System or its elements, as other major defense acquisition 
programs are required to do. From a standpoint of oversight and 
accountability, do you believe it would be useful to have an 
independent life-cycle cost estimate for the BMD System and its 
elements?
    Mr. Francis. Yes, increments of elements that have effectively 
entered system development and demonstration should be able to produce 
the information needed to estimate the life-cycle cost of that 
increment and to enable the Cost Analysis Improvement Group (CAIG) to 
independently verify that estimate. As we pointed out in our March 2007 
report, independent verification of a program's cost estimate allows 
decision makers to gauge whether the program is executable given other 
budget demands and it increases the likelihood that a program can 
execute its plan within estimated costs. However, we note that an 
element program office may have some ongoing efforts whose cost cannot 
be estimated. For example, a program could have one increment in system 
development and demonstration, but it could also be developing the 
technology important to a future increment. In such instances, the 
element program office would only estimate and have the CAIG validate 
the life-cycle cost of the increment whose technology is being 
integrated into a complete product. Studies of the best practices of 
leading commercial developers have shown that until all technologies 
critical to a desired capability are mature managers cannot make good 
cost, schedule or performance estimates. This is because technology 
development is a time of discovery that cannot be scheduled, whose 
outcome cannot be predicted, and whose cost cannot be accurately 
estimated.

                        ELEMENT-LEVEL REPORTING

    13. Senator Bill Nelson. Mr. Francis, your report recommends that 
the BMD program should report on cost, schedule, and performance at the 
individual missile defense element level, rather than at the entire BMD 
System level. Can you explain why, and why you think that should happen 
now?
    Mr. Francis. In our opinion, MDA should report on cost, schedule, 
and performance at both the BMDS level and the element level. Element-
level reporting is needed because since 2002, MDA has achieved its 
primary mission of developing, fielding, and supporting an integrated 
BMDS through the efforts of individual BMDS elements. Most of the 
agency's budget is requested by the elements and a significant amount 
of the agency's work is accomplished through element contracts. For 
example, over 73 percent of MDA's fiscal year 2005 budget and 72 
percent of the agency's fiscal year 2006 budget was devoted to the 
support of the nine BMDS elements. It makes sense to report in the same 
manner that funds are budgeted. The elements provide the individual 
assets and capabilities that help comprise the overall BMDS capability.
    This does not mean that the BMDS has to be managed in a stove-
piped, element-centric manner, however. I believe MDA should continue 
to manage BMDS as a system-of-systems versus as a byproduct of 
individual elements. A system-of-systems construct, like blocks, is 
useful for defining and managing the increments of an integrated BMDS. 
Moreover, it provides more latitude to make tradeoffs among individual 
requirements, costs, and capabilities while preserving the integrity of 
the overall BMDS. The block baseline should also be consistent with the 
baselines of the individual elements.
    The cumulative information gained from both element-level and BMDS-
level baselines would allow decision makers to better assess the value 
that the missile defense program delivers for the investment being 
made. Determining the value for money is likely to become increasingly 
important as cost growth in entitlement programs decrease discretionary 
spending and as defense budgets are squeezed by mounting expenses to 
support the conflict in Iraq.

                      CONFIDENCE IN TWO-STAGE GBI

    14. Senator Bill Nelson. Dr. McQueary, at the hearing I described a 
two-stage variant of the GBI being developed by the MDA for possible 
deployment in Poland. The MDA has identified seven development risk 
areas it is working to mitigate on this missile, which has not 
completed development and has never been tested. My question to you was 
whether you have high confidence that this undeveloped and untested 
missile will perform in an operationally effective, reliable, and 
suitable manner. What is your current assessment?
    Dr. McQueary. There are added risks anytime a system's working 
design is changed. In the case of the two-stage variant of the GBI, I 
agree with MDA's seven developmental risk areas. I believe the most 
significant risk is with the software changes and integration that MDA 
must make not only in the interceptor, but also in the Command and 
Launch Equipment and the GMD Fire Control to optimize the interceptor's 
new performance envelope. There is commonality between the two-stage 
and three-stage variants of the GBI booster. MDA gained experience when 
it converted a three-stage Minuteman II into a two-stage Minuteman II. 
However, I cannot make an assessment on effectiveness, reliability, or 
suitability on a two-stage design that has not yet been built or 
tested. Through MDA's Integrated Master Test Plan, I will approve the 
combined developmental/operational flight testing of the two-stage 
interceptor, and my office and the joint operational test team will 
participate in all aspects of this testing.

                           INACCURATE MODELS

    15. Senator Bill Nelson. Dr. McQueary, at the hearing, I asked you 
whether you knew of instances when models had not accurately predicted 
the performance of the BMD System or its elements. You indicated you 
did not remember any specific examples. For example, did the GMD model 
predict that the GBI would not launch in IFT-13C, or predict the so-
called ``Track Gate Anomaly''?
    Dr. McQueary. While models can provide useful predictions of system 
or component performance, they generally are not designed to predict 
hardware failure modes or software malfunctions. The GMD model did not 
predict the software timing problem that aborted the launch in IFT-13C. 
Even when software malfunctions are discovered during test, and the 
models are modified or developed to account for these malfunctions, 
they still may not accurately predict their severity or frequency. The 
``Track Gate Anomaly'' is a good example. The GMD model did not 
initially predict ``Track Gate Anomaly''. Models of statistical 
occurrence which MDA developed for the ``Track Gate Anomaly'' did not 
accurately predict the frequency of occurrence during a recent flight 
test.

    16. Senator Bill Nelson. Dr. McQueary, can you check your agency's 
records to see if there are any specific examples and, if so, provide 
them and describe their significance?
    Dr. McQueary. MDA's experience with models is no different than the 
experiences of other acquisition programs in the Department of Defense 
(DOD). Some models do a good job of predicting or replicating 
capability and performance, and some don't. There are several examples 
where MDA's models did not match or predict system capabilities: 
[Deleted.]

                FLIGHT TESTS REQUIRED TO VALIDATE MODELS

    17. Senator Bill Nelson. Dr. McQueary, your prepared testimony says 
that for you to have confidence in your assessment of the operational 
effectiveness of the BMD System, you need ``validated models and 
simulations,'' which you say ``don't exist today because MDA does not 
have enough flight test data to anchor them.'' Can you explain what you 
mean by validating and anchoring models and simulations, and why it's 
crucial to your assessment?
    Dr. McQueary. One of the purposes of testing is to gather the data 
necessary to validate that the models accurately represent the 
performance of the system under test. The process is simple. The model 
is used pre-test to predict the performance expected during the test. 
The test is run and the performance data is collected. A post-test 
reconstruction is accomplished to compare the actual performance to the 
predicted performance. The model is then adjusted to better predict 
system performance. It is an iterative process through which the 
model's fidelity continually improves. Once I am satisfied that the 
models are validated, I can use them to assess system capability. This 
is especially important in assessing capability at the edges of the 
system's performance envelope where peacetime, safety, and fiscal 
constraints usually apply.
    In the case of the BMDS, there are BMDS-level models and there are 
element-level models. I need both, correctly and efficiently working 
together, to accurately assess capability. Generally, the element-level 
models are more mature, have detailed validation plans, and are 
progressing toward validation through ground and flight testing. The 
BMDS-level models are not ready for use in my assessments, but should 
be ready to assess the FTG-04 pre and post test events and the Block 06 
BMDS in October 2007. I am working with MDA to understand the details 
and the timelines associated with development, integration, and 
validation of the BMDS-level models. The only way MDA can validate that 
these models accurately predict BMDS performance is to ``anchor'' them 
to flight test data.

    18. Senator Bill Nelson. Dr. McQueary, why would you not accept 
models and simulations as a substitute for flight tests?
    Dr. McQueary. We need the flight tests to validate that the models 
and simulations accurately reflect the performance of the system under 
test. Once they have been validated through flight test, they can be 
used confidently to predict system performance.

               OPERATIONALLY REALISTIC GMD SALVO TESTING

    19. Senator Bill Nelson. Dr. McQueary, everyone seems to agree on 
the need for operationally realistic flight testing as the best means 
to have confidence in the operational capability of the BMD system. 
Since the GMD system firing doctrine is premised on being able to fire 
two interceptors at each target, do you agree that it would be 
important to test and demonstrate that capability in flight testing, as 
we are doing with other systems?
    Dr. McQueary. The ability of the GMD element of the BMD system to 
launch and guide two interceptors on a single target is an important 
capability that MDA must demonstrate to validate warfighter firing 
doctrine. The Patriot element has demonstrated this capability. Both 
the Aegis BMD and THAAD elements plan future tests to demonstrate this 
capability. It is logical that GMD should do so also. However, this 
test will require additional investment in the test infrastructure at 
Vandenberg AFB including the temporary modification of an operational 
silo into a test silo.

                      MULTIPLE TARGET GMD TESTING

    20. Senator Bill Nelson. Dr. McQueary, the GMD system is designed 
to defeat a small number of relatively simple targets. Do you believe 
it would be valuable to demonstrate that capability with flight testing 
of the system against multiple targets, so we have confidence in its 
capability? Would that be operationally realistic given the GMD 
mission?
    Dr. McQueary. Yes, but to do so within the capabilities of 
peacetime range and safety limitations will require sizeable investment 
in infrastructure (telemetry and flight safety systems) and more 
extensive coordination. A GMD flight test involving multiple targets 
and interceptors would be operationally realistic and, if successful, 
confidence building. Patriot has already demonstrated this capability. 
Aegis BMD recently demonstrated the capability to manage near 
simultaneous engagements of a ballistic missile and a cruise missile 
threat.

                      JOINT CAPABILITIES MIX STUDY

    21. Senator Bill Nelson. General Campbell, the Joint Force 
Component Command for Integrated Missile Defense (JFCC-IMD) conducts 
studies and analyses on missile defense capabilities, needs, and force 
structure. What are results of the Joint Capabilities Mix Study with 
respect to desired or required force structure of our regional missile 
defense systems, namely Patriot/PAC-3, Aegis BMD, and THAAD?
    General Campbell. The Joint Capabilities Mix (JCM) Study is an 
iterative opportunity for the joint communities of interest (including 
combatant commanders, Services, and the MDA) to explore weapons and 
sensor mixes to counter the expected threats in three major operation 
areas across three epochs (2012, 2015, 2020). JCM I, concluded in April 
2006, influenced MDA programmatic decisions to increase the number of 
Terminal High Altitude Area Defense (THAAD) firing units and 
interceptors, increase SM-3 interceptors, and start the Sea-Based 
Terminal program. JCM II has just concluded and results are being 
staffed and briefed through the Joint Requirements Oversight Commission 
process. The findings provide a recommendation of the number of upper-
tier (THAAD and SM-3) interceptors required for certain contingencies. 
Additional study will be required to further refine the analysis.

    22. Senator Bill Nelson. General Campbell, do we have enough force 
structure today to satisfy combatant command operational plans, and are 
we planning and budgeting for enough in the FYDP? If not, which systems 
would we need more of to meet their operational plans?
    General Campbell. Requests for land and sea-based capabilities have 
emerged which significantly exceed the near-term worldwide inventory. 
The MDA has increased the Terminal High Altitude Area Defense (THAAD) 
equipment buy. The Army has requested an increase in force structure to 
man the additional THAAD equipment and has requested additional Patriot 
battalions as part of its plan to Grow the Army. For missile inventory, 
MDA has increased its THAAD and SM-3 buy. The Army continues to 
purchase and build the PAC-3 inventory, and is preparing to transition 
to the new PAC-3 Missile Segment Enhanced missile in fiscal year 2010. 
This new missile will significantly increase the Patriot battlespace 
and provide capability against a larger threat set. We continue to 
refine force structure requirements through additional analysis and 
inform MDA of future combatant command capability needs through the 
Prioritized Capability List.

                      MILITARY UTILITY ASSESSMENT

    23. Senator Bill Nelson. General Campbell, I understand that the 
JFCC-IMD has performed several military utility assessments of the GMD 
system for General Cartwright. How many of the assessments have been 
conducted and what have been the general conclusions for each of them?
    General Campbell. Strategic Command has conducted three military 
utility assessments. This annual assessment has been consistent in 
concluding that the BMDS provides a ``thin line'' of capability against 
the threat. The MDA has delivered additional capability each year, 
adding greater confidence in the operation of the BMDS.

                     UPGRADED/EVOLVED THAAD MISSILE

    24. Senator Bill Nelson. General Campbell, the missile defense 
system is intended to be a spiral development program. There is an 
opportunity to upgrade the THAAD missile to have far greater capability 
against missiles of greater range and complexity. Do you support 
increasing the capability of the THAAD missile to provide enhanced 
defensive capability?
    General Campbell. The Terminal High Altitude Area Defense (THAAD) 
is an emerging capability for area defense. There are potential 
opportunities to develop more robust enhancements to the THAAD missile 
in future years. However, the increase in cost to field these 
enhancements is dramatic, even when compared to what is currently 
programmed. The planned THAAD program will provide a terminal upper 
tier capability that complements our midcourse and lower tier systems. 
We should continue to build a balanced BMDS as currently planned. We 
should examine THAAD's potential for growth and determine if the cost 
of the additional capability allows us to sustain a balanced program.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin

                     WHICH MISSILE FOR DEPLOYMENT?

    25. Senator Levin. General Obering, if the decision were made to 
deploy GBIs 41-50 at Fort Greely, rather than in Europe, would you 
deploy more of the existing 3-stage interceptors, or use the new 
developmental 2-stage version?
    General Obering. If the decision were made to deploy GBI's 45-54 at 
Fort Greely rather than in Europe, more of the existing 3-stage 
interceptors would be used. The 2-stage configuration GBI is being 
developed specifically for the EIS. Its shorter minimum engagement time 
is better suited to engage threat ranges in the European Theater. The 
EIS, combined with a forward-based radar, provides considerable 
redundant coverage of the U.S. and, depending on the threat, defends 
Western and Central Europe and most of Eastern Europe. Neither three-
stage nor two-stage interceptors at Fort Greely and Vandenberg AFB can 
defend Europe.

    26. Senator Levin. General Obering, since the budget request seeks 
funds for the possible deployment of GBIs 41-50 at Fort Greely, does 
the funding requested in the fiscal year 2008 budget request for 
interceptors 41-50 permit the production of 10 more three-stage GBIs?
    General Obering. Yes, funding requested for OBV-2 stage (GBIs #45-
54) could be diverted and used to acquire 3-stage GBIs in full, and 
emplacing these interceptors at Fort Greely would provide additional 
capability for the BMDS. However, The Department's plan is to deploy 
the OBV-2 stage at the EIS and the resources requested in MDA's fiscal 
year 2008 President's budget support this plan. The purpose of 
emplacing these interceptors at the European site is to enhance 
protection of the U.S homeland from emerging long range Middle Eastern 
threats, as well as extend missile defense coverage to our friends, 
allies and deployed forces in Europe from long-range and intermediate-
range Middle Eastern threats. This defensive capability could not be 
accomplished by emplacing three-stage GBIs at Fort Greely.

                  RESULTS OF SEPTEMBER GMD FLIGHT TEST

    27. Senator Levin. General Obering, the flight test of the GMD 
system last September (FTG-02) was considered a success. However, I 
understand that there were some technical issues with the interceptor 
that caused a 4-month delay in the next test of the system. Please 
describe those technical issues and the status of the corrections for 
them.
    General Obering. [Deleted.]

                             POLISH CONCERN

    28. Senator Levin. Mr. Green, the former Polish Minister of 
Defense, Radek Sikorski, who is now a member of Poland's parliament, 
recently wrote in the Washington Post that the U.S. proposal to place 
GMD interceptors and a radar in Europe ``could provoke a spiral of 
misunderstanding, weaken NATO, deepen Russian paranoia, and cost the 
United States some of its last friends on the continent.'' If that were 
the result of the proposed deployment in Europe, do you believe that 
would be in our national security interest, and would you support such 
a deployment?
    Mr. Green. If these outcomes were likely, we would reconsider our 
plans to deploy U.S. missile defenses in Europe. However, in light of 
recent events, I believe such results are unlikely.
    NATO ministers met at the North Atlantic Council meeting on April 
19 and, according to Secretary General Jaap de Hoop Scheffer, ``agreed 
that the threat of missile attacks is real and that NATO is the right 
framework for discussions on missile defense.'' Rather than indicating 
that missile defense initiatives would divide and weaken the Alliance, 
NATO members expressed ``a shared desire that any U.S. system should be 
complementary to any NATO missile defense system'' and that ``the 
principle of indivisibility of security should apply.'' Moreover, NATO 
recently decided to assess the full political/military implications for 
the Alliance of the U.S. missile defense proposal and prepare a report 
by February 2008.
    U.S. Government representatives have consulted with and briefed 
numerous European government and European Union representatives on U.S. 
plans for basing missile defenses in Europe. These officials 
appreciated the U.S. efforts to apprise them of its plans, and they 
left the meeting with a better understanding of U.S. intentions. 
Although a few officials expressed reservations, most have responded 
positively.
    With regard to Russia, U.S. officials have met with the Russians 
repeatedly to explain that limited U.S. missile defense deployment in 
Europe is not directed at Russia and that it does not constitute a 
threat to Russian strategic forces. A detailed list of missile defense 
cooperation opportunities has also been presented to the Russians, 
which they agreed to discuss in technical expert meetings. President 
Putin did offer to drop Russian objections to the U.S. proposal to 
place missile defense assets in Poland and the Czech Republic if the 
U.S. would agree to use the Russian-controlled radar in Gabala, 
Azerbiajan in lieu of a new radar in the Czech Republic. Secretary 
Gates said he was pleased that the Russians acknowledge the threat of 
Iranian ballistic missiles and that action is necessary to counter this 
threat. He also said that although the U.S. is still firmly committed 
to bilateral negotiations with the Czech Republic, we look forward to 
discussing the Russian proposal at technical expert meetings in the 
future.

                     WHO PAYS FOR DEFENSE OF NATO?

    29. Senator Levin. Mr. Green, NATO has a long-standing tradition of 
having financial burden-sharing arrangements with the United States in 
which NATO pays for a share of the military capabilities that provide 
its protection and security. How much of this proposed $4 billion 
missile defense system intended to defend Europe will NATO be paying 
for under a NATO burden-sharing agreement?
    Mr. Green. The U.S. Government has made a proposal to deploy U.S. 
missile defense assets in Poland and the Czech Republic that will help 
defend the U.S. homeland and U.S. forces in Europe from long-range 
threats from Iran. The U.S. missile defense site also will be capable 
of defending much of Europe. We are not asking NATO to contribute 
financially to the cost of this deployment;
    NATO missile defense contributions come in other forms. To address 
short and medium range missile threats, NATO has allocated 800 million 
(about $1 billion) for the Active Layered Theater Ballistic Missile 
Defense, a command and control backbone for NATO member countries' 
missile defense systems. If negotiations are successfully concluded 
with Poland and the Czech Republic, they will contribute significant 
``in-kind'' resources in allowing U.S. systems to be deployed on their 
territory. The U.K. and Denmark agreed to allow the U.S. to upgrade 
early warning radars on their territories for BMD use.
    Other NATO allies already have or are pursuing short and medium 
range missile defense capabilities, including acquiring/upgrading 
Patriot PAC-2/3 systems, and co-developing Medium Extended Air Defense 
System. Several of our European allies have expressed interest in 
acquiring sea-based midcourse interceptors for use on their Aegis-
equipped ships.

              HOW MANY FLIGHT TESTS NEEDED FOR CONFIDENCE?

    30. Senator Levin. Dr. McQueary, your prepared testimony says that, 
because there have not been enough flight tests, you don't have 
validated models and simulations needed to give you confidence in the 
performance of the BMD System. How many additional successful flight 
tests must MDA conduct before you will have high confidence in the 
performance predictions of BMD System models and simulations?
    Dr. McQueary. I cannot give you that number today. We evaluate each 
flight test and associated ground test campaign to assess the 
confidence in the predictions of the models. Last fall I told General 
Obering that I would need validated models and simulations to assess 
the capability of the BMDS. He agreed and took action to develop the 
plan to get the data to support validation. Although the element-level 
models are acceptable for performance assessment, they don't integrate 
well with the less mature BMDS-level models. Element and BMDS models 
have to work together to accurately predict BMDS performance; they do 
not at this time. The interfaces are different, the software languages 
are different, the hardware is different, and the communications links 
are different. Once they work together, MDA must validate that they 
correctly and accurately represent BMDS performance. This requires both 
validation plans and test data. MDA is working on both. I am working 
with MDA to understand the details and the timelines associated with 
development, integration, and validation of these models. Once MDA 
finalizes its plans and provides them to me, I should be able to give 
you an estimate of the number of flight tests required to validate the 
BMDS models and simulations.

    31. Senator Levin. Dr. McQueary, how long do you expect it will 
take until those flight tests are conducted?
    Dr. McQueary. I will not be able to give you that estimate until I 
get the validation plans from MDA that define the number of flight 
tests required. However, it is imperative that General Obering continue 
to follow the prudent test-analyze-fix-test approach to flight testing 
that he adopted following the reviews of the December 2004 and January 
2005 flight test failures, and I am confident he will do so.

    32. Senator Levin. Dr. McQueary, for each of the near-term BMDS 
weapon elements (GMD, Aegis BMD, THAAD), how many more successful 
flight tests would be required for you to have confidence that the 
element will perform in an operationally effective and suitable manner 
under operational conditions?
    Dr. McQueary. Fiscal constraints will likely make it impossible to 
achieve statistical confidence in the operational effectiveness and 
suitability of the BMDS. For example, to achieve 80 percent confidence 
that an element can perform its mission successfully 80 percent of the 
time (80/80), the element would have to complete 10 consecutive, 
successful flight tests using the same geometry, scenario, and 
hardware/software configuration. For higher confidence/success, the 
number of consecutive, successful tests is even higher: 90/80-13, 80/
90-21, and 90/90-28. Therefore, assessing the operational effectiveness 
and suitability for each element is going to be a combination of flight 
tests and modeling and simulation. If I have validated models and 
simulations, the currently planned flight test programs for Aegis BMD 
and THAAD should be adequate for me to assess operational effectiveness 
and suitability for their current spiral development phases. This 
assumes no further reductions in their currently planned flight test 
programs. On the other hand, the current GMD flight test program is 
early in its developmental phase and still recovering from the two 
failures in December 2004 and February 2005. General Obering is 
following a prudent ``test-analyze-fix-test'' approach which, when he 
finds problems, results in testing delays. The current FTG-03 delay is 
a good example. At the same time, MDA must validate its models, a 
process directly related to flight testing. As a result, at this time 
it is impossible for me to estimate the number of successful flight 
tests I will need to assess GMD operational effectiveness and 
suitability.

                          OPERATIONAL TESTING

    33. Senator Levin. Dr. McQueary, is it correct that there is still 
no operational testing planned for the GMD system and other MDA 
elements? If so, why is that?
    Dr. McQueary. At the present time, the only operational testing MDA 
plans and is conducting for GMD and the other BMDS elements is combined 
developmental/operational testing. My office works closely with MDA to 
develop the parameters of these tests. Current Department policy 
relieves MDA from conducting operational testing until it declares an 
element ready for transition to a Service with that Service planning 
for a production run. Congressional direction allows MDA to accomplish 
limited fielding using RDT&E funds.

    34. Senator Levin. Dr. McQueary, do you believe there is still a 
need for operational testing of the GMD system and other elements of 
the BMD System?
    Dr. McQueary. Over the years, we have seen the value of operational 
testing. Every time we get the warfighters operating the systems in 
their intended environments and roles, we learn both the strengths and 
the limitations of these systems. Operational testing can take several 
forms. It can be the classic title 10 U.S.C. ``stand alone'' 
operational testing, or it can be combined developmental/operational 
testing. Following current Department policy, MDA has developed a 
combined developmental/operational test program for the BMDS. Using the 
congressionally-mandated and Director of Operational Test and 
Evaluation (DOT&E)/MDA-developed Operational Realism criteria, we have 
seen increasing operational realism in MDA's combined developmental/
operational test program. This approach is not perfect, but it is 
working. As MDA gains confidence in the BMDS, it allows more 
operational realism in each succeeding test.

                          UNCLASSIFIED REPORTS

    35. Senator Levin. Dr. McQueary, most of the material in your last 
two missile defense reports appears to be unclassified, even though the 
reports themselves are classified. Would it be possible for your next 
annual BMD report to be unclassified, with a classified annex?
    Dr. McQueary. We are looking at the possibility of publishing an 
unclassified BMDS report with a classified annex. Since the 2007 report 
will be a report on the BMDS Block 2006 capability (required by 
National Defense Authorization Act for Fiscal Year 2006) rather than a 
report on the 2007 test program (required by National Defense 
Authorization Act for Fiscal Year 2002), more of the report may be 
classified than in the past. We'll make the determination as we begin 
putting the report together. Our intent will be to make as much of the 
report unclassified as we can while maintaining appropriate security.

               USE OF NON-RESEARCH AND DEVELOPMENT FUNDS

    36. Senator Levin. Mr. Francis, MDA is asking Congress to extend 
its authorization to use exclusively research and development funds to 
procure and deploy operational assets. In your recent report, you 
recommend that future operational missile defense assets should be 
purchased with procurement funds. Can you comment on whether you would 
also recommend that MDA should request operations and maintenance 
funding to provide support for fielded assets, and military 
construction funds to build operational missile defense facilities, and 
if you do, why?
    Mr. Francis. Yes, I recommend that MDA use operations and 
maintenance funds to support fielded assets, as well as military 
construction funds to build operational missile defense facilities. 
First, requesting money according to the purpose for which it is to be 
used would put MDA's budget on the same basis and terminology as that 
of other programs. Second, because MDA's budget already identifies the 
funds it plans to use to operate and maintain assets in the field, it 
would not be difficult for MDA to formulate a request for operations 
and maintenance funds. Third, using the correct appropriation to 
request funds would improve transparency and accountability as funds 
could not be moved between appropriations without congressional 
approval. In addition, because military construction projects must 
provide for full funding of the complete cost of construction, Congress 
will be aware of the full cost of a project at the time funds are 
requested and future Congresses will not be in the position of having 
to provide additional funds to ensure a usable end item.

                   COMPARING ACQUISITION FLEXIBILITY

    37. Senator Levin. Mr. Francis, are there other major defense 
acquisition programs that have been given the same level of acquisition 
flexibility as has been granted to the BMD program? If so, do you see 
the same issues with program transparency, accountability, and 
oversight in those programs as you see in the missile defense program?
    Mr. Francis. I am not aware of any other acquisition program that 
has been granted as much flexibility as MDA. DOD has allowed other 
programs some limited flexibility. For example. DOD has allowed the 
Future Combat Systems program more fluidity in establishing 
requirements and less stringent milestone exit criteria. However, the 
program does operate within the traditional acquisition framework that 
makes programs accountable for their planned outcomes and cost. MDA on 
the other hand is not yet required to apply several important oversight 
mechanisms that, among other things, provide transparency into program 
progress and decisions. For example, MDA is not expected to comply with 
user-established requirements, operational requirements documents, an 
approved program baseline, independent cost estimates, or milestone 
decisions.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

                    IMPROVED TRANSPARENCY REPORTING

    38. Senator Reed. General Obering, in its March 2007 report, the 
GAO recommended that to improve the transparency of the BMD program, 
MDA should establish cost, schedule, and performance baselines for 
those elements effectively in the ``system development and 
demonstration'' phase, and report against those baselines. MDA 
partially concurred with this recommendation, but was concerned that an 
element-centric approach would detract from its efforts to develop a 
single integrated BMD System. GAO continues to support its 
recommendation because the element-centric reporting approach reflects 
the way MDA requests funding and contracts for development of the BMD 
System. What reporting basis would MDA recommend to provide a similar 
level of transparency as reporting against element baselines would 
provide?
    General Obering. We understand the GAO's desire for traceability. 
However, we are convinced that the element-centric reporting approach 
that GAO prefers is not the best way, nor the only way to achieve its 
objectives. As indicated in the DOD response to the GAO, the single 
integrated development approach for the BMDS has afforded the MDA the 
opportunity to make both technical and programmatic trades; thus 
enabling us to rapidly make prototype and test assets available for 
operational use. We stated our intent to modify our current biennial 
block approach to improve our reporting against the system-level 
baselines in accordance with section 234 of the National Defense 
Authorization Act for Fiscal Year 2005. We have not yet worked out the 
details of a new reporting basis, but we intend to work with both the 
GAO and your staff as we proceed with this effort over the coming 
months. We believe the result of this effort will be a reporting system 
that will provide appropriate transparency to satisfactorily address 
GAO's concerns.

    39. Senator Reed. General Obering, would MDA adjust its budget 
requests and contracts to match its reporting approach?
    General Obering. Because we have not worked out the details of a 
revised block approach, I cannot answer your question directly at this 
time. I do not anticipate that we would adjust budget requests or 
contracts to fit the reporting requirements. As I see it, the 
definition of the work to be done determines how we structure our 
budget requests and our contracts. Reporting must be adapted to reflect 
accurate and meaningful information. Reporting requirements must not be 
allowed to dictate how we structure our program. Sound management 
practice must remain focused on desired program investment outcomes; 
reporting is important and necessary in that context, but should not 
become more important than successfully fielding BMDS capability.

                  IMPROVED ACCOUNTABILITY INFORMATION

    40. Senator Reed. General Obering, in commenting on GAO's March 
2007 report, MDA partially concurred with GAO's recommendation to 
provide program element information that is consistent with the 
acquisition laws that govern baselines and unit cost reporting. 
However, MDA did not fully concur because it was concerned that 
element-level reporting would have a potentially fragmenting effect. 
The agency did, however, agree to provide additional information to 
Congress to promote accountability, consistency, and transparency. What 
kinds of information does MDA plan to provide that will make the 
missile defense program more accountable and transparent?
    General Obering. We have not yet worked out the specific details of 
a new reporting approach. However, we will work with GAO to establish a 
reporting system that will satisfactorily address their concerns, but 
does not adversely affect the BMDS program by focusing on the parts to 
the detriment of the whole.

                JAPAN AGREEMENT ON MULTIPLE KILL VEHICLE

    41. Senator Reed. General Obering, you have decided to pursue a 
Multiple Kill Vehicle (MKV) program for the Standard Missile -3, Block 
2 interceptor that the United States is developing with Japan. Has 
Japan agreed to pursue only a MKV, and to forego the planned unitary 
kill vehicle?
    General Obering. MDA has not made a final decision on when to 
pursue an MKV program for the SM-3 Block IIA. MDA has presented 
briefings on the MKV program and an U.S.-only analysis plan during 
meetings with Japanese officials since December. Japan reaffirmed its 
desire to continue with the current SM-3 Blk IIA Cooperative 
Development project. Japan also said that it understands that the 
threat is evolving and given sufficient justification would consider 
cooperating on MKV as a separate program. The Japanese representatives 
stressed the necessity of receiving from the U.S. information on the 
evolving threat to help develop a consensus within the MOD on how best 
to proceed. Next steps are for the U.S. to report the results of its 
U.S.-only analysis in May and for the U.S. to encourage Japanese 
leadership to begin a joint analysis in June.

    42. Senator Reed. General Obering, what will you do if Japan does 
not agree to your plan for MKV?
    General Obering. We have just begun discussions with Japan on the 
MKV concept and hope that our U.S.-only analysis encourages Japanese 
leadership to begin a joint analysis in June. We look forward to 
further discussions with Japan on this subject throughout the year.

    43. Senator Reed. General Obering, what is your backup plan if MKV 
technology does not work?
    General Obering. The MKV provides considerable capabilities to 
engage multiple warheads and overcome countermeasures that the single 
kill vehicles cannot address. However, if the MKV technology does not 
work, the alternative is to use a single kill vehicle (or kinetic 
weapon) variant of the MKV payload.

                      NEED FOR MORE TESTING ON C2

    44. Senator Reed. Dr. McQueary, the nerve system and brain of the 
BMD is its Command and Control, Battle Management, and Communications 
system. It is an incredibly complex system with many sensors with 
different views of activities at different times, all of which must be 
fused together to form one common, coherent, and integrated picture to 
help decisionmakers understand what is happening and provide the 
ability to manage and control the system under stressing conditions. If 
the Command and Control system fails, the system could fail, or at 
least fail to perform optimally. Do you believe there is a need to do 
more testing of the Command, Control and Battle Management system to 
better understand its capabilities and limitations, and to help improve 
it? If so, what additional testing do you believe would be necessary or 
useful, and why?
    Dr. McQueary. Last year MDA adopted a year long ``campaign'' 
approach for testing the Command and Control, Battle Management, and 
Communications (C2BMC). It is a ``crawl-walk-run'' approach that builds 
up to a fully-distributed test of all the ground hardware and 
communication links in the BMDS. This is a logical way for MDA to 
incrementally add and test C2BMC capability. Last year's campaign, the 
Ground Test 01 series, was very successful. MDA is well into this 
year's campaign, the Ground Test 02 series. As MDA adds operational 
realism to the individual flight tests, it is doing more and more 
testing of the C2BMC capability to fuse data to form one common, 
coherent, and integrated picture. C2BMC testing at various levels and 
complexity is nearly continual now. Overall system performance 
improvements are limited primarily by the speed at which the software 
in this massive system can be improved, modified, tested, and 
integrated. I am satisfied with the level of testing that MDA is 
currently pursuing.

                       IS ONE FLIGHT TEST ENOUGH?

    45. Senator Reed. Dr. McQueary, if an element of the BMD system has 
one successful flight test, is that enough to give you confidence that 
it will work in an operationally effective and suitable manner, or do 
you need to conduct multiple flight tests using different operationally 
realistic and complex scenarios to provide confidence in system 
performance?
    Dr. McQueary. Other than Patriot, I'm not ready to state that any 
element of the BMDS is operationally effective and suitable. 
Repeatability is a very important element of operational effectiveness 
and suitability. One successful test doesn't demonstrate operational 
effectiveness or generate enough data to determine suitability. 
Additional testing in multiple realistic and complex scenarios will 
increase confidence, but will be restricted by peacetime safety and 
fiscal constraints. The tests that MDA does accomplish will help anchor 
the models and simulations which we can then use to evaluate capability 
in much more of the performance envelopes of the various elements of 
the BMDS.

                         STILL A LONG WAY TO GO

    46. Senator Reed. Dr. McQueary, your prepared testimony says, 
``There is still a long way to go'' with respect to testing of the BMD 
system. What do you mean by that, and what else remains to be done?
    Dr. McQueary. The BMDS is probably the largest, most complex combat 
system in the DOD. The many components--sensors, shooters, and C2BMC--
are at different levels of development and maturity. The many sensors, 
ground and satellite based, are in various aspects of development, 
modification, and testing. Patriot is fully operational and fielded. 
Aegis BMD has a capability primarily limited by the number of modified 
cruisers. The Terminal High Altitude Area Defense system is still early 
in its developmental test program but is showing rapid progress. The 
GMD system has had one flight test of the production booster and kill 
vehicle that ended with an intercept of a threat-representative target. 
C2BMC is still in the early stages of development. Many more tests of 
these elements and their integration into the BMDS must be accomplished 
to demonstrate repeatability, anchor models and simulations, and build 
confidence. That's why I stated ``There is still a long way to go'' 
with respect to testing the BMDS.

                 STATUS OF PREVIOUS GAO RECOMMENDATIONS

    47. Senator Reed. Mr. Francis, your report states that DOD has not 
implemented all your previous recommendations on missile defense 
acquisition. Which recommendations has DOD not implemented, and what 
effect do you believe that has had?
    Mr. Francis. From March 2005 through the issuance of our latest 
missile defense report in March 2007, we made nine recommendations and 
MDA has not yet implemented them. These recommendations propose that 
MDA:

        <bullet> adopt a knowledge-based acquisition strategy 
        consistent with those called for in DOD acquisition 
        regulations,
        <bullet> assess whether a 2-year block strategy is compatible 
        with a knowledge-based acquisition strategy,
        <bullet> clarify and modify block policy to align cost and 
        fielding goals,
        <bullet> adopt more transparent criteria for identifying and 
        reporting significant changes in MDA's goals,
        <bullet> develop baselines for all elements effectively in the 
        system design and demonstration phase of the acquisition cycle,
        <bullet> provide information to Congress that is consistent 
        with the spirit of acquisition laws that govern baselines, unit 
        cost reporting, independent cost estimates, and operational 
        test and evaluation,
        <bullet> include in blocks only elements that will field 
        capabilities during the block,
        <bullet> request procurement funds to acquire operational 
        assets, and
        <bullet> conduct an independent evaluation of the Airborne 
        Laser and Kinetic Energy Interceptor programs prior to deciding 
        their futures.

    Our recommendations were meant to make the Ballistic Missile 
Defense (BMD) program's decisions and actions more transparent, to hold 
the program more accountable for the funds it receives and the actions 
it takes, and to enable better oversight. Without change, we continue 
to see the same problems. The scope of a block is not firm but changes 
annually, making it difficult to determine what each block will 
deliver. Cost issues make it impossible to compare the value of a block 
to its cost. For example, block costs cannot be determined because work 
that cannot be completed during one block is pushed into a future 
block, along with its cost. Neither can an operational asset's unit 
cost be identified because assets are being acquired piecemeal over a 
number of years. Additionally, unit cost growth is hidden since a unit 
cost estimate is not established at the time funds are first requested 
and there is no base with which an asset's actual cost can be compared. 
We also continue to see MDA stray from the knowledge-based approach 
that allows successful developers to deliver, within budget, a product 
whose performance has been demonstrated. Instead, MDA continues to 
field assets before their capability is known.

                       MDA BLOCK SCHEDULE SYSTEM

    48. Senator Reed. Mr. Francis, the MDA's 2-year block management 
approach is confusing, and doesn't seem to have clear meaning, 
especially since MDA can change the scope and schedule of what is in 
any given block. From your standpoint, does MDA's 2-year block 
structure help or hurt from an accountability and oversight standpoint?
    Mr. Francis. MDA's 2-year block management approach does reduce 
program accountability and make oversight more difficult. MDA has found 
that 2 years is not always enough time to complete all of the work 
planned for a block. For example, the Ground-based Midcourse Defense 
(GMD) element reported at the end of Block 2004 that not all planned 
work was completed. According to GMD officials, this work was deferred 
until Block 2006 and its cost is being recognized as a cost of Block 
2006. However, the officials could not tell us how much of the Block 
2006 budget is attributable to the deferred work. The result is that 
the cost of Block 2004 is understated and the cost of Block 2006 is 
overstated. In addition, if MDA delays Block 2006 work until Block 
2008, as expected, Block 2006 cost will become more difficult to 
compare with its originally estimated cost as the cost of the deferred 
work will no longer be considered a Block 2006 cost. While the block 
concept is a useful construct for harvesting and fielding capability 
incrementally, it is a muddy concept for accountability. Additionally, 
as work travels from one block to another, the connection between the 
actual cost and scope of work completed and the estimated cost and 
scope of work used to justify budget requests is weakened, making it 
difficult for decision makers to determine the value of the investment 
being made in missile defense. The block management approach does focus 
management on the system-of-systems level, which facilitates making 
decisions that cross traditional program lines. This makes it possible 
for MDA to have more options as to how to meet a requirement, and could 
reassign a requirement from one element to another if conditions 
warranted. We believe that this system-of-systems or portfolio 
perspective for managing and making decisions is good. However, we also 
believe that this perspective can be maintained while at the same time 
providing the same or nearly the same level of transparency, 
accountability, and oversight as other major weapon system programs. 
This has been the aim of our recommendations for the revisions being 
considered for MDA's block approach.

                     PATRIOT PURE FLEET INITIATIVE

    49. Senator Reed. General Campbell, I understand that the Army 
Chief of Staff included the Patriot PAC-3 Pure Fleet initiative as a 
high priority on his fiscal year 2008 Unfunded Priorities List 
submitted to Congress. I gather that implementing the Patriot Pure 
Fleet initiative would provide all Patriot battalions with the latest 
PAC-3 capabilities. Can you provide a description of the benefits of 
upgrading all Patriot battalions to this enhanced PAC-3 configuration?
    General Campbell. Patriot Advanced Capability-3 (PAC-3) provides 
significant increase over Configuration-2 in every key measurable 
capability-increased range and fidelity for surveillance and target 
identification, increased probability of kill, and larger defended 
area. The Configuration-3 Radar provides substantial surveillance 
improvement. The Configuration-3 Radar can detect a ``basketball size'' 
object versus a ``pick-up truck size'' object for the Configuration-2 
Radar. The Configuration-3 Radar is able to discriminate debris and 
decoys from actual targets which equates to higher probability of kill 
and less missile expenditure. The PAC-3 Launcher uploads 4 times the 
number of missiles and fires the PAC-3 missile which provides increased 
lethality through Hit-to-Kill technology able to defeat submunitions 
and Weapons of Mass Destruction (WMD). Configuration-3 also provides a 
7-fold increase in battlespace resulting in a greater defended area and 
allows remote launch capability three times farther than Configuration-
2 and significantly extends the Tactical Ballistic Missiles footprint. 
Pure Fleeting the Patriot force will increase the size of the pool of 
deployers and increase our Nation's strategic flexibility against the 
Tactical Ballistic Missile threat.

    50. Senator Reed. General Campbell, if fiscal year 2007 and fiscal 
year 2008 funds are approved for this initiative, what capability 
enhancements to missile defense capabilities would be realized?
    General Campbell. Yes. Patriot is our Nation's only fielded ground-
based tactical BMD weapon and is a strategic asset with implications in 
multiple theaters overseas. Improving our Nation's tactical BMD 
capability is needed to support the combatant commanders. The Army is 
committed to funding the PAC-3 Pure Fleeting of the remaining three 
Configuration-2 capable battalions. The current strategy involves a 
combination of reprogramming from the fiscal year 2007 main budget to 
complete the pure fleeting action. Additionally the Army intends to 
utilize ``Grow the Army'' funds to create two additional PAC-3 
battalions. At end state, Patriot Pure Fleet and growth of the PATRIOT 
force will provide 15 PAC-3 battalions enabling greater strategic 
flexibility of our Nation's missile defense forces while reducing the 
stress on the Patriot force.

    51. Senator Reed. General Campbell, as the Army's senior missile 
defense commander, do you support additional funding for the Patriot 
PAC-3 Pure Fleet initiative?
    General Campbell. Yes. Patriot is our Nation's only fielded ground 
based Tactical BMD weapon and is a strategic asset with implications in 
multiple theaters overseas. Improving our Nation's tactical BMD 
capability is needed to support the combatant commanders. The Army is 
committed to funding the PAC-3 Pure Fleeting of the remaining three 
Configuration-2 capable battalions. The current strategy involves a 
combination of reprogramming from the fiscal year 2007 main budget to 
complete the pure fleeting action. Additionally the Army intends to 
utilize ``Grow the Army'' funds to create two additional PAC-3 
battalions. At end state, Patriot Pure Fleet and growth of the Patriot 
force will provide 15 PAC-3 battalions enabling greater strategic 
flexibility of our Nation's missile defense forces while reducing the 
stress on the Patriot force.

                CURRENT NATO POSITION ON MISSILE DEFENSE

    52. Senator Reed. Mr. Green, the NATO Secretary General indicated 
that NATO has decided to pursue missile defense for its deployed 
military forces, but not its territory and its population. Is that 
correct, that NATO has not decided to defend its territory or its 
population?
    Mr. Green. NATO has taken no decision on whether to pursue 
territorial missile defenses against long-range ballistic missiles but 
has been examining the feasibility of such defenses. The focus of NATO 
and NATO Allies to date has been on missile defenses to address the 
shorter-range ballistic missile threat. NATO agreed to develop and 
deploy the active Layered Theater BMDS, where Alliance members' theater 
missile defense systems will be integrated using the NATO Air Command 
and Control System as the command and control backbone for deployed 
terminal missile defense systems, resulting in a financial commitment 
by the Alliance of approximately $800? million. NATO completed a study 
in 2006 on the feasibility of a NATO defense for European population 
and territory from long range missile attack. This study concluded that 
such a defense is feasible. As a result of the 2006 feasibility study, 
NATO is currently assessing the political and military implications of 
such a defense. It recently modified this effort to account for the 
deployment of U.S. missile defense assets in Europe.

    53. Senator Reed. Mr. Green, so in that context, is it accurate to 
say that the U.S. proposal to deploy a territorial missile defense 
system in Europe goes beyond the current NATO position?
    Mr. Green. NATO has not made a decision yet to pursue a NATO-funded 
defense against long range ballistic missile threats. However, NATO, to 
a large degree, has a common understanding of the growing ballistic 
missile threat. NATO recognizes and accepts the U.S. approach of 
negotiating bilaterally with Poland and the Czech Republic. NATO also 
accepts missile defense as a reasonable approach to the missile threat, 
as evidenced in their efforts to field missile defense to address short 
and medium range threats. NATO demonstrated that it recognizes and 
accepts the reality of the U.S. missile defense deployment in Europe by 
agreeing recently to consider the U.S. site in its ongoing study.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor

                        MISSILE DEFENSE TESTING

    54. Senator Pryor. General Obering, the MDA uses the integration of 
technologies to create an overwhelming advantage against enemies who 
would use ballistic missiles to threaten the national security of the 
United States. The recent missile defense intercept test (April 6) for 
the THAAD interceptor successfully demonstrated beyond-line-of-sight 
communications and radar tracking/target discrimination objectives. 
While I'm sure you would agree with me that the missile defense program 
is quite expensive, costing $2 billion a year to operate, what further 
benchmarks are there in the future to validate the operational 
capability of the program? What challenges still lie ahead?
    General Obering. In partnership with DOT&E and the warfighters, MDA 
continues to test the operational capability of the BMDS using a 
campaign of digital simulation, ground tests (Hardware-in-the-Loop) and 
flight tests. Our test program characterizes existing fielded 
capability, integrates and demonstrates new capabilities, and allows 
warfighters to test and validate their tactics, techniques, and 
procedures in a near-operational environment.
    In the first category of characterizing existing fielded 
capability, MDA's fiscal year 2007 test program will demonstrate 
(benchmark) the BMDS:

         GMD end-to-end intercept engagement that uses the operational 
        system hardware and software;
         Aegis BMD's operational capability as both a sensor 
        supporting homeland defense and its engagement capability to 
        defend deployed forces, friends and allies;
         Deployed AN/TYP-2 X-band radar (formerly Forward Based X-band 
        Radar) at Shariki, Japan, to support defense of the homeland, 
        our deployed forces and the country of Japan;
         Integrated capability of the SBX radar to support homeland 
        defense against missile attack from North Korea;
         Defense of Fylingdales Upgraded Early Warning Radar against a 
        possible Iranian missile attack.

    In 2008 MDA will begin testing the THAAD element of BMDS in its 
fielded configuration, testing advanced discrimination algorithms for 
our forward-based radars, software upgrades to the BMDS Battle 
Management and GMD components to optimally use multiple sensor data 
inputs, and a new capability to concurrently perform developmental 
tests, operator training, and maintain an operational capability. As 
the BMDS continues to grow in complexity and inventory with additional 
operating locations for sensors and shooters and an evolving threat, 
the MDA test program will keep pace through a disciplined process that 
validates fielded capability and provides the data needed to guide the 
continued development of our capability to defend against ballistic 
missile attack.
    The magnitude of managing a complex test program and integrating 
the operational components into the BMDS is the MDA's greatest 
challenge. Years before the actual test can take place each test must 
be planned both at the Element level and the BMDS level: target 
requirements must be developed and targets must be procured, test 
objectives must be defined and the test itself must be designed with 
pre-test analysis performed by a dedicated test organization composed 
of system and test engineers. In conjunction, current year test 
programs must be conducted and the results analyzed and compared with 
system specifications. Based on the analysis, decisions on possible 
system changes must be made and the information on the operating BMDS 
passed to the warfighter. The MDA has developed an effective process 
that enables efficient management of the established benchmarks that 
will validate the operational capability of the program.

    55. Senator Pryor. General Obering, on March 15, a modified Boeing 
747-400F carrying a YAL-1A Airborne Laser (ABL) successfully test fired 
its target illuminator laser against a NC-135E test aircraft, verifying 
its ability to identify, track, and intercept an airborne target in the 
boost phase of flight. Could you better clarify this boost phase 
defense segment?
    General Obering. The ABL is the primary Boost Defense Segment of 
the MDA's integrated and layered BMDS. The MDA will design, build, and 
test an air-based laser system to acquire, track, and kill ballistic 
missiles during the boost phase of missile flight. The boost phase 
typically includes the first 60-300 seconds of missile flight and 
concludes at altitudes between 20-450 kilometers.
    Adding the ABL to the BMDS significantly increases the overall 
defensive capability by reducing the number of targets faced by 
successive defenders and by addressing certain threats that may be 
difficult to counter. By destroying the missile in boost ABL also 
negates the threat prior to their ability to deploy multiple reentry 
vehicles, submunitions, or countermeasures. Additionally, warheads and 
engagement debris do not reach the intended target areas. Furthermore, 
there is a high probability that the threat missile debris will fall 
within the hostile country's own territory, serving as a deterrent and 
reducing the possible affect the debris has on protected areas and 
assets.
    Secondary missions, for an operational ABL, will be to provide 
additional threat protection through early ballistic missile launch 
warning, launch site prediction, cueing to BMDS, and impact point 
prediction. Detecting and tracking a missile during its boost phase 
significantly improves accurate estimation of the launch point location 
and therefore will enhance the probability of a successful 
counterstrike against an aggressor's missile launchers. ABL's sensor 
capabilities further increase the robustness of the BMDS by enhancing 
the performance of other elements.
    In addition, the unique, revolutionary capabilities of ABL's 
mobility and speed-of-light directed energy weapon present adversaries 
with additional complexities when trying to develop or employ threat 
missile countermeasures that will provide a credible deterrent and a 
lethal defense against a rapidly evolving ballistic missile threat. ABL 
adds unique deployment flexibility to quickly deploy to areas of 
interest arriving in theater ready to provide an initial deterrent and 
defensive capability for the United States and/or allied forces. 
Without ABL, MDA would have to address in much less viable ways both 
the further proliferation of threats that is expected and the likely 
adversary counters to the other BMDS elements.

    56. Senator Pryor. General Obering, how does a 747-400F tactically 
anticipate and respond to an adversarial launch?
    General Obering. The ABL responds to an adversarial launch by 
detecting the launch with its on-board Infrared Search and Track (IRST) 
sensors, autonomously or with the assistance of cues from other BMDS 
sensors (e.g., satellites). The IRSTs detect the unique heat signatures 
emitted by the exhaust plumes of boosting missiles, and provide the 
information needed to point the turret and engage the threat missile 
with its High-Energy Laser. ABL is able to operate autonomously, 
however in normal operation it will interact with C2BMC, which will 
determine which shots are to be taken by ABL. ABL's concept of 
operations involves flying a combat air patrol pattern near a 
predetermined area of interest, detecting threat launches anywhere 
within its 360-degree field of regard, and rapidly engaging and 
destroying threat missiles. In addition, ABL's forward-deployed 
location will allow it to provide critical early launch warning to the 
rest of the BMDS.

    57. Senator Pryor. General Obering, what significance does this 
test have on the overall missile defense program?
    General Obering. This test was part of a critical series of in-
flight tests of the ABL's laser targeting system and showed ABL's 
ability to identify, track and lock onto an airborne target precisely 
enough to hit it with the Tracking Illuminator Laser (TILL). The TILL 
is a kilowatt-class solid-state laser that is intended to track a 
boosting ballistic missile and identify the most vulnerable location on 
the missile in preparation for the eventual firing of the High Energy 
Laser, which will use directed energy to burn through the rocket motor 
case of a hostile missile.
    This test was an important step toward our next goal of determining 
atmospheric distortion between ABL and the target, compensating for 
that distortion, and engaging the target with a Surrogate High Energy 
Laser by this summer. In terms of the entire missile defense program, 
adding the ABL to the Boost Defense Segment of the BMDS significantly 
increases the overall defensive capability of the BMDS by reducing the 
number of targets faced by successive defenders and by addressing 
certain threats that may be difficult to counter during later stages of 
flight. Moreover an operational ABL, will be able to provide additional 
threat protection through early ballistic missile launch warning, 
launch site prediction, cueing to BMDS, and impact point prediction. 
Detecting and tracking a missile during its boost phase significantly 
improves accurate estimation of the launch point location and therefore 
will enhance the probability of a successful counterstrike against an 
aggressor's missile launchers. ABL's sensor capabilities further 
increase the robustness of the BMDS by enhancing the performance of 
other elements.

    58. Senator Pryor. General Obering, the PAC-3 surface-to-air 
missile is manufactured at the world class, highly-automated production 
plant in Camden, Arkansas. In 2006, this facility won the Arkansas 
Institute for Performance Excellence Governors Award and was named one 
of the ``10 best'' plants in America for its outstanding track record 
of on-time, on-budget deliveries of quality systems. What significance 
has the PAC-3 had on the Integrated BMDS and how important is the PAC-3 
manufacturing and depot facility in Camden?
    General Obering. I will defer to the Army to address the importance 
of the PAC-3 manufacturing and depot facility in Camden. My role is to 
manage configuration updates to ensure they are fully integrated and 
interoperable with the BMDS.
    As a fielded system, PAC-3 is already a significant contributor to 
the protection of U.S. Forces, friends and allies for the Combatant 
Commanders. In the future, we expect the Army's PAC-3 to continue these 
roles as other systems introduce additional layers of protection to our 
integrated BMD.

    59. Senator Pryor. General Obering, on January 11 of this year, 
China launched a successful strike against its own Feng Yun (FY-1C) 
polar orbit weather satellite using a Kinetic Energy Anti-Satellite 
weapon. What impact has this action made on our strategic capabilities 
posture?
    General Obering. [Deleted.]

                    PROTECTION FROM THEATER THREATS

    60. Senator Pryor. General Campbell, in your statement you note 
that ``Operation Enduring Freedom and Operation Iraqi Freedom are 
consuming key missile defense capabilities, leaving other worldwide 
commitments under-resourced.'' What steps are we taking to ensure the 
U.S. homeland and our troops deployed in combat are protected from 
theater air and missile threats?
    General Campbell. The MDA has increased fielding of GBIs in Alaska 
and other capabilities, and is developing a European-based capability. 
For deployed forces, Strategic Command provides input to the Global 
Force Management Board to optimize distribution of limited air and 
missile defense forces around the globe. Of course, we understand that 
the threat to the homeland is from long range or intercontinental 
missiles, while our deployed soldiers are facing threats from short or 
intermediate range missiles. The systems we have deployed are effective 
against these particular threats. We are continuing to evolve our 
existing systems and field new systems such as the Terminal High 
Altitude Area Defense (THAAD) which will enhance our capabilities 
against the full range of missile threats.

             INTELLIGENCE, SURVEILLANCE, AND RECONNAISSANCE

    61. Senator Pryor. General Campbell, what are your thoughts on our 
functional components for intelligence, surveillance, and 
reconnaissance (ISR)? Do we have adequate ISR ground, naval, and 
airborne platforms supporting the global war on terrorism and 
intelligence gathering efforts worldwide?
    General Campbell. As a Department, we effectively meet less than 
one third of our combatant commanders' warfighter information needs. We 
do not have sufficient capabilities or capacity to meet the Nation's 
demand for intelligence. There are two ways to approach this. First, 
better integrated and focused investments to alleviate gaps and 
shortfalls in ISR near- and far-term. Today we face adversaries who 
avoid our strengths and seek to attack through nontraditional means. 
The current ISR enterprise, designed to confront the former Soviet 
Union and the Warsaw Pact, isn't optimized for either collection 
against, or analysis of, these new adversaries. Second, assess how we 
as a nation are running the ISR Enterprise today and aggressively make 
the changes required to improve efficiency and effectiveness.

                         DETERRENCE CAPABILITY

    62. Senator Pryor. Mr. Green, our Nation's global deterrence 
capability enables the United States to have decisive kinetic combat 
effects through the application of worldwide space and global strike 
operations. Meanwhile, the threat of global terrorism, highlighted by 
ballistic missile proliferation from countries like North Korea and 
Iran, poses a great challenge to our national security. With the threat 
from the numbers and capabilities of ballistic missiles increasing, 
what is our overall strategy to defend and counter this proliferation?
    Mr. Green. The U.S. Government has a number of initiatives underway 
to halt or counter the proliferation of ballistic missiles. We use 
multilateral frameworks, such as the Missile Technology Control Regime, 
to prevent the proliferation of ballistic missile technology. We also 
apply rigorous export controls and, where necessary, sanctions to keep 
ballistic missiles out of the hands of dangerous regimes. We place a 
high priority on dissuading or stopping potential adversaries from 
obtaining ballistic missile technology in the first place.
    Should regimes evade our efforts, we rely on the full array of 
deterrent capabilities, including missile defenses. Missile defenses 
devalue an adversary's investment in ballistic missiles and complicate 
the enemy's strategic calculations by increasing the uncertainty that a 
ballistic missile attack will be successful. When combined with U.S. 
offensive strike capabilities, U.S. leaders have a range of options for 
deterring, defending against and defeating potential missile attacks.
                               __________
              Question Submitted by Senator Jeff Sessions

             MISSILE DEFENSE TESTING AND CONTINUED FIELDING

    63. Senator Sessions. Dr. McQueary, MDA plans to emplace four new 
GBIs in fiscal year 2008, and six new interceptors each year from 
fiscal year 2009 through fiscal year 2012. Based on your assessment of 
the testing program thus far, is there any reason why these GBI 
emplacements should not go forward?
    Dr. McQueary. There is obvious risk in producing new interceptors 
while the test program is ongoing. Following the two consecutive GMD 
flight test failures in December 2004 and February 2005, General 
Obering stopped testing and fielding until the results of several 
independent reviews he commissioned were complete. He then adopted a 
deliberate ``test-analyze-fix-test'' philosophy that I fully support. 
Although the August 2006 GMD flight test was a success, it is only one 
test. Repeatability is a very important element of a successful 
program. The next two GMD flight tests, if successful, will bolster my 
confidence that GMD can repeatedly demonstrate capability in 
increasingly more demanding scenarios. At this time, I see no reason to 
stop emplacing interceptors at Fort Greely or Vandenberg AFB.

    [Whereupon, at 5:01 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

                              ----------                              


                        THURSDAY, APRIL 19, 2007

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

                        MILITARY SPACE PROGRAMS

    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Bill 
Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators Bill Nelson, Inhofe, 
Sessions, and Thune.
    Majority staff member present: Madelyn R. Creedon, counsel.
    Minority staff member present: Robert M. Soofer, 
professional staff member.
    Staff assistants present: Kevin A. Cronin and Micah H. 
Harris.
    Committee members' assistants present: Clyde A. Taylor IV, 
assistant to Senator Chambliss; and Stuart C. Mallory and Jason 
Van Beek, assistants to Senator Thune.

       OPENING STATEMENT OF SENATOR BILL NELSON, CHAIRMAN

    Senator Bill Nelson. Good afternoon, thank you for coming. 
We have a number of witness so I'm going to make some very 
brief remarks, and when Senator Sessions gets here, I will 
interrupt the proceedings and ask him to make his comments.
    We are here on the occasion that the Department of Defense 
(DOD) certainly relies on a lot of space systems. We're in the 
process of modernization and replacement and it is putting a 
strain on the budget as well as the technical and management 
skills of the Services and the contractors. While some of these 
programs have made progress in resolving some of the schedule 
and budget issues, a lot of work remains. So we want to dig 
into that.
    We have a star-studded cast, literally and figuratively. 
I'm just going to curtail my comments there. I will interrupt 
when Senator Sessions gets here, but your statements will be 
made a part of the record. What I would like to do, instead of 
your reading a statement to me, which we can, of course, read 
that for ourselves, is to have a conversation.
    [The prepared statement of Senator Bill Nelson follows:]

               Prepared Statement by Senator Bill Nelson

    Good afternoon and welcome to the Strategic Forces Subcommittee 
hearing on military space systems. We have an excellent panel of 
witnesses today, Dr. Sega, Under Secretary of the Air Force and the 
Executive Agent for Space for the Department of Defense (DOD); General 
Chilton, Commander, Air Force Space Command; General Shelton, 
Commander, Joint Forces Component Command for Space, U.S. Strategic 
Command; Vice Admiral McArthur, Commander, Navy Network Warfare 
Command; and Cristina Chaplain from the Government Accountability 
Office. Thank you all for being here. We look forward to a good 
discussion of military space programs.
    DOD is heavily reliant on space systems, as is the United States in 
general. Currently, all of the DOD military space systems are in the 
process of modernization and replacement, which is putting a strain on 
the budget as well as the technical and management skills of the 
Services and the contractors. While some of these programs have made 
progress resolving some of the schedule and budget issues, a lot of 
work remains, particularly in technically challenging programs such as 
T-sat. On the other hand, there is good progress in the Operationally 
Responsive Space program and even the Space-Based Infrared Satellite 
program.
    Programs dealing with space situational awareness, an area 
generally under-appreciated and perpetually under-funded, are back in 
the spotlight as a result of the Chinese test of a kinetic anti-
satellite weapon. While it is it not clear if China will or will not 
deploy such a weapon, the test, which created thousands of pieces of 
space debris, was at a minimum, a loud wake-up call.
    Another critical element of the national security space programs is 
space launch. It is important that we continue to maintain and 
modernize the launch ranges to ensure reliable access to space.
    We have a large number of witnesses this afternoon and you all have 
submitted prepared statements, which, without objection, will be 
included for the record. In order to make the best use of our time I 
will limit my opening remarks and now turn to Senator Sessions for any 
opening remarks that he may have.

    Senator Bill Nelson. So, Mr. Secretary, we'll start with 
you.

 STATEMENT OF HON. RONALD M. SEGA, UNDER SECRETARY OF THE AIR 
                             FORCE

    Dr. Sega. I'm appearing before you today as both the Under 
Secretary of the Air Force and the Executive Agent for Space.
    When we talked last year, we talked about three themes that 
we were going to work on: integration across space, as well as 
across functions and organizations, not only within the DOD, 
but with agencies outside, as well as industry, universities, 
and Congress. We also talked about a back-to-basics approach 
toward acquisition and a block approach to organize ourselves 
so that we would be reducing risk in our acquisition programs 
to deliver to the warfighter on time and on cost. The third 
area was workforce.
    In addition to that, I want to talk a little bit about 
continuity of service that we think is very, very important for 
several of the activities we're engaged in. One of those is 
missile warning. We can not afford to have a gap in our sensing 
capability for missile warning for the United States. The 
second is strategic communications. The third is position, 
navigation, and timing--our Global Positioning System (GPS).
    We've also endeavored to increase our activities as we go 
forward in both space situational awareness and operationally 
responsive space (ORS), and recall, and I'll refer to this 
chart in the back, how we have organized.
    As we look at the acquisition process, we're looking at it 
in four stages. At the top of the charts is our System 
Production Stage. There, we are lowering the risk, shortening 
the acquisition cycle-time that is indicated by these arrows 
block one to block two, et cetera, we go horizontally.
    The next generation out from that is Systems Development. 
We want to be maturing the technology so when it reaches the 
System Production phase, it is mature; do the systems 
engineering correctly; look at the requirements--make sure they 
are identified clearly; apply the resources; and then, go from 
there. One generation still further out is Technology 
Development, and one further out, is Science and Technology.
    As an example of how we would go through this: in our 
budget, we have submitted GPS III for funding throughout the 
Future Years Defense Program (FYDP). GPS IIIA follows on GPS 
IIF. It enhances the capability in two major ways: one is 
adding a new frequency, L1C, for the civil community and 
something our Nation says we're going to do--it's also 
compatible with Galileo. It also adds additional power that our 
warfighters, through the Joint Requirements Oversight Council 
(JROC), say is very important. So, we will have 10 times the 
power over our GPS IIF signal strength in GPS IIIA.
    We're also anticipating where we need to go for IIIB and 
IIIC. We're adding a growth-path requirement into the building 
of IIIA. This has been done through the JROC process. We 
understand the requirements--the technologies are matured--and 
we're going forward on IIIA.
    Along with that, we want to be anticipating IIIB. The major 
piece of technology and capability for IIIB is cross-links--
higher rate cross-links that tie the system together to improve 
accuracy. So, we need to be working on that in a systems 
development phase, and bring that to at least a TRL Level 6 
capability.
    We also know, after IIIB, that we're going to be looking at 
IIIC. That would include a spot beam, but that's less mature at 
this time. We need to be working on the technology development 
for a spot beam, so in time, it moves up to Systems Development 
and finally can add to the GPS capability and become GPS IIIC. 
We're investing in science and technology (S&T) in such things 
as advanced clocks for our GPS system.
    So, we have an ``investment portfolio'' established, not 
only in what we are building today, but also in what we have in 
the future to continue to enhance the capability. That's 
consistent with the rate of change of the 21st century--
continuing to bring on technology improvements for the new 
needs of the warfighter. But, it will be done in blocks. It is 
a more disciplined approach, requiring more adherence to 
systems engineering, and to standards. Our folks are more in 
plant now and working with the user from day one. So, that's 
how this back-to-basics and block approach works for the GPS 
III satellite.
    If we go on to the Space-Based Infrared System (SBIRS) 
Satellite that supports missile warning--we need a continuity 
of service capability plan for warning. After we complete the 
SBIRS Geo-satellite--what is next? In our budget is the 
Alternative Infrared Satellite System (AIRSS). Focal plane 
technology is increasing, it's the 21st century way of staring 
and getting the information from space in the infrared spectrum 
we need. This information supports not only missile warning, 
but also missile defense, technical intelligence, and battle-
space characterization. So, that's why we have AIRSS also in 
the budget, as well as SBIRS GEO.
    This last year, we were pleased to report the SBIRS HEO 
payload was on orbit and exceeding our expectations. That's 
been a good thing.
    We're also focusing on mission assurance from day one. One 
example of that is launch. On March 8, we witnessed our 50th 
consecutive, successful, medium or heavy national security 
launch--a great job from the team that has put that together. 
But, for each one, we have to keep our eye on the ball and make 
sure attention to detail is maintained.
    I do want to highlight for that particular launch, there 
were five firsts. Not only was it the 50th, but it was the 
first Air Force and DOD Atlas V mission; the first multiple 
payload mission; the first Centaur-3 burn mission; first flight 
of the Evolved Expendable Launch Vehicle (EELV) secondary 
payload adapter, allowing smaller satellites the opportunity to 
fly; and the first flight of a dual orbit trajectory that went 
off first at 44 degrees inclination and then over to 35 degrees 
inclination. So, I really think that's important.
    The final point is that of workforce. We put forward a 
National Defense Education Program 3 years ago. We doubled the 
money that was in that last year and we ask, once again, to 
double the funds this year. This program focuses on science, 
math, engineering, and some foreign language for the critical 
skills that we need for clearable people. So, its focus is on 
the pipeline coming forward.
    General Chilton and company have worked hard on the 
National Security Space Institute (NSSI), which you may hear 
about later. Our workforce is key and foundational to us being 
successful going forward. I just want to thank this committee 
for your support of what we're doing in National Security 
Space.
    [The prepared statement of Dr. Sega follows:]

               Prepared Statement by Hon. Ronald M. Sega

                              INTRODUCTION

    It is an honor to appear before this committee as the Under 
Secretary of the Air Force and the Department of Defense (DOD) 
Executive Agent for Space, and discuss with you our National Security 
Space (NSS) activities. As the DOD Executive Agent for Space, my role 
is to ``develop, coordinate, and integrate plans and programs for space 
systems and the acquisition of DOD space Major Defense Acquisition 
Programs to provide operational space force capabilities to ensure the 
United States has the space power to achieve its national security 
objectives.''
    On August 31, 2006, the President signed a new National Space 
Policy, which highlights the importance of space to the Nation and 
presents goals for our country's space activities. Today, I would like 
to discuss the importance of space to our warfighters; the progress 
that we have made over the last year; and some of our future plans for 
DOD space programs. One key tenet, which you will see throughout this 
testimony, is that we must ensure the continuity of service of several 
key capabilities, such as: Strategic Communications; Missile Warning; 
and Position, Navigation, and Timing. Last year, we presented three key 
areas of emphasis that remain the focus of our space activities: 
integration across NSS as well as with air, land, sea, and cyberspace; 
getting ``Back to Basics'' in our approach to space acquisition; and 
the importance of ensuring the viability and proficiency of our space 
professionals and science and engineering workforce. Over the last 
year, we have made progress in these three focus areas and are starting 
to see the benefits of this approach.
    The U.S. relies upon space capabilities not only to meet the needs 
of Joint operations worldwide, but to support our Nation's diplomatic, 
informational, and economic efforts as well. Because of this, it is 
important that NSS and our space professionals are integrated into all 
aspects of peacetime and wartime operations--providing robust and 
responsive space capabilities around the globe. At the tactical level, 
space is also playing a crucial role; for example, during Search and 
Rescue missions, U.S. Air Force, Army, and some Navy personnel in 
theater are using Combat Survivor Evader Locator radios, incorporating 
global positioning system (GPS) and satellite communications (SATCOM).
    Government and commercial communications satellites are also 
providing direct support to our warfighting forces. Our most recent 
data shows commercial vendors are providing over 80 percent of the 
SATCOM used in U.S. Central Command's area of responsibility. Though 
transparent to many, space capabilities continue to make a difference 
in Iraq, Afghanistan, and around the world.
    America's citizens also rely on the access and use of space 
capabilities in many areas of everyday life. From our banks and 
financial institutions employing GPS timing to synchronize their 
encrypted computer networks to forecasting severe weather, America is 
increasingly dependent on capabilities from space. The space community 
continues to provide continuity of service in key areas, while 
simultaneously working to modernize and recapitalize our aging space 
fleet and infrastructure. Today, we do not have the luxury of 
``depots'' to upgrade and maintain our space systems the way our air 
and ground forces do. Thus, in order to maintain our space 
capabilities, we must replace the aging systems and upgrade with new 
systems.
    Globally, the rate of change of technology in the 21st century and 
the number of nations directly engaged in space continues to increase. 
The capacity to contest space operations and capabilities is also 
growing. Space can no longer be considered a ``safe haven'' or 
``sanctuary.'' The recent foreign testing of a kinetic anti-satellite 
(ASAT) weapon demonstrated an ability to challenge, disrupt, or destroy 
space assets and capabilities. This testing has also raised global 
concerns over space debris and this debris' potential to collide with 
space assets in, or traversing through, Low Earth Orbit. Thus, space 
situational awareness (SSA) has become increasingly important, enabling 
us to gain a better understanding of activity in space; and we must 
continue to work on protection for our space capabilities in a 
potentially hostile environment.
    We must also continue to emphasize integration, ``Back to Basics'' 
acquisition and workforce development. Before updating you on these 
three initiatives, I want to share some progress the NSS community has 
made over the last year.

                            UPDATE ON SPACE

    In addition to implementing ``Back to Basics'' reforms, several 
achievements occurred across the DOD space portfolio over the last 
year.
Launch
    On March 8, 2007, we accomplished our 50th consecutive, successful 
NSS operational launch--a national record. This event was also the 15th 
successful operational launch of an evolved expendable launch vehicle 
booster. We need to remember, however, that this remarkable achievement 
is only possible due to our continuing commitment to Mission Assurance, 
and exacting attention to detail.
Missile Warning
    Over the last year, we also made significant progress on the Space 
Based Infrared System (SBIRS) program, which supports four mission 
areas: missile warning, missile defense, technical intelligence, and 
battlespace awareness. The first Highly Elliptical Orbit-1 SBIRS 
payload was successfully launched last year, and it has met or exceeded 
all on-orbit performance expectations. Several key tests were also 
conducted on the first SBIRS Geosynchronous Earth Orbit (GEO-1) payload 
and spacecraft, in preparation for launch in 2008. Our funding request 
allows the procurement of the first two GEO spacecraft plus the 
necessary long lead items for a potential third GEO spacecraft, two 
additional hosted SBIRS sensors in Highly Elliptical Orbit, plus the 
necessary ground elements.
Communications
    We are moving ahead with near-term improvements to our SATCOM 
capabilities. The first Wideband Global SATCOM (WGS) space vehicle (SV) 
completed final assembly and integration and most of the system level 
testing required in preparation for launch, projected for summer 2007. 
In February 2006, the Air Force awarded a contract for the second block 
(Block II) of WGS satellites (SVs 4-5), with even higher bandwidth/
throughput than the Block I satellites (SVs 1-3). The Advanced 
Extremely High Frequency program, the follow-on to MILSTAR, 
successfully completed its first end-to-end communication test with 
legacy MILSTAR terminals in June 2006, and is on track for first launch 
in 2008. Also, the Transformational SATCOMs (TSAT) program continued to 
mature key technologies with both contractors passing independent 
evaluations.
Position, Navigation, and Timing
    Two GPS IIR-M satellites were successfully launched in 2006, 
bringing us to three GPS IIR-Ms now on orbit. These satellites provide 
a new military signal (M-Code), which is more resistant to jamming, and 
a new civil signal (L2C). After the remaining five GPS IIR-M satellites 
are launched, we will begin to launch the GPS IIF series of twelve 
satellites, which are all now under contract, following a thorough 
Integrated Baseline Review last year.
Operationally Responsive Space
    In 2006, the Air Force established the new Space Development and 
Test Wing, headquartered at Kirtland Air Force Base (AFB), New Mexico, 
located next to the Air Force Research Lab's Space Vehicles 
Directorate, to focus on the development and testing of smaller 
satellites/orbital assets, with the goal of increasing innovation and 
speed, to rapidly transition ideas to fielded capabilities. One of the 
Wing's key responsibilities is support of the Operationally Responsive 
Space (ORS) effort. This ORS focus includes the ability to launch, 
activate, and employ low-cost, militarily useful satellites to provide 
surge capability, reconstitute or augment existing constellations, or 
provide timely availability of tailored or new capabilities.

                              INTEGRATION

    We continue to emphasize integration and collaboration across the 
NSS community; across functional areas such as intelligence, 
surveillance, and reconnaissance (ISR); and among DOD entities, other 
government agencies, industry, academia, and Congress. Integrating 
architectures also become increasingly important as systems become more 
capable of dynamic tasking and mutual cueing, and protection of our 
space capabilities become even more important.
    Last year, the Air Force and the National Reconnaissance Office 
(NRO) signed an agreement, which established new personnel policies and 
mechanisms for better developing and managing Air Force space 
professionals. Subsequently, an Air Force Major General was assigned as 
the Deputy Director of the NRO, while retaining Program Executive 
Officer responsibilities for space radar under the Air Force 
Acquisition Executive for Space. A new NRO position was also 
established, as the Deputy Director of Air, Space, and Information 
Operations at Air Force Space Command.
    The Space Partnership Council, with membership from organizations 
across the national security and civil space communities, is helping to 
share best practices, avoid duplication, and support integration of 
space activities. For example, last year we agreed to establish a GPS 
Metric Tracking requirement for launches from both the eastern and 
western launch ranges beginning January 1, 2011.
    Additionally, on July 19, 2006, U.S. Strategic Command announced 
the establishment of the Joint Functional Component Command for Space, 
headed by the 14th Air Force Commander at Vandenberg AFB. This action 
provides a single commander, with a global perspective, enhancing 
functional integration for the command and control of the Nation's 
space-based assets.
    Our acquisition approach also emphasizes integration and 
collaboration among interested parties in all stages of the acquisition 
process. Our goal is to create partnerships within the space community, 
which are critical to this community's success. The military should 
provide well-coordinated requirements, vetted through operators, 
acquirers, and logisticians. The government acquisition community, 
working with industry, must assure that technology is mature and that 
systems engineering and manufacturing capabilities are in place to 
deliver requirements--on cost and on schedule--with appropriate funding 
stability. A military-industry-congressional partnership is also 
essential.
    Over the last year, we have facilitated collaboration between Air 
Force product centers and laboratories with the establishment of the 
Space and Missile Systems Center's Space Development and Test Wing, 
located just across the street from the Space Vehicles Laboratory on 
Kirtland AFB, New Mexico, as mentioned previously. Additionally, one 
recent collaborative effort involved the Air Force, Army, Navy, and 
National Aeronautics and Space Administration (NASA) working closely to 
develop and launch the ``TacSat'' Experimental Satellite (TacSat-2) 
last December from the NASA facility on Wallops Island, Virginia.

                ``BACK TO BASICS'' IN SPACE ACQUISITION

    We continue to refine and implement the ``Back to Basics'' 
initiative that we discussed last year, and it remains a key element of 
our plan to improve space acquisition. This initiative promotes a 
renewed emphasis on increased discipline in the development and 
stabilization of requirements and resources; engineering practices; and 
management, as well as a more deliberate acquisition planning strategy. 
We have established a goal of funding to a cost estimate at the 80 
percent confidence level, to help ensure space program success.
    This ``Back to Basics'' approach focuses on ``mission success'' in 
our space acquisition programs. ``Acquisition'' links technology with 
operations--turning ideas into real, tangible items and delivering 
those items to the field. It can be viewed as a continuous process with 
four distinct but interrelated stages. The first stage is science and 
technology (S&T), where we conduct basic research and explore the 
possibilities of new technologies. In the second, Technology 
Development, we evaluate the utility of discoveries made in the S&T 
stage. The third stage is Systems Development. Here, we take the most 
promising technologies and mature them to higher readiness levels so 
they can be integrated into operational platforms in the fourth stage, 
System Production. Thus, technology is matured through the four stages 
to move from the lab bench, to the test range, to operations. We are 
emphasizing early technology development to ensure mature technology is 
available for our production systems.
    For most space systems, the ``Back to Basics'' approach will be 
implemented using a block approach acquisition strategy that is focused 
on delivering capability through discrete, value-added increments. This 
concept is consistent with current policy specifying ``evolutionary 
acquisition as the preferred strategy'' for DOD acquisitions. Specific 
capability increments are based on a balance of capability, delivery 
timeline, technology maturity, risk, and budget. Well-defined 
increments help reduce many of the potential instabilities in 
requirements, budget, and workforce. An overarching goal is increased 
confidence, both in terms cost and schedule, for our space acquisition 
programs.
    Though ``Back to Basics'' is not a quick-fix solution to space 
acquisition, we have begun to realize the benefits of using this 
approach. Adhering to its key principles (e.g., systems engineering; 
proper management of requirements, risks, and resources) yields 
dividends, but this is a continuing process that requires our continued 
commitment. In the fiscal year 2007 President's budget request, the Air 
Force applied the block approach to the TSAT program, which is critical 
to maintaining continuity of service in Strategic Communications. The 
``Back to Basics'' philosophy and block approach are also now being 
applied to several other needed capabilities: Missile Warning systems 
(e.g., SBIRS and the Alternative Infrared Satellite System (AIRSS)); 
SSA (e.g., Space-Based Surveillance System (SBSS)); and Position, 
Navigation, and Timing (e.g., GPS III). Thus, programs with defined, 
executable block strategies should reduce production risk, deliver 
incremental capabilities to the warfighter sooner, and maintain 
continuity of service.
Missile Warning
    Space-based infrared sensing capability (e.g., missile warning, 
missile defense, technical intelligence, and battlespace 
characterization) remains a critical requirement. In addition to the 
current SBIRS-High program previously mentioned, we are working on an 
AIRSS. AIRSS is a critical program for developing a range of options to 
ensure the Nation's missile warning capability is both sustainable and 
responsive. AIRSS is developing Wide Field-of-View (WFOV) focal plane 
array-based options for the ``SBIRS-type'' missions. The technical 
progress on the basic elements of this program would provide confidence 
that a near-term WFOV option could be made available and, with further 
development of this technology, could reduce cost and improve 
performance for the next generation missile warning system after SBIRS-
High.
    Ensuring technology maturation occurs before transitioning from 
development to production is a key part of the ``Back to Basics'' 
philosophy. Entering a system production phase with mature technology 
reduces schedule and cost risk, puts needed capability into the 
warfighters' hands sooner, and ensures we deliver what we promise on 
schedule, supporting continuity of service. Each operational capability 
area, such as missile warning, should have an investment strategy and 
portfolio that goes beyond the current program of record, to include 
needed work to support successive generations of technical capability, 
both for space and ground elements.
Communications
    Last year, we also applied the ``Back to Basics'' approach to 
Strategic Communications programs, particularly for the 
Transformational Communications Architecture (TCA) and the TSAT 
program. The TCA supports interoperability through the use of community 
standards and is comprised of four segments: space vehicles, terminals, 
terrestrial infrastructure, and network management & operations.
    TSAT will provide internet protocol-based communications with laser 
crosslinks in space, and extend the Global Information Grid to deployed 
and mobile users, providing internet-like connectivity. The first TSAT 
satellite launch is now scheduled for 2016, which will maintain 
continuity of communications support to strategic users and meet the 
warfighters' needs during the transition to net-centric operations.
Position, Navigation, and Timing
    Continuity of position, navigation, and timing (PNT) capability is 
critical for military, civil, and commercial applications, and GPS is 
the world's standard for space-based PNT. Using GPS, military and 
civilian users can access highly accurate, real-time, all-weather, 
position, navigation, and timing data--24 hours a day, 7 days a week. 
Assured GPS capability is crucial to the success of many missions, from 
humanitarian relief to weapons employment, and the Air Force is 
committed to continuity of this critical service. To that end, we will 
continue to make improvements to the constellation; including new civil 
signals, more jam-resistant military code, new receivers, and increased 
accuracy. In 2006, interagency coordination was strengthened through an 
active national PNT Executive Committee (EXCOM), co-chaired by the 
Deputy Secretary of Defense and the Deputy Secretary of Transportation, 
and the stand-up of the National PNT Coordinating Office.
    The Air Force is meeting the warfighters' PNT needs through 
increased power and signal improvements to 8 GPS IIR-M satellites (3 on 
orbit and 5 awaiting launch), 12 GPS IIF satellites, their ground 
control system, and associated user equipment. Together, these actions 
will deliver higher power and improved anti-jam capability. At the same 
time, the Air Force is developing the GPS III satellites to continue to 
satisfy warfighter requirements in the future.
    Through a comprehensive review process and Joint Requirements 
Oversight Council (JROC) validation, GPS III requirements were 
developed, and include: increased power beyond GPS IIF, an L1C signal, 
enhanced crosslinks, and spot beam capability. These capabilities will 
enhance our current GPS capability, and we plan to deliver these 
capabilities incrementally. The first block, GPS IIIA, will incorporate 
GPS IIF capabilities plus a tenfold increase in signal power, a new L1C 
civil signal compatible with Galileo, and a growth path to future 
blocks. GPS IIIB will then incorporate enhanced crosslinks capability, 
and GPS IIIC will provide spot beam capability. In the case of GPS 
IIIA, we will carry both contractors through Key Decision Point B, so 
that we can leverage ongoing risk-reduction activities. The JROC 
validation of the GPS Block IIIA initial Capability Development 
Document addendum supports this block approach strategy for GPS III.
Operationally Responsive Space
    ORS also utilizes the ``Back to Basics'' approach. As defined in 
this year's Air Force Posture Statement, ``ORS includes the ability to 
launch, activate and employ low-cost, militarily useful satellites to 
provide surge capability, reconstitute damaged or incapacitated 
satellites, or provide timely availability of tailored or new 
capabilities.'' A broader view of ORS is a tiered capability consisting 
of spacecraft, launch vehicles, and ground segment to deliver a range 
of space effects to the warfighter. Additionally, this broader view 
combines existing, ready-to-field, and emergent systems that are 
focused on reducing development and deployment costs and schedule. The 
fiscal year 2008 funding request for the ORS program element (narrower, 
small-satellite construct) supports an increased ability to transition 
rapidly from experiment to operational capability.
    Our first on orbit Tactical Satellite Experiment (TacSat-2) was 
successfully launched in December 2006, and two more experimental 
``TacSats'' are planned for launch in 2007. The TacSat-2 satellite was 
developed quickly and cost effectively--carrying several experiments to 
test cutting-edge capabilities to support the warfighter. The TacSat-2 
team demonstrated ``responsive'' capabilities by efficiently 
integrating the satellite and launching on a Minotaur booster 
(Minuteman derivative) within 7 months of ordering the booster.
Space Situational Awareness
    SSA includes systems such as the Rapid Attack Identification 
Detection and Reporting System (RAIDRS) program, the Space Fence, and 
SBSS.
    RAIDRS develops ground-based systems that rapidly detect, locate, 
characterize, identify, and report interference with DOD-owned and DOD-
used space assets, and it is being developed via a block approach. 
Block 10 should provide initial capabilities in fiscal year 2007 that 
detect and geo-locate SATCOM interference via fixed and mobile ground 
systems, whereas Block 20 is planned to provide automated data access/
analysis, data fusion, and decision support capabilities.
    The Space Fence is planned to replace the aging Air Force Space 
Surveillance System (AFSSS) with a system of three sites worldwide and 
use a higher radio frequency to detect and track smaller sized space 
objects. It would expand the terrestrial-based detection and tracking 
capability, supporting SSA while working in concert with other network 
sensors. A block approach acquisition strategy for the program will be 
developed in fiscal year 2007-2008 with a development contract to 
follow after a full and open competition.
    Building upon the success of the Space-Based Visible (SBV) 
technology demonstration, the Space-Based Surveillance System (SBSS) 
program is planned to deliver optical sensing satellites to search, 
detect, and track objects in earth orbit, particularly those in 
geosynchronous orbit. Surveillance from space will augment our ground 
sensors with 24-hour, all-weather search capability. SBSS is also being 
acquired via a block approach, with Block 10 to be fielded in fiscal 
year 2009 as a pathfinder capability to replace the aging SBV sensor. 
Block 20 is then scheduled to provide increased worldwide space 
surveillance.

         SPACE PROFESSIONALS/SCIENCE AND ENGINEERING WORKFORCE

    The foundation for our future space capability continues to be our 
space professionals in the military, civil service, and industry. Some 
of our experienced personnel will soon be eligible to retire, so we are 
working hard to attract and retain technically skilled people to ensure 
that the appropriate technical foundation and essential skill sets are 
available to accomplish our space missions. We are also working to 
develop better cross-functional assignment practices, to more 
effectively match individual competencies and experiences with position 
requirements.
    The importance of space as a force multiplier underscores the 
necessity to ensure we have a strong industrial base that will be able 
to satisfy our requirements, both now and in the future. The Space 
Industrial Base Council, co-chaired by Dr. Kerr and myself, is a forum 
to address space industry issues and bring together stakeholders from 
across government to provide coordinated attention and action on space 
industrial base issues. We have also taken steps to include industry 
and academia to help inform and implement our initiatives.
    Our focus has been to ensure that our space cadre is comprised of 
the most highly qualified personnel possible. The National Security 
Space Institute (NSSI) continues to be a DOD Center of Excellence for 
Space Education and serves a diverse multiservice and governmental 
agency population. Student capacity for the NSSI's Space ``200'' and 
``300'' courses has also been expanded and work has begun on 
development of an additional Advanced Course for Military SATCOM. 
Additionally, the NSSI, Air Force Institute of Technology, Naval 
Postgraduate School, and other academic organizations continue to 
develop new Distance Learning courses, making coursework available to a 
larger audience, and allowing students to work and study 
simultaneously.
    The significance of having a high-quality workforce will only grow 
as the global development of space expands. Just as the block approach 
provides a path for the development and maturity of technology, it also 
provides the opportunity to develop our future space leaders through 
experience gained with increasingly complex systems. For example, by 
allowing hands-on experiences with ORS and small satellites, our people 
are rapidly gaining critical skills in building, launching, and 
operating spacecraft. These efforts help develop technical instincts, 
which should prove valuable in our space professionals' future 
endeavors, such as program management.
    The National Defense Education Program (NDEP) also continues to 
provide additional opportunities for scholarships in math, science, 
engineering, and foreign language, with a focus on critical skills for 
clearable people. The NDEP was funded at $10 million in fiscal year 
2006, $20 million in fiscal year 2007, and we are requesting $44 
million in fiscal year 2008. We are working with our laboratories and 
product centers to help sponsor the students and we ask for your 
continued support.

                               CONCLUSION

    Our Nation depends on its space capabilities as an integral part of 
its military power, industrial capability, and economic vitality. We 
must continue to ensure continuity of services in critical areas such 
as Missile Warning, Strategic Communications, and Position, Navigation 
and Timing. We have continued to focus on: integration of America's 
space efforts; a ``Back to Basics'' approach to Space Acquisition; and 
a continuing emphasis on strengthening America's space professionals 
and our Science and Engineering workforce. Initial application of our 
strategy over the past year has shown promising results, as we continue 
toward securing our Nation's space capabilities for the future.
    I look forward to continuing to work with the committee and thank 
you for your continued support of NSS.

    Senator Bill Nelson. Thank you.
    General Chilton?

STATEMENT OF GEN. KEVIN P. CHILTON, USAF, COMMANDER, AIR FORCE 
                         SPACE COMMAND

    General Chilton. Thank you, Mr. Chairman, distinguished 
member of the subcommittee. I really appreciate the opportunity 
to appear before you today. It's a great opportunity.
    Senator Sessions, thank you as well. It's a privilege for 
me to be here, just to be here and visit with you all. But, 
also to represent the nearly 40,000 men and women of Air Force 
Space Command, who today are in the fight globally, supporting 
the global war on terror and also providing for the national 
security of this country, day-in and day-out. Those wonderful 
folks are out every day, 365 days a year, delivering critical 
space and nuclear deterrent capabilities to us.
    If I could share with you, just briefly, the four 
priorities that we have in Space Command that were the backbone 
for our program this year, and as we look to the future.
    First, we want to make sure that we preserve and expand the 
critical capabilities that we bring to the joint warfighter. 
Preserve means take care of what you have, fund it correctly, 
and develop the space situational awareness we know we will 
need for the future to preserve our capabilities. Expand was 
detailed by Dr. Sega, as we are recapitalizing, along with the 
Chief's vision, every single one of our key constellations in 
this program, I'm very proud of that.
    I don't think we can say it often enough, that we don't do 
things in space just for the Air Force. Everything we do is in 
support of the joint warfighter and I'm very proud of that.
    Our second priority is to make sure we provide a safe and 
secure nuclear deterrent for the United States of America. I 
tell my team, we juggle a lot of balls everyday, most of them 
are tennis balls. One of them is a crystal ball and that's our 
nuclear responsibilities. We cannot afford to take our eye off 
that ball or to drop it. We take it very seriously and you'll 
see that in the recapitalization and refurbishing of our 
Minuteman III fleet from nose cone to rocket nozzle. We're 
preparing to extend that fleet to 2030.
    The third priority for us is to make sure that we develop, 
mature, and field and sustain, on time and on cost, the 
capabilities we'll need for the future. In Air Force Space 
Command, we uniquely have the acquisition arm, the Space and 
Missile Center, out in Los Angeles assigned to this operational 
command. So, we take that responsibility very seriously. I'm 
proud to announce that General Hamel and his team out there 
have done a great job, I think, in turning the ship on 
acquisition for our space business. In fact, taking us where we 
need to go into the future.
    Last, but certainly not least, our priority is to make sure 
we attract, train, and retain the expertise we're going to need 
for the 21st century as we move forward into a more complicated 
environment in space and in warfighting. So, we're very focused 
through not only institutions like the NSSI, but we're taking a 
hard look at policies for recruiting. We're taking a hard look 
at how we raise people to key leadership positions for the 
future. We want to make sure we do that with malice and 
forethought, as we grow our space leaders within the Air Force 
for the future.
    These are our four priorities and they've shaped this 
budget submission to you.
    Again, sir, I thank you for the opportunity to be here and 
I look forward to your questions and questions from the 
subcommittee.
    Thank you very much.
    [The prepared statement of General Chilton follows:]

           Prepared Statement by Gen. Kevin P. Chilton, USAF

                              INTRODUCTION

    Mr. Chairman and distinguished members of the subcommittee, it is a 
great privilege and an honor to appear before you today representing 
the nearly 40,000 men and women of Air Force Space Command (AFSPC). 
Thank you for your interest in and continued support of our Air Force's 
space capabilities. Your leadership has focused resources towards 
maintaining the asymmetric advantage that our airmen deliver to, 
through and from space to the joint fight. I am honored to share this 
stage with my distinguished colleagues, all great leaders of our 
National Security Space team.
    Today, I am pleased to report our United States Air Force's space 
capabilities have never been more impressive. Each day AFSPC airmen 
demonstrate they are the Nation's experts in operating our Air Force's 
space systems by providing critical support to every one of our 
combatant commanders in the form of Missile Warning; Missile Defense; 
Space Surveillance; Position, Navigation and Timing (PNT); 
Environmental Monitoring; Strategic Deterrence; Satellite 
Communications (SATCOMs), Space Launch and Counterspace capabilities. 
As we reflect on the contributions the airmen in AFSPC delivered over 
the past year, it is clear we are now operating in an era where space 
provides an unparalleled advantage for our armed forces.
    This unmatched advantage that enables our joint, interagency and 
coalition operations must be protected. For that reason, our Air Force 
has laid out a strategy to support recapitalization efforts, while 
assuming some risk in our operations, maintenance and personnel 
accounts. Just as our Chief of Staff, General Moseley, testified, ``Air 
Forces fail when they do not correct slowly declining relative 
capabilities.'' Our space capabilities are too integral to the fight to 
let our forces down . . . or let an adversary eclipse our advantage. We 
realize the importance of investing today to get what we need for 
tomorrow.
    This 2007 posture statement articulates our Nation's critical 
reliance on space capabilities. At the birth of our command 25 years 
ago, space capabilities were in their infancy. Today, combatant 
commanders depend on integrated space effects to successfully execute 
their missions. To keep our radar locked on meeting those growing 
demands, our command developed a vision and a set of four focused 
priorities through which we will achieve future success.

                         VISION AND PRIORITIES

    The foundation of our command was built by pioneers like the 
``Father of Air Force Space,'' General ``Bennie'' Schriever and the 
first Commander of AFSPC, General James Hartinger. The long line of 
great leaders up through my predecessor, General Lance W. Lord, (Ret.), 
have all contributed to the success of our Nation's military space 
program today. Learning from our heritage, but with our eyes on the 
horizon, we crafted a vision that recognizes the important 
contributions of the past while also paving our path to future success. 
Our vision is to become the:

          Acknowledged Experts and Leaders in Fielding, Launching, and 
        Employing Space Power for the 21st Century

    The space effects we provide to the combatant commanders are 
second-to-none, due in large part to the bank of knowledge and spirit 
of innovation that keeps AFSPC on the cusp of the technological bow 
wave. Our Nation's and our allies' armed forces, our private citizens 
and millions of people around the globe, benefit today from 
capabilities provided by AFSPC. Every thing we do in this command is 
focused on enabling the joint fight, to win the war we are in today, 
and just as importantly, to ensure we are prepared to win decisively in 
the future. Our active duty, Guard, Reserve, government service, and 
contractor team are the best in their fields, and we want to leave no 
doubt in anyone's mind: when you have a question about America's 
military space and missile capabilities, the nearly 40,000 
professionals of AFSPC hold the answer. To help make this vision a 
reality, we have crafted four strategic priorities:

          1. Preserve and Expand our Ability to Deliver Space Effects 
        to the Joint Fight
          2. Provide Safe and Secure Strategic Deterrence
          3. Develop, Field, and Sustain Dominant Space Capabilities on 
        Time and on Cost
          4. Attract, Develop, and Retain People with the Expertise 
        Necessary to Meet the Challenges of the Future

    We have our sights set on these priorities. They serve to guide our 
focus in the way we operate today and to underpin the investments we 
need to make for our future.

 PRESERVE AND EXPAND OUR ABILITY TO DELIVER SPACE EFFECTS TO THE JOINT 
                                 FIGHT

    To achieve our first priority, we must do two things. First, we 
must preserve our ability to deliver space effects in today's fight. 
This means we must properly organize our forces, train them for 
success, and equip them with the tools necessary to protect our 
asymmetric advantage in space. Second, we must expand the capabilities 
we provide by always looking for ways to more efficiently operate our 
current systems while investing in the systems we will need tomorrow.
Preserve our Advantage in Space
    Preserving our advantage in space is a prerequisite for everything 
else we do. To achieve this, we first require the ability to 
effectively surveil the space domain with the goal of answering, in as 
near to real-time as possible, the questions of ``who, what, when, 
where, how, and why?'' that are so vitally important to the commander 
responsible for operations in any domain. We refer to this as Space 
Situational Awareness (SSA). Breaking this down further we arrive at 
the key ingredients necessary to achieve the SSA we need. First, we 
must establish the right organizational command construct. Second, it 
is vital for us to maintain and field the correct mix of space 
surveillance capabilities along with the ability to rapidly fuse, 
analyze, and display the data we collect in a fashion that will inform 
timely decisionmaking by our commanders. Next, we must be able to 
effectively command and control our forces. Finally, our ability to 
preserve our advantage in space will only succeed if we have assured 
access to the domain through highly dependable and responsive launch 
vehicles. In 2006, AFSPC made progress in all of these areas.
    We solidified our support to United States Strategic Command 
(USSTRATCOM) with their assignment of Major General Willie Shelton, our 
14th Air Force Commander, as USSTRATCOM's Joint Functional Component 
Commander for Space (JFCC-SPACE). That one organizational change, 
coupled with the establishment of the Joint Space Operations Center 
(JSpOC) at Vandenberg AFB, CA, aligned warfighter functional 
responsibilities with Air Force space capabilities and expertise. This 
is a good news story in the leveraging of Air Force people and assets 
to lead in the joint space environment. Ultimately, this change 
produced unity of command in delivering joint space capabilities for 
the combatant commanders.
    In the past year, this organizational construct was central to the 
delivery of over 18,000 mission essential products to regional 
combatant commanders supporting Operations Iraqi Freedom, Enduring 
Freedom, and Noble Eagle. In the Central Command (CENTCOM) alone, in 
the Combined Air and Space Operations Center in Southwest Asia, the 
Director of Space Forces received direct support from Major General 
Shelton's JSpOC and the airmen under his command operating the Defense 
Support Program satellite constellation. Together, they evaluated more 
than 2,100 infrared signatures in the CENTCOM AOR, enhancing 
battlespace awareness and force protection efforts for our Nation's 
deployed soldiers, sailors, airmen, and marines.
    Today, AFSPC's worldwide space tracking and surveillance network 
provides positional data on over 16,000 space objects. Our expert team 
of orbital analysts used this data for satellite collision avoidance 
with space debris as well as with other satellites. This analysis, in 
turn, helped safeguard over $50 billion in U.S. space assets which are 
vital to our Armed Forces, as well as interagency, coalition partners 
and the American economy. However, recent events like the Chinese ASAT 
test, which added over 1,600 new pieces of debris to our previous count 
of 14,000, only serve to highlight the need for us to further enhance 
our ability to surveil the space domain.
    Today, our surveillance, analysis and data-sharing capabilities do 
not adequately support our future needs to rapidly identify and 
understand the threats to our space systems. Given that limitation, we 
are working hard to make the most of every dollar spent in this area to 
optimize our surveillance function and give the Commander, USSTRATCOM, 
a better understanding of our space operating picture. These efforts 
include working in close cooperation with the Missile Defense Agency 
(MDA) to upgrade our early warning radars, examining alternatives for 
funding upgrades to a vital Space Surveillance Network radar at Eglin 
AFB, FL, and sustaining the Mid-course Space Experiment (MSX) 
satellite, our sole space-based space surveillance (SBSS) system. On 
the heels of MSX are the SBSS Block 10 (launching in fiscal year 2008) 
and Block 20 satellites which will provide critical enhancements to our 
need to surveil objects beyond Low Earth Orbit. Finally, we have begun 
a clean sheet look at requirements for how we should best surveil the 
space domain in the future.
    The need for SSA increases exponentially as our joint forces become 
more dependent on space. With our Nation's dependency on our space 
capabilities, in the future it will be even more essential for us to 
definitively identify the cause of any interruption in the delivery of 
our space-provided or space-enabled capabilities. Just as importantly, 
we must also be able to attribute who or what caused any interruption. 
Meeting this requirement puts our SSA needs on par with the air, land, 
and sea domains. In every one of these domains, our combatant 
commanders can obtain a solid picture of the threat, allowing them to 
produce, in a timely manner, a wide range of response actions. This is 
even more critical in the space arena where the response time can be 
significantly shorter for commanders to make decisions which will 
impact the lives of thousands of our soldiers, sailors, airmen, and 
marines. Furthermore, these threats to our space capabilities do not 
just exist in the space domain. We are staying equally focused on the 
other two critical elements of any space system; our ground stations 
and the communications links between the satellite, the ground station 
and the user. Without high fidelity and timely SSA, our national 
leaders will not have the key information needed to determine the range 
of available political, economic or military options to deter or 
counter future threats. Providing the Joint Functional Component 
Commander for Space (JFCC-SPACE) with the SSA he requires to 
effectively plan, operate, and fight is our top concern.
    To address this concern, we are driving towards several significant 
milestones. In fiscal year 2008, we will create an Integrated SSA 
program. Part of this effort entails creating a Space High Accuracy 
Catalog and replacing our 1991 vintage Space Defense Operations 
Computer with a net-centric, services-oriented architecture that will 
provide the combatant commanders and national users with actionable 
information on launches, satellite breakups, maneuvering objects and 
reentries. Additionally, the Rapid Attack Identification and Reporting 
System Block 20 program will better integrate and fuse space data 
(space intelligence, surveillance and space environmental monitoring) 
enabling JFCC-SPACE to better protect and defend critical space assets 
and respond to new and emerging threats, whether hostile or 
environmental. Each of these programs will help us meet our SSA needs.
    While SSA is the foundation for all operations, Space Command and 
Control (C2) is what links the JFCC-SPACE to the joint fight. 
Commanders in every domain require a basic C2 capability over their 
forces, and the same holds true in space. Effective Command and Control 
allows us to deliver flexible, agile and responsive effects to the 
battlespace, be it land, sea, or air. To accomplish this, we are 
developing a suite of enhanced command and control tools to synchronize 
space and air effects and improve support to joint/combined forces and 
national partners. For example, we are working hard to develop robust 
space C2 applications enabling the Joint Functional Component Commander 
for Space to rapidly process and satisfy space support requests from 
the regional combatant commanders. Major General Shelton and his team 
are doing an outstanding job, but to reach their maximum capability 
they simply must have state of the art equipment on-par with our other 
air and space operations centers. The tools currently under development 
will give the JFCC-SPACE a better understanding of the space 
environment and permit continuous collaboration with joint, national 
and coalition partners and make us more agile and responsive to the 
complex environment in which our soldiers, sailors, airmen, and marines 
operate.
    The final element of preserving our ability to deliver space 
effects to the joint fight is safely and reliably delivering payloads 
into orbit. The most critical portion of any spacecraft's life is 
launch. Today, due to the hard work of our men and women of the Space 
and Missile Systems Center, 14th Air Force, our two launch wings and a 
second-to-none contractor team, we stand at 50 successful national 
security payload launches in a row and have a 100 percent record of 
success with our new Evolved Expendable Launch Vehicle (EELV) class of 
vehicles (15 for 15 operational launches). In total, eight National 
Aeronautics and Space Administration, seven Department of Defense 
(DOD), one commercial, and six Space Test Program (STP) launches lifted 
off from our east and west coast launch and test ranges in 2006. Our 
most recent launch on 8 March 2007 successfully carried the STP-1 
mission with six individual spacecraft on board. The impressive list of 
firsts for this mission include: the first launch of an Air Force 
payload on an Atlas V, the first Air Force mission with six unique 
spacecraft, the first dedicated EELV mission for the STP and the first 
Atlas V to carry multiple satellites to two distinctly different Low-
Earth Orbits. This highly successful STP mission carried satellites 
from the Defense Advanced Research Projects Agency, Los Alamos National 
Laboratory, the U.S. Naval Academy, and the U.S. Air Force Academy. In 
2007, we will continue this pattern of excellence, continuing to prove 
nobody knows spacelift better than AFSPC.
    As we work towards preserving our ability to deliver space effects 
we also remain cognizant of the fact there is no downtime for us, as 
our mission and training continue 24/7, 365 days a year. Each day we 
maintain a laser-sharp focus on expanding our ability to deliver space 
effects to our Armed Forces, Nation, allies, and coalition partners.
Expanding our Ability to Deliver Space Effects
    Expanding our ability to deliver space effects to the joint fight 
entails both sustaining and enhancing our on-orbit position, navigation 
and timing; communications, environmental monitoring, and missile 
warning constellations, as well as investing in new capabilities and 
systems to increase our responsiveness to warfighter needs.
    Our current on-orbit constellations are the best in the world, 
including our flagship, the Global Positioning System (GPS). GPS 
continues to perform as the world's premier space-based positioning, 
navigation and timing system. GPS capabilities are integrated into 
nearly all facets of U.S. military operations and give the American and 
coalition warfighter an unparalleled advantage. GPS is integral to 
numerous battlefield innovations, including the Small Diameter Bomb, 
the Guided Multiple Launch Rocket System (GMLRS) and Joint Precision 
Air Drop System. We have also delivered nearly 100,000 advanced 
handheld GPS receivers to the field. US and coalition warfighters 
navigating with GPS across trackless deserts and employing GPS-guided 
munitions are testimony to the awesome effect GPS has on precision 
attack. Additionally, the increased accuracy of GPS-guided munitions 
has saved lives and reduced collateral damage.
    GPS also plays a major role supporting day-to-day business 
activities within our global commercial economy. Our satellites enable 
accurate directions to any mapped location, safe and efficient air 
travel, navigable oceans and waterways, as well as more efficient use 
of maritime resources, emergency and rescue services and precise timing 
data for communication systems, electrical power grids, and financial 
networks. GPS has literally become a household name.
    Efforts are well underway to sustain and modernize this global 
space-based navigation system, to ensure we meet the future needs of 
military and civilian users. We now have the first three of eight 
Modernized (IIR-M) GPS satellites on-orbit, a significant step towards 
offering new signals for military and civil users. First, the military 
signal (M-code) with enhanced encryption, will be transmitted on two 
distinct frequencies to improve anti-jam capabilities. Second, an 
additional civil signal will provide improved accuracy for civil, 
commercial, and scientific users. The next series of advanced GPS 
satellites (IIF), scheduled to launch in 2008, will have an extended 
design life of 12 years, faster processors with more memory, a new 
civil signal on a third frequency (L5) and increased power to reduce 
vulnerability to signal jamming. We are also making GPS easier to 
operate and maintain, by upgrading the GPS ground station control 
system from a mainframe system that is over 20 years old and becoming 
cumbersome to operate and repair, to a distributed architecture.
    We just released the Request for Proposal (RFP) on the next 
generation GPS ground segment and look forward to releasing the GPS III 
space segment RFP, bringing us an improved space and ground segment 
intended to assure reliable and secure delivery of enhanced position, 
navigation, and timing signals. The GPS III Block A satellites will 
transmit a significantly higher-powered military signal. Other features 
will be a new fourth civil signal (interoperable with Europe's Galileo 
and Japan's Quasi-Zenith Satellite System). We are also developing next 
generation military GPS user equipment that will take advantage of the 
modernized military signal.
    We have demonstrated time and time again that GPS is the world 
standard for PNT. No other system comes close to delivering the proven 
performance of the GPS constellation.
    The demand for SATCOM continues to grow by leaps and bounds. Our 
fully operational Milstar and Defense Satellite Communications System 
(DSCS) constellations are the Combatant Commanders' workhorses. The 
increased capabilities of the Command and Control-Consolidated ground 
system are paying huge dividends. Engineering and contractor teams 
continue developing innovative tactics, techniques and procedures for 
maximizing bandwidth and increasing satellite life span.
    Yet another capability available to the warfighter is the AFSPC-led 
Global Broadcast System (GBS). Via fixed and mobile injection points we 
provide worldwide, high-capacity, one-way transmission of classified 
and unclassified high-speed multimedia communications and information 
flow for on-the-move or garrisoned forces. GBS is used to transmit 
everything from near real-time UAV sensor feeds to critical 
intelligence data. One Army intelligence team providing support to 
Coalition-Joint Task Force 76 used GBS to download between 80 and 120 
images of Afghanistan every day. It is akin to our very own satellite 
broadcast network and the reviews are phenomenal.
    Clearly, the joint warfighter appreciates and depends on the 
capabilities we provide from and through space.
    Looking ahead, SATCOM will continue to be an area of focus for us. 
In 2007, we will launch the first Wideband Global SATCOM (WGS) 
satellite. We are excited about this launch because this one satellite 
will have more bandwidth capacity than the entire DSCS constellation 
(nine satellites) currently on orbit. Adding satellites 2 and 3, both 
fully built and undergoing testing and integration, will further 
improve warfighter SATCOM capability.
    The Advanced Extremely High Frequency (AEHF) SATCOMs System is on 
schedule for launch in early 2008. Brigadier General Ellen 
Pawlikowski's joint service team at the Space and Missile Systems 
Center is completing the first satellite, with the second satellite 
scheduled for testing in July 2007 and the third satellite experiencing 
on-time progress as well.
    Development of the Transformational SATCOMs System (TSAT) is a high 
priority. Technology risk reduction efforts on the laser communications 
and the next generation processor router are going well. As Lt. Gen. 
Frank Klotz testified to last year, the TSAT constellation will enable 
``communications on the move'' and will transform the Services' net-
centric architectures including the Army's Future Combat System, the 
Navy's ForceNet, the Marine Corps' X-Net concept and the Air Force's 
Global Information Grid initiative. TSAT is an integral part of our 
Armed Force's future concept of military operations. Today, an 8 
<greek-e> 10 image takes 2 minutes to transmit over Milstar. With 
TSAT, the same image will be transmitted in less than 1 second. A UAV 
image, which takes up to 12 minutes to send via Milstar, will be sent 
in less than 1 second with TSAT. We are working towards a System Design 
Review in April 2007 and ultimately a space segment contract award at 
the end of this year.
    Despite this progress, Military SATCOM (MILSATCOM) is an area for 
concern. We have reached the point in time where further schedule slips 
potentially affect both protected communications on the battlefield and 
the command and control of our strategic forces. It is critical for us 
to successfully launch every satellite in the pipeline and to meet all 
current program timelines. Any significant reduction in resources, an 
AEHF or WGS launch failure or another slip to the TSAT program, could 
create gaps in our MILSATCOM coverage--something our Combatant 
Commanders cannot afford.
    Another space capability entrusted to us is environmental 
monitoring. We launched our newest weather satellite, DMSP-17, in 
November 2006. DMSP-17 replaced a satellite that had been operational 
since 1995. What is amazing about that old satellite is that it had a 
design life of 3 years. Eleven years later it was still delivering 
critical support to the joint fight. Our dedicated professionals 
managed to extend the replaced satellite's lifespan by almost a decade! 
This is a true testament to our AFSPC/contactor design, operations and 
sustainment teams.
    Many of our space systems have far-reaching capabilities that 
provide information for strategic and tactical users simultaneously. A 
legacy system from the Cold War, our Defense Support Program has shed 
its singular role in the Strategic Deterrent mission to become a 
critical ingredient in the combatant commanders' toolkit as a theater 
asset. With our pending final DSP launch, this constellation has 
exceeded all original expectations. This year we began a new era with 
the launch and on-orbit operational testing of the first asset of the 
next-generation of warning systems--the Space Based Infrared System 
(SBIRS). To date, SBIRs testing has exceeded all expectations and we 
are confident that the SBIRS constellation will be as revolutionary to 
missile warning as GPS has been to PNT.
    It has been more than 5 years since an Air Force satellite suffered 
a major capability failure before reaching its intended design life. 
Every system in our portfolio has exceeded its potential and provided 
more robust utility to the Combatant Commanders through improved and 
upgraded features as well as through innovations in the operation of 
each constellation. However, new threats and new battlefield 
requirements dictate our continued vigilance in preserving and 
expanding our ability to deliver space effects to the joint fight both 
today and in the future.
    Along these lines, we are currently analyzing ways to develop space 
systems to deliver the following capabilities: 1) could rapidly augment 
current surveillance, reconnaissance, and communication platforms in 
response to the needs of a combatant commander; 2) could rapidly 
replace space assets disabled by attack or natural phenomenon, and 3) 
could rapidly deploy systems to support our SSA needs. Dubbed 
Operationally Responsive Space (ORS), this concept is centered on the 
rapid development, building, launch and activation of new and likely 
smaller satellite systems.
    We have begun to experiment with smaller satellites with the launch 
of Tactical Satellite (TACSAT)-2 on 16 December 2006. Once testing is 
complete, the spacecraft will be used in a series of joint 
demonstrations collecting data to make a recommendation of military 
utility. TACSAT-2 will participate in Exercises Talisman Saber 07, 
Empire Challenge 07, Valiant Shield, and Ulchi Focus Lens 07. TACSAT-2 
along with TACSAT-1, 3, and 4 will allow us to answer key questions on 
what capabilities we should focus on in the future to meet 
augmentation, replenishment or surveillance needs. Ultimately, any ORS 
system that requires the launch of a new satellite will require 
leadership of the integrated effort, from the booster, to the bus, to 
the payload, to C2 and data delivery architectures. The Air Force and 
AFSPC are uniquely populated with the expertise across these 
disciplines to develop and field these capabilities.
    Providing leadership over these programs is a key responsibility of 
AFSPC and we are pleased to have the opportunity to currently lead 
vital aspects of ORS to include requirements validation, TACSAT 
Military Utility Assessments and ORS Analysis of Alternatives (AoA) 
efforts. The planned standup of the ORS Office at Kirtland AFB, NM, is 
a giant step forward in supporting future operational satellite 
development and procurement for this emerging mission area. The 
connection with our Space Development and Test Wing is also critical in 
the early years of the program to capitalize on best practices in 
emerging technologies.
    The Commander, USSTRATCOM has identified a need to strike promptly 
and precisely against global targets using conventional kinetic 
effects. To this end, we are advancing a technology demonstration 
program to evolve, mature, and integrate critical technologies for a 
continental United States (CONUS)-based Conventional Strike Missile 
capability. This vision for a mid-term (fiscal years 2014/2015) 
capability will address the Nation's prompt conventional global strike 
requirement. To ensure there is no misinterpretation of intent, a 
multi-faceted package of mitigating measures will be added to the 
operational concept. Elements of this package could include: Coastal 
basing which is geographically separate from ICBM bases; associated on-
site inspections/verification; unique and distinguishable trajectories 
and flight paths; avoiding overflight of nations of concern; and 
strategic dialogue that provides a window into U.S. thinking. 
Additionally, we are conducting an AoA to examine potential prompt 
global strike capabilities for the long-term (fiscal year 2020 and 
beyond).

              PROVIDE SAFE AND SECURE STRATEGIC DETERRENCE

    Of all the missions with which we are entrusted, Strategic 
Deterrence has the least margin for error. Thankfully, this Nation has 
the men and women of 20th Air Force and the leadership of Major General 
Tom Deppe to rely on.
    Providing safe and secure strategic deterrence depends on the 
modernization of our current force and the infrastructure which 
supports it. To this end we have embarked on an aggressive Minuteman 
III modernization program. These efforts encompass modernizing every 
stage of the missile, the launch silos, and the command and control 
centers to meet our deterrence mission beyond 2025. Additionally, we 
remain actively engaged in efforts to replace an aging, but vital, UH-
1N helicopter fleet to support ICBM security requirements.
MM III Modernization
    Our Air Force team is modernizing the Minuteman III missile from 
nose to tail. The first Safety Enhanced Reentry Vehicle modification 
kit was installed in October 2006 enabling use of the MK 21 reentry 
vehicle from the deactivated Peacekeeper missile on our Minuteman III 
missiles. More importantly, this modern warhead provides USSTRATCOM 
planners with increased targeting flexibility and enhanced safety.
    In the year ahead, we will continue modernization of all of our 
Minuteman III missiles with a sustainable schedule calling for 
Propulsion Replacement Program (PRP) upgrades for 96 missiles. The PRP 
upgrade replaces aging motors and propellant as well as environmentally 
unsafe materials and components. To date the program has completed 52 
percent of its production run with 312 deployed in the field. In 2007, 
73 Minuteman IIIs will complete Guidance Replacement Program upgrades 
which will replace some of the 1960s generation electronics in the 
guidance system, further extending the missile's operational life. This 
program has completed 69 percent of its production run and 442 are 
deployed in the field. Additionally, we have fielded more than 65 
Propulsion System Rocket Engine (PSRE) upgrades across the fleet, 
accounting for 13 percent of the total production run. These PSRE 
upgrades replace components originally produced in the 1970s with a 10-
year design life. Finally, we are excited about the improvements built 
into the future Reliable Replacement Warhead. This replacement warhead 
will make use of the best security technology available and allow for a 
credible nuclear deterrent with the smallest nuclear weapons stockpile 
needed for national security purposes. While upgrades to the missile/
warheads are critical, it is only one piece in a larger system.
Modernization of Launch Facilities
    At our launch silos we remain focused squarely on improving 
security. Our ICBM Security Modernization Program contains three 
synergistic elements. First, concrete enhancements have been completed 
at all but one of our ICBM squadrons, ensuring our Nation's nuclear 
arsenal is safe and secure. The second security upgrade (the fast-
rising B-plug) enables security forces to rapidly close an open missile 
silo in the case of an impending security breech. We began the first 
installation of this technology at Minot AFB, ND, in February. Finally, 
20 AF is capitalizing on technology by deploying a Remote Visual 
Assessment (RVA) capability to enhance physical security. RVA employs a 
remote video camera to provide situational awareness at unmanned launch 
silos, enabling our security forces to tailor and accelerate response 
force actions to deny unauthorized access. In addition, this upgrade 
allows us to more efficiently use our most precious but limited 
resource, our airmen.
Building on Previous Accomplishments
    In addition to the upgrades in progress, we are proud to have 
completed (last year) the 4-year deployment of the $114 million Rapid 
Execution and Combat Targeting Service Life Extension Program, the 
heart of our ICBM command and control element. This command and control 
upgrade provides increased responsiveness and gives planners additional 
flexibility to meet rapidly changing world situations and evolving 
mission requirements. When combined with the previously completed 
Minuteman Minimum Essential Emergency Communications Network 
modernization of our communications links, we have achieved a 
tremendous leap forward in technology and operational C2 throughout 
20th Air Force.
    Equally impressive is the work we have accomplished, in partnership 
with the Wyoming National Guard, at the Nuclear and Space Security 
Tactics Training Center at Camp Guernsey, WY. Not only are we providing 
our security force warriors, maintainers and operators a much needed 
place to exercise their combat skills but we are also preparing airmen 
for deployment with our Air Expeditionary Forces.
    When we factor in all the upgrades to the Minuteman III weapon 
system we will have effectively reset the force to continue to provide 
unmatched deterrence through the third decade of the 21st century.
UH-1N Helicopter Replacement
    Even with of all these upgrades, we can not lose sight of one final 
and critical piece of the ICBM puzzle, our UH-1N helicopter fleet. This 
aircraft is our fastest and only way of rapidly responding to potential 
missile field security breeches. The Air Force is examining 
alternatives for replacement helicopters and we are working within the 
budget process to secure replacements. As we replace equipment that is 
war-battered from overseas deployments, it is important to recognize 
that our aged UH-1N fleet is flying as hard as ever, right here within 
our own borders.

DEVELOP, FIELD, AND SUSTAIN DOMINANT SPACE CAPABILITIES ON TIME AND ON 
                                  COST

    In the last year, we made great strides in acquisition and ushered 
in a new era with the opening of the Space and Missile Systems Center's 
Schriever Space Complex. Under the leadership of Lieutenant General 
Mike Hamel, we continue to make progress in developing, fielding and 
sustaining dominant space capabilities on time and on cost. Through a 
dynamic acquisition strategy, the sustainment of current systems, and 
the development of future dominant space capabilities AFSPC will 
achieve our goal of becoming the acquisition model for DOD.
Acquisition Strategy
    The cornerstone of our acquisition strategy lies in our ``back to 
basics'' approach to systems development, acquisition and sustainment. 
We understand just how important space capabilities are to the 
warfighter and we know the acquisition recipe that achieves results. 
Our comprehensive plan to get ``back to basics'' is already showing 
results in putting programs back on track and leading to a new 
generation of transformation and innovation based on solid systems 
engineering.
    We continue our commitment to risk mitigation across the entire 
space portfolio. As Dr. Sega has outlined, one of the key ingredients 
is our ``walk before you run'' strategy. Past acquisition failures can 
be traced to over-optimistic estimates of the maturity of key 
technologies and misunderstanding the challenges associated with system 
complexity. Our block development approach changes that, enabling us to 
gradually introduce new technology as it matures.
    Holding our leaders accountable is the key to the future success of 
this strategy. We are entrusting our top acquisition leaders with the 
authority they deserve but, at the same time, demanding results. We cut 
down functional stovepipes and are horizontally integrating key 
processes across programs by better reorganizing functions like 
engineering, program management, finance, logistics, developmental 
planning, and contracting. We are excited about the year ahead, as we 
continue ``turning the corner'' in space acquisition. We have always 
developed, fielded and sustained dominant space capabilities and we are 
confident we will go beyond that by producing tomorrow's space 
capabilities on time and on cost.
Develop, Field, and Sustain Dominant Space Capabilities
    With our strategy in place we turn our attention to developing, 
fielding and sustaining dominant space capabilities. Our new and 
upgraded systems have already begun delivering transformational 
results. The capabilities we enable for the combatant commanders will 
only increase as these systems gain traction and momentum. Later this 
year, we expect to begin payload assembly, integration and testing on 
the first SBSS sensor. Also vital to the joint warfighter, our AEHF 
satellite program is back on track to deliver positive results in the 
near future. As previously stated, the first WGS will lift off this 
year, providing an exponential leap in bandwidth availability. Meeting 
these, as well as all of our program commitments, will help ensure the 
asymmetric advantage of space is available to future generations of 
joint warfighters.
    One of these absolutely critical programs is SBIRS. With the launch 
of the SBIRS HEO-1 payload, we demonstrated the SBIRS program is on the 
path to success. Not only is HEO-1 on-orbit, but as stated earlier, its 
sensor is exceeding performance specifications and providing truly 
revolutionary results. This is good news for the upcoming SBIRS GEO 
satellite, which shares common sensors. The first GEO satellite is 
undergoing integration testing for its launch in 2008. As we close out 
a proud chapter in our history with the last DSP launch, we will open a 
new chapter with the delivery of the first SBIRS geosynchronous payload 
(GEO-1) for integration with its space vehicle this year.
    Our GPS constellation remains healthy with 30 satellites on-orbit, 
but increased dependence on this system requires us to push ahead with 
developing and fielding improvements. In 2007, we project the 
completion of thermal vacuum testing on the newest block of satellite, 
the GPS IIF. Again, this advanced satellite will provide tremendous 
advances in our PNT capability, making GPS more jam-resistant on the 
battlefield while delivering increased accuracy for civil customers.
    As was previously mentioned, in 2006 we launched a Defense 
Meteorological Satellite Program weather satellite. After a picture-
perfect launch, the space vehicle was checked out and placed into 
operational service in record time, another true success story in 
developing, fielding, and sustaining dominant space capabilities.
    While we sustain and modernize our on-orbit assets, we also remain 
committed to updating an aging infrastructure. The EELV's unprecedented 
record of initial successes literally translates into millions of 
dollars in savings. We continue to aim for 100 percent mission success 
with the new United Launch Alliance (ULA) initiative while implementing 
the ``Buy 3'' contracts. Recently, my vice commander, Lieutenant 
General Frank Klotz and I had the opportunity to visit the ULA plant in 
Decatur, AL, and were both impressed with the facility and the ULA 
team.
    Another aging piece of infrastructure, the Air Force Satellite 
Control Network (AFSCN), had its last major modernization in the late 
1980s with the installation of 286 computers. The current system is 
heavily impacted by obsolete, vanishing parts and reduced numbers of 
vendors. Currently, AFSPC is undergoing a cost-effective modernization 
of the AFSCN legacy system with off-the-shelf control and status 
equipment and new antennas that allow a more integrated and 
interoperable satellite network to support U.S. Government satellite 
operations.
    The AFSPC launch and test ranges are modernizing infrastructure to 
upgrade radar, telemetry and data systems for reliable and responsive 
access to space through our Range Standardization and Automation 
Program. We are taking steps toward space-based range through the use 
of GPS to track boosters and efforts to explore future flight 
termination and data relay technologies.
    We are also partnering with the MDA to upgrade and field missile 
defense capabilities and enhance the defense of our homeland and our 
allies against ballistic missile threats. In 2007, we will enhance 
capabilities at two Upgraded Early Warning Radar sites: first at Royal 
Air Force Fylingdales, United Kingdom, followed by Beale Air Force 
Base, California. The next upgrade is in coordination for Thule Air 
Base, Greenland, with an anticipated completion in fiscal year 2010. 
SBIRS has already established a fully-integrated Missile Defense 
capability and continues to improve burn-out tracking and projected 
impact prediction performance. Our efforts to achieve these 
capabilities are conducted on a non-impact basis to our primary mission 
of strategic missile warning supporting our Nuclear Command and Control 
System as directed in National Security Presidential Directive0928. 
Additionally, we are providing significant support to many MDA flight 
tests and the necessary security for the operational ground-based 
interceptors at Vandenberg AFB, CA.
    We have shown we can get ``back to basics'' with our space 
acquisition programs, and in the near future we will be providing 
incredible new capabilities that will accompany every single soldier, 
sailor, airman, or marine into battle. We have a tremendous 
responsibility to support our warfighters, and it's through the amazing 
people of AFSPC that I know we will succeed.

  ATTRACT, DEVELOP, AND RETAIN PEOPLE WITH THE EXPERTISE NECESSARY TO 
                   MEET THE CHALLENGES OF THE FUTURE

    Our fourth and final strategic priority is to attract, develop, and 
retain people with the expertise necessary to meet the challenges of 
the future. Our Air Force Chief of Staff recognized this when he made 
the development of world-class professionals one of his top priorities.
    One of our greatest future challenges is recruiting people equipped 
with the right skills to succeed in a much more dynamic and 
technologically challenging environment. Accordingly, we have placed 
increased emphasis on sustaining ongoing force development and 
voluntary off-duty degree programs at each of our bases to facilitate 
career-long education opportunities. In 2006, using AF tuition 
assistance, airmen in AFSPC completed 22,000 college-level enrollments, 
earning 66,000 advanced education credits, resulting in 1049 job 
enhancing degrees (associates to masters). Reinvesting in our human 
capital like this runs in parallel with recapitalization of our 
infrastructure. In the upcoming year, we will also increase the focus 
on recruiting cadets from the Air Force Academy and the Nation's other 
top colleges and universities into space-related career fields within 
the Air Force.
    Our requirement for a highly educated and technical workforce 
places additional demands on our professional development efforts. We 
must strengthen the technical foundation of our people, and match those 
with technical degrees against specific job requirements. The National 
Security Space Institute addressed this demand by expanding education 
and training opportunities, further cementing itself as the go-to place 
for space education. In the past 18 months, we've introduced the Space 
Integration Course (Space 300), offering it twelve times in fiscal year 
2007. We also offered 19 Space Application (Space 200) Courses, and 
continue to meet expanding needs by developing a Distance Learning 
version of our Space 200 curriculum which will reach a broader group of 
students including our traditional reservists. In addition, two Naval 
Operations (NAVOPs) Advanced Courses and the first-ever Missile Warning 
and Defense Advanced Course were taught. In anticipation of modern 
warfighter demands, we are developing a SATCOM Advanced Course which 
will have its initial offerings within 12 months. We are poised to 
continue to offer NAVOPS and SATCOM Advanced Courses and to answer 
requests for a Space Superiority Advanced Course and a Rendezvous/
Proximity Operations course as funds are made available. The surging 
demand for these courses has been remarkable, to include interest from 
many of our allies. Through all of these efforts we already see the 
benefit of our education programs with the outstanding job our airmen 
are doing both from CONUS and in theater.
    One airman who has taken full advantage of the many educational 
opportunities is Major Toby Doran, a graduate of Space 100, the USAF 
Space Weapons Instructor Course and the Air Force Institute of 
technology (degree in space operations). In 2006, Major Doran deployed 
from AFSPC (as part of a Joint Space Support Team, Camp Fallujah, Iraq) 
and helped identify a required modification in the Army's GMLRS weapon 
system. The problem was the GLMRS system used old GPS data under 
certain conditions. Major Doran ascertained that if stale ephemeris 
data was passed to a rocket prior to launch, it could cause an error in 
the rocket's impact point. Major Doran, in coordination with our GPS 
Operations Center (GPSOC) and Director of Space Forces, engineered 
procedures to ensure soldiers employing GLMRS in Iraq and Afghanistan 
received immediate notification of GPS outages from the JSpOC and 
GPSOC. This is just one example of many where AFSPC airmen used their 
education, technical training and operational experience to take 
responsibility for the combat effects we provide through space.
    To maintain our momentum, we began an extensive effort to make it 
easier to earn advanced technical degrees. At our ICBM Launch Control 
Centers, we have fielded something we call Netlink. For the first time 
ever, our missile combat crews are able to access the internet and 
complete distance learning courses while on-alert, underground. We also 
developed a pilot, five-course academic certificate program with the 
Space Education Consortium through the University of Colorado at 
Colorado Springs to further increase the technical knowledge of our 
space professionals. This consortium is comprised of 10 universities 
and 2 institutes throughout the United States, including an 
international member in Strasbourg, France. In fact, the first class of 
the certificate program, Systems Engineering, met in January 2007 with 
20 AFSPC airmen (officers and enlisted) providing glowing feedback 
about the program. Most of the course work is completed via distance 
learning, and the members of this initial cadre will complete a space 
certificate program they can apply to a Master's degree in:

        <bullet> Space Operations (Master of Engineering),
        <bullet> Systems Engineering (Master of Engineering),
        <bullet> Engineering Management (Master of Engineering), and
        <bullet> Business Administration (with space emphasis).

    With your support, we can expand this pilot program to make it 
available to all of our airmen. The Air Force Institute of Technology 
and Naval Postgraduate School have also developed dynamic new 
certificate and degree programs aimed at the development of our airmen. 
We are excited about these programs, and the additional opportunities 
they provide for building the next generation of space leaders. 
Ultimately, our young men and women will hold the keys to the future 
success of our Nation's ``invisible force.'' My promise in the year 
ahead is to further codify our space professional development efforts 
and produce a more robust and challenging program for our Nation's 
space professionals. In addition, we will continue to work across 
service boundaries and with the National Reconnaissance Office to get 
the right person with the right expertise in the right position to 
lead. We know that ultimately our most important job is to grow the 
future air and space leaders who will step into our shoes and make the 
next 25 years even better than the last.

                               CONCLUSION

    This year our Air Force celebrates its 60th anniversary and AFSPC 
turns 25 years old. The force we built over the last 25 years is truly 
remarkable and the investments we made together are paying off on the 
battlefield. However, success in the next 25 years will require the 
same level of commitment. There is no doubt in our minds that our 
ability to operate in space is critical to our Nation, and so we must 
improve our investment in areas like SSA and C2.
    Every soldier, sailor, airman, and marine benefits from the 
capabilities provided by our space forces. Recapitalizing our space 
systems will ensure we have even better capabilities for our forces in 
the future. While you cannot see or touch many of our space 
capabilities, the combatant commanders know they are there and rely 
heavily upon them. The effects we deliver via the space domain will no 
doubt be an integral part of every future military operation. The men 
and women of AFSPC are your ``go to'' experts for space, and with 
Congress' support, we will deliver what this Nation needs to ensure the 
asymmetric advantage our space forces bring to the fight today will be 
even more dominant in the future.

    Senator Bill Nelson. Senator Sessions?

               STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. Thank you, Mr. Chairman. I sincerely 
apologize for being tied up after that vote we just finished.
    First I'd like to thank this distinguished panel. You 
represent leadership in some of the most complex, 
technologically challenging and important parts of our defense 
establishment, and we appreciate that.
    The Air Force has been faced with the difficult challenge 
of modernizing military space systems in virtually every 
mission area. Strategic missile warning, assured 
communications, navigation, and intelligence and surveillance. 
We've explored in this subcommittee previously that many of 
these programs have suffered substantial problems with regard 
to cost, schedule, and technical performance.
    But, thanks to a new Air Force leadership, practices that 
you all have worked on, I believe we may be turning the corner 
on some of those worst problems. I think progress has been made 
and I'd like to inquire a little bit more about it, but my hope 
is that the new back-to-basics approach in conjunction with new 
emphasis on ORS, will expedite delivery of capabilities to the 
warfighter in a cost-effective manner.
    Our budget, the $8.1 billion budget request for space 
modernization in fiscal year 2008, is up from the fiscal year 
2007 appropriated amount of $6.7 billion, but it falls $400 
million short of what the Air Force had planned to spend, so we 
need to look at those expenditures and whether or not we're 
meeting the needs that are out there.
    Mr. Chairman, thank you for this opportunity to say a few 
words and I'll look forward to hearing from the panel.
    [The prepared statement by Senator Sessions follows:]

              Prepared Statement by Senator Jeff Sessions

    Mr. Chairman, I would like to welcome today's witnesses and thank 
them, and their organizations, for their hard work and contributions to 
our Nation's security. While the recent anti-satellite test conducted 
by China has raised the visibility of space programs, we both realize 
that the Department of Defense has been working hard to ensure that our 
space capabilities are second to none.
    The Air Force has been faced with the difficult challenge of 
modernizing military space systems in virtually every mission area: 
strategic missile warning. assured communications, navigation, and 
intelligence and surveillance. For reasons that this subcommittee has 
explored previously, many of these modernization programs have suffered 
substantial problems with regard to cost, schedule, and technical 
performance.
    Thanks to new Air Force Space leadership and practices, I believe 
we may be turning the corner on the worst of these problems. It is my 
hope that the new ``back to basics'' approach, in conjunction with the 
new emphasis on Operationally Responsive Space, will expedite delivery 
of capabilities to the warfighter in a cost-effective manner.
    Mr. Chairman, there is something that troubles me. While the 
Department of Defense and the Air Force clearly acknowledge the 
critical importance of space programs as an enabler for virtually every 
defense mission area, it has nevertheless reduced the planned growth in 
space funding that was presented to Congress last year.
    Although the $8.1 billion request for space modernization in fiscal 
year 2008 is up from the fiscal year 2007 appropriated amount of $6.7 
billion, the request falls $400 million short of what the Air Force 
planned to spend in fiscal year 2008.
    As we will explore during the course of this hearing, this funding 
shortfall has serious implications for several key modernization 
programs in the area of space communications and space control.
    In light of recent Chinese space activities, and the growing 
importance of space for United States national security, I think we 
need to look carefully at whether the budget request for space 
modernization, which is 21 percent of total Air Force modernization, is 
adequate.
    Mr. Chairman, I thank you and look forward to hearing from the 
witnesses.

    Senator Bill Nelson. Okay.
    General?

  STATEMENT OF MAJ. GEN. WILLIAM L. SHELTON, USAF, COMMANDER, 
  JOINT FUNCTIONAL COMPONENT COMMAND FOR SPACE, UNITED STATES 
                       STRATEGIC COMMAND

    General Shelton. Mr. Chairman and members of the 
subcommittee, it's a pleasure for me to be here with you today.
    I wear two hats. I'm the 14th Air Force Commander, but I'm 
also Strategic Command's (STRATCOM) Joint Functional Component 
Commander for Space. It's in that latter role that I appear 
before you today. I look forward to your questions. So, I'll be 
looking at the operational perspective of STRATCOM.
    [The prepared statement of General Shelton follows:]

        Prepared Statement by Maj. Gen. William L. Shelton, USAF

    Chairman Nelson, Senator Sessions, and members of the subcommittee: 
I am honored to be here today alongside distinguished members of the 
panel: Under Secretary of the Air Force, Hon. Ron Sega; General Kevin 
Chilton, Commander of Air Force Space Command; Vice Admiral James 
McArthur, Jr., Commander of Naval Network Warfare Command; and Cristina 
Chaplain, Director of Acquisition and Sourcing Management, Government 
Accountability Office. This is my first opportunity to appear before 
you as United States Strategic Command's (USSTRATCOM) Commander of the 
Joint Functional Component Command for Space (CDR JFCC SPACE), and it's 
a pleasure to be able to address you on our space posture.
    I know this subcommittee is fully aware of the growing importance 
of space capabilities to our national security, as well as to our 
overall economic prosperity. Today, I will provide you an update on our 
efforts to efficiently and effectively employ our vital space 
capabilities, highlighting our top priorities, and identifying the 
challenges we face in fulfilling both national and combatant commander 
objectives.

                    EMPLOYMENT OF SPACE CAPABILITIES

    In July 2006, General Cartwright, the Commander of USSTRATCOM, in 
coordination with the Chief of Staff of the Air Force, directed the 
creation of JFCC SPACE, and assigned the Commander, 14th Air Force, the 
dual role of CDR JFCC SPACE. While I serve in both roles, it's in the 
CDR JFCC SPACE position that I am designated as the single point of 
contact for military space operational matters. Additionally, JFCC 
SPACE is responsible for providing tailored, responsive, local, and 
global space effects to supported combatant commanders. My USSTRATCOM-
delegated authorities include Global Space Coordinating Authority, 
which empowers me to be the primary interface with supported commanders 
for operational-level planning and execution of space forces in support 
of combatant commander objectives. CDR JFCC SPACE is also assigned 
Operational Control and Tactical Control authorities for designated, 
worldwide space operations and missile warning forces. Finally, JFCC 
SPACE supports the Commander, North American Aerospace Defense Command 
(NORAD) by providing the missile warning and space surveillance 
capabilities necessary to fulfill the U.S. commitment to the NORAD 
Agreement. By establishing the CDR JFCC SPACE, USSTRATCOM provides a 
single commander, with a global perspective, to enhance functional 
integration of space capabilities for the joint warfighter and the 
Nation.
    Just in the last year, two significant world events have galvanized 
our thinking by highlighting both the importance and the potential 
fragility of our Nation's space capabilities. The first event occurred 
during our initial month of operation--the July 2006 North Korean 
launch of a Taepo Dong-2 (TD-2) missile. The second event was the 
January 2007 Chinese test of a hit-to-kill anti-satellite (ASAT) 
capability. Interesting enough, this test occurred 6 years to the day 
after the publication of the 2001 Space Commission Report, which had 
warned of growing threats to our space capabilities. In both events, 
JFCC SPACE coordinated pre-launch indications and warning campaigns, 
then provided space-based tracking of the boosters during flight, which 
helped shape the national response. We worked closely with our 
USSTRATCOM global mission partners and various agencies to ensure space 
capabilities were available to support potential contingencies and 
courses of action. For the ASAT test, we tracked the resultant debris, 
and we continue to assess the additional risk posed by the debris to 
our satellites and the International Space Station. These events 
foreshadow a future that appears increasingly challenging. Our near-
term priorities, which include increasing our Space Situational 
Awareness (SSA) capabilities and strengthening and formalizing 
departmental and interagency relationships, are certainly informed by 
our experience from these two events.
    One of our most important lessons learned was that our current 
systems processing such events are not sufficiently dynamic. 
Outstanding people overcame these limitations by arranging manual data 
and voice workarounds, but clearly, this should not be how we conduct 
space command and control operations in the future.
    Strengthening unity of command and unity of effort is critical in 
executing timely actions to preserve space effects for the Nation. 
Organizationally, we are taking steps to gain better access to limited 
resources. Among these include dual-hatting the Deputy Commander of 
JFCC SPACE (DCDR JFCC SPACE) with the National Reconnaissance Office's 
Deputy Director for Mission Support (NRO/DDMS). This designation will 
help strengthen the bonds between NRO space operations and Department 
of Defense (DOD) space operations. We are constantly searching for 
opportunities to synergize efforts and leverage existing resources in 
the employment of space capabilities. Unity of effort in tactics, 
techniques, and procedures, underpinned by a net-centric system 
designed to provide both enhanced SSA and operational-level command and 
control, will strengthen JFCC SPACE operations.
    To ensure USSTRATCOM, through JFCC SPACE, can deliver persistent 
space effects in support of both national and combatant commander 
objectives, we rely on the Services, under the able coordination and 
direction of the DOD Executive Agent for Space, Dr. Sega, to acquire 
the space systems we need to maintain our tremendous advantage in 
space. I thank Dr. Sega for his leadership in our Nation's space 
capability development. Through his efforts, and those of our talented 
sailors, soldiers, airmen, and marines, we are able to enhance the 
quality of current space effects and ensure continuity of services in 
our position, navigation, and timing (PNT), missile warning, satellite 
communications, and environmental monitoring capabilities.

                               CHALLENGES

    Our Nation's growing dependence on space-based capabilities creates 
a corresponding potential vulnerability. Therefore, preserving our 
space-based capabilities against intentional and unintentional events 
will be a growing challenge as more entities gain access to the space 
domain.
    We currently track over 16,000 artificial objects in space, to 
include everything from active satellites to launch-related debris. 
Although this is certainly a large number of objects, there are many 
more that are too small for our space surveillance sensors to track. As 
the number of objects increases, so does the potential for a 
catastrophic collision in space. The addition of over 1,600 pieces of 
trackable debris from the Chinese ASAT test further complicates the 
problem.
    Along with the growing debris population, there are many other 
current and developing threats to our space capabilities. To fully 
understand the potential threat to national assets, DOD payloads, 
commercial space satellites, and manned space systems, we depend on 
both ground- and space-based space surveillance sensors.
    Every commander strives for the best situational awareness possible 
before he/she engages in operational activity. For space operations, 
this imperative is especially true, given our investment in space, our 
dependence on space capability, and the difficulty of replacing assets 
following an unexpected loss. As the threats to our space assets grow, 
our ability to provide robust SSA must grow commensurately. We will 
become increasingly dependent; on the availability of a persistent, 
predictive, dynamic SSA capability. The success of our space operations 
will hinge on a decisionmaker's ability to quickly answer the ``who, 
what, when, where, how, and why'' questions, as he/she determines a 
course of action to support our national security objectives. We must 
have thorough, decision-quality, knowledge of all constituent parts of 
SSA: the space environment conditions, the space debris situation, the 
status of blue forces, and the intelligence picture, which includes 
enhanced information on potential adversary space capabilities and 
intent.
    An increasingly threatened, dynamic environment will drive us to 
highly automated, net-centric capabilities. Machine-to-machine 
interfaces will enhance decisionmakers' ability to quickly and 
accurately assess emerging space capabilities and threats. The net-
centric data sharing that will occur will allow much easier integration 
of disparate data, enhancing the overall situational awareness of the 
warfighter. I thank General Chilton for his strong leadership and 
commitment to making SSA a top priority within Air Force Space Command. 
He is driving hard toward vastly improved SSA to provide that crucial 
underpinning for JFCC SPACE operations.

                               CONCLUSION

    Space operations are changing rapidly. Dynamically taskable 
satellites, increasing threats to the space environment, and the 
dependence on space, are all key factors that drive our decisions on 
the future of operational command and control in JFCC SPACE. It's an 
exciting time to be in the space business, and I am privileged to 
command the men and women who employ these great space capabilities for 
our Nation. I thank you for your time and attention, and for your 
assistance in preserving the vital space capabilities for our national 
security.

    Senator Bill Nelson. Admiral?

STATEMENT OF VADM JAMES D. McARTHUR, JR., USN, COMMANDER, NAVAL 
                    NETWORK WARFARE COMMAND

    Admiral McArthur. Mr. Chairman, distinguished members, I'm 
Vice Admiral Jim McArthur from Naval Network Warfare Command.
    Our responsibilities are to provide C4 systems, information 
operations, and space affects to Navy component commanders 
arrayed globally. We're also a functional component of U.S. 
STRATCOM. The Navy's had a long history in space, both as a 
consumer and an operator. We feel like maritime security, 
maritime domain awareness, and force net will continue to rely 
on that.
    In fact, the interdependency will grow enormously. I look 
forward to discussing those interdependencies with you. We need 
assured and responsive space, space effects, and fortunately 
those are being provided today with the component of U.S. 
STRATCOM.
    It's an honor to appear before you, and I look forward to 
the questions, sir.
    [The prepared statement of Admiral McArthur follows:]

         Prepared Statement by VADM James D. McArthur, Jr., USN

    Mr. Chairman and distinguished members of the subcommittee, as the 
Commander of Naval Network Warfare Command, I am honored to appear 
before you today to address Navy space activities. Naval Network 
Warfare Command is responsible for providing operational network, 
information operations, and space effects, as a supporting commander to 
Navy component and joint commanders.
    The Chief of Naval Operations (CNO) pointed out our two unique Navy 
attributes--global reach and persistent presence--during his 23 March 
2007 fiscal year 2008 posture hearing. This means we as a Navy must be 
prepared to conduct major combat operations, address asymmetric 
threats, as well as provide maritime security in a variety of ways in 
an ever changing world. The value that the Navy brings in terms of 
regional security, global stability, and anti-access capabilities is 
undeniable. All of this requires space capabilities that are rapid, 
dynamic and assured. Space can be viewed as a classic inter-dependency; 
Naval component commanders depend on U.S. Strategic Command to provide 
Department of Defense (DOD) and national space effects, essential for 
successful naval operations. I will share with you what we are doing as 
part of the joint space team.

                  SPACE SUPPORT TO THE NAVY WARFIGHTER

    Warfare today and in the future will be about speed and having 
superiority in the information domain--acting quickly in the global 
commons of the seas, space, and cyberspace before an adversary 
saturates or penetrates our defenses. It will also be about 
persistence--having the duration and vantage point to find threats and 
counter them with precision. Space capabilities are a critical enabler 
for maritime operations. They provide the foundation through which data 
is rapidly collected, fused, correlated and disseminated to build 
Maritime Domain Awareness and support the National Strategy for 
Maritime Security. In general, naval warfighters need global coverage, 
wide-area active and passive surveillance capabilities, robust jam-
resistant communications, and position, navigation and timing 
information for core Navy warfighting competencies, deterrence 
missions, and stability operations.

                       NAVAL SPACE CAMPAIGN PLAN

    The Naval Space Campaign Plan is my blueprint for operationalizing 
space support to the maritime warfighter. As we implement and execute 
the plan, we are breaking new ground in the Fleet's operational 
employment of space effects. NETWARCOM's NetOps, IO, and Space Center 
(NIOSC) functions as a true reachback staff element for deployed Strike 
Groups and forward Maritime Headquarters. The space planners in the 
NIOSC broker maritime operational and exercise space needs with the 
Joint Space Operations Center at Vandenberg Air Force Base and assist 
the theater Space Coordinating Authorities as they develop the space 
support requests for their AORs. This insures that the desired DOD and 
national technical space effects are delivered in support of fleet 
activities. Concurrently, NETWARCOM is formalizing the fleet's training 
and exercise play. By advancing the fleet's space systems knowledge 
through regular staff training sessions and standardizing the way the 
fleet trains during FRTP to fight in an environment with mature threats 
to our space systems, we are ensuring our strike groups and staffs are 
equipped to fully leverage and integrate joint and national space 
capabilities and operate against a regional space peer.

                         THE NAVY'S INVESTMENT

    The Navy's space investment portfolio reflects our partnership with 
the Department of Defense's Executive Agent for Space and the rest of 
the National Security Space community--as well as our maritime 
responsibilities. We recognize our reliance on the Air Force and 
National Reconnaissance Office (NRO) to acquire most of the major space 
platforms. The Navy's Space Cadre works closely with them to 
collaborate on meeting maritime requirements. We also take the lead in 
tackling maritime challenges through our participation in the science 
and technology (S&T)/research and development (R&D) process. Our 
Tactical Exploitation of National Capabilities office works closely 
with the NRO to develop new technologies and techniques to collect and 
exploit against emerging naval threats, including developing 
operationally responsive payloads.
    In addition to our major space segment responsibility for 
narrowband satellite communications (SATCOM), which I will talk about 
more specifically in a moment, my organization is leading change in two 
key areas that will make our Navy more capable of fully leveraging 
space capabilities. First, we are using a combination of military and 
commercial satellite capabilities to increase available bandwidth. In 
conjunction with this effort, we are investing in the dynamic 
management of existing bandwidth (i.e., Automated Digital Network 
System, new modems, etc). Together, these strategies will be used to 
deliver our warfighting requirements, enabling the Naval Operating 
Concept vision of ``distributed network operations.'' These increased 
capabilities will further enhance education and training opportunities 
available at sea and support other quality of service aspects expected 
by the Millennium Generation. Second, we are breaking the link between 
software and hardware by moving to an open architecture approach. 
Through strong governance and fiscal discipline, we are developing a 
Service Oriented Architecture to enable lower cost upgrades, reduce 
equipment costs, and rapidly insert new technology. Our goal is to 
ensure the capacity and flexibility to rapidly integrate space, as well 
as capabilities from other platforms, into our architecture.

                      MOBILE USER OBJECTIVE SYSTEM

    The Navy's major space segment responsibility to the joint 
community is the narrowband satellite communications constellation. 
Today it consists of Ultra High Frequency (UHF) Follow-on (UFO) and 
Fleet Satellites (FLTSATs) which will begin to be replaced by the 
Mobile User Objective System (MUOS) in 2010. MUOS will provide 
communications-on-the-move, through double canopy foliage and in urban 
environments to small antennas used by disadvantaged users (handhelds, 
aircraft, missiles, unmanned aerial vehicles (UAVs), remote sensors) in 
stressed environments (foliage, urban environment, high sea state). 
MUOS is the common denominator for command and control providing the 
capability to communicate from tactical to theater levels, to allies 
and coalition partners, and between defense and nondefense agencies. 
MUOS will allow a more comprehensive and coordinated approach to 
regional engagement, providing the capability to synchronize efforts 
with other Services, agencies, and allied nations.
    MUOS is critical to satisfying the demand for tactical satellite 
communications. During Operations Enduring Freedom and Iraqi Freedom, 
UFO, FLTSAT, and LEASAT 5 were only able to support 80 percent of the 
narrowband tactical UHF satellite communication requirements. 
Additionally, in the 2010 timeframe, LEASAT 5 will reach its end of 
service life, and the UFO constellation, based on new analysis after 
the premature UFO 9 failure, is expected to reach an unacceptable level 
of availability in May 2008. We have a mitigation plan to minimize the 
operational impact of a potential gap in capability (seven operational 
satellites vice the required eight) before MUOS is operational. It 
includes the use of commercial bandwidth and the dynamic management of 
existing bandwidth as mentioned previously. Today, UFO supports 
approximately 500 simultaneous accesses worldwide. Based on evolving 
future war fighting concepts in support of the Defense Planning 
Guidance, UHF SATCOM access requirements are expected to grow by at 
least a factor of four and MUOS, as designed, will be able to support 
that requirement.
    Since last year the MUOS program successfully completed the Key 
Decision Point (C) milestone and the Critical Design Review phase. The 
program is currently on schedule and within budget to meet an On-orbit 
Capability in 2010 and is fully funded in the President's 2008 Budget 
to meet all threshold requirements. The MUOS program is currently 
preparing for the October 2007 Build Decision (for satellites 1 and 2). 
MUOS will bring a 4-fold increase in the number of accesses (1997 vice 
500) and a 20-fold increase in throughput (39.2 Mbps, total system 
capacity vice 2 Mbps) worldwide while providing improved communications 
on the move to disadvantaged platforms (hand held terminals, aircraft, 
missiles, UAVs, remote sensors) at higher data rates (up to 64 kbps per 
access). This capability can only be realized with the fielding of MUOS 
capable Joint Tactical Radio System terminals or by upgrading existing 
UHF legacy software programmable terminals.

                           SPACE ENVIRONMENT

    Navy depends on space capabilities now and expects the demand for 
space capabilities in the future, especially for SATCOM, to increase. 
We, like the rest of the Nation's leadership, were concerned by China's 
recent anti-satellite test, not only for its primary purpose of 
demonstrating a capability against spacecraft, but for the collateral 
effects of the debris created. That said, we recognize that all space 
capabilities are vulnerable to both low and high technology threats, 
including communication and data link jamming, attempts to exploit or 
disrupt computer systems, attacks against the sensors, and physical 
attack against the ground infrastructure. Although space threats can 
not be completely eliminated, Navy is embarking on a multi-pronged 
approach to minimize their potential impact on naval operations. We 
started with an internal study on space vulnerabilities in 2005 and 
have identified opportunities for action. First, Navy will have 
multiple communications paths available, including extremely high 
frequency (EHF), UHF, and super high frequency, as well as commercial 
systems. While we eagerly await the leap in communications capability 
that the Transformational Satellite (TSAT) will bring, the requested 
funding for an additional Advanced Extremely High Frequency satellite 
will improve protected communication capability in the near-term. Also, 
for our battlespace and maritime domain awareness needs, we will 
leverage a variety of sensors, including airborne and space based, and 
ensure a balance between sea and shore based intelligence analysis and 
processing capabilities. Finally, we are examining nonmaterial 
solutions, such as planning and training for degradation of space 
capabilities. As I've already mentioned, the NIOSC is currently 
providing focused space support to the Eisenhower, Stennis, and Bataan 
Strike Groups as part of the Naval Space Campaign Plan, with the goal 
of providing tailored space capabilities to improve the mission 
effectiveness of the fleet.
    The Navy is working with U.S. Strategic Command to ensure 
comprehensive space intelligence is provided and appropriate means of 
protection are addressed systematically as space systems and their 
concept of operations are being developed. We communicated to Strategic 
Command the need for a balanced Space Control portfolio to ensure 
appropriate emphasis on protection and space situational awareness. As 
both the Secretary of the Navy and CNO have noted, we cannot allow 
ourselves to be fixated on one threat alone. Therefore, our collective 
efforts must take a broad-based perspective on the threat to space 
capabilities.

                     OPERATIONALLY RESPONSIVE SPACE

    Navy supports Operationally Responsive Space (ORS) because maritime 
forces need the flexibility that ORS offers to augment and reconstitute 
critical warfighting capabilities in order to counter increasingly 
agile adversaries. Navy actively participated in the congressionally 
directed 120-day ORS study and will be an integral part of the ORS 
organization once a joint office is established. Building on over 50 
years of small satellite experience, Navy is working closely with the 
Services, combatant commands (COCOMs), and the Intelligence Community 
to develop key elements of ORS through the TacSat series of 
experiments. We realize that ORS is more than just smaller, rapidly 
developed satellites and requires an end-to-end examination to develop 
the agility and capabilities needed to rapidly adapt to the ever 
evolving threat environment facing our Joint Force Commanders (JFC).
    As part of the joint TACSAT and ORS effort, the Office of Naval 
Research (ONR) is investing $15 million of S&T funds each year in 
moderate-to-high-risk projects that result in significant prototypes 
through the Space Innovative Naval Prototype program. Investments are 
focused on naval capability gaps that space can fill such as ship 
tracking, data exfiltration from buoys, communications-on-the-move, 
submarine detection, cueing, and littoral characterization. TACSAT-2 
was launched on 16 December 2006 and is undergoing testing. Commander 
Strike Group-8 is interested in leveraging one of its secondary 
payloads, built by the Naval Research Laboratory (NRL), for ship 
tracking and input into maritime domain awareness. We are looking 
forward to launching TACSAT-1 later this year after SpaceX gives the 
go-ahead for launch on its Falcon-1 rocket. NRL also built a secondary 
payload for TACSAT-3 that provides a basic IP-based data exfiltration 
capability. NRL is leading TACSAT-4 for the joint community with ONR 
funding the UHF Communications payload to support comms-on-the-move and 
data exfiltration. TACSAT-4 uses a prototype spacecraft bus resulting 
from a broad government-industry team effort to develop and mature bus 
standards for increased modularity. The spacecraft should be completed 
by the first half of next year and will be launched into a highly 
elliptical orbit to provide long dwells over theater. The TACSAT series 
of experiments reflect the partnerships that need to be developed 
between the Services, COCOMs, and Intelligence Community to innovate 
solutions and leverage the best talent available across the national 
security space community to solve warfighting challenges. NRL is 
managing the ORS Payload Technology initiative for the Office of the 
Secretary of Defense. This initiative jointly evaluated 75 industry 
proposals and awarded 14 which are being developed by industry now and 
over the course of the next year.
    The ORS attributes of flexibility and agility not only impact the 
current operational environment but also have the potential of 
positively affecting the space industrial base. The shorter project 
cycles should provide a broader base of rapid response experience for 
the space industry and space cadre, and will establish a faster 
acquisition rhythm in the long run.

                                SUMMARY

    Our mission of keeping the air and sea lanes open and ensuring the 
security of our citizens at home and abroad requires a global reach and 
persistent presence. We must be constantly ready, whether it is to 
deliver on a mission of mercy or more lethal measures to respond to a 
specific threat. Our ability to respond, as well as work with our 
coalition and other maritime partners, will depend on space 
capabilities for the necessary flexibility and speed to support our 
worldwide responsibilities. To deliver the required space capabilities 
to the warfighter and represent the Navy's interest in space, we will 
continue to invest in our most valuable resource, our people, the Navy 
Space Cadre.
    The Navy remains committed to shaping space system capabilities and 
fully integrating those capabilities into maritime operations. We look 
forward to participating in ORS, as well as delivering MUOS for the 
joint warfighter.
    Thank you for the opportunity to share our efforts with you today.

    Senator Bill Nelson. Thank you, Admiral.
    Ms. Chaplain?

 STATEMENT OF CRISTINA T. CHAPLAIN, DIRECTOR, ACQUISITION AND 
     SOURCING MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Chaplain. Thank you for inviting me here today.
    The Government Accountability Office's (GAO) reviews for 
the past several years have painted a pretty bleak picture of 
space acquisitions. We've seen cost increases in billions of 
dollars, schedule delays in years, and performance risks. 
Today, the picture is a bit different, and I would like to 
comment on that.
    On the plus side, we have some of the legacy programs, 
namely the Advanced Extremely High Frequency (AEHF) Satellite 
and Wideband Global Satellite (WGS) overcoming the bulk of 
their technical problems and are on track to meet revised 
targets. Also, more important, the Air Force is adopting what 
we see as best practices for space radar and the 
Transformational Satellite (TSAT). By that, I mean they're 
incorporating mature technologies before the program officially 
begins. They're deferring more ambitious technology efforts to 
the S&T environment and they're spending time defining 
requirements before the program starts. This is not a trivial 
effort.
    I would like to comment that most every space program we've 
reviewed for the past decade has started with fairly immature 
technologies and has had problems setting requirements and 
sticking to them.
    On the minus side, there's still several legacy programs at 
high risk for problems. They include SBIRS High, National 
Polar-Orbiting Operational Environmental Satellite System 
(NPOESS), and GPS IIF. Just looking at SBIRS High, for example, 
we already found that shortly after restructuring, the program 
is starting to diverge from some cost and schedule targets and 
management reserve is being depleted at a much faster rate than 
anticipated.
    We also looked at this new program, the AIRSS, and we had a 
lot of concerns about what the true purpose of the system is, 
whether it's to serve as an insurance policy for the SBIRS High 
or be the follow-on program. Our concerns are rooted into a lot 
of concerns that were transmitted to us from people within DOD. 
There were also a lot of concerns within DOD about schedule 
risks for that program. So, I think those two issues need to be 
addressed before that moves forward.
    I just want to end by making the point that in the larger 
context, the environment is still not very conducive for 
sustaining the good practices we see being adopted in space 
radar and TSAT. The top three obstacles that we see are one, 
workforce capacity, which has already been mentioned here. GAO 
studies and DOD studies have identified deficiencies in program 
management skills, business skills--particularly in cost 
estimating--and technical skills--particularly in systems 
engineering. Programs like TSAT express concerns that they may 
not have the technical people they need in the next year or so.
    Policy is another longstanding concern of ours. The space 
acquisition policy, as it currently stands, does not mandate 
that best practice levels of knowledge be achieved before 
starting the program. So, we would like to see this back-to-
basics policy be integrated into the formal acquisition policy 
so that the good practices being started now, stay beyond the 
tenures of current leadership.
    The last obstacle, of course, is always funding. There's a 
lot of funding pressures throughout the whole weapons system 
portfolio and a lot of GAO work that has been done tells us 
that programs really need to be prioritized for funding and 
best practices for investment, like portfolio management, need 
to be adopted across the Department, so that programs like TSAT 
and space radar are not incentivized to produce overly 
optimistic reports.
    Thank you.
    [The prepared statement of Ms. Chaplain follows:]

               Prepared Statement by Cristina T. Chaplain

    Mr. Chairman and members of the subcommittee: I am pleased to be 
here today to discuss the Department of Defense's (DOD) space 
acquisitions. Each year, DOD spends billions to acquire space-based 
capabilities to support current military and other government 
operations as well as to enable DOD to transform the way it collects 
and disseminates information, gathers data on adversaries, and attacks 
targets. In fiscal year 2008 alone, DOD expects to spend over $22 
billion to develop and procure satellites and other space systems, 
including nearly $10 billion on selected major space systems.\1\ 
Despite its growing investment in space, however, DOD's space system 
acquisitions have experienced problems over the past several decades 
that have driven up costs by hundreds of millions, even billions of 
dollars; stretched schedules by years; and increased performance risks. 
In some cases, capabilities have not been delivered to the warfighter 
after decades of development.
---------------------------------------------------------------------------
    \1\ Estimates of fiscal year 2008 spending on procurement and 
research, development, test, and evaluation are based on DOD's fiscal 
year 2007 Future Years Defense Program (FYDP) plan. The fiscal year 
2008 FYDP plan was not available to us at the time we developed this 
testimony.
---------------------------------------------------------------------------
    In view of these problems, the Air Force, DOD's primary space 
system acquirer, has been attempting to instill best, practices in two 
newer space programs--Space Radar and the Transformational Satellite 
Communications System (TSAT). These steps can help better position the 
two programs for success, but they will not work without adhering to 
commitments to delay milestone decisions if there are still gaps 
between requirements and resources, and to use more robust tools to 
analyze risks, costs, and schedule. Moreover, other space programs--new 
and old--are still facing setbacks, reflecting problems in technology 
development or design, problems in managing contractors, and more 
broadly, funding shifts needed to sustain the larger space portfolio. 
Such setbacks--common among all weapons acquisitions--continue to 
hamper the Air Force's ability to provide resources and support needed 
to deliver capabilities within cost, schedule, and performance targets. 
My testimony today will highlight our findings on space acquisitions as 
well as actions needed to address persistent, acquisition problems and 
to build on best practice approaches being adopted in Space Radar and 
TSAT.

    SPACE ACQUISITIONS CONTINUE TO FACE COST AND SCHEDULE INCREASES

    The majority of major acquisition programs in DOD's space portfolio 
have experienced problems during the past two decades that have driven 
up cost and schedules and increased technical risks. Several programs 
have been restructured by DOD in the face of delays and cost growth. At 
times, cost growth has come close to or exceeded 100 percent, causing 
DOD to nearly double its investment in the face of technical and other 
problems without realizing a better return on investment. Along with 
the increases, many programs are experiencing significant schedule 
delays--as much as 6 years--postponing delivery of promised 
capabilities to the warfighter. Outcomes have been so disappointing in 
some cases that DOD has had to go back to the drawing board to consider 
new ways to achieve the same. or less, capability. Some programs have 
been able to work through the bulk of technical problems they were 
facing and are on track to meet revised targets, albeit at higher costs 
and with delayed deliveries. Others, however, continue to face 
setbacks.
    The following chart compares original cost estimates and current 
cost estimates for the broader portfolio of major space acquisitions 
for fiscal years 2007 through 2012. The wider the gap between original 
and current estimates, the fewer dollars DOD has available to invest in 
new programs.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The next two figures reflect differences in unit costs and total 
costs for satellites from the time the programs officially began to 
their most recent cost estimate. As the second figure notes, in several 
cases, DOD has had to cut back on quantity and capability in the face 
of escalating costs. For example, two satellites and four instruments 
were deleted from National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) and four sensors are expected to have fewer 
capabilities. This will reduce some planned capabilities for NPOESS as 
well as planned coverage. Likewise, the Space Based Infrared System 
(SBIRS) High missile detection program deferred capabilities, such as 
mobile data processors for the Air Force and the Army and a fully 
compliant backup mission control facility, and it pushed off a decision 
to procure the third and fourth satellites, which will not meet SBIRS 
High requirements for coverage. Despite such measures, unit, costs for 
both programs are still considerably higher than originally promised. 
In addition to SBIRS High and NPOESS, the programs featured in the 
figures include the Advanced Extremely High Frequency (AEHF) 
satellites, the Wideband Global SATCOM (WGS) and the Mobile User 
Objective System (MUOS), which are all communications satellites, and 
the Global Positioning System (GPS) II.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The next chart highlights the additional estimated months needed to 
complete programs. These additional months represent time not 
anticipated at the programs' start dates. Generally, the further 
schedules slip, fee more DOD is at risk of not sustaining current 
capabilities. For this reason, DOD began an alternative infrared system 
effort, known as the Alternative Infrared Satellite System (AIRSS), to 
run in parallel with the SBIRS High program.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Some programs, such as AEHF and WGS, have worked through the bulk 
of technical and other problems that were causing large schedule 
increases and cost delays. For example, the AEHF program, which has 
been in the final stages of development for almost 3 years, resolved 
issues related to its cryptographic equipment and is on track to meet a 
revised date for first launch. The WGS program completed rework on 
improperly installed Fasteners, and contractors have redesigned 
computers to rectify data transmission errors. The program expects a 
first launch in June 2007. As noted in our figures, the MUOS program, 
which began more recently than AEHF and WGS, is generally meeting its 
targets, though it has yet to enter into the more difficult stages of 
satellite production, integration and test.
    By contrast, the SBIRS High program still faces considerable risks. 
Recent GAO work for this subcommittee, for example, shows that the 
program is diverging from cost and schedule targets just months after 
rebaselining due to problems related to assembly, integration, and 
testing and that the contractor's estimates for addressing these issues 
are overly optimistic. Defense Contract Management Agency reports also 
show that software development efforts are behind schedule--by as much 
as 32 percent. In addition, the contractor has already spent about 28 
percent, or $66 million, of its management reserve from April 2006 to 
November 2006. This reserve is designed to last until 2012, but at the 
current rate, is likely to be depleted by May 2008. If this trend 
continues, $500 million in additional reserve will be needed. As noted 
earlier, DOD initiated an alternative effort--AIRSS--to ensure it would 
have continued capabilities. However, we have questions as to whether 
AIRSS is being pursued as a ``plan B'' program, as originally 
envisioned. Rather than seek to maintain continuity of operations, the 
program is focused on advancing capabilities because program managers 
believe there are no viable alternatives. We also found that there was 
disagreement among DOD stakeholders as to whether there were 
alternatives or not, and there was concern that the AIRSS schedule may 
he too compressed. Our analysis also found that there was a high degree 
of concurrency in the program's schedule, which may be limiting DOD's 
ability to gain knowledge from planned demonstrations and increased the 
potential for costly rework further in the program.
    The GPS Block IIF program is also al a high risk of cost increases 
and schedule delays. Since our last, annual assessment of the GPS Block 
IIF program, the program has revised its acquisition program baseline 
to account for cost increases and schedule delays, and requested an 
additional $151 million to cover these costs. The number of IIF 
satellites to be procured was reduced from 19 to 12. Further, the 
launch date of the first IIF satellite continues to slip. The original 
baseline showed an initial launch availability date of December 2006, 
but DOD's current baseline shows July 2009--a slip of about 2.5 years. 
The program also learned that the contractor's earned value management 
reporting system was not accurately reporting cost and schedule 
performance data. A DOD report also recently found that development of 
user equipment has not been synchronized with the development of 
satellites and control system, increasing the risk of substantial 
delays in realistic operational testing and fielding of capabilities. 
GPS is taking measures to address these problems. For example, this 
year, it did not award its contractor $21.4 million in award fees. In 
December 2005, GAO recommended that DOD improve its use of award fees 
for all weapon system contracts by specifically lying them to 
acquisition outcomes. A review of a sample of programs, including SBIRS 
High, found that this was generally not done.
    The NPOESS program is also still at risk of more cost increases and 
schedule delays. In June 2008, DOD certified the NPOESS program to 
Congress, and with agreement from its program partners, DOD 
restructured the program. Now the NPOESS program acquisition costs are 
estimated to be about $11.5 billion--an increase of about $3 billion 
over the prior cost estimate. Before the contract was awarded, in 2002, 
the life cycle cost, for the program was estimated to be $6.6 billion 
over the 24-year period from the inception of the program in 1995 
through 2018. The delivery of the first two NPOESS satellites has been 
delayed by roughly 4 and 5 years, and as noted earlier, the number of 
satellites to be produced has been reduced from six to four. In 
addition, the number of instruments was reduced from 13 (10 sensors and 
3 subsystems) to 9 instruments (7 sensors and 2 subsystems), and 4 of 
the remaining sensors will have fewer capabilities. The NPOESS program 
will incorporate any number of the deleted instruments if additional 
funding is provided from outside the NPOESS program. The program 
restructure will result in reduced satellite data collection coverage, 
requiring dependence on a European weather satellite for coverage 
during mid-morning hours. Although the program has reduced the number 
of satellites it will produce, the cost per satellite is more than 150 
percent above the original approved program baseline. The NPOESS 
program is now updating the cost, schedule, performance baselines, and 
acquisition strategy, and coordinating the changes with the three 
agencies. The program expects these documents to be approved later this 
year. While work is continuing on key sensors, the program still faces 
potential problems in their development.
    The Space Based Space Surveillance (SBSS) system--not featured on 
the charts above because it is not yet a formal acquisition program--is 
also encountering problems. The SBSS system is to replace an aging 
sensor on an orbiting research and development satellite and improve 
the timeliness of data on objects in geosynchronous orbit. As currently 
planned, the initial block will consist of a single satellite and 
associated command, control, communications, and computer equipment. 
Subsequent SBSS efforts will focus on building a larger constellation 
of satellites to provide worldwide space surveillance of smaller 
objects in shorter timelines. In late 2005, an independent review team 
found that the program's baseline was not executable; that the 
assembly, integration, and test plan was risky; and that the 
requirements were overstated. The SBSS program was restructured in 
early 2006 due to cost growth and schedule delays. The restructuring 
increased funding and schedule margin; streamlined the assembly, 
integration, and test, plan; and relaxed requirements. The launch of 
the initial satellite was delayed to April 2009--a delay of about 18 
months. Cost growth due to the restructure is about $130 million over 
initial estimates.
    Last, additional cost increases are expected for the Evolved 
Expendable Launch Vehicle (EELV) program, but for reasons that are 
different than the ones being experienced on the satellite programs, hi 
recent years, program cost, has risen 79 percent, with a cost per unit 
increase of 136 percent,. A chief reason for cost increases is a 
decline in the commercial launch market upon which the program's 
business ease was based. Cost increases are also a result of additional 
program scope, including mission assurance, assured access to space, 
and earned value management systems reporting. In addition, satellite 
vehicle weight growth and satellite launch delays have contributed to 
cost increases. In December 2006, Boeing and Lockheed Martin Initiated 
a joint venture (United Launch Alliance (ULA)) that will combine the 
production, engineering, test, and launch operations associated with 
U.S. Government launches of Boeing Delta and Lockheed Martin Atlas 
rockets. Though the EELV program office expects long-term savings to be 
achieved through this arrangement, the cost per launch under a recently 
negotiated Buy III acquisition strategy will be higher than under Buy 
I. According to the Air Force, this is because the contractors will 
incur additional costs to allow the government, to perform the 
necessary oversight not required under Buy I. (Exact estimates of the 
new cost per launch have not been finalized by the program office yet.) 
Under the new strategy, EELV will be transitioning from a fixed-price 
arrangement, where launches were essentially procured as a service, to 
a combination of a cost-plus and fixed-price contracts. The arrangement 
will allow the government to exercise more oversight, and to 
incentivize contractors through the use of award fees. But to realize 
these benefits, the Air Force will need to ensure it has resources 
(skills, expertise, and tools) to begin accumulating and analyzing 
detailed cost, schedule, performance, design, and technical data. In 
addition, it will be important to assess progress in achieving longer-
term savings envisioned under ULA as well as to ensure that the 
combined assets of the contractors are adequately protected.

            UNDERLYING REASONS FOR COST AND SCHEDULE GROWTH

    Our past work has identified a number of causes behind the cost 
growth and related problems, but several consistently stand out. First, 
on a broad scale, DOD starts more weapon programs than it can afford, 
creating a competition for funding that encourages low cost estimating, 
optimistic scheduling, overpromising, suppressing of bad news, and, for 
space programs, forsaking the opportunity to identify and assess 
potentially better alternatives. Programs focus on advocacy at the 
expense of realism and sound management Invariably, with too many 
programs in its portfolio, DOD is forced to continually shift funds to 
and from programs--particularly as programs experience problems that 
require additional time and money to address. Such shifts, in turn, 
have had costly, reverberating effects.
    Figure 5 illustrates the negative cycle of incentives that come 
when programs compete for funding. Table 1 highlights specific areas 
where we found the original cost estimates of programs to be optimistic 
in their assumptions.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
          Note: This table was developed as part of a larger review on 
        DOD's space cost-estimating function. Information was derived 
        from discussions with program and contractor officials and GAO 
        analysis. In some cases, programs may have ultimately 
        experienced problems related to one of the categories, but we 
        did not have evidence to show that the original assumptions 
        were optimistic.\2\
---------------------------------------------------------------------------
    \2\ ``GAO, Space Acquisitions: DOD Needs to Take More Action to 
Address Unrealistic Initial Cost Estimates of Space Systems, GAO-07-96, 
(Washington, DC: Nov. 17, 2006).

    Second, as we have previously testified and reported, DOD has 
tended to start, its programs too early, that is before it has the 
assurance that the capabilities it is pursuing can be achieved within 
available resources and time constraints. This tendency is caused 
largely by the funding process, since acquisition programs attract more 
dollars than efforts concentrating solely on proving technologies. 
Nevertheless, when DOD chooses to extend technology invention into 
acquisition, programs experience technical problems that require large 
amounts of time and money to fix. Moreover, when the approach is 
followed, cost estimators are not well positioned to develop accurate 
cost, estimates because there are too many unknowns. Put more simply, 
there is no way to estimate how long it would take to design, develop, 
and build a satellite system when critical technologies planned for 
that system are still in relatively early stages of discovery and 
invention.
    A companion problem for space systems is that programs have 
historically attempted to satisfy all requirements in a single step, 
regardless of the design challenge or the maturity of the technologies 
necessary to achieve the full capability. Increasingly, DOD has 
preferred to make fewer but heavier, larger, and more complex 
satellites that perform a multitude of missions rather than larger 
constellations of smaller, less complex satellites that gradually 
increase in sophistication. This has stretched technology challenges 
beyond current capabilities in some cases and vastly increased the 
complexities related to software--a problem that affected SBIRS High 
and AEHF, for example.
    In addition, several of the space programs discussed above began in 
the late 1990s, when DOD structured contracts in a way that reduced 
government oversight and shifted key decision-making responsibility 
onto contractors. This approach--known as Total System Performance 
Responsibility (TSFR)--was intended to facilitate acquisition reform 
and enable DOD lo streamline a cumbersome acquisition process and 
leverage innovation and management, expertise from the private sector. 
However, DOD later found that this approach magnified problems related 
to requirements creep and poor contractor performance. In addition, 
under TSPR, the government decided not to obtain certain cost data, a 
decision that, resulted in the government having even less oversight of 
the programs and limited information from which to manage the programs. 
Further, the reduction In government oversight and involvement led to 
major reductions in various government, capabilities, including cost-
estimating and systems-engineering staff. The loss of cost-estimating 
and systems-engineering staff in turn led to a lack of technical data 
needed to develop sound cost estimates.

         DOD IS IMPLEMENTING BEST PRACTICES ON TWO NEW EFFORTS

    Over the past decade, GAO has examined successful organizations in 
the commercial sector to identify best practices that can be applied to 
space and weapon system acquisitions. This work has identified a number 
of practices, which we have recommended that DOD adopt. Generally, we 
have recommended that DOD separate technology discovery from 
acquisition, follow an incremental path toward meeting user needs, 
match resources and requirements at program start, and use quantifiable 
data and demonstrable knowledge to make decisions to move to next 
phases. DOD is making efforts to instill these practices on two 
programs reviewed this year: the TSAT and the Space Radar program. 
Specifically:

        <bullet> Successful organizations we have studied ensure that 
        technologies are mature; that is, proven to work as intended 
        before program start. Both TSAT and Space Radar are attempting 
        to do this. According to their plans, critical technologies 
        should reach at least a Technology Readiness Level (TKL) 6 by 
        program start, meaning the technologies have been tested in a 
        relevant environment. This stands in sharp contrast to previous 
        programs, which have started with immature technologies, such 
        as SBIRS and NPOESS, and it reflects the implementation of a 
        ``back to basics'' policy advocated this past year by the Under 
        Secretary of the Air Force. If these programs adhere to the TRL 
        6 criteria, they will greatly reduce the risk of encountering 
        costly technical delays, though not completely. There are still 
        significant inherent risks associated with integrating critical 
        technologies and with developing the software needed to realize 
        the benefits of the technologies. Moreover, the best practice 
        programs we have studied strive for a TRL 7, where the 
        technology has been tested in an operational environment, that 
        is, space.
        <bullet> Successful organizations defer more ambitions 
        technology efforts to corporate research departments 
        (equivalent to science and technology (S&T) organizations in 
        DOD) until they are ready to be added to future increments. 
        Both programs have deferred more ambitious technology 
        development efforts to the S&T environment. TSAT, for example, 
        deferred the wide-field of view multi-access laser 
        communication technology, and is contributing about, $16.7 
        million for ``off-line'' maturation of this technology that 
        could be inserted into future increments. It has laid out 
        incremental advances in other capabilities over two increments. 
        Space Radar has deferred lithium-ion batteries, more efficient 
        solar cells, and onboard processing for its first increment, 
        and like TSAT, is contributing toward their development by S&T 
        organizations. At this time, Space Radar has not defined 
        details of an increment beyond the first one.
        <bullet> Successful organizations extensively research and 
        define requirements before program start to ensure that they 
        arc achievable, given available resources, and that they do not 
        define requirements after starting programs. Both programs have 
        also employed systems engineers to help determine achievability 
        of requirements. The TSAT program has reached agreement on 
        requirements with its users--primarily in terms of what will be 
        included in the first, several blocks of the program and what 
        will not be included. The Space Radar program has instituted 
        several processes designed to achieve consensus on requirements 
        across a range of diverse users. It still needs to formalize 
        agreement related to these processes and also identify key 
        performance parameters. This is important because Space Radar 
        is to be shared by the military and Intelligence Communities--
        each with different specific needs for the system and very 
        specific roles and responsibilities with regard to the data 
        being produced by Space Radar and its users. It has been 
        reported recently that conflicts in roles and responsibilities 
        have arisen on dissemination of data being produced by a small 
        tactical satellite (TACSAT 2) recently launched by DOD for use 
        by military commanders.

    It remains to be seen whether TSAT and Space Radar will take 
additional steps that successful organizations take lo position 
programs for success. For example:

        <bullet> The organizations we have studied do not go ahead with 
        program start milestone decisions if there are still gaps 
        between requirements and resources. TSAT and Space Radar have 
        indicated that they intend to do the same, but there are 
        external pressures on both programs to provide needed 
        capabilities.
        <bullet> The organizations we have studied hold program 
        managers accountable for their estimates and require program 
        managers to stay with a project to its end. We have made 
        recommendations to DOD to instill similar practices department-
        wide, but these have yet to be implemented. Further, there are 
        still incentives in place to keep program managers' tenures 
        relatively short. Promotions, for example, often depend on 
        having varied management experience rather than sustained 
        responsibility for one program.
        <bullet> The organizations we studied have developed common 
        templates and tools in support data gathering and analysis and 
        maintain databases of historical costs, schedule, quality, 
        test, and performance data. Cost estimates themselves are 
        continually monitored and regularly updated through a series of 
        gates or milestone decisions that demand program assess 
        readiness and remaining risk within key sectors of the program, 
        as well as overall cost and schedules. We saw indications that 
        TSAT and Space Radar were using more robust tools to analyze 
        risks, costs, and schedule than programs have done in the past. 
        However, it remains to be seen how these practices will be 
        reflected in official cost estimates. In the past, we have 
        found space program estimates were simply too optimistic and 
        that independent estimates produced by DOD's Cost Analysis 
        Improvement Group were not being used. DOD agreed with our 
        findings and asserted it was taking actions to address them.
          actions needed to sustain commitment to improvements
    The Air Force's continued efforts to instill best practices on 
Space Radar and TSAT are good first steps forward addressing 
acquisition problems in the space portfolio. They represent significant 
shifts in thinking about how space systems should be developed us well 
as commitment, from senior leadership. But sustaining these reforms 
will not be easy. The programs are not immune to funding pressures that 
have encouraged too much optimism. They are also being undertaken as 
DOD is addressing shortfalls in critical technical, business, and 
program management skills. Further, processes and policies key to 
sustainment and broader use of best practices have not been changed to 
further reflect the kinds of changes taking place on Space Radar and 
TSAT.
    First, new programs still must compete for limited funding. As DOD 
seeks to fund Space Radar and TSAT, it will be (1) undertaking other 
new, costly efforts, including GPS III, SBSS, and AIRSS; (2) addressing 
cost overruns associated with programs like SBIRS High and GPS; and (3) 
facing increased pressures to increase investments in assets designed 
to protect space systems. In total, these efforts will increase DOD's 
investment for all major space acquisitions from $5.31 billion to $9.22 
billion, or about 46 percent over the next 3 years. Mare may be needed 
if technical, software, and other problems on current programs worsen. 
At the same time, investment needs for other weapon systems are also on 
the rise, while long-term budget forecasts indicate that considerably 
fewer dollars will be available for discretionary spending in coming 
years rather than more.
    In prior reports, we have stated that, as long as too many programs 
compete for too few dollars in DOD, programs will be incentivized to 
produce optimistic estimates and suppress bad news. They will view 
success as seeming the next installment of funds versus delivering 
capability within cost and schedule goals. We have recommended that DOD 
guide its decisions to start space and other weapons acquisition 
programs with an overall investment strategy that would identify 
priorities for funding so that space systems that are expected to play 
a critical role in transformation, such as Space Radar and TSAT, could 
be prioritized along with other legacy and transformational systems.
    Let me take a moment to illustrate why an investment strategy is 
critical. We have reported in the past that DOD and the Air Force have 
waited too long to establish priorities or make trade-off decisions. We 
have also reported that frequent funding shifts have hurt programs that 
were performing well or further damaged troubled programs. We have also 
reported cases where DOD and the Air Force have walked away from 
opportunities to save costs in lot buys or leverage knowledge already 
gained in legacy programs in favor of starting new programs that 
promise much more advanced capability but have little knowledge to back 
up that promise. Today, DOD is on track to cut short the AEHF program 
in order to pursue TSAT. It has stated it may also do the same for 
SBIRS to pursue AIKSS. In both cases, DOD would be forgoing savings 
that it bad already negotiated for lot buys and in effect, paying 
significantly more for nonrecurring engineering. While these decisions 
have the potential to enable DOD to obtain advanced capability sooner 
(provided best practices are followed on the new programs), they should 
have been made much earlier and more strategically in order to stem 
investment losses.
    DOD's own reports recognize that investment planning needs to be 
instilled in weapon acquisitions. A February 2007 report, in response 
to a requirement, in the John Warner National Defense Authorization Act 
for Fiscal Year 2007, outlines steps that. DOD is taking to better 
prioritize and fund programs.\3\ The initiatives include: (1) 
establishing anew concept decision review to provide decisionmakers 
with an early opportunity to evaluate trade-offs among alternative 
approaches to meeting a capability need; (2) testing portfolio 
management approaches in selected capability areas to facilitate more 
strategic choices about how to allocate resources across programs; and 
(3) capital budgeting as a potential means to stabilize program 
funding. While these developments are promising, we recently reported 
that such initiatives do not fundamentally change DOD's existing 
service-centric framework for making weapon system investment 
decisions.\4\ Moreover, it will take some time to determine their 
success in enabling more effective funding prioritization.
---------------------------------------------------------------------------
    \3\ Department of Defense, Defense Acquisition Transformation 
Report to Congress (Washington, DC, 2007).
    \4\ GAO, Best Practices: An Integrated Portfolio Management 
Approach to Weapon System Investments Could Improve DOD's Acquisition 
Outcomes, GAO-07-388 (Washington DC; March 30, 2007).
---------------------------------------------------------------------------
    Second, space programs are facing capacity shortfalls. These 
include shortages of staff with science and engineering backgrounds as 
well as staff with program management and cost estimating experience. 
During our review this year, the TSAT program cited shortages of space 
acquisition personnel as a key challenge that increases risk for the 
program. Due to broader Air Force cuts in workforce, the program did 
not expect to be able to fill technical positions needed to accompany 
plans to ramp up spending. During our review of DOD's space cost 
estimating function, Air Force space cost estimating organizations and 
program offices said that they believed their cost-estimating resources 
were inadequate to do a good job of accurately predicting costs. 
Because of the decline in in-house cost-estimating resources, space 
program offices and Air Force cost-estimating organizations are now 
more dependent on support contractors. At 11 of 13 program offices we 
informally surveyed, contractors accounted for 64 percent of cost-
estimating personnel. This reliance raised questions from the cost-
estimating community about whether numbers and qualifications of 
government personnel were sufficient to provide oversight of and 
insight into contractor cost, estimates. In addition to technical and 
cost estimating skills, DOD and GAO studies have also pointed to 
capacity shortfalls in program management. According to DOD's Young 
Panel report, government capabilities to lead and manage the space 
acquisition process have seriously eroded, in part because of actions 
taken in the acquisition reform environment of the 1990s. During our 
2005 review of program management, we surveyed DOD's major weapon 
system program managers and Interviewed program executive officers, who 
similarly pointed to critical skill shortages in program management, 
systems engineering, and software development. The Air Force and DOD 
recognize these shortfalls and are taking actions to address them, but 
these will take time to implement. It is important that, in the 
interim, the Air Force identify and take steps to grow or retain skill 
sets that should be organic, such as highly specialized knowledge of 
certain military space technologies. During both our cost estimating 
and space system reviews, program officiate noted that it can take 
several years for new technical staff to build knowledge and skills 
unique to military space.
    Our past work has also pointed to capacity shortfalls that go 
beyond workforce. For example, in 2006, we reported that cost 
estimation data and databases are incomplete, insufficient, and 
outdated. In our testimony last year, we pointed to limited 
opportunities and funding for space technologies, and the lack of low-
cost launch vehicles. It is our understanding that the Air Force and 
DOD are working to address all of these shortfalls. Budget plans show, 
for example, an increase of nearly $11 million in funding for the space 
test program beginning in 2009--about 23 percent.
    Last, policies that surround space acquisition need to be further 
revised to ensure best practices are instilled and sustained. For 
example, DOD's space acquisition policy does not require that programs 
such as TSAT and Space Radar achieve a TRL 6 or higher for key 
technologies before being formally started (KDP B). Instead, it is 
suggested that TRL 6 be achieved at preliminary decision review (KDP C) 
or soon after. Given that there are many pressures and incentives that 
are driving space and other weapon programs to begin too early and to 
drive for dramatic rather than incremental leaps in capability, DOD 
needs acquisition policies that ensure programs have the knowledge they 
need to make investment decisions and that DOD and Congress have a more 
accurate picture of how long and how much it will lake to get the 
capability that, is being promised In addition, although the policy 
requires that independent cost estimates be prepared by bodies outside 
the acquisition chain of command, it does not require that they be 
relied upon to develop program budgets. Officials within the space cost 
estimating community also believed that the policy was unclear in 
defining roles and responsibilities for cost estimators. We continue to 
recommend changes be made to the policy--not only to further ingrain 
the shift in thinking about how space systems should be developed, but 
to ensure that the changes current leaders are trying to make can be 
sustained beyond their tenure.
    In closing, we support efforts to instill best practices on 
programs like Space Radar and TSAT. They are critical to enabling DOD 
to break the cycle of space acquisition problems by matching resources 
to requirements before program start. We encourage DOD to build on this 
momentum by extending a best practice approach to its entire space 
portfolio. For newer efforts, such as AIRSS, this means reexamining 
requirements and alternative means of satisfying those requirements and 
clarifying the true purpose of the program. For current programs, such 
as SBIRS, this means continuing to track risks and dedicating resources 
necessary to mitigate those risks, leveraging management tools such as 
earned value management, analyses, and finding ways to incentivize 
contractors to perform well. For the broader portfolio, this means 
ensuring programs have all the right resources to enable success. These 
include adequate levels of funding accompanied by short- and long-term 
investment plans, adequate skills and capabilities, as well as data, 
policy, and processes, accountability and leadership support.

    Senator Bill Nelson. Dr. Sega, why don't you comment on 
that critique?
    Dr. Sega. I can comment, Mr. Chairman, from the time that I 
have been the Under Secretary of the Air Force, which is since 
August 2005. We did see many of the characteristics that have 
been highlighted by the last set of comments from the GAO. I 
think we've made progress on those issues across the front. In 
the case of GPS IIF, for example, as we dug into GPS IIF in the 
fall of 2005--I wasn't happy with how that program was 
proceeding. But, with Government and industry working together, 
we addressed the technical, management, and financial issues in 
and around the IIF program. Changes were made.
    We had, actually at my request, extended the fixed price 
option time deadline for satellites 10 through 12 from December 
2005 to March 2006 and then to June 2006. By the time we had 
gone through this extensive work, Government and industry had 
completed a thorough Integrated Baseline Review from May into 
June 2006. At that time, I was satisfied we were on track and 
we executed the fixed-price options for satellites 10 through 
12. It took a lot of work. That is one example where we have 
looked at it in detail--at the Work Breakdown Structure Level--
and did it rigorously and in a disciplined way to see ourselves 
through to the end.
    IIF is now on track. You have to pay attention, though, 
every step of the way. It was not designed from the beginning 
with a back-to-basics approach. We're working hard on events 
that are going to occur in 2007, in terms of thermo-vacuum 
tests and things that are upcoming for that particular 
satellite as we go forward. It is on track, but there are many 
things to watch as we go forward--you pay attention to those 
milestones.
    SBIRS High was a similar situation. Our last review with 
Secretary Krieg on March 20 of this year out in Sunnyvale, 
California, looked through some of the SBIRS activities. There 
was a bit of erosion in the areas that were highlighted--but 
not any what I would consider show-stoppers there. It did not 
have an engineering development unit that we are now enforcing 
in our programs, or a starting point upon which you build the 
flight unit that has more fidelity in it.
    However, at this point we think we, once again, are at a 
point where we have to pay attention and go through some of the 
additional testing. Clearly, the management reserve is divided 
into two parts: some of it is in the contractor's line, and 
some of it is in the Government's line. The Government line of 
management reserve, actually, ends up kicking in, in fiscal 
year 2009 and out. But, we're paying attention to that and so, 
yes, there are some challenges, but not something that can't be 
overcome and dealt with for an approximately on-schedule launch 
of the SBIRS GEO-1 satellite. So, I agree.
    The ``back-to-basics'' approach is succeeding (we 
instituted this plan going forward) to add additional 
discipline into our systems. Some of the systems that were 
begun principally in the 1990s are those that we have to work 
hard on to get them to the point where they'll fly and deliver 
that needed capability.
    Senator Bill Nelson. Okay. As a courtesy to Senator Thune 
and Senator Inhofe, we're going to flip it to you, let you go 
on and ask your questions.
    Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman. I do appreciate 
that very much. I do have some conflicts.
    Let me thank you, both of you, General Chilton and 
Secretary Sega, for coming up to the office and talking about 
some things. You probably have a pretty good idea what my 
concerns are and what I'd like to ask you and get on the 
record.
    Without getting into something that you'd have to go into a 
closed session, I expressed to you my concern as to what 
happened when the Chinese knocked down one of their own weather 
satellites last January, in the same orbit that we would have 
our reconnaissance satellites.
    I'd like to, first of all--even though I think I know what 
your answer is--ask any of you what you think the motivation 
was to do that? Why?
    General Chilton. Sir, we talked about this yesterday. I do 
not know why. It would be purely speculative for me to do that 
at this point.
    Senator Inhofe. Any other comments on that?
    Admiral McArthur. Yes, sir. I would like to add, first of 
all, it was totally irresponsible of the Chinese to do that. 
But second, there's a strategic message involved with this. 
They're seeking parity in space in that particular region. 
They're challenging us in information operations. They 
understand that the information domain is the primary domain of 
the battle space. They wanted to exhibit and demonstrate their 
capabilities.
    Senator Inhofe. Their capability that if something should 
happen, like in the Taiwan Straits, that we would not have the 
capability of seeing what is going on there?
    Admiral McArthur. There is that, some potential of 
degradation of our systems. But, we have a multi-pronged 
approach to overcome, or at least to counter that. It may incur 
more risk for our forces, but without a doubt they understand, 
particularly in the Navy, our dependence on space.
    Senator Inhofe. All right. I was shown a picture I didn't 
have when you were in my office yesterday. This shows 
apparently a 10 percent increase in space junk as a result of 
this little exercise they did.
    Would you explain to us what threat that is or how that 
might affect us adversely?
    General Shelton. Senator, space is vast to start with. So, 
there's a lot of things that are there, but this certainly 
increases the risk to all space-faring nations. So, as this 
debris is created, there's some that went higher than the orbit 
that the engagement occurred at, there's some that's lower, but 
it will take decades for that debris to, literally, rain down 
out of those orbits and enter the earth's atmosphere. So, even 
though the probabilities, the estimated probabilities may look 
fairly low, when the event occurs, the probability is one. So, 
I don't take a whole lot of solace in the fact that the 
estimates say that it's----
    Senator Inhofe. When those of us who are not as well-
informed looked at how infinite space is, you wonder if that 
can be a problem. But, apparently some do believe it could be.
    Then, just some of the statements that were made yesterday, 
it was in one of the newspapers, written by Edith Linder, that 
a senior Chinese official predicts weapons will be deployed in 
space. You hear these things all the time. Any of you in an 
open meeting want to comment as to some of these statements 
that keep resurfacing over and over again?
    General Chilton. Sir, I'd just comment that it's curious 
that when you read these statements from the Chinese, including 
statements of their interest in participating, for example, in 
the International Space Station Program, and you hear those 
words--and then you observe their activities of actually 
increasing debris in the orbital altitudes where the 
International Space Station operates at, what we're hearing 
doesn't sync up with actions. The actions, I would agree with 
Admiral McArthur, don't make sense and are irresponsible.
    Senator Inhofe. Lastly, let me just ask you the question as 
to how incremental funding would help you in the situation that 
you're facing right now, probably you, Mr. Secretary.
    Dr. Sega. I'd be glad to address that.
    Some of our systems, as we go forward, are very large, 
expensive, and take some time to build. Others, as we go 
forward in operationally responsive space are on the smaller 
side, and take less time to build.
    I'd like to focus on some of the larger satellites.
    In our current rules, in terms of what we need to follow, 
the first two satellites can be built with research and 
development (R&D) types of dollars. But, after that satellites 
must have full funding. So, the large, expensive satellites and 
those that we're not going to build very many of, fall in this 
category. I would like Congress to consider the approval for 
incremental funding of those satellites.
    Now, these capabilities that I mentioned--in terms of 
missile warning, strategic communications, and position 
navigation and timing--we are going to do those for the 
foreseeable future. If we had the opportunity for incremental 
funding, in that larger type of satellites--the more expensive 
satellites--those that we're going to build fewer of--then we 
could smooth out the funding and have greater efficiencies--in 
my belief--in terms of how we develop our investment portfolio 
in those capabilities, develop a rhythm of delivery to the 
warfighter, and delivery of production, and not perturb another 
part of our acquisition program that we also want to have 
investments.
    For example, as we are looking at a decision going forward 
on SBIRS GEO-3 to be made this summer, in the event that it is 
decided to do that program, then we're looking at almost a full 
cost bill of about $1 billion in fiscal year 2009, even though 
it will take some time to actually build it. Now, the authority 
for incremental funding is present at the National 
Reconnaissance Office (NRO) for similar satellites. It's 
present in our NPOESS system that we are doing in conjunction 
with the Department of Commerce, and it's present for our 
carriers in the Navy. So, it's in that class of satellite that 
we would appreciate considerations for incremental funding.
    Senator Inhofe. Yes, I'm glad we had a chance to bring this 
up. I was going to ask the next question about the NRO, since 
they can do it, which probably is more appropriate, if you ask 
me the question. If they can do it, why can't you?
    Ms. Chaplain, do you have any thoughts about that 
incremental funding?
    Ms. Chaplain. I would comment that if this kind of approach 
were adopted, that there should be other mechanisms in place to 
help assess investment progress and what's happening with it on 
an annual basis. For example, you could be asking the Air Force 
each year to identify the cost overruns, the causes for cost 
overruns, what's being done to address cost overruns, and 
trades that could be made within the portfolio or outside the 
portfolio to address funding gaps. So, you would have this 
other measure that would help smooth out funding, but you still 
need some tools to have insight into what's being spent, what 
may need to be addressed in terms of cost overruns and things 
like that.
    Senator Inhofe. Thank you, Mr. Chairman. I think this is 
something we may want to look at ourselves. Because what you're 
talking about, Dr. Sega, is not any more money, it's how it 
comes out, what you're getting for it.
    Thank you, Mr. Chairman.
    Dr. Sega. That is correct, sir. I think the management of 
that will be beneficial from delivering capability, efficiency, 
and cost.
    Senator Bill Nelson. Senator Inhofe, while you're still 
here I want you to hear the answer to this question.
    General Chilton, the Administrator of NASA, in a hearing in 
front of another subcommittee that I chair, minimized his 
answer on the threat of the debris from the Chinese ASAT test. 
Would you give us your opinion?
    General Chilton. Yes, Senator. I'm in line with General 
Shelton's answer. If you look at this purely statistically, one 
might minimize, from a mathematical perspective, the impact of 
this.
    I think also, you have to consider, maybe the context of 
Dr. Griffin talking about the International Space Station, 
which was shielded much more heavily than any of the satellites 
we would put up or the space shuttle, which goes up for a 
smaller period of time and is exposed to the threat less than 
the International Space Station. But in fact, this was over a 
10 percent increase in the amount of debris that was on orbit.
    Dr. Sega and I were on orbit together, or actually this is 
2 years before we were on orbit together, in 1994 there were 
about 8,000 pieces of debris that General Shelton's 
organization was tracking. We're over 15,000 now, and so space 
debris is a problem.
    The United States has worked very hard with the 
international community, with the Russians for example, to take 
measures to mitigate the amount of debris we create on routine 
launches by putting vent valves on our upper stages so there's 
less risk of them exploding once they've done their mission and 
are left on orbit and turning into thousands or hundreds of 
little pieces as opposed to just one you can track.
    So, it is significant, in my mind, that a country would go 
off and intentionally increase the debris field in an orbital 
regime, where not only humans operate in, but critical national 
security space assets for the United States operate in, 
commercial assets operate in, like Iridium Constellation and 
other communications satellite. To test and demonstrate that 
capability, one has to ask, are they considering deploying that 
and fielding that? Because if you go down that path, and with 
intent to use, you're not going to be going after a small 
weather satellite, but some larger satellites and some other 
satellites that will further exacerbate the problem.
    So, I am concerned, absolutely concerned, about the 
activities that the Government of China conducted with regard 
to this test.
    Senator Bill Nelson. This Senator thinks it's absolutely 
inexcusable for China to have done this and multiplied the 
amount of debris. Generally, in all of your private 
conversations with other users of space, be it American 
commercial, be it international commercial, be it partners in 
space, what have they said to you privately about this fact of 
a 10 percent increase?
    General Chilton. Sir, I have not had conversations with 
commercial users with regard to that increase. I can tell you, 
though, that my experience shared by you on orbit, is that 
manned space flight is not interested in operating in 
environments with increased debris. Because what General 
Shelton can see with his sensors, we closely coordinate with 
NASA to make sure they can maneuver and avoid.
    What worries me most is what we can't see. On every single 
space shuttle flight I was on, the three, after landing we had 
to replace windows in the space shuttle orbiter from hitting 
very, very, very small pieces of debris, paint fleck size 
pieces of debris. They cause enough damage to damage the 
thermal-pane outer window on the space shuttle, which is not a 
big cross-section to be dragging through space.
    So, I can't emphasize enough my concerns about the 
increasing debris in this regime.
    Senator Bill Nelson. If a paint chip will do that much 
damage to the window, what would a bolt do, coming at a 90-
degree angle?
    General Chilton. It certainly has the capability of 
destroying a satellite.
    Senator Bill Nelson. General?
    General Shelton. We're concerned about anything, probably 
in about the three centimeter size or larger being catastrophic 
to our space craft. We are tracking 1,700 pieces, roughly, from 
the Chinese ASAT test right now. Our modeling says there are 
tens of thousands of pieces larger than one centimeter. So, if 
you look at orbital velocities and even those small mass 
objects, they cause catastrophic damage if they occur at the 
angles that you talked about. It's all dependent on geometries 
and orbital velocities, but that's the potential.
    Senator Bill Nelson. Do the commercial users of space have 
an appreciation for this subject?
    General Shelton. Yes, sir. Again, only the objects we can 
track. But, of those objects we can track, we are tracking the 
potential collisions between pieces of debris and all the 
satellites that are in the things that we have in our space 
catalogue. When it appears that we will have one of these 
conjunction opportunities, we call that commercial provider and 
we tell them that it's going to be this close by our estimates.
    Senator Bill Nelson. Where is the outrage among the 
commercial users as a result of this spreading of debris?
    General Shelton. Senator, the outrage is there. It may not 
have become public. As you go to various symposia, you hear it 
from the operators. They are very concerned.
    Senator Bill Nelson. Anybody else want to comment on this? 
Okay.
    Senator Sessions. General Shelton, how much of a burden has 
been put on you to track those additional debris pieces?
    General Shelton. It's not the tracking, Senator. It's 
really analyzing the tracking data, and predicting those 
conjunction opportunities. That's a tremendous burden on our 
people. Our systems aren't automated enough that it just spits 
that out for us in a routine way. It takes an analyst to take 
the data offline and look at it very closely. So, it is a 
burden.
    Senator Sessions. I thank the chairman for raising this 
directly, because I just don't think it's a good citizen act by 
the Chinese Government, I think we should be forceful and clear 
about our concerns and I thank you for expressing that.
    Senator Bill Nelson. The Chinese have put up two 
Taikonauts. They're at risk too and that's human, not even to 
speak of their government assets that they have up there, so I 
think it's time for some of us to start speaking out and making 
it really clear to the Chinese just what a dastardly act that 
they've done. They can do their ASAT stuff and show their 
technological prowess, but when you start messing around, 
completely polluting space, that it becomes a hazard for both 
man and machines, then it's a different thing.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    I want to welcome the panel before us today. Thank you for 
your very important service to our Nation.
    We are a Nation, of course, that's heavily dependent upon 
our satellite system, not only for the day-to-day capabilities, 
communicating instantaneously around the globe, but even 
providing driving directions to our cars so that we can get 
places instead of getting lost. There have been a lot of 
advantages, obviously, and few things are more important, 
however, than the tremendous capabilities and advantages our 
satellites provide to our military and intelligence 
communities. As such, they're very important to the national 
security of the United States.
    As has already been touched on, we now know that these 
capabilities are held at risk after the Chinese test of an 
anti-satellite missile and have to work even harder to preserve 
and expand our space programs. I think this hearing is 
important in that regard because it will help us better 
understand what those challenges are and how to overcome them. 
I appreciate Chairman Nelson and Senator Sessions for having 
the hearing today.
    Dr. Sega, you mentioned in your opening statement that one 
of your key priorities was not having a gap in missile defense 
capabilities. When the Airborne Laser (ABL) becomes 
operational, it will be an Air Force asset. One of the unique 
aspects of the ABL is its ability to engage in the missile 
defense fight without the help of satellites. It is a stand-
alone platform that can track and destroy all classes of 
ballistic missiles, and can also communicate with other defense 
platforms that do rely on satellites. So, I guess the question 
is, as the Under Secretary for the Air Force and the Executive 
Agent for Space, can you comment on the usefulness of having 
that kind of an autonomous, highly mobile platform available 
that would bring to flight, given its capability to operate 
independently and operate with other platforms if we had a 
problem or attack on our missile defense satellites?
    Dr. Sega. Senator, I'll start it in terms of the 
capabilities, then I'll hand it off here to my left. We're 
trying to provide options, going forward, and in an uncertain 
world we think that's important. One of the characteristics 
that we do know about the 21st century is the rate of change of 
technology will increase. So, as we build satellites, we're not 
building them in isolation, nor are we with our airplanes, but 
rather we are looking at how they complement each other. How in 
this sensing realm, we can mutually cue one sensor on one 
satellite and then pass to other systems that may take action.
    I think there is a value in having robustness and options 
as we go forward. But, the specifics, with respect to how that 
would fit into an operational construct, I will pass it over to 
General Chilton.
    General Chilton. Senator Thune, thank you. I don't mind 
being corrected 100 percent on this, but I think that just like 
every one of our other missile defense systems, I think ABL 
will require the initial tipping and cueing that is provided by 
our space-based sensors, like the DSB Constellation and the 
SBIRS Constellation, which can see a launch of a missile 
anywhere on the planet, which is so cued to first get sensors 
looking in the right direction. So, warning, launch in this 
direction, this azimuth, turn and look, and I think that is 
where ABL can be brought to bear. But, I'll follow-up on that 
to make sure I'm 100 percent right on that, Senator.
    [The information referred to follows:]

    To follow-up on my answers concerning the Airborne Laser (ABL), I 
provide the following comments to correct the record. The ABL does not 
require any off-plane cueing; it is equipped with infrared sensors that 
will detect and track a boosting missile a full 360 degrees around the 
airplane. In fact, it can provide cueing to other platforms for 
missiles not within range or not engaged.

    General Chilton. The other thing about ABL, if we can prove 
that technology, it's a tremendous capability that could 
revolutionize the way we think about protecting air space, 
either from missile attack or other forces. So, it's an 
interesting technology that's being pursued there by the 
Missile Defense Agency (MDA).
    Senator Thune. One of the things that's a question that's 
always raised, and the Congressional Budget Office--as part of 
their recommendations of places that you can save money--was to 
do away with the program. But, it seems like, from the types of 
capabilities that it has in accordance with some of our other 
assets that it could really be a useful tool. If you have some 
information, my understanding was that it could operate 
independently of satellite.
    General Chilton. I'll follow-up on that, Senator.
    Senator Thune. Yes, I'd be curious to know if that's in 
fact true.
    General Chilton. Sure.
    [The information referred to is mentioned above.]
    Senator Thune. So, I guess it seems like, from the Air 
Force's standpoint, from a national security standpoint, it 
would make sense to continue to provide funding. It is, I think 
in the testing phase, obviously they've had a lot of success 
with it so far. Dr. Sega, could you comment on, with regard to 
whether or not that's something you believe we ought to 
continue to look for a way to fund?
    Dr. Sega. I believe that's in the MDA budget at this point. 
I don't know the trades they are making or if they had to fund 
one versus another. From the responsibility I have to help 
oversee some of the R&D activities in the Air Force--
previously, I was Director of Defense Research and 
Engineering--we want to advance technologies, to advance 
options going forward, but I'm not sure exactly where they are 
in terms of their budgets and trades that they were making.
    Senator Thune. Anybody else?
    General Shelton. Just from a STRATCOM perspective, sir, ABL 
is very interesting technology and STRATCOM wants to see it 
succeed.
    Senator Thune. That has been my impression. I know these 
become hard decisions when you have to figure out one platform 
or weapons system versus another in a tight budget. I'm of a 
mind that we need to increase the overall budget for the 
military because I don't think we're going to be able to 
maintain superiority in some of these areas if we do fall 
behind. I would hate to see programs like this be sacrificed 
because of budgetary considerations.
    Just one other question, if I might. I think as a general 
proposition, we have to continue to look to exploit and expand 
the advantages that we have in technology when it comes to 
defeating our adversaries. But, one of the criticisms that's 
often mentioned since September 11, is that we rely too much on 
technology to gather intelligence and focus too little of our 
energy and resources on gathering human intelligence. I guess 
because we rely so heavily on our space capabilities, we've 
become incredibly vulnerable from an intelligence and military 
perspective, if those capabilities are destroyed. Obviously, 
the Chinese anti-satellite missile test underscores that 
vulnerability, and I guess I'd be interested in just your 
comments or response to that criticism. Dr. Sega, and anybody 
else on the panel who would like to chime in about their 
perspective on that, should we be focusing on ways to rely less 
upon our space capability?
    Dr. Sega. Senator, I'll approach it in terms of the 
robustness that we are moving toward developing, and then turn 
it over to others for the trade space and operations.
    One of our initiatives going forward is operational 
responsive space. There's an aspect of using current 
capabilities in a better way with the ground segments. There's 
also the development of smaller satellites launched on smaller 
boosters that can be done more quickly, not only to meet new 
needs, but potentially to reconstitute a capability after a 
satellite is no longer working for a variety of reasons, or to 
augment a constellation and improve the revisit time--you would 
have more constellations or more satellites in a particular 
orbit, therefore you would have less time between revisits.
    If I could return to this chart here just for a second. If 
a new idea comes out in this area of S&T, the question is how 
do you quickly get it to the system production phase, so that 
it comes on orbit for the warfighter.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    What we did last year--Congressman Reyes and Congressman 
Everett were there at the time--was to stand up a wing at 
Albuquerque called the Space Development and Test Wing, out of 
the Space and Missile Systems Center. That's the product 
center--they do systems development and systems production 
activities. It's right across the street from the Air Force 
Research Laboratory Space Vehicles Directorate--they do S&T and 
technology development. We're bringing together these entities 
so we can accelerate going from an idea to a fielded system; so 
we are doing things in a way that we can be more efficient, 
more responsive to these new needs; potentially also, testing 
these systems in space--and perhaps incorporating them in 
larger systems--so you actually check the technologies out in 
space.
    One example of that, is in December we launched our first 
tactical satellite experiment, TACSAT 2, on a Minotaur booster. 
We ordered the launcher 7 months prior to actually launching. 
The goal in that program is to have the satellite actually 
doing its job after just a couple times around the Earth, being 
a responsive payload.
    We invested in these kinds of capabilities. From 2001 to 
2005, we doubled the S&T investment in space-related activity 
and now we're starting to bring it on orbit. So, the ability to 
reconstitute, to at least have some capability--may be not as 
good as the original but not have zero--is one of the goals or 
one of the options that we're bringing forward. So, we're 
looking at the road ahead and seeing again what options we 
could have to bring forward to the warfighter.
    General Chilton. Senator, I would hesitate to comment on 
how the Director of National Intelligence balances portfolios 
for collecting the intelligence we need for our fights between 
human technical sides. However, I would, if I could, comment on 
intelligence related to space and that within the Air Force 
portfolio.
    I believe we were in a better position to analyze and 
examine the capabilities of potential adversaries before 1991 
than we are today, because we had a real threat in the Soviet 
Union, who was investing heavily in counter-space and space 
technologies that mattered if we ever were to come into the 
conflict with them that we so dreaded.
    When they collapsed in the early 1990s, we no longer had 
that need. What you saw is a decrease in the human capital 
side, those who paid attention to that. It was probably 
appropriate during that decade that we do that. But, now as we 
look to the future, it's no longer just us and another country 
in the domain. It's multiple countries in the domain that are 
increasing and accelerating in their capabilities. China is a 
classic example. We are focusing in the Air Force in the A-2 
Directorate under General Deptula, and in Space Command we're 
encouraging him along the way to increase that human capital 
investment and make sure we're looking to the future and 
developing the intelligence analysts and specialists we'll need 
at institutions like North American Air Sovereignty 
Intelligence Capability as we go into the future.
    So, thank you, sir.
    General Shelton. Senator, I just wanted to comment on the 
ASAT test directly and the response to that. There's a two-
pronged approach you can take. To deal with the ASAT threat 
directly, and we're certainly looking at that, but then also to 
look at preserving the capability that is threatened by the 
ASAT. That runs the spectrum of capabilities that we have, 
airborne collection, both manned and unmanned, ground-based 
collection capability, ship-based collection capability. So, 
we're looking at all those things to ensure that we don't have 
all of our eggs in one basket, so that one cheap shot wouldn't 
hurt us.
    Admiral McArthur. Sir, to offer a different perspective on 
this, the Navy feels like the National Strategy for Maritime 
Security is a mandate for us developing and deploying 
capabilities and affects. A big part of that is maritime domain 
awareness. Maritime domain awareness, the architecture to 
support that important element is space sensors. Not only space 
sensors, but communications to be able to reach back to 
databases and analysts who develop that operational picture.
    There is a balance in terms of space and other systems, but 
without a doubt, space is essential to us for maritime domain 
awareness. Part of that will be provided by ORS and we're 
looking at the Automatic Identification System (AIS), which 
contributes to maritime domain awareness as part of the TACSAT 
Program that Dr. Sega briefed. So, important to us, essential, 
and again, a critical interdependency from Navy to the joint 
space community.
    Senator Thune. Thank you.
    Thank you, Mr. Chairman.
    Senator Bill Nelson. Senator Sessions?
    Senator Sessions. Thank you, Mr. Chairman.
    Dr. Sega, you mentioned operational responsive space in a 
7-month timeframe, what's your goal in terms of being able to 
launch a system to fill a need in years to come, in the near 
future, let's say?
    Dr. Sega. I'll approach the first part and then hand it 
over again. From a technical point of view, if you had a more 
common bus structure and parts that were available, then going 
from a need to the assembly of that system should take less 
time. If you could anticipate a satellite that you would want 
to have ready for orbit, you could actually be able to build it 
and store it and have it available.
    The launcher that we used for the TACSAT 2 experiment out 
at Wallop's Island was actually part ICBM Minuteman III-based. 
A Minuteman III's response time is very fast. If you already 
have the spacecraft on the booster, then it's a matter of 
minutes and one could launch--if that was your goal. So, we 
will bring the technical capability and the acquisition 
approach to respond faster, and look at smaller satellites 
being able to accomplish the job.
    Now, the actual experimentation that we're doing, not only 
includes the technical result, but also how it fits into the 
operations. So, we're exploring that as well. With that, I'd 
like to turn to the operational impact that could be presented 
by a TACSAT type of capability.
    General Shelton. Yes, sir. Senator, one of the things we're 
experimenting with here, is giving a combatant commander direct 
access to tasking rather than going through the National 
Intelligence Community for tasking assets, giving them direct 
access for tasking, and then they get direct reports back for 
the data as well. So, a very interesting experiment, much like 
we do with airborne intelligence surveillance reconnaissance 
today, we're just taking that concept up to space and seeing if 
it will be effective.
    Senator Sessions. But, you're getting serious consideration 
and working to develop a system by which we can replace a 
missing capability in short order with the least cost. Is that 
the overall concept of this program?
    General Chilton. Senator, that's what the combatant 
commander and I don't want to put words in your mouth, General 
Shelton, so correct me here, but as I said, they're looking at 
two fundamental areas. That's what we're exploring. The ability 
to augment if we need additional information or additional 
capability, even in peace time or in times of heightened 
tensions, or replace critical assets. That's in the TACSAT 
Program, right now, that we're executing. I think it's 
important because we're being able to answer the military 
utility question of these types of satellites.
    What I would like potential adversaries to understand if 
we're successful in this area, is that even if they go after 
capabilities that are on orbit today, we will be responsive 
enough, either through responsive launch capabilities or 
perhaps other capabilities that General Shelton referred to, 
air breathing or other, that they will still lose in a 
conflict. That in itself can be a deterrent to going after what 
we have on orbit today.
    If I could just comment on one other thing, because the 
operational responsive moniker often gets under some folks' 
skin and we, perhaps, could have thought of a better thing, and 
will. Because we've never put out a requirement, either myself 
or Dr. Kerr, that said, would you please build me a non-
responsive space system. Every one of our space systems that 
are on orbit today are responsive and I salute the people, both 
in the NRO and in our organizations and Space Command, and 
General Shelton wearing his warfighter hat, are always looking 
for ways to milk every ounce more capability out of them.
    What we're talking about in this construct, is can we build 
capabilities in less than 10 years? Can we get a booster that 
we don't have to order 2 years in advance? Can we get a system 
on orbit that takes less than 6 months to check out, such that 
at the end of the day it meets the needs of the warfighter, the 
Joint Force Commander in the regions around the world? That's 
the way I contextualize this responsive desire of the combatant 
commander and that's what we're focused on developing right now 
in Air Force Space Command.
    Senator Sessions. I think it is a valuable capability and 
it made sense to me from the beginning, but I think it's a real 
need and needs to be as quick as we can make it.
    Dr. Sega, why did the Air Force reduce the planned funding 
for space by $400 million? What are the higher priorities that 
caused you to redirect that? How do we keep the Air Force from 
raiding, again, the space budget?
    Dr. Sega. The space budget this year--I'll present it in a 
couple of ways. In terms of the percentage of the modernization 
accounts from the Air Force, in 2007, as we submitted the 
budget request, space represented roughly 17 percent of the Air 
Force's modernization account. In 2008, space represents 
roughly 21 percent of the Air Force modernization accounts. 
Also in our budget, there is the move of funding from one part 
of the Air Force budget that's reflected in the numbers that 
have the space radar moved to the Defense Reconnaissance 
Support Activity account. So, there are two pieces, in terms of 
the monies.
    Now, in terms of the programs whose funding moved up and 
down. One of those, in addition to the radar line being 
removed, was the TSAT, and in that line the satellite launch 
date was moved approximately 1 year, to 2016. So there was a 
reduction there.
    Increases occurred to provide the missile warning piece and 
some of the early items that may be needed for SBIRS GEO-3, and 
SBIRS HEO-3 and -4. There's a lot of money in front-end loading 
of that acquisition and that's where the incremental funding 
would help. So, we put money in there as well, and also 
increased money into AEHF. There were other adjustments, but 
those were some of the major ones.
    General Chilton. Senator Sessions, if I could comment as 
well, sir, on the concept of the Air Force raiding the space 
budget. I'm the Air Force Space Command Commander and I fight 
in the corporate process alongside the other Major Commanders 
for how we invest in our various programs.
    Senator, I can tell you that I have not seen better support 
in the last few years that I've been in, both the programming 
world as the Air Force programmer or in the space business, 
than I've seen in this past year. The fact that our Air Force 
is challenged with recapitalization in its air-breathing fleet 
and our ancient aircraft that we're continuing to fly and need 
to replace. When I look at those challenges our Air Force has 
and then I look at our recapitalization needs in the space 
business, we are nowhere in the problem that we are in the air-
breathing side because we have invested well. The Air Force has 
taken hold of their responsibilities to make sure there's 
uninterrupted--not only uninterrupted missile warning GPS, 
precision navigation and timings, communications, and weather--
but, we're even investing on advancing the ball on those and 
improving the capabilities.
    Senator Sessions. While you suggest that, presumably we've 
thought differently.
    General Chilton. I'm sorry?
    Senator Sessions. Presumably we've thought differently 
about the aircraft issue and space and the critical need to 
keep our space capabilities the way we want them to be. So, I'm 
not sure that I would buy that, but it's a point I'm sure 
others agree with you on.
    But, we are going to see some move, it looks like, close to 
$9 billion by 2009. Is that the figure I have? For the 
transformational satellites, space-based infrareds, space 
tracking, space radar, polar operating, polar orbiting 
operational environmental satellite systems, will be increasing 
substantially in the years to come. We think that should be the 
policy of the Government. I think that's what we have put 
forth.
    Let me ask you this. Tell me about the acquisition 
workforce. I guess we're talking about an Air Force that's 
working hard like so many businesses are doing to be as lean as 
it possibly can be and we're talking about maybe a 40,000-
person reduction in workforce. That can be a real billpayer for 
some of the things we like, if you can achieve that without 
damaging the Air Force and the responsibilities we have.
    Dr. Sega, General Chilton, let me ask you, how can we 
ensure that we retain the workforce needed to successfully 
deliver on these programs, including systems of engineers, 
program managers, and technical experts, as I think there's a 
growing consensus in Congress and, actually, in DOD that we 
need more in-house expertise as we seek to manage in a cost 
efficient way the development of new programs?
    General Chilton. Senator, if I could comment on that human 
capital that the GAO commented on too, and I don't disagree 
with the issue that we're concerned with. I think we got off 
the track and I think we've admitted this and we understand 
this, not just in the space business, but in all acquisition 
business in the late 1990s with our total systems performance 
approach to doing business. We stepped back, abrogated our 
responsibilities on the Government side, and what we created in 
doing that was a bathtub of expertise in middle management at 
the major and lieutenant colonel year group levels right now in 
our Air Force. A lot of those people looked uphill at the end 
of the 1990s and said, ``I don't see a future here with this 
management program,'' and they went to industry or left our Air 
Force.
    So, we recognize that as a challenge, and unfortunately we 
can't make those people overnight. You have to grow them. 
That's why we're so focused on, as we move to the future, how 
we, not only recruit, because I think there's talent out there 
that we're, I know there's talent, we'll compete with industry 
for coming out of the universities. But, then also, grow and 
mature people so that 5, 10 years from now, when I go looking 
for a GPS Program Manager to go work at SMC or someone to work 
the development of a next major program, I've raised them and 
given them that expertise they need to lead in that area.
    But, your concerns are valid and they're ones that we are 
focused on addressing and that is that core middle management 
that left our Air Force at the end of the last year.
    Senator Sessions. Have you formed an opinion about what 
percentage and how we should strengthen that capability of 
management of programs, with regard to uniformed personnel and 
civilian personnel?
    General Chilton. It's interesting to look at the balance in 
that area. We are looking at some military to civilian 
conversions out at SMC to boost the number of civil servants we 
have in the programs and try to recruit and bring in some of 
that mid-level talent in those areas, that will provide some 
stability and leadership in the interim. We're about 50/50 in 
our civil servants and military workforce out at SMC.
    If you go look at ASC, the aeronautical side or the 
electronic side, it's quite a substantial difference. There is 
a much higher civilian workforce out there. So, we're taking a 
look at that balance and how we can leverage the authorities 
we've been given to go convert some military to civilian 
positions and grow that, and recruit, I should say as opposed 
to grow, but recruit the civilian expertise to help us get 
through these times that we're in right now. But, we are taking 
the long view too here, Senator, in how we raise and develop 
people for the future.
    Dr. Sega. Yes, Senator Sessions, I absolutely agree with 
your points and your concern. I failed to mention in answering 
Senator Nelson's question he asked me with regard to Cristina 
Chaplain's comments on the acquisition plans going forward, how 
it has actually been implemented and institutionalized, it's in 
the right direction. I did send out a letter to the DOD with 
regard to back-to-basics and the block approach in space 
acquisition. In that letter, one of the sentences is: ``The 
foundation of this disciplined acquisition approach is an 
experienced, high-quality, technically educated Government 
workforce actively engaged in all aspects of the enterprise.'' 
So, I believe it is the foundation going forward.
    One of the approaches here, as we mature technology, is 
also to take a similar approach for at least a fraction of our 
acquisition workforce, and have a workforce development plan. 
General Chilton has done that on an individual basis in their 
database of space professionals. We look at how they get their 
hands on experience in the early years of their career, say in 
S&T, and then build up knowledge in terms of their experience 
toward the complexity of systems that they will have in the 
future. In this way, they will have developed a technical 
instinct, as well as management skills, and financial acumen.
    Senator Sessions. How would you describe that in terms of a 
change in the way we've done business, how big of a change does 
that reflect? Anybody, we've heard this talk, we need to go 
back to more in-house management, the systems will come out 
better in the long run. You seem to agree with that. How 
significant of a change are we executing now on your part?
    Dr. Sega. Sir, in my view, the change, from what I 
understand, happened in the mid-1990s, in terms of having those 
responsibilities for the systems be placed outside of 
Government to contractors. What we're doing now is very 
different. The responsibility of these Government activities 
needs to be done by Government folks. They are supported by 
contractors and Federally Funded Research and Development 
Centers (FFRDCs) and so forth, but that expertise in Government 
is key. We have more in-plant presence, for example, in some of 
these programs that you heard of earlier today and that's 
making a difference. So, I think that discipline includes the 
workforce on the Government's side having those necessary jobs 
and experiences so they will be successful in our future.
    Senator Sessions. I just would say this. We've not been 
happy with our contracting procedures. Too many things have 
gone over in terms of cost and time and other things, GAO has 
pointed this out repeatedly. I do think your back-to-basics, 
and the other steps that you're taking seem to already be 
paying dividends. I really believe you're committed to this 
personally and I think that's why things are moving. Without 
your personal leadership, it probably would not. You have to 
clear the way for General Chilton sometimes too, so he can do 
the things they'd like to do.
    Ms. Chaplain, would you want to comment on any of those 
subjects?
    Ms. Chaplain. Yes, I have several comments. I appreciate 
the actions DOD and Air Force are taking on workforce, but we 
have concerns about the very near-term workforce that, I think, 
need to be addressed very soon. You can't wait for these long-
term efforts.
    Just to give you a couple of examples, we visited the EELV 
office this year, and learned that 15 people will be retiring 
in the very near-term, so EELV's transitioning to a new kind of 
contract, it's trying to do a lot of things with those 
programs. Does it have the kind of people it needs to manage 
that effort?
    When we visited the TSAT office, we saw considerable 
turnover from the year before, and a lot of people within that 
program are just trying to come up to speed. In several of the 
space program offices and others weapons programs offices, we 
found that the service-type of contractors, they're helping 
manage the programs, and the FFRDC's personnel had more 
knowledge than the Government personnel, they were the ones 
with the institutional knowledge about the program.
    I visited a Navy program office earlier this year, where 
the program manager told me that he had one guy in the whole 
Navy who knew about a particular technology regarding sonar 
caps. He lost that guy to retirement, he hired him back as a 
contractor. I asked him, ``What are you going to do when he 
goes? Do you have a new sonar cap guy?'' He didn't. Finally, 
the Navy Lab had recognized that, and were going to grow 
somebody new, but that takes several years. As I understand in 
space, it takes several years to grow new personnel, so that's 
on one side where we see immediate needs to address workforce 
issues.
    We also have concerns about the growing reliance on 
contractors in programs to manage those programs. Issues like, 
who is really making decisions on the programs come to mind. 
How is oversight being executed? How is the Government dealing 
with potential conflicts of interest? So, we have a two-sided 
concern with workforce that is still on the table.
    Senator Sessions. Okay, thank you. Mr. Chairman, I'm glad 
you're back, and I did have a question about the $500 million 
funding reduction and how that will impact the TSAT and what 
delays we'll be looking. Maybe we can submit that for the 
record. I'm finished.
    [The information referred to follows:]

    The hearing transcript also indicates a question from Senator 
Sessions about a funding reduction and how that will impact the 
Transformational Satellite program. Dr. Sega stated that an immediate 
impact of the reduction would be a 1-year delay in the satellite launch 
date. We have not assessed the impact of the reduction in detail, but I 
would add that unanticipated funding reductions may also affect 
procurement of long-lead items and the ability to obtain and retain 
critical technical and business skills within the program. As 
emphasized in our testimony, the Air Force and Department of Defense 
could reduce the need for funding shifts in space programs by 
prioritizing its investment decisions and obtaining long-term funding 
commitments.

    Senator Bill Nelson. Okay, I have a few questions, and then 
what we'll do is recess and we will reconvene in a closed 
session in Russell 222. Jeff, are you going to meet us over 
there?
    Senator Sessions. Yes.
    Senator Bill Nelson. Okay.
    There's been much criticism of the late 1990s of the 
policies that let 40,000 people go. Does space, does it need to 
have an exemption from reduction? For instance, the Air Force 
reduction that had 40,000 people there?
    General Shelton. Senator, the reduction at the Air Force is 
on a glide path floor for about 40,000 of end strength from 
360,000 down to the vicinity of 320,000, is one that--those 
reductions were asked to be put in, and laid into the program 
across the FYDP, and Air Force Space Command took a real hard 
look at that last year when we were asked to put our share in, 
because this was divided up across the entire Air Force. We 
looked at it very carefully, and we believe there are 
reductions that we will take, are ones that we can continue to 
sustain our operations and development programs, and that they 
are reasonable reductions.
    I would also point out though, Senator, that our Chief and 
Secretary have said that given the proposed growth and end 
strength of the Army, and potential Marine Corps is being 
considered, I know, by Congress, that the Air Force is going to 
stop and take a look at future reductions beyond 2009 for the 
FYDP, and ask the question, if that growth occurs, does that 
require growth in the Air Force as well, as part of the Joint 
Team? So, I know the Chief and Secretary have testified that 
they intend to look at that this summer as they go forward, and 
perhaps re-address the reductions in 2009.
    Senator Bill Nelson. Why do you think the National Security 
Space Initiative funding is substantially reduced in fiscal 
year 2008?
    General Shelton. Senator, I think there were competitions 
for funds, always, and we're focusing on recapitalizing all of 
our key constellations. It's an area we could use additional 
help in, I don't mind saying, sir, in two-fold areas.
    One, is we're currently renting a facility in downtown 
Colorado Springs that doesn't have the capacity for this 
institution, and I would like to see us get on with the 
military construction of the facility on Peterson Air Force 
Base where I can alleviate force protection concerns, but also 
grow the facility to meet the demands. It's been so successful, 
that the United States Army certifies every one of their FA-
40s, their Space Officers, comes through our Space 200 course 
that's taught at the Nonproliferation and National Security 
Institute.
    The additional funding we could use in this area would also 
improve not only the seats that we could accommodate, and put 
through the school, but also the quality of our Space 200 and 
300 courses, which I have asked the institute to raise the bar 
on, to make them a little more challenging, a little more 
encompassing.
    Senator Bill Nelson. Mr. Secretary, will the Air Force 
complete and have approval of the TSAT requirements by July of 
this year?
    Dr. Sega. Mr. Chairman, I believe that on the TSAT program 
we have a system review that's coming up in conjunction with an 
ICE that's also being done, and that process will go on and be 
completed by this calendar year. Our target is by the end of 
the summer, but I'll say that this work on TSAT will be done by 
the end of the calendar year.
    Senator Bill Nelson. So there is some delay, why is that 
delay?
    Dr. Sega. I don't anticipate a significant delay. The 
system is in review, and it is important for us to identify on 
a more detailed level the TSAT program status. The testing that 
was done on two of the very important technologies--the laser 
cross-link, and the next-generation process router--took place 
here in the last couple of months, and they have been 
successful. So, both contractor teams have passed on those 
critical technologies, where they needed to be to go forward. 
So, our goal is, by the end of this summer, to have that in 
place. The SDR, and moving toward a review of the cost in the 
ICE so we're in a better position to go forward.
    The first stop is technology maturity, requirements, SDR, 
and the cost estimation.
    Senator Bill Nelson. So, do you think those critical 
technologies will be done by October?
    Dr. Sega. Sir, what we had required going up to the SDR, by 
and large, are complete now.
    Senator Bill Nelson. What would be demonstrated by October?
    Dr. Sega. In terms of the design work, we went through a 
series of testing events that occurred at Lincoln Laboratory. 
On the S&T key technologies, the next-generation processor 
router and the laser communications, over the last couple of 
months. That was rigorous testing, and that was our principle 
look in terms of the technology going forward. Obviously, 
there's more work to do, but those hurdles were done in the 
Phase I and Phase II and are nearly complete.
    Senator Bill Nelson. What is the backup plan if the fourth 
AEHF is not reinstated?
    Dr. Sega. Our plan is to complete the work on AEHF I, II, 
and III, to do the risk-reduction--which we are doing on TSAT--
the design, and go forward on the TSAT program with the back-
to-basics block approach. We've reduced some of the 
requirements for the Block I than we had in the full program, 
so we've reduced some of that risk to increase our confidence 
that it will be delivered on time, and in our date which we are 
anticipating launch, on this schedule, with 80 percent 
confidence after CDR, is 2016. That should not have a gap in 
capability, and I would refer to General Chilton and General 
Shelton on that. We're going to need to have synchronization 
with other needs, as well as continuity of strategic 
communications. That should be maintained with a launch in 
2016. I believe the convergence--the synchronization rate--is 
approximately 2018.
    General Chilton. That's correct, Senator. As you mentioned, 
you see in this program the initial launch date of a TSAT 
system is moved to 2016 from 2015. We took a hard look at 
actual need dates, and the sweet spot, if you will, on the 
schedule that was based on user equipment purchases, Army 
requirements with regard to FCS, space radar requirements with 
regard to bandwidth, and then also the risk Dr. Sega talked 
about with regard to gapping critical communications 
capability, and the sweet spot is 2018. I'm comfortable with a 
2016 launch of the first TSAT, I'm not comfortable with the 
2017, because it classically takes several months for a first 
satellite to be tested and checked out, and I think we're right 
at my comfort limit right now for a launch date of 2016 for 
that system.
    Senator Bill Nelson. Admiral, how important is AEHF, and 
TSAT to the Navy?
    Admiral McArthur. Sir, TSAT is most important to the Navy, 
and the capacity that it will provide, essentially 10 times of 
what we see in the AEHF, the fact that it's protected 
communications, which we have others, but it's still 
protected--but most importantly it's the speed at which you can 
pass data with our ISR systems. Our expectation is 2016, we'll 
follow through on. We're synchronizing our other programs, the 
ground segment, the user segment, the ISR systems that, advance 
systems that we expect to come on board--we're synchronizing 
them with that date and are satisfied with 2016, sir.
    Senator Bill Nelson. Ms. Chaplain, what's your assessment 
of the progress of TSAT?
    Ms. Chaplain. We believe the practices that TSAT is 
adopting do give you more schedule certainty. But there are 
still risks in the program, especially down the road when it 
comes to software that needs to be developed, and integration. 
So, obviously, the lower-risk investment is to continue with 
the AHF buy, if you had to make a choice. Ideally, you'd be 
funding both, and just to keep things on an even keel, and I 
don't like abdicating cutting a program that's doing well, and 
trying to adopt best practices, but if you looked at it just 
from a risk perspective, continuing the AHF would be the lower-
risk approach.
    Senator Bill Nelson. Mr. Secretary and General Chilton, the 
news recently indicates there is a debate going on between the 
Intelligence Community and the military community with regard 
to the NRL sensor on the TACSAT 2, and that the sensor is not 
turned on, and the issues is still not solved. How does this 
issue get resolved, so that the sensor can get tested?
    General Chilton. Senator, I think the issue is a discussion 
on title 10 and title 50 authorities and responsibilities. I 
look at the question the same way I would look at a U2 air-
breathing intelligence collecting platform, the U2 Dragon Lady 
that the Air Force operates.
    It does optical and radar reconnaissance that supports both 
the title 50 community, as well as the Joint Forces Commander 
in the theater that that airplane is operating in. It does the 
same with regard to signals collection, which can support both 
the title 50 community, as well as the Title 10 joint 
warfighter. I don't see an issue that we can't work through 
about developing space capability along the lines of these 
TACSATs, or ORS, eventually, when we start talking about an 
augmentation or a replacement capability that cannot be treated 
in a similar fashion as we treat our U2s, as we treat our RC-
135s which do both title 50 and title 10 work.
    Senator Bill Nelson. Is this silly turf-fighting?
    General Chilton. Sir, I wouldn't call it that, I would say 
there are folks used to authorities and how they operated in 
the past, and this is really new ground in the space domain. It 
is something we have worked through in the air domain many 
years ago, so maybe some folks were surprised by the payloads 
on TACSAT, we certainly didn't hide those, but this debate is 
coming up, I think it's one that can be easily resolved.
    Senator Bill Nelson. Are we about to miss testing a sensor 
as a result of this in-fighting?
    General Chilton. Senator, I was not aware about the not 
being turned on portion that you briefed, I knew there was an 
issue. So, I might have to defer to General Shelton on that. I 
know the imagery sensor, which takes photographs, is turned on 
and is going through test and checkout, so I will defer this to 
General Shelton.
    Senator Bill Nelson. Is there a problem, General Shelton?
    General Shelton. Yes, sir, there is. AIS is the sensor that 
Admiral McArthur referred to earlier, and that has been 
problematic, and we'll continue to work this, and as General 
Chilton said, I'm confident we can work through it.
    Senator Bill Nelson. Is there this turf battle between the 
Intelligence Community and military community?
    General Shelton. Again, I wouldn't characterize it as a 
turf battle, I would characterize it as a new, first out-of-
the-box kind of capability where what has been the sole purview 
of the National Intelligence Community from space is now going 
into the DOD in a space-based capability. So, working through 
the authorities, working through the law that exists, it's just 
going to take some time. So, there are plenty of lawyers 
involved helping us with this one.
    Admiral McArthur. Sir, I would like to say, though, that 
the Navy is anxious to experiment with a new doctrine and new 
tactics and techniques and procedures. We made references 
earlier to combatant commander tasking of sensors, and that's 
reflected in the initial concept of operations of U.S. STRATCOM 
for ORS.
    We're working within the Joint Space community, with the 
Intelligence Community to resolve these doctrine of the past, 
to transform to a new way of doing business. We have forces 
that are deployed today, standing by to task that AIS sensor 
when we clear a couple of hurdles. Thank you, sir.
    Senator Bill Nelson. Does this need to be drawn to the 
attention of the head of the Central Intelligence Agency and 
General Hayden?
    Admiral McArthur. No, sir, the resolution of previous 
doctrine and policy is underway today. We have leadership 
within the Intelligence Community and the DOD that are working 
to change and transform. So, we're again, looking forward to 
experimenting with a new doctrine.
    Senator Bill Nelson. So, if you all resolve this, this is 
going to take care of future TACSATs?
    General Shelton. Senator, that would be our design, is that 
we get this resolved, and we move forward.
    Senator Bill Nelson. If you need a little help, let me 
know.
    Senator Sessions. Senator Nelson also runs the Intelligence 
Committee, too.
    Admiral McArthur. This discussion should be helpful enough. 
Thank you, sir.
    Senator Bill Nelson. Let's talk about iGPS. Tell us, are 
you all familiar with that concept?
    Dr. Sega. iGPS is one of several proposed options for 
augmentation of GPS. Augmentation takes many forms around the 
planet in terms of getting additional accuracy--it's done in 
agriculture--it's done in a variety of other ways. We do it in 
different ways on the defense side, and iGPS would be one 
technique toward an augmentation. So it's important to keep our 
eyes open and look at different options for augmentation, but 
it's one of a variety of augmentation approaches.
    Senator Bill Nelson. Are the GPS terminals, are they going 
to be compatible with the iGPS?
    General Chilton. Sir, I don't know the answer to that 
question, I have received a briefing on the iGPS concept, and 
which is, I think, Dr. Sega described accurately, but I'd like 
to take that for the record, Senator, and bring you an answer 
back on that.
    [The information referred to follows:]

    I do recall from an iGPS briefing that iGPS leverages the Iridium 
Constellation and the Department of Defense supported the President's 
budget to develop iGPS capabilities. If you accept this path, then you 
look at a need to reconstitute the Iridium Constellation, which is not 
in the current program.
    Specifically, to answer your previous question, I submit the 
following information:
    To review, the iGPS industry concept proposes a regional 
augmentation of GPS that includes the communications capability of 
Iridium. iGPS envisions use of low-flying Iridium satellites (in 500NM 
orbits), new reference stations situated in the AOR, as well as iGPS 
user equipment to deliver improved accuracy, availability, anti-jam 
resistance, and two-way communications.
    Current GPS military user equipment is not compatible with the iGPS 
concept. New user equipment would have to be designed and fielded, a 
requirements definition and developmental engineering process taking 
several years before this capability would be available for the 
military.
    To employ this concept would require building new iGPS reference 
stations, most likely overseas, where there is force protection and 
basing issues. The number of reference stations required would depend 
on the iGPS coverage needed.
    The Air Force has not studied the overall iGPS costs; however, the 
cost of reconstituting the Iridium Constellation is likely to be on the 
order of $5 billion. User equipment costs would depend on the number 
and variety of users requesting iGPS service. There are also unknown 
costs related to modification of the control segment, development, 
basing and force protection of the additional iGPS reference stations, 
and an annual service fee.
    The time required to operationalize iGPS and its useful life would 
be contingent on its final scope and concept of operations. The sense 
of the GPS community is that the GPS IIIB era will be on hand (fiscal 
year 2016) by the time iGPS would be a fully operational military 
system. While we have examined iGPS only as a military augmentation 
system, properly equipped civil and commercial users could benefit if 
they were in a coverage area.
    Though iGPS is a great example of ingenuity, it would only provide 
military users some additional limited capabilities for a few years. 
iGPS presents unquantifiable costs with respect to Iridium's LEO orbit 
with increased vulnerability to counter-space action and increased 
overseas footprint. Lastly iGPS does not remove the necessity for GPS 
III, which independent of iGPS, shall meet the full set of military and 
civil user requirements.

    Senator Bill Nelson. I understand there is a problem, and 
also additional ground antennas or relays would also be needed 
to make it functional, and of course we'd like to know the cost 
of the concept, who would use it, when it would be operational, 
and how long it would be usable?
    General Chilton. Senator, I'd be happy to provide the 
answers for the record for that. One thing I do recall from the 
briefing on iGPS is that it leverages the Iridium 
Constellation, and if you go down that path, then you look at a 
need to reconstitute that constellation, which of course, is 
not in the current program.
    Senator Bill Nelson. Ms. Chaplain, there are rumors going 
around that the terminal programs are lagging behind the 
satellite programs, and that there is also a shortage of 
terminals. If that's the case, how does it get fixed?
    Ms. Chaplain. We've just started looking at this issue 
ourselves, and we do have questions about the synchronization 
of the acquisitions, at least in the GPS area, and I know 
there's a few more programs that we have questions about. How 
you fix it requires a lot more coordination between the two 
efforts, and balanced funding to make sure that they march down 
the same path. If the terminals lag too far behind, you're 
missing opportunities to extract new capabilities, and in 
essence, wasting investments in these new satellites if you 
can't use them with the ground equipment. So, it's something 
we're going to be looking at more this year.
    Senator Bill Nelson. For example, you can't even utilize 
the M Code on the GPS satellite, because there are no fielded 
terminals.
    Ms. Chaplain. Yes.
    Senator Bill Nelson. What do you think about that, General 
Chilton?
    General Chilton. Sir, we're just starting to field the M 
Code on the II-RM satellites right now, we just have three of 
those up, I believe----
    Dr. Sega. That's correct.
    General Chilton.--five more to follow. So, you're exactly 
right, Christina, there is a balance that we have to manage 
between fielding terminals and satellite capability because you 
don't want to waste capability on orbit.
    I'd say, also, the other thing we need to keep our eye on, 
Senator, is not only the terminals that the user uses, which 
are classically fielded and paid for by the individual Services 
that are buying those, in the GPS case, but in our Command and 
Control element for GPS. This is an area, the AEP program, and 
the OCX programs that we're very focused on in Space Command to 
make sure we get that transition to new Command and Control 
architecture on GPS safely done this summer, and then manage 
into the future, so that when you have the satellites on orbit, 
you can even turn on the new capabilities, and make sure we can 
command and control it. So, it's a multiple-pronged issue that 
is exactly on mark that we stay synchronized, not only building 
the satellite element, but the ground element that goes with 
it, and the user equipment.
    Senator Bill Nelson. Thank you. We will recess the 
subcommittee, and we will reconvene in Russell 222 for a closed 
session. We are adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Bill Nelson

                       CHINA ANTI-SATELLITE TEST

    1. Senator Bill Nelson. Dr. Sega, General Chilton, and General 
Shelton, in January, the Chinese conducted a successful test of a 
kinetic anti-satellite (ASAT) weapon. What are the implications for our 
space programs and what capabilities do we need to improve?
    Dr. Sega. Given the critical importance of our space assets, we 
must improve our ability to detect space objects and characterize them 
as quickly as possible. To help accomplish this, the Air Force is 
currently pursuing upgrades and new capabilities to improve Space 
Situational Awareness (SSA), such as the Space Fence and Space-Based 
Space Surveillance (SBSS). Additionally, the Department of Defense 
(DOD) is expanding its ongoing emphasis on new technology and tactics, 
and working to develop a surge, augmentation, and reconstution 
capability through the Operationally Responsive Space (ORS) program.
    General Chilton. Today, our surveillance, analysis, and data-
sharing capabilities do not adequately support our emerging needs to 
rapidly identify and understand the threats to our space systems. We 
must improve our ability to detect the threat and characterize it as 
soon as possible--preferably before launch--to give ourselves maximum 
time to avoid or at least mitigate the risk using all available 
instruments of national power. We also must improve our capability to 
detect and evaluate the risk from all debris, man-made and natural. Our 
analysts did an incredible job quickly characterizing the debris cloud, 
but they are constrained by an antiquated computer system, a Cold War-
era communications structure, and a patchwork of surveillance systems 
that were not designed from the ground up to provide the type of SSA we 
now require.
    To that end, we have programs in place which will improve existing 
capabilities. Space Based Infrared System and Space Tracking and 
Surveillance System will help us characterize launches and identify 
potential threats more quickly. Integrated Space Situational Awareness 
(ISSA) will provide increased accuracy and improved processing over the 
1980s-era Space Defense Operations Center computer system. The Rapid 
Attack Identification and Detection Reporting System (RAIDRS) will 
enable us to not only detect and assess threats but will suggest 
potential courses of action to the Joint Functional Component Commander 
for Space (JFCC SPACE). The Space Command and Control (C2) program will 
enable JFCC SPACE to respond to threats and execute protective 
operations while there is still time to defend our systems. The Space 
Fence, Space Surveillance Telescope, and other Space Surveillance 
Network (SSN) recapitalization programs will enable us to characterize 
a debris cloud or other potential threats and assess risk to other on-
orbit systems in a fraction of the time it takes today.
    Lastly, the ability to posture our space capabilities and effects 
during and after an event is paramount to maintaining space 
superiority. We are focused on delivering, deploying, and employing 
operationally responsive technologies, systems, and associated tactics 
to augment, recover, and replenish space capabilities for combatant 
commanders and national defense.
    General Shelton. Implications of the successful Chinese ASAT test 
include increased risks to manned and unmanned space assets for all 
space-faring nations. We need to improve the persistent and predictive 
nature of SSA capabilities (sensing and analyzing), and combine this 
with command and control capabilities in a timely and relevant fashion 
to enhance a decisionmaker's ability to determine and execute 
appropriate courses of action. Deploying and employing responsive space 
elements to exploit new technologies and operational capabilities, as 
well as augment or reconstitute existing capabilities, strengthens the 
perseverance of space effects and provides the flexibility to respond, 
when and where needed.

    2. Senator Bill Nelson. Dr. Sega, General Chilton, and General 
Shelton, the Air Force unfunded priorities list includes funding for 
SSA activities. Could you address the need for additional SSA 
capability and why is it important?
    Dr. Sega. SSA is an increasingly important component of space 
operations. It includes the ability to surveil the space domain with 
the goal of identifying and classifying objects in space, in as near 
real time as possible. The fiscal year 2008 President's budget includes 
funding for the first SBSS satellite which is scheduled to launch in 
fiscal year 2009, and should improve our ability to rapidly find, fix, 
and track orbiting objects. In the future, satellite ``self awareness'' 
capabilities will also become increasingly important.
    General Chilton. Preserving our advantage in space is a 
prerequisite for everything we do. SSA is the foundation for all space 
operations but in particular for space defense. We can't protect our 
critical space systems and can't respond to emerging threats without 
knowing what might threaten them. SSA allows us the ability to 
effectively surveil the space domain with the goal of answering, in as 
near- to real-time as possible, the questions of ``who, what, when, 
where, how, and why?'' The answers to these questions are vital to the 
commander responsible for operations in any domain.
    Today, we are reaching the limits of what our computer system was 
designed to handle so we need to invest in new system like ISSA. ISSA 
will handle the growth anticipated in on-orbit population as well as 
provide the increased accuracy demanded by today's users. Our SSN is a 
combination of Cold War-era systems and most of the systems are decades 
old and our surveillance network is in drastic need of modernization or 
replacement. We have a critical space surveillance sensor gap in the 
southern hemisphere. We must continue to sustain our current systems 
while we invest in the Space Fence program and the SBSS. The Space 
Fence program will give us a quantum leap in being able to detect and 
track small objects like micro-satellites, combined with deploying 
sites overseas. The SBSS will give us unprecedented abilities to ensure 
we can maintain custody of objects in orbit. These two programs will 
fill key shortfalls in our abilities today.
    Even as we try to find a way to recapitalize the SSN, we must take 
better advantage of the information and systems that we have. We need 
to be able to monitor, collect, fuse, and exploit information from the 
SSN, missile defense sensors, and many other sources to provide near-
real time global awareness to our commanders so that they can make 
well-informed, timely decisions. We must continue to sustain our 
existing systems to avoid gaps while delivering new transformational 
capabilities.
    General Shelton. Current SSA methods are focused on reactive 
measures designed to identify, track, analyze, and assess objects 
within the space environment. The need for additional proactive SSA 
capabilities enabled by advanced net-centric architectures that 
integrate data sources and are predictive are necessary to defend our 
freedom of action in space. The escalating number of objects in, and 
threats to, our space capabilities, places our national and manned 
space assets at increased risk. SSA modernization will provide the 
foundation required to anticipate and respond to the pending 
accidental, environmental, or intentional threats posed to our space 
systems.

                              SPACE DEBRIS

    3. Senator Bill Nelson. Dr. Sega, General Chilton, and General 
Shelton, the Air Force maintains a catalogue of space debris--the 
Chinese test created thousands of new pieces of space debris. How does 
that debris affect U.S. military and commercial space programs?
    Dr. Sega. Some of the debris generated from the Chinese ASAT test 
will remain in orbit for decades and is in the same orbital regime as 
many United States space assets. Because of this, there is a potential 
that tracked and/or untracked debris pieces too small to track could 
collide with an on-orbit satellite. The Joint Functional Component 
Command for Space (JFCC SPACE) at Vandenberg Air Force Base, 
California, monitors trackable space debris closely and continues to 
accomplish conjunction assessments on a daily basis. In this way, they 
can determine close approaches between the trackable debris and U.S. 
space assets and recommend these assets be maneuvered, if necessary.
    General Chilton. The debris generated from the Chinese ASAT test 
will present a risk of collision for decades to come. The pieces of 
debris created by the Chinese are in the same orbit regime as many U.S. 
space assets and as such there is a threat that tracked and/or 
untracked debris pieces could collide with an on-orbit satellite. JFCC 
SPACE monitors the situation closely and continues to accomplish 
conjunction assessments on a daily basis to determine close approaches 
from the debris with U.S. assets.
    General Shelton. Increased space debris creates a tremendous burden 
on the space professionals tasked with analyzing and predicting 
conjunction opportunities. Insufficient automation and processing 
requires an analyst to individually review the data closely once an 
object has been identified as a possible threat to a space asset 
regardless of whether it is a commercial or military platform. Post 
event modeling indicates that the probability of a low earth orbit 
satellite being hit by debris increased 10-40 percent over a 5-year 
period. Given the extensive de-orbit timeline for this newly created 
space debris, its impact on military and commercial systems will be 
felt for years to come.

    4. Senator Bill Nelson. Dr. Sega, General Chilton, and General 
Shelton, DOD relies heavily on commercial satellite capabilities as 
does the U.S. economy, will the Air Force continue to provide 
notification of debris location to the commercial space industry? There 
is some ongoing confusion about whether funding is available in fiscal 
year 2008 to do this.
    Dr. Sega. Air Force Space Command (AFSPC) provides space 
surveillance data to non-U.S. Government entities through its pilot 
program ``Support to Commercial, Foreign Entities (CFE),'' as 
authorized in the National Defense Authorization Bill for Fiscal Year 
2004.
    Satellite position data, as well as debris data, is made available 
through the CFE Web site to any registered user. CFE is not funded as a 
separate line item by Congress, but AFSPC has, to date, funded the 3-
year pilot program which is scheduled to expire at the end of fiscal 
year 2009. Additionally, the Joint Space Operations Center provides 
notification to U.S. commercial satellite operators when potential 
collisions with the debris are predicted.
    The Air Force currently intends to fund the program in fiscal year 
2008 and keep the Web site operational. AFSPC could evolve the existing 
CFE pilot program from a basic Web site to an improved operational 
capability that provides advanced services (conjunction assessment, 
launch screening, anomaly resolution, et cetera) to a wide variety of 
customers, to include commercial, allied, public, and foreign 
interests. However, resources are currently not available within the 
budget for full implementation of the program.
    General Chilton. The National Defense Authorization Bill for Fiscal 
Year 2004 (signed 24 Nov 03) allows the Secretary of Defense to carry 
out a pilot program to determine feasibility and desirability of 
providing non-United States Government entities space surveillance 
tracking services, data, and analysis. This pilot program is called 
Commercial and Foreign Entities (CFE) and has been re-delegated from 
SECAF to AFSPC. The primary goal of the pilot program is to enhance DOD 
SSA and to meet DOD objectives by providing timely, accurate, and 
state-of-the-art surveillance services to commercial and foreign 
entities, as resources permit; and to normalize the processes used to 
provide this support. Satellite position data, as well as debris data, 
are made available through the CFE Web site to any registered user. 
This pilot program is unfunded; however, AFSPC will continue to seek 
funds to keep the Web site operational for fiscal year 2008.
    General Shelton. AFSPC provides space surveillance data to non-U.S. 
Government entities through its pilot program ``Support to CFE.'' No 
specific ``debris notification'' is proactively issued to commercial 
space industry, but ephemeris data is made available through the CFE 
Web site to any registered user. CFE is not funded as a separate line 
item by Congress. AFSPC has voluntarily funded the 3-year pilot program 
scheduled to expire at the end of fiscal year 2007. Fiscal year 2008 
funding is undetermined at this time. USSTRATCOM would like to see the 
Air Force continue this program and mature its capabilities, while 
preserving operational security of ongoing space operations.

    5. Senator Bill Nelson. Dr. Sega, General Chilton, General Shelton, 
and Admiral McArthur, continuing with how to respond to the debris 
issue, do you believe it is time to look at additional international 
solutions to controlling and mitigating debris?
    Dr. Sega. The existing legal regime, including treaties, adequately 
addresses the issue of orbital debris. The United States is taking a 
leadership role in international fora to encourage foreign nations and 
international organizations to adopt policies and practices aimed at 
debris minimization. The United States also seeks to minimize the 
creation of orbital debris by its own government and non-government 
operations in space, as is outlined in the President's National Space 
Policy.
    General Chilton. The existing legal regime, including treaties, 
adequately addresses the issue of orbital debris and new legal 
solutions are not necessary. The United States is taking a leadership 
role in international fora to encourage foreign nations and 
international organizations to adopt policies and practices aimed at 
debris minimization. Of course, the United States also seeks to 
minimize the creation of orbital debris by its own government and non-
government operations in space, as is mentioned in the President's 
National Space Policy.
    General Shelton. Yes. Controlling, minimizing, and mitigating space 
debris is beneficial to all space fairing nations and global users of 
space products. National Space Policy directs that ``The United States 
shall take a leadership role in international fora to encourage foreign 
nations and international organizations to adopt policies and practices 
aimed at debris minimization and shall cooperate in the exchange of 
information on debris research and the identification of improved 
debris mitigation practices.'' Consistent with this policy, the United 
States should pursue international solutions incorporating allied or 
U.N. involvement through diplomatic and/or technical solutions.
    Admiral McArthur. Yes. Controlling, minimizing, and mitigating 
space debris are beneficial to all space-faring nations and global 
users of space products. National Space Policy directs that ``The 
United States shall take a leadership role in international fora to 
encourage foreign nations and international organizations to adopt 
policies and practices aimed at debris minimization and shall cooperate 
in the exchange of information on debris research and the 
identification of improved debris mitigation practices.'' Consistent 
with this policy, the United States should pursue international 
solutions incorporating allied or U.N. partnerships to influence the 
global space community in this area through diplomatic and/or technical 
and scientific channels.

                     OPERATIONALLY RESPONSIVE SPACE

    6. Senator Bill Nelson. Dr. Sega, General Chilton, and General 
Shelton, I am glad to see that the Air Force has included funding for 
ORS. The three main elements of ORS are launch, satellite buses, and 
sensors. How should we think about dividing time, attention, and 
funding among these three pieces of ORS? Is the fiscal year 2008 budget 
request balanced appropriately?
    Dr. Sega. Yes, the fiscal year 2008 ORS budget request is an 
appropriately balanced request. The request includes funding for the 
launch of tactical satellite (TACSAT) experiments demonstrating new 
sensor capabilities; the beginning of the development of an operational 
series of spacecraft; and the purchase of launch vehicles, while 
providing funds to examine the ground infrastructure necessary to fully 
use the spacecraft. This budget request is intended to be complemented 
by research, development, test, and evaluation (RDT&E) resources from 
organizations such as the Air Force Research Lab (AFRL), the Naval 
Research Lab (NRL), and the Army's Space and Missile Defense Command 
(SMDC). Flexible funding arrangements are also critical to dynamically 
balance resources to meet urgent needs.
    General Chilton. The ORS budget is an appropriately balanced 
request and is detailed as follows:

                        [In millions of dollars]
Operational TACSAT Block 1.................................      $21.600
Operational launch vehicle multi-vehicle buy...............       34.000
Operational capability development and integration.........        3.500
Ground processing, dissemination, and command and control..        3.600
TACSAT-4 launch vehicle and operations.....................       18.215
Perform analysis and assess alternative concepts/                  4.300
 requirements and program support..........................
TACSAT-3 and -4 Launch.....................................        1.817


    The request includes funding for the launch of TACSAT experiments 
demonstrating new sensor capabilities, the beginning of the development 
of an operational series of spacecraft, purchase of launch vehicles, 
and provides funds for examining the ground infrastructure necessary to 
fully use the spacecraft. This budget request is supported by the RDT&E 
requests from the AFRL, NRL, and the Army's Space and Missile 
Development Center which funds the development of new sensors. Flexible 
funding arrangements are critical to dynamically balance resources to 
meet urgent needs.
    General Shelton. ORS is a broader concept than improving the 
responsiveness of spacelift (to include ranges), satellites, and 
sensors. ORS will enable improved integration through rapid deployment/
employment of new, pre-planned, or existing capabilities. It will link 
operational, acquisition, industry partners, and science and technology 
communities to rapidly exploit emergent capabilities to fill 
operational gaps. ORS will generate warfighting effects for operational 
and tactical use in response to urgent or unanticipated needs. The 
focus is on responsiveness. Tasked by a Joint Force Commander (JFC), it 
will be timely and targeted to the need, while enhancing survivability 
and adversary deterrence.
    The budget is balanced appropriately. There is sufficient funding 
to standup the ORS office, investigate what the office should initially 
focus on, and buy some long lead item components to make ORS a reality 
for the warfighter. Funding concerns exist relative to resources in the 
out years and support from Congress going forward will be critical to 
continued success.

    7. Senator Bill Nelson. Admiral McArthur, what is the Navy vision 
for ORS and what is the Navy's role in ORS?
    Admiral McArthur. The Navy vision for ORS is to provide a more 
affordable way to get beyond the line of sight of communication 
capabilities, rapid-reaction ISR sensors, and other tactically and 
operationally significant payloads, on orbit, in a tactically relevant 
timeframe to respond to asymmetric challenges and hedge against 
uncertainty. Navy supports ORS because maritime forces need the 
flexibility that ORS offers to augment and reconstitute critical 
warfighting capabilities in order to counter increasingly agile 
adversaries.
    Navy's role in ORS is to be a partner in a truly joint effort to 
build on the TACSAT series of experiments and deliver an operational 
capability to the JFC. We realize that ORS is more than just smaller, 
rapidly developed satellites and requires an end-to-end examination to 
develop the agility and capabilities needed to rapidly adapt to the 
ever evolving threat environment facing our JFCs.

    8. Senator Bill Nelson. Admiral McArthur, how should the joint ORS 
office be structured, funded, and staffed?
    Admiral McArthur. Navy actively participated in the congressionally 
directed 120-day ORS study and supports its findings. This study report 
titled ``Plan for Operationally Responsive Space'' was provided to 
Congress at the end of April and lays out the structure, funding, and 
staffing plan for the joint ORS office. To obtain the depth and breadth 
of expertise in both space systems and joint warfighting, with 
reachback to the entire National Security Space (NSS) community, the 
office should be staffed with trained personnel from all Services, 
agencies, and the Intelligence Community. We need to build on the 
TACSAT series of experiments to reflect the partnerships that need to 
be developed among the Services, COCOMs, and Intelligence Community to 
provide innovative solutions and leverage the best talent available 
across the NSS community to solve warfighting challenges. The ORS 
office should be a truly joint office with the military departments and 
agencies nominating candidates for the director and top leadership 
positions to the ORS Executive Committee and DOD Executive Agent (EA) 
for Space for review and selection.
    As described in the ``Plan for Operationally Responsive Space,'' 
responsibility for funding joint ORS capabilities belongs to the DOD EA 
for Space through the Program Elements listed in the report. As part of 
the joint TACSAT and ORS effort, Navy, through the Office of Naval 
Research (ONR), is investing $15 million of S&T funds each year in 
moderate-to-high-risk projects that result in significant prototypes 
through the Space Innovative Naval Prototype program. Investments are 
focused on naval capability gaps that space can fill such as ship 
tracking, data exfiltration from buoys, communications-on-the-move, 
submarine detection, cueing, and littoral characterization. NRL led 
development of a ship tracking payload for TACSAT-1 and a secondary 
payload on TACSAT-2. ONR is providing a secondary payload for TACSAT-3 
that provides a basic IP-based data exfiltration capability. NRL is 
leading TACSAT-4 for the joint community with ONR funding the UHF 
Communications payload to support comms-on-the-move and data 
exfiltration. TACSAT-4 uses a prototype spacecraft bus resulting from a 
broad government-industry team effort to develop and mature bus 
standards for increased modularity. The spacecraft should be completed 
by the first half of next year and will be launched into a highly 
elliptical orbit to provide long dwells over theater. NRL is managing 
the ORS Payload Technology initiative for OSD. This initiative jointly 
evaluated 75 industry proposals and awarded 14 which are being 
developed by industry now and over the course of the next year.

    9. Senator Bill Nelson. Ms. Chaplain, from the Government 
Accountability Office (GAO) perspective, what are the most important 
elements in keeping ORS responsive and inexpensive?
    Mr. Chaplain. ORS represents a collection of efforts designed to 
deliver space-based capabilities to warfighters more efficiently and 
effectively. They encompass development of small-size tactical 
satellites, cheaper and smaller launch systems, standardized satellite 
components, as well as efforts that are exploring new design techniques 
and ways to better protect space-based equipment. There are a variety 
of ways ORS can help to improve the way satellites are acquired in 
DOD--for example, by providing opportunities and resources to test out 
future sensors and software; reducing pressure to satisfy al! war 
fighting requirements in a single, large program; and developing common 
approaches to design and production.
    At your request, we are initialing a review that will focus on 
progress DOD is making in implementing these initiatives as well as a 
strategy on managing and coordinating these efforts. Our past work, 
however, has already identified elements that need to be in place to 
make ORS a success. Figure below highlights these.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Within the science and technology (S&T) community, for example, 
there needs to be effective prioritizing of investments between ORS 
projects and non-ORS projects, so that DOD can ensure that critical 
technology development efforts, such as the development of advanced 
batteries, are adequately funded. There also needs to be effective 
coordination among S&T organizations, industry, and the acquisition 
community, so that lessons learned from ORS can be effectively 
integrated into the larger acquisition programs and ultimately 
engrained in the organizational culture. Our past work has generally 
found that efforts are not adequately coordinated nor are S&T 
investments strategically balanced and prioritized.
    Likewise, within the acquisition community, there needs to be a 
sustained commitment to using best practices and a willingness to 
examine alternatives in technologies, design and development 
techniques, and different ways to satisfy requirements. Our testimony 
noted that while current leadership has embraced adopting best 
practices, there was no guarantee that this commitment could be 
sustained until DOD changed its policies and processes surrounding 
space acquisitions.
    Finally, our best practice work has identified elements that need 
to be in place to ensure a smooth transition between projects that have 
been a success in the S&T community to the acquisition community. They 
include transition plans and agreements; managers to guide the 
transition process; measures focused on feasibility, relevance, and 
readiness; and a gated review processes to ensure that the right 
progress is being made and enlist product line commitment. Leading 
commercial companies use these techniques for successfully developing 
and transitioning technologies, with the basic premise being that 
technologies must be mature before transitioning to the product line 
side. At present, however, DOD lacks the breadth and depth of these 
techniques, and it routinely accepts high levels of technology risk at 
the start of major weapon acquisition programs. These shortcomings 
contribute significantly to DOD's poor cost and schedule outcomes.
    Our ORS review will assess whether these elements are in place and 
it will seek additional input from the S&T community and others on what 
additional tools can enable success. We look forward to reporting on 
the results of our review early next year.

                     NATIONAL SECURITY SPACE OFFICE

    10. Senator Bill Nelson. General Shelton and Dr. Sega, following 
the decision to have the director of the National Reconnaissance Office 
(NRO) be separate from the Under Secretary of the Air Force, the 
Director of the NRO pulled out support, both money and people, from the 
National Space Security Office (NSSO). The NSSO was created to be a 
independent think-tank essential to address, work, and resolve 
crosscutting issues within all of the space community. In your views, 
should the NRO continue to support NSSO?
    General Shelton. The NRO should continue to support the NSSO for 
planning, programming, and defense acquisition processes. This will 
support DOD-wide efforts to provide information sharing, alignment, 
and/or integration. This will result in optimizing government resources 
and leveraging expertise. It is important that the DOD and the 
Intelligence Community work closely together in order to provide 
transparency and leverage space activities across NSS. This 
collaboration will improve situational awareness for both the black and 
white space communities. The critical element is that there is 
collaboration, not that it comes solely from the DOD EA for Space's NSS 
Organization.
    Dr. Sega. The NSSO continues to develop coordinated, synchronized, 
and integrated capabilities to support the DOD and the Intelligence 
Community. The NSSO does this through NSS architectures, strategies, 
and the NSS Plan. NRO support is important and the NRO continues to 
fund some NSSO led studies.

                                TACSAT-2

    11. Senator Bill Nelson. Dr. Sega, could you provide an update on 
TACSAT-2, including the various sensors and how they are operating, 
including the solar panels and the resolution of the NRL sensor and the 
impact of this issue for future TACSATs?
    Dr. Sega. Consistent with the event-driven check-out/testing 
process, one experiment, the Miniaturized Vibration Isolation 
Experiment (MVIS), remains to be activated. The remaining 11 
experiments are performing well and the detailed status of each will be 
provided in a separate briefing to your staff.
    The power from TACSAT-2's main solar arrays is sufficient to power 
all satellite/experiment requirements. Additionally, there are two 
experimental solar arrays on the satellite. One experimental array has 
fully deployed and is producing approximately 50 percent of expected 
output power. The second experimental array has not been able to be 
fully deployed and is not producing power. Attempts will be made to 
redeploy this array.
    The TACSAT-2 experiment team is working with appropriate government 
agencies to address intelligence oversight and data handling processes 
associated with data gathered by the experimental payloads. As lessons 
are learned from the TACSAT-2 experiment, they will be transitioned to 
other experimental programs.

    12. Senator Bill Nelson. General Chilton, General Shelton, and 
Admiral McArthur, do you see operational interest in the various 
sensors on TACSAT-2 or any residual operational capability?
    General Chilton. Two of the experiments aboard TACSAT-2 are 
receiving operational interest, the Imager and the Target Indicator 
Experiment which collects radio, radar, and handheld communication 
signals and will monitor the automated identification signal now 
required on large ocean-going vessels. The Air Force and NRLs are 
performing checkout and calibration of both of these sensors. The 
spacecraft is planned to participate in a series of exercises through 
the summer to evaluate the potential military utility of these sensors. 
At the completion of that process, the capabilities of the spacecraft 
will be well-understood, and if appropriate, made available for 
operational use.
    General Shelton. TACSAT 2 satellite signals intelligence and 
imagery payloads are in test and checkout by the NRL and AFRL. A 
Military Utility Assessment will commence with exercise Talisman Saber 
(18-30 June 2007). This exercise will confirm the military utility of 
the two primary sensors and will provide insights for process 
improvements and more timely distribution of data directly to the 
requesting warfighter in theater. If our expectations for TACSAT-2 are 
realized, we will make plans for residual operations.
    Admiral McArthur. Absolutely. TACSAT-2 was successfully launched on 
16 December 2006 and the Navy has already lost several experimentation 
opportunities over the last months for the Target Indicator Experiment 
(TIE), which brings with it an AIS-based ship tracking capability. 
Another such opportunity could be lost, an experiment that could show 
cross-mission ELINT geolocation during upcoming exercise Talisman 
Saber. Additionally, NRL will likely be hard-pressed to complete the 
ACTD requirements in a timely manner given the fact that this payload 
will now be competing with the other 12 payloads for limited power, 
downlink time, and general attention. Assuming that suitable, alternate 
exercise and experimentation venues can be identified, the current 
delay associated with TACSAT-2 is also eating into any residual 
operational capability that may exist. Navy is anxious to experiment 
with the STRATCOM ORS CONOPS after the ACTD and MUA requirements have 
been met. Progress is being made to resolve the issues currently 
hindering experimentation and testing of the TIE and imagery payloads, 
and we are hopeful that viable interim solutions will be in place 
soonest as everyone works toward a long-term solution. The potential 
operational impact of these experimental payloads cannot be overstated 
and would be effectively utilized by Navy as we conduct global 
operations and continue to build regional and global Maritime Domain 
Awareness (MDA).

                         STARFIRE OPTICAL RANGE

    13. Senator Bill Nelson. Dr. Sega and General Chilton, could you 
please explain the full purpose of the Starfire Optical Range (SOR) in 
New Mexico?
    Dr. Sega. SOR is part of the AFRL and is located on Kirtland Air 
Force Base, NM. For over 20 years, SOR has been the premier DOD site 
for the development of atmospheric compensation technologies and 
related advanced optical and beam control technologies. The principal 
activities of the SOR include improving SSA research and development, 
and the understanding of laser propagation through various atmospheric 
conditions.
    General Chilton. The SOR is the U.S. premier research facility on 
adaptive optics and ground-based imaging research, and developing new 
ways to detect, track, and identify objects in space. It is an AFRL 
facility and is not funded by AFSPC. AFSPC works closely with the SOR 
to help evaluate emerging technologies for potential integration into 
operational SSA missions. The activities at SOR which interest AFSPC 
are active tracking, small object detection, low earth orbit object 
characterization and deep space imaging. The integration of adaptive 
optics and low power solid state lasers, enables SOR to measure the 
turbulence in the atmosphere and ``adapt'' the optics within the 
telescope to collect very good, high resolution imagery of space 
objects from the ground. This imagery can be used for anomaly 
resolution, low earth orbit characterization and small/dim threat 
detection (such as micro-satellites). Historically, the SOR (and its 
sister site at Maui) have been limited to operating when the site is in 
the dark and the objects are lit by the sun. This limited timeframe 
severely limits the amount of satellite passes the SOR (or Maui) can 
track or image. Today, the SOR is working to develop new imaging 
technologies which could pioneer good quality day and night imaging and 
tracking data, giving the United States its only 24/7 ground-based 
optical SSA mission. AFSPC hopes to transition these efforts in the 
near future.

    14. Senator Bill Nelson. Dr. Sega and General Chilton, is the SOR 
laser being developed for possible use as a laser weapon to damage, 
disable, or destroy satellites?
    Dr. Sega. No, the lasers located at the SOR are low power lasers 
used for tracking space objects and in developing advanced beam control 
technology for imaging applications. This equipment does not generate 
enough energy for weapons class applications. SOR also has an extensive 
Predictive Avoidance System to ensure it is operated in a safe manner.
    General Chilton. No, the lasers located at SOR are low power lasers 
used for tracking space objects and correcting for atmospheric 
turbulence while tracking or imaging. This equipment does not generate 
enough energy for weapons class applications. Even so, SOR has an 
extensive Predictive Avoidance System to ensure it is operated in a 
safe manner. There is no existing weapon system and there are no plans 
to build one using the SOR equipment.

    15. Senator Bill Nelson. Dr. Sega and General Chilton, are the 
adaptive optics being used to increase the power of the laser?
    Dr. Sega. Adaptive optics are used to remove distortions in the 
optical path resulting in a more uniform phase front and sharper image.
    General Chilton. The current SOR equipment configuration does not 
propagate either of the low power tracking or atmospheric compensation 
lasers through the adaptive optics system. Transmitting a laser through 
an adaptive optics system would require significant modification to the 
optics beam train and the facility itself. It is important to add a 
technical note: adaptive optics would not increase the power of the 
laser in any case. The adaptive optics system could increase the amount 
of energy transmitted by correcting for atmospheric turbulence, but the 
power of the laser is fixed upon installation.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor

                      CHINESE ANTI-SATELLITE TEST

    16. Senator Pryor. General Chilton, I found our conversation in my 
office recently very interesting, specifically the issues surrounding 
the kinetic ASAT test conducted by China earlier this year. I am 
extremely concerned about the implications this test has had toward our 
national security, particularly given the fact that many of our 
military and weather satellites are operating in the same low earth 
orbit as the destroyed Chinese weather satellite. What are your 
concerns and how are we responding to this incident?
    General Chilton. My top priority is providing Maj Gen Shelton, 
Commander of JFCC-SPACE, with the SSA he requires to effectively 
operate and protect our space systems. With our Nation's growing 
dependency on capabilities provided from all orbital regimes, it 
becomes increasingly important that we identify, characterize, and 
defeat any threat to our space systems. Equally important, we must 
attribute who or what caused any interruption or loss of capability. 
Without adequate SSA, key leaders are denied the information they need 
to employ the full range of political, economic, or military options to 
deter or counter space threats.
    To address this concern, we are advancing key programs. In fiscal 
year 2008, we begin development on an ISSA program, replacing our 1990s 
vintage Space Defense Operations Computer with a net-centric, services-
oriented architecture that will provide the combatant commanders and 
national users with actionable information on launches, satellite 
breakups, maneuvering objects, and reentries. The RAIDRS Block 20 
program will fuse and exploit ISSA data, enabling JFCC-SPACE to better 
protect critical space assets and respond to emerging threats.

                              SPACE DEBRIS

    17. Senator Pryor. General Chilton, we also talked about the unique 
implications of space debris. I understand the significance a piece of 
debris, even the size of a penny, has on orbiting satellites or even 
space operations. Is there any international governing body that 
monitors these debris fields, and what kind of reprisal, if any, may be 
levied upon a country that irresponsibly contributes to the pollution 
of space?
    General Chilton. There is no international governing body that 
monitors debris. Only the United States and the Russian Federation have 
debris catalogues. The U.S. system is superior to the Russian's. The 
European Space Agency is considering proposals to develop its own 
monitoring system and catalogue, but has not done so. Many space-faring 
countries have individual sensors that are able to detect or track 
debris, but do not have a continuous or comprehensive system for debris 
cataloging. The Interagency Debris Coordination Committee (IADC) is an 
international body with representatives from all the major space-faring 
countries. The IADC created guidelines that help mitigate the debris 
problem, but the IADC does not have the mandate or the resources to 
monitor debris.
    There are no enforceable legal mechanisms in place to deter 
countries from creating large debris fields. The existing legal regime 
could, under certain circumstances, result in a country being liable 
for damage it causes in outer space, but only if there was some 
negligence or fault. The act of creating debris, by itself, is not 
specifically regulated by existing international law, including 
treaties, governing activities in outer space. In June 2007, the 
Committee on the Peaceful Uses of Outer Space (COPUOS), the United 
Nations' body that makes recommendations to the General Assembly 
concerning activities in space, will consider a report proposing non-
binding debris-mitigating measures. One of the measures suggests 
avoiding intentional destruction of space objects, and when necessary, 
conducting those activities only at very low altitudes to limit the 
lifetime of the debris.

                 UNITED STATES SPACE COMMAND RETENTION

    18. Senator Pryor. Dr. Sega, I can imagine the United States Space 
Command requires unique and specifically qualified personnel with the 
appropriate technical foundations to effectively carry out the mission. 
What challenges do you have with recruitment and retention?
    Dr. Sega. Attracting and retaining good people is a continuing 
focus of the NSS community. The Space Professional Oversight Board 
(SPOB) provides the overall DOD oversight and includes participation of 
organizations outside of the DOD. Additionally, the National Defense 
Education Program (NDEP) provides scholarship opportunities in math, 
science, and engineering to support the development of a technical 
workforce in critical disciplines across the DOD.
    The Commander of Air Force Space Command (General Chilton) is the 
Space Professional Functional Authority (SPFA) for the Air Force, and 
is responsible for the health of the Air Force Space Professional 
Community. He has also established a SPFA Advisory Council, which 
provides recommendations on policy and guidance that directly impact 
space personnel development. Assignment policies are currently being 
reviewed with a focus on accurate placement of technically qualified 
officers in positions that effectively use their skills in challenging 
jobs throughout their careers. Also, educational opportunities are 
being expanded through the National Security Space Institute (NSSI) and 
military/civilian institutions to enhance individual competencies and 
help Air Force Space Professionals achieve educational and training 
goals.

                        FUNDING SPACE OPERATIONS

    19. Senator Pryor. Dr. Sega, could you explain your request for 
incremental funding for space operations?
    Dr. Sega. The Air Force would like the flexibility to implement an 
alternative funding approach for its major space systems that require 
uninterrupted continuity of service. Incrementally funding the 
procurement for major space programs in areas such as missile warning; 
strategic communication; and position, navigation, and timing, is one 
approach to achieving better budget stability across the space 
portfolio. Another viable solution could be to increase the number of 
satellites that can be developed using RDT&E funding.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions

                     OPERATIONALLY RESPONSIVE SPACE

    20. Senator Sessions. Dr. Sega, with regard to ORS, I wanted to ask 
you about the role that you envision for the Army. The Army is the most 
intensive user of space-based capabilities. I am concerned because the 
Army's definition of ``operationally responsive'' is likely to be 
different from that of the Air Force. Without Army engagement early in 
the process, ORS may produce capabilities that are too slow or 
otherwise not sufficiently focused on the needs of warfighters on the 
ground. I want to make sure that the ORS program remains true to the 
mission of supporting the joint tactical warfighter and not evolve into 
a strategic gap filler. Does the recently prepared DOD report on ORS 
include a discussion of the Army's role, specifically the role of the 
Army SMDC?
    Dr. Sega. Yes, the Army SMDC has been heavily involved in ORS 
efforts, highlighted in the ``Plan for Operationally Responsive Space'' 
submitted to Congress on April 17, 2007, which states, ``The TACSAT 
Demonstration Program, with participation from the AFRL, NRL, the 
Army's SMDC, and AFSC is the principal test bed for proving out the 
technologies required to develop and field future ORS space 
capabilities.'' The SMDC provides planning, integration, control, and 
coordination of land forces' exploitation of space capabilities. SMDC 
will contribute a land component warfighting perspective essential to 
guiding the choices for ORS and ensuring emerging capabilities are 
relevant and suitable to ground troops.
    The DOD, with participation from all Services and multiple 
government agencies, has defined ORS as the ability to rapidly develop 
and field space capabilities that satisfy the needs of the JFC.
    On May 21, 2007, a joint ORS Office was stood up at Kirtland Air 
Force Base, New Mexico, to engage with Services early in the 
acquisition process and to produce solutions tailored to the 
warfighters. The plan is for joint participation, from all the 
Services, organizations involved in space development activities, and 
users of space capabilities in ORS.

    21. Senator Sessions. Dr. Sega, what conclusions did the report 
team reach?
    Dr. Sega. A joint/interagency team prepared the ``Plan for 
Operationally Responsive Space,'' which was signed out by the Deputy 
Secretary of Defense to Congress on April 17, 2007. This plan 
highlighted several points that are important in establishing a common 
understanding of steps necessary to implement ORS. Some of these 
highlights are:

          A community-wide effort is essential to develop and execute a 
        comprehensive plan for ORS. This includes defense, 
        intelligence, and civil agency participation with perspectives 
        from warfighters, operators, scientists, developers, and 
        acquirers.
          The stand-up of the ORS office and the acquisition of ORS 
        capabilities must champion the intent to develop, acquire, 
        field, and employ space capabilities in shortened timeframes in 
        more affordable ways that are directly focused on the end 
        users. Additionally, the ORS office must be more than a program 
        office and should take on the role of integrator of ORS efforts 
        throughout the community.
          The scope of ORS is more than rapid launch and small 
        satellites, and should emphasize a tiered approach to improving 
        responsiveness. This approach first employs existing 
        capabilities; second, deploys field-ready capabilities; and 
        third, develops new capabilities.
          ORS initiatives must be complementary to existing space 
        systems and capabilities.

    22. Senator Sessions. Dr. Sega, how are you going to ensure that 
ORS is a joint program?
    Dr. Sega. Leadership and oversight are critical to ensuring ORS is 
a joint program. We are developing the ORS office, which stood up at 
Kirtland Air Force Base on May 21, 2007, as a joint organization and we 
will also have a structure, the ORS Executive Committee (EXCOM), to 
provide continuing joint/interagency advice on how to best execute our 
ORS program. ``The Plan for Operationally Responsive Space'' (submitted 
to Congress on April 17, 2007) states that within the ORS office ``the 
positions will be staffed with trained personnel from all Services, 
agencies, and the Intelligence Community and the Reserve components.''

    23. Senator Sessions. Dr. Sega, specifically, how are you going to 
ensure balanced leadership and participation across the Services?
    Dr. Sega. We developed ``The Plan for Operationally Responsive 
Space'' (submitted to Congress on April 17, 2007) as a joint 
undertaking, with participation across the Services and several other 
organizations--inclusive of all interested stakeholders throughout the 
defense, intelligence, and civil space communities.
    The joint ORS office will be manned by representatives from across 
the Services and agencies. The success of the ORS concept is critically 
dependent on Army, Navy, Air Force, and Marine Corps involvement, as 
well as a balanced mix of expertise across the operations, science and 
technology, and acquisition communities.
    We are also implementing an ORS EXCOM, made up of senior leaders 
from across the NSS community, to include the Services and other 
government agencies, to provide ``strategic guidance and the senior-
level commitment required for success'' (reference ``The Plan for 
Operationally Responsive Space''). The EXCOM will be led by the 
Commander, United States STRATCOM) and the DOD EA for Space and will 
provide recommended ORS priorities for joint ORS efforts.

    24. Senator Sessions. Dr. Sega, the Army has requested that an Army 
officer be named as Deputy Director of the newly-established ORS 
Program Office. Do you expect that this request will be accepted?
    Dr. Sega. The ORS office was activated on May 21, 2007 and is 
currently in the process of staffing the organization's initial cadre. 
Once staffed, there will be a minimum of one Deputy Director within the 
office. As the ORS effort matures, there may be multiple Deputy 
Directors selected for the ORS office to achieve objectives, to balance 
the office's community representation, and to capture the breadth of 
expertise across the NSS community.
    We encourage each of the Services to nominate qualified candidates 
for the Deputy Director positions. These positions, along with all the 
military and civilian positions in the ORS office, are being defined 
this summer and detailed position descriptions are being written. In 
fact, the Army is actively participating in the effort to define the 
full-up ORS office staffing requirements, and will remain an important 
partner in improving the responsiveness of space capabilities to 
address the needs of our troops on the ground.

    25. Senator Sessions. Dr. Sega, who will ultimately decide how ORS 
roles, missions, and budgets are divided among the Services?
    Dr. Sega. From ``The Plan for Operationally Responsive Space'' 
(submitted to Congress on April 17, 2007):

          The ORS EXCOM will provide senior-level recommendation for 
        the ORS Director concerning personnel and resources from across 
        the NSS agencies, while providing strategic guidance and the 
        senior level commitment required for success.
          The DOD EA for Space will provide direct oversight of the ORS 
        Office and serve as the Service Acquisition Executive for the 
        Office's efforts. The DOD EA for Space will also convene the 
        ORS EXCOM in coordination with the Commander of the U.S. 
        STRATCOM (CDRUSSTRATCOM).
          The CDRUSSTRATCOM will provide operational oversight for all 
        ORS activities consistent with the UCP and other applicable 
        authorities.
          The responsibility of the ORS Director will be to serve as 
        the head of the Office and provide authority, direction, and 
        control over the personnel and resources in the ORS office. The 
        ORS Director will report to the DOD EA for Space.

    26. Senator Sessions. Dr. Sega, how will the ORS program office 
ensure that joint resources are made available for the other Services 
to develop concepts, technologies, sensors, and platforms?
    Dr. Sega. We intend that the requested ORS program budget, which 
will be augmented by funding from each of the Services and several 
other government agencies, will be used to fund the development, 
demonstration, acquisition, and deployment of ORS capabilities. We 
intend to use the entire NSS community to help develop concepts and 
solutions and then to execute this work using highly-qualified 
organizations. Additionally, an EXCOM, consisting of representatives 
from the Services and agencies involved in ORS, will provide senior-
level recommendations concerning how best to apportion resources to 
support identified priorities.

    [Whereupon, at 4:06 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

                              ----------                              


                         WEDNESDAY, MAY 2, 2007

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

          DEPARTMENT OF ENERGY ATOMIC ENERGY DEFENSE PROGRAMS

    The subcommittee met, pursuant to notice, at 2:39 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Bill 
Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators Bill Nelson, Sessions, 
and Thune.
    Majority staff member present: Madelyn R. Creedon, counsel.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; and Kristine L. Svinicki, 
professional staff member.
    Staff assistants present: Kevin A. Cronin and Jessica L. 
Kingston.
    Committee members' assistants present: Christopher Caple, 
assistant to Senator Bill Nelson; Todd Stiefler, assistant to 
Senator Sessions; and Jason Van Beek, assistant to Senator 
Thune.

       OPENING STATEMENT OF SENATOR BILL NELSON, CHAIRMAN

    Senator Bill Nelson. Good afternoon. We originally had this 
hearing scheduled in April, but we had to move it because of 
the Senate schedule at the time. Secretary Bodman was to be one 
of the witnesses, but he cannot be here today. He has 
graciously agreed to respond to any questions for the record 
that we want to submit.
    Welcome to James Rispoli, Assistant Secretary of Energy for 
Environmental Management, and Glenn Podonsky, the Chief Health, 
Safety, and Security Officer. Each of you has a prepared 
statement and it will be part of the official record. We are 
going to have a conversation here, so we do not want you 
reading testimony to us.
    Mr. Secretary, we look forward to hearing from you about 
the waste treatment plant project in Hanford, Washington, as 
well as the overall status of the Department's efforts to clean 
up and safely dispose of radioactive and other hazardous 
wastes.
    Mr. Podonsky, you head the newly created office with 
oversight responsibilities covering safety, security, and 
health, and we want to discuss some of the security issues 
today.
    [The prepared statement of Senator Bill Nelson follows:]

               Prepared Statement by Senator Bill Nelson

    Good afternoon. This hearing was originally scheduled for April 27, 
but because of the Senate schedule we had to move the hearing to today. 
Secretary Bodman was to be one of the witnesses, but unfortunately his 
schedule was unable to accommodate the new date. His prepared statement 
will be included in the record. Secretary Bodman has also graciously 
agreed to respond to any questions for the record that members might 
have.
    It is a pleasure to welcome James Rispoli, Assistant Secretary of 
Energy for Environmental Management, and Glenn Podonsky, the Chief 
Health, Safety, and Security Officer today.
    I note that each of you, has a prepared opening statement, and 
without objection, they will also be included in the hearing record.
    Secretary Rispoli, we look forward to hearing from you about the 
Waste Treatment Plant project at the DOE site in Hanford Washington, as 
well as the overall status of the Department's efforts to clean up and 
safely dispose of the radioactive and other hazardous wastes from the 
Cold War.
    Mr. Podonsky, you head a newly created office with significant 
oversight responsibilities, covering safety, security and health. Among 
other issues we would like to specifically discuss some of those 
security issues today.

    Senator Bill Nelson. Senator Sessions.

               STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. Thank you, Mr. Chairman. This is an 
important hearing for a lot of reasons. One is the cost that we 
will be spending through the Department of Energy (DOE) for 
defense programs.
    I welcome our witnesses today and thank you for your 
service. I would just note that in the Department's most recent 
financial statements as of September 30, 2006, life cycle cost 
of the environmental management (EM) program was reported as 
$173 billion over 30 years of work. I cannot express how 
frustrating it is to read this statement contained in Secretary 
Bodman's written testimony for this hearing.
    He said: ``The environmental management program has 
experienced setbacks. At the core of these setbacks are 
optimistic planning assumptions that have not materialized, 
combined with new scope and requirements that were not 
anticipated. As a result, EM estimates the life cycle cost of 
the program could increase by $50 billion.''
    This is a staggering cost increase. If any other defense 
program under the jurisdiction of this committee reported a 
cost increase of this magnitude, Senator Nelson would melt 
down, I suspect. In the world of nuclear environmental issues, 
however, we do not seem to be able to confront these issues 
effectively.
    Let us think about what even $10 billion in defense funding 
could buy. $10 billion is more than the entire annual budget of 
the Missile Defense Agency. With $10 billion the United States 
Navy could buy 40 Littoral Combat Ships, and 45 next generation 
refueling tankers.
    So I do not mean this totally in this fashion, but to 
blithely spring on Congress a $50 billion increase for a 
cleanup program is shocking to me. I believe we need to 
evaluate this fundamentally. I believe it is a policy debate 
also, not just a technical debate.
    The reality is that most of these sites will be locked away 
and inaccessible on Federal reservations for the foreseeable 
future. We have to deal with it. We have to have a cleanup 
program, and certainly rivers and bodies of water cannot be 
polluted. But I think we need to ask ourselves real carefully 
how we can manage such a huge financial cost.
    I will be asking some questions as we go forward about how 
the Department and the Secretary can challenge these numbers 
and rethink maybe what we are doing and see if we cannot bring 
down these costs substantially.
    There are a lot of other important issues, but that was one 
that was in my craw a bit. Thank you, Mr. Chairman.
    [The prepared statement of Senator Sessions follows:]

              Prepared Statement by Senator Jeff Sessions

    I would like to join Senator Nelson in welcoming our witnesses this 
morning. I appreciate the accommodation you both have made in 
rescheduling this hearing from last week. Although Secretary Bodman is 
not able to be here at this time, I understand that his testimony will 
be accepted for the record and members will be able to submit questions 
to him in writing.
    Today, the subcommittee will hear from two witnesses regarding 
significant elements of the Department of Energy (DOE). From Assistant 
Secretary James Rispoli, we will hear about the cleanup of DOE sites 
across the Nation through the Department's Environmental Management 
program. Mr. Podonsky will address the cross-culling issues and 
challenges he oversees as the Chief Health, Safety, and Security 
Officer of the Department.
    Assistant Secretary Rispoli, I appreciated the discussion we began 
in your appearance before the subcommittee last year, where we explored 
the cost and regulatory pressures within which you must address the 
environmental contamination and eventual cleanup of DOE sites. This is 
a tough challenge, from many different aspects, and the cost control on 
these projects has not been what many of us would desire. I am deeply 
concerned about the statement contained in Secretary Bodman's written 
testimony that the life cycle cost of the Environmental Management 
program may increase by approximately $50 billion due to ``optimistic 
planning assumptions that have not materialized combined with new scope 
and requirements that were not anticipated.'' This is a staggering cost 
increase. Let's think about what even $10 billion in defense funding 
could buy. Ten billion dollars is more than the entire annual budget of 
the Missile Defense Agency. With $10 billion, the U.S. Navy could buy 
40 Littoral Combat Ships, 45 next-generation refueling tankers, or even 
2 Nimitz-class aircraft carriers.
    I will continue to explore my concerns about the cost of this 
program, both in our hearing today, and as we proceed with the National 
Defense Authorization Bill. I hope your testimony will provide further 
information about this matter.
    Mr. Podonsky, you are the head of a newly formed organization 
within the Department, or perhaps more accurately, a new office which 
pulls together many existing health, safety and security functions 
within the Department. As I understand it, the objective in standing up 
this new office was to provide the Secretary of Energy with a more 
coherent view of the performance of his Department from the standpoint 
of safety, security, and worker health. I look forward to hearing your 
perspectives on whether this new organization is meeting the goals set 
out for it.
    When Secretary Bodman appeared before the full Armed Services 
Committee last year to testify on the DOE budget, I outlined a pretty 
hard-hitting assessment of the manner in which the Department was 
carrying out the programs assigned to it, and the improvement I thought 
was needed. After reflecting on my assessment, Secretary Bodman replied 
that he would agree with many of my criticisms--that the Department can 
and must do better. I appreciate that the Department has been working 
to improve its management and execution of projects by, for example, 
increasing the training and capability of project managers and 
contracting officers working at DOE. In my view, however, substantial 
challenges remain.
    I am still concerned about the cost and expectations for the DOE 
environmental cleanup program. In Washington State, the Environmental 
Protection Agency recently fined the Department of Energy over $1 
million in a regulatory dispute over the cleanup at Hanford. We have 
one part of the Federal Government fining another, and at the end of 
the day, it is all the same taxpayer money. We need to keep in mind 
what exactly the objectives for this cleanup really arc.
    Although Secretary Bodman could not be here today, his written 
testimony addresses the Reliable Replacement Warhead program. I believe 
that Congress should approve the next evaluation phase of the program, 
but I believe that DOE should examine the cost of this program very 
closely. In my view, this program should not be a vehicle for 
recreating a laboratory complex sized for Cold War missions. The 
Federal Government has a long history of pursuing weapons development 
programs that--we are told--are going to ``save money'' and then the 
savings get lost somewhere along the way.
    Let me again join our chairman in thanking our witnesses for their 
service and for appearing here today. I look forward to their testimony 
on these important matters.

    [The prepared statement of Secretary Bodman follows:]

              Prepared Statement by Hon. Samuel W. Bodman

    Chairman Nelson, Ranking Member Sessions, and members of the 
subcommittee, I am pleased to be with you this afternoon to present the 
President's fiscal year 2008 budget proposal for the Department of 
Energy (DOE).
    With programs such as the Reliable Replacement Warhead (RRW), Mixed 
Oxide Fuel Fabrication Facility (MFFF), Hanford Waste Treatment Plant 
and other defense related activities, the fiscal year 2008 budget seeks 
to meet the DOE's responsibilities in national security and 
environmental cleanup. Before I discuss these further I would like to 
take a moment to briefly mention the President's energy initiatives 
announced during the State of the Union. President Bush has called on 
this country to reduce gasoline usage by 20 percent in the next 10 
years. We have named this our ``Twenty in Ten'' plan and I urge you to 
support this ambitious proposal. America's oil dependence leaves us 
more vulnerable to hostile regimes as well as terrorists who target oil 
shipments to harm our economy.
    America will reach the President's ``Twenty in Ten'' goal by 
requiring the use of 35 billion gallons of renewable and alternative 
fuels by 2017, while also reforming the Corporate Average Fuel Economy 
standards for cars and extending the current light truck rule. In 2017, 
the combined savings of these measures are projected to reduce annual 
gasoline use by 20 percent.
    The President's plan eases threats posed to energy security by 
encouraging alternative fuels and environmentally sensitive domestic 
oil production, while also insuring against disruptions by doubling the 
current capacity of the Strategic Petroleum Reserve to 1.5 billion 
barrels by 2027.
    Coupled with the Advanced Energy Initiative and the American 
Competitiveness Initiative, which were launched a year ago, these 
proposals offer a strong plan to enhance America's future security, and 
I encourage members of the committee to join us in pursuing these 
proposals.
     highlights of the fiscal year 2008 department of energy budget
    The President's fiscal year 2008 budget reflects the Department's 
commitment to protect the United States as stewards of our Nation's 
nuclear weapons stockpile and to environmental cleanup. To highlight, 
the fiscal year 2008 budget for the DOE emphasizes investments that 
will:

        <bullet> Transform Our Nuclear Weapons Complex. The fiscal year 
        2008 budget reconfirms the DOE's steadfast commitment to the 
        national security interests of the United States through 
        stewardship of a reliable and responsive nuclear weapons 
        stockpile and by advancing the goals of global 
        nonproliferation. Through the National Nuclear Security 
        Administration (NNSA), the Department directs $6.5 billion in 
        this request for Weapons Activities, a $103 million increase 
        from the fiscal year 2007 request, to meet the existing 
        requirements for stewardship of the Nation's nuclear weapon 
        stockpile, technologies and facilities, as well as to continue 
        to revitalize the nuclear weapons complex with the goal of a 
        much smaller size by 2030. To do so, we developed a 
        transformation concept and vision, the cornerstones of which 
        are ``Complex 2030'' and the RRW. We are moving forward to 
        implement this strategy now, bringing us closer to achieving an 
        even smaller stockpile that is not only safer and more secure, 
        but one that also reduces likelihood of United States 
        underground nuclear testing. Ultimately, this approach enables 
        a much more responsive nuclear weapons infrastructure.
        <bullet> Reduce the Risk of Weapons of Mass Destruction (WMD) 
        Worldwide. The fiscal year 2008 budget provides $1.7 billion 
        for Defense Nuclear Nonproliferation, for a comprehensive set 
        of programs to meet our commitment to detect, prevent, and 
        reverse the proliferation of WMD in close cooperation with our 
        partners around the world. This program is an administration 
        priority and while the funding amount shows a 3 percent 
        decrease, this reflects accelerated completions in fiscal year 
        2007. Further, the request provides significant out-year growth 
        to fulfill our international agreements and accelerate our work 
        to reduce the risk of WMD threats. Among many advances, the 
        fiscal year 2008 budget for example will further our work in 
        the Megaports program by initiating the installation of 
        radiation detection equipment at the Port of Hong Kong.
          Because keeping terrorists from acquiring materials will be 
        easier if we limit enrichment of uranium or reprocessing of 
        spent fuel, the President proposed in 2004 a new initiative, 
        the Global Nuclear Energy Partnership (GNEP), which would 
        provide nations which refrain from developing or deploying 
        enrichment and reprocessing technology assured access to the 
        benefits of nuclear power.
        <bullet> Meet Our Commitments to Public Health and Safety and 
        the Environment. During my first days at the DOE, I announced 
        safety as my top priority and the number one operating 
        principle of the Department. To implement this vision, we 
        created a new Office of Health, Safety, and Security. As I said 
        at the time, ``As Secretary of Energy, ensuring the safety of 
        workers across the DOE complex is my top priority and this new 
        office will go a long way in strengthening our safety and 
        security organization. We must be world class not only in how 
        we carry out our mission, but in the safe, secure, and 
        environmentally responsible way in which we manage operations 
        at our facilities across the country.'' The organization's 
        fiscal year 2008 budget request of $428 million, builds on a 
        number of actions the Department has taken over the past 2 
        years to increase safety of DOE workers.
          The fiscal year 2008 budget includes $5.4 billion for 
        defense-related Environmental Management (EM) programs to 
        protect public health and safety by cleaning up hazardous, 
        radioactive legacy waste left over from the Manhattan Project 
        and the Cold War. Past investments have resulted in the 
        completed clean up of 81 sites through the end of fiscal year 
        2006, including Rocky Flats, Colorado, and a total of 86 sites 
        by the end of fiscal year 2007, including the Fernald site in 
        Ohio, which was completed in January 2007. This budget allows 
        the program to continue to make progress towards cleaning up 
        and closing sites and focuses on activities with the greatest 
        risk reduction.
          As the Department continues to make progress in completing 
        clean up, the fiscal year 2008 budget request of $159 million 
        for Legacy Management (LM) supports the Department's long-term 
        stewardship responsibilities and payment of pensions and 
        benefits for our former contractor workers after site closure.
          In light of the increased number of sophisticated cyber 
        attacks directed at all facets of our communities, from 
        military to civilian to private users, the Department is taking 
        significant steps to secure the virtual pathways and mitigate 
        the threat from cyber intrusions. Implementing these steps will 
        be seamless and will not interrupt the availability of 
        information systems resources while preserving the 
        confidentiality and integrity of the information and their 
        contents. A budget request of $170 million in fiscal year 2008 
        supports the Department's efforts to defend against emerging, 
        complex cyber attacks. Through these efforts, the Department 
        will be in a better position to effectively manage and monitor 
        cyber risk across the complex. In fiscal year 2008, DOE will 
        increase support on a Department-wide basis to deploy new 
        cybersecurity tools and cybersecurity management activities to 
        detect, analyze, and reduce the threat across the complex.

                  ENSURING AMERICA'S NUCLEAR SECURITY

    The President, in his first days in office, was faced with the new 
and challenging realities of national security in the 21st century. The 
war on terror has substantially and fundamentally reshaped the national 
security programs and activities in the Department. This budget of 
$24.3 billion for the Department is an important component of the 
President's strategy to address some of these very important issues 
facing our Nation. Within the $24.3 billion request in fiscal year 
2008, $9.4 billion or 39 percent is proposed to support DOE's 
contribution to the Federal Government-wide effort to ensure the 
security of our Nation.
    The NNSA continues significant efforts to meet administration and 
secretarial priorities leveraging science to promote national security. 
The fiscal year 2008 budget proposes $9.4 billion to meet defense and 
homeland security-related objectives. The budget request maintains 
current commitments to the nuclear deterrence policies of the 
administration's Nuclear Posture Review (NPR). To implement those 
policies for the long-term, NNSA has established a new planning 
scenario, ``Complex 2030'', to guide the transformation of the complex. 
The fiscal year 2008 budget also continues to fund a high profile 
strategy to mitigate throughout the world the threat of weapons of mass 
destruction, and provides for the nuclear propulsion needs of the U.S. 
Navy. Key investments include:

        <bullet> Transforming the nuclear weapons stockpile and 
        infrastructure while meeting Department of Defense (DOD) 
        requirements, through the RRW and other Complex 2030 
        initiatives;
        <bullet> Conducting innovative programs in the Nations of the 
        former Soviet Union and other countries to address 
        nonproliferation priorities;
        <bullet> Supporting naval nuclear propulsion requirements of 
        the U.S. Navy;
        <bullet> Maintaining comprehensive security for facilities, 
        employees and information implementing and sustaining upgrades 
        throughout the complex;
        <bullet> Providing nuclear emergency response assets in support 
        of homeland security;
        <bullet> Reducing the deferred maintenance backlog and 
        achieving facility footprint reduction goals; and,
        <bullet> Providing corporate management and oversight for NNSA 
        programs and operations.

    The United States continues a fundamental shift in national 
security strategy to address the realities of the 21st century. The 
administration's NPR addressed a national security environment in which 
threats may evolve more quickly and be less predictable and more 
variable than in the past. The NPR recognizes the need to transition 
from a threat-based nuclear deterrent with large numbers of deployed 
and reserve weapons, to a deterrent consisting of a smaller nuclear 
weapons stockpile with greater reliance on the capability and 
responsiveness of the DOD and NNSA infrastructure to respond to 
threats. The NNSA infrastructure must be able to meet new requirements 
in a timely and agile manner while also becoming more sustainable and 
affordable. The DOE has created a plan for a revitalized nuclear 
weapons complex called ``Complex 2030''. This significantly more agile 
and responsive complex will allow further reductions in the nuclear 
stockpile by providing an industrial hedge against geopolitical or 
technical problems and will reduce security costs by consolidating 
nuclear materials. The fiscal year 2008 President's budget contains 
some of the resources required for transformation of the complex in 
ongoing base program activities that are already underway and 
contributing to Complex 2030 objectives. The administration is still 
studying plans and funding projections for other parts of the effort.
    The fiscal year 2008 budget request of $6.5 billion for Weapons 
Activities includes all programs to meet the immediate needs of the 
stockpile, stockpile surveillance, annual assessment, and life 
extension programs. On November 30, 2006, the Nuclear Weapons Council 
determined that the RRW program was feasible as a means for sustaining 
the long-term safety and reliability of the Nation's nuclear deterrent 
force. This shift in strategy from a Life Extension Program to a RRW 
program will require substantial planning and resource realignments by 
the DOD and DOE. The campaigns are focused on long-term vitality in 
science and engineering and on research and development (R&D) 
supporting current and future stockpile stewardship and DOD 
requirements. A number of these NNSA programs and facilities also 
support scientific research users from other elements of the 
Department, Federal Government, and the academic and industrial 
communities. Within the Nuclear Weapon Incident Response programs, a 
new National Technical Nuclear Forensics R&D and operations program is 
established, as well as a stabilization program through leveraged 
render safe R&D development of first generation equipment in support of 
homeland security. NNSA's Safeguards and Security activities are also 
encompassed within the request for Weapons Activities. The Defense 
Nuclear Security program supports the physical security needs at NNSA 
sites. These activities increase by 17 percent to sustain base program 
increases associated with the fiscal year 2003 design basis threat 
(DBT) upgrades, and a revised schedule for 2005 DBT implementation at 
NNSA sites. Cybersecurity activities, protecting information and 
information technology infrastructure, increase by over 15 percent. 
This will provide for the first step in a major 5-year effort focused 
on revitalization, certification, accreditation, and training across 
the NNSA complex.
    Preventing weapons of mass destruction from falling into the hands 
of terrorists and rogue states is one of this administration's top 
national security priorities. The fiscal year 2008 request of $1.67 
billion for nuclear nonproliferation activities strongly supports the 
international programs that are denying terrorists and rogue states the 
nuclear materials, technology and expertise needed to develop or 
otherwise acquire nuclear weapons. NNSA continues unprecedented efforts 
to protect the U.S. and our allies from threats, including $265 million 
for cutting-edge nonproliferation R&D for improved technologies to 
detect and monitor nuclear proliferation and nuclear explosions 
worldwide. There are additional major efforts focused on potential 
threats abroad. For example, in the area of nuclear material protection 
and cooperation the program has completed security upgrades for Russian 
navy nuclear fuel and weapons storage at the end of fiscal year 2006 
and will complete security upgrades for Rosatom facilities by the end 
of fiscal year 2008. Also by the end of fiscal year 2008, the program 
will complete security upgrades at the nuclear warhead sites of the 
Russian Strategic Rocket Forces and the 12th Main Directorate. To help 
complete the shutdown of three Russian nuclear reactors still producing 
1.2 metric tons of plutonium per year and to replace them with 
conventional fossil fuel power plants, this budget request includes 
$182 million for the Elimination of Weapons Grade Plutonium Production 
program.
    Moreover, the RRW approach reinforces our nonproliferation 
commitments and objectives. Designed with more favorable performance 
margins that are less sensitive to incremental aging effects, these 
warheads would reduce the necessity of nuclear tests for the United 
States to diagnose or remedy a stockpile reliability problem. This will 
bolster efforts to dissuade other countries from testing. Furthermore, 
once a transformed production complex demonstrates that it can produce 
replacement warheads on a timescale to meet emerging geopolitical 
threats, or timely respond to technical problems in the stockpile, then 
we can eliminate many spare warheads and further reduce the nuclear 
stockpile. The RRW strategy will allow us to increase our warhead 
dismantlement rate, sending a strong message to the world that we are 
taking meaningful steps towards further stockpile reductions. 
Additionally, increased confidence in the U.S. nuclear deterrent will 
assure allies and obviate their need to bolster nuclear forces. 
Finally, the improved security features of RRW will prevent 
unauthorized use should a warhead ever fall into the hands of 
terrorists.
    The budget request includes $609 million to support Fissile 
Material Disposition activities. Of this amount, $334 million is 
requested for the U.S. Mixed Oxide Fuel Fabrication Plant project at 
DOE's Savannah River Site in South Carolina. This facility will dispose 
of 34 metric tons of U.S. surplus plutonium and facilitate complex-wide 
consolidation of nuclear material. On April 11, the Deputy Secretary 
approved CD-2, the performance baseline, and CD-3, the start of 
construction, August 1, 2007, for the MFFF project at Savannah River 
Site. As per the restriction in the revised fiscal year 2007 Continuing 
Resolution (Public Law 20-110-5), no construction activities will be 
initiated prior to August 1, 2007, under the authorized limited 
preconstruction activities.
    Various programs funded by NNSA's Defense Nuclear Nonproliferation 
appropriation support the President's Bratislava Nuclear Security 
Cooperation initiative (about $293 million) including security upgrades 
at Russian nuclear warhead sites, and also support the Global 
Partnership against the Spread of WMD ($537 million) to meet the U.S. 
commitment to the G8 nations. In coordination with the Office of 
Nuclear Energy, the budget request also includes $10 million to support 
the GNEP, which is focused on advanced safeguards technology 
development that is crucial to the ultimate success of the GNEP 
initiative.
    NNSA continues to support the United States Navy's nuclear 
propulsion systems. The fiscal year 2008 request of $808.2 million is 
an increase of 1.6 percent over the fiscal year 2007 request level. The 
funding increase assists the Naval Reactors program to ensure the safe 
and reliable operation of reactor plants in nuclear-powered submarines 
and aircraft carriers and fulfills the Navy's requirements for new 
nuclear propulsion plants that meet current and future national defense 
requirements.
protecting the environment by providing a responsible resolution to the 

           ENVIRONMENTAL LEGACY OF NUCLEAR WEAPONS PRODUCTION

    The Federal Government must address the legacy of our past and our 
responsibility to the American taxpayers to provide a clean, safe, and 
healthy environment to live in. A total of $6.34 billion is dedicated 
in fiscal year 2008 to support the three key pillars that set the 
framework for the Department to reach that goal. The first pillar is to 
continue our environmental cleanup ($5.4 billion) of contaminated Cold 
War sites across the country. The second pillar is to continue to 
provide site post-closure management and to carry out our 
responsibilities ($194 million) to our former contractor workers. The 
third pillar completes the framework by working to construct a 
permanent nuclear waste repository at Yucca Mountain ($494.5 million) 
to address long-term nuclear waste disposal and for authorization of 
which the Department will submit a License Application to the Nuclear 
Regulatory Commission not later than June 30, 2008. It goes without 
saying that my core principle of safe operations throughout the 
Department will be applied with vigor within this framework.
    To deliver on the Department's cleanup obligations stemming from 50 
years of nuclear research and weapons production during the Cold War, 
the EM program continues to focus its resources on the highest health, 
safety, and environmental risks, such as treatment of over 90 million 
gallons of radioactive liquid waste stored in decades old tanks; 
disposition of thousands of metric tons of special nuclear material 
(surplus weapons-grade uranium and plutonium), spent nuclear fuel, and 
solid waste stored in older facilities that do not meet today's 
environmental requirements; and remediation of contaminated soil and 
groundwater. Up through fiscal year 2007, DOE will have completed 
cleanup of 86 of 108 legacy nuclear waste sites, with another three 
site cleanup completions--the Pantex Plant in Texas; Lawrence Livermore 
National Laboratory--Site 300 in California, and the Inhalation 
Toxicology Lab in New Mexico--planned for completion in fiscal year 
2008.
    In fiscal year 2008, the budget includes $5.4 billion to continue 
cleanup, giving priority to those activities that offer the greatest 
risk reduction while staying focused on completing cleanup and closing 
sites. This is a reduction from the fiscal year 2007 request of $173 
million, which in part reflects completion of some sites, but also 
reflects hard choices that must be made. Safety remains the utmost 
priority. EM is committed to applying my safety principles and will 
continue to maintain and demand the highest safety performance to 
protect the workers and the communities where EM operates.
    In keeping with the principles of reducing risks and environmental 
liabilities, the fiscal year 2008 request of $5.4 billion will support 
the following priority activities:

        <bullet> Stabilizing radioactive tank waste in preparation for 
        treatment (about 37 percent of the fiscal year 2008 request);
        <bullet> Storing and safeguarding nuclear materials and spent 
        nuclear fuel (about 19 percent of the fiscal year 2008 
        request);
        <bullet> Dispositioning transuranic, low-level and other solid 
        wastes (about 16 percent of the fiscal year 2008 request);
        <bullet> Remediating major areas of our sites and 
        decontamination and decommissioning excess facilities (about 19 
        percent of the fiscal year 2008 request).

    One of the significant cleanup challenges the EM program faces is 
the construction of the Hanford Waste Treatment and Immobilization 
Plant (WTP), which will treat highly radioactive tank waste at Hanford. 
WTP has encountered significant technical and project management 
problems, which have caused the project to slow down while the problems 
were addressed. With the help of senior professionals from private 
industry, academia and other Government agencies, EM has undertaken an 
intensive review scrutinizing key elements of the project, including 
the technology, cost and schedule, project management, project 
controls, and earthquake seismic criteria. In December 2006, the 
Department approved a revised, validated baseline of $12.3 billion for 
WTP. The Department believes WTP is now back on a sound technical and 
project management footing, and is ready to move forward.
    Despite numerous accomplishments and successfully accomplishing 
site completions, the EM program has experienced setbacks in achieving 
its vision of accelerated cleanup. At the core of these setbacks are 
optimistic planning assumptions that have not materialized, combined 
with new scope and requirements that were not anticipated. As a result, 
EM estimates the lifecycle cost of the program could increase by $50 
billion. EM continues to take steps to address challenges and improve 
the effectiveness and efficiency of its operation. The Department 
remains committed to completing this important and necessary mission.
    After the EM program completes cleanup of closure sites, with no 
further DOE mission, post closure stewardship activities are 
transferred to the Office of LM. Post closure stewardship includes 
long-term surveillance and maintenance activities such as groundwater 
monitoring, disposal cell maintenance, records management, and 
management of natural resources at sites where active remediation has 
been completed. At some sites the program includes management and 
administration of pension and benefit continuity for contractor 
retirees. In fiscal year 2008, $194.2 million is requested to carry out 
legacy management functions at both civilian and defense-related sites. 
The majority of the funding is for long-term stewardship activities and 
pension and post-retirement benefits for former contractor employees at 
the Rocky Flats, Colorado, and the Fernald, Ohio, closure sites.

                               CONCLUSION

    I appreciate the opportunity to appear before you to present the 
fiscal year 2008 budget proposal for the DOE. I will be happy to take 
any questions that members of the subcommittee may have.

    Senator Bill Nelson. Mr. Secretary?

  STATEMENT OF HON. JAMES A. RISPOLI, ASSISTANT SECRETARY OF 
              ENERGY FOR ENVIRONMENTAL MANAGEMENT

    Mr. Rispoli. Thank you, Mr. Chairman. I interpreted that 
you would prefer we not read our oral statements and that is 
fine. So I thank you, Mr. Chairman and Senator Sessions, for 
having us here today to go over our program.
    Let me just start by addressing the overall program, if I 
may, and both your point on the waste treatment plant and 
Senator Sessions' point on the overall cleanup status.
    If I may, I can start by assuring you that it is not 
business as usual and it is not business as before. We, too, 
are very concerned with the cost of the program. We are doing 
some things that have never been done before. For example, we 
are independently auditing with both the technical and 
financial people the cost of all the projects that make up our 
program. Never been done before, 56 percent of our program has 
passed that independent audit.
    This helps us to ensure that the assumptions and the costs 
that we use are reasonable, and I can----
    Senator Sessions. 56 percent passed?
    Mr. Rispoli. Yes, sir, have been passed. Now, more than 56 
percent have been looked at, but we are still working to answer 
questions and issues on others, because part of our problem has 
been in the past that we have made unreasonable assumptions, 
and if those assumptions do not come true the costs go up, or 
in other cases the estimates are too high and we have to adjust 
them to the right amount. So this is one element that has never 
been done before, taking the entire EM program and subjecting 
it to an independent audit by outsiders that have no play in 
the game. They are not the normal stable of contractors. These 
are totally independent groups that go in and look at our 
projects.
    On the management side, once we believe we have a handle on 
the costs--and again, that is a major effort, to do that--we 
have instituted a much more rigorous management focus using 
project management techniques that are standard in the country. 
This has not been done before. The types of elements that are 
in this are monthly reporting with oversight by a separate 
office not in my organization. A separate office looks at 
monthly reports and reports to my boss, the deputy secretary, 
on whether they think we are managing our projects well or not.
    I get those reports, too. I do a quarterly face-to-face 
review with all of our people in the field. They either come to 
the headquarters for the most part or we tie them in by video 
teleconference, and we review each one of our projects. It is 
an extensive effort once a quarter. It takes the better part of 
2 weeks with huge blocks of time to review these, to make it 
clear to our people in the field that we have a tight rein on 
the way we execute these projects.
    Related to that, we are currently in the midst of doing a 
competency assessment of our own people in the field, because 
our own people, although we have worked at getting them 
certified as project managers, they still are missing some of 
the competencies that we believe they need. We are in the midst 
of assessing that so that we can provide that type of on-site 
assistance to them, for example cost control or schedule 
control. If they do not have those things we want to provide 
that.
    So this is not an inspector general (IG) type of a review. 
This is a review to provide better staffing for the feds at the 
site to provide better, more robust oversight of the 
contractors.
    So the first element is the independent audits. The second 
is the more intense project management focus. The third is, as 
you might be aware, we have created a new organization for 
acquisitions in the Department at headquarters so that we can 
do a better job of writing these contracts with better 
incentives for the contractors to come in under budget or below 
cost.
    So it is not business as before. All of these are major 
focus areas for us. They are all with the purpose of getting 
better cost estimates to start with and then have more credible 
management as we go forward.
    That is for the overall program. If you like, I can address 
the waste treatment plant as well, which is our largest single 
project. As you know, its estimate as validated by the Army 
Corps of Engineers independent review is $12.2 billion. That 
$12.2 billion clearly makes it the Department's largest capital 
project. It is an extensive plant that is designed to empty and 
treat liquid tank wastes in 177 tanks at the Hanford 
Reservation.
    It costs us over $200 million a year just to manage those 
tanks and keep them safe. So it is not a good long-term answer, 
because the worry always is, of course, that the tanks may leak 
over time and put this radioactive liquid waste into the 
ground. But also, in order to once and for all end the problem, 
the plan is that we would process all of that waste through 
this plant that is under construction. It is about 30 percent 
complete at this time.
    The plant will basically take the high-level fraction and 
vitrify it into glass logs that would go to Yucca Mountain, and 
the low activity waste fraction would also go into glass logs, 
for on-site disposal. So there is an element here that would 
remain on the site, which will save the taxpayers a great 
amount of money. But the amount of radioactivity left on the 
site would be minimized by separating the waste into the high-
level waste fraction and the low activity waste fraction.
    As I mentioned, that plant is now 30 percent done. It has 
been reviewed by the Army Corps of Engineers. We are still 
working through a number of technical issues, but we have had 
an independent team of what we call the best and brightest 
experts review the technical aspects of the plant. They have 
told us in writing that they believe the plant will work.
    We are still working through some of the issues they 
identify, but none of them are considered to be show-stoppers. 
I would say that at this point in time we are a world away from 
where we were last year when we were in the same cycle for the 
budget; I mentioned only two, but when these reviews had not 
yet been done.
    There have been many more reviews of that plant, but I will 
tell you that we have a high degree of confidence that we can 
build this plant for the price tag attached to it. I will also 
tell you that $12.2 billion has a very large amount of 
contingency in it because the project is so long.
    So the idea would be that there is enough room in there to 
bring it in for less than $12.2 billion, because about $3 
billion of that is contingency. The idea being, again, that we 
want to be sure that we have enough room to solve the remaining 
issues, or even unknown issues should they arise, and deliver 
this plant as committed to in our budget to Congress.
    So that is an overview of the waste treatment plant. I 
would be happy to answer any more detailed questions you might 
have on any aspect of that.
    [The prepared statement of Mr. Rispoli follows:]

              Prepared Statement by Hon. James A. Rispoli

    Good afternoon, Chairman Nelson and members of the subcommittee. I 
am pleased to be here today to address and answer your questions on the 
President's fiscal year 2008 budget request for the Department of 
Energy's Environmental Management (EM) program. I want to thank the 
subcommittee for its support of the EM program.
    The EM mission was undertaken to address the safe and successful 
cleanup of the Cold War legacy brought about from five decades of 
nuclear weapons development and government-sponsored nuclear energy 
research. This mission, as I pointed out last year, is both inherently 
challenging and innately beneficial to the American people. As this 
subcommittee knows the EM program has solved several cleanup 
challenges, including Rocky Flats and Fernald, that at one time seemed 
insurmountable. We are also making progress on the many other complex 
challenges that the program still faces. Since I last appeared before 
this committee, EM has been able to achieve notable results by 
addressing these challenges through a risk reduction and prioritization 
strategy and a judicious use of the resources that Congress entrusts to 
us. EM is implementing this prioritized, risk reduction strategy 
supported by the crucial tenets of safety, performance, cleanup, and 
closure.
    The President's fiscal year 2008 budget request will allow this 
prioritized work on these important cleanup and closure projects to 
continue across the complex. For the EM program, the President's budget 
request for fiscal year 2008 is $5.4 billion for defense EM activities. 
We've been able to achieve a decrease of $26 million from the fiscal 
year 2007 request by employing a thoughtful balance of reducing risk 
and completing cleanup for the EM program. About half of our budget 
request will go towards our highest risks activities in stabilizing 
tank waste, nuclear materials, and spent nuclear fuel, and another 
quarter is going to clean up contaminated soil, groundwater, and unused 
facilities. With this request, we are continuing on our strategic 
course to address high-priority tank waste treatment and radioactive 
waste disposition while preserving our site completion and closure 
drive. Under this strategy, we anticipate meeting 90 percent of the 
approximately 210 scheduled compliance agreement milestones for fiscal 
year 2008. The Department remains committed to meeting its regulatory 
milestones and will continue to identify ways to better manage its 
cleanup activities. Our agreements have provisions for renegotiation of 
milestones and we are working with our regulators to provide the best 
benefit to the environment.
    With this budget request, the Defense Waste Processing Facility at 
the Savannah River Site (SRS), the Advanced Mixed Waste Treatment 
Facility at the Idaho National Laboratory (INL), and the Toxic 
Substance Control Act Incinerator at the Oak Ridge Reservation (ORR) 
will continue to operate. Design and construction will continue at the 
Waste Treatment and Immobilization Plant (WTP) at Hanford, the Sodium-
Bearing Waste Treatment Plant at INL, and the Salt Waste Processing 
Facility (SWPF) at SRS. Tank farm operations will continue at Hanford, 
INL, and SRS along with spent nuclear fuel receipt, storage, and 
cleanup. I would like to update you regarding two of these important 
tank waste projects.
    The Waste Treatment and Immobilization Plant at Hanford is the 
Department's largest capital project. Over the past 18 months, the 
Department has retained a broad range of external, senior professionals 
from private industry, academia, and other government agencies to 
thoroughly review the management issues, technical approach and 
remaining challenges, adequacy of the design to meet the seismic 
criteria, and the cost and schedule elements of the WTP project. The 
results of these reviews, together with implementing the many 
recommendations, provide the Department with the assurance that the WTP 
can be built and commissioned as designed to treat and immobilize the 
high-level waste, and can be executed within the revised cost and 
schedule baseline.
    Also related to the WTP, the John Warner National Defense 
Authorization Act for Fiscal Year 2007, section 3120, included a 
limitation on availability of funds, pending the certification by the 
Secretary of Energy that the Defense Contract Management Agency has 
recommended for acceptance the earned value management system used to 
track and report costs of the WTP. This limited obligation or expense 
of no more than 90 percent of the funds available.
    A review of the earned value management system was conducted in 
November 2006 and eight issues were identified. In February 2007, the 
WTP contractor submitted corrective actions and those actions should be 
acceptable to resolve seven issues with only minor revisions. The last 
issue has proved harder to resolve and, as a result, the certification 
of the earned value management system by the end of the fiscal year may 
be in jeopardy.
    Salt Waste Processing Facility will provide the high capacity 
treatment capability necessary for removal of actinides, strontium and 
cesium from the more than 33 million gallons of salt waste stored in 
aging underground waste tanks at the SRS. SWPF operation is critical to 
meeting Federal Facility Agreement commitments to remove waste from the 
49 remaining SRS tanks, including the 22 tanks that do not meet modern 
requirements for full secondary containment and leak detection. The 
schedule for the project design has been slowed to address seismic 
issues, which should be resolved in early May. In parallel, the 
contractor will complete baseline development and that baseline will be 
validated upon satisfactory completion of an external independent 
review. This baseline development and validation will support a Fall 
2007 Critical Decision 2 (CD-2), which will establish formally the 
project schedule and cost estimate, against which we report our 
progress, and provide approval to proceed to final project design.
    At the SRS, this request will support ongoing nuclear material 
processing in H-Canyon and design of the plutonium vitrification 
project to support ultimate disposition. At Hanford, it supports 
consolidation of plutonium and unirradiated category 1 and 2 nuclear 
fuel to an off-site location, pending a consolidation decision. 
Consolidation of enriched uranium from INL to an off-site location, and 
design and long-lead procurement for the U-233 disposition project at 
the ORR are also supported in this request.
    This request enables transuranic (TRU) waste projects to continue 
with priority for INL and Los Alamos National Laboratory (LANL) TRU 
waste. Other contact and remote-handled TRU shipments to the Waste 
Isolation Pilot Plant (WIPP) are also supported. Low-level radioactive 
waste and mixed low-level radioactive waste activities will be 
supported at Hanford, the Nevada Test Site (NTS), INL, SRS, and ORR.
    The request will allow high-priority waste retrieval, soil and 
groundwater remediation, and decontamination and decommissioning (D&D) 
of excess facilities at Hanford, INL, SRS, ORR, and other sites. In 
addition, the request supports targeted technology development and 
deployment in support of high-level waste, soil and groundwater, and 
facility D&D.
    With this budget request, EM will achieve our goals for risk 
reduction and cleanup completion at:

        <bullet> Lawrence Livermore National Laboratory-Site 300, 
        California
        <bullet> Pantex Plant, Texas
        <bullet> Sandia National Laboratory, New Mexico (calendar year 
        2008)

    As cleanup work is completed at these sites with continuing 
missions, EM will transfer long-term surveillance and monitoring 
activities to the NNSA.
    The fiscal year 2008 budget request will allow the EM cleanup 
program to reduce risk, honor commitments and produce results worthy of 
the investment of the American people. We are committed to ensuring 
strong management of this complex cleanup work to secure safe and 
efficient progress that protects the public, our workers, and the 
environment. We have shown we can deliver meaningful results. Your 
continued support will allow us to deliver results important for today, 
as well as for generations to come.

                         RISK REDUCTION RESULTS

    Recently, we celebrated another success at the completion 
ceremonies for the Fernald, Ashtabula, and Columbus sites. It is the 
latest demonstration of our progress following the earlier completion 
of cleanup at Rocky Flats in Colorado, the Kansas City Plant in 
Missouri, and the Lawrence Livermore National Laboratory--Main Site in 
California. All these completions should be recognized as results that 
have been borne from partnerships founded on mutual respect and 
collaboration.
    EM has also made other significant progress:

        <bullet> Stabilizing and packaging for disposition all 
        plutonium residues, metals, and oxides (SRS and Hanford);
        <bullet> Producing well over 2,000 cans of vitrified high-level 
        waste from radioactive tank liquid wastes;
        <bullet> Retrieving and packaging for disposal over 2,100 
        metric tons of spent nuclear fuel from the K-Basins on the 
        Hanford site to protect the Columbia River;
        <bullet> Characterizing, certifying, and shipping close to 
        37,000 cubic meters of TRU waste from numerous sites to WIPP 
        for permanent disposal;
        <bullet> Disposing of more than 965,000 cubic meters of legacy 
        low-level waste and mixed low-level waste (contaminated with 
        hazardous chemicals); and
        <bullet> Eliminating 11 out of the 13 high-risk material access 
        areas through material consolidation and cleanup.

    In addition, on a site-specific level, we have:

        <bullet> Completed disposal at WIPP of all legacy drummed TRU 
        waste from SRS;
        <bullet> Completed demolition of the 232-Z facility at Hanford;
        <bullet> Completed cleanup at the Melton Valley area; and
        <bullet> Completed the first remote-handled TRU waste shipments 
        to the WIPP from INL.

                         SOLVING THE CHALLENGES

    First and foremost, safety is our top priority. We will continue to 
maintain and demand the highest safety performance. We have taken 
measures to fully integrate safety into our project designs at an 
earlier stage while assuring our line project teams have the necessary 
experience, expertise, and training. Safety will remain a cornerstone 
in the execution of our mission objectives.
    We are actively engaged, both within the Department and externally 
with our regulators and stakeholders, in identifying issues that impact 
our mission objectives. We have been challenged by lower than expected 
performance levels, increased scope, and unrealized planning 
assumptions. As we identify issues that could affect future performance 
and regulatory commitments, we are taking significant steps to improve 
our operations in planning and executing our work. We are applying 
lessons learned to help prevent future occurrences that will impact our 
planning and commitments.
    One of my goals as Assistant Secretary is that at least 90 percent 
of our ``projectized'' portfolio will meet or exceed our cost and 
schedule targets. We have begun the process of integrating our 
management tools into our business processes. Over the past year, I 
have personally conducted Quarterly Performance Reviews of all EM 
projects with our leadership team. I report to you that we have showed 
progress, but we have yet to realize the full potential of implementing 
our management systems and better applying risk management principles--
that is, identifying project uncertainties and developing mitigation 
measures. Some of our projects have fallen short of expected 
performance, but we are engaging our field management contractors with 
state-of-the-practice project management methods.
    Over the last year, it has become apparent that we have not yet 
attained our full potential in our procurements, and in our execution 
of projects. We have instituted measures to strengthen our emphasis on 
program execution. This multi-year objective already is producing 
results that should provide more effective management in the future. 
This initiative is being coupled with additional training for Federal 
managers and staff to enhance project management and acquisition 
skills. This integrated approach will deliver dividends for our 
managers in the long-term.
    We are improving our ability to ensure that proper procurement 
vehicles are available to meet our acquisition strategies. We are 
taking a new look at contract types and fee structures within our 
contracts. EM must acquire the best services including those of small 
business, to meet our business objectives and to become a top-
performing organization.
    I have asked my senior leadership at Headquarters and in the field 
to take immediate actions to ensure that everyday operating processes 
reflect lessons learned. Lastly, in conjunction with the National 
Academy of Public Administration, EM has undertaken a review of our 
organization and its associated functions and authorities. To date, the 
process has identified areas for improvement, along with some 
refinements of our organizational alignment. During the next few 
months, EM will be implementing the resulting recommendations to ensure 
we have an organizational structure that will enhance our ability to 
respond to the needs of the mission.

                  THE FISCAL YEAR 2008 BUDGET REQUEST

    The Department's fiscal year 2008 budget request for defense EM 
activities totals $5,364 million. The fiscal year 2008 budget request 
reflects safety as its utmost priority. EM is committed to our safety 
principles and to maintaining the highest safety performance to protect 
the workers, the public and the environment.
    The budget request reflects prioritizing program work to balance 
the goals of risk reduction; completing ongoing work to achieve 
completion at sites; and meeting our environmental commitments. For 
fiscal year 2008, EM's funding priorities are listed in order of risk, 
to best address our cleanup challenges:

        <bullet> Requisite safety, security, and services across EM 
        cleanup sites;
        <bullet> Radioactive tank waste storage, treatment, and 
        disposal;
        <bullet> Spent nuclear fuel storage, receipt, and remediation;
        <bullet> Other transuranic, low-level, and mixed low-level 
        wastes treatment, storage, and disposal;
        <bullet> Special nuclear materials storage, processing, and 
        disposition;
        <bullet> Soil and groundwater remediation; and
        <bullet> D&D of contaminated facilities.

    Examples of milestones and planned activities for fiscal year 2008 
by site-specific categories are:
Hanford
    Richland
        <bullet> Consolidate, package, and remove spent nuclear fuel 
        and other radioactively-contaminated materials within the K 
        Basins (K-East and K-West).
          The K Basins project is a high priority, risk reduction 
        activity due to its close proximity to the Columbia River. The 
        goal of this project is removal of all spent nuclear fuel, 
        radioactive sludge, contaminated K Basin water, and radioactive 
        debris from the K Basins. The endpoint of the K Basins cleanup 
        will mean the removal of more than 55 million curies of 
        radioactivity that pose a threat of leakage to the surrounding 
        environment, including the Columbia River.
        <bullet> Amplify River Corridor remediation activities for 
        Reactor Areas D, F, and H.
          The River Corridor Closure Project will complete remediation 
        of contaminated waste sites; the D&D and demolition of 
        facilities that are adjacent to the Columbia River; and 
        placement of eight reactors into an interim safe storage 
        condition. The work performed within the River Corridor Closure 
        Project includes digging up contaminated soil, constructing 
        interim safe storage (cocooning) of the reactors, demolishing 
        facilities in the old reactor complexes and facilities in the 
        300 Area, disposing of waste in the Environmental Restoration 
        Disposal Facility, and constructing surface barriers or caps 
        over contaminated sites.
        <bullet> Continue retrieval of contact-handled suspect 
        transuranic waste and scheduled shipments to WIPP.
          The Hanford Site contains thousands of containers of suspect 
        transuranic waste, low-level, and mixed low-level wastes. The 
        end point of this project will include the retrieval of 
        contact-handled suspect transuranic waste in the low-level 
        burial grounds, the treatment of mixed low-level waste, the 
        disposal of low-level waste, and certification and shipment of 
        transuranic waste to WIPP.
         Continues groundwater/vadose zone remediation activities.
          Due to 40 years of weapon production processes, Hanford's 
        groundwater has been contaminated with carbon tetrachloride, 
        chromium, technetium-99, strontium, and uranium plumes. EM is 
        dedicated to preventing the potential for contaminates reaching 
        the groundwater by: decommissioning an additional 100 unused 
        groundwater wells; monitoring 700-plus wells for contaminants 
        of concern above drinking water standards; and, commencing 
        design of final remediation actions to address carbon 
        tetrachloride and technetium plumes.
Office of River Protection
        <bullet> Sustain tank farm closure processes and maintain the 
        tanks in a safe and compliant condition.
          The radioactive waste stored in Hanford tank farms has been 
        accumulating since 1944. Due to the age of the tanks, a number 
        have leaked in the past into surrounding soil and groundwater. 
        In order to reduce the risk of future tank leaks into the 
        environment, the overall objectives of this project include the 
        stabilization of radioactive waste stored underground in tanks, 
        including retrieval, treatment, disposal, and closure of the 
        facilities.
        <bullet> Progress on path forward for the Waste Treatment and 
        Immobilization Plant.
          The Waste Treatment and Immobilization Plant (WTP) is 
        critical to the completion of the Hanford tank waste program by 
        providing the primary facility to immobilize (vitrify) the 
        radioactive tank waste at the Hanford Site. The WTP complex 
        includes five facilities: the Pretreatment Facility, the High-
        Level Waste Facility, the Low-Activity Waste Facility, the 
        Balance of Facilities, and the Analytical Laboratory. In fiscal 
        year 2008, the WTP project team plans to complete: close-in of 
        the Annex building in the Low-Activity Waste Facility; 
        installation of roofing and completion of the building shell 
        for the Analytical Laboratory; construction of the water 
        treatment building in the Balance of Facilities; and renewal of 
        construction for the High-Level Waste Facility and the 
        Pretreatment Facility.
Idaho
        <bullet> Transfer spent nuclear fuel from wet to secure dry 
        storage.
          Promote the safe and secure receipt, dry storage, and 
        packaging and future transfer of the spent nuclear fuel to a 
        Federal geologic repository at Yucca Mountain.
        <bullet> Continue shipments of transuranic waste to the WIPP.
          Maintain program activities that support waste 
        characterization, packaging, and transportation of remote-
        handled transuranic waste to WIPP that lead to reduced 
        surveillance and operation costs.
        <bullet> Pursue ongoing sodium-bearing waste treatment facility 
        construction, including efforts to gain necessary regulatory 
        approvals for sodium bearing waste treatment and disposal.
          The overall objective of this project is treatment and 
        disposal of the sodium-bearing tank wastes, closure of the tank 
        farm tanks, and performance of initial tank soils remediation 
        work. Construction and operation of the sodium-bearing waste 
        facility will reduce potential risk to human health and the 
        environment by preventing the potential migration of 
        contamination into the Snake River Plain Aquifer, which is a 
        sole-source aquifer for the people of Southeastern Idaho.
LANL
        <bullet> Characterize, certify, and ship above-grade 
        transuranic waste inventory.
          The Solid Waste Stabilization and Disposition Project 
        includes the treatment, storage, and disposal of legacy 
        transuranic and mixed low-level waste generated between 1970 
        and 1999 at LANL. Final disposal of the legacy transuranic 
        waste from LANL will reduce risk to workers, as well as reduce 
        security costs associated with transuranic waste.
        <bullet> Promote soil and water remediation and monitoring.
          The LANL Soil and Water Remediation Project's objective is to 
        identify, investigate and remediate, when necessary, areas with 
        chemical or radiological contamination attributable to past 
        Laboratory operations.
          In fiscal year 2008, in order to fulfill the objective of 
        protecting and monitoring the regional aquifer, as well as 
        long-term surveillance and monitoring to provide necessary 
        safeguards and protection for surface and ground waters, the 
        following activities are planned:

                <bullet> Perform groundwater monitoring at all major 
                watersheds: LA/Pueblo; Mortandad; Canon de Valle; 
                Sandia; and in close proximity to the major waste 
                sites;
                <bullet> Conduct stormwater sampling and implement 
                erosion control measures;
                <bullet> Install and monitor four wells in Pajarito and 
                Bayo canyons; and
                <bullet> Complete construction of 260 Outfall 
                Corrective Measures for alluvial and surface water 
                treatment system.
Oak Ridge
        <bullet> Continue design of U-233 down-blending project and 
        begin Building 3019 modifications
          Down-blending the Building 3019 inventory for disposition is 
        in accordance with the national nonproliferation goals by 
        making the U-233 material unsuitable for use in weapons and 
        reducing security costs at the Oak Ridge National Laboratory.
        <bullet> Ship contact-handled transuranic waste to WIPP.
          Process 250 cubic meters of contact-handled transuranic 
        debris and 170 cubic meters of remote-handled transuranic 
        debris with shipments to the WIPP; and continue to dispose of 
        low-level/mixed low-level waste at the NTS.
        <bullet> Complete the Molten Salt Reactor Experiment fuel salt 
        removal remediation project.
          Upon completion of active remediation, surveillance and 
        maintenance activities of the Molten Salt Reactor Experiment 
        facility will be provided until decontamination and 
        decommissioning of the site has occurred.
Savannah River Site
        <bullet> Consolidate on-site Plutonium to K Area.
          In order to meet the Department's Design Basis Threat 
        criteria, plutonium at SRS is being consolidated into one 
        Category 1 Special Nuclear Materials Storage Facility. The 
        receipt, storage, and disposition of these special nuclear 
        materials at the SRS allows for deinventory and shutdown of 
        other DOE complex sites, while providing substantial risk 
        reduction and significant mortgage reduction savings to the 
        Department.
        <bullet> Ship all legacy transuranic waste to WIPP and treat 
        low-level waste and mixed low-level waste.
          In fiscal year 2008, SRS plans to dispose of transuranic 
        waste previously characterized as mixed low-level waste; 
        dispose of low-level waste and newly generated waste, including 
        soil, groundwater and decontamination and decommissioning 
        wastes; dispose of mixed low-level waste inventory and newly 
        generated waste; and dispose of hazardous waste inventories, 
        thus reducing potential exposure to project workers.
          The end-state for this project is the shipment of all legacy 
        transuranic waste to the WIPP, the treatment of PUREX waste, 
        and the elimination of all legacy inventories and disposition 
        of newly generated low-level waste, mixed low-level waste, and 
        hazardous waste.
        <bullet> Continue groundwater corrective actions across the 
        Site.
          SRS is working to prevent the spread of contamination into 
        adjoining groundwater aquifers and nearby surface waters. 
        Existing contamination in vadose zones, groundwater and surface 
        water sediments are currently being cleaned up, thereby 
        reducing the risk to site workers, the public and the 
        environment.
        <bullet> Treat, stabilize, and dispose legacy radioactive waste 
        stored in underground storage tanks.
          The continuation of the design and construction of the Salt 
        Waste Processing Facility will aid the Defense Waste Processing 
        Facility in the process of safely disposing of the liquid tank 
        wastes. The Salt Waste Processing Facility will separate the 
        high-activity fraction from the low-activity fraction of the 
        salt waste stored in the underground tanks at the SRS. The 
        completion of the Salt Waste Processing Facility will support 
        the mission of SRS in meeting its Federal Facilities Agreement 
        commitments for waste tank disposition.
WIPP
        <bullet> Operate the WIPP in a safe manner to support disposal 
        capabilities for transuranic waste.
          The WIPP in Carlsbad, New Mexico, is the Nation's only mined 
        geologic repository for the permanent disposal of defense-
        generated transuranic waste. All of the defense-generated 
        transuranic waste from eligible generator sites must come to 
        WIPP for receipt, handling, and disposal.

                               CONCLUSION

    The fiscal year 2008 budget request enables risk reduction to 
continue. Challenges lie ahead but we are focused on our objectives and 
our strategy. Safety, performance, cleanup, and closure underpin our 
actions and initiatives. We are committed to work with all interested 
parties to resolve issues. We look forward to continuing to work with 
this subcommittee and Congress to address your concerns and interests. 
Our success relies on our effective partnerships with our regulators, 
the communities, and our contractors to produce progress in 
accomplishing meaningful results for the American public.
    I look forward to a continuing dialog with you and the 
subcommittee. This concludes my formal statement for the record. I will 
be pleased to answer any questions at this time.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      

    Senator Bill Nelson. Let me just ask you. You have been 
reviewing the earned value management system and the Defense 
Contract Management Agency (DCMA) has changed its valuation 
methods, so there is a new approach. Now, if this new approach 
were to be applied to the waste treatment project then there 
would be another delay. So can you explain what is the problem 
and is there a way to resolve the situation with the DCMA?
    Mr. Rispoli. Yes, Mr. Chairman. I have visited with the 
director of the DCMA and your information that they have 
changed their approach is, in fact, true. They have essentially 
ratcheted up their interpretation of how to implement the 
American National Standards Institute criteria. There are 32 
criteria for earned value management systems.
    The DOD has ratcheted up, to their credit, the way they 
interpret that those criteria should be established, and their 
approach is geared more towards a weapons system, like an 
airplane or a ship. They do not do a lot of reviews of 
construction projects. In fact, when we asked them to give us 
an example of another construction project that met their 
expectation, they could give us no example.
    I should back up a moment. This committee sponsored 
language last year in statute that requires the DCMA to certify 
our earned value management system. We are still working toward 
that end. Meanwhile, the Department has brought in another 
contractor separate from EM, separate from my organization that 
does this as part of their business, reviews earned value 
management systems.
    In fact, they have been recognized, this company has been 
recognized, by the Defense Department as being preeminent in 
their field. I can share that with you after the hearing if you 
would like, the web site that shows that.
    We are using that company to give us an independent look at 
the earned value management system at the project. They are out 
there this week, in fact. They have been there all week for 
their second visit.
    So we are taking, you might say, a dual track approach. One 
is to continue to work with the DCMA to see if we can satisfy 
their concerns about the way they interpret the criteria, 
meanwhile going to this other company that is also recognized 
by the Defense Department as a preeminent expert in the area to 
see what they think about our earned value management system.
    The earned value management system is one of several 
project management tools that we rely on to gauge the success 
and the health of a project as it goes forward. That is why 
this is an important element of what we look at, the earned 
value management system.
    Senator Bill Nelson. What is the name of that company?
    Mr. Rispoli. The name of that company is Tecolote. They are 
based in Santa Barbara, California, and, as I indicate, they 
are one of the preeminent companies identified by the 
Department of Defense (DOD) as being expert in their field.
    Senator Bill Nelson. The DCMA was close to completing its 
review of the Bechtel earned valve management (EVM) system when 
it changed its approach. The current law requires them to make 
a recommendation to the Secretary on the EVM system. In the 
absence of the DCMA, would you have some outside review of the 
EVM system?
    Mr. Rispoli. Our intent, Mr. Chairman, is to keep your 
staff apprised of the progress of our activities with both the 
DCMA and this company called Tecolote, and as we go forward 
you, this committee through your staff, will know how we are 
doing on both fronts, both with the DCMA and with Tecolote. Of 
course, it would be within your purview to change the 
requirement that there be independent certification, without 
that certification necessarily being the DCMA.
    I can assure you that we want the same thing. We want 
assurance that the system that we are using and relying on is 
legitimate. So by bringing in Tecolote--the Department chose 
them, not my organization. But they are a recognized front-
runner in this field, and again I can share that information 
with your staff.
    Senator Bill Nelson. Jeff, you jump in.
    Senator Sessions. The waste treatment plant, the design has 
been approved and the contract is in the course of being 
executed, is that correct?
    Mr. Rispoli. Yes, sir, that is true.
    Senator Sessions. You have an extra $3 billion contingency 
money there?
    Mr. Rispoli. Yes, sir, that is correct.
    Senator Sessions. Well, my experience is if the contract is 
everybody thinks there is a $3 billion contingency there, some 
of it might get used. Are you confident that you are going to 
do everything possible to preserve every penny of that $3 
billion?
    Mr. Rispoli. Senator Sessions, our intent is, we are in the 
midst now of renegotiating that contract. The Government is 
preparing its position and our intent is to provide strong 
incentives. You, I am sure, are aware of the Rocky Flats 
contract, where we delivered 14 months early and quite a bit 
below the Government's estimate. We would use the same lessons 
learned as we negotiate this contract to provide a very strong 
incentive for the contractor to deliver both early and under 
budget. So that would be our intent.
    I would also point out that if you take away the $3 billion 
in contingency from the $12.2 billion, the actual hard cost 
estimate this time is based upon nearly 80 percent design. So 
the estimate was, for the most part, a bottoms-up cost 
estimate. It took the Army Corps of Engineers a year to review 
the contractor's cost estimate with 30 people on site. It is a 
huge project.
    So we have a great degree of confidence that the estimate 
this time is much more sound than it was years ago when the 
estimate was based upon very immature engineering. This time, 
as I say, we are nearly 80 percent designed and the project has 
gone through an intense review by the Army Corps.
    Senator Sessions. That part of it is sort of a done deal. I 
mean, that contract is let and it is going forward. Then the 
additional cost will come as the waste liquid is brought in and 
processed, is that right?
    Mr. Rispoli. Yes, sir.
    Senator Sessions. Let me just say, I remember in Alabama at 
the Anniston Army Depot, when we went through the destruction 
of poison gas. There were serious differences of opinion. There 
was a chemical reaction where it could be poured, a chemical 
could be poured over, and this was supposed to neutralize the 
gas, or burning, and we went through that. I am not sure how 
smart we were, but it was all discussed.
    Have there been any other suggestions? Has any effort been 
made to ascertain if some other sharp person could develop a 
different way of handling this waste, rather than something 
that is going to cost us $173 billion, to be sure that all the 
other options--when you talk about that big a commitment, I 
think it is incumbent on us to ask ourselves rigorously, is 
there any other option to this.
    Mr. Rispoli. The answer to that is, I believe, Senator 
Sessions, that when the choice was made to go with this 
vitrification process for both the high level and the low 
activity waste, there was a very significant scrub, if you 
will, of what options were available. I have been in this 
position since August 2005 and I have heard of no suggestion 
that any other technology would work better.
    The reason is that we have experience with vitrification 
both at West Valley, New York, where we built a plant, operated 
it, and then closed it down because it finished its job on a 
much smaller scale, and the one in Savannah River in South 
Carolina is still operating reliably after a number of years, 
at least 5 that I am aware of.
    So we are confident that the technology is proven and 
reliable and that we can use it to process the waste.
    Senator Sessions. It is proven and reliable, I do not 
dispute. But it is expensive. What about the effort in Savannah 
River? Senator Graham is a member of this committee. He was 
very pleased. As I recall, South Carolina worked with the DOE 
and a plan was developed that was substantially less expensive 
than some of the earlier estimates. Are you aware of that 
history?
    Mr. Rispoli. Yes, sir.
    Senator Sessions. How much difference did it turn out to 
be? I have forgotten how much it saved. Do you know how many 
billion dollars less it turned out to be?
    Mr. Rispoli. I do not know how much that initial 
vitrification plant cost. As I indicated, it has been operating 
for a number of years. But that vitrification plant in South 
Carolina will only handle 3 million out of 37 million gallons 
of waste at that site. So there is other construction in design 
today, not yet built, that has already been presented to 
Congress and it is well known as an upcoming project, to build 
what I would call the balance of the plant needed, to kind of 
duplicate what is at Hanford. But because it is a much smaller 
number of gallons to go through it, the plant will be smaller 
and it does not have to be sized as big or as robust.
    Senator Sessions. Well, let us just pursue that. Are you 
saying that the net cost per gallon of product processed is 
going to be equal in South Carolina to the Hanford site?
    Mr. Rispoli. I do not know the net cost per unit. I can get 
that to you. I could take that question.
    [The information referred to follows:]

    The cost per unit is reflected on the chart on page 279.

    Senator Sessions. In addition to that, of course, just 
processing the liquid, then you have to do things, you have to 
consider what to do about the site itself, correct?
    Mr. Rispoli. Yes, sir.
    Senator Sessions. Can you give us an estimate of how much 
goes into processing the liquid and how much would be in 
processing and cleaning up the site, as planned in this 
project?
    Mr. Rispoli. At Hanford, after the plant is built and fully 
operational, which is in around the 2019 timeframe, we are 
envisioning operating all the way into the 2030s with that 
plant. So it will be many years of operation of that plant to 
process the waste out of the 177 tanks.
    Now, we are already taking waste and concentrating it so 
that we can try to get some tanks, the higher risk tanks, 
empty----
    Senator Sessions. Is there a cost figure on that processing 
the liquid waste and then a cost figure on cleanup of the site 
in addition? Are there additional funds to be spent on that?
    Mr. Rispoli. Yes, there is. But again, I would have to get 
that to you for the record. You mean the life cycle cost to 
clean up the Hanford site. Senator, I will get you that for the 
record.
    [The information referred to follows:]

                  Life Cycle Cost to Clean Up Hanford

    The life-cycle cost estimate for processing the 53 million gallons 
of high level waste at Hanford is $56.5 billion which includes 
construction of the Waste Treatment Plant ($12.3 billion) and tank 
waste retrieval, treatment operations, storage of the high-level waste 
canisters, onsite disposal of the low activity waste canisters, 
decommissioning and decontamination of the Waste Treatment Plant, and 
closure of the 177 high level waste tanks ($44.2 billion <SUP>*</SUP>). 
The life-cycle cost includes costs beginning in 1997 through 2042. From 
1997 through 2007 the Department has expended $8.6 billion; $4.8 
billion for the Waste Treatment Plant construction and $3.8 billion for 
tank farm operations and infrastructure improvements, demonstration of 
tank waste retrieval systems, and construction of a high-level waste 
canister storage facility. The cost to complete the remaining work 
includes $7.4 billion to complete construction of the Waste Treatment 
Plant; $10.4 billion for waste processing; $25.5 billion for tank farm 
operations, waste retrieval, high-level waste canister storage, and low 
activity waste disposal; $1.1 for decommissioning and decontamination 
of the Waste Treatment Plant; and $3.4 billion for closure of the 177 
high level waste tanks.
---------------------------------------------------------------------------
    \*\ The Deputy Secretary of Energy approved an increase in the 
life-cycle cost from $26.2 billion to $44.2 billion for this project 
baseline summary, ORP-0014 Tank Farm Operations, subsequent to the 
submittal of the fiscal year 2008 Congressional Budget Request.
---------------------------------------------------------------------------
    The life-cycle cost estimate for cleaning up the remaining portion 
of the Hanford reservation is $29.6 billion which includes $12.5 
billion for nuclear facility decontamination and demolition, $11.8 
billion for nuclear material, spent nuclear fuel and solid waste 
stabilization, $2.1 billion for soil and ground water remediation, $2.3 
billion for safeguards and security, and $0.9 billion for other support 
activities. $8.8 billion has been expended on these activities through 
2007.
    A table summarizing the life-cycle cost for each portion of the 
Hanford Site cleanup is provided below.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Sessions. Could you explain to me what Senator 
Lindsey Graham meant last year when he said that South Carolina 
worked with the DOE and they agreed on a cleanup method that 
saved a considerable sum of money? What was he talking about?
    Mr. Rispoli. I presume that he was talking about the 
project that is now under construction, that will enable us to 
take the remaining low-activity waste and dispose of it on 
site. This committee itself was the instrumental committee in 
the 2005 National Defense Authorization Act that gave us 
authority for the Secretary to make a waste determination to 
leave low activity waste on site. That determination is called 
section 3116 of the 2005 National Defense Authorization Act and 
it applies to South Carolina and to Idaho.
    So what this committee did, and Senator Graham was one of 
those instrumental in it, was give us the authority for the 
Secretary to make a determination, in consultation with the 
NRC, that we could leave the low activity waste on site in 
South Carolina.
    Senator Sessions. Is that planned in Hanford?
    Mr. Rispoli. The current plan at Hanford is that we will 
leave the low activity waste on site, yes, sir.
    Senator Sessions. In the same fashion?
    Mr. Rispoli. It will be vitrified, but it will be on site, 
yes, sir.
    Senator Sessions. Is that the same fashion as South 
Carolina did it?
    Mr. Rispoli. The waste form is different in that. It is 
going to be a grout waste form in South Carolina and a glass 
waste form in Hanford. But it is the same outcome in that we 
are leaving low----
    Senator Sessions. Is that a factor in the different cost?
    Mr. Rispoli. I will get that for you, and I will reduce it 
to per unit so that you can see per unit.
    [The information referred to follows:]

    The cost per unit is reflected on the chart on page 279.

    Senator Sessions. I would just say to you, $173 billion is 
almost what it costs to fight the Iraq war for 2 years. It is a 
lot of money.
    Senator Bill Nelson. Let me ask about Savannah River. So 
are you saying there are plans for moving materials outside of 
Idaho or South Carolina?
    Mr. Rispoli. The statute that was originated with this 
committee enables us to leave--to make a determination to leave 
low activity waste on site. At Savannah River site, that low 
activity waste determination that we have already made would 
actually put it into on-site vaults in a grout form. In the 
future we would expect to be using that authority to also grout 
the empty tanks, which is the same intent at Hanford, that we 
would grout the empty tanks once they are emptied.
    So the overall approach is very similar. The difference is, 
and you picked up on this, is that the low activity waste at 
Hanford will be vitrified. The low activity waste at Savannah 
River will be put into a saltstone form, which is a grout, and 
into vaults. But yes, the answer is the low activity waste will 
be left on site in both. That is the intent. The intent also is 
that the tanks once emptied would be grouted to protect the 
public and the environment, so that the tanks are one 
monolithic entity from that point forward.
    Senator Bill Nelson. The high activity waste eventually 
would be encased in glass and sent to----
    Mr. Rispoli. Yucca Mountain.
    Senator Bill Nelson. --Yucca?
    Mr. Rispoli. Yes, Mr. Chairman. At all three--at West 
Valley, New York, at the Savannah River site, and also at 
Hanford.
    Senator Bill Nelson. You just need Congressional 
authorization to send it to Hanford?
    Mr. Rispoli. Actually, we are okay. We meet all of the 
acceptance criteria for sending the waste to Yucca. Yucca in 
its present legal limit of how much it can accept already can 
accept all the waste from the Savannah River site. In its 
present legal limit, not physical limit, it would not be able 
to accept all the waste from the Hanford site. Physically, it 
could, but there is a legal cap on how much could go to the 
Yucca Mountain site.
    Senator Bill Nelson. Do not worry, Mr. Podonsky; we are 
getting to you.
    Mr. Podonsky. I am waiting patiently.
    Senator Bill Nelson. Well, on this consolidation of the 
materials, tell us what is the status of the effort to complete 
the nuclear materials consolidation study?
    Mr. Rispoli. Yes, Mr. Chairman. In 2005 the Department 
established an across-the-Department committee, you might say a 
crosscutting committee, to look at for all elements that have 
nuclear materials, such as plutonium, what could be done to 
consolidate that material. The committee has basically 
presented an approach that would in fact consolidate all of 
that special nuclear material, most of it, to the Savannah 
River site, with the intent of actually running it through a 
disposition process at the Savannah River site, such that it 
could either go through the MOX plant, which would make it 
usable as a nuclear reactor fuel, or disposition it in some 
other way.
    So we have already announced what the intent would be. Now, 
there is more work to be done; we would have to still finish 
all of the other requirements, such as the National 
Environmental Policy Act--but the intent would be that the 
special nuclear materials at Hanford, for example, would be 
taken out of Hanford, which would save the Department an 
enormous amount of money, both initial capital construction to 
enhance the security, to meet the required security parameters, 
as well as the extra guns and guards that would have to 
continue to protect that material at Hanford if we did not move 
it.
    So from our programmatic perspective, we are very eager to 
implement this consolidation approach, to get that special 
nuclear material out of Hanford, to save the money at that 
site.
    Senator Bill Nelson. That is plutonium 239?
    Mr. Rispoli. Yes, sir, all plutonium and also some uranium 
materials.
    Senator Bill Nelson. When will that material be shipped 
from Hanford?
    Mr. Rispoli. It would all hinge on the final approval of 
the overall plan, because there is another Federal statute that 
basically provides that until the Department can demonstrate a 
disposition path for all the plutonium that would go into South 
Carolina, we cannot bring the material into South Carolina. 
Right now we are awaiting the ability to begin construction at 
the MOX plant, which is not in my program. It is in the Nuclear 
Nonproliferation side of the house. We would then be able to 
demonstrate the ability to disposition all this material.
    I might mention that only today, a report was delivered to 
the appropriate committees here in Congress, including yours, a 
business case analysis that shows the approach for 
dispositioning this material at the Savannah River site. I do 
not think you would have had a chance to, or your staff, to 
digest it, but I have a copy that I could leave if your staff 
would like it after the hearing.
    Senator Bill Nelson. Mr. Podonsky, is that going to be 
safe, to move it from Harford to Savannah River?

   STATEMENT OF GLENN S. PODONSKY, CHIEF HEALTH, SAFETY, AND 
             SECURITY OFFICER, DEPARTMENT OF ENERGY

    Mr. Podonsky. We would be happy to inspect Mr. Rispoli's 
activities to let you know whether they are safe or not. But 
that is part of what we do, independently assess the 
performance of the Department in a number of areas.
    If I might, Mr. Chairman----
    Senator Bill Nelson. Yes, please.
    Mr. Podonsky. --I would like to first, of course, thank 
you, Mr. Chairman and Senator Sessions, for inviting me to 
testify.
    I think it is important to just take a moment, if you will 
allow me, to talk about the Health, Safety, and Security 
Office. It was just created 7 months ago by Secretary Bodman to 
incorporate a new way of doing management within the 
Department, especially in the two biggest areas of what we call 
the mortgage payment of the Department, safety and security.
    Within my office, we are responsible for establishing the 
policy for the entire Department for environment, safety, 
health, and security including the National Nuclear Security 
Administration (NNSA). We also do independent oversight, 
independent of the line. So in other words, we inspect Mr. 
Rispoli as well as all the other assistant secretaries that 
have facilities in the Department. We inspect them for their 
performance with the standards and requirements from the 
Department in all the areas of environment, safety, health, 
safeguards, security, cybersecurity, and emergency management.
    Our office is also responsible for technical assistance to 
the field in areas where they are having difficulties in all of 
the areas I just mentioned, as well as we have the Office of 
Classification. We also are responsible for training. We have a 
training center out in Albuquerque that does the professional 
training for safety and security professionals.
    The other part that we also have, which is very important, 
is the enforcement function, which enforces the civil penalties 
for DOE Orders 824, which is on security, the worker health and 
safety rule, 851, and also the Price-Anderson, nuclear safety 
rule, which is 820.
    So part of our responsibilities for the Secretary is 
evaluating the performance of the Department in all of those 
areas. So when you ask the question, will it be safe to move 
from one facility to another, we would look at what the program 
offices plan to do and then we would actually inspect them 
against their plans. The way we inspect them is we actually 
bring in trained adversaries that are comparable to Delta 
Force, Navy SEALs, for our environment, and make sure that they 
can in fact fend off any attempt to steal the nuclear material 
or to divert it or any number of issues that we want to test.
    Again, we test them against what they say they can do and 
we test them against the performance of the requirements that 
they are supposed to perform to.
    [The prepared statement of Mr. Podonsky follows:]

                Prepared Statement by Glenn S. Podonsky

                              INTRODUCTION

    Chairman Nelson, Ranking Member Sessions, and members of the 
subcommittee, thank you for inviting me to testify today on the 
Department of Energy's fiscal year 2008 budget request for the Office 
of Health, Safety and Security (HSS). On October 1, 2006, the Secretary 
of Energy established HSS to integrate certain Department of Energy 
(DOE) Headquarters-level functions for health, safety, environment, and 
security into one unified office. This new organization reflects the 
Department's commitment to maintain a safe and secure work environment 
for all Federal and contractor employees and the surrounding 
communities and stresses the importance of delineating clear roles and 
responsibilities and line management accountability for these programs. 
Since its creation, this new office has begun the process of 
strengthening these important functions through increased clarity in 
the assignment of responsibilities and accountability. The fiscal year 
2008 HSS budget request includes the funding of the former Environment, 
Safety, and Health (EH) program within the Energy Supply and 
Conservation and Other Defense Activities appropriations, and the 
funding of the former Security and Safety Performance Assurance (SSA) 
program within the Other Defense Activities appropriation. The HSS 
program provides a highly focused and integrated corporate-level 
analytical capability to identify problem areas and to provide the 
basis for line management to implement effective Department-wide 
solutions in the areas of health, safety, environment, and security.
    As the Department's central organization responsible for health, 
safety, environment, and security, HSS provides corporate-level 
leadership and strategic vision to coordinate and integrate these 
programs. It provides the Department with effective and consistent 
policy development, technical assistance, education and training, 
complex-wide independent oversight, and enforcement for health, safety, 
environment, and security programs. HSS integrates worker health, 
safety, environment, and security functions to address crosscutting 
Departmental issues, increase collaboration and sharing of technical 
expertise, and increase management accountability for health, safety, 
environment, and security responsibilities. This integrated approach 
and functional alignment of responsibilities reduces overlap in 
reporting and provides consistency in developing policy and guidance 
and providing technical assistance, while increasing the effectiveness 
of communication and accountability for worker health, safety, 
environment and security. As the Chief Health, Safety, and Security 
Officer, I advise the Deputy Secretary and the Secretary on a wide 
range of matters related to health, safety, environment, and security 
across the complex.
    Before addressing the HSS budget request and priorities, we want to 
make clear that one of the primary objectives in creating HSS was to 
build upon the dedicated efforts, and positive impact made by the 
previous EH and SSA organizations and to continue their work in a more 
integrated and effective manner to further strengthen these important 
functions. For example, the HSS Office of Independent Oversight 
continues to have a rigorous and multi-faceted oversight program. At 
the time of the recent security problems at Los Alamos National 
Laboratory (LANL), HSS was conducting a combined safeguards and 
security, cybersecurity, and emergency management independent oversight 
inspection at LANL. Subsequent to that inspection, HSS conducted a 
Personnel Security Follow-up Review of the NNSA Service Center 
Personnel Security Program that included an extensive review of all 
case files for the timeframe of interest. Additionally, as directed by 
the Secretary of Energy, HSS led a task force to review the 
Department's Personnel Security Program to determine whether there are 
deficiencies in the program or program implementation throughout the 
Department. Further, in November 2006, HSS initiated a security 
enforcement investigation under the provisions of 10 CFR 824 
(Procedural Rules for the Assessment of Civil Penalties for Classified 
Information Security Violations) into the recent LANL security event, 
the first such investigation undertaken by the Department.
    The Secretary of Energy is ultimately responsible and accountable 
for the performance of DOE, including NNSA. Through HSS, the Secretary 
establishes Department-wide environment, safety, health, and security 
policy, which also applies to NNSA. The Secretary relies on HSS to 
conduct corporate independent oversight of all safety and security 
disciplines, and expects NNSA to respond to all findings with effective 
corrective actions to eliminate weaknesses. As a result, it is 
imperative for HSS to maintain a close working relationship with NNSA. 
The roles of certain elements within NNSA, such as the Office of 
Defense Nuclear Security, are complementary to HSS in providing policy, 
assistance, training, and oversight. The role of the Office of Defense 
Nuclear Security is to provide a line management oversight function by 
advising the Administrator, NNSA, on the status of security within 
NNSA.

                FISCAL YEAR 2008 BUDGET REQUEST OVERVIEW

    The Office of HSS's budget request for fiscal year 2008 of $428.358 
million includes $328.315 million for HSS Programs and $100.043 million 
for Program Direction. A summary of the HSS programs and activities 
proposed to continue in fiscal year 2008 with this funding request 
include:
Health and Safety Policy, Standards, and Guidance ($4,203,000)
    DOE issues policy, standards, and guidance to ensure workers and 
the public, property, and the environment are adequately protected from 
the hazards of DOE activities. For most DOE facilities, DOE assumes 
direct regulatory and enforcement authority for safety and health in 
accordance with the Atomic Energy Act of 1954, as amended. Safety 
policy, standards, and guidance must therefore take into account the 
nuclear, chemical, and industrial hazards posed by DOE operations and 
must be current with worldwide technologies, knowledge and experience. 
Environmental programs at DOE sites are, for the most part, driven by 
Federal, State, and local regulations. However, environmental direction 
and assistance are provided to DOE sites, especially in the areas of 
pollution prevention and Environmental Management Systems development 
and implementation. The fiscal year 2008 budget request provides for 
HSS to:

        <bullet> Strengthen implementation of 10 CFR 851, Worker Safety 
        and Health Program
        <bullet> Continue to support training for Nuclear Executive 
        Leadership, Senior Technical Safety Managers, and Environment, 
        Safety and Health Project Managers
        <bullet> Strengthen worker health and safety, nuclear safety, 
        radiation protection, and environmental policies and standards, 
        including Integrated Safety Management and Environmental 
        Management Systems
        <bullet> Continue implementation of the Federal Employee 
        Occupational Safety and Health program via training, guidance, 
        and other communications methods
        <bullet> Strengthen liaison with the Institute of Nuclear Power 
        Operations and the commercial nuclear power industry
        <bullet> Provide support to the U.S. and international 
        regulatory community by maintaining standards associated with 
        the release of contaminated property and response to events 
        involving radiological dispersal and improvised nuclear devices
        <bullet> Continue to assist DOE sites to implement 
        Environmental Management Systems and the DOE Environmental 
        Compliance Management Improvement Plan
        <bullet> Continue implementation of the Human Performance 
        Improvement Initiative to identify and close human performance 
        gaps
        <bullet> Develop and issue the DOE Annual Site Environmental 
        and National Environmental Standards for Hazardous Air 
        Pollutants Reports
        <bullet> Conduct and support cultural resource and 
        environmental protection program workshops, lessons-learned 
        programs and guidance and tools, including those related to 
        implementation of environmental management systems requirements 
        under the new Executive Order 13423 (Strengthening Federal 
        Environmental, Energy, and Transportation Management) as well 
        as those for continued compliance with environmental laws

DOE-Wide Environment, Safety, and Health Programs ($3,976,000)
    DOE-Wide Environment, Safety, and Health Programs improve worker 
and nuclear facility safety, and protect the public and the 
environment. Activities under these programs develop state-of-the-art 
analysis tools and approaches specific to the nature and mix of 
radioactive, hazardous, and toxic materials at DOE facilities. Efforts 
include construction safety; work planning activities and techniques to 
identify, evaluate, and eliminate hazards; methods for reducing or 
eliminating release of pollutants; and the identification of 
technologies and innovative adaptations of existing practices. The 
fiscal year 2008 budget request provides for HSS to:

        <bullet> Continue providing assurance that worker radiation 
        exposures are accurately determined through the DOE Laboratory 
        Accreditation Program
        <bullet> Prepare the Annual DOE Occupational Radiation Exposure 
        Report
        <bullet> Continue to promote pollution prevention through DOE 
        Pollution Prevention (P2) Star Awards and improve pollution 
        prevention data reporting and analysis
        <bullet> Assist sites in maintaining safe operations throughout 
        the life-cycle of their nuclear facilities
        <bullet> Strengthen and expand the implementation of the DOE 
        Voluntary Protection Program (VPP), including continued 
        development of the electronic VPP
        <bullet> Assist in the implementation of Environmental 
        Management Systems and provide Status Report to the U.S. 
        Environmental Protection Agency
        <bullet> Strengthen the implementation of the Enforcement 
        Program Plan to integrate enforcement protocols for both 
        nuclear and worker safety and health
        <bullet> Improve the Noncompliance Tracking System to 
        strengthen report generation and address feedback received from 
        end users
        <bullet> Continue the enforcement of 10 CFR 851, Worker Safety 
        and Health Program
        <bullet> Update 10 CFR 850, Chronic Beryllium Disease 
        Prevention Program to reflect lessons learned and advances in 
        technology since its promulgation in 1999
Corporate Safety Programs ($7,111,000 less $990,000 from prior year 
        balance for a fiscal year 2008 request of $6,121,000)
    Corporate Safety Programs serve a crosscutting safety function for 
the Department and its stakeholders in assuring excellence and 
continuous improvement in environment, safety and health in the conduct 
of its missions and activities. Elements that comprise Corporate Safety 
Programs include: Performance Assessment, the Quality Assurance Program 
(which includes the Corrective Action Management Program), Filter Test 
Facility, the Facility Safety Program (which includes Accident 
Investigations and Corporate Safety Basis), Price-Anderson Enforcement, 
and the Analytical Services Program. The fiscal year 2008 budget 
request provides for HSS to:

        <bullet> Strengthen trending and analysis of DOE's safety 
        performance in protecting the public, workers, and the 
        environment through advanced analytical tools
        <bullet> Analyze the effectiveness of site suspect or 
        counterfeit items programs and prepare the DOE Annual Suspect 
        or Counterfeit Items Activities Report
        <bullet> Continue to improve the safety-related DOE Quality 
        Assurance Program through updated directives, assessments, 
        technical assistance, and maintenance of the Corrective Action 
        Management Program
        <bullet> Operate and maintain the High Efficiency Particulate 
        Air Filter Test Facility
        <bullet> Support and conduct Type A investigations for serious 
        incidents and oversee the conduct of Type B investigations via 
        the Accident Investigation Program
        <bullet> Participate in Operational Readiness Reviews and 
        Readiness Assessments, and associated program training, at 
        Category 1, 2, and 3 nuclear facilities prior to the startup or 
        restart of those facilities
        <bullet> Continue implementation of the Nuclear Safety 
        Enforcement Program in accordance with the Price-Anderson 
        Amendments Act
        <bullet> Implement the Analytical Services Program by 
        developing corporate-level environmental sampling protocols and 
        conducting quality assurance audits of environmental 
        laboratories used by the sites in support of environmental 
        compliance programs

Health Programs ($40,803,000)
    Health Programs support domestic and international health studies 
including the Former Worker Program (a nationwide program of medical 
screening to identify work related health effects) and studies to 
investigate and identify work related injury and illness in the DOE 
worker population and populations surrounding DOE sites. The benefits 
of these projects and programs include discovery and documenting health 
effects outcomes that provide the scientific basis for national and 
international worker protection policy and standards. These radiation 
protection standards and practices, in turn, provide levels of 
protection appropriate for the risk posed to workers by hazards present 
at DOE sites. The fiscal year 2008 budget request provides for HSS to:

        <bullet> Continue to conduct international health and 
        environmental monitoring programs associated with:

                <bullet> the atomic blasts above Japan--Radiation 
                Effects Research Foundation
                <bullet> resettling atolls in the Marshall Islands 
                affected by the U.S. thermonuclear ``Bravo'' test
                <bullet> the accidental dispersal of radioactive 
                materials in Palomares, Spain
                <bullet> nuclear weapons production activities in 
                Russia

        <bullet> Continue to implement the Former Worker Medical 
        Surveillance Program by conducting medical screening to 
        determine potential health issues (which screening has been 
        done for over 46,000 individuals to date and will continue)
        <bullet> Provide rapid medical expertise, response, and 
        physician training in response to accidental exposure to 
        radiation via the Radiation Emergency Accident Center and 
        Training Site
        <bullet> Collect and analyze medical and industrial hygiene 
        data on current workers exposed to beryllium, plutonium, and 
        other hazards
        <bullet> Continue to conduct studies to determine the effect of 
        DOE operations on surrounding populations and communities
Employee Compensation Program ($3,000,000)
    This activity funds DOE's efforts in support of the implementation 
of the Department of Labor (DOL) Energy Employees Occupational Illness 
Compensation Program Act. DOE assists DOL, the National Institute of 
Occupational Safety and Health (NIOSH), and the Advisory Board on 
Radiation and Worker Health by providing access to all available 
records and information needed to support claims filed by DOE 
contractor employees and to enable DOL to fulfill its statutory 
responsibilities. The fiscal year 2008 budget request provides for HSS 
to:

        <bullet> Provide DOL, the NIOSH, and the Advisory Board on 
        Radiation and Worker Health, access to all available records 
        and information needed to support such claims in a timely 
        manner
        <bullet> Maintain improved communication and coordination with 
        DOL and NIOSH through weekly conference calls and periodic 
        meetings with Advisory Board on Radiation and Worker Health
        <bullet> Work with line management to identify field contacts 
        to improve program implementation
Safety and Security Training ($14,756,000)
    Funding develops and maintains the proficiency and competence of 
DOE safety and security personnel through standardized training, 
education, and professional development services. Funding also provides 
for the conduct of workforce analyses and career development programs 
required for the protection of the environment, safety, and health of 
the public, the Departmental workforce, and critical assets and 
national security. The DOE National Training Center, in Albuquerque, 
NM, is the designated DOE Center of Excellence for safety and security 
training and the primary resource for performing these functions. The 
fiscal year 2008 budget request provides for HSS to:

        <bullet> Conduct the Leadership Development Institute courses
        <bullet> Host the semi-annual Federal Technical Capabilities 
        Panel
        <bullet> Increase focus on safety and security training 
        interface, based on the safety and security expertise within 
        HSS
        <bullet> Increase utilization of the Integrated Safety and 
        Security Training and Evaluation Complex
        <bullet> Enhance Tactical Response Force Course by providing 
        performance oriented training
        <bullet> Conduct safety and security training needs assessment 
        surveys to identify training requirements for new security and/
        or safety technologies
Security Operational Support ($14,345,000)
    Security Operational Support activities provide technical expertise 
to support the implementation of Department-wide security requirements. 
The fiscal year 2008 budget request provides for HSS to:

        <bullet> Continue evaluation of the Design Basis Threat (DBT) 
        Policy and Security Directives (Policy) Zero Base-line Review
        <bullet> Enhance rules of engagement in support of force-on-
        force performance exercises and for response to security events
        <bullet> Continue implementation of the Elite Protective Force 
        Initiative (the Department believes that the current contractor 
        security force model is working well. There are certainly pros 
        and cons to the Federalization question, but the Department has 
        reviewed this option and concluded that the contractor model, 
        coupled with our Elite Protective Force Initiative, provides 
        the security posture that we expect in protecting our 
        facilities and assets)
        <bullet> Maintain the Human Reliability Program and continue 
        implementation of Personnel Security Program Review 
        recommendations
        <bullet> Continue support for sharing methods and products to 
        satisfy regulatory security requirements through the Security 
        Awareness Special Interest Group
        <bullet> Maintain security related data systems, e.g., 
        Safeguards and Security Information Management System, Incident 
        Tracking and Analysis Capability
        <bullet> Provide risk management, vulnerability assessment, and 
        security system performance evaluations, verifications, and 
        validations for identification and clarification of threats to 
        departmental assets
        <bullet> Continue support for the Foreign Ownership, Control or 
        Influence and Foreign Visits and Assignments programs and 
        associated data management systems
        <bullet> Maintain the Nuclear Materials Management and 
        Safeguards System (NMMSS) and other nuclear and radiological 
        material tracking programs in support of international treaties 
        and Nuclear Regulatory Commission initiatives
Headquarters Security Operations ($24,942,000)
    Headquarters Security Operations supports the security protective 
force and systems designed to provide protection of DOE Headquarters 
facilities and assets. The fiscal year 2008 budget request provides for 
HSS to:
        <bullet> Maintain physical protection and access control for 
        DOE operations in the National Capital Area (Washington, DC, 
        and Germantown, MD)
        <bullet> Manage the Technical Surveillance Countermeasures 
        (TSCM) Program for DOE Headquarters and contractors in the 
        Greater Washington, DC, area
        <bullet> Maintain security alarms and access control systems
        <bullet> Conduct security briefings for DOE Federal and 
        contractor employees; other personnel granted DOE access 
        authorizations, and non-DOE personnel granted unescorted access 
        to DOE Headquarters facilities

Security Technology Development and Systems Deployment ($15,840,000)
    The Security Technology Development and Systems Deployment activity 
provides technology-based solutions to known security vulnerabilities 
throughout the DOE complex as an alternative to costly increases in 
manpower needed to implement the DBT Policy, and provides technologies 
to counter threats for which no current defensive capability exists. 
The activity identifies and evaluates commercial technologies to ensure 
that system performance is commensurate with operational security 
requirements before such technologies are purchased and deployed to 
protect critical national security assets. Funding also provides for 
the modification of existing technologies, deployment of technologies, 
and technical assistance to meet security requirements in the most 
cost-effective manner possible.
Classification, Declassification, and Controlled Information 
        ($11,678,000)
    This activity ensures that the Department meets its statutory 
responsibility to implement the U.S. Government-wide program to 
classify and declassify nuclear weapons-related technology (i.e., 
Restricted Data and Formerly Restricted Data), and to implement the 
requirements of Executive Order 12958 to classify other information 
that is critical to the national security (i.e., National Security 
Information). This program identifies information controlled under 
statute to protect national security (i.e., Unclassified Controlled 
Nuclear Information) and other governmental, commercial, and private 
interests (e.g., Official Use Only). This activity also provides for 
the training and certification of DOE and other U.S. government 
Department and Agency personnel.
Security Investigations ($37,836,000)
    This activity manages funding for background investigations to 
provide access authorizations to DOE Federal and contract personnel 
who, in the performance of their official duties, require access to 
classified information or certain quantities of special nuclear 
material. Background investigations are required by section 145 of the 
Atomic Energy Act of 1954, as amended, and EO 12968 (Access to 
Classified Information). The investigations are performed and access 
authorizations granted based on 10 CFR Part 710, Criteria and 
Procedures for Determining Eligibility for Access to Classified Matter 
or Special Nuclear Material. The centralized management of access 
authorizations and related data is performed in a cost-effective, 
efficient manner using electronic databases and Internet-capable tools 
that comprise the electronic DOE Integrated Security System (eDISS+). 
These electronic tools support and track the adjudication process from 
the beginning to the disposition of the access authorization request. 
Either the Federal Bureau of Investigation or the Office of Personnel 
Management performs the background investigations as required by law or 
DOE requirements.
Program Direction ($100,043,000)
    Program Direction provides the salaries, benefits, travel, working 
capital fund and other related expenses for the 437 Federal employees 
as well as other resources and associated costs required to provide 
overall direction and execution of HSS programs. It provides for 
implementation of the Independent Oversight program of evaluating the 
Department's performance in safeguards and security; cybersecurity; 
emergency management; environment, safety and health; and any other 
subject areas as dictated by the Secretary and Deputy Secretary and 
support to the Departmental Representative to the Defense Nuclear 
Facilities Safety Board.
Specialized Security Activities ($150,815,000)
    Funding is provided to identify and communicate information 
necessary to ensure adequate protection of the Department's national 
security assets.

                  HSS PRIORITIES FOR FISCAL YEAR 2008

    As the Chief, HSS Officer, I am constantly aware of the vital role 
and significant responsibilities HSS has to ensure the HSS functions of 
this department are strengthened. To meet this commitment, one of our 
major priorities is to institutionalize our activities. Additionally, 
other key HSS priorities for fiscal year 2008 to ensure we meet our 
commitment are to:

        <bullet> Improve the quality and timeliness of safety and 
        security policy and directives
        <bullet> Enhance worker health and safety based on priorities 
        developed from operating experience, health studies and 
        surveillance data, independent oversight results, enforcement 
        activities, and other stakeholder feedback
        <bullet> Enhance Federal expertise in the area of line 
        management oversight of field operations and the effective 
        application of resources
        <bullet> Improve issues management to provide a foundation for 
        continuous improvement and preventing recurrences of adverse 
        events
        <bullet> Improve interface with the DNFSB
        <bullet> Improve the worker health, safety, and security 
        interface
        <bullet> Implement the Elite Protective Force
        <bullet> Increase Emphasis on Security Technology Deployment
        <bullet> Continue and Enhance Independent Oversight

                           CONCLUDING REMARKS

    Mr. Chairman and members of the subcommittee, the Secretary of 
Energy created HSS to strengthen worker health, safety, environment, 
and security functions within the Department. Since its creation, HSS 
has received strong and continual support from the Secretary, the 
Deputy Secretary, and the Department's leadership. In the past 6 
months, we have made significant strides towards improving the health, 
safety, environment, and security functions of the Department, 
including better alignment of responsibilities associated with these 
functions. We are confident that with the continued support of DOE 
management, our stakeholders, and Congress, we can expand on the 
accomplishments of the past 6 months and further strengthen the 
Department's health, safety, environment, and security functions. This 
strengthening will better ensure that all DOE workers, the public, and 
our national security assets are safe and protected.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Bill Nelson. The protective force at the Pantex 
plant had a strike a couple of weeks ago. With one exception, 
the security forces that protect those weapons and materials 
are all contractors. So the issue that was raised at Pantex is 
a recruitment and retention issue, the ability to meet their 
physical and training requirements. It's pretty much age-
dependent. So tell us, what do you think we ought to do about 
this as the security force ages?
    Mr. Podonsky. First I will clarify. None of the protective 
forces, contractors or the small group that are Federalized out 
of the Office of Secure Transportation, are part of our 
program, but they are supposed to follow our policies and we do 
inspect them.
    The strike at Pantex is extremely unfortunate. But the 
issue of Federalization--and you are correct, the entire guard 
force all across the complex are contract, either proprietary 
contract or subcontract, with the exception of the Office of 
Secure Transportation folks. In order to understand the full 
issue, if you will indulge me, Mr. Chairman, let me explain 
what former Secretary Spence Abraham wanted us to do in 2003. 
He wanted to set forth some initiatives in a post-September 11 
environment to strengthen the posture of security throughout 
the Department.
    So, one of those 14 initiatives was looking at an option of 
whether Federalization of the Guard force would make it a more 
effective force. What we did with the former Administrator 
Linton Brooks and myself and other parts of the Department, we 
constituted a protective force working group. What that working 
group did, for about 6 months, they examined all the options 
and they concluded that the contract force model combined with 
an Elite Force Initiative, which I will explain in a moment, 
would provide the protection strategies that we need at some of 
our most sensitive facilities.
    But the concept of Federalization in some sectors became 
something of a misnomer as to what that meant. What we 
discovered and what former Administrator Linton Brooks and 
myself said in correspondence to then-Deputy Secretary Kyle 
McSlarrow--was that, while that might prove to be an option 
that is favorable down the road, for the expedience of getting 
the safeguards security posture to the level that we need in 
the post-September 11 environment, we really need something 
quicker and more definitive.
    The working group discovered that the contract model 
together with the elite force concept was the best way to go.
    But the issue of taking care of our security forces, taking 
care of our first responders, is still very much there. Within 
the training requirements, which have been there since the 
1980s, we have various levels of expectations for the security 
officers and we have built into the requirements that if they 
are injured on the job or if they are getting older, like Mr. 
Rispoli and myself, and cannot perform any more, then there is 
a place for us to retreat to within the Guard force.
    What we think needs to happen--and I have talked to the 
acting Administrator, Bill Ostendorf, as recent as this 
morning--is we think that not only down at Pantex, but our 
entire security forces, need to be dealt with in a fashion that 
they feel like they are being taken care of. They are putting 
their lives on the line and we do think that the policies are 
there to help them. But, I think it would be helpful for us to 
examine further what else the Department can do in that regard, 
because there may be retreat capabilities back into 
corporations that they are working for or other solutions.
    Senator Bill Nelson. Well, you were recently at Pantex. 
What is your assessment of their capabilities?
    Mr. Podonsky. We were asked by the Secretary and the acting 
Administrator to send an independent group down and they went 
down last week. To the credit of the Pantex site office, they 
did an extremely outstanding job standing up a contingency 
force. Our folks, 10 days into the strike, felt that the 
security forces were providing competent security at the levels 
that we would expect.
    Our biggest concern, Mr. Chairman and Senator Sessions, is 
the sustainability. With the number of hours that the security 
officers are working, with the amount of time that they are 
going to put in, not knowing when the strike might be over, we 
are concerned about the level of security over the long haul.
    So at the 10-, 11-, 12-day period when my inspectors were 
down there, I have every confidence to tell you that nuclear 
material is protected. But beyond that, we become very 
concerned, and we have expressed this to the acting 
Administrator and we have expressed this to the Secretary.
    Senator Bill Nelson. This temporary protective force that 
was assembled was pulled from other areas. What is the effect 
on the other sites and transportation requirements?
    Mr. Podonsky. We have not gone out to assess it. But in 
talking to the safeguards and security directors at those 
sites, for the short haul, which they consider is the 30-day 
period, they do not feel that their safeguards security posture 
will be adversely affected. But we, from an independent 
standpoint, again feel the sustainability is going to be the 
question.
    So it is not just going to be the Pantex safeguards and 
security posture that we are going to be concerned about, but 
it is going to be these other sites, Mr. Chairman, as you point 
out, where they provided security officers who are working 
extended hours. They are going to have to be rejuvenated when 
they go back to their own sites. So there is a long line of 
concerns that exist with every passing day.
    Senator Bill Nelson. Who is in charge of security at Pantex 
today?
    Mr. Podonsky. It is a guard force out of BWXT, which is the 
main contractor. Then they report to BWXT, and of course BWXT 
reports to the NNSA through their site office.
    Senator Bill Nelson. Well, Federal forces cannot be under 
the authority and direction and control of contractors.
    Mr. Podonsky. That is correct.
    Senator Bill Nelson. How have you avoided that here?
    Mr. Podonsky. What NNSA has avoided is that the Office of 
Secure Transportation, those couriers that went to help 
supplement the security forces, they are under the supervision 
of the Federal site office, is what I am told. So they avoided 
the Federal couriers being directly supervised by the contract 
guard force. It seems to be working, but that also is an 
awkward way to operate.
    Senator Bill Nelson. You jump in at any point here.
    I will conclude this part. What about these other 
protective force contracts as they are coming up for 
negotiation? Are we anticipating any strikes there?
    Mr. Podonsky. Mr. Rispoli, for example, at Savannah River 
has a protective force contract that is coming up. It is my 
understanding, using his site as an example, is that they have 
agreed to hold off on the renewal of the contract, and we 
believe that this is going to be the theme throughout the 
complex. People are watching to see what the results are out at 
Pantex.
    So there is no doubt, Mr. Chairman that the reverberation 
is going to be more than just Pantex.
    Senator Bill Nelson. Do you think that DOE could manage a 
temporary protective force at more than one site?
    Mr. Podonsky. I am not a labor law expert, but I do believe 
that from a standpoint of how many security officer strikes we 
can handle. I think we are going to be stretched just with the 
one that we are working on now.
    Senator Bill Nelson. Then the next question that is begged 
is--when does work slow down or stop as a result of the 
security concerns?
    Mr. Podonsky. Well, we plan to go back down to Pantex, for 
example. If they go beyond the 30 days, we plan to go back down 
to see what the effect is long term. Our recommendation may, in 
fact, be to the Administrator and to the Secretary that they 
may have to curtail operations.
    Senator Bill Nelson. In the past, DOE has looked at 
management options for the protective forces. Do you know 
anything about those reviews in the past and could you 
summarize for the Committee the findings and the conclusions?
    Mr. Podonsky. There has been a number of studies over the 
last 20 years on security of the DOE. All of them resulted in 
what I would summarize from my personal and professional belief 
is that a concern in terms of the rigor in which security is 
being focused on by management.
    Part of the organization that I manage, the predecessor 
that was created from Security Operations, which was policy, 
and the Office of Security and Safety Performance Assurance, 
which was oversight--former Secretary Abraham pulled those two 
offices together and we saw in the last 3 years quite an 
improvement in performance of security based on putting the 
policy and the overseers together so they were not at conflict 
and they could check out how effective the security forces were 
and how effective the policy was, because, quite honestly, Mr. 
Chairman, the security policies as well as the safety policies 
need to be reviewed so that they are better understood and the 
implementation can be made in a way that is not so costly.
    One of the issues that Secretary Bodman saw, as I mentioned 
at the beginning of my opening statement, we also saw the 
problem with the safety. I would conclude it this way after a 
number of years in the Department. It is not rocket science. It 
is a matter of managing the resources and taking care of the 
people and making sure that they can take care of the mission.
    Senator Bill Nelson. Well, let us know if you need any 
legislation on this whole matter of security.
    Senator Sessions. Mr. Podonsky, as I understand it the 
striking employees are employees of a private contractor.
    Mr. Podonsky. Yes, sir.
    Senator Sessions. The strike is to call on not the 
contractor, but the Federal Government, to make them Federal 
employees? Is that what the issue is?
    Mr. Podonsky. I have to be somewhat cautious since there 
are negotiations going on between the company and the union. As 
I understand it, there are a number of issues at play. One of 
the issues that seems to be a prevailing issue that has been 
written about in the newspapers and talked about in a number of 
sectors was this issue of Federalization. I think, Senator 
Sessions, when you were out I talked about Federalization.
    But briefly, I will just tell you, we did in fact for 
former Secretary Spence Abraham do a special review of the 
option of Federalization, which was not the intent. 
Federalization was an option possibly to improve the posture of 
how we have our protective forces. What I mentioned to the 
chairman is that the committee that was both field experts as 
well as headquarters, both NNSA and the Department, concluded 
that the contractor model together with what we call an Elite 
Force Initiative provided us the posture of security that we 
needed throughout.
    Senator Sessions. But is that not a basis for the strike? I 
just do not know.
    Mr. Podonsky. I believe, in my personal opinion, that it is 
an understanding by the security forces that Federalization 
might provide them job security, which they do not currently 
have. That is what their view is.
    Senator Sessions. That is, I am sure, because it is hard to 
leave the Federal Government, except for us. We can be voted 
out like that.
    Mr. Podonsky. After this hearing, Senator, I might be out 
too.
    Senator Sessions. Maybe not. Thank you.
    Well I am sorry we have had that strike. I have been 
through those processes and had some that worked out where we 
privatized things like lawn care at military bases and other 
things have been privatized. Other things have not proven to be 
effective to privatize. So it is a matter worthy of 
consideration.
    Mr. Rispoli, thank you for your testimony. You seem to be 
in command of the facts and figures of these issues and I 
respect that. For example, the $3 billion contingency fund that 
you hope not to spend, if the DOE does not spend it who gets 
that money?
    Mr. Rispoli. That $3 billion, of course, is spread out over 
the entire construction period for the project, which goes to 
2019. So as we enter each year and we have that contingency 
amount set aside, if it is not spent then we would be required 
to come back to Congress under the current reprogramming rule 
if we wanted to move it anywhere else.
    I will also mention to you that because of the significance 
of this project, Deputy Secretary Clay Sell has asked me to 
brief him once a month on this project. Part of that briefing 
will be a focus not only on the performance of the contractor, 
but also whether or not any of that contingency needs to be 
used in a month-by-month basis. So we are keeping a very close 
hold on the use of that contingency.
    Senator Sessions. But it does not redound to the benefit of 
the DOE. It really would either go back to the DOD or be spent 
otherwise on some DOD program in the DOE.
    The only point I was making with that, as I indicated to 
you earlier, is that one of the things I think, Mr. Chairman, 
that is a bit dysfunctional in this process is that DOE manages 
these programs. But, unlike the DOD, let us say they save money 
on a missile system or aircraft, they can spend it on some 
other program. If he saves money on a cleanup, he does not get 
it; it goes. So I think the DOE has less of an incentive than 
you would like to rigorously manage these contracts.
    But I raised this for Secretary Bodman last year. It does 
appear you have taken a number of aggressive steps, I have to 
say, and I am thankful for that. How did you discover there was 
a $50 billion underestimate of the cost?
    Mr. Rispoli. We found that primarily in two ways. One is 
that there had been an artificial wall, you might say, that 
precluded or kept out of our program known cleanup, much of it 
at Oak Ridge, much of it at Los Alamos, but really throughout 
the complex. You may recall that at one time the Department had 
proposed creating an office called the Office of Future 
Liabilities. The idea was to lock down the EM program to just 
this, period, this looking back, and all these future needs 
coming up would go to another office.
    Well, this wall had been placed that shut out known work at 
Oak Ridge, Los Alamos, and other sites. So a large segment of 
what has to be added to the program is that artificial wall 
that kept these projects out.
    Senator Sessions. You are sure these are legitimate, these 
are going to be necessary costs? When was this miscalculation 
effectuated? Before your time?
    Mr. Rispoli. It was before my time in this position. But 
the Deputy Secretary issued a program decision memorandum in 
August 2006, that essentially established my organization as 
the office that would take on future liabilities such as those. 
So that prior decision was reversed in August 2006. But I do 
not want to mislead you. The other part of the program growth 
is due to, for example, the waste treatment plant at Hanford 
and the resulting cost of having to operate that tank farm for 
many years more than we originally thought. So it is a mix of--
--
    Senator Sessions. Why is it many more years than you 
originally thought?
    Mr. Rispoli. The waste treatment plant was----
    Senator Sessions. Somebody should have thought about this, 
should he not?
    Mr. Rispoli. The waste treatment plant was envisioned to 
come on line much sooner and because it cannot come on line 
sooner, but it is sized to process so many gallons per year, 
that means that since it cannot begin on time. It therefore has 
to extend its functioning for so many more years in the future.
    Senator Sessions. Is it entirely settled with the State of 
Washington what amount of waste might be left in the tanks? It 
that something firmed up?
    [The information referred to follows:]

    The Office of Environmental Management has confirmed that the 99-
percent target figure is correct.

    Mr. Rispoli. The State of Washington knows how much we 
endeavor to remove from the tanks. If I am correct--and if I am 
not I will correct myself for the record--but 99 percent is the 
target; to remove 99 percent of the waste from those tanks and 
process it through this waste treatment plant. The balance of 
the waste in that tank, the intent would be to grout those 
tanks to stabilize them so they would not collapse, and you 
would protect the public and the environment from whatever 
residual is left inside those tanks, the remaining small 
percentage.
    Senator Sessions. The matters are complex. I know there are 
lawsuits pending. The State of Washington is making a number of 
demands and some of those actions have delayed matters, which 
increases costs. You would think that they would want to 
proceed as rapidly as possible. I know there are just a lot of 
difficulties there and I do not minimize it. I have been 
through cleaning up poisonous gas and I know how people in 
communities care about it.
    But ultimately it is the responsibility of, I guess the two 
of you, what is safe, and what is sufficient. It is not over 
with me in terms of, if we could do this cleanup, which is a 
very vague thing in my mind--I am not sure how exact it is--you 
save 10 percent that is $17 billion, that is real money here.
    So I hope that you will continue to manage this as closely 
as you can. I intend to study it more myself.
    Mr. Rispoli. Yes, Senator. If I may, again the keys are 
better estimates with a better evaluation of assumption of 
risk, stronger Federal management and oversight of our 
contractors, and the way we structure the contract to 
incentivize exactly what you are talking about, and that is 
saving money and saving time. Those are the elements that we 
are pushing on to implement as we go forward.
    Senator Sessions. I just have to tell you that to have an 
announcement that we have a $50 billion error in our accounting 
is one of the biggest errors maybe in the history of the 
Republic. I do not know, but that is a lot.
    Mr. Rispoli. Yes, sir.
    Senator Sessions. So somehow we need to watch it closely.
    Thank you, Mr. Chairman.
    Senator Bill Nelson. There has always been disagreement 
over the future for the EM and whether or not we are going to 
clean up past contamination and contaminated facilities, or if 
we are going to set an arbitrary date to stop work and other 
programs are going to assume the responsibility for that 
cleanup.
    Now, the arbitrary date was not realistic. Is there, Mr. 
Secretary, a process for understanding and planning additional 
cleanup and decommissioning activities, particularly as the 
NNSA begins to consolidate the weapons complex further?
    Mr. Rispoli. Mr. Chairman, that is a very significant 
question, and in fact the August 2006 reference I made to a 
program decision by the Deputy Secretary essentially answers 
that question. The answer to that question is that as any 
program, whether it be the NNSA or the Office of Science or the 
Office of Nuclear Energy, which is in Idaho, for example. As 
they complete their use of facilities, if those facilities are 
contaminated they would become the programmatic responsibility 
of my program.
    That is part of the reason why there is program growth, 
because one way or the other those facilities will have to be 
taken care of. The Department has chosen to put them into the 
EM program rather than have three or four entities on the same 
installation.
    Let us take Oak Ridge: has EM, it has the Office of 
Science, and it has the NNSA. If each one were doing their own 
cleanup, it would be very, very hard to really recognize the 
full cost of cleanup and it would I think be confusing for the 
regulator and the State to have to deal with three separate 
entities doing the same type of work.
    So I personally believe the decision by the Deputy 
Secretary, as concurred in by all of the planners in a 
recommendation to him, is the correct one. That is that all of 
these future liabilities should be turned over to the Office of 
Environmental Management, who would build the expertise and the 
contract tools to do it.
    So it is program growth, but we have to recognize that part 
of that program growth is future liabilities that have to be 
added to the program. Otherwise, as you asked in your question, 
the NNSA would be doing some and the Office of Science would be 
doing some. I am not sure that would be the best way to manage 
this effort at a given installation.
    Senator Bill Nelson. Did you ask for this job?
    Mr. Rispoli. No, sir. I was invited to this job and I am 
honored to be here.
    Senator Bill Nelson. Mr. Podonsky, your office issued the 
most recent Design Basis Threat (DBT) analysis. When must all 
the DOE sites come into compliance with your design basis 
threat analysis, DBT analysis?
    Mr. Podonsky. Mr. Chairman, if you will again allow me, let 
me explain. I will answer your question. The DBT is not a 
threat assessment from the Intelligence Community. It is 
advised by the Intelligence Community and they give us what 
they consider to be concerns that we should be putting in our 
planning.
    The DBT then becomes a tool for the security planners on 
strategies to be deployed, and moneys to be planned. It is a 
very important process. The November 2005 DBT was signed by 
Deputy Secretary Sell, and the agreement was that everybody 
would be in compliance by the end of fiscal year 2008. In fact, 
there are multiple sites that are moving successfully towards 
that completion. They have proven to be successful in the fact 
that the 2003 DBT, they had to be completed by the end of 
fiscal year 2006, which we just passed, and everybody was 
meeting up to those numbers.
    What the Deputy Secretary also considered is that there are 
some sites that have special considerations that need to be 
planned for and budgeted for. So there are one or two sites 
that will not be compliant by that date of 2008, but they have 
exceptions from the Secretary.
    What we are doing as an independent arm of the Department 
is we are assessing how progress is being made. Quite candidly, 
in a post-September 11 environment we are very concerned about 
how fast we lay out our protection strategies and meet those 
strategies.
    As I have said in my opening statement, we are currently 
comfortable to state to you and the committee that the security 
assets at the Department are in fact being protected. But it is 
an evolving threat that we face and with an evolving threat we 
also have to keep in mind that we have to continue assessing 
the performance at those sites.
    Those sites that will not be compliant by 2008, we are 
looking for compensatory measures to be in place so in fact 
nothing is going to be more vulnerable than we intended it to 
be.
    Senator Bill Nelson. Other than Hanford, what are the ones 
that are not going to make your deadline?
    Mr. Podonsky. The other one as I recall is, I want to say 
Savannah River. They are on track, but we are watching. Off the 
top of my head, and I will give you a more complete answer for 
the record, but from the NNSA sites, Pantex, Y-12, most all of 
their facilities are on track. The facilities that are not on 
track, obviously Hanford was one, and I will have to double-
check which is the other one. There are only two, I believe.
    Senator Bill Nelson. Let us know for the record, and when 
you expect them to come into compliance.
    [The information referred to follows:]

                    2005 Design Basis Threat Policy

    The Department of Energy recently completed its annual review of 
the Design Basis Threat (DBT) Policy, which resulted in the affirmation 
that the 2005 DBT continues to balance complex safeguards and security, 
operational, fiscal, and safety planning factors to achieve a stable 
and long-term security planning base. Additionally, based on the 
lessons learned from the successful implementation of the 2003 DBT, the 
annual review and subsequent Departmental guidance acknowledges that 
the Program Offices, in conjunction with their site elements, should 
determine ``how'' and ``when'' the 2005 DBT will be implemented. This 
additional provision allows for the prudent consideration of each 
site's unique operational and security planning variables, and supports 
the most efficient means of implementation through the relocation and/
or consolidation of special nuclear material and/or the application of 
security technologies. Based on these factors, implementation will be 
accomplished in a phased manner with unique and well defined milestones 
for each site. As an example, Pantex, the Office of Secure 
Transportation (OST), and Lawrence Livermore National Laboratory (LLNL) 
will implement the 2005 DBT by the end of fiscal year 2008, whereas Y-
12 is already compliant with the 2005 DBT at one facility, and their 
remaining facilities will be compliant following the construction and 
transfer of special nuclear materials to the Highly Enriched Uranium 
Materials Facility (HEUMF). HEUMF illustrates the efficiencies (e.g., 
cost, increased survivability, etc.) that can be attained by 
integrating advanced security technologies in the facility design 
process, versus the continued reliance on manpower to address security 
challenges presented by antiquated facilities.
Background
    For each site with a proposed implementation date beyond the end of 
fiscal year 2008, each site is required to systematically address their 
current system performance, the feasibility of compensatory and interim 
security measures, and the level of performance and risk over the out-
years based on cost-benefit analyses. These factors combined with and 
coordinated among other budgeted programmatic initiatives (e.g., line-
item construction projects) provided the necessary information for 
senior decision makers to ensure the feasibility and appropriateness of 
the long-term DBT implementation goals.
    Status of sites:
    Y-12--As noted in the National Nuclear Security Administration 
(NNSA) 2003 DBT Implementation Report, the 2005 DBT was fully 
implemented at one Y-12 facility. The remaining Y-12 facilities are 
scheduled to be compliant by the end of fiscal year 2011, which 
corresponds to completion of the HEUMF. This deferral of implementation 
is consistent with sound risk management principles and will result in 
avoidance of costly and temporary security enhancements (e.g., hiring 
additional protective force personnel) for those materials that will 
ultimately be relocated to HEUMF.
    Pantex--Implementation of the 2005 DBT is scheduled to be completed 
by the end of fiscal year 2008.
    Lawrence Livermore National Laboratory--Implementation of the 2005 
DBT is scheduled to be completed by the end of fiscal year 2008.Nevada 
Test Site--Due to the cost and complexity of the proposed 2005 DBT 
upgrades, NNSA is scheduled to implement the 2005 DBT at NTS by the end 
of fiscal year 2009.
    Los Alamos National Laboratory (LANL)--Implementation of the 2005 
DBT at LANL is scheduled for the end of fiscal year 2011. This 
milestone corresponds to the completion of the Nuclear Materials 
Safeguards and Security Upgrades Project II (NMSSUP Phase II) which 
provides the permanent security upgrades needed to meet the DBT 
requirements in a cost effective manner.
    Sandia National Laboratories (SNL)--Technical Area--V at SNL will 
be de-inventoried below a category I/II SNM quantity by the end of 
fiscal year 2008 thereby eliminating the need for any additional 
enhancements or upgrades to meet the 2005 DBT.
    Office of Secure Transportation--OST is scheduled to implement the 
2005 DBT by the end of 2008.
    Oak Ridge National Laboratory (ORNL)--The Under Secretary of 
Science rendered a non-enduring facility status determination for the 
ORNL facility on April 9, 2007, with notifications to the Deputy 
Secretary. As such, the site will maintain appropriate security 
measures associated with the 2003 DBT and will add additional security 
enhancements above this level as required.
    Idaho National Laboratory--The Idaho National Laboratory has 
requested an extension until August 17, 2007, for submitting its 
implementation plan for the 2005 DBT.
    Savannah River Site (SRS)--Implementation of the 2005 DBT is 
scheduled to be completed by the end of fiscal year 2008.
    Hanford--The site is currently operating on an approved deviation, 
which supports relocating select materials by the end of fiscal year 
2009 and delaying full implementation of the 2005 DBT. The site is 
using risk management principles to maximize the cost-benefit of 
resource allocations while providing the greatest long-term security.

    Senator Bill Nelson. Senator Thune?
    Senator Thune. Thank you, Mr. Chairman, and I want to thank 
the panel for your work and for the recognition by your agency 
and by Secretary Bodman of the importance to our national 
security of expanding our Nation's use of renewable fuels by 
requiring the use of 35 billion gallons of renewable fuels by 
2017.
    I represent a State that has the ability to be a major 
contributor to this effort through the production of ethanol as 
well as other sources of alternative energy. I have often 
described my State as the Saudi Arabia of alternative sources 
of energy, particularly wind. We have lots of wind.
    But your work on the issue is no doubt going to help us 
advance the cause of national security by us promoting energy 
security, and so I thank you for your efforts on that important 
issue.
    Just a couple of questions if I might. This question has to 
do with your agency's counterproliferation programs. I would 
like to ask this question and respond to it if you can, but my 
understanding is that Russia is currently producing about 1.2 
metric tons of weapons grade plutonium per year in three of its 
nuclear reactors. I also understand that we are working with 
the Russians to turn these reactors into fossil fuel power 
plants through the elimination of the weapons grade plutonium 
production program as part of our nonproliferation efforts.
    When do you anticipate that this transformation from 
nuclear reactor to fossil fuel plant will occur, and why is it 
that the Russians continue to manufacture what seems to be a 
needlessly large amount of weapons grade plutonium and simply 
increasing the risk that it could fall into the hands of 
terrorists?
    Mr. Rispoli. Senator Thune, thank you for that question. I 
am familiar with that program from a prior position in the 
Department. I know about the initiative in two of the former 
Russian nuclear cities to replace the weapons-producing 
reactors with fossil power plants. Unfortunately, that program 
is not part of my purview, so I can take that question for the 
record, but I cannot answer that question.
    [The information referred to follows:]

        <bullet> The three remaining Russian plutonium-production 
        reactors, which are graphite-moderated reactors built in the 
        1960s, provide essential heat and electricity to the nearby 
        cities of Seversk and Zheleznogorsk. They also, as a function 
        of their operation, produce weapons-grade plutonium. Plutonium 
        production is a byproduct of the production of heat and 
        electricity. One action cannot occur without the other.
        <bullet> DOE/NNSA's Elimination of Weapons Grade Plutonium 
        Production (EWGPP) program, which is being conducted under the 
        auspices of the Plutonium Production Reactor Agreement between 
        the United States and Russia, seeks to eliminate the production 
        of weapons-grade plutonium from these reactors. Under the EWGPP 
        program, the United States is working with the Russian 
        Federation to build fossil fuel power plants that will provide 
        replacement heat to the cities surrounding the plutonium-
        producing reactors. In exchange, the Russian Federation has 
        agreed to permanently shut down the reactors.
        <bullet> It is anticipated that the first two reactors will 
        permanently shut down by December 2008 when the fossil fuel 
        plant will come on line in Seversk. Weapons grade plutonium 
        production will decline from approximately 1.2 metric tons per 
        year to approximately 0.4 metric tons per year. The last 
        reactor in Zheleznogorsk is scheduled to be permanently shut 
        down by December 2010 with the last fossil fuel plant beginning 
        operation at that time, ending weapons-grade plutonium 
        production in the Russian Federation.

    Senator Thune. That would be great if you could.
    Do either of you happen to know, and I just ask this 
question, how much weapons grade plutonium the U.S. 
manufactures annually?
    Mr. Rispoli. I believe the answer to that is zero today, 
yes, sir.
    Senator Thune. That was my assumption.
    Mr. Rispoli. Now, of course, my program is working together 
with the weapons side of the house, the NNSA, to disposition 
the excess plutonium that is in our departmental inventory, 
with the purpose of reducing the potential for proliferation 
into the wrong hands. So we and our NNSA partners are working 
toward that and, as I mentioned a little while ago, we just 
delivered today to this committee and others a business case 
analysis of the approach for disposing of surplus weapons grade 
and weapons usable plutonium. This is the most current thinking 
as to how we would do that. Basically, we would do that at the 
Savannah River site in South Carolina.
    Senator Thune. Mr. Podonsky, in terms of personnel 
security, I also want to touch on the issue of the October 2006 
case of the classified documents that were removed from Los 
Alamos by a contractor. From what I understand, the security 
lapse would probably not have been discovered had it not been 
for a domestic disturbance at the contract employee's home. It 
turned out that this contractor has classified files at her 
residence, and we have also learned that the contractor had 
been using illegal drugs within 30 days of her security 
clearance being approved.
    Given the emphasis on safety and security within your 
agency, could you perhaps inform us on the steps that are being 
taken to correct the personnel security deficiencies at Los 
Alamos?
    Mr. Podonsky. Yes, Senator. Secretary Bodman initiated two 
task forces. One was looking at the cybersecurity. That was 
headed up by our Chief Information Officer, Tom Pike. The other 
was the task force on personnel security that he asked the 
three under secretaries and myself to head up, with my office 
taking the lead.
    What we concluded and made recommendations to the Secretary 
that he agreed to is that the security professionals that are 
in the business of making the determinations on security 
clearances, we needed to have a more robust training and a 
certification, which was not taking place previously. We needed 
to do an implementation of a more rigorous drug testing program 
within the Department. We needed to take a look at the policy 
for personnel security to make sure that it was consistently 
applied, and in order to do that redouble our efforts for 
quality control over the decisions that were being made out in 
the field elements.
    Then the final one was to develop an organization where all 
the personnel security functions came into one organization. 
The Secretary finally decided, with the Deputy Secretary, that 
that organization would reside within my office. So we are 
moving out to look at the setting up of that program, and are 
making sure that we have the policies in place that are going 
to be fully implemented and understood.
    Our national training center, which also falls under us, we 
have a training program and a certification program being set 
up right now as we talk. We have instructed our inspectorate to 
make sure that they redouble their efforts in terms of 
inspecting what they are doing out there in the personnel 
security environment.
    The other thing that we also are doing is doing a complete 
review of the case files during that time period of the subject 
review. We did an initial review while we were there. 
Coincidentally, when we were at Los Alamos at the time that 
this broke, we were already doing a regular scheduled 
inspection. Part of our inspectorate went down to Albuquerque 
service center and took a look at the cases, and in a closed 
session I can tell you what we found. But we did find that the 
steps that the Secretary agreed to were very important to take.
    Senator Thune. Let me just ask you one other question. You 
are the Chief Health, Safety, and Security Officer for the 
Department. Regarding another issue I guess you could argue on 
personnel security and cybersecurity within the agency, but the 
Federal Emergency Security Management Act, which establishes 
procedures to ensure information security within all agencies 
of the Federal Government. I assume you are probably aware that 
that annual scorecard that is issued by the House Government 
Reform Committee ranking member last year graded your agency as 
an F in information security, this year has upgraded to a C-
minus.
    Obviously, as the steward of our nuclear stockpile, top-
notch information security is absolutely critical. I appreciate 
the fact that you are obviously taking significant steps to 
improve cybersecurity and I think that is reflected in the 
improvement in your FESMA score. But I wonder if you could tell 
us your thoughts on your agency's score, what steps you plan to 
take to further improve security at your agency. My 
understanding is that, as you said, the task force has been 
established, and if you could just elaborate a little bit on 
that.
    Mr. Podonsky. Mr. Pike is our chief information officer and 
he is responsible for the policies for cyber. Those are the 
only policies that we do not have in our organization. We are 
responsible for the independent oversight and we are working 
very closely with Mr. Pike because over the last decade we have 
seen a number of issues with cybersecurity throughout the 
complex. We have seen some improvements in terms of the 
understanding of what their implementations are, but we have a 
long way to go.
    In fact, the entire Government has a long way to go. I 
would tell you, Senator, it is not the physical security part 
of our Department or any other agency that I worry the most 
about. I worry mostly about our cyber world. We have a cyber 
penetration lab out in Germantown, Maryland, and at one point 
we actually moved it here to the floor of the House to do a 
live demonstration of how easy it is for hackers to get into 
unclassified arenas.
    We have a red team, which is a no-notice penetration team, 
that if you rank order kiddie hackers at, say, a level 3 and 
more sophisticated hackers at a level 2, and then nation 
states--and I will not go into classified here--that are really 
sophisticated, we are at a high level 2, and we are constantly 
challenging the Department and its capabilities. So when we 
talk about the improvements, there have been improvements under 
Mr. Pike's leadership and with Secretary Bodman's encouragement 
and support. But we also continue to do active security attacks 
ourselves using our penetration lab to still continue to plug 
the holes.
    Part of the problem for the entire Government, not just the 
Department, is how fast the dynamics of the threat is in the 
cyber world. No sooner do we plug a hole, fix vulnerability, 
than they figure out another way to come. So it is a real 
challenge.
    The rating systems that are in the Government Reform--and 
it is notable that the Department moved up, but it would be 
much better for our agency to be at a much higher level, 
considering all that we are protecting.
    Senator Thune. I assume that we are trying to hire all the 
best counter-hackers to make sure that we are meeting the skill 
sets and the level of capability that the hackers have to get 
in? I mean, you are absolutely right, this is a very serious 
threat and it is the world we live in. If there are resource 
issues associated with that, that we need to address, certainly 
let us know what those are, because I, like you, am very 
concerned, not only with your agency, which because of its 
stewardship of the nuclear stockpile is critical, but I think 
in every agency of Government this is a very serious, again, 
real world threat that we face.
    Mr. Podonsky. Senator, if I might add, and Mr. Chairman, 
from a classified, our classified network is very well 
protected. It is the other areas, the research and development. 
It is the unclassified arena that we are all very concerned 
about, and I think every one of us in Government should be 
concerned about the cyber world.
    Senator Thune. Thank you.
    Thank you, Mr. Chairman.
    Senator Bill Nelson. Secretary Bodman's statement will be 
made a part of the record and the record will stay open for 4 
days.
    The hearing is adjourned. Thank you.
    [Questions for the record with answers supplied follow:]

               Questions submitted by Senator Bill Nelson

                      RELIABLE REPLACEMENT WARHEAD

    1. Senator Bill Nelson. Secretary Bodman, one of the most difficult 
decisions that Congress will face this year with respect to your 
Department is whether or not to begin the research funds for the 
Reliable Replacement Warhead (RRW). How important is it in your view 
that funds be made available for the phase 2A study on the RRW?
    Secretary Bodman. Funding for the RRW Phase 2A Design Definition 
and Cost study is very important. The 18-month study conducted in 2005 
and 2006 determined that development of replacement warheads with 
larger performance margins and certifying them without additional 
underground nuclear testing are feasible. The Phase 2A study will 
develop the detailed cost, scope and schedule baseline for the RRW 
which is needed by National Nuclear Security Administration (NNSA), the 
Department of Defense (DOD), and Congress in order to make informed 
decisions on whether and how to proceed to the engineering development 
phase.

    2. Senator Bill Nelson. Secretary Bodman, in testimony before the 
House Armed Services Committee, former Senator Sam Nunn said, with 
respect to the RRW, ``I believe that this will be misunderstood by our 
allies, exploited by our adversaries, and complicate our work to 
prevent the spread and use of nuclear weapons.'' Senator Nunn went on 
to say that the RRW would be better received in the context of a 
ratified Comprehensive Test Ban Treaty. What consultations have 
occurred with other nuclear weapons states such as Russia, France, the 
United Kingdom, and China, as well as non-nuclear weapons states who 
are friends and allies, and with what result?
    Secretary Bodman. In advance of the announcement of preferred RRW 
design, the Department of State and the Department of Energy (DOE) 
consulted with allies of the United States to ensure that they would 
have accurate information relating to the RRW.
    Specifically, the Department of State consulted with the North 
Atlantic Treaty Organization (NATO) countries, Japan, South Korea, and 
Australia, and also with Russia, Ukraine, and China in advance of the 
joint DOD-DOE March 2, 2007, announcement of the selection of the 
preferred RRW design. Information about the March 2 RRW announcement 
was also sent to other U.S. diplomatic posts for use if asked by other 
governments. In addition, both before and after the March 2 
announcement, DOE officials met in Washington with officials from the 
embassies of the United Kingdom, Japan, France, Germany, and Denmark, 
at their request, to discuss RRW and proposed plans for the Complex 
2030 transformation. All feedback received from foreign governments was 
positive and none have expressed any concern with regard to our plans 
for RRW.

                      ANNUAL CERTIFICATION PROCESS

    3. Senator Bill Nelson. Secretary Bodman, the annual certification 
process includes a review of each weapon in the stockpile by the 
laboratory directors, the Commander of the Strategic Command, you, and 
the Secretary of Defense. You are just in the process of finishing an 
annual review for 2006. Is the stockpile safe, secure, and reliable?
    Secretary Bodman. Yes, the 2006 report will reflect that the 
stockpile is safe, secure and reliable and that resumption of 
underground nuclear testing is not required at this time.

    4. Senator Bill Nelson. Secretary Bodman, any decision to build or 
deploy an RRW is years away. But in thinking about the RRW and the 
ongoing annual certification process, how would you think about 
establishing an annual certification process for the RRW?
    Secretary Bodman. If an RRW design is eventually produced and 
placed into the stockpile, it will be reviewed in the annual assessment 
process along with the other warheads in the stockpile. The NNSA design 
laboratories would employ the same broad approach used to verify the 
continued performance of existing warheads. The approach employs tools 
developed under the Stockpile Stewardship Program, including a 
combination of extensive experiments, computational tools, data 
analysis from past nuclear tests, and peer review. The RRW will be 
designed so that key performance parameters are farther away from 
failure points (have greater margin) than current warheads designed for 
high yield to weight. Improved warhead performance margins that will be 
incorporated into the design will reduce uncertainty due to aging, and 
reduce the likelihood that underground nuclear testing will be required 
in the future to resolve a technical problem in the stockpile. The 
quantification of margins and uncertainties for key performance 
parameters will aid in understanding the limits of the performance and 
be the basis for the laboratory directors' certification of a RRW 
design. Engineering and non-nuclear components will have a rigorous 
testing program and the design for these features will consider life-
cycle surveillance needs. This approach will give designers higher 
confidence in their ability to certify the design without underground 
nuclear tests.

    5. Senator Bill Nelson. Secretary Bodman, does the Office of 
Science play a role in the annual certification process? If so, what 
role and why?
    Secretary Bodman. The Deputy Administrator for Defense Programs has 
primary responsibility for the coordination and work involved in the 
annual assessment process for the nuclear stockpile. The role of the 
Under Secretary of Science in that process is to serve as an 
independent advisor to the Secretary and to provide his independent 
advice and recommendations.

                           PROJECT MANAGEMENT

    6. Senator Bill Nelson. Secretary Bodman, the DOE builds first-of-
a-kind, or one-of-a-kind, technically-complex projects. In many 
instances these projects have experienced significant cost overruns and 
schedule delays. The Office of Engineering and Construction Management 
(OECM) was established to help provide an independent review and 
assessment of the cost and schedule baseline for these projects. 
Initially this office reported directly to the Deputy Secretary of 
Energy and had independent budget authority, and had started to require 
independent cost estimates (ICEs) for projects. I am concerned that the 
flexibility of the office, as well as the rigor and the funding for the 
office has diminished. The funding is provided from program offices and 
the ICEs have been replaced by cost reviews--reviews of the contractors 
costs but not an independent cost development. How is the funding 
provided to OECM in the fiscal year 2008 budget request?
    Secretary Bodman. ICEs have not been replaced by independent cost 
reviews (ICR). As part of an External Independent Review (EIR), the 
OECM determines whether an ICE or an ICR is conducted based upon the 
respective project's complexity and risk profile. In fiscal year 2008, 
the DOE Programs fund OECM's EIRs.

    7. Senator Bill Nelson. Secretary Bodman, must the OECM rely on any 
program office, also known as working capital funds, for funding?
    Secretary Bodman. The Department had plans to fund EIRs through the 
DOE Working Capital Fund (WCF), but was unable to implement this 
arrangement due to the continuing resolution in fiscal year 2007, 
Currently, the DOE Programs continue to provide funding for their 
respective EIRs directly to OECM.

    8. Senator Bill Nelson. Secretary Bodman, does the OECM still 
review NNSA projects?

    Secretary Bodman. Yes, DOE Order 413.3A, Program and Project 
Management for the Acquisition of Capital Assets, applies to NNSA 
capital asset projects having a Total Project Cost greater than or 
equal to $20 million. As required by this order, OECM still reviews 
applicable NNSA projects.

    9. Senator Bill Nelson. Secretary Bodman, when was that last time 
the Institute of Project Management reviewed the DOE project management 
process and are any future reviews scheduled?
    Secretary Bodman. To the best of the Department's knowledge, the 
Project Management Institute has not reviewed the DOE project 
management process and no reviews are planned. However, the National 
Research Council has reviewed project management at DOE several times, 
the last report being issued this year. Also, the Government 
Accountability Office has reviewed the Department's project management 
processes and issued a report in May 2007 (GAO-07-51S, Department of 
Energy: Consistent Application of Requirements Needed to Improve 
Project Management). The report found that, although the Department 
needs to improve project performance by ensuring that its project 
management requirements are consistently followed, DOE has improved its 
approach to project management by addressing weaknesses in key areas. 
The Department's OECM has ratcheted up its efforts to enforce 
compliance across the agency.

    10. Senator Bill Nelson. Secretary Bodman, will the OECM review 
projects to determine if the project includes and addresses all safety 
concerns including nuclear operating safety?
    Secretary Bodman. The Department is committed to performing all 
work so missions can be accomplished with adequate controls in place to 
protect the public, workers, and the environment. DOE's project 
management process is documented in DOE Order 413.3 A, Program and 
Project Management for the Acquisition of Capital Assets. The OECM 
recently updated this order to enhance the Department's integration of 
safety early into design and construction. One enhancement was to 
require a Technical Independent Project Review as part of Design 
Reviews for high-risk, high-hazard and Hazard Category 1, 2, and 3 
nuclear facilities. The order also requires that hazards be identified 
and safety be appropriately addressed throughout the life cycle of a 
project as part of the safety management systems for the project. As 
part of its EIRs, OECM assesses whether projects have reasonably 
considered and addressed all Nuclear Regulatory Commission (NRC) and 
Defense Nuclear Facilities Safety Board (DNFSB) issues. If not, the EIR 
team identifies the outstanding issue(s), ascertains when they will be 
resolved, and determines what risks they pose.

    11. Senator Bill Nelson. Secretary Bodman, how will the OECM and 
the DNFSB engage so that OECM is fully aware of all nuclear operating 
safety issues raised by the DNFSB?
    Secretary Bodman. The Department continues to enjoy a productive 
relationship with the Defense Nuclear Safety Board (DNFSB). As part of 
its EIRs, the OECM assesses whether Hazard Category 1, 2, and 3 nuclear 
facilities projects have reasonably considered and addressed all DNFSB 
issues. If not, the EIR team identifies the outstanding issue(s), 
ascertains when they will be resolved, and determines what risks they 
pose.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions

          CONTROLLING CONTRACTOR HEALTH CARE AND PENSION COSTS

    12. Senator Sessions. Secretary Bodman, last year, I supported an 
initiative you began, to try to control the costs for medical and 
pension benefits being provided by DOE contractors. The costs of these 
contractor benefits are born solely and entirely by DOE as a pass-
through cost under DOE contracts. Analysis at that time indicated that 
the costs DOE was reimbursing for pension and medical expenses were 
higher than industry norms. Under substantial pressure from Members of 
Congress representing DOE sites, you suspended the effort to reform 
these costs reimbursements. Where does this effort to bring contractor 
costs for these benefits in line with industry averages now stand?
    Secretary Bodman. During the suspension of this initiative, we have 
been meeting with DOE stakeholders, including Members of Congress and 
other interested parties in an effort to seek their input and/or 
concerns as we consider alternatives to meeting the challenge posed by 
increasing costs and liabilities associated with contractor employee 
pension and medical benefits. In addition, on March 27, 2007, the 
Department published a Federal Register notice to seek public comments 
and/or recommendations on how DOE should address this challenge. 
Currently, we are reviewing over 400 comments in response to the 
Federal Register notice. These comments will be taken into 
consideration as the Department seeks to determine how to best balance 
its responsibility for funding important national missions while 
providing contractors sufficient flexibility to offer benefits that 
will both attract and retain qualified new workers and treat incumbent 
contractor employees and retirees and their beneficiaries fairly.

                   YUCCA MOUNTAIN NUCLEAR REPOSITORY

    13. Senator Sessions. Secretary Bodman, this subcommittee 
authorizes the defense funding which goes toward the development of the 
national high-level waste repository at Yucca Mountain. This defense 
funding, in the amount of about $300 million in fiscal year 2008, is 
added to the approximately $200 million in civilian funding from the 
electric bills of customers in areas with nuclear power plants. The 
disposal program, however, is well behind its statutory deadline of 
1998 for an operating repository. Why should electricity consumers and 
other citizens have confidence that the waste repository is on a path 
to opening eventually?
    Secretary Bodman. The administration is strongly committed to 
having a repository, which is vital to the Nation's energy and national 
security needs, operational as soon as possible. The Director of the 
DOE Office of Civilian Radioactive Waste Management has put into place 
an effective plan to submit a high-quality license application to the 
NRC on or before June 30, 2008, and to move forward with the licensing, 
construction and operation of the repository. To ensure that the 
repository can commence operations as soon as practicable, I urge 
Congress to pass the administration's proposed legislation which 
addresses many of the uncertainties beyond the Department's control 
that could significantly delay the receipt of an NRC construction 
authorization and the repository's opening.

    14. Senator Sessions. Secretary Bodman, what year does DOE project 
the repository will begin to accept the waste that is piling up around 
the Nation?
    Secretary Bodman. In fiscal year 2006 the Department released a 
``best-achievable'' schedule for the start of repository operations in 
2017 which is contingent on a number of factors, including enactment of 
the administration's proposed legislative package, appropriations 
consistent with estimated costs, timely issuance of all necessary 
authorizations and permits, and the absence of litigation-related 
delays.

    15. Senator Sessions. Secretary Bodman, for the last 3 years, since 
fiscal year 2005, Congress has supported, on a bipartisan basis, the 
continued study of the RRW. DOE's budget for fiscal year 2008 requests 
funding of $88 million to continue design and cost studies. This year, 
outside critics and anti-nuclear groups are becoming very vocal against 
any continued study. I believe that my chairman, Senator Nelson, and I 
have worked together in the best spirit of bipartisanship on the RRW--
to advance the RRW in a measured and thoughtful way, with careful study 
and deliberations. I hope we will continue to do so. Have you 
personally involved yourself in the evaluation of the RRW and does this 
program have your personal commitment and active support?
    Secretary Bodman. I have been briefed by the NNSA Administrator and 
his staff on the results of the RRW Feasibility Study. I agree with and 
support the Nuclear Weapons Council determination that the RRW should 
be pursued to sustain the Nation's nuclear weapons stockpile for the 
long-term without the need for underground nuclear testing. I also 
support the Council's decision to conduct a Phase 2A Design Definition 
and Cost study to develop the detailed cost, scope and schedule 
baseline for the RRW which is needed by NNSA, the DOD, and Congress in 
order to make informed decisions on whether and how to proceed to the 
engineering development phase.

    16. Senator Sessions. Secretary Bodman, why do you believe the RRW 
program is needed?
    Secretary Bodman. The RRW program is needed to assure long-term 
confidence in the reliability of the nuclear weapons stockpile. An RRW-
based stockpile has the potential to significantly reduce the size of 
the country's nuclear stockpile while transforming the nuclear weapons 
complex into a smaller, more responsive enterprise.
    Specifically, the RRW program will enhance the security of nuclear 
weapons through the use of state-of-the-art technology to prevent 
unauthorized use by terrorists, rogue nations or criminal 
organizations; improve the safety of the stockpile through upgrades, 
such as the use of insensitive high explosives rather than conventional 
high explosives; help develop a more responsive nuclear weapons 
infrastructure by using replacement components and assemblies that are 
easier lo manufacture and maintain; exercise critical nuclear weapons 
design and production skills; enable a reduced stockpile size by 
increasing confidence in the infrastructure to produce weapons if and 
when they are needed; and decrease the likelihood that a nuclear test 
will be needed in the future to confirm weapon performance.

    [Whereupon, at 3:54 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
